<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2003</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                 DEPARTMENTS OF LABOR, HEALTH AND HUMAN

               SERVICES, EDUCATION, AND RELATED AGENCIES

                        APPROPRIATIONS FOR 2003

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION
                                ________
  SUBCOMMITTEE ON THE DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, 
                    EDUCATION, AND RELATED AGENCIES
                      RALPH REGULA, Ohio, Chairman
 C. W. BILL YOUNG, Florida           DAVID R. OBEY, Wisconsin
 ERNEST J. ISTOOK, Jr., Oklahoma     STENY H. HOYER, Maryland
 DAN MILLER, Florida                 NANCY PELOSI, California
 ROGER F. WICKER, Mississippi        NITA M. LOWEY, New York
 ANNE M. NORTHUP, Kentucky           ROSA L. DeLAURO, Connecticut
 RANDY ``DUKE'' CUNNINGHAM,          JESSE L. JACKSON, Jr., Illinois
California                           PATRICK J. KENNEDY, Rhode Island
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania
 DON SHERWOOD, Pennsylvania         
                   
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
       Craig Higgins, Sue Quantius, Susan Ross Firth, Meg Snyder,
             and Francine Mack-Salvador, Subcommittee Staff
                                ________
                                 PART 7A

               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 80-409                     WASHINGTON : 2002





                      COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)
 



 
DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2003

                              ----------                              

                                          Thursday, April 18, 2002.

   EDUCATION BUDGET; TITLE I; IDEA; 21ST CENTURY COMMUNITY LEARNING 
                                CENTERS

                                WITNESS

HON. ALBERT R. WYNN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Regula. We will get started this morning. We have a 
long morning, a lot of requests, I think. And, Mr. Wynn, you 
get to lead off today.
    Mr. Wynn. Well, thank you very much, Mr. Chairman. And good 
morning. I will try to move quickly. I would like to divide my 
testimony into two parts. First, I'll talk about three 
programs, and while they are very important to my district, 
they are important to every district in our country, 
nationwide. That would be Title I, the IDEA special education 
plan, and then the 21st Century Learning Centers.
    The second part of my testimony will focus on a few 
projects specific to my district that I want to apprise the 
committee of. We will, of course, be submitting specific 
detailed written requests, but I wanted to, as they say, get it 
on the radar screen.
    With that in mind, I would like to begin by talking about 
Title I, which is a very important program for disadvantaged 
students. About a third of the students in my school districts 
have schoolwide Title I programs. In fiscal year 2003, the 
House budget is $11.5 billion for 2002.
    I am pleased that the increase--obviously it is a 
significant increase, but nonetheless it is significantly below 
the $16 billion authorized for this program in the No Child 
Left Behind Act. So really what I am here to say with respect 
to Title I is I hope the committee will be able to move closer 
to the authorized level in the bill rather than the budget's 
figure that we----
    Mr. Regula. Depends on our allocation.
    Mr. Wynn. Exactly.
    Second, IDEA programs. Special ed, of course, is very 
important. Again, there is a significant gap between our goals 
and what we are currently looking at. I understand we are 
looking at approximately $8.5 billion in 2003, which would 
cover about 18 percent of the cost of these services. Some time 
ago, Congress made a commitment to provide 40 percent of these 
services. The thrust of my comments on special ed is simply 
this. The less the Federal Government pays, the more local 
governments have to pay, and that takes away from other 
education programs. And the consequences, I think, are pretty 
obvious there.
    Probably one of the programs dearest to my heart is the 
21st Century Learning Centers. We designated a need to provide 
programs for young people after school: academic programs, 
athletic programs, arts and crafts, cultural programs, personal 
development programs. And the fact is, we are basically flat 
funding this program. Substantially less than was authorized 
again in the No Child Left Behind Act which would be about 1.25 
billion as opposed to the $1 billion we are looking at.
    So those are the areas of concern that I have overall. And 
I realize you have great limitations. We are cutting about $90 
million out of the No Child Left Behind Act, including 28 
programs that deal with the problems such as drop-out 
prevention, particularly of concern to Hispanic and the 
African-American communities, rural education programs, as well 
as civic education, which is important in terms of rebuilding 
character among our young people.
    Having talked about these 3 areas that are important from a 
national perspective, I would like to talk specifically about 
my district. The first project dealing with an allocation that 
I will be requesting in writing deals with an allocation to the 
Prince Georges Community College. This request is based on the 
events of September 11th. Prior to that, the community college 
used facilities at Andrews Air Force Base. You are probably 
familiar with that.
    Well, that base also housed our local community college, a 
significant portion of it, not its entirety. Roughly a thousand 
students attended. A third of them were military personnel. The 
other two-thirds were not. And, as a result of some 
restrictions, there was a disruption. Classes resumed, but it 
is anticipated that given our current climate that this will 
not be a hospitable location for civilian community college 
classes. We will be submitting a detailed request to assist 
with off-site housing for the community college programs.
    Mr. Wynn. The second request is a program at Bowie State 
University, which is in our colleague Mr. Hoyer's district, 
adjacent to mine, which serves a large number of students from 
my district. It is a historical black college in Prince Georges 
County. We are looking to develop and design a bioscience 
training laboratory that will teach analytical technologies 
used to identify biological agents--obviously since September 
11th this is a major issue, particularly important to the 
Washington metropolitan area, given our location in relation to 
the terrorist threat.
    The university is close to Washington, D.C. And would be an 
ideal location. We have been providing the committee with 
details on that.
    The third project I wanted to--the specific project I 
wanted to bring to your attention from the Children's Rights 
Council. You may be familiar. They are promoting parenthood or 
parenting between divorced parents. One of the issues is the 
transfer of the children when there are cases of domestic 
conflict. We are going to ask for an additional 25 child 
transfer centers which provide supervised settings so that one 
parent can drop off a child at a neutral site and the other can 
pick up at a neutral supervised site.
    Actually in my law practice, I saw an unfortunate incident 
where a McDonald's was used and the McDonald's ended up being 
shot up because the two parents could not get along. Cars were 
crashed. It was quite a situation.
    But I think this is a worthwhile project. I hope you will 
give it full consideration.
    And, finally, we would like to secure funds for our high 
school debate program. A lot of emphasis is placed on athletics 
to help disadvantaged students. Academic reinforcement is 
obviously very important. But we would like to promote a high 
school debate program that would take a somewhat different 
focus and provide young people with the opportunity to engage 
in policy debate at the high school level. I think this would 
be a very worthwhile activity.
    Mr. Regula. Have you presented these in the order in which 
they are important to you? Have you prioritized? Because you 
know obviously we cannot do everything.
    Mr. Wynn. I am well aware of that. I have presented them in 
order of priority.
    Mr. Regula. So the way you have listed them in your 
presentation would be your priorities?
    Mr. Wynn. That is correct, sir.
    Mr. Regula. Thank you very much for coming.
    Mr. Wynn. Thank you very much for your indulgence, Mr. 
Chairman. Have a nice day.
    [The prepared statement of Congressman Wynn follows:

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    I don't think that we have another Member here. Here is--
okay. Welcome. You are on.
                              ----------                              

                                          Thursday, April 18, 2002.

          TRAUMATIC BRAIN INJURY ACT--HRSA, NIH, CDC; PROJECTS

                                WITNESS

HON. BILL PASCRELL, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
    Mr. Pascrell. Mr. Chairman, I want to begin by thanking you 
and the Ranking Member, who is not here, for dedicating so much 
time to hear public and Member testimony. I will provide the 
longer version to you, and I will go quickly through this.
    Mr. Regula. I appreciate that.
    Mr. Pascrell. An issue of utmost importance to me and many 
Members is the condition known as traumatic brain injury, Mr. 
Chairman. And we have done a lot of work in the last few years 
on a bipartisan basis along this line.
    Every year millions of Americans experience TBI, and about 
half of these cases result in at least short-term disability. 
It is about 80,000 people who sustain severe brain injuries 
leading to long-term disability. TBI is defined as an insult to 
the brain caused by an external force that may produce 
something as small as a concussion to impairing a person of 
cognitive abilities, physical functioning. It even can change a 
person's behavior, emotional function.
    I am very committed to this issue. And we formed, myself 
and Congressman Greenwood, a task force on the brain injured 2 
years ago. I wanted to bring to your attention three programs 
that were expanded in scope and responsibility by the TBI Act 
to urge you to fully fund at $36.8 million.
    The first program I would like to bring to your attention 
is the State grant program administered under the Health 
Resources and Services Administration. The TBI Act specifically 
directs States receiving grants to develop, to change, or 
enhance community-based service delivery systems for victims of 
TBI. I request for the State programs and the P&I programs to 
be funded at a total of 14.8 million.
    The second program you should be aware of, Mr. Chairman, is 
the CDC's effort to build on its work with State registries to 
collect information that would help improve service delivery. 
If we do not know who is out there we cannot--we do not know 
the depth of the problem.
    Since its inception for traumatic brain injury in 1996, the 
CDC program has continuously been underfunded at $3 million. 
Mr. Chairman, I am requesting a total of $3 million for CDC's 
expanded activities.
    NIH directs the National Center for Medical Rehab Research 
to launch a cooperative multi-center traumatic brain injury 
clinic trials network and fund five bench science research 
centers via the National Institute for Neurological Disorders 
and Strokes.
    I request support for $15 million for these existing 
programs at NIH. Those funds are sorely needed and will help a 
great percentage of the estimated 5.3 million Americans living 
with this disability as a result of traumatic brain injury.
    In addition to TBI, there are also two project requests. I 
will go through them quickly, Mr. Chairman. The first project I 
am here to ask you to support is the 21st Century Institute for 
Medical Rehabilitation Research. During the last cycle I asked 
for $3 million. Congress provided $350,000 of that amount, for 
which I am deeply grateful. I am here today to ask for the 
remaining funds if that is at all possible. One of the areas 
that could benefit from greater support is the field of 
rehabilitation medicine and research.
    Up until now this area has not seen the kinds of increases 
that many others have enjoyed, and the need remains 
substantial. One of the premier institutions in the country in 
the rehab research field is in my Congressional district. It is 
the Kessler Medical Rehab Research and Education Corporation. 
Kessler Rehab Hospital decided to create a new and unique 
effort in the United States. It is called the 21st Century for 
Medical Rehab Research. State of the art, Mr. Chairman. You 
would be very, very proud.
    My second request is for St. Joseph's Medical Center at 
Patterson for a total of $2,000,000, the first designated 
children's hospital and the administrator of the largest WIC 
program in the State of New Jersey. The $2,000,000 will allow 
the institution to continue to serve and assist the region's 
vulnerable pediatric population in 2 specific areas, pediatric 
emergency department and the pediatric intensive care unit. It 
is a vital urban safety net providing care for the region's 
uninsured and underserved.
    PICUs are crucial for the care of the region's pediatric 
patients, as evidenced by its receipt of 254 transports last 
year under agreements with New Jersey and New York hospitals.
    The children's hospital emergency department recorded 
30,000 pediatric visits last year. It is pretty outstanding.
    Mr. Chairman, I really appreciate your indulgence.
    Mr. Regula. I assume you have given the special requests in 
the order in which they have priority with the----
    Mr. Pascrell. I would be happy to answer any of your 
questions.
    Mr. Regula. Well, we probably will not have the ability to 
fund everything.
    Mr. Pascrell. Well, these are priorities, you know, and 
everything is a priority, nothing is a priority. You know that 
better than I do. These are three. I had about 8 or 9 of them. 
I hope you can respond in some manner, shape or form. I always 
trust your judgment and I will leave it at that.
    Mr. Regula. Thank you. Do you have the project 
questionnaire with you? If not, just get it to us.
    Mr. Pascrell. I think we did.
    Mr. Regula. Yes. Okay.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Regula. Next Ms. Woolsey.
    [The prepared statement of Congressman Pascrell follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, April 18, 2002.

                                PROJECTS


                                WITNESS

HON. LYNN WOOLSEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Ms. Woolsey. Wow, this chair is hot.
    Thank you, Mr. Chairman. This is a good opportunity. I 
understand that we do not have all of the money in the world. 
But again I am here to ask for education and health projects 
for the 6th Congressional District of California just north of 
the Golden Gate Bridge.
    Mr. Regula. I have been there.
    Ms. Woolsey. I know you have. You are usually there on the 
park stuff. Yes, and Fort Baker.
    Mr. Regula. What do you think of the rehab of Fort Baker? 
They are trying to get a contractor to do it.
    Ms. Woolsey. Right. They are going to make a good decision. 
We have gotten some good infrastructure money now from DOD for 
the rehab.
    Mr. Regula. I think it is a terrific asset.
    Ms. Woolsey. I know. I thank you for your interest. You are 
already familiar with Center Point, a nonprofit comprehensive 
drug and alcohol treatment center in my district. And Center 
Point is one of the very few drug and alcohol treatment centers 
nationwide that provides comprehensive social, education, 
vocational, medical, psychological, housing and rehabilitation 
services.
    Mr. Regula. We gave them a half a million last year.
    Ms. Woolsey. Right. They are here asking for $350,000 this 
year in order to----
    Mr. Regula. That is still your number 1 priority?
    Ms. Woolsey. It is my number 1 priority.
    Next, Sonoma State University is in my district. It is the 
only public 4-year university in the 6-county region north of 
the San Francisco Bay. It is a really good school that is doing 
great work.
    On behalf of Sonoma State, I am asking for $1 million from 
the fund for the improvement of post secondary education, 
FIPSE. And they need this for laboratory equipment for their 
master's program in computer engineering sciences. And it would 
be very useful to them and helpful if we could give them that 
funding.
    And I need to brag a minute about the Yosemite National 
Institute. The Yosemite National Institute conducts 
educational, rigorous hands-on environmental science programs. 
And they are in my district and elsewhere in California.
    When I first came to this subcommittee on Yosemite's behalf 
2 years ago, less than 10 percent of their students were from 
low income and/or minority families. But, with the help of 
Federal funds, Yosemite has been able to make these programs 
available to low income minority communities that have 
traditionally not had access to quality science-based 
educational education.
    Today almost 40 percent of Yosemite's students receive 
scholarships. That is why I support their request for $1 
million so that they can increase their outreach.
    Now those are good statistics for Yosemite and Center Point 
has got good statistics. But we have some really bad statistics 
in my district. And that is about the success rate in our fight 
against breast cancer in Marin County. Marin County is the 
district--well, you know all of that. Patrick, you know that, 
too, don't you?
    But Marin County has the highest rate in the Nation of 
breast cancer cases and deaths for Caucasian women. And that 
figure is increasing at an alarming rate, and we have no idea 
why. Half of the breast cancer cases in Marin County cannot be 
explained by known risk factors, by mothers and grandmothers, 
and having had breast cancer.
    And that is why I am asking for $1\1/2\ million from the 
Center for Disease Control to expand breast cancer research and 
health outreach programs in Marin County. We have twice already 
helped them, not--to almost a million dollars, but now they are 
ready to go with their project to find out what is going on.
    And then, finally, Mr. Chairman, we have another university 
in my district. This one is a private university. It is 
Dominican University. It used to be Dominican College. They are 
seeking Federal assistance, and we do not know the amount yet, 
for a center--to build a center for science and technology. 
Their center will teach teachers and nurses who will then be 
able to go into the hospitals and to the schools and expand our 
access to high-tech people so we do not have to go overseas and 
hire them.
    So that is the 6th Congressional District, a leader in 
meeting the health and education needs of the 21st Century, but 
needing help along the way. Absolutely a donor district in this 
country for taxes. I made a commitment to them that it is my 
job to make sure that they get some of something back.
    Mr. Regula. Is Center Point your number 1?
    Ms. Woolsey. Center Point is my number 1, continues to be 
my number 1.
    Mr. Regula. Mr. Kennedy, any questions?
    Mr. Kennedy. No. But thank you.
    Ms. Woolsey. Thank you. Thank you both. A part of something 
for all of it would be good. I mean, rather than have 
everything going to one program.
    Mr. Regula. You would rather divide it up?
    Ms. Woolsey. I would. Thank you very much.
    Mr. Regula. Well, we do not have any more members here at 
the moment. Good morning.
    [The prepared statement of Congresswoman Woolsey follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, April 18, 2002.

                CHILD ABUSE PREVENTION AND TREATMENT ACT


                                WITNESS

HON. JOHN B. LARSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
    Mr. Larson. Thank you, Mr. Chairman. I want to thank both 
you and Ranking Member Obey and the distinguished Members of 
the Subcommittee and my dear colleague, Patrick Kennedy.
    I am grateful for the opportunity this morning to bring to 
your attention the needs of the underfunded programs in the 
Child Abuse and Prevention and Treatment Act.
    I join with a host of sponsors from my district who have 
aligned themselves with the National Child Abuse Coalition to 
ask specifically that CAPTA receive an appropriation equal to 
its fully authorized amount, $70,000,000 for basic State 
grants, 66,000,000 for community-based prevention grants, and 
30,000,000 for research and demonstration grants.
    It is my hope that with this funding, we will be one step 
closer to ensuring the safety of our Nation's abused children.
    As I am sure you know already, Mr. Chairman, and Members of 
this committee, in 1999 the Department of Health and Human 
Services reported that child prevention services agencies 
received over 2.9 million reports of suspected child abuse and 
neglect.
    National incident studies found since 1988 all forms of 
abuse and neglect, sexual, physical and emotional, have risen 
at least 42 percent, while some individual types of neglect 
have risen over 300 percent.
    Unfortunately, funding for neither CAPTA nor the CPS 
agencies has kept pace with the scope of this problem, Mr. 
Chairman, which by way of anecdote, and I know that you are 
inundated all of the time with the numerous amounts of data and 
information, but I think for Members of Congress the most 
compelling thing is when we have people visit our office and 
have an opportunity to express their concerns. I was visited 
most recently by a dear friend, Eva Bannell, who is a child 
abuse victim herself, who like so many has only recently come 
forward and acknowledged this and is dealing in her own way 
with this concern. And yet she comes forward not so much for 
herself, but to be an advocate on behalf of children and to 
make sure that children in the future are spared the ravages 
and God-awful problematic things that she encountered having 
gone through what has got to be a horrific situation.
    I commend her. I thank her and the coalition for bringing 
this very important issue before you. I know, Mr. Chairman, you 
have many weighty things that you have to balance in the course 
of putting an appropriations bill together. But clearly the 
concern for the abused children in this Nation I know will take 
precedence in the Committee's deliberations.
    I have further written testimony that I would like to 
submit.
    Mr. Regula. It will be made part of the record.
    Mr. Larson. But I wanted for the record, especially when we 
have courageous people like Eva Bannell who come forward, are 
willing to both talk about their own experience, but do so not 
in seeking something for themselves, but clearly in wanting to 
be advocates to spare all children from what they have 
experienced. Thank you very much for the opportunity to appear 
before the Committee.
    Mr. Kennedy. Thank you, Mr. Larson. I have had the chance 
to also meet with Eva Bannell, who is an extraordinary woman, 
great advocate for her cause. Thank you for your work to be an 
advocate for this very important cause.
    Mr. Cunningham. Just a question. In San Diego the child 
protective services, we had a real bad problem. As a matter of 
fact, we had a court case that almost went a year against the 
Advocates Child Protective Services that they got overhanded a 
little bit and they were ripping children out when they really 
should not.
    Now I know there is a fine line. But have you had that 
problem?
    Mr. Larson. No. In fact, I think the importance of the 
moneys that we have been able to receive, for example, in the 
State of Connecticut with child protective services, the grants 
that we received have provided the moneys for the additional 
kind of training. And I think that is to your point, very 
important that the people that we have going in understand 
there is a very fine line here. And what that means is that 
they have to be trained appropriately, have the appropriate 
kind of education and counseling background and work to achieve 
that goal. But that has not been the experience in the State of 
Connecticut. In fact, we have been benefited tremendously and 
have been able to leverage the Federal dollars that we need 
these in instances, Duke.
    Mr. Cunningham. My daughter is up at New Haven, in Ms. 
DeLauro's district. She will tell you that she is an abused 
child because I do not give her enough money.
    Mr. Larson. Well, we will not report that.
    Mr. Cunningham. Thank you.
    Mr. Larson. Thank you, Mr. Chairman.
    Mr. Regula. Thank you. Mr. McNulty, we welcome your 
testimony.
    [The prepared statement of Congressman Larson follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, April 18, 2002.

                                PROJECTS


                                WITNESS

HON. MICHAEL McNULTY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. McNulty. Thank you, Mr. Chairman, Mr. Cunningham, 
Members of the Committee.
    Thank you not only for being on time, but being ahead of 
schedule. I know your time is precious. Mr. Chairman, I would 
like to submit my entire statement for the record and then 
summarize it, if that is okay.
    I am requesting some assistance for a variety of projects 
in my district and I will just go over them briefly. The 
Schenectady Family Health Services is an upstate federally-
qualified health care urban community health center. It is 
located in the City of Schenectady, New York. They are seeking 
to obtain a 2.1 acre property located on State Street in 
Schenectady, New York, to construct a new building that would 
not only house the core participants but also space for other 
agencies and programs that complement their core services.
    The Whitney Young Health Center, also a community health 
center located in the heart of my district in Albany, New York, 
is doing a massive renovation project.
    Mr. Regula. This is the same one that you had last year?
    Mr. McNulty. Both of those did receive some funding last 
year.
    On Whitney Young, Mr. Chairman, they have completed their 
phase one renovation project. I have seen it. It is serving a 
much larger clientele because of the fact that we have been 
able to expand their services. They do need to do a phase two 
expansion, and that is why I am asking for continued 
consideration for their project.
    Just one example, Mr. Chairman. On the HIV/AIDS program, 
there has been a 62 percent growth in that program at this 
particular facility from 1999 through 2001, and so I would ask 
some additional help for them as well.
    The Albany Medical Center in my district is not only a 
tremendous health care facility providing for the health care 
needs of hundreds of thousands of people, really throughout the 
capital region, they employ almost 6,000 people. So they are 
vital to our economy, too, and they are renovating and 
modernizing their trauma emergency department, and they are 
asking for some assistance in that regard. Their current 
facility, that part of their facility, the trauma unit, was 
originally built to accommodate 45,000 annual visits, and last 
year had over 63,000 visits. So they are really taxed to the 
maximum in that regard.
    Also, the Albany Medical Center is the only state-
designated trauma center in the 23-county Northeast region of 
New York State. So that whole portion of the State of New York 
is served by that facility.
    Excelsior College, which you helped us with in the past, 
also is a non-profit fully accredited institution of higher 
learning. It specializes in distance learning, and they are 
seeking funding for the establishment of a nursing management 
certificate program.
    Another project, Mr. Chairman, since 1990, the Institute 
for Student Achievement, commonly referred to as the ISA, has 
worked to keep at-risk kids in school and get them into 
college. We have a program run through ISA over in the Troy 
school district that has shown tremendous success in keeping 
at-risk youth in school and helping them graduate and getting 
them on to college. Over 96 percent of the students who have 
participated in the Troy program have graduated, and over 85 
percent of them have been accepted to college. So that has been 
a tremendously successful program.
    Union College is an independent liberal arts college that 
traces its origins back to 1779. In 1795 it became the first 
college chartered by the regents of the State of New York. They 
have designated a program to foster multi-disciplinary 
undergraduate science and engineering learning in research by 
integrating several traditional disciplines including 
engineering, physics, chemistry and computer science. I would 
like to help them to continue that program.
    Rensselaer Polytechnic Institute in Troy was founded in 
1824, was the first degree-granting technology university in 
the English-speaking world. They are establishing an IT 
corridor in the capital region of the State of New York 
anchored by their incubator program and their technology park, 
which incidentally, Mr. Chairman, has been helped before by you 
on other committees.
    They took a vacant tract of land in the town of North 
Greenbush, just adjacent to Troy, and established the 
technology park, which--so there was just nothing there 20 
years ago, and today is the home of 2,500 new high-tech jobs. 
So it has been the largest source of private job development in 
the capital region in the State of New York in the last 20 
years, so I want to help them as well.
    And finally, the Sage College is also a comprehensive 
institution of higher learning, has three components in my 
particular area, in Troy and at University Heights in Albany. 
The college has made a $12.5 million commitment to its 
facilities improvement, and I would like to help them continue 
in that regard.
    Mr. Chairman, I would like to say to you that I know this 
is a pretty comprehensive list. I know that the resources 
available to you are very tight. And I would point out that 
each and every one of those projects is getting funding from 
other sources and from private sources and so on, and I would 
like to work with the Committee to try to get some measure of 
funding to help each one of them just progress.
    Mr. Regula. Have you prioritized these?
    Mr. McNulty. I have in my testimony. I might want to work 
with the staff a little bit more, prioritizing a little bit 
more.
    Mr. Regula. You may want to spread it around a little, too.
    Mr. McNulty. We will work with you.
    Mr. Regula. Thank you for coming. Mr. Cunningham, any 
questions?
    Mr. Cunningham. No real questions. Like Mr. Kennedy said, 
it is always good to see him. It is good to see Members come up 
and fight for these kinds of programs for kids in the inner 
cities.
    Mr. McNulty. Thank you.
    Mr. Regula. Thank Patrick for his consideration as well as 
all of the Members of the Committee.
    Thank you.
    Mr. Sherman, we welcome you. We are looking for Members. 
Since you are here, we will put you on.
    [The prepared statement of Congressman NcNulty follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 18, 2002.

                                PROJECTS


                                WITNESS

HON. BRAD SHERMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Sherman. I have been in Congress 6 years. This is the 
first time anything has been early. I am amazed.
    Mr. Regula. Well, we start on time.
    Mr. Sherman. Chairman Regula, Members of the Committee, I 
am here to support two projects that are important to my 
district. Both of them involve innovative programs to provide 
high technology that will equip students for jobs of the 
future.
    The first is at a high school, the second at a college. 
HighTechHigh School, Los Angeles, is seeking $750,000 for in-
school improvement programs. This is an opportunity to leverage 
local funds in order to provide technology training. It is, in 
effect, a high school inside of Birmingham High School. It will 
serve predominantly disadvantaged and minority students.
    The $750,000 in Federal funding would be used to wire the 
school to accommodate powerful multi-user networked computers, 
and to fund acquisition of necessary computer technologies and 
provide comprehensive training to teachers and other personnel. 
This high tech high school will use an innovative project-based 
curriculum that I think may become a model for high-tech 
education at the high school level around the country.
    The local funding has already allowed us to complete 
architectural facility designs. We have raised $5.2 million 
from State and local and private sources. We have completed 
recruitment and the organization of teams to do the work and 
developed an innovative curriculum. And with these 
accomplishments completed, we will be able to implement and 
test curriculum perhaps as early as the fall of 2002, 2003 with 
the group of 9th and 10th grade students attending Birmingham 
High School and acting as a magnet bringing in students in from 
all over the Los Angeles area.
    The high tech enrollment will be 350 students and, as I 
mentioned, will be serving as predominantly minority and 
underserved students who face the greatest difficulty in 
preparing themselves for the high tech jobs of the future.
    We are asking, as I said, for $750,000. I am trying to hit 
just the high points of my testimony and expect that the entire 
testimony will be made part of the record.
    The second program is an engineering technology program at 
California State University, Northridge. We are seeking 
$1,000,000 from the Fund for the Improvement of Post-Secondary 
Education. I do not have to tell Mr. Cunningham how effective 
the California State University system is. And it is indeed 
well represented by its campus in my area in Northridge.
    We are seeking $1 million to provide a 50 percent match in 
the start-up costs of a new entertainment engineering 
curriculum. People know that the entertainment industry is the 
lifeblood of Los Angeles. But there is an image that it is all 
glitzy Hollywood actors. No. It is the people behind the 
scenes. And it is increasingly a part of the high tech industry 
of this country, and we need to provide the educated people for 
that industry to do the high tech, keeping in mind that this is 
one of the largest export industries of the United States and 
is important for creating not always beneficial, but, I think 
on balance, beneficial images of this country around the world.
    Clearly, if this is the American century, it will be viewed 
as such because of what the entertainment industry has done and 
will do.
    The Federal funds are requested to assist with the 
acquisition of high technology equipment, software, network 
expansion, and the integration to link the expertise of the 
College of Arts, Art Media and Communications, of Business 
Administration and Economics and Engineering and Computer 
Science, bringing together three schools at the California 
State University at Northridge.
    In the last decade, as I have said, the entertainment 
industry has been revolutionized through technology. These are 
the jobs not for the rich movie stars, but for the work-a-day 
people that make this industry. We have seen this technology in 
Shrek and Toy Story and in other films that do not seem to be 
high tech, but have high tech special effects.
    This is a one-time earmark of $1 million which would enable 
the University to develop and utilize the convergence of 
technologies for mechanical engineering, computer science, art 
and theatre, to prepare an educated and highly trained work 
force for this important industry.
    The Entertainment Industry Institute that this program 
would support already has more than 50 industry partners who 
enthusiastically embrace the initiative and have supported this 
undertaking with funding and with in-kind contributions.
    I urge the subcommittee to accommodate this effort by 
providing $1 million of funding. The University believes that 
the total cost will approach $4,000,000, and is confident that 
in addition to the funds it has already put together that it 
can fund the balance of that cost.
    I thank you for your consideration.
    Mr. Regula. Questions?
    Mr. Cunningham. Just I would say, Brad, the gentleman from 
California, excuse me, my daughter is up at UCLA in graduate 
school, and I would tell the Chairman that California is a 
donor state both in transportation and education where you have 
shortages of funds in Title I with hold harmless, these other 
programs that Brad is talking about, that in the inner cities, 
like many of the inner cities, we are trying to attract jobs. 
This is not what he is talking about, the technology is not in 
the center of Hollywood where the glitz is. This is out in the 
areas where we are trying to attract jobs for different people. 
And I think what he is trying to do is noteworthy, bringing 
those kind of jobs, and long-lasting jobs. Also the economy in 
California which is in about a $17 billion deficit right now. I 
thank the gentleman.
    Mr. Sherman. Thank you for your support.
    Mr. Regula. Further questions? If not, thank you for 
coming.
    Mr. Langevin.
    [The prepared statement of Congressman Sherman follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 18, 2002.

                STEM CELL RESEARCH; DISABILITY PROGRAMS


                                WITNESS

HON. JIM LANGEVIN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF RHODE 
    ISLAND
    Mr. Langevin. Well, good morning. I would like to thank 
Chairman Regula and Ranking Member Obey and all of the Members 
of the panel, particularly if I could recognize my senior 
colleague from Rhode Island, and all of the work that he is 
doing for his district and our State.
    Mr. Regula. You are the only two from Rhode Island, right?
    Mr. Langevin. The entire delegation.
    Mr. Kennedy. That makes me the dean.
    Mr. Langevin. We are always proud when the entire Rhode 
Island delegation can show up. It impresses a lot of people.
    I also thank all of the Members of the panel for taking the 
time to listen to us and discuss a range of policies and 
programs deserving your consideration. I do not envy the task 
before you. You are forced to choose appropriate funding levels 
for countless and valuable and competing programs.
    Today, I would like to address two issues, stem cell 
research and disabilities programs. Since last summer, I have 
championed stem cell research. I urge Congress to take the lead 
in eliminating the August 9th cutoff date on embryonic stem 
cell research.
    Since then, numerous stem cells derived from excess frozen 
embryos have been discarded when they could have been added to 
the NIH stem cell registry and used to save, extend, and 
improve countless lives. The decision to ignore this valuable 
resource after August 9th is tying the hands of America's most 
talented scientists, while unnecessarily risking the potential 
loss of life.
    Another untapped resource is umbilical cord blood stem 
cells. 99 percent of cord blood is treated as medical waste 
presently. While I applaud the work of the National Marrow 
Donor Program, which is facilitating stem cell transplants to 
patients, I would like to see the same vigor drive the adult 
stem cell and embryonic stem cells research applied to 
umbilical cord blood stem cell research as well.
    Moreover, more research demonstrates the value of these 
cells. The creation of a federally-supported umbilical cord 
blood bank to store, register, and manage the distribution of 
these stem cells may eventually be the most appropriate step to 
insure their proper utilization.
    In the meantime, I would like to see Congress eliminate the 
August 9th cutoff date and encourage more umbilical cord blood 
stem cell research. To turn what was once ignored into a 
resource for lengthening and improving and enhancing life is an 
option that we must embrace.
    I believe this also applies to various programs for people 
with disabilities. As you know, last year I advocated funding 
for President Bush's New Freedom Initiative. I am back again to 
advocate for more. In the written testimony that I have 
submitted to the Subcommittee, I listed several programs I 
would like to see funded by the Appropriations Committee.
    I know my time is limited so I will just mention three that 
could help better integrate the 54 million people with 
disabilities into society in helping them to lead more active 
and productive lives.
    First, the President's budget includes $20 million for the 
rehabilitation engineering research centers which conduct some 
of the most innovative assistive technology research in the 
Nation, helping bring those technologies to market and provide 
valuable training and opportunities to individuals to become 
researchers and practitioners of rehabilitation technology.
    Second, while research is important, it serves little use 
if people cannot afford the resulting technologies. The budget 
requests $40 million for States to establish low interest loan 
programs to help individuals with disabilities purchase 
assistive technology, which can be prohibitively expensive.
    Finally, the President's budget also attempts to break down 
physical barriers. As some of you know, I have led an ADA 
working group over the last year to develop ways to strengthen 
Title 3 requirements that all public accommodations be 
accessible when readily achievable, while also assisting small 
businesses in making such adjustments easy and as inexpensively 
as possible.
    The budget includes $20 million in competitive grants for 
improving access initiatives within the Community Development 
Block Grant program to help ADA-exempt organizations, including 
private clubs and religious institutions, make their facilities 
accessible.
    Turning challenges into opportunities is my motto for life. 
Eliminating the August 9th embryonic stem cell research cutoff 
date and accelerating umbilical blood bank research would save 
and enhance many lives, and funding these disability programs 
will enrich all of our lives.
    Mr. Chairman, I want to thank you and the Members of the 
Committee for your time this morning.
    Mr. Regula. Thank you. These are different than you had 
last year. You had cancer prevention last year, I guess you had 
requested.
    Mr. Langevin. That is right. Yes, sir.
    Mr. Regula. Any questions?
    Mr. Kennedy. None. Thank you. Thank you, Mr. Chairman. Let 
me just say I am so proud to have Jim in Rhode Island's 
delegation. He is a fantastic advocate on behalf of stem cell 
research, as you know. He made a number of the Sunday morning 
talk shows, national shows last year talking about stem cell 
research, has really made this a real priority. And I am really 
proud that he is in our delegation advocating for something 
that is going to prove to be a real success for millions of 
Americans.
    Mr. Hoyer. Mr. Chairman, you were not here when Christopher 
Reeve testified. But, in my opinion, if we have the courage to 
allow scientists and researchers to pursue the kind of research 
of which Jim Langevin is talking, in the not too distant future 
Jim Langevin is going to walk into our committee room and be 
able to testify.
    The possibilities that exist to regenerate nerves is an 
incredible breakthrough. But it will require courage for us to 
stay the course. There will be some who, as they have through 
history, have said, well, we ought not to go down that road. I 
understand the complexity and the controversy. But Jim 
Langevin, Christopher Reeve and others who have had nerve 
damage and therefore cannot communicate with their legs the way 
you and I can, or their other limbs the way you and I can, have 
the possibility to have that restored, which is an incredible 
opportunity. Not just for Jim Langevin or Christopher Reeve, 
but for literally hundreds of thousands and millions of people 
who will be even more productive.
    Now it is hard to think, Patrick, how Jim Langevin can be 
more productive than he is now, because his motto is that he 
overcomes challenges, and he has done an extraordinary job. 
What a compelling example he is for so many people who are 
challenged in America.
    Jim, we are just so proud of you, and we want to keep the 
faith with you. Assistive technology. We are going to try to 
reauthorize that. Jim Langevin and I will be circulating--
Patrick, I think you are on that Dear Colleague, trying to get 
everybody focused on that. Buck McKeon has been helping us. But 
in the final analysis, what we want to do is not need assistive 
technology, and that is what we are talking about with some of 
this research.
    So, Jim, thank you for all you do and thank you for the 
example you set for all of us in terms of your courage and 
commitment and incredible good spirit. Thank you.
    Mr. Regula. Thank you. Thank you for being here.
    Mr. Sanders, I think that we have time to get yours in. We 
have two votes. We have a 15 and a 5, the second one.
    First is the journal and the second is the Ag bill 
instructions.
    [The prepared statement of Congressman Langevin follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                          Thursday, April 18, 2002.

          DENTAL CARE; NATIONAL COMMUNITY HEALTH CENTER SYSTEM


                                WITNESS

HON. BERNARD SANDERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VERMONT
    Mr. Sanders. I will be brief. Mr. Chairman, there are two 
issues that I wanted to touch on dealing with health care. A 
year ago, in Montpelier, Vermont, I held a hearing on the 
crisis in dental care in our State. It turns out I had not 
realized it, but we are looking at a severe dental crisis all 
over this country.
    In the largest city in the state of Vermont, which, by the 
way, does better than most States, there are kids today whose 
teeth are rotting in their mouth, who are low-income kids whose 
family is on Medicaid. They cannot find a dentist who will 
treat them because reimbursement rates are too low.
    But what I am proposing, we are going to introduce a bill, 
a kind of a comprehensive bill on dental care. We are not 
educating enough dentists now. For every three dentists who 
retire, two dentists are graduating dental school.
    The long and short of the crisis that exists rurally and in 
urban areas affects minorities, affects low income people. I 
think this shortcut to make care available for lower income 
people is to adequately fund federally-funded health clinics 
all over this country.
    Okay. The FQHCs, the look-alikes, the rural health clinics, 
et cetera. As a matter of fact, our new FQHCs are required to 
have dental clinics. They do not have the adequate funding that 
they need. So without going into all of the details, I hope--
right now if you were to call up the Government, the 
administration, say who is your dental guy who will tell me the 
problem in Ohio, there ain't nobody there.
    So I would appreciate if you would raise the issue of the 
crisis in dental care which especially affects the children, 
and let's see if we can move and put some money into that. I 
would put the money into dental clinics right now. There is 
some thought that we can put some money into the Head Start 
Program for some demonstration programs. Early hygiene for the 
little kids is extremely important.
    So my first message is please do something about dental 
care in this country. We can talk about some of the details 
later.
    The second issue I want to touch on, and I know the 
President actually is moving forward on this, I would move 
forward more aggressively, is again the issue of community 
health centers all over this country.
    September 11th told us, and I think no one disagrees, that, 
God forbid, think of what one letter to Senator Daschle did to 
this country. What happens if 500 letters go out around this 
country. Nobody believes that we have the public health 
infrastructure to address that. Panic. Millions of people 
needing doctors on the same day. Where do I get my antibiotics 
and so forth and so on.
    No one thinks that we have the capability of addressing 
that. Community health centers--you tell me and I agree, more 
money is going into the community health centers. Let's put 
more money in there. Let's get a community health center in 
every community in America. It will do two things. It will 
protect us in the event of a national emergency, and also it 
will go a long way to solving the crisis in primary care 
access.
    I would urge you to go higher than the President. Fund 
these things for national security, as well as health care in 
general.
    [The prepared statement of Congressman Sanders follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. I like those myself. Because it 
relieves your emergency rooms, and it gives access to others 
who may not get that.
    Mr. Sanders. It is cost-effective.
    Mr. Hoyer. Bernie, I agree with you on all of the points 
that you raised. Number one, I have always found it--and my 
wife, Judy, found it very ironic that the only dental program 
we have for young people is for baby teeth. That is in Head 
Start. There is a dental requirement, as you know, in Head 
Start, but at no other level do we require. So if you lose your 
baby teeth, you are out the door.
    Secondly, I have a bill that I want you to help me co-
sponsor, and I would like to get involved with yours as well. 
That deals with--and we have had it in before, medically 
necessary dental expenses being covered under Medicare, because 
the medical community says there is a direct nexus between lack 
of dental health and myriad other physical things covered by 
Medicare. So we do not involve ourselves with the cheaper, we 
wait until it gets more critical.
    I will talk to you about that bill. We have been fighting 
that and the cost--ironically, one of the problems we have had 
is the CBO's cost note on that which seems to be expensive 
until you compare it with what you have prevented.
    Mr. Sanders. Right. Thank you. Those are the two issues.
    Mr. Kennedy. I have 25,000 kids in my State whose teeth are 
rotting out, and actually one of my priorities and earmarks 
this year among the Committee is to get one of those clinics 
funded in one of my poor cities. So it is the same thing that 
all of my people are telling me, too.
    Mr. Regula. I think they are very important. One thing we 
need to do is to get local officials to be more interested in 
participating. I have had that problem. Of course, their 
budgets are constrained, too. But I agree with you.
    Thank you for coming.
                              ----------                              

                                          Thursday, April 18, 2002.

             NURSE SHORTAGE; COMMUNITY ACCESS PROGRAM; CDC


                                WITNESS

HON. LOIS CAPPS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. We will put your full statement in the record 
and in the meantime you can give us the highlights.
    Mrs. Capps. Mr. Chairman, I am honored to be coming before 
you.
    Mr. Regula. Let me ask you. I see you are going to be 
talking about nurse shortage.
    Mrs. Capps. Yes, I am.
    Mr. Regula. A friend of mine who is a psychologist at a 
school where they educate nurses said one of the big problems 
we are losing nurses is because of stress.
    Mrs. Capps. That is a piece of it. It surely is.
    Mr. Regula. In fact she is going to testify next week about 
the impact of stress on retention of nurses.
    Mrs. Capps. There are many factors in the workplace that do 
affect the job, and health care is stressful at best and with 
changing delivery system.
    Mr. Regula. I have a suspicion that the doctors turn the 
stress part over to the nurses.
    Mrs. Capps. Do you think that is what happens? The nurses 
would like to hear that.
    Mr. Regula. Okay.
    Mrs. Capps. My written statement is entered into the 
record; so I will just briefly touch on some of the pieces of 
it. You acknowledge that there are many factors having to do 
with the shortage and anecdotes give you a good snapshot of it. 
The piece that I am attending to is the aging nursing work 
force and the dwindling supply of new nurses, the supply/demand 
part of it and focusing on the education piece of that.
    The shortage ironically, and I think adding to the stress, 
if you will, is going to peak just as the baby boom generation 
begins to retire. They are talking about a couple of us looking 
at each other, and we need to increase the resources that the 
Federal Government devotes to recruiting, educating and 
retaining nurses.
    Professions have cycles of supply and demand. This one has 
earmarks of having a crisis attached to it if we don't address 
it. The events of the September 11 and recent spate of anthrax 
letters remind us that nurses are the backbone of the public 
health system and we need to make sure there are enough nurses 
to deal with any eventuality, and this Subcommittee can help by 
increasing funds for the Nurse Education Loan Repayment Program 
by $10 million and the Nurse Education Act Program by $40 
million. That is our suggestion.
    I hope you can set aside some funds for programs included 
in the Nurse Reinvestment Act that we hope is going to be 
enacted into law this year. The House bill authorizes such sums 
as are necessary, the Senate bill authorizes $130 million, and 
those two bills are now at the conference stage. So it would be 
wonderful to have some moneys available when that is signed 
into law.
    Other programs, I hope you will include funding for the 
Community Access Program, the CAP. This program helps 
communities coordinate public and private efforts to provide 
medical care to the underinsured and the uninsured. These are 
big topics as well, and I hope the Subcommittee will maintain 
or increase funding for the chronic disease programs at the 
Centers for Disease Control and Prevention, the CDC. According 
to CDC, chronic diseases account for 60 percent of our Nation's 
health care cost and 70 percent of all deaths in the United 
States.
    So that is my testimony and I thank you very much for 
allowing me the time to present it to you.
    Mr. Regula. Well, I think you have touched on two 
challenging problems, community access and the nurse shortage, 
and now is the time when we should be thinking about addressing 
these.
    Mrs. Capps. Thank you very much.
    Mr. Regula. Thanks for coming. Susan Davis.
    [The prepared statement of Congresswoman Capps follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 18, 2002.

                                PROJECTS


                                WITNESS

HON. SUSAN A. DAVIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mrs. Davis. Good morning. Thank you, Chairman Regula. I 
wanted to thank you as well for the help for San Diego in the 
appropriations last year. As you know, we were able to fortify 
many of those nursing programs and expand some of the services 
in our emergency rooms, and I can assure you that the 
communities feel well supported and are moving forward in that 
area. We also had some proposals to eradicate tuberculosis in 
the San Diego area as well, and that has been very helpful to 
us.
    The areas that I would like to focus on today revolve 
around the expansion of the family health centers of San 
Diego's Logan Heights Clinic. This is an area that has been 
underserved for many years. It provides comprehensive care 
services to low income, medically underserved population. In 
1970, they began with just one clinic and that health center 
serves several locations throughout San Diego and provides 
medical assistance to over 600,000 uninsured individuals now.
    What I am requesting is $1 million to expand the Logan 
Heights Center, which has a main clinical side and 
administrative offices for Family Health Centers of San Diego. 
There has been major growth in utilization in that area, and 
really it is bursting at the seams. This funding will help 
increase its ability to serve approximately 300,000 patient 
visits and it is fulfilling the commitment of the President to 
expand the National Community Health Centers System.
    There are other requests that we have as well. The 
Children's Hospital and Health Center Regional Emergency Care 
Center; I am requesting $4.5 million from the Health Research 
and Service Administration Health Care Construction Program to 
help expand the Regional Emergency Care Center operating rooms 
and specialty clinics at Children's Hospital in San Diego. And 
I know as a long timer in San Diego that our Children's 
Hospital certainly has provided the most unique services for 
children of the region.
    Mr. Regula. Excuse me. Do they train pediatricians?
    Mrs. Davis. They certainly use and have residents from UCSD 
and other universities in the region.
    Mr. Regula. It is a Children's Hospital?
    Mrs. Davis. Yes.
    Mr. Regula. You put extra money in for the Children's 
Hospital that do pediatric----
    Mrs. Davis. Yes, it certainly does that, and it really 
serves the entire region now, which we think it is very 
special, but what they need is better help and support in the 
Emergency Care Center there, and that is what we would be 
looking for. It really has been impossible for them to keep 
pace with the demand, and that is why if we can provide this 
more specialized pediatric care there and expand that, it will 
be of great benefit to all of the children in the area.
    The other request is in the area of education, and I know 
you focused on nursing shortages and trying to increase and 
certainly reach out to the community and let them know how 
critical this is. Our University of San Diego's Health Service 
Program in continuation with the Hahn School of Nursing there 
is doing just that, and what we are requesting is additional 
funding for the outreach in the nursing program but also to 
provide for the kind of critical nursing skills that are needed 
to help and support many of our special needs patients in the 
area.
    I think with these three modest proposals that we will be 
able to answer some critical needs in the region and help it 
serve as it has been, a beacon for communities throughout the 
area.
    Mr. Regula. Is the city helping the community health 
centers? Are they mostly county, city----.
    Mrs. Davis. The county is certainly doing that. I think we 
have developed a good----.
    Mr. Regula. And it serves the whole county then?
    Mrs. Davis. Yes, absolutely. But these particular services 
really serve as a magnet for people throughout the region, 
which is from the border with Orange County and down.
    Mr. Regula. Thank you very much.
    Mrs. Davis. Thank you very much.
    [The prepared statement of Congresswoman Davis follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 18, 2002.

                            IMPACT AID; NIH


                                WITNESS

HON. MARK STEVEN KIRK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Regula. Mr. Kirk.
    Mr. Kirk. Mr. Chairman, good morning. It is good to see you 
here following in the footsteps of my predecessor.
    Mr. Regula. Big shoes to fill, but we have had an 
interesting challenge.
    Mr. Kirk. No, you have done it and I commend you on last 
year's bill which was like a battle royale, and as I remember, 
it turned out to be very, very good.
    Mr. Regula. It went pretty well.
    Mr. Kirk. Yes. I will be doing whatever you want me to do 
to get to 218 no matter what the weather is like.
    Mr. Regula. If I can just persuade Mr. Tauzin, I will be 
in----
    Mr. Tauzin. That is enough kissing up.
    Mr. Kirk. I have come here basically on two points, and I 
ask unanimous consent to include my statement in the record. 
The key point that I want to raise is on two programs.
    One is Impact Aid. Since our country is now at war, I can 
tell you from the position of the cockpit, as you go into 
combat, and there are men and women now both flying over 
Afghanistan and Iraq this morning, about the quickest way to 
take your head out of the shed, as they say, is to have 
problems at home with your kids' schools. Everybody on these 
deployments, both the four carriers we have in the Arabian Gulf 
and the Incirlik deployment, those are unaccompanied tours. So 
your spouse and kids are back home, and no doubt they are on 
base, in housing, most likely they are in a local school.
    You did a hell of a job last year for Impact Aid. I have 
got to thank the Committee for what you did, and I am here 
simply in support of the President's request on Impact Aid in 
the future, and I want to tell you what the impact is on two 
school districts that I represent. In Highland Park, Illinois, 
my hometown, we have got 267 military kids in school. The 
Impact Aid Program kicks in 616 bucks and the State kicks in 
220 bucks, but our average cost per pupil is $10,600. So the 
local taxpayers of Highland Park basically have to fund 90 
percent of the cost of educating these military kids.
    In our elementary school District----
    Mr. Regula. Great Lakes, I assume.
    Mr. Kirk. This is Great Lakes.
    In our elementary school district, you have to have more 
than 3 percent Impact Aid kids to get any Impact Aid funds. So 
we are at 2.9 percent. So we have got 60 kids in school, each 
at a cost of about ten grand, zip from the Federal Government, 
and we can't tax the housing there. So that is basically a 
million out the door with no resources.
    So it is simply to underscore the point that not only is 
this important to six school districts around the country, but 
if you are sending your kid to a financially strapped school 
district like District 187, North Chicago, which has about 
3,000 military kids in it, about the fastest way to get my head 
out of Afghanistan or Iraq is to get an e-mail from back home. 
You know all the ships are loaded up with e-mail, everybody is 
on hotmail accounts, saying we just had canceled PE and art and 
other extracurriculars at school and I don't know what I am 
doing with my kids back here. What are you doing over there? 
And you know in an aircraft carrier it is four acres, probably 
the most dangerous. The average age on an aircraft carrier is 
20 and a half and you are dealing with high explosive ordinance 
and having planes take off and land on the same little place, 
and if I just got an e-mail back home saying there is chaos in 
the school district--and your program funded with this bill is 
a huge way we can keep people's heads focused on the mission. 
That is point one.
    Point two is we just founded and I am head of the Kidney 
Caucus, and we have a growing crisis and I think Chairman 
Tauzin can back this up. You know the End-stage Renal Disease 
Program is the most expensive in Medicare. The primary focus of 
this caucus is keeping people out of the ESRD Program to save 
Federal money. We know that most people go into a dialysis 
center and they end up in that total roller coaster, and you 
know Ms. Helen in the Republican cloakroom there?
    Mr. Regula. Yes.
    Mr. Kirk. She is now on dialysis.
    Mr. Regula. Helen.
    Mr. Kirk. Yes, and this is a disease that more affects 
African Americans than anyone else; so it is a particular 
concern in that community. Most people on hemodialysis. Three 
times a week they go on that emotional roller coaster. Ms. 
Helen is in the middle of that right now.
    There is another treatment, peritoneal dialysis, which is 
only about 10 percent of patients, but we know that if we 
properly counsel these patients as they go into this that half 
of kidney patients would be in peritoneal dialysis, doing it at 
home and doing it on a daily basis rather than hemodialysis. I 
think it is an important point to raise.
    Secondly is that the data is fairly clear that if you are 
an African American hypertensive diabetic you are on the road 
to kidney disease. We have got 40 million at risk, 160 million 
Americans showing tendencies in that direction. Directing NIDDK 
and other resources of this subcommittee for an effort to 
prevent as many Americans as possible from entering the ESRD 
program I think saves Federal dollars and improves the quality 
of life.
    Mr. Regula. What is the solution? What should we be doing.
    Mr. Kirk. Probably the best, biggest solution is making 
sure that we educate patients that they have a peritoneal 
dialysis option which allows them to stay out of the dialysis 
center, doing it at home daily. They will be in better moods, 
have higher health status and at lower cost.
    Mr. Regula. Is this a mechanical device or----
    Mr. Kirk. Yes. Basically it uses the peritoneum to flush 
the waste----
    Mr. Regula. The patient can administer?
    Mr. Kirk. They do. And the way Medicare is structured and 
the way it pays, it dramatically encourages hemodialysis. In 
Europe, where there is not a financial incentive for 
hemodialysis, we have about half of patients on peritoneal 
dialysis.
    Mr. Regula. Would this be a statutory----
    Mr. Kirk. I am more modest in just having Federal education 
and encouragement. A lot of this is in the phrenology community 
of not really understanding all of the benefits therein, and 
everybody is basically directed towards the massive 
hemodialysis.
    Mr. Regula. Does a reimbursement program of Medicare, 
Medicaid----
    Mr. Kirk. Yes.
    Mr. Regula [continuing]. Prejudice in that direction?
    Mr. Kirk. Yes. So we get what we pay for.
    Mr. Regula. Did you talk to Ways and Means, Bill Thomas? A 
change in the statute is in order.
    Mr. Kirk. It is. And I think just at NIH, the concern of 
this committee is education, making sure we are getting the 
word out, and then also to make sure that we are really looking 
at hypertension and diabetes as precursors to kidney disease, 
with the goal--and I know this doesn't save money in your bill, 
but even so you are just as interested as everyone else in 
saving the taxpayer money, of keeping them out of ESRD, and 
that is the message here.
    So with that, I thank you and thank you for your support on 
Impact Aid.
    [The prepared statement of Congressman Kirk follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. The President of--was it Northwest in your 
district?
    Mr. Kirk. That is right.
    Mr. Regula. Are you strongly supportive of his request?
    Mr. Kirk. I am and I think that is a good, solid proposal 
that he has got.
    Mr. Regula. Okay. And on the Impact Aid, is this 
requirement that there be over 3 percent?
    Mr. Kirk. That is an authorizing committee issue. The 
program itself doesn't cover all the costs and that is not 
before this committee. I am just urging you to support the 
President's request. You did a great job last year and this is 
a program that has not received a lot of attention but because 
of the war should receive more attention because it keeps 
everybody focused on the mission.
    Mr. Regula. Okay. Thank you.
    Mr. Kirk. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Evans was here.
    Mr. Tauzin. No problem.
    Mr. Regula. Okay.
                              ----------                              

                                          Thursday, April 18, 2002.

                      PARKINSON'S DISEASE RESEARCH


                                WITNESS

HON. LANE EVANS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Evans. Thank you, Mr. Chairman. I appreciate the 
opportunity to testify before you today. I would like to start 
out by saluting this committee for strong support of 
Parkinson's disease research. Through funding for the Morris 
Udall centers and funding for NIH's 5-year Parkinson's research 
agenda, this committee has ensured advances in the treatment 
and taken us closer to a cure.
    The value of federally funded Parkinson's research is many 
fold. Breakthroughs will not only benefit the 1 million 
Americans suffering from Parkinson's disease, but it will give 
researchers much greater insight into other neurological 
illnesses.
    The time is ripe for investments in this research. 
Scientists believe that Parkinson's disease could be cured in 5 
to 10 years. They have good reason to be optimistic. The pace 
of discovery has been astonishing. Just last week reports of a 
Parkinson's patient who nearly had all of his motor ability 
restored following an adult stem cell transplant gave hope to 
Parkinson's patients every year and spurred further research 
into harnessing the brain natural ability to restore cells.
    NIH recognizes the need to be close at hand and has 
responded to developing the 5-year research agenda. This report 
outlines the plan for development of more effective disease 
management techniques and even a cure. With this comprehensive 
plan and the expertise and science at NIH, a cure is sure to 
follow. The only question is how quickly. The answer lies in 
the willingness of this Congress to provide the funding 
necessary for a cure.
    I am requesting that this committee fully fund the third 
year of the Parkinson's research agenda in fiscal year 2003, 
which calls for $353 million dedicated to Parkinson's research. 
The funding for the third year plan represents $197.4 million 
increase over the baseline spending of $155.9 million in fiscal 
year 2000. This level of funding will allow NIH to continue to 
conduct research that is going to lead us to a cure, we 
believe.
    I thank you for this opportunity to testify. As a 
Parkinson's patient, I can attest to the hope that every 
discovery brings and the Parkinson's community's appreciation 
for this committee's work that has been done. We know that with 
a strong federal commitment, that pace of discovery will 
continue at the rapid clip we have seen over the past few 
years. I urge to you build on the strides made in the first 2 
years of this plan, and I ask you to fully fund the third year 
of the research agenda.
    Thank you, Mr. Chairman.
    [The prepared statement of Congressman Evans follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Thank you. And it is a difficult problem, but I 
think they are making progress on it and the testimony we have 
had from the NIH people would indicate that there is on the 
horizon a chance for success. I know that we have had 
individuals in my district who have come to testify and they 
are very strongly in support of continued research.
    NIH is well-funded. We will be giving them a very 
substantial increase into which they in turn decide where to 
put it, or they spread it over the categories. But I know a lot 
of it will get into Parkinson's and I appreciate your 
testimony.
    Mr. Evans. Thank you, Mr. Chairman.
                              ----------                              

                                          Thursday, April 18, 2002.

                          FRIEDREICH'S ATAXIA


                                WITNESS

HON. BILLY TAUZIN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    LOUISIANA
    Mr. Regula. Mr. Tauzin. Are you going to bring your two 
helpers along?
    Mr. Tauzin. I have got two helpers. I always need a lot of 
help.
    Mr. Regula. I know. Are these two young men with you?
    Mr. Tauzin. They are with me.
    Mr. Regula. Okay. Let them come up to the table if they 
would like. It is good chance to see how the system works. They 
might even vote for you if you do well.
    Mr. Tauzin. Thank you, Mr. Chairman. Let me, before we 
begin the official reason I came here, also mention NIH with 
you. I know that you are doing a marvelous job in terms of 
increasing the funding. I want to congratulate you for that.
    Mr. Regula. And the administration has given us and the 
Chairman a good budget to work with.
    Mr. Tauzin. They have. I want to thank you for that. As you 
know, the Energy and Commerce Committee has jurisdiction over 
NIH and we are incredibly impressed every year with the 
advances being made, and you are so right. We are this close on 
Parkinson's and so many other diseases.
    Mr. Regula. Juvenile diabetes and others, we are getting 
close.
    Mr. Tauzin. We really are.
    By the way, in terms of the kidney disease problems that 
were referred to earlier, let me concur with the testimony you 
have heard, with the caveat, however, that home health is one 
of the fastest rising cost items in the Medicare budget. It is 
now about 30 percent per year increase, and it is the only one 
without a co-pay requirement.
    So I know that Bill Thomas--we had discussions yesterday. 
We are trying to make sure that home health continues to be 
able to satisfy what we consider to be real attempts to lower 
health care costs in the long run.
    Mr. Regula. When you say home health, you are talking 
generically across the board?
    Mr. Tauzin. Across the board. It is about a 30 percent per 
year increase. So we are seeing more and more type activities 
as were described to you in the peritoneal treatments for 
kidney disease at home and those numbers are going up. So we 
have got to deal with that and we will be discussing that with 
you and others as we go forward.
    But Bill Thomas and I are going to be offering a Medicare 
reform bill with prescription drug benefits in it to the House 
floor----
    Mr. Regula. If you want to get a picture of these young 
men, come on up here.
    Mr. Tauzin. That is Mom, by the way. Let me introduce them 
to you. Rachel Andrus and her husband are here today with their 
two sons, and Mr. and Mrs. Andrus are not only dear friends of 
mine, but Rachel has been my office director. She has 
controlled all of our office management systems for a long, 
long time and she goes all the way back to 1976, I think, when 
she served our committee that I chaired in the Louisiana 
Legislature. She is of Cajun extraction. She married a young 
man in this area who happened to have Cajun roots as well and, 
as a result of the concurrence of their genetic compositions, 
they produced some beautiful kids, two of whom are here today. 
One is unfortunately afflicted with a disease that appears to 
somehow be very much associated with the Acadian or Cajun 
population, Friedreich's Ataxia, which Keith Andrus suffers, 
who is right next to me. His brother Stuart is right next to 
him, one of his best friends and helpers today.
    Keith has literally been diagnosed from childhood with this 
disease. It is a neurodegenerative disease. It has no known 
cure. It gradually debilitates its victims, and life expectancy 
is limited because of it, and Keith is aware of that. We are on 
a timetable to try to find a cure in time for him and so many 
other young people who are afflicted with it.
    It is a disease incredibly that attacks my culture, Cajun 
population, at two and a half times the rate of any other 
culture in this country, much like other diseases that attack 
specific races, sickle cell anemia for the black minority 
population of our country, and others. It is a disease that 
particularly associates with our culture for some reason. It is 
in our genes, and the great genetic work that is being done at 
NIH and other centers around the country is hopefully our best 
chance for Keith and so many others like him.
    He is an amazingly courageous young man and he and his 
family have been for years coming to Washington to seek the 
help of our committees and our appropriators in trying to find 
some chance for his survival and others like him.
    Mr. Regula. Is NIH focusing their work on this?
    Mr. Tauzin. Yes. More importantly, we came before you 
several years ago and asked you to create the Center for 
Acadiana Genetics and Hereditary Health Care through the Rural 
Health Outreach Grant Program of HRSA, and in 1999 your 
Committee approved it and we have created it. The center is in 
operation today because of funds you provide and funds provided 
by state and private sources now.
    It links school medicines with the biomedical research 
centers, the hospitals, the rural clinics, with a strong 
telecommunications network so we can get information out about 
health care and about potential treatments and work being done 
on a cure. It provides education on these genetic diseases, 
research into these and, by the way, Usher Syndrome, which is 
closely related we understand.
    I want to thank you again and ask you for your continued 
support for the center. We are asking for $1.4 million of 
federal assistance to the center again.
    Mr. Regula. This is the center at NIH?
    Mr. Tauzin. No. It is the center in Louisiana that you 
helped establish. It works through the LSU System and the 
Medical School. The Governor, the President of the LSU System, 
and the Dean have all sent you letters outlining the incredible 
work we are doing with it. We now provide over 50 percent of 
the funding from state and private donors. So we are heavily 
invested at the local level into the work of the center as 
well, and the work of the center has now caught national 
attention.
    People suffer with the disease in 50 States. We just happen 
to have the greatest majority of the incidents of it in our 
culture. The Discovery Health channel recently focused on the 
center and Friedreich's Ataxia and the incredible damage it 
does to young bodies and to young people like Keith and the 
fact that it claims their lives if we don't find a cure soon. 
And so I want to first of all thank you because----
    Mr. Regula. I see we put a million in last year at your 
request.
    Mr. Tauzin. And we are asking for 1.4 million this year.
    Mr. Regula. Another million this time or----
    Mr. Tauzin. If you can keep this up, we are getting close.
    Mr. Regula. So that is your number one priority then?
    Mr. Tauzin. Absolutely. It is number one and number 1-A. 
And I just learned that my chief of staff in Louisiana, the 
next-door neighbor, a young 15-year-old girl, was just 
diagnosed with it. We have discovered it in ages as late as 15. 
With Keith we learned it early. I have watched and I know some 
of you have watched as I brought him year after year to you. 
You have watched the disease ravage him and you have seen him 
being more limited every time he comes here. His family is so 
supportive and so loving and he is such a courageous young man.
    Mr. Regula. Your center works with NIH, I presume?
    Mr. Tauzin. We all do. NIH works with them, the center 
communicates with them and the center operates with the 
communication system that reaches out nationally to assist all 
those who are doing work in this area. We learned at one of 
your hearings that some genetic work being done at NIH may hold 
some of the answers. It looks like it is related and as they do 
a study on one disease, they are finding out the relationship 
to a potential cure on another. So we stay in touch with all 
those studies that are going on.
    I just want again to say thank you. If you can continue the 
federal support for the center, I have every expectation that 
we are going to come up here one day and pop some champagne and 
we are all going to----
    Mr. Regula. We hope so.
    Mr. Tauzin. We are all going to toast and thank you for 
saving not only Keith's life but so many young people like him 
around the country, particularly the large number that happen 
to be Acadians like myself who for some reason in their gene 
code have this disease special threat. So thank you. I know 
that Keith thanks you personally, his family thanks you, and 
more importantly the cause of a cure thanks you.
    Mr. Regula. Keith, we will do the best we can for you.
    Mr. Tauzin. Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    [The prepared statement of Mr. Tauzin follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 18, 2002.

                                PROJECTS


                                WITNESS

HON. CIRO D. RODRIGUEZ, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Mr. Regula. Mr. Rodriguez.
    Mr. Rodriguez. Thank you, Mr. Chairman, for taking the time 
to listen to us and for allowing us this opportunity to testify 
before you.
    Mr. Regula. Your full statement will be in the record and 
the staff will peruse it.
    Mr. Rodriguez. Thank you very much. Let me take this 
opportunity, first of all, to talk to you about three projects, 
and especially two of them, that I want to mention to you. One 
of the first ones is project VIDA, which is Valley Initiative 
for Development and Advancement. It is in the lower part of the 
Rio Grande Valley, and it basically has been helping to train 
over 2,000 residents on the U.S.-Mexican border.
    It is in both my district and Congressman Ortiz's and 
Congressman Hinojosa's. That area has over a million people. It 
is the poorest in the entire United States. In fact Starr 
County that I represent there on the border is the most poor 
based on the 2000 census, and Hidalgo is right next to it and 
then Cameron County.
    Project VIDA, which is Valley Interfaith Development and 
Assistance, provides job training. 94 percent of their 
participant placements are placed in high skilled job areas. 
VIDA is modeled after Project Quest, which is out of San 
Antonio, which has gotten nationwide recognition for their high 
caliber of work, and I wouldn't be here talking about any kind 
of job training program unless I know that they would do a good 
job.
    These people are from the community. They have been 
reaching out and have been making things happen with a lot of 
people and these are people that have been unemployed for a 
long time and have been provided that service. So I am here to 
ask for half a million dollars for Project VIDA in the valley 
that encompasses part of my district and part of two other 
congressional districts.
    In addition to that, I am also here to ask you to consider 
half a million dollars also for a unique project in San Antonio 
that not only services the four Congressmen there, which is 
Lamar Smith, Bonilla, Gonzalez and myself, but is going to 
service four States, New Mexico, Louisiana, Oklahoma and Texas, 
with a unique project that is called the American Originals. 
This gives an opportunity for people in Texas in that region, 
especially south Texas.
    The Witte Museum right now has over 200,000 people that go 
through it on an annual basis. Of that, over 75,000 come from 
the lower Rio Grande Valley, and the American Originals allows 
an opportunity for them to look at the Louisiana Purchase 
Treaty, to look at the Emancipation Proclamation, to review a 
lot of the actual documents, and along with that this 
particular $500,000 will allow them to prepare these rare and 
significant documents as well as educational programs that they 
are hoping to develop with that and, after the project is gone, 
to continue to be utilized.
    It is a unique project that a lot of the young people in 
south Texas will never have an opportunity to come to 
Washington, D.C., to see and it is the only one of the museums 
that are going to be--in fact the only one in the Southwest 
that will have this particular exhibit and is for the year 
2003.
    Those two projects, each for half a million, I ask your 
serious consideration.
    In addition, there is a Boysville Home for Boys and Girls 
out in Converse, but they service the entire State. This is a 
school that has been there since the 1930s and 1940s. They pick 
up youngsters that have been abused either physically, 
sexually, and they live there, and one of the things that they 
are asking for it is a total of 3 million, but there are two 
programs. One of them asks after they release the youngster--
and, I apologize, Mr. Chairman, I didn't check if you have a 
family but when they----
    Mr. Regula. I do.
    Mr. Rodriguez. When they reach 18, you don't want to let 
them go either. Well, you almost have to let them go and a lot 
of times at that age, you know if you have any children, they 
are not ready to be let go out there without any resources, 
without anything. So they want to be able to work with them and 
prepare them for the jobs that are out there and be able to 
make sure that they can land those jobs and follow up with 
them.
    So part of those resources is to follow up for those 
youngsters, and there truly are youngsters throughout the 
entire State of Texas and the region. And the other aspect of 
it is also to provide intensive counseling and training in the 
area of drug abuse, and specifically for that area we are 
seeking some money to help them and assist them in those areas.
    So those are the three projects I wanted to present to you 
and ask for your serious consideration.
    [The prepared statement of Congressman Rodriguez follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I am impressed with your placement rate from 
the school you described; 94 percent is remarkable.
    Mr. Rodriguez. It is a beautiful program and it is modeled 
after the one out of San Antonio, which is Project Quest. It 
has a different name but that one is remarkable, and one of the 
things they do is they use grassroots people. So these are 
people that are----
    Mr. Regula. You mean to teach?
    Mr. Rodriguez. Exactly. So these are people out there in 
the community, and that is why I feel very confident that it is 
a darn good program. You are not providing resources for 
these--I shouldn't say bureaucrats to remain in their jobs. You 
are really looking at providing resources to those people out 
there working with those people who are in need and providing 
that assistance.
    We just recently heard in the Valley, not in my district 
but in the region that is going to be impacted, Levi Strauss is 
closing some additional facilities and is going to let go a 
large number of people. So the need for job training is 
extremely critical.
    Mr. Regula. Well, thank you for coming and bringing this to 
our attention.
    Mr. Rodriguez. Thank you, Mr. Chairman, for allowing me to 
be here before you.
                              ----------                              

                                          Thursday, April 18, 2002.

                                PROJECTS


                                WITNESS

HON. BOB FILNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Mr. Filner.
    Mr. Filner. Good morning, Mr. Chairman. Thank you for 
taking the time to listen to the Members and I know it is a 
long day.
    Mr. Regula. It is interesting.
    Mr. Filner. You learn----
    Mr. Regula. You get a variety that gives you a sense of 
some of the problems that confronts all of us in various ways.
    Mr. Filner. Thank you for your interest and your commitment 
in this case to our students and around the Nation.
    I want to tell you, Mr. Chairman, about Imperial County, 
California, and the needs of its schoolchildren. Imperial 
County is in the extreme southeast corner of California. It 
goes from San Diego to the Arizona border. It is a very 
agricultural area, once in fact provided a lot or most of the 
vegetables and fruits for the whole Nation, the Imperial 
Valley, and it is----
    Mr. Regula. It is irrigated?
    Mr. Filner. From the Colorado River, which is a whole 
different issue from your other Committee, I suspect.
    Mr. Regula. You would be at the tail end of the River, 
wouldn't you?
    Mr. Filner. Well, under the law of the River Imperial 
County gets an incredible amount, about 80 percent of 
California's water. That is a whole different issue, if you 
would like me to spend 3 hours with you. It is a very difficult 
situation because the agricultural area and the urban areas, 
both of which I represent and I am in middle of, have to fight 
over that water. It is a large county, over 4,000 square miles, 
deserts, mountains. It has several medium sized cities, several 
small towns, lowest population density in California probably, 
but I tell you this because there is a lot of isolation of 
students and teachers in various parts of the county.
    It is also a very poor county, the poorest by almost any 
measure in California's counties. Unemployment rates have 
reached in recent years as high as 30 percent. We go crazy with 
6 or 7 percent. Imagine 30 percent. The seasonal unemployment 
rate is the highest in the United States. The median income is 
$14,000, lowest in the State. Seventy-one percent of all the 
students in fact are on the free lunch program.
    I tell you this because this kind of geographical isolation 
and the relative poverty of the county makes it extremely 
difficult for the basic fiber-optic networks that schools must 
rely on these days. It is just not there and the students are 
denied the Internet access and the communication that marks the 
21st century.
    The Department of Education has put together an Imperial 
Valley Telecommunications Authority to provide that technology 
infrastructure and to make sure all of the schools are 
connected with fiber-optics. The Imperial Irrigation District, 
which is one of the most powerful organizations in the county 
because it controls not only the water but the power, is 
working collaboratively with the school districts to try to 
change the situation. In fact the IID, the Imperial Irrigation 
District, is giving the schools and other public agencies 
access to their fiber-optic communication network that goes 
throughout the region, and the IID is providing a whole multi-
million dollar contribution to the schools to attempt to try to 
end their isolation. In addition, $17 million has been 
contributed by the local districts and cities and counties to 
this effort.
    So for every dollar that we are asking the Federal 
Government for, $3 has been spent by the local agencies. In 
fact, the planning for the project was completed with State of 
California grants and a border link grant in the past of 
$775,000. So grants have been given, cities, counties, 
Irrigation District, everybody is contributing. What has to 
happen is to connect all the elementary, middle and high 
schools to a fiber-optic structure, backbone. That will cost an 
additional $6 million and we are asking that for the Department 
of Education's Fund for the Improvement of Education.
    Given the geographic isolation, given the relative poverty 
of this county, we need this backbone to make sure our students 
can in fact compete in the 21st century. The local agencies, 
school districts, cities have all taken a role and we are 
asking for some help from the Federal Government to complete 
the project.
    Mr. Regula. Okay. I was interested, and apparently you have 
sort of a public agency that not only controls water but 
controls electricity?
    Mr. Filner. It is very unique.
    Mr. Regula. Do they buy from the producers of electricity 
and resell to the people?
    Mr. Filner. No. The Irrigation District has its own power 
plants, hydropower mainly.
    Mr. Regula. This is sort of a quasi-public board, I assume?
    Mr. Filner. No. It is a public board.
    Mr. Regula. Are they appointed?
    Mr. Filner. Elected. It is very unique.
    Mr. Regula. It is unique.
    Mr. Filner. And the politics is very interesting and it is 
changing over time. The election to the IID board is the most 
significant election in that county.
    I thank you for your interest. Mr. Cunningham is familiar 
with the county, our next-door neighbor and----
    Mr. Cunningham. Also, the next-door neighbor is where El 
Centro is, where most of the Navy training goes, and where Top 
Gun is, adversary with the Rangers, and then we go over to Yuma 
and fly as well.
    Mr. Regula. So there are air fields in this area?
    Mr. Cunningham. Yes. Maybe, Bob, if you would vote for 
defense, we would get----
    Mr. Filner. Most of the training, as the pilot points out, 
is done in El Centro. The one great advantage that this county 
has is 363 days of sunshine each year and it is always 
available for training. In fact, the Blue Angels, they train 
there for 3 months before they go on their tour of the Nation. 
They have just completed their training out in El Centro and 
they can do it every day because of the weather. The weather is 
extremely clear and sunny at all times.
    Mr. Cunningham. It is their winter training area when they 
move out of Pensacola and get ready. But Bob is right, the area 
is dispersed. This is an area that in the BRAC belonged to 
Duncan Hunter, and Duncan represented the Imperial Valley for 
years and years, and Bob is telling the truth. It is kind of 
out in the desert. Some of the facilities they have are 
depreciated and stuff, and they do need help. I don't know if 
we can put in $6 million with all of the requests we have, but 
we ought to be able to help some, and, Bob, I will tell you 
that New Millennium bill that President Clinton signed with 
computers, where you get private companies to donate their 
computers to a nonprofit, we want to expand that to the 
libraries as well, but the prison system uses and upgrades 
those computers and it goes into the school system. They are 
eligible for that also. So if they do get the fibre wiring and 
stuff, it is something that could help the Imperial Valley.
    Mr. Filner. Thank you. You have led the fight for that 
program. I appreciate it very much.
    Mr. Regula. What is the name of the air base it serves?
    Mr. Cunningham. El Centro.
    Mr. Filner. Naval Air Facility, NAF El Centro.
    Mr. Regula. That is a new one to me. I am not familiar with 
it.
    Mr. Cunningham. As you head right on Highway 8. We also 
have deployments, and it is where the East Coast training 
squadrons come in the winter.
    Mr. Filner. It is a long well-established base, but it is 
small and it plays an important training function for virtually 
all of the West Coast.
    Mr. Cunningham. It is an area where it is still remote to 
the point where you do carrier qualification training in, say, 
Miramar there are a lot of lights so you don't get the effect, 
and what we do is train at Miramar these young kids and then we 
go to El Centro because it is darker and simulates a carrier 
deck more, and then we take them out to San Clemente Island 
where there are absolutely no lights. It is a lot of military, 
lot of housing, Hispanic area as well, and they do need help 
out there. They are pretty remote and as in many cases rural 
areas are the last to get support.
    Mr. Regula. This is a big country. I keep finding out new 
things about it all the time. Thank you.
    Mr. Filner. Thank you, Mr. Chairman.
    [The prepared statement of Congressman Filner follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 18, 2002.

                                PROJECTS


                                WITNESS

HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Regula. We will go to Michigan, Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman, Mr. Cunningham. Thanks 
for having me appear here.
    You were talking about Mr. Filner's area there. That is 
actually my first request is Operation Up-Link, $1.1 million. 
Basically the same thing, trying to get the last mile, if you 
will, of the fiber-optics in the Upper Peninsula of Michigan, 
and we are remote and all the things you could have said for 
Mr. Filner would basically apply to my district also.
    We are working with our universities up there in Northern 
Michigan and Michigan Technological, the colleges and the 
hospitals. We want to link it. Last year this committee 
appropriated $300,000 towards a project, and so we got the 
initial infrastructure going and we want to finish it off, and 
it would be $1.1 million is what we ask for to just finalize it 
all up, and no disrespect to Mr. Filner, but I am six times 
less than him so we should get the nod. I am just kidding, but 
we would like the nod.
    Mr. Cunningham. You could do that if you would waive Davis-
Bacon.
    Mr. Stupak. We have got to keep Davis-Bacon. That is the 
only good wages we have, especially with our telling the other 
Committee. I think our unemployment up there right now is 8, 9, 
10 percent. Literally 5.8 nationwide and Michigan is now above.
    Next, the Center on Gerontological Studies, something new, 
again through Northern Michigan University, we would like to 
have the center especially for our senior population. That is 
whom it would benefit, and up there it depends on what county. 
The low counties have 17 percent seniors and the high counties 
are 30 percent senior citizens out there, and the State average 
is only 13 percent, and the center of course, as you know, will 
promote knowledge of the aging process, aging network, provide 
services that apply as a mechanism to enhance their lives.
    Next I have is the BJ Stupak Olympic Scholarships. I want 
to thank the committee again for naming it after my son. This 
past weekend I had a unique opportunity. We did some stuff at 
Michigan State University. But the Olympic Education Center at 
Northern Michigan was a beneficiary. We raised some money for 
them. So it is just not always relating to the million dollar 
Olympic scholarships that we have appropriated in the past, and 
with the change that we made last year in the structure, I will 
tell you how critical that structure was. Some of the athletes 
came down who were receiving some of this money, and they were 
telling their story how they are allowed to finish their 
schooling, and we have changed the requirements. Before you had 
to carry 12 credit hours. That is what the Department of 
Education had, so we changed that to you have got to carry at 
least three.
    So Allison Baver, who was one of our Olympic speed skaters, 
she will finish up now at Northern this year. She will do her 
last course back home at Penn State University, but she said 
without this there is no way she ever could have done it, 
competed around the world. But with the changes we have made 
with the help of Mr. Cunningham and you, Mr. Chairman, by 
making that change, in the next two semesters they will give 
out $850,000 in scholarships, your place down there, Duke, Lake 
Placid and Colorado Springs.
    So it has been a big success. The athletes tell it best, 
how dedicated they were. They got up at 3:30 in the morning at 
Marquette, drove down to Lansing. That is about 450 miles for 
them, and they drove down just so they could give presentations 
all day on the Olympic Education Center, what we do, and the 
great help this committee was. These students are exceptional 
not just as athletes but as individuals, and the program has 
been a great success. Unfortunately, the President didn't put 
the money in. We ask that you put it back in.
    I have a number of others. Let me quickly go through one or 
two more, and then I will take any questions you may have.
    Crooked Tree Art Center. This is in Petoskey, Michigan. 
They are doing a whole renovation of their center. It is $4 
million. They have already raised $3.5 million. They have 
tapped every possible resource. Petoskey, a town of only 5,000 
right now, this summer it will go to 30,000.
    But this art center goes around to all of the schools. They 
ask the schools to kick in to help pay for the program. They 
have won many awards, especially for their violin program.
    Of all things, in little parts of rural Michigan they are 
teaching violin, and this center does it all on their own. They 
have got to the point where the program keeps expanding. And 
they have done $3.5 million. They are asking if you could do 
$650,000 and let them finish off.
    Ft. Brady Army Museum--that is up Sault St. Marie right by 
the Soo Locks there--they are going to put in to preserve the 
history of the fort's existence and will exhibit the history 
for education future uses.
    The Aging Nutrition Program. We have led the fight. I know 
a lot of you have helped me on that one to increase meals, the 
money we give for senior meals, whether it is Meals on Wheels 
or at the senior center. I am requesting a $20 million increase 
in that one, and we have always done an amendment on the floor. 
Senate usually knocks us out. But hopefully, we can do 
something this year.
    Maybe if it came out of the Committee instead of doing the 
amendment on the floor, because once we get it on the floor it 
usually passes. If we could maybe put it in the bill it would 
help us out. And $20 million is only keeping the rate of 
inflation. That would give an extra penny per meal, or a penny 
and a half per meal. That would be about all.
    Marquette General, for their emergency outpatient. Last 
year this committee was good enough, gave us $250,000. It 
wasn't of course enough to complete the building. As we shift 
from inpatient to outpatient we are asking for $4 million to 
finish off the emergency outpatient. Marquette General is the 
largest hospital in the north half of the state. That includes 
northern lower Michigan too, because my district covers both 
peninsulas. It is the tertiary care, great facility, if you 
could see to help them out.
    Charlevoix Hospital. I have a request in there. I want to 
mention one more. Sault St. Marie Tribe Satellite Health 
Center. Sault St. Marie Indians, Chippewa Indians, are the 
largest tribe in Michigan. It is about 25,000 members. And they 
spread out. The original treaty of 1836, their land in Sault 
St. Marie was basically intact, and the 1856 treaty shoved them 
basically out of the UP to the extreme western part of the 
Upper Peninsula.
    So their tribe has moved. Their main place is Sault St. 
Marie. Their other main place is Manistique, Michigan, which is 
probably about 120 miles from there. They have a huge health 
center in Sault St. Marie. They want to put one in to service 
their people in Manistique. It is a $3 million project. They 
have put up the first $2 million. They are hoping this 
committee could help them with the last million so they could 
do it quicker and get it finalized.
    Other than that all of the rest of it is there. I want to 
thank this Committee. They were very good to my district last 
year. There is a couple of projects that you have helped us 
with we would like to finish off and a couple of new ones for 
consideration.
    With that, I would open up for any questions you may have. 
And thank you for your time and courtesy.
    Mr. Regula. Thank you.
    Mr. Cunningham. Isn't Sault St. Marie--their reservation is 
split on them now. Is it a reservation?
    Mr. Stupak. Well, in Sault St. Marie it is a reservation, 
and they have some land--actually pockets all over. Some of it 
has been placed in trust. But there is some original parts in 
different parts of the Upper Peninsula. The first treaty had 
them in Sault St. Marie. The next treaty shoved them farther 
west.
    Mr. Cunningham. But the area in which you want to have 
funding for the hospital, is that also a reservation?
    Mr. Stupak. That is on trust land. Good question. I am sure 
they are going to put it off Shrunk Road there. So that would 
be reservation land.
    Mr. Cunningham. Because in San Diego County we have many of 
the tribes. They have gaming there and they are able to----
    Mr. Stupak. This tribe has gaming. That is how they can put 
up the $2 million. But the gaming, the casino in Manistique, 
there is a small one there, is on the highway. Their 
reservation is back off, and that is where most of their 
offices for health care and things like that are right now. So 
it is not near the casino.
    Mr. Cunningham. Do you have an idea of what kind of 
population, Native American population that that does serve, 
because Impact Aid and a lot of those things are important.
    Mr. Stupak. Because that would service the Delta County, 
Schoolcraft, Luce and Elger--well, not Luce but Elger. That 
would probably be pretty close to 3 to 4,000 members in that 
area. There is a big one in Manistique and in the Escanaba area 
there is another group there with all of their housing.
    Mr. Cunningham. I am one of the Members that think what we 
have done to Native Americans in this country is atrocious.
    Mr. Stupak. Well, we kept moving them around.
    Mr. Regula. Thank you.
    Mr. Stupak. Thank you.
    Mr. Regula. I think that completes our work for the day.
    [The prepared statement of Congressman Stupak follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 23, 2002.

     EMOTIONAL LABOR, BURNOUT, AND THE NATIONWIDE NURSING SHORTAGE

                                WITNESS

REBECCA J. ERICKSON, DEPARTMENT OF SOCIOLOGY, UNIVERSITY OF AKRON, 
    AKRON, OHIO
    Mr. Regula. Well, we will get started here today. We have a 
special inducement for you to stay. Elmo is the last witness 
today. [Laughter.]
    I have to confess, I did not know who Elmo was, but I guess 
my grandchildren probably could have educated me.
    We have three nice pretty little girls, not so little, who 
are going to be testifying, or at least helping their mother. I 
bet they know who Elmo is. Do you girls know who Elmo is? I 
will be a hero to my two grandsons when I get home and tell 
them I saw Elmo.
    It is a great pleasure to welcome each of you today. I look 
forward to hearing your testimony. We all, on the Committee, 
value your views and your participation in our process. This 
really is democracy at work.
    In the next several weeks, we will be hearing from 200 
public witnesses and Members of Congress. That is why, of 
course, we cannot give too much time to anyone.
    The President's budget requests $132.2 billion. That is 
``billion'' with a ``b'' for the agencies. It is the second 
largest program, second only to defense, for programs and 
activities within the jurisdiction of this subcommittee.
    Nearly all of the increased funding recommendations in the 
President's budget are in three critical areas: homeland 
security, medical research, and education.
    I might tell you that this is almost $10 billion more than 
last year's budget. Once again, tough decisions will need to be 
made in the months ahead when we consider making funding 
allocations.
    For many of you, this will be your first time testifying 
before the Subcommittee. As we begin the hearing, I want to 
remind witnesses of a provision in the rules of the House, 
which states that every non-Governmental witness must submit a 
statement of Federal Grants or contract funds that they or the 
entity they represent have received. I am sure all of you have 
heard about that.
    In order to accommodate as many witnesses of the public as 
possible, we have scheduled about 25 witnesses for each 
session. Even at this level, we will not be able to hear from 
all who want to testify.
    However, we do ask everyone that wants to testify, that we 
cannot hear in person, to submit their testimony, and the staff 
evaluates their suggestions.
    Due to the volume of witnesses, I have to enforce the rule 
limiting each testimony to five minutes, and I have to be 
strict about that. Francine, she is the enforcer, recognizes 
the importance of staying on time.
    To help keep us on schedule, we will be using the lights 
that are on the table. There are three lights: green, yellow, 
and red. There are no fines on red, but we will appreciate if 
you can close and move down on the yellow.
    Once you begin speaking, the green light will indicate that 
your time has started; the yellow light will indicate that you 
have one minute remaining to sum up your testimony; and we 
obviously know the red light means stop.
    I hate to do that, because I find these programs extremely 
interesting, and sometimes I am guilty of stretching it out, 
myself, because I get interested in what you, as witnesses, 
have to say.
    But it is extremely valuable and particularly helpful to 
our staff, because they do read all the testimony. With the 
responsibilities we have, it is important that we try to do the 
best job possible.
    I said to the members of the Committee last year, since 
this is my first year as Chairman, that the Bible says there 
are two things that are vitally important, two rules: love the 
Lord and love your neighbor.
    This is the ``love your neighbor'' Committee, because 
everything we do potentially touches the lives of Americans, 
either through health research, the Centers for Disease 
Control, and a whole host of children's programs.
    Every dollar that we spend on education from Headstart to 
Pell Grants goes through this committee, and it is all 
discretionary. So we have to make some very difficult judgments 
in allocating resources.
    While $132 billion is a lot of money, it is surprising, but 
we always come up what we consider to be short, simply because 
there are so many needs. But we do the best we can in 
allocating.
    Our first witness today will be Dr. Rebecca Erickson, the 
head of the Department of Sociology at the University of Akron. 
She is going to talk about stress and its impact on retention 
of nurses and new teachers. With the imminent retirement of the 
babyboomers, we face some real shortages in these areas.
    So Dr. Erickson, we are happy to have you here today, and 
you can go forward.
    Ms. Erickson. Thank you and good afternoon, Mr. Chairman, 
my name is Rebecca Erickson, and I am an Associate Professor of 
Sociology at the University of Akron and Chair-Elect of the 
American Sociological Association's Section on the Sociology of 
Emotions.
    I want to thank you and members of the Committee for the 
opportunity to speak today about how reducing the rate of 
burnout among direct care nurses is essential to the 
development of sound retention polices, and to our being able 
to effectively address the national nursing shortage over the 
long term.
    Nurses typically burn out and leave bedside nursing after 
just four years of employment. My goal here today is to propose 
that a systematic program of research and intervention, 
focusing on the emotional stresses of nursing, and the 
conditions that exacerbate them, holds particular promise for 
reducing the incidents of burnout and increasing nurse 
retention.
    Experienced RNs are choosing to leave bedside care in large 
numbers. In the year 2000, there were 500,000 licensed nurses 
not employed in nursing. If only a quarter of these had been 
retained or could be induced to return, a significant 
percentage of the 126,000 hospital nursing vacancies might be 
filled.
    Solving the Nation's nursing crisis in nurse staffing 
requires that we understand why nurses leave direct care and 
why they choose not to return.
    There are many reasons for this, but the primary force 
driving nurses away is the stress in the work environment. 
Today's hospital nurses face increased patient loads, increased 
floating between departments, decreased support services and 
frequent demands for mandatory overtime.
    Given these conditions, it is hardly surprising that the 
National studies have reported that 59 percent of nurses say 
their job is so stressful that they often feel burned out, and 
43 percent of nurses experience significantly higher rates of 
burnout than is expected for medical workers.
    Burnout is a unique type of stress syndrome that is 
fundamentally characterized by emotional exhaustion. We can 
begin to appreciate what emotional exhaustion means for a nurse 
by considering the results of a national survey that asks 
nurses to identify how they usually felt at the end of their 
work day.
    The four most frequent responses were: exhausted and 
discouraged; discouraged and saddened by what I could not 
provide for my patients; powerless to effect the changes 
necessary for safe, quality patient care; and frightened for 
patients. Exhausted, discouraged, saddened, powerless, 
frightened; these are the emotions experienced by nurses on a 
daily basis.
    Recognizing that burnout is rooted in such intense 
emotional experiences is integral to preventing its occurrence. 
This is especially true in the case of nursing, where the 
ability to effectively manage one's own and other's emotions is 
critical for the provision of excellent care.
    To reduce the incidents of burnout, we must identify the 
faucets of the care environment that lead to the frequent 
experience and management of intense emotion. In doing so, we 
would be specifying the conditions that influence the 
performance of emotional labor; for the process through which 
nurses induce and suppress emotion, in an effort to make others 
feel cared for and safe, is indeed work. It is work that 
requires a great deal of time, energy and skill.
    While there is widespread agreement that issues concerning 
the environment of care must be included in any comprehensive 
strategy to address the nursing shortage, there has been no 
systematic research done to isolate the sources of nurse's most 
intense emotional experiences, and to develop a detailed 
understanding of how the management of these emotions leads to 
burnout and turnover.
    Consistent with the recommendations in last year's General 
Accounting Office report on the nursing workforce, I propose 
the initiation of a demonstration project, that will generate 
the data needed to effectively disrupt the burnout process.
    Such a project would require the formation of an inter-
disciplinary and inter-organizational research advisory team, 
that most importantly would include nurses currently employed 
in bedside care. This research team would organize and oversee 
a multi-method research project aimed at reducing burnout and 
increasing retention.
    Our first goal would be to specify the antecedents and 
consequences of performing emotional labor among direct care 
nurses. Our second goal would be to use this information to 
develop and evaluate preventive intervention strategies among 
these nurses.
    The third facet of this project would consist of surveying 
nursing students before, during, and after their first year of 
clinical practice. This would be done to evaluate the extent to 
which they are being prepared for the emotional demands of 
nursing, and to identify any changes in educational and 
hospital practice that might aid in the students' transition to 
the care environment.
    Understanding the emotional demands of caring work may be 
one of the most important steps toward retaining many of the 
nurses employed in bedside care. The proposed demonstration 
project will provide the means of achieving these goals.
    Thank you for your consideration, and I would be happy to 
answer any questions you may have.
    [The prepared statement and biography of Ms. Erickson 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    As I understand it, at the University of Akron, you have 
done some work with the nurse education program there, along 
these lines. Am I correct?
    Dr. Erickson. I have not specifically. I have been working 
with hospital organizations in the area; but the nursing 
program has been focused on these issues.
    Mr. Regula. So the University is very much aware of the 
problem of stress.
    Dr. Erickson. Definitely.
    Mr. Regula. I think if the statistic is correct, that we 
lose 50 percent of the beginning teachers in the first five 
years, that much of the same thing would be applicable in the 
teaching profession.
    Dr. Erickson. Yes, that is part of the importance of 
looking at the burnout process, per se, to see what might be 
generalized to other occupations, definitely.
    Mr. Regula. Well, thank you very much for coming to speak 
on this important topic.
    Our next witness today is Lesa Coleman. She is accompanied 
by her three children: Jaclyn, Corinne, and Emily.
                              ----------                              

                                           Tuesday, April 23, 2002.

                  NATIONAL CAMPAIGN FOR HEARING HEALTH

                                WITNESS

LESA COLEMAN, ACCOMPANIED BY CORINNE COLEMAN, EMILY COLEMAN, AND JACLYN 
    COLEMAN
    Ms. Coleman. Thank you, and Jaclyn is over there. My 
husband could not join us.
    Mr. Regula. We are happy to have you. Tell us your story.
    Ms. Coleman. Thank you; good afternoon Mr. Chairman and 
members of the subcommittee. My name is Lesa Coleman, and I am 
here today with Jaclyn, Corinne, and Emily on behalf of the 
National Campaign for Hearing Health; not as an expert.
    Mr. Regula. Lance is your husband, I take it?
    Ms. Coleman. Right, Lance is my husband, and he could not 
make it.
    Mr. Regula. I got a little bad information here.
    Ms. Coleman. I wish he was here.
    Mr. Regula. Okay, I'm sorry.
    Ms. Coleman. I am a mother of five children, two of whom, 
Corinne and Emily, have severe hearing impairments.
    As you know, the President's 2003 budget eliminates program 
funding at the Health Resources and Service Administration for 
the Universal Newborn Hearing Screening, or UNHS Program.
    If funding for screening is cut, children and their 
families will be hurt, just as my child, who was without 
newborn hearing screening in 1994.
    We are currently only screening 65 percent of newborns in 
this country. Unbelievably, every day, 11 babies with hearing 
loss leave the hospital, and their parents have no idea that 
they have this loss.
    That is why I am asking Congress to provide $11 million to 
HRSA, so this vital program can continue to assist States with 
developing and implementing newborn hearing screening and 
intervention programs. To compliment HRSA's screening program, 
the Centers for Disease Control needs $12 million for critical 
tracking, surveillance and research efforts.
    I have a very simple message. Without early detection and 
intervention, children face delayed language, delayed speech, 
and delayed learning development. Early identification is 
critical, because we have wonderful interventions such as 
cochlear implants, hearing aids, and therapies that can 
dramatically improve the opportunities for a child with a 
hearing loss.
    I would like to share now the experience that we have had 
with my daughters Corinne, age nine, who was not diagnosed 
until she was age two; and then Emily, who is now age seven and 
was diagnosed at birth.
    If there were ever parents who should have self-diagnosed a 
hearing loss, it should have been my husband and I. My husband, 
Lance, is an ear, nose, and throat physician, and I, just 
shortly before Corinne was born, received my Master's Degree in 
child and family development.
    When Corinne was born, she looked and responded very 
normally, but as months progressed, we noticed that she did not 
seem to be talking. Our pediatrician encouraged us to wait up 
to 12 months before Corinne was sent for ear tubes.
    Finally, after no improvement and without our 
pediatrician's approval, Corinne's hearing was tested. So 
finally, at two years old, Corinne was finally diagnosed with a 
severe hearing loss.
    Soon after the diagnosis, we tried to enroll Corinne in an 
early intervention program. She was finally accepted at age two 
and-a-half, only to be forced to exit at age three, because 
early intervention ends in this country at age three.
    Corinne started preschool at age three with essentially no 
expressive and very little receptive speech. To improve other 
communication skills, we started speech therapy, which resulted 
in hundreds of hours and thousands of dollars of third party 
system costs over the course of four years.
    Our Emily, on the other hand, was born when Corinne was age 
two and-a-half. She was tested at birth with the appropriate 
equipment, and received her hearing aids at five months. Emily 
was admitted to the early intervention program at six months, 
where her speech was monitored regularly. She developed speech 
normally, right along with her hearing peers.
    Emily has never had to have regular speech therapy. Her 
vocabulary has been very expressive, confident, and dramatic, 
from a young age.
    The contrast, in our experiences dealing with every aspect 
of essentially the same hearing loss in both girls has been 
dramatic. From testing to hearing aids to hearing intervention, 
speech therapy, language development, socialization, and 
ongoing voicing and speaking confidence issues, our younger 
daughter, Emily, has had a tremendous advantage, because of her 
earlier identification.
    Federal funding for newborn hearing screening is critical 
to ensuring that other families will not have to suffer 
needlessly as Corinne and our family have.
    Now Corinne and Emily would like to make a brief statement.
    Ms. Emily Coleman. Hi, my name is Emily Coleman. I am glad 
I was tested when I was born. I have not had to work as hard as 
Corinne. Thank you.
    Ms. Corinne Coleman. Hello, my name is Corinne. When I was 
born, there was no newborn screening, and I had to do lots and 
lots of speech therapy. My little sister, Emily, did not have 
to do all this work.
    I really wish that all kids with a hearing loss could be 
identified early like she was. I really hope that you put the 
money back into the budgets to help the other kids. Thank you.
    [Applause.]
    Mr. Regula. I have got to tell all of you, since our 
funding is discretionary, you have got a disadvantage. 
[Laughter.]
    Ms. Coleman. We will use it.
    In closing, I want to thank you, Mr. Chairman and members 
of the committee for providing strong leadership and support 
for these programs in the past. We also greatly appreciate the 
support for these programs that you displayed at the agency 
hearings this year.
    On behalf of the National Campaign for Hearing Health, and 
my family, and thousands of other families like ours, we 
request your consideration to provide $1 million to HRSA for 
screening, and $12 million to CDC for surveillance tracking and 
research. Thank you for the opportunity to appear here today.
    [The prepared statement and biography of Ms. Coleman 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Well, thank you, that is good.
    We have a bill in Ohio to mandate that the hospitals do 
just what you are describing.
    Ms. Coleman. Right.
    Mr. Regula. It seems to me that that would be something 
that every hospital would do routinely.
    Ms. Coleman. Right, but without the funding, they cannot do 
it.
    Mr. Regula. No, you are right.
    Ms. Coleman. They need the funding. All the States need the 
funding, because they have got bills. A lot of States have 
bills, but without the funding, they cannot do it.
    Mr. Regula. Well, thank you for coming; and Jackie, we are 
happy to have you, too. You did not get a chance to speak, but 
I am sure you could do well.
    Ms. Coleman. She has been a lot of support.
    Mr. Regula. Okay, thank you very much for coming.
    Our next witness is Dr. Gregory Chadwick, President of the 
American Dental Association. We are pleased to have you.
                              ----------                              

                                           Tuesday, April 23, 2002.

                      AMERICAN DENTAL ASSOCIATION

                                WITNESS

DR. D. GREGORY CHADWICK, PRESIDENT
    Dr. Chadwick. Thank you, sir.
    I will have to admit, that is a hard act to follow. I am 
sure everybody in this room, though, has a compelling need that 
we are very grateful for the opportunity to be able to express.
    Mr. Regula. Well, if you stick around, we have got Elmo, I 
think, as a wrap-up. [Laughter.]
    Dr. Chadwick. We may do that.
    Good afternoon, Mr. Chairman, my name is Dr. Greg Chadwick. 
I am President of the American Dental Association and a 
practicing endodontist in Charlotte, North Carolina.
    Most Americans today enjoy good oral health and have the 
access to the best dental care in the world. But dental decay 
remains the most prevalent, chronic infectious childhood 
disease. It is five times more common than asthma, and seven 
times more common than hay fever. In addition, there are 
disparities to access.
    However, I am pleased to say that the oral health community 
has made great strides in these last few years to improve 
access to oral health care for the under-served population. 
Some of what we have accomplished has developed from programs 
that you funded here in this committee.
    Mr. Chairman, we must have adequate funding for dental 
education, the dental programs within CMS and HRSA, the 
Division of Oral Health at CDC, and the dental research under 
NIDCR, if we are to continue this forward movement.
    Because dentistry receives only a small portion of the 
Federal Budget, and because there must be a critical mass, if 
these programs are to be effective, we simply cannot afford to 
lose any of these programs.
    Therefore, the Association strongly opposes the 
Administration's proposal to eliminate funding for general 
practice and pediatric dental residencies.
    Currently, there are only 3,800 pediatric dentists in this 
country. Some states have as few as ten. There is a high demand 
for these residency positions, but almost half of all 
applicants are turned away, because there are no residency 
positions available for them.
    Unlike medicine, most dental residencies are not paid 
through dental Medicare. If Title VII funding for dental 
residency is eliminated, 372 dental residencies will be 
discontinued. Therefore, we urge the Committee to restore the 
funding for these programs at a level of $15 million.
    A strong education program is essential to maintaining the 
dental workforce. Currently, there is a crisis in dental 
education, with over 400 open faculty positions.
    If we cannot recruit the very best and brightest into 
academic and research, many of the oral health care concerns 
that we are going to be discussing here today simply will not 
be addressed.
    I know the Committee will be hearing from my colleagues 
representing the American Dental Education Association. We 
support their requests, particularly the increased funding for 
the Ryan White HIV AIDS dental program.
    The ADA is concerned that CMS grants designed to enhance 
access in two of our multi-year Medicaid programs will not be 
continued, and in essence will be cut off in mid-stream by the 
Administration's 2003 budget.
    A grant to improve access to care for 7,000 low income 
children under the age of six in California will be 
discontinued, as well as a demonstration program in North 
Carolina. That program would help children under the age of 
three receive preventive health care services.
    The ADA believes these pilot projects could be beneficial 
to understanding the disparities to access in the current 
dental care delivery system. We hope the committee will work 
with us to reinstate funding to complete these projects.
    We thank the Committee for its previous support of oral 
health care programs at CMS and at HRSA, and we're grateful the 
Committee understands the need to maintain the Chief Dental 
Officers at both agencies.
    This support is critical, because oral health is one of the 
top three unmet needs of mothers and children. However, less 
than two percent of HRSA's maternal and child health budget is 
spent on oral health care.
    The CDC's Division of Oral Health supports State and 
community-based programs to prevent oral disease. Last year, 24 
states and tribes applied for CDC grants to improve their Oral 
Health Programs and increase Fluoridation and Dental Sealant 
Programs.
    Unfortunately, the division was only able to fund about 
half of those grants. The ADA recommends a funding level of $17 
million for CDC's Oral Health Program.
    There is a compelling need to reduce the incidents of oral 
cancer, gum disease, and tooth decay in our society. The 
National Institute of Dental Craniofacial Research is engaged 
in studies to determine the underlying causes of these 
diseases.
    In addition, they have taken the lead to develop salivary 
diagnostics, which has the potential to develop non-invasive 
tests for many diseases and situations like exposure to Anthrax 
poisoning. The association recommends $420 million for NIDCR.
    Thank you, Mr. Chairman. This concludes my testimony. I 
will be pleased to try to answer any questions for you.
    [The prepared statement and biography of Dr. Chadwick 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman.
    As you know, I have got a proposal for an oral health 
project in my district.
    This is clearly a huge challenge to many communities across 
this country, as I have seen in my communities in the Black 
Stone Valley, in the number of children that are missing out on 
any kind of oral health. It is staggering, and their mouths are 
rotting out. It is leading to some terrible health 
consequences; let alone, you know, the other ramifications of 
this.
    So I congratulate you for the work that you are doing, 
trying to help that out.
    Dr. Chadwick. Thank you, and we are pleased to have you 
help raise the level of awareness on this need; because it is 
only through the level of awareness, and everybody realizing 
it, that we are going to finally be able to do something about 
it.
    Mr. Regula. Is it not correct that bad teeth can feed other 
poisons, if you will, into your system, that can infect your 
general health?
    Dr. Chadwick. Well, it is probably even more than that. I 
mean, you know, oral health is a part of general health. But I 
would not want to say that infected teeth are infecting other 
parts of the body. But certainly, there is a connection between 
oral health and systemic health, yes.
    Mr. Regula. Well, thank you very much for your testimony.
    Dr. Chadwick. Thank you.
    Mr. Regula. Our next witness is Marykate Connor, the 
Executive Director of the Caduceus Outreach Services; welcome.
                              ----------                              

                                           Tuesday, April 23, 2002.

                       CADUCEUS OUTREACH SERVICES


                                WITNESS

MARYKATE CONNOR, EXECUTIVE DIRECTOR
    Ms. Connor. Good afternoon, Mr. Chairman, Mr. Kennedy. I am 
the Executive Director and the founder of Caduceus Outreach 
Services.
    We are a very small nonprofit organization in San Francisco 
that serves homeless people who have co-occurring psychiatric 
illness and addictive disorders. I have worked with homeless 
people since 1986.
    I am here today to speak to the issue of substance abuse 
treatment on demand, which is something that Caduceus Outreach 
provides to people who have co-occurring addictive and 
psychiatric disorders; but I am here on behalf of all San 
Franciscans and, in fact, all cities throughout the Nation that 
need this kind of service, and not specifically for Caduceus.
    I was one of the founding members of the Treatment on 
Demand Planning Council in San Francisco. This is a 
collaborative effort between the Department of Public Health 
and community activists, providers of treatment, and consumers 
of treatment.
    We came together in 1996, in order to create a system of 
treatment that is truly responsive to those who need it and 
accountable to communities who fund it.
    Treatment on demand is a very simple concept. What it does 
is that it allows people who need substance abuse treatment to 
receive it when they ask for it, as opposed to when we are 
ready to help them.
    It also recognizes that treatment must be relevant to the 
lives of people that it serves, in order to be effective. 
Treatment on demand not only asks to increase the capacity for 
people that need treatment, but it broadens the scope of 
treatment modalities. Our efforts in San Francisco present an 
effective treatment model, but we simply need more of it.
    Most communities only have a small portion of the funds 
that they need to provide any kind of substance abuse treatment 
at all, and as a result, people are turned away from treatment 
every day.
    Often, people are screened out because they do not fit the 
criteria for treatment, and usually, the standard 12 step model 
is what is brought about in terms of treatment.
    People who have both psychiatric disorders and addictive 
disorders are especially subject to discrimination, as both 
conditions are stigmatized. Providers of substance abuse 
treatment want people with psychiatric illness to get treatment 
for their illness first, and providers of psychiatric treatment 
will not treat people who are using substances.
    In San Francisco, community activists have helped the 
Department of Public Health pass a dual disorder policy, so 
that both branches of the treatment providers must work with 
each other in a simultaneous effort, and not a sequential one.
    Providers have much to learn about this, but the Department 
of Public Health has taken the lead in directing this modality 
of treatment. This is one example of treatment on demand.
    Addictive disorders and psychiatric disorders are both 
biologically-based conditions. These diseases are some of the 
most under-reported, stigmatized, and devastating conditions in 
this country.
    I believe that the stigma of these illnesses is one of the 
reasons why treatment for this population is under-funded and 
punishment in the form of jails and prisons and incarcerations 
of all kinds are funded to the degree that they are.
    There is a greater portion of funding going into 
interdiction and incarceration of drugs and alcohol than there 
is for treatment for people that are suffering from addictive 
disorders. It actually costs more to incarcerate somebody than 
it does to treat them.
    Treatment really, really works. But in order for it to be 
effective, it first must be available, and it must be 
specifically relevant to people's lives.
    I am asking you to use the power of your office to change 
the fact that there is not enough treatment for everybody. Make 
treatment on demand a reality for not just, you know, one city 
or another city, but everywhere in the country.
    It will save lives, and it will also save money, because as 
I said earlier, it is cheaper to provide treatment than it is 
to incarcerate them.
    I believe that every life has value. When we do not provide 
lifesaving treatment for someone who is begging for it, we are 
clearly saying that their life is of no value.
    You can change this and restore the worth of someone's 
life. Please fund all efforts to provide treatment on demand, 
both in San Francisco and nationwide.
    Thank you, and I will answer any questions that you may 
have.
    [The prepared statement and biography of Ms. Connor 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Do you have a problem of people refusing 
treatment? Now I heard you say they ask for it.
    Ms. Connor. Yes, I do not often find there is a problem of 
people refusing treatment. Sadly, I am one of those providers 
that, because we are so very small, have to turn people away 
every day, who are asking; and I know that this is the case for 
many other treatment providers. There are long waiting lists.
    There may be people who, in fact, are not ready for 
treatment; but there are more people waiting in line for 
treatment, and cannot get the treatment that is specifically 
relevant to their conditions.
    Mr. Regula. Mr. Kennedy.
    Mr. Kennedy. I have no questions at this time, Mr. 
Chairman.
    Mr. Regula. Thank you very much for coming.
    Ms. Connor. Thank you.
    Mr. Regula. Next is Dr. John Allegrante, President and 
Chief Executive Officer of the National Center for Health 
Education and Professor of Health Education, Teachers College; 
welcome, Dr. Allegrante.
                              ----------                              

                                           Tuesday, April 23, 2002.

                  NATIONAL CENTER FOR HEALTH EDUCATION


                                WITNESS

JOHN P. ALLEGRANTE, PRESIDENT AND CHIEF EXECUTIVE OFFICER AND PROFESSOR 
    OF HEALTH EDUCATION, TEACHERS COLLEGE, COLUMBIA UNIVERSITY
    Mr. Allegrante. Thank you very much, Mr. Chairman.
    My name is John Allegrante, and I am indeed grateful for 
the opportunity to appear before the Subcommittee. I am the 
Senior Professor of Health Education, sometimes known as 
``Health and Clean Hands'' at Teachers College at Columbia 
University in Gotham, where I have been a member of the faculty 
for over 20 years.
    I am a past President of the Society for Public Health 
Education; and last year, I was named the new President and 
Chief Executive Officer of the National Center for Health 
Education.
    Mr. Chairman and Mr. Kennedy, I first want to thank you for 
all the support and leadership that this subcommittee has 
provided for programs and initiatives that do, indeed, invest 
in our Nation's youth. But to be frank with you, I am here to 
sound a wake-up call today.
    Specifically, I am here to request that the Centers for 
Disease Control and Prevention be funded at $35 million for 
fiscal year 2003, so that CDC can provide additional States 
with infrastructure grants for coordinated school health 
programs.
    Mr. Regula. Now you mean an increase?
    Mr. Allegrante. No, they already get about $9.6 million or 
$9.7 million, and we want an increase over that to bring it up 
to $35 million. Let me tell you why I think we should do this.
    More than 3,000 young people began smoking today; more than 
3,000. Childhood obesity has doubled in the last decade, making 
it now a national epidemic, and 10 to 15 percent of children 
are overweight, and more than half have at least one 
cardiovascular disease risk factor, such as elevated 
cholesterol, hypertension, or risk for Type 2 diabetes. Mr. 
Chairman, 21 percent of ninth graders in this country have been 
drunk at least once.
    Mr. Chairman, in your home State of Ohio, 73 percent of 
young people report having smoked cigarettes; 72 percent do not 
get even what I would call moderate physical activity; and 81 
percent ate fewer than five servings of fruits and vegetables 
daily during the past seven years.
    I think the statistics are alarming. They tell me that we 
are failing our young people, I think, in almost every 
community around this country. The cost to the Nation of not 
doing more than we are currently doing for them is, I think, 
intolerable.
    Moreover, the burden of the premature death, disease, and 
disability that we see and that results is borne 
disproportionately and dramatically so in communities where 
racial minorities predominate.
    To be honest, what I find so disturbing about these 
statistics is that something can be done. We know already what 
works. In many places, it is called coordinated school health 
programming.
    For example, Growing Healthy, our own organization's 
programming, the comprehensive school health education 
curriculum, that is part of a coordinated school health 
program, can help young people acquire the knowledge and skills 
they need to support healthy behavior.
    Yet, despite the existence of programs like Growing 
Healthy, most States do not have the resources to support 
putting them or putting programs like them into their schools 
as part of such a program.
    Now Mr. Chairman, I know that many Federal and State 
programs exist to provide schools with programs such as 
immunizations, nutritious meals, and physical education 
programs. However, most are uncoordinated. Funds for such 
programs come from a variety of Federal agencies, including 
education, agriculture, and health and human services.
    Yet, fewer than half of America's schools really have the 
capacity, if you will, to coordinate these many diverse 
programs and services that are available. I think, personally, 
that this results in costly duplication of services and a waste 
of taxpayer dollars.
    So funding this request would enable CDC to strengthen what 
we know are cost effective coordinated school health programs 
of 20 States right now currently funded through infrastructure 
grants, and support an additional six to nine States nationwide 
in fiscal year 2003, to develop similar programs.
    These funds would be used to foster critical partnerships 
between the Departments of Education and the Departments of 
Health and other related agencies in States, that would allow 
the high level State-directed coordination across programs. 
These are programs, again, Mr. Chairman, that have been shown 
to contribute to overall learning and academic success of 
students.
    Now I am not alone in this view. There have been 
independent studies, including a Gallup poll that found that 
seven out of ten adults in this country rated health 
information as important for students to learn before 
graduating from high school. We have got an opportunity to 
reach some 53 million young people indeed in schools across 
this country.
    So I see this as an investment for the future. School 
health programs can help limit the burden of chronic disease 
for our Nation, and it will pay enormous dividends in Federal 
dollars saved in the coming decades.
    In closing, I want to say that I understand the constraints 
with which the Committee works, with which our agencies of the 
Federal Government must operate.
    But I believe that when it comes to health of our children, 
like these young ladies we saw a moment ago, the diagnosis is 
clear and the treatment is really at hand. Expanding Federal 
funding of school health programs is a prescription for the 
health of our children.
    I thank you, Mr. Chairman. I hope that you will write that 
prescription.
    [The prepared statement and biography of Mr. Allegrante 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Mr. Kennedy.
    Mr. Kennedy. Yes, in Rhode Island, we had a great program 
that was put on by the Department of Agriculture, where 
children learned how to eat healthy, and also play, and learn 
how to exercise.
    It was a huge event with families and children at the Rhode 
Island Convention Center. It was the most mobbed exhibit or 
convention you have ever seen. It was all a host of folks that 
were talking about eating healthy and staying active.
    Mr. Allegrante. Sir, what if we could replicate that in 
communities beyond Rhode Island in America, and get that kind 
of excitement going?
    Mr. Kennedy. Yes.
    Mr. Allegrante. I think this modest request could help us 
do that.
    Mr. Regula. Thank you very much.
    Mr. Allegrante. Thank you.
    Mr. Regula. Mr. Kennedy, I understand you will introduce 
our next guest.
    Mr. Kennedy. Thank you, Mr. Chairman.
    I want to welcome one of our witnesses today, Sister Lapre. 
You can come up, Sister, and sit right in the middle, please. 
Thank you, Sister, for agreeing to testify today before the 
House Appropriations Labor, Health and Human Services, and 
Education Subcommittee.
    I know it takes great courage for you to share your own 
personal struggles and also the struggles of your neighbors and 
friends, and we appreciate your willingness to speak and be an 
advocate on their behalf and for all seniors.
    The power of your testimony today will help impact the 
progress that we make towards conquering mental illness in this 
Nation, and I thank you for your great work.
    Mr. Chairman, Sister Lapre has been known as the ``nun on 
the run'' in Rhode Island, for her great and extensive work, 
working with seniors all over the State, and particularly in 
Newport, Rhode Island, at the Forest Farm Adult Day Center, 
where she is involved in many activities with seniors there.
    So Mr. Chairman, I thank you for the opportunity of 
introducing Sister Lapre.
    Mr. Regula. Welcome, Sister, and we will look forward to 
your testimony.
                              ----------                              

                                         Tuesday, April 23, 2002.  

          NEWPORT COUNTY COMMUNITY MENTAL HEALTH CENTER, INC.


                                WITNESS

SISTER BERNADETTE LAPRE
    Sister Lapre. Chairman Regula and members of this 
subcommittee, thank you for giving me the opportunity to appear 
before you and share my thoughts with you today, April 23rd, 
2002, at approximately 1:00 p.m. in room 2358 on the third 
floor of the Rayburn House Office Building.
    I would like to address here my concern about funding for 
senior citizens with mental health problems. I am here on 
behalf of seniors who are homeless and depressed; seniors who 
are schizophrenic and possibly a danger to themselves and 
others, as well; and those who are suicidal.
    We recently had someone jump from the Newport Mount Hope 
Bridge in our area. Having the diagnosis of bi-polar disease 
myself, I know the suffering and feeling anxious, upset, and 
wanting to cry a lot. I also know how desperate people can 
feel.
    I ask that we get the health benefits that we need for our 
mental health problems or sickness, and that the Government 
gives us Federal aid to help us get therapy. It is very 
important for us to get therapy, so that we can deal with our 
problems. It would also help the society that we live in.
    Many clients are poor, and cannot pay for the medication, 
which is very important to help with our sickness? Why; because 
it is so expensive.
    If we have to go to the hospital, we may hesitate because 
of the expense. We also avoid taking our medication for the 
same reason. We would then become sick, again.
    In my opinion, these seniors should also go to an adult day 
care program a few times a week. This will help them to forget 
about their problems, let them meet other people, make friends, 
and also participate in different activities, which are so 
important these days. Care centers offer nutritious meals, as 
well.
    Our center offers daily exercise, health promotion, a 
variety of fun activities, and the support of a caring staff. 
I, myself, like going to Forest Farm Adult Day Care three times 
a week. It will be two years, May 1st, that I have been going.
    I have been going to a psychiatrist and a therapist for 
seven years now. I know that for myself, if funding resources 
were not paying for it, I do not think I would keep taking my 
medicine, because of the cost. What would happen is, I would 
fall sick and probably be hospitalized.
    Right now, I am doing very well, thanks to these programs. 
But more people my age need more help. Seniors do not like to 
talk about these things, because they are embarrassed. I hope 
that my testimony will help other older people to talk about 
their illness and get help.
    Thank you for listening, and I urge you to support our plea 
for funding. God Bless.
    [The prepared statement and biography of Sister Lapre 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Kennedy. Thank you very much, Sister. It was great to 
have you testify today. You really helped put a face with the 
people out there who, like you, are talking about and, like 
your own experience, have suffered tremendously from mental 
illness. I congratulate you on your enormous success, working 
to conquer your illness all the time.
    Can you explain the difference in the quality of treatment 
over the years since you have been suffering from mental 
illness most of your life and how it's been?
    Sister Lapre. I was in France for 26 years. I was getting 
help from a psychiatrist. She followed me for 26 years. And 
then I came back here to the States. I was going to say, I was 
well taking my medication and I was taking care of the children 
before school. And after that, I fell sick again. So I was 
hospitalized at Boston, at Newport Hospital. I was there for 10 
days.
    Then Dr. Klein is the one that took me over. I had a 
therapist for seven years. They have helped me a lot to deal 
with my sickness. And now instead of going every week, I go 
every three weeks, and I see Dr. Klein once every four months. 
And I'm doing very well. I know I'm shaking today. But without 
this help, I wouldn't be well today. And I'm getting a lot of 
help.
    And at the Day Fund Center, I say the rosary with them, I 
go to different ones, because we have divided now our program 
north and south. But it's adult day care just the same. I 
should have read my biography, it would have been quicker. 
[Laughter.]
    Sister Lapre. So I came back to the States and I had to go 
to the hospital for 10 days, as I was saying. Then after that, 
Dr. Klein was there and he took over. I had taken a big amount 
at the beginning. And he slowly diminished my pills. So now as 
a clorozapad, I'm only taking three grams seven, instead of 
ten.
    Mr. Regula. Well, obviously whatever you're doing works.
    Sister Lapre. Yes.
    Mr. Kennedy. She is giving so much to her community, it 
shows. She has so much to give. By helping her, we're really 
helping the whole community. She's terrific.
    Mr. Regula. Thank you. Thank you for coming and for your 
testimony.
    As I understand it, Mr. Kennedy, you're going to introduce 
our next witness also.
                              ----------                              

                                           Tuesday, April 23, 2002.

                         THE PROVIDENCE CENTER


                                WITNESS

HAVEN MILES, SUPERVISOR OF EARLY CHILDHOOD SERVICES, THE PROVIDENCE 
    CENTER
    Mr. Kennedy. Thank you, Mr. Chairman.
    It's a great honor for me to introduce Haven Miles. Haven 
is a supervisor of Early Childhood Services at the Providence 
Center, which is the largest psychiatric hospital center in 
Rhode Island. She works particularly with the young children 
and was an instrumental help in my being able to put together 
the Foundations for Learning Act, which became law last year as 
part of the Elementary and Secondary Education Act.
    So a lot of what I've learned about it, you know how 
outspoken I've been on the Committee about it, I learned from 
Haven. So I thank her for being here.
    Ms. Miles. I'm really glad to be here, too. And I'd like to 
thank the Subcommittee for allowing me to speak on behalf of 
young children who struggle with behavioral and emotional 
problems.
    I'm testifying today in support of Federal funding for 
programs that encourage a child's healthy social, emotional and 
educational development. Traditionally, education and social-
emotional development have been considered programmatically 
separate. I'm here to make the case that it is crucial for us 
to shift this paradigm and begin to develop programs that 
consider academics and emotional development equally and at the 
same time.
    I'd like to start off by telling you a couple of stories 
about children who I've had the privilege to work with. I 
encountered recently a little boy 18 months of age. After his 
second expulsion from two separate child care settings for 
biting other students, he was referred to our program. He left 
in his little wake a host of frazzled child care workers and an 
exasperated mother who was already stressed in her pursuit of 
transitioning from welfare to work.
    Was this a bad child? No. Was this a socially deviant 
child? Of course not. The fact is, biting is quite normal for a 
child this age. Some children bite more than others. Some 
children quite naturally and with little guidance learn that 
biting can't happen while others require special help in 
learning non-biting behaviors.
    This little boy came to our program and experienced a 
structured classroom setting where we could give him more 
individual attention. He also experienced success for perhaps 
the first time. We stopped the biting before it happened, and 
employed behavior management techniques that in essence 
untaught his biting behavior. After four months we transitioned 
him back to a community day care setting where he today enjoys 
social success.
    Not all children, however, are this easily remediated. I 
also work with a three year old boy who, upon arriving on his 
first day of preschool, used the length of his arm to clear off 
the teacher's desk. As one might expect, this infuriated the 
teacher and humiliated the parent. He threw a tantrum which 
nobody, the teacher nor the parent, could control. He was 
allowed back, and again, he cleared off the desk and threw 
another all-out tantrum. This time he was isolated in an empty 
classroom. After causing substantial damage to the room, he was 
expelled from the school.
    Again, this boy is not a bad child. He is a child who 
missed, for a variety of reasons, crucial developmental 
milestones. And he is in need of specialized remedial efforts 
to prepare him to enter public school. He is also a child from 
a family in which substance abuse is a major struggle.
    He has been with us now for two years. We work with him in 
a very structured classroom, using an approach that reflects 
mental health principles combined with educational techniques. 
This is not found in typical community preschool settings. And 
of course, we also work quite closely with the child's family.
    Our intention and goal is to help this child transition to 
public kindergarten with a new set of emotional and behavioral 
skills that he will use to form successful relationships with 
his peers and teachers. These skills also will be crucial to 
his academic success.
    In addition, we will share with his new teaching staff the 
techniques of this approach so they can continue his learning. 
Without the specialized services this child is receiving, I 
don't believe he would have a chance to experience social and 
academic success in school and in society.
    These examples are not isolated. In fact, they are more 
typical than many of us realize. The demand for specialized 
programs that address both the social-emotional and academic 
needs of young children is growing. I can tell you that 
enrollment at the Providence Center's early childhood program 
has doubled over the past two years.
    While programs like Head Start are a godsend to many 
children who otherwise would not have quality preschool 
experiences, they are unprepared to address the needs of young 
children with behavioral and emotional problems. Head Start 
staff members and the staffers of other child care and 
preschool programs are in critical need of the advice and 
counsel of professionals who are specially trained in early 
childhood emotional development.
    If we have the proper resources, we can help young children 
who have emotional and social problems remain in community 
settings and set them on a course toward academic success. The 
Foundation for Learning Act can help provide these resources. 
This Act is unlike any other Federal initiative, in that it 
will help make possible the development of programs that merge 
educational and emotional development principles through 
service integration and professional collaboration, so that we 
can have, in a typical community preschool classroom, teachers 
and professionals trained in early childhood development, 
working together to meet the comprehensive developmental needs 
of children, putting emotional development in the daily 
curriculum.
    I strongly urge this Subcommittee to give the utmost 
consideration to funding programs that support an integrated 
approach to the educational and emotional development needs of 
young children. I'm going to stop before the light goes on to 
ask if there are any questions.
    [The prepared statement of Ms. Miles follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman.
    Thank you, Haven. Maybe you could explain for the Committee 
how you currently, the different funding streams you might be 
able to get, if you don't have enough of the developmentally 
delayed child to get to early intervention services through 
Part C. How is it that Foundations for Learning would allow you 
in a grant program like that to get these services so that you 
can address these children's problems?
    Ms. Miles. We are designing at the Providence Center 
programs that can address the training needs for existing child 
care staff who have not been trained in their own training 
programs or their own college degree programs on how to manage 
behavior problems. There is ample evidence, material and 
information in the mental health field to provide answers to 
the immediate questions that those staff have.
    And one of the things we would wish very much to be able to 
do is to begin sharing immediately with folks who are working 
with these youngsters every day, at their places of work, child 
care centers and day care homes also, the information that they 
need, for example, about how to teach a youngster who is three 
years old, who has never had the experience of waiting before, 
how to wait, so that it becomes a successful experience for him 
rather than another failure.
    So the idea is to begin a process that can be, certainly 
Rhode Island wide. I would like to see it nationwide, in which 
the information and materials that we already have, that have 
been around for people to use for at least the last decade, to 
get those right into the hands of the people who need them this 
very minute.
    Mr. Kennedy. And so Mr. Chairman, this would address the 
problem that we were talking about in the other hearing where 
the Assistant Secretary of Education was testifying last week 
about moving Head Start into the Department of Education, and 
the real emphasis that needs to be put on literacy. They also 
acknowledged after some prodding that emotional-social 
competencies were equally as important. But maybe you could 
underscore how it is the case where social-emotional 
competencies are directly interrelated with literacy, and why 
we should be very cognizant about providing those capacities 
for teachers, just as we do literacy skills.
    Ms. Miles. Literacy skills are taught in steps. And one of 
the very first skills leading to literacy is learning how to 
play with blocks. If what a two or three year old child knows 
how to do with blocks is to throw them or hit people with them, 
he's really not ready yet to learn that first you put the big 
ones down and then you put the medium ones on top and then you 
put the little ones on top of that.
    You can't teach a child who is still in the process of 
chucking blocks at people how to pay attention long enough to 
learn that very first building block, pun intended, about how 
to begin to read. If a child is not able to tolerate a waiting 
period of longer than three or four seconds, he is not going to 
be able to attend to a highly trained, very skillful, very 
competent teacher when she is trying to demonstrate and teach 
to him and include the rest of the class in the process of 
learning that it's A for apple.
    Mr. Kennedy. So maybe having these people, teachers, get 
the education and how to deal with these children in these 
fashions may help them be better literacy teachers as well.
    Ms. Miles. Absolutely. Even the most basic of information 
about how much stimulation to have available in a particular 
classroom for a group of children can make an enormous 
difference in whether a child can sit and pay attention to a 
teacher or whether he's looking at all the drawings that are up 
on the wall.
    Mr. Regula. Mr. Wicker.
    Mr. Wicker. No questions, thank you, Mr. Chairman.
    Mr. Regula. Mr. Obey.
    Mr. Obey. No questions, thank you, Mr. Chairman.
    Mr. Regula. Thank you very much for being here.
    Mr. Miles. Thank you, Mr. Chairman.
                              ----------                              

                                           Tuesday, April 23, 2002.

                AMERICAN ASSOCIATION OF DENTAL RESEARCH


                                WITNESS

STEVEN OFFENBACHER, DIRECTOR, UNIVERSITY OF NORTH CAROLINA SCHOOL OF 
    DENTISTRY, CENTER FOR ORAL AND SYSTEMIC DISEASES, AND PRESIDENT, 
    AMERICAN ASSOCIATION FOR DENTAL RESEARCH
    Mr. Regula. Dr. Steven Offenbacher, Director of the 
University of North Carolina School of Dentistry Center for 
Oral and Systemic Diseases. Thank you for coming.
    Dr. Offenbacher. Mr. Chairman, members of the Committee, I 
am Steve Offenbacher. I'm with the University of North Carolina 
at Chapel Hill.
    I'm here today testifying on behalf of the American 
Association for Dental Research. I would like to discuss our 
2003 budget recommendations for the National Institutes of 
Dental and Craniofacial Research, as well as the Agency for 
Health Care Research and Quality and the Centers for Disease 
Control.
    The American Association for Dental Research is a non-
profit organization with over 5,000 individual members and 100 
institutional members within the U.S. Its mission rests on 
three principal pillars. One is to advance the research and 
increase knowledge for the improvement of oral health. Second 
is to strengthen the oral health research community. And third 
is to facilitate the communication and application of research 
findings.
    Mr. Chairman and members of the Committee, I want to thank 
you for this opportunity to testify about the ongoing work of 
the research community and that of the NIDCR. Dental research 
is important because it is concerned with the prevention, 
causes, diagnosis of diseases and disorders that affect the 
teeth, the mouth, jaws and related systemic diseases. Dental 
researchers are leaders in studies of disfiguring birth 
defects, chronic pain conditions, oral cancer, infectious 
diseases, including oral infections and immunity, bone and 
joint diseases, the development of new diagnostics and 
biomaterials and the interaction with systemic diseases that 
can compromise oral, craniofacial and general well-being.
    Throughout the life span, the oral cavity is continuously 
challenged by both infections that may have systemic as well as 
local implications for health. Through the research of dental 
scientists, this field continues to demonstrate that the mouth 
is truly a window to the body, and that in many ways, this is 
an important portal for infection that can spread and 
disseminate systemically.
    Research into the causes of oral diseases and new ways to 
treat and prevent these diseases is estimated to save Americans 
$4 billion annually. Oral health is essential and an integral 
part of health throughout the life span of an individual. Of 
the 28 focus areas for Healthy People 2010, the oral health is 
integrated into 20 of them. No one can truly be healthy unless 
he or she is free from the burden of oral and craniofacial 
diseases and conditions.
    Just to mention some of the extent of the problems, dental 
caries or tooth decay is one of the most common diseases among 
5 to 17 year old individuals. Eighty percent of tooth decay in 
permanent teeth is now found in about 25 percent of the school 
age children, and minority children have more than their share 
of the problem.
    According to the Centers for Medicare and Medicaid 
Services, approximately 500 million dental visits occur 
annually in the U.S., with an estimated $60 billion currently 
being spent on dental services. Yet many children and adults 
needlessly suffer from oral diseases that could be prevented. 
In fact, 30,000 Americans will be diagnosed with oral and 
pharyngeal cancers this year with more than 8,000 deaths, many 
of which could have been prevented.
    I am a dentist, and I'm proud to be a dental scientist. 
What's important in terms of research is that there have been 
new evidences that have extended the role of oral disease and 
oral infection into the mainstream of medicine. For example, we 
now understand that periodontal infections are an important 
risk factor for pre-term delivery, may increase the risk of a 
mother having a pre-term delivery almost seven fold. In these 
mothers that have pre-term delivery, we now understand that the 
oral organisms can pass through the blood stream and target the 
fetus in utero.
    For example, a mother that has periodontal disease and has 
a baby that's under 32 weeks of gestation, that premature baby 
is likely to be about 400 grams smaller because of her 
periodontal disease, the infection targeting the fetus and 
impairing the growth of that fetus. We can understand that that 
translates into a cost of approximately $30,000 in the first 
two weeks of that baby's life in neonatal intensive care costs.
    So research has taken us to the point where we've 
identified the importance of periodontal infections, and we 
need the infrastructure, we need the support to extend these 
findings and translate them into clinical applications that can 
affect the health of the public.
    We feel that we are requesting support for the NIDCR, the 
National Institute of Dental and Craniofacial Research, this 
supports the research an increase of 22 percent for the fiscal 
year of 2003 to a total appropriation of $420 million. The 
Centers for Disease Control funded at $10,839,000, we are 
recommending $17 million for fiscal year 2003. And for the 
AHRQ, we are requesting an increase in funding to $390 million.
    Thank you for your attention. This concludes my testimony 
and thank you for this opportunity to meet with this Committee.
    [The prepared statement of Dr. Offenbacher follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Mr. Wicker.
    Mr. Wicker. Well, you said a lot, Doctor, in a very brief 
time. Thank you for your testimony. I think your testimony is 
right on target and I appreciate your being here.
    Let me just ask you, in the brief time we have, about the 
cavities. You say 80 percent of the cavities occur in about 25 
percent of the children. I wonder if those children are in 
areas where the water has fluoride, and do you know the 
percentage of the drinking water in the United States that is 
fluoridated, if you could comment on the effects of that?
    Dr. Offenbacher. I'm sorry, I don't know the exact numbers. 
But I know fluoridation has a tremendous impact. For example, 
the rate of caries among non-fluoridated areas, such as in 
Asian Pacific Islanders, is extremely high in areas where there 
is no fluoride. So fluoride has a tremendous impact.
    Access to care has another impact, in terms of the ability 
of us to regulate or control the caries in these children. I 
don't know the fluoride statistics.
    Mr. Wicker. Well, maybe you could get that to the 
Committee, submit it to the record.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wicker. And also, just to say that I think this 
Subcommittee is aware that a dentist is perhaps the only 
opportunity that some people will have to see a professional 
that could possibly diagnose other problems and send them to 
other types of physicians that they need to see. So I, as one 
member of this Subcommittee, I am very supportive of all the 
dental programs, up to and including pediatric dentistry, and 
also getting our dentists out to the communities where we know 
that the area is under-served in other areas of medicine, so 
that at least there is somebody there to take a look at them 
from a professional standpoint and send them in the right 
direction.
    So thank you for your testimony.
    Dr. Offenbacher. Thank you, sir.
    Mr. Regula. Thank you very much.
                              ----------                              

                                           Tuesday, April 23, 2002.

                AMERICAN DENTAL EDUCATIONAL ASSOCIATION


                                WITNESS

DAVID JOHNSEN, DEAN, UNIVERSITY OF IOWA COLLEGE OF DENTISTRY AND 
    PRESIDENT, AMERICAN DENTAL EDUCATION ASSOCIATION
    Mr. Regula. Dr. David Johnsen, Dean, University of Iowa 
College of Dentistry. We're getting a pretty good shot on the 
dentists today. [Laughter.]
    Dr. Johnsen. Good afternoon, Mr. Chairman and members of 
the Subcommittee. My name is Dr. David Johnsen. I'm Dean of the 
University of Iowa College of Dentistry and President of the 
American Dental Education Association, representing all 55 U.S. 
dental schools.
    In 2000, the Surgeon General released a report entitled 
Oral Health in America. The document makes clear that there are 
profound disparities in the oral health of Americans amounting 
to a silent epidemic of dental and oral diseases affecting our 
most vulnerable populations.
    And there are other significant challenges within the 
infrastructure of dental education and the oral health delivery 
system. For instance, the dentist to population ratio is 
declining, decreasing the capability of the dental work force 
to meet emerging demands of society. In one-third of the 
counties in Iowa, 20 percent of the dentists are age 60 or 
more.
    Dental education debt has increased, limiting both career 
choices and practice locations. In 2000, 45 percent of 
individuals who graduated with debt over $100,000. Currently 
there are 400 budgeted but vacant faculty positions in 55 U.S. 
dental schools. Of dental students graduating in 2000, only one 
half of 1 percent plan to seek careers in academia and 
research. And lack of diversity and the number of under-
represented minorities in the oral health professions is 
disproportionate to their distribution in the population at 
large.
    We urge the following. Number one, for general dentistry 
and pediatric dentistry training programs, ADEA recommends that 
the Subcommittee adequately fund the Primary Care Cluster to 
ensure an appropriation of $15 million for these two primary 
care dental programs. These two programs provide dentists with 
the skills and clinical experiences needed to deliver a broad 
array of oral health services to the full community of 
patients. Post-doctoral general dentistry training programs 
increase access to care while training dental residents to 
treat geriatric, special needs and economically disadvantaged 
patients.
    The pediatric dentistry program began to expand after 20 
years of little change. Preventive oral health care for 
children is one of the great successes in public health. But 25 
percent of the pediatric population still experiences 80 
percent of the dental cavities. Two-thirds are Medicaid 
recipients.
    Number two, for the Health Professions Education and 
Training Programs for Minority and Disadvantaged Students, ADEA 
recommends $135 million, including $3 million for the faculty 
loan repayment program. Two programs, the Centers of Excellence 
and the Health Careers Opportunity Program, are key in 
assisting health professions schools prepare disadvantaged and 
minority students for entry into dental, medical pharmacy and 
other health professions. The faculty loan repayment program is 
the only Federal program that endeavors to increase the number 
of economically disadvantaged faculty members.
    Number three, for the Ryan White HIV-AIDS reimbursement 
program, ADEA recommends an appropriation of $19 million. This 
program increases access to oral health services for HIV-AIDS 
patients and provides dental students and residents with 
education and training. In 2001, 85 dental programs treated 
more than 66,000 patients who could not pay for services 
rendered.
    Number four, for the National Health Service Corps 
Scholarship and Loan Repayment Program, ADEA supports the 
President's recommended funding level of $191 million. Programs 
assist students with the rising costs of financing their health 
professions education while promoting primary care, access to 
under-served areas. NHSC should open the scholarship program to 
all dental students and increase the number for dental hygiene 
students.
    Number five, for the National Institute for Dental and 
Craniofacial Research, NIDCR, ADEA joins the American 
Association for Dental Research in requesting an appropriation 
of $420 million for NIDCR. Likewise, ADEA urges the 
Subcommittee to encourage NIDCR to expand loan forgiveness 
programs to researchers. Through collaborative efforts with 
NIDCR, oral health researchers in U.S. dental schools have 
built a base of scientific and clinical knowledge that has been 
used to dramatically improve oral health in this country.
    In conclusion, Mr. Chairman, I thank you again for the 
opportunity to present fiscal year 2003 budget requests for 
dental education and research programs, and urge the 
Committee's support. Thank you.
    [The prepared statement of Dr. Johnsen follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Thank you. Mr. Obey.
    Mr. Obey. No questions, thank you, Mr. Chairman.
    Mr. Regula. Mr. Wicker.
    Mr. Wicker. Nothing, thank you.
    Mr. Regula. Thank you for being here.
                              ----------                              

                                           Tuesday, April 23, 2002.

                 COALITION FOR INTERNATIONAL EDUCATION


                                WITNESS

DAVID WARD, PRESIDENT, AMERICAN COUNCIL ON EDUCATION ON BEHALF OF THE 
    COALITION FOR INTERNATIONAL EDUCATION
    Mr. Regula. Mr. David Ward, President of the American 
Council on Education.
    Mr. Ward. Mr. Chairman and members of the Subcommittee, my 
name is David Ward, and I am President of the American Council 
on Education, an association representing 1,800 public and 
private two and four year colleges and universities. Prior to 
that, I was Chancellor of the University of Wisconsin-Madison, 
in the same State as the Ranking Member.
    One of our top priorities is Federal student aid. Before I 
address today's topic, I would like to thank the Chairman, the 
Ranking Member and the rest of the Subcommittee for their 
support of the Pell Grant program and campus-based student aid 
programs. In addition, we thank the Committee for its support 
of scientific research, specifically a longstanding commitment 
to double the budget of the National Institutes of Health.
    Today I am here to present testimony on behalf of the 
Coalition for International Education on the fiscal year 2003 
appropriations for the Title VI programs in the Higher 
Education Act and the Mutual Educational and Cultural Exchange 
Act, commonly known as Fulbright-Hays. The Coalition is an ad 
hoc group of 28 national higher education organizations, with a 
focus on international education, foreign language and exchange 
programs. We express deep appreciation for the Subcommittee's 
long-time support for these programs, especially for the 
significant infusion of funding in fiscal year 2002.
    The recent terrorist threats we're being forced to address 
only underscore the importance of training specialists in 
foreign languages, cultures and international business. 
Developing the international expertise of the U.S. will need in 
the 21st century sustained financing. At the top of the list is 
adequate support for Title VI and Fulbright-Hays.
    Just as the Federal Government maintains military reserves 
to be called upon when needed, it must invest in an educational 
infrastructure that steadily trains a sufficient number and 
diversity of American students. International expertise cannot 
be produced quickly. It must be cultivated and maintained. 
Moreover, we cannot continue to prepare for yesterday's 
problems, but we must build upon our existing knowledge base to 
equip our Nation to meet tomorrow's challenges in international 
matters.
    Responding to demands to protect national security in a 
broad range of arenas throughout the U.S. and the world, 
virtually every Federal agency is engaged globally. One 
estimate is that over 80 Federal agencies and offices rely on 
human resources with foreign language proficiency and 
international experience. Despite their own language training 
programs, several agencies are now scrambling to address 
deficiencies in the less commonly taught and difficult to learn 
languages, such as those of central Eurasia, south Asia, and 
the Middle East. Faced with shortages of language experts after 
September 11th, the FBI sought U.S. citizens fluent in Arabic, 
Persian and Pashto to help with the Nation's probe into the 
terrorism attack. One Federal agency estimated its total needs 
to be 30,000 employees dealing with more than 80 languages.
    Title VI and Fulbright-Hays are among the few programs the 
Federal Government supports that provide the necessary long 
term investment in building language and foreign area capacity 
that responds to national strategic priorities. At roughly $100 
million, this is one of the smallest investments the Government 
makes in national security, but it pays extraordinary 
dividends.
    National security is also linked to commerce, and U.S. 
business is widely engaged around the world in joint ventures, 
partnerships and other linkages that require employees to have 
international expertise. A recent study on the 
internationalization of American business education found that 
knowledge of other cultures, cross cultural communications 
skills, international business experience and foreign language 
fluency rank among the top skills sought by corporations 
involved in international business.
    Title VI supports important programs that internationalize 
business education and help small and medium size U.S. 
businesses access emerging markets, a boost toward reducing the 
trade deficit and creating more U.S. jobs. The U.S. Department 
of Commerce reports that 97 percent of all U.S. export growth 
in the 1990s was contributed by small and medium size 
companies. Yet, only 10 percent of these companies are 
exporting. The most common reasons cited by U.S. businesses for 
not pursuing these export opportunities is a lack of knowledge 
and understanding of how to function in the global business 
environment.
    Research is needed to identify specific policy measures and 
avenues of public and private sector cooperation that will make 
possible both homeland security and continued economic growth. 
The Centers of International Business Education Research 
supported by Title VI have made great strides in 
internationalizing U.S. business education. Globalization is 
also driving new demands for globally competent citizens, and 
international knowledge in almost all fields of endeavor, 
including health, the environment, journalism and the law.
    Although funding has increased over the last three years in 
constant dollars, these programs are below the fiscal year 1967 
levels. The overall erosion of funding, combined with expanding 
needs and rising costs, have contributed to the shortfall in 
international expertise that our Nation requires.
    Last year's funding increase was an important step towards 
accomplishing our Nation's strategic objective in Title VI and 
Fulbright-Hays funding. As a next step for fiscal year 2003, 
the Coalition recommends $122.5 million, a total increase of 
$24 million for Title VI and Fulbright-Hays programs, to be 
allocated as outlined in my written testimony.
    That is the end of my testimony. I would be happy to take 
questions.
    [The prepared statement of Mr. Ward follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Thank you. Mr. Obey.
    Mr. Obey. Mr. Chairman, let me simply say that in my 
judgement, we can usually say that the need to fund programs in 
education and science is usually inversely proportional to the 
degree of political power demonstrated by their advocates, or 
the political sexiness of the programs. Not many members of 
Congress are going to get gold stars going home bragging about 
what they've done to promote international education.
    But I think events such as September 11th demonstrate the 
wisdom of doing that. I was struck by the fact that, 
Chancellor, in your statement you have this sentence: fiscal 
year 1967, Title VI funded three programs that still exist, the 
National Resource Centers, FLAS fellowships and Research and 
Studies. Their combined estimated funding for fiscal year 2002 
is about $58 million, or 32 percent below fiscal year 1967, 
high point of $87 million in constant dollars.
    It seems to me that our national interest in supporting 
these kinds of programs has not declined since that time, 
although the public interest and the political interest 
certainly had, until September 11th. But I'm glad to see that 
you're here supporting these programs. I must also say, I 
confess I'm not objecting. Because I wouldn't be here if it 
weren't for those programs. After Sputnik hit the newspapers in 
1958, I received one of those three year fellowships in the 
Russian area studies program. If I hadn't, I wouldn't be here 
today. That might be regarded by some as a good reason not to 
support the program. [Laughter.]
    Mr. Obey. Nonetheless, I think it's an important program. I 
thank you for being here today and support it.
    Mr. Ward. I appreciate that.
    Mr. Regula. Mr. Wicker, you're going to introduce the next 
witness.
    Thank you very much for coming.
                                           Tuesday, April 23, 2002.

                  COUNCIL FOR OPPORTUNITY IN EDUCATION


                                WITNESS

REVEREND CLARENCE E. SMITH, REGISTRAR, RUST COLLEGE, HOLLY SPRINGS, 
    MISSISSIPPI
    Mr. Wicker. Mr. Chairman, and my colleagues on the 
Subcommittee, I am delighted to introduce Reverend Clarence 
Smith. The record will show that he is Registrar at Rust 
College in Holly Springs, Mississippi, that previously he was 
Director of the Upward Bound program at Rust College. But he is 
also my very good friend and neighbor. He works in Holly 
Springs, but commutes back and forth to my home town of Tupelo, 
Mississippi. Our children are in school together, and he is a 
valuable member of our community.
    I have but one concern, and that is that Mr. Smith recently 
surrendered to the ministry and is going to seminary also. To 
limit a Baptist minister to five minutes----
    [Laughter.]
    Mr. Wicker. I don't know if it's humanly possible, Mr. 
Chairman. But Reverend Smith is here, and we're delighted to 
have him here. I will yield and then I'll reclaim my time.
    The first person to ever tell me about the TRIO program was 
our next witness, and I appreciate that. We're delighted to 
have you here, Clarence.
    Rev. Smith. Mr. Chairman and members of the Subcommittee, 
my name is Reverend Clarence E. Smith, and I am presently the 
Registrar at Rust College in Holly Springs, Mississippi. Prior 
to this position I was the Director of the TRIO program at Rust 
College for about 11 years, and I'm still very involved in the 
three TRIO programs that are currently on the campus.
    I am testifying today on behalf of the Council for 
Opportunity in Education, which represents administrators and 
counselors working in TRIO programs nationally. Chairman 
Regula, before I proceed with my testimony, I would like to 
thank you and other members of the Subcommittee for your strong 
commitment to the TRIO programs over the past few years, and 
for expanding student access to these programs.
    In particular, I would like to acknowledge my Congressman, 
Congressman Roger Wicker, whom I have known for about eight 
years and who has been a great supporter of TRIO programs and 
Rust College. I have also had the privilege of presenting a 
regional award to him for his outstanding support of TRIO 
programs.
    As you know, the TRIO programs are a complement to the 
student financial aid programs and help students to overcome 
the class and academic barriers that prevent many low income 
first generation college students from enrolling in or 
graduating from college. The five TRIO programs work with young 
people and adults from sixth grade through college graduation. 
Currently, there are almost 2,600 TRIO projects serving some 
823,000 needy students.
    Now, I would like to tell you a little about the programs 
at Rust College. Rust College is a four year liberal arts 
institution, and it is the oldest historically black 
institution in the State of Mississippi. For over 30 years, 
Rust College has been the host for three TRIO programs, Student 
Support Services, Talent Search and Upward Bound.
    The Rust College Upward Bound programs help eligible high 
school students prepare for, pursue and complete post-secondary 
education. As an incentive, Rust College also provides a $2,400 
scholarship for each Upward Bound student who graduates from 
high school and enrolls at Rust College. The Rust College 
Education Talent Search Scholars Program also helps students 
complete high school and enroll in post-secondary education. 
But this program begins serving students at the middle school.
    For both the Upward Bound and Talent Search programs, Rust 
College serves four school districts located in rural counties 
such as Benton, Marshall and Tate, which are economically 
disadvantaged regions of the State. Rust College feels strongly 
that providing services to the students in the target areas 
through Talent Search and Upward Bound tremendously helps level 
the playing field for those students, and also gives them equal 
access to post-secondary education.
    The Rust College Student Support Services program helps to 
increase the retention and graduation rate of eligible college 
students and tries to promote an institutional climate that 
enhances the success of these students. I have been able to 
witness first-hand the effectiveness of TRIO, and now I would 
like to share with you the success story of one of my students 
who benefitted from the TRIO programs at Rust College.
    Charles LeSure came from a single parent family where his 
mother had a meager income but had a desire for her children to 
be successful. He entered the Upward Bound program at Rust 
College after being referred by a counselor, because he had 
academic need. While he thought about going to college, he did 
not have extra support needed to help him prepare for college. 
And he needed the Upward Bound program to help him stay 
focused.
    Of course, coming from a rural area, he also needed the 
cultural experience and exposure that Upward Bound brings. He 
graduated from high school and entered Rust College in the fall 
of 1992. With the help of the Student Support Services program 
at Rust, he graduated in 1996. Currently, he is a math teacher 
in the Memphis City School System and an associate minister at 
Anderson Chapel C.M.E. Church.
    Current funding levels seriously limit the ability of TRIO 
to serve more students and to strengthen the quality of program 
services. There are almost 9.6 million low income students, 
from middle school to college, currently eligible for TRIO. And 
the demographics will show that.
    For these reasons, the Council is recommending an 
appropriation of $1 billion for TRIO in the fiscal year 2003, 
an increase of $200 million. At this level of funding, the TRIO 
programs will be able to serve almost 100,000 additional 
students and strengthen existing services.
    The Council also supports the Student Aid Alliance fiscal 
year 2003 funding request, which includes a $500 increase for 
the minimum Pell Grant award, to $4,500.
    Mr. Chairman, Committee, we deeply appreciate and pray that 
you will consider our views. I will be happy to entertain any 
questions that you may have.
    [The prepared statement and biography of Rev. Smith 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Mr. Wicker. Mr. Obey.
    Mr. Obey. I do have just one comment. I have been a strong 
supporter of TRIO ever since I have had a chance to deal with 
that on the Subcommittee. But I would simply ask one thing of 
the folks who are for TRIO and the folks who are for GEAR UP. 
That is that they not fight each other.
    I don't think the needs of the students who are served are 
going to be very well met if we have a lot of time spent with 
TRIO people begrudging what is appropriated for GEAR UP and 
vice versa. So to the extent that you can deliver that message 
to both organizations, I would appreciate it.
                              ----------                              

                                           Tuesday, April 23, 2002.

                    COALITION FOR COMMUNITY SCHOOLS


                                WITNESS

MARTIN J. BLANK, STAFF DIRECTOR, COALITION FOR COMMUNITY SCHOOLS, 
    INSTITUTE FOR EDUCATIONAL LEADERSHIP
    Mr. Regula. Okay, Mr. Hoyer, thank you for coming and 
introducing our next witness.
    Mr. Hoyer. Thank you, Mr. Chairman.
    I'm glad to welcome at this point in time Mr. Martin Blank, 
who is the Staff Director of the Coalition for Community 
Schools, Institute for Educational Leadership. Mr. Chairman, 
the Coalition is an alliance that brings together leaders and 
networks and education family support, youth development, 
community development, government and philanthropy behind a 
shared vision of full service community schools, where 
community resources and capacity are mobilized around children 
in public schools to support student learning. As you know, Mr. 
Chairman, that's something I've been talking about for well 
over a decade.
    Marty Blank has extensive experience in research, practice 
and policy related to full service community schools. Now, 
that's his CV. He is also married to a very extraordinary 
woman, Helen Blank, who is the Executive Director of the 
Children's Defense Fund, and with whom I have worked for more 
than a decade on issues related to children and families. She 
does an extraordinary job herself.
    So Marty and Helen are two extraordinary Americans serving 
children in our country. And we welcome him here today.
    Mr. Blank. Thank you, Mr. Hoyer. It's always a privilege to 
follow in your footsteps and particularly in my wife's.
    Mr. Hoyer. I had the same experience.
    Mr. Blank. I know you have, and that's why we've been so 
pleased with your support of full service community schools.
    Mr. Chairman, I am Marty Blank, Staff Director of the 
Coalition for Community Schools. My thanks to you, Mr. Chairman 
and the Subcommittee, for the opportunity to testify today.
    Research and common sense tell us that children from all 
income groups experience barriers to learning. We've heard 
about some of them today, the health, the mental health, the 
dental issues that young people experience. In addition, there 
are other barriers, unstructured time after school, lack of 
engagement in learning, poverty in absence of family support, 
student mobility, risky behavior, violence, absenteeism. These 
all affect student learning. And full service community schools 
address these needs in an intentional and strategic way.
    Full service community schools are public schools open to 
students, families and community members before, during and 
after school, all year long. They have high standards and 
expectations, qualified teachers, rigorous curriculum. At a 
typical full service community school, the family support 
center helps with early childhood development, parent 
involvement in education. Employment and other services, 
medical, dental, mental health and other services are readily 
available. Before and after school programs build on classroom 
experiences and help students expand their horizons. Parents 
and community residents participate in adult education and job 
training. The school curriculum uses the community as a 
resource to engage students in learning and service, and 
prepares them for adult civic responsibility.
    Educators, families, students and community agencies and 
organizations decide together what services and opportunities 
are necessary to support student learning. No model is imposed 
upon them. Research based strategies are applied.
    You may be asking yourself, do we expect schools to do all 
of this work? The answer is no. Rather, a full time 
coordinator, in many instances hired by a partner community 
organization, works with the principal to link the school to 
the community and manage the additional supports and 
opportunities available at a community school. Working with a 
partner organization helps take the burden off principals and 
teachers, so they can focus on teaching and learning.
    Who pays for this? Financing is a shared responsibility. 
the school funds the core instructional program and facilities 
costs, obviously, but together the school and its community 
partners fund the various services by coordinating and 
integrating Federal, State, local and private funding streams 
from Education, Health and Human Services, Justice, many of the 
programs this Committee funds, as well as private sources.
    Community partners include every sector of the community, 
parks and recreation, child and family agencies, youth 
organizations like the Ys, the Boys Clubs, United Way, small 
and large business, museums, hospitals, the Forest Service, 
police and fire departments are all involved in this effort in 
communities across the country.
    Do full service community schools work? Evaluation data 
from 49 different initiatives compiled by leading authority Joy 
Dreyfuss demonstrates their positive impact on student 
learning, on healthy youth development, on family well being 
and on community life. Moreover, community schools have strong 
community support, strong public support. A recent poll by the 
Knowledge Works Foundation in Ohio found that two-thirds or 
more of Ohioans support community use of school facilities for 
the kinds of programs envisioned in a full service community 
school.
    How can this Committee help to promote this promising 
approach? At the present time, various agencies of the Federal 
Government fund programs that should be integrated in a full 
service community school. Too often, however, these programs 
are fragmented and not focused on our key national priority: 
improving student learning. The No Child Left Behind Act 
requires States and local education agencies to coordinate and 
integrate Federal, State and local services to help support 
student learning.
    We believe that to ensure the effective implementation of 
this provision and to create full service community schools, 
States and local education agencies need incentives and 
technical assistance. Therefore, we ask this Committee to do 
the following.
    First, support a State full services community schools 
incentive program that provides willing States with flexible 
funds to create an infrastructure for full service community 
schools. Support a similar program for local education agencies 
that work in partnership with other organizations. Support a 
national full service community schools support center where 
research on this issue, coordination of training and technical 
assistance and recognition programs can be implemented. And 
finally, support the core underlying programs that must be 
integrated at a full service community school, particularly 
those where educators and community agencies must work 
together, such as the 21st Century Community Learning Program, 
the Safe Schools Healthy Students Program, and Learn and Serve 
America.
    In conclusion, Mr. Chairman, the Coalition believes that 
bringing schools together with the assets of organizations and 
individuals in our communities and with our families to improve 
student learning is a common sense policy approach. Full 
service schools help ensure that schools have support from 
families and communities for the education enterprise that is 
so vital to the future of our democratic society.
    Thank you very much, and I'd be pleased to answer any 
questions you may have.
    [The prepared statement of Mr. Blank follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. If I understand you correctly, any school could 
become a full service school, depending on its willingness?
    Mr. Blank. That's correct, Mr. Chairman.
    Mr. Regula. Your group's function is to encourage the 
development of these kinds of units across the country?
    Mr. Blank. That's quite correct, sir.
    Mr. Regula. Thank you.
    Mr. Hoyer.
    Mr. Hoyer. Mr. Chairman, I don't have a question, but I 
want to thank Marty for his testimony. The points that he has 
made with respect to grant programs to fund the full service 
community school grant program and the State full service 
program as well as a support center funding, all of these I 
think tie into what we need to do on this Committee, and what 
I've urged in particular three Departments under our aegis to 
do, and that is, obviously Health and Human Services that has 
Head Start, in some respects now fully integrated at about a 
quarter of the schools across the Nation, but not integrated in 
about three quarters, and the President has spoken about that, 
as you know. As well as educational health services that come 
under both Department of Education and HHS. But also programs 
for work incentive programs, worker training programs, adult 
education programs which come under both Education and Labor.
    In addition to that, of course, we have six or seven other 
Departments including HUD, Agriculture and Nutritional 
Services. The point is, Mr. Chairman, the full services school 
concept is, as you know, that we have invested a lot of money 
in a central, the only central facility that every community 
has. Perhaps a fire hall or fire service is the other one. But 
the only one that every community has, that is an elementary 
school. If we fully utilize and coordinate these services, we 
can get more bang for the buck that we appropriate, because 
they will be coordinated and made much more efficient in terms 
of delivery to those people who need them. That's the whole 
concept of full service schools.
    Mr. Chairman, I want to work with you over the next coming 
months before we mark up the bill to see if we might start, 
I've talked about this for a long time, and we're going to 
introduce a piece of legislation, hopefully within the next 
month. We've been working with Congressional Research Service. 
Before we introduce it, I'm going to show it to you. I'd love 
to have you look at it and if you think it's a good idea, to 
co-sponsor it with me, along with others, but to see if we can 
in effect energize this effort of utilizing our resources more 
efficiently in this bill that we're going to mark up shortly.
    Again, Marty, thank you very much for not only your 
testimony but for the work that both you and Helen do.
    Mr. Regula. How many units are there across the Nation that 
do this?
    Mr. Blank. It's a challenging question, Mr. Chairman. We 
think there are several thousand schools that reflect this full 
vision that I articulated. Many have pieces of this, and as you 
correctly pointed out earlier, we are trying to get people to 
see and understand this notion, this idea, and the kind of 
support that we're seeking from this Committee will help us to 
move that idea forward into implementation. And in addition to 
all the goals that Mr. Hoyer articulated, we believe this 
approach has a real connection to the student learning 
objectives that are so important to this Committee, to the 
President and the country.
    Mr. Regula. That's an interesting thing. I have a couple in 
my district that are headed that way, they're open 18 hours a 
day and the community is involved. One of them has the YMCA 
right in the building. That's the newest thing.
    Mr. Blank. Right. Ohio is building many new schools, as you 
are probably aware, because of the age of its facilities. We 
would like to see them built in this way, because we believe 
that it really engages all Americans in educating all our 
children.
    Mr. Regula. Makes a lot of sense. Thank you for coming.
    Mr. Blank. Thank you so much.
    Mr. Hoyer. Marty, if I can, before you leave, because the 
Chairman asked the question how many there are, as you know, 
Mr. Chairman, because we've had some conversations, we're going 
to try to coordinate a schedule for you to go out to Eva Turner 
in Charles County, which is a partially full service school. 
We're not exactly where we want to be, but it's certainly a 
multi-service school.
    Marty, do you remember the school that I visited in New 
York, whatever the number was?
    Mr. Blank. Yes, IS 218, a school that's been a partnership 
between the Children's Aid Society and the Community School 
District Number 6.
    Mr. Hoyer. It is an extraordinary school, Mr. Chairman. 
When you're up in New York, this is north of the GW Bridge, 
large Latino population in that area. They are doing some 
extraordinary work with multi-service----
    Mr. Blank. Right. They also have a site here in the 
District of Columbia which might be another possibility for a 
visit as well, Mr. Hoyer.
    Mr. Hoyer. Obviously, yes. Thank you.
    Mr. Regula. Thank you.
                              ----------                              

                                           Tuesday, April 23, 2002.

                    ASSOCIATION OF TECH ACT PROJECTS


                                WITNESS

PAUL RASINSKI, EXECUTIVE DIRECTOR AND CONSUMER, MARYLAND TECHNOLOGY 
    ASSISTANCE PROGRAM
    Mr. Regula. Mr. Hoyer, I understand you want to introduce 
our next witness.
    Mr. Hoyer. Mr. Chairman, I've been very involved in 
assistive technology, and you have been very helpful as last 
year, as you recall, we cooperated with the authorizing 
committee to preclude the assisted technology grant from 
lapsing, as it would have happened under the legislation.
    I'm pleased to welcome to the Committee Mr. Paul Rasinski, 
who is the Executive Director of the Maryland Technology 
Assistance Program, otherwise known as MTAP. Born and raised in 
Baltimore, Mr. Rasinski takes pride in assisting individuals 
with disabilities in our community, and we thank him for that.
    He graduated from Coppin State College, began his career in 
education as an industrial arts instructor in the Baltimore 
City School System. He sustained a spinal cord injury in a 
sports accident, and spent many years rehabilitating his 
physical health and endeavoring to develop a new career. He 
has, out of adversity, given great, positive effect to his own 
injury and imparted great, positive wisdom to others. He joined 
the staff of the Maryland Technology Assistance Program as the 
Education Liaison. The position entailed, among other 
responsibilities, assisting parents and educators in the proper 
selection and use of assistive technology for the individual 
education plans of children with disabilities.
    He was promoted assistant director in 1996 and on July 1st, 
1997, assumed the position of executive director. He testified 
last month before the Education and Work Force Subcommittee on 
21st Century Preparedness on this subject. Mr. Chairman, I am 
hopeful that the authorizing committee will move legislation. I 
have had discussions, I know you have talked to them as well. 
Mr. Rasinski gave very compelling testimony there. And I 
welcome him before our Committee today. Thank you for being 
here, Paul.
    Mr. Rasinski. Good afternoon, Mr. Regula, and the rest of 
the members of the Subcommittee. Thank you for this opportunity 
to share with you my thoughts about State programs funded by 
the Assistive Technology Act. I want to especially thank our 
Maryland representative, Mr. Hoyer, and the rest of the 
Committee for your efforts last year, and throughout the years, 
to assure that assistive technology projects have continued to 
be funded.
    The Assistive Technology Act of 1998 will be considered for 
reauthorization next year, but without your support in this 
legislative session, many of the projects will be terminated. 
Before this year, and the activities of the House Subcommittee 
on 21st Century Competitiveness, it had been almost a decade 
since the House of Representatives had held a hearing on this 
law. So much has happened over that decade, both in terms of 
the accomplishments of the State grant programs, and in the 
advances we have seen in technology. Remember that only a 
decade ago, none of us used e-mail.
    I am here today representing the Association of Tech Act 
Projects, and to enlist your support in including an amendment 
to the Assistive Technology as part of fiscal year 2003 Labor, 
Health, Human Services, Education Appropriations bill again 
this year as you did last year. As you said earlier today when 
I met you, you said this was quite an important topic, and I 
believe you. Last year, the amendment saved nine States from 
being terminated from this important program that ensures that 
people with disabilities will have access to assistive 
technology that they need.
    This year, we need your help again, as without an attached 
amendment, 23 States will be eliminated from funding. The 
States which will be eliminated are Arkansas, Alaska, Colorado, 
Illinois, Indiana, Iowa, Kentucky, Maine, Maryland, 
Massachusetts, Minnesota, Mississippi, Nebraska, Nevada, New 
Mexico, New York, North Carolina, Oregon, Tennessee, Utah, 
Vermont, Virginia and Wisconsin. As you can see, many of your 
members here today represent those States. We would enlist your 
help to continue our services in those States.
    We request that the funding for Title I of the Assistive 
Technology Act be provided at a $34 million level. This would 
return us to the level of funding we received in fiscal year 
2000. In addition, we request that you include the following 
amendment, which would ensure that no State would be eliminated 
from the program:
    Provided that funding provided for Title I of the Assistive 
Technology Act of 1998, the AT Act, shall be allocated 
notwithstanding Section 105(b) of the AT Act; provided further 
that Section 101(f) of the AT Act shall not limit the award of 
an extension grant to three years; and provided further that no 
State or underlying area awarded funds under Section 101 shall 
receive less than the amount received for fiscal year 2002 and 
funds available for increases over the fiscal year 2002 
allocations shall be distributed to States on a formula basis.
    I'm going to kind of go away from my written speech for a 
few moments, and tell you what the $34 million provides. Each 
State has a Tech Act project, and there are also six 
territories. Each program takes the dollars that we get from 
the Federal Government and coordinates efforts throughout each 
State, along with other programs, to have the commission on 
aging, education departments, anyone that has any dealings with 
persons with disabilities. We enhance their programs by 
educating them as to what assistive technology does for the 
people, the students in school, workers on the sites, seniors 
who are going home now and finding out that the houses that 
they have lived in for many, many years are inadequate for 
their needs. Ramps have to be built, stair lifts added, and we 
do a lot of coordinating of the efforts that the person with a 
disability just has to have within their lifestyle.
    In conclusion, I'd like to say that in 2004, the Assistive 
Technology Act is scheduled for reauthorization by Congress. I 
and my colleagues around the country look forward to working 
with you to develop new ways to support access to technology 
for people with disabilities. We hope that you will ensure 
continued support for programs in the 56 States and 
territories, including the amendment to the Assistive 
Technology Act as part of fiscal year 2003 Labor, Health, Human 
Services, Education appropriations bill again this year as you 
did last year.
    We request that the funding for Title I of the Assistive 
Technology Act be provided at the $34 million level. We believe 
that this Federal leadership role provides the infrastructure 
and seed money that leverages a great range of programs and 
services that are critical to people with disabilities. For 
example, all the Title III loan programs are administered by 
Title I State programs. If there were no Title I program 
infrastructure, there would be no Title III loan programs.
    We are most grateful to you for your leadership on behalf 
of Americans with disabilities who depend on assistive 
technology for their independence and their full participation 
in society. Thank you very much, and I welcome any questions 
you might have.
    [The prepared statement of Mr. Rasinski follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Hoyer. I don't have any questions, but I thank Mr. 
Rasinski for his testimony, and we'll certainly work toward the 
objective that he seeks. I think it is so critically important, 
for as he points out, a lot of States that are represented on 
this panel. But much, much more importantly for thousands of 
people who are enabled and empowered to participate in our 
society through the use of assistive technology. Thank you.
    Mr. Rasinski. Thank you.
                              ----------                              

                                           Tuesday, April 23, 2002.

                       UNITED NEGRO COLLEGE FUND


                                WITNESS

JOHN HENDERSON, PRESIDENT, WILBERFORCE UNIVERSITY
    Mr. Regula. Next is Dr. John Henderson, President of the 
Wilberforce University. Dr. Henderson.
    Mr. Henderson. Good afternoon, Mr. Chairman and Mr. Hoyer. 
My name is John Henderson, the President of Wilberforce 
University in Wilberforce, Ohio. But today I appear on behalf 
of the United Negro College Fund, UNCF, the Nation's oldest and 
most successful African-American higher education assistance 
organization. Since 1944, UNCF has been committed to increasing 
and improving access to college for African-Americans, and 
remains steadfast in its commitment to enroll, nurture and 
graduate students who often do not have the social and 
educational advantages of other college going populations.
    This Subcommittee has attentively listened and responded to 
our concerns in the past, and for this we gratefully thank you. 
There is no more important partner in the HBCU's mission to 
provide excellence and equal opportunity in higher education 
than the Federal Government.
    Mr. Chairman, the Labor, Health and Human Services 
Education Appropriations Subcommittee can play a major role in 
enhancing the capacity of HBCUs. Allow me to highlight the key 
points of UNCF's recommendations in order to convey to the 
Committee the importance and the value of American's HBCUs. The 
primary support for low income first generation students at 
HBCUs and all college campuses has been the Department of 
Education's Title IV student financial assistance programs, in 
particular, the Pell Grant and Federal Supplemental Educational 
Opportunity grants.
    With increasing numbers of low income first generation 
students on our UNCF campuses, even with the longstanding 
efforts to keep costs down, an increasing number of students 
face a gap between the cost of education and the combination of 
Federal aid, State and institutional assistance for which they 
qualify and their families' capacity to meet college costs.
    All institutions across the Nation, especially those like 
UNCF members, and other HBCUs that enroll large numbers of poor 
students, are extremely concerned about how Congress will 
address the Pell Grant shortfall. Under your leadership, Mr. 
Chairman, Congress provided the necessary funds to increase the 
Pell Grant maximum award to a record level $4,000. And I can 
personally attest to you the impact that this has had in 
assisting some of our most low-risk disadvantaged students on 
the Wilberforce University campus.
    For this reason, UNCF supports a $4,500 Pell Grant maximum 
award in fiscal year 2003. Moreover, as both a member of the 
student aid alliance and a representative of 39 of the Nation's 
HBCUs whose very mission and purpose is the education of 
disadvantaged and poor students, UNCF urges Congress to include 
funds to eliminate the shortfall in the fiscal year 2002 
supplemental.
    UNCF also appeals to Congress to not offset the necessary 
funds needed to eliminate this shortfall by cutting fiscal year 
2002 appropriations for other programs in the Labor, Health and 
Human Services Education Bill. Since student enrollment at 
Wilberforce and other historically black colleges and 
universities is directly related to the increased demand for 
Pell Grants, your support of the supplemental fiscal year 2003 
appropriations is important.
    In ensuring low income students access to college, we must 
make sure that these students are receiving quality, early 
information about college and that we are providing the 
necessary student support services to truly ensure their 
retention and graduation. In this regard, UNCF endorses the 
student aid alliance request for TRIO as well as continued 
funding of the supplemental to TRIO's student services support 
program.
    Members of the Committee, not only do we need your support 
for increased funding for the Title IV programs, we also need 
you to further your investment in HBCUs through the Title 
III(B) Strengthening Historically Black Colleges and 
Universities Program. These programs have been very 
instrumental in enhancing the survival of HBCUs.
    In the wake of September 11th, under this Subcommittee's 
leadership, there was a dramatic increase in Title VI 
international education programs. UNCF applauds this action and 
urges you this year to further expand HBCU and minority student 
participation in Title VI programs through affirmative outreach 
and technical assistance efforts for both the overseas and 
domestic programs and the international business programs, and 
to provide increased funding for the Institute for 
International Public Policy.
    Mr. Chairman, UNCF also supports an increase to minority 
science and engineering improvements programs, and the Thurgood 
Marshall Legal Opportunities Program, that addresses access and 
opportunity for under-represented minorities in law.
    As I conclude my testimony, I ask that you consider 
increased funding also for programs at the Department of Health 
and Human Services that educate many African-Americans in the 
health professions and that support research activities on HBCU 
campuses.
    Mr. Chairman and members of the Subcommittee, I appreciate 
the time that you have given me to represent the views and 
representations of the United Negro College Fund.
    [The prepared statement and biography of Mr. Henderson 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you, Mr. Henderson. Thank you for coming.
                              ----------                              

                                           Tuesday, April 23, 2002.

       NATIONAL COUNCIL FOR COMMUNITY AND EDUCATION PARTNERSHIPS


                                WITNESS

HECTOR GARZA, PRESIDENT, NATIONAL COUNCIL FOR COMMUNITY AND EDUCATION 
    PARTNERSHIPS
    Mr. Regula. Mr. Hector Garza, President of the National 
Council for Community and Education Partnerships.
    Mr. Garza. Good afternoon, Mr. Chairman, members of the 
Subcommittee. My name is Dr. Hector Garza, I serve as President 
of the National Council for Community and Education 
Partnerships.
    Today Ms. Corey Barber, representing the U.S. Student 
Association, is present with me to signal the support on behalf 
of GEAR UP, on behalf of America's college and university 
students as well.
    Additionally, I also have with me written letters of 
support from several other education organizations, Mr. 
Chairman, who also wish to be recognized as supporters for GEAR 
UP. I do hope that you will allow me to enter these as part of 
the official record.
    NCCEP is an non-profit organization founded by the Ford 
Foundation and the W.K. Kellogg Foundation to help schools, 
colleges, universities and communities to improve public 
education, to promote student achievement, and above all, to 
increase access to college for all students, Mr. Chairman. 
Today I will be talking to you about the Gaining Early 
Awareness and Readiness for Undergraduate Programs, the GEAR UP 
program, the program that Mr. Obey previously talked about. A 
program designed to make sure that no child gets left behind in 
areas of education.
    I'm also here today to advocate for a significant increase 
in the appropriations for GEAR UP for a total sum of $425 
million. GEAR UP, as you know, is a unique Federal program that 
offers a very effective approach to helping low income students 
and their families prepare for success in college. It is 
important for me to mention that GEAR UP is not a minority 
program. It is a program for all low income students, Mr. 
Chairman. Research studies have shown that the college going 
rates for low income students remains substantially below those 
of more affluent counterparts.
    Millions of young people, especially those from poor, 
minority and rural communities, still find the door to college 
all but shut for them. Eighty-six percent of high income, high 
achieving secondary school students go on to college, while 
only 50 percent of low income high achievers enroll in post 
secondary education. Young people whose family income is under 
$25,000 have less than a 6 percent chance of earning a four 
year college degree. High income students, on the other hand, 
are seven times more likely than low income students to 
graduate from college.
    The students face barriers, such as under-funded public 
schools and overburdened teachers. Students receive poor 
academic preparation in our public K-12 schools. They have 
little access to information about what it takes to be admitted 
and be successful in college, little or no guidance on applying 
to college, limited information about available grants and 
scholarships, and in short, low income students face a 
pervasive climate of despair rather than hope for a better 
future in schools and at home.
    Through GEAR UP, Mr. Chairman, our schools and GEAR UP 
partners are working hard to change all of that. GEAR UP is a 
Federal program that goes beyond serving individual students 
with a primary emphasis to systemically reform whole schools 
and school districts. Through GEAR UP we are changing outdated 
educational practices and making lasting changes within schools 
and systems so that they can have a lasting effect on the 
communities.
    In a recent poll, 77 percent of Americans agree that the 
Federal Government should increase its education spending to 
allow more people to enter and complete college. Eighty-eight 
percent of Americans favored an increase in Federal funding to 
improve educational opportunities for poor students in 
particular. We have also discovered that through GEAR UP, all 
students benefit, since GEAR UP is designed to revamp the 
system, so that it works for all children.
    GEAR UP helps low income students to stay in school, to 
study hard, to take the right college prep courses, and to 
learn about the requirements to pursue a college education. 
GEAR UP is designed to transform entire schools to engage 
parents and families, and to mobilize local communities to 
support student achievement. The programs include mentoring 
programs, tutoring, college visits, academic and career 
advising programs, professional development for teachers, and 
summer and after school academic enrichment programs. GEAR UP 
allows students and schools to better coordinate their academic 
support programs to align their curriculum to facilitate 
student achievement and to provide more and better 
opportunities for success in these students.
    Research studies have suggested that parental and family 
involvement is critical and GEAR UP achieves that. GEAR UP 
prepares parents for active, productive roles in guiding their 
children to educational excellence and bright futures. Because 
we know that GEAR UP is a program that works, we are asking 
this Congress to appropriate the required money to make this 
program available to more students.
    You may also be interested in knowing, Mr. Chairman, that 
GEAR UP serves an extremely diverse group of students. Thirty-
four percent of students are Hispanic, 31 percent African-
American, 27 percent white, 4 percent Asian American and 4 
percent American Indian. That is why low income students 
deserve your support.
    [The prepared statement of Mr. Garza follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I'm familiar with the program, we have it in 
our largest city.
    Mr. Garza. Yes, you do.
    Mr. Regula. I have visited the program.
    So thank you for bringing the emphasis. It is a needed 
program. Thank you.
    Mr. Garza. Wonderful.
                              ----------                              

                                           Tuesday, April 23, 2002.

                        PUBLIC/PRIVATE VENTURES


                                WITNESS

GARY WALKER, PRESIDENT, PUBLIC/PRIVATE VENTURES
    Mr. Regula. Mr. Gary Walker, President, Public/Private 
Ventures.
    Mr. Walker. Thank you, Chairman Regula, for having me here 
today. My name is Gary Walker, I'm President of an organization 
called Public/Private Ventures, that was set up in the late 
1970s with a combination of Federal funding from what was then 
HEW and several philanthropies. The mission of the organization 
was to search the country for what looked like promising 
approaches to assisting very high risk children, doing the 
research on them to see if they worked, and then reporting back 
to the various Congressional committees and philanthropic 
funders as to whether or not they worked.
    The issue that I wanted to report to the Committee on today 
is one that does not make up a large part of your upcoming 
budget considerations, but one which does generate more 
discussion than perhaps the portion of the budget, and that is, 
faith-based programming. We became interested in faith-based 
programming in 1997, not because we are a faith-based 
organization, but because it was becoming clear over the years 
that the capacity of the not for profit and public sectors to 
deal with high risk children was simply not adequate, even if 
there was an enormous amount of additional funding by Congress. 
And that the number of faith institutions out there might be 
one way to go to deal with these problems at scale.
    We decided at that point to focus on three issues, older 
high risk youth who had been involved with juvenile justice, 
younger children who had parents in prison and needed 
mentoring, and youth who were already two to three years behind 
in literacy and needed help but could not get it within the 
cities that they lived.
    At this point, we're five years along in collecting data 
and looking at programs around the country. As you consider the 
budget, I simply wanted to lay out the things that we have 
learned to date. One, we're involved in 16 cities at this point 
in these three programs. The very first issue was to see if 
small and moderate size faith based organizations would really 
be interested in undertaking these kinds of challenges.
    We actually had to close down the major demonstration 
because of the clamor to get into it by these small and medium 
sized organizations. There are now 700 faith-based 
organizations, Christian, mosques, synagogues, on the west 
coast there are also Buddhist and Hindu temples involved in all 
three of these efforts. So one of the first things we've 
learned is that there is an interest out there in doing this.
    The second is, they generate a level of volunteers beyond 
anything we've seen in any of the other sectors. In 
Philadelphia itself, within six months, the faith-based 
community was able to generate 500 volunteers for mentoring for 
children who had parents in prison, which was equal to the 
largest mentoring program in all of Philadelphia that had been 
around for 70 years.
    Thirdly, what we're seeing so far at least in the research 
is that we are able to get results, or the faith community is 
getting results. The literacy program has gotten on average of 
1.9 grade level improvement in six months of students who have 
stayed within that program.
    Fourthly, and perhaps equally important as the good news, 
is the things that those who are most worried about in faith-
based programming, namely, do they actually have the capacity 
to do anything, and is there too much proselytizing, we have at 
this point seen that both those issues are very manageable. The 
capacity issue is an important one. Assistance is needed in 
order to carry out these programs. If Congress were merely to 
appropriate money, it would probably not be adequately used all 
around the country.
    Proselytizing is the more interesting issue. In looking it 
over, 600 faith-based organizations in 16 cities, we have not 
in 5 years documented one instance of proselytizing to any 
degree where either the youth, their parents or anyone was 
bothered. Evidence of faith was all around these programs, 
there's lots of praying and lots of symbols. But proselytizing 
was not a part of any of them. Actually, faith was the reason 
that these volunteers wanted to help these youth, not to get 
them to become members in their church.
    So I guess we've concluded, as ourselves a non-faith based 
organization, that if the country is really interested in 
dealing with larger numbers of the highest risk youth, this is 
a sector that probably is the greatest untapped resource out 
there right now. It needs careful working with, but it's 
something, as you look at the compassionate capital bill and 
the mentoring bill really deserves attention for its potential 
for the future.
    Thank you.
    [The prepared statement and biography of Mr. Walker 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
                              ----------                              

                                           Tuesday, April 23, 2002.

      NATIONAL ASSOCIATION OF STATE STUDENT GRANT AND AID PROGRAMS


                                WITNESS

JIM GARCIA, PRESIDENT, NATIONAL ASSOCIATION OF STATE STUDENT GRANT AND 
    AID PROGRAMS
    Mr. Cunningham [assuming chair]. Thank you, Mr. Chairman.
    The Chairman has asked me to sit in for a while, he's got 
another meeting. I always look forward to being Chairman.
    Jim Garcia, President, National Association of State 
Student Grant and Aid Programs. Is Jim here? Mr. Garcia. And 
the clock, if you would be diligent in monitoring the clock, 
because we've got a lot of witnesses. You don't want to take 
their time, because they'd get mad at you.
    Mr. Garcia. Thank you, Mr. Chairman.
    My name is Jim Garcia, I'm the Chief of the Grant Services 
Division for the California Student Aid Commission. But I am 
here today in my role as President of the National Association 
of State Student Grant and Aid Programs, otherwise referred to 
as NASSGAP.
    We greatly appreciate the opportunity you are providing for 
us here today to address the future of a higher education grant 
program vitally important to States, the Leveraging Educational 
Assistance Partnership program, LEAP for short.
    Let me first briefly discuss the group I represent. NASSGAP 
is an organization comprised of individuals who operate State-
based student aid programs in the 50 States, including the 
District of Columbia and Puerto Rico. Our organization does not 
employ Washington based staff, relying instead on our members' 
continuous grass roots efforts to advocate for strong student 
aid programs. We are proud to represent over 3 million students 
and their families to whom our members provide over $4.68 
billion in State student aid.
    I'm here to talk about why LEAP is such a worthy program to 
fund at a time when our Nation's budget is already strained by 
the demands of a war-time economy. To help explain, I have a 
little story which I believe illustrates the value of LEAP. Not 
too long ago, NASSGAP invited a senior staff person from the 
Office of Management and Budget to speak at our spring 
conference in Washington. At the end of his formal comments, a 
member of the audience asked him how he would describe the 
ideal college financial aid program of the future.
    The OMB representative replied that the ideal program would 
be a need-based program, would provide a grant to students, 
would have a shared funding responsibility between States and 
the Federal Government, and would be integrated within the 
Title IV delivery system. The program would also be designed to 
serve the poorest students and would have no administrative 
funds.
    Members of the audience began to laugh, because the program 
that he had just described is the LEAP program. That year, OMB 
had recommended not funding the program.
    Mr. Chairman, that has been the general experience of 
NASSGAP members, that people don't fully understand the 
characteristics of the program. The more people learn about the 
LEAP program, the more they realize that it is an excellent 
resource to equalize college costs between the poor and the 
wealthy. Currently, this highly successful partnership between 
the States and the Federal Government is helping our Nation's 
neediest students achieve their dream of post-secondary 
education. These students not only qualify for and receive 
Federal Pell Grants, but they must demonstrate exceptional need 
to qualify for additional funds available through LEAP and also 
through its component, referred to as the Special LEAP program.
    Our purpose before your Committee today is to urge you to 
fund $100 million to support LEAP for fiscal year 2003, a 
funding level that is recommended by the National Student Aid 
Alliance. Because of the unique matching requirements of the 
program, that level of funding would result in an estimated 
$270 million in need based student grants. By Congressional 
design, every dollar for LEAP/SLEAP will go directly to 
students, since neither these funds nor the State matching 
funds may be used by States to cover administrative costs.
    In addition, and this is key, the States must meet 
maintenance of effort requirements which ensure that Federal 
funds would not supplant existing State grant funds. States 
have positively responded to the challenge and strongly support 
the program.
    States are struggling to deal with the economic 
ramifications of the past year. Trends in the Nation's economy 
which were further aggravated by the events of September 11th 
have heavily strained States' budgets, many of which are 
operating under a severe deficit. Many States are not in a 
position to absorb the loss of the Federal portion of LEAP, and 
some States will lose their entire need based grant programs.
    With the current economic status of our Nation, now is the 
best time for the Federal and State Governments to work 
together to improve college access and degree of achievement. 
No Child Left Behind is a wonderful national policy and LEAP is 
a vital partnership program which enables the most needy of 
these students to continue on and pursue their post-secondary 
education goals.
    Mr. Chairman, should the Federal budget be signed without 
funding for the LEAP program, an estimated 61,000 financially 
needy post-secondary students throughout the Nation will lose a 
major source of their financial aid. This would leave many, 
many children behind.
    Thank you, sir.
    [The prepared statement and biography of Mr. Garcia 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Cunningham. We believe also that if a child excels 
enough to be able to go to college or, not necessarily 
academic, but even a work program, that they ought to have that 
right. My wife is Special Assistant to the Secretary of 
Education and Management, but you're going through the 
Department of Education. Last year, the student direct program 
had $50 million in student loans they couldn't even account 
for, another $12 million that went to the wrong students, so 
they had to reissue.
    So I know that within the Department of Education, they're 
going through to make sure that those dollars go to the 
accurate finances. And I'm not going to smoke you, $100 million 
is a lot of money when you have a limited budget in the first 
place.
    Mr. Garcia. Yes, sir.
    Mr. Cunningham. And there's a lot of different loan 
programs out there. I know the Chairman will take a look at it, 
and we'll discuss it within the Committee.
    Mr. Garcia. Thank you very much.
    Mr. Cunningham. Thank you, Jim.
                              ----------                              

                                           Tuesday, April 23, 2002.

           NATIONAL EDUCATION KNOWLEDGE INDUSTRY ASSOCIATION


                                WITNESS

GINA BURKHARDT, BOARD CHAIRMAN, NATIONAL EDUCATION KNOWLEDGE INDUSTRY 
    ASSOCIATION
    Mr. Cunningham. Gina Burkhardt, Board Chairman, National 
Education Knowledge Industry Association. Gina?
    Ms. Burkhardt. Good afternoon, Mr. Cunningham.
    Mr. Cunningham. If you would keep your comments within the 
five minutes, we would appreciate it.
    Ms. Burkhardt. My name is Gina Burkhardt, and I am the 
Executive Director of NCREL, the regional education laboratory 
that specializes in educational technology. We serve the States 
of Ohio, Illinois, Indiana, Iowa, Wisconsin, Michigan and 
Minnesota.
    Today I'm speaking on behalf of the National Education 
Knowledge Industry Association. NEKIA's members are dedicated 
to expanding quality education research, development, 
dissemination and technical assistance. I'm here to talk with 
you about how we can together help schools successfully 
implement the No Child Left Behind legislation.
    I have three points to make, and I bet you can guess what 
the fist one is. I'm here to request increased funding for 
educational research development, dissemination and technical 
assistance. Education R&D is severely under-funded, and that 
needs to change, especially when you consider this is a 
realized investment of dollars. We know there is a direct link 
between scientifically based education research and development 
and its application to proven results for students. Certainly 
corporations get this. They invest up to 3 and a half percent 
of their annual budget in R&D. Just imagine the health 
profession without R&D behind drug and diagnostic testing.
    In fact, this Subcommittee recognized the importance of 
research and development when it decided some years ago to take 
the aggressive step of doubling the far larger support for the 
National Institutes of Health. Currently, R&D represents only 
.03 percent of the education budget. That's three one-
hundredths of 1 percent. That's a pathetic statement.
    We're asking the Subcommittee to apply the same approach 
for educational research and double its funding over the next 
three years. This is a solid and significant statement that 
will take far fewer dollars than the NIH initiative. 
Specifically, we propose that Congress increase funds for OERI 
R&D by $82 million this year, or almost 33 percent, and commit 
to similar increases over the next three years.
    We are pleased to see that the Administration has proposed 
increases in some programs that support research. But I am 
extremely disappointed that you've decided to level fund 
organizations like mine, the Regional Education Laboratories, 
and eliminated funding for those research based technical 
assistance programs.
    My second point, an investment in education research, 
development and technical assistance will get you a bang for 
your buck, the bang the American people are demanding and our 
students deserve. Reform that works is based on research taken 
out of the controlled experimental setting and put to practical 
use by all teachers for all our kids. When we do this 
systematically, we learn about and can make what works 
available to schools. Then we see all our children achieve to 
world class standards.
    My third point, for education research to make a difference 
for all kids, you have to make it available and usable by all 
teachers. Just imagine your fifth grade teacher reading an 
article in the American Education Research Journal and going 
into her classroom the next day with a new instructional 
practice. That's an unreasonable expectation for our teachers.
    It might help to give an example from the Chairman's State 
of Ohio of how R&D has worked. Manchester High School is in the 
southernmost portion of Adams County along the Ohio River. The 
school district is one in the rural Appalachian region 
designated as academic emergency and in danger of takeover by 
that State. My lab, NCREL, worked with six of the districts to 
improve the math and science learning of these students. We 
found that teaching in schools covered only three of the seven 
areas that were emphasized on the Ohio proficiency test. The 
data showed that although six districts exceeded State averages 
in three areas, they scored extremely poorly in the other four.
    Once we knew this, we stepped in with significant 
resources, provided 13 days of math and science professional 
development to 115 teachers during the summer and the following 
year. After one year, student achievement rose significantly in 
four of the six districts. After two years, all six districts 
were achieving, or had significantly increased their scores.
    Congress created the No Child Left Behind Act that holds 
schools to a higher standards of accountability than ever 
before. To put these stringent requirements in place without 
anteing up the funds that provide schools access to 
scientifically based R&D, and the technical assistance that's 
required to help them with the implementation is a real recipe 
for failure. The good news is that you currently have an 
infrastructure in place that can provide all schools, even the 
most troubled ones, with knowledge and procedures.
    My organization and the other federally funded research 
development and technical organizations are ready to serve. We 
believe that without a significant investment in R&D, an 
increase of 33 percent each year over the next three years, 
Congress will be back to ask, what went wrong, instead of 
applauding your wisdom and foresight. Thank you.
    [The prepared statement and biography of Ms. Burkhardt 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Cunningham. Thank you. And I'd say, Ms. Burkhardt, I 
was a teacher and a coach at Hinsdale, Illinois, outside 
Chicago.
    Ms. Burkhardt. And your regional education laboratory is 
West End. Thank you.
                              ----------                              

                                           Tuesday, April 23, 2002.

         COALITION OF HIGHER EDUCATION ASSISTANCE ORGANIZATIONS


                                WITNESS

JEANNE DOTSON, PRESIDENT, COALITION OF HIGHER EDUCATION ASSISTANCE 
    ORGANIZATIONS
    Mr. Cunningham. Jeanne Dotson, President, Coalition of 
Higher Education Assistance Educations and Director of Student 
Loan Account Repayment, Concordia College. Where is Concordia?
    Ms. Dotson. Moorehead, Minnesota.
    Mr. Cunningham. It gets cold up there.
    Ms. Dotson. Good afternoon, Mr. Chairman, and thank you for 
inviting me to testify today on behalf of the Coalition of 
Higher Education Assistance Organizations regarding the fiscal 
year 2003 appropriations for the Perkins Loan program, a 
student aid program that has made a critical difference in the 
lives of so many of our college students.
    I am Jeanne Dotson, and I currently work as the Director of 
Student Loan Accounts Repayment at Concordia College in 
Moorehead, Minnesota. I've served in this capacity for 28 
years. I also serve as the President of COHEAO, a unique 
coalition composed of over 350 colleges and universities and 
commercial organizations with a shared interest in this 40 year 
old Perkins loan program. A student who attended Concordia for 
four years was loaned the maximum amount allowed under the 
Federal Perkins loan program. He happened to be a Native 
American student. And he did graduate with the qualifications 
to teach.
    He told me that his dream was to go back and teach at his 
high school, which is operated by the Bureau of Indian Affairs. 
After graduation, he was able to secure employment at his 
former high school. And he was very diligent in filing his 
forms in a timely manner. And this past spring, I'm happy to 
tell you that he submitted his final form allowing him to 
cancel his entire Perkins loan.
    He wrote me a letter to thank me for helping him attain his 
dream and also to tell me how important it was that he canceled 
his loan. Because as we would know, his salary was very low, 
and he needed every penny just to pay his rent and just to 
live. As a COHEAO member, Concordia College knows that the 
Perkins loan program is critical to providing low income 
students with access to higher education. Perkins loans provide 
the lowest interest rate of all the Federal loan programs at a 
5 percent fixed rate. In addition, borrowers find that Perkins 
loans provide reasonable repayment terms, including a nine 
month grace period, flexible deferment options, and 
furthermore, Perkins loans are recycled. The schools 
redistribute the funds to new borrowers that have been 
collected from borrowers in repayment.
    Significantly, the Perkins loan program also promotes 
community service by offering loan forgiveness options for 
students choosing work that benefits the community, such as 
teaching and law enforcement. Of critical importance to the 
success of the loan program is the risk sharing. This sits at 
the core of the program structure. Participating schools are 
required to match their allocated FCC or Federal Capital 
Contribution by 25 percent, which is a substantial amount of 
money for schools in this era of tightening State budgets and 
dwindling non-Federal resources. In addition to the Federal 
school partnership that is forged through this risk sharing, 
students benefit because Perkins schools are given latitude in 
which to operate this program on their respective campuses.
    Since the inception of the program, Concordia College has 
provided approximately $32 million in Perkins loans to 17,000 
students. Last year, approximately 645 Concordia College 
students received $1.3 million of which only $4,000 came from 
FCC. Last year our Perkins loan borrowers who were eligible 
received the benefit of over $116,000 in loan cancellations.
    On behalf of all of the COHEAO members who are also 
committed to this critical program, COHEAO is urging Congress 
to increase funding in fiscal year 2003 for the FCC for Perkins 
loans from $100 million to $140 million. And also to increase 
from $67.5 million to $100 million the Federal Perkins loan 
cancellation fund.
    While the Perkins loan program has proven its worth, it has 
been woefully under-funded. Over the last decade, funding for 
new loan capital has decreased by over 75 percent and the 
current FCC is now worth just 22 percent of its 1980 value in 
constant dollars. In addition, the loan cancellation fund has 
not been fully funded, leaving schools without the benefit of 
full Federal reimbursement.
    COHEAO works with other groups such as the Student Aid 
Alliance to help ensure that all higher education funding is 
sufficient to meet the needs of our Nation's students. Under 
President Bush's fiscal year 2003 budget, most of the student 
aid programs were level funded at fiscal year 2002 levels. 
Campus based aid programs must grow if Congress and the 
Administration intend to keep their promise to put students 
first and ensure all students have access to higher education.
    Thank you again for providing me with this opportunity. I 
would be happy to answer any questions you might have.
    [The prepared statement and biography of Ms. Dotson 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Cunningham. Ms. Dotson, one of the things that keys me 
is when people say that something is level funded; quite often 
we increase each year the amount of education dollars, Pell 
Grants, Eisenhower Grants for teachers and so on. So a lot of 
times when something is level funded it's because it had been 
increased. We have a lot, if you see the people in here, we 
have a lot of different areas where people need additional 
dollars.
    We are doubling education dollars over the next five years, 
just like we kept our promise in medical research. And we're 
going to do that. I don't know how we meet the needs of all the 
programs. But I know I support Perkins and I support Pell and 
Eisenhower grants and those things as well. When it breaks out, 
I don't know how many dollars will be given to each thing, but 
I know they're good programs.
    Ms. Dotson. Thank you very much, and thank you for inviting 
me here.
                              ----------                              

                                           Tuesday, April 23, 2002.

                 NATIONAL NUTRITIONAL FOODS ASSOCIATION


                                WITNESS

R. MARK STOWE, PRESIDENT, NATIONAL NUTRITIONAL FOODS ASSOCIATION
    Mr. Cunningham. Next we have R. Mark Stowe, President, 
National Nutritional Foods Association.
    Mr. Stowe. Mr. Chairman and members of the Subcommittee, 
thanks for the opportunity of being here today, it is my 
pleasure. My name is Mark Stowe, and I am President of the 
National Nutritional Foods Association, NNFA. We're a trade 
association representing some 3,000 natural foods stores and 
1,000 manufacturers and distributors and suppliers of natural 
health products, including dietary supplements.
    NNFA supports increased funding levels for both the 
National Institutes of Health, the Office of Dietary 
Supplements and the National Center for Complementary and 
Alternative Medicine in the 2003 fiscal year. National interest 
and access to and reliable information on safe, effective 
vitamins, minerals, herbs and other dietary supplements has 
grown steadily since the Dietary Supplement Health and 
Education Act unanimously passed the House and Senate in 1994. 
Americans are obviously looking toward safe, natural 
alternatives to maintain good health by supplementing 
inadequate diets with vitamins and minerals.
    It is estimated that nearly three-quarters of the U.S. 
population are taking dietary supplements, spending by some 
estimates as much as $17 billion a year. Dietary supplements 
are only beginning to get the research and attention that they 
deserve. Each year, major medical journals publish studies that 
support the use of supplements for the treatment of specific 
conditions, prevention of disease, offer general nutritional 
enhancement. Studies sponsored by the National Institutes of 
Health are also being conducted and published. I have included 
several samples of these in my written testimony and would be 
happy to arrange to have them provided to the Subcommittee if 
they are interested in receiving them.
    NNFA believes these studies are only the tip of the iceberg 
of potential benefits such as reduced health care costs, that 
additional research into dietary supplements can bring to the 
American public. It is critical that Government sponsored 
research levels continue to expand so that more is learned 
about these natural pathways to good health and wellness.
    This is especially true in light of reports from the 
National Center for Health Statistics, showing that only 9 
percent of American adults consume enough healthy foods to 
reach even their minimum recommended daily intake. Supporting 
additional research can reduce health care costs by billions. 
For instance, a study in the Western Journal of Medicine 
reported that increased intakes of vitamin E, folic acid and 
zinc alone could save at least $20 billion in hospital costs by 
reducing the instance of heart disease, birth defects and 
premature death.
    The Office of Dietary Supplements, ODS, was established at 
the National Institutes of Health in 1995 under DSHEA to 
stimulate, coordinate and disseminate the results of research 
on the benefits and safety of dietary supplements and the 
treatment and prevention of chronic diseases. To meet its 
strategic goals, ODS has held conferences on dietary supplement 
use in children, metals in medicine, and identifying and 
qualifying botanicals, among others.
    In fiscal year 2002, Congress approved $17 million for ODS. 
This was a $7 million increase over the previous year's funding 
level, and a $16 million increase over its first appropriation 
in 1995. The President's budget request for the ODS in 2003 is 
$18.5 million. NNFA members not only support this funding 
level, but would urge the Subcommittee to increase that funding 
level to at least $25 million.
    In 1992, also, Congress directed NIH to establish the 
Office of Alternative Medicine, with the express task of 
assuring objective, rigorous review of alternative therapies to 
provide consumers with safe and reliable information. Funding 
for this office, now known as the National Center for 
Complementary and Alternative Medicine, or NCCAM, is an 
infinitesimal percentage of the overall NIH budget. 
Furthermore, the Center's budget is insignificant in comparison 
to the dramatic growth of the American public's interest in and 
use of complementary and alternative therapies, including 
supplementation.
    Keeping with its strategic plan in 2003, NCCAM will expand 
investigations into some of the most complex and sought after 
applications of alternative therapies to human health. This 
includes such areas as neurosciences, cancer, HIV-AIDS, 
international health, and women's health at mid-life. We're 
pleased to see that the President asked for $113.8 million for 
NCCAM in 2003 to help meet its goals. This represents an 
increase of $9.2 million in fiscal year 2002.
    Science and experience ably demonstrate a wealth of 
benefits attendant to the regular use of dietary supplements. 
They allow millions of Americans to take charge of their own 
good health by safely and effectively using them in preventing 
and treating a host of illnesses and other conditions. The body 
of research supporting the use of products like this is very 
impressive, but sorely requires Government support to ensure 
its expansion. Members of the National Nutritional Foods 
Association urge the Subcommittee to fulfill the Congressional 
mandate expressed in DSHEA by investing in the scientific 
research which holds the key to our knowledge of the remarkable 
importance and value of dietary supplements.
    Mr. Chairman, thank you very much.
    [The prepared statement and biography of Mr. Stowe follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Cunningham. As I mentioned, we've doubled the medical 
research, a lot of that in NIH. And I know a lot of it, I'm a 
cancer survivor, so I understand lycopene and cooked tomatoes 
and cook books and so on.
    One of the concerns I have, I visited some of the lunch 
rooms of our children. When I interview the children, they say, 
well, these healthy foods don't taste good, so what they do is 
go down and get a double egg, double cheese, double fry burger. 
I think that's one of the things we have to do, is come up with 
some kind of nutritional basis for our students today that 
they'll eat.
    Then secondly, these supplements are very, very important. 
Just look at diabetes, look at cancer, look at the other things 
that you said. With the genome program, and the research that's 
going on, I think it's going to be the way of the future.
    Mr. Stowe. Absolutely. Particularly if we're concerned 
about controlling health care costs. This is a good way to be 
able to do it.
    Mr. Cunningham. That's right.
    Mr. Stowe. Thank you, Mr. Chairman.
                              ----------                              

                                           Tuesday, April 23, 2002.

                 COLLEGE ON PROBLEMS OF DRUG DEPENDENCE


                                WITNESS

WARREN BICKEL, PUBLIC POLICY OFFICER, COLLEGE ON PROBLEMS OF DRUG 
    DEPENDENCE, AND PROFESSOR, PSYCHIATRY AND PSYCHOLOGY, INTERIM-CHAIR 
    OF THE DEPARTMENT OF PSYCHIATRY, UNIVERSITY OF VERMONT
    Mr. Cunningham. Dr. Warren Bickel, Policy Officer, College 
on Problems of Drug Dependence. Mine is coffee.
    Dr. Bickel. Good afternoon, Mr. Chairman.
    My name is Warren Bickel, and I am the Public Policy 
Officer of the College on Problems of Drug Dependence, 
otherwise known as CPDD. The CPDD has been in existence since 
1929, and is the longest standing group in the United States 
addressing problems of drug dependence and abuse. Presently, 
CPDD functions as an independent scientific organization 
representing a broad range of scientific disciplines concerned 
with researching and understanding the causes and consequences 
of drug abuse and developing effective prevention and treatment 
interventions.
    Mr. Chairman, the College on Problems of Drug Dependence 
respectfully seeks yours and your Subcommittee's strong support 
for the President's fiscal year 2003 budget request for the 
National Institutes of Health totaling $27.3 billion. This 
level represents a $3.7 billion increase over current year 
levels, which is the increase necessary to complete the 
national campaign to double the NIH budget by fiscal year 2003. 
Within that overall increase, we are specifically requesting a 
19.8 percent increase for the National Institute on Drug Abuse, 
for a total of $1,063,702,000. This figure would keep NIDA on 
track to double its budget, consistent with the doubling of the 
overall NIH budget.
    NIDA is the Federal Government's lead agency for research 
on all drugs of abuse, both legal and illegal, with the 
exception of a primary focus on alcohol. NIDA's mission of 
bringing the power of science to bear on drug abuse and 
addiction is accomplished through a dedicated cadre of 
scientists who are working to understand and find solutions to 
the Nation's drug abuse problem.
    Full funding of NIDA would yield scientific advances in 
knowledge that will have impact on everyone and ease the 
financial health and social burden of drug abuse. A 19.8 
percent increase would allow NIDA first to continue to expand 
the clinical trials network, or CTN, to become a truly national 
research and dissemination infrastructure. The CTN is helping 
to dramatically improve the quality of drug addiction treatment 
throughout this country, enabling rapid concurrent testing of a 
wide range of promising science based treatments across 
community environments.
    Second, to move ahead with NIDA's national prevention 
research initiative, NIDA will call upon a broad range of 
disciplines to inform the development of innovative and proved 
prevention interventions. NIDA will establish community multi-
site prevention trials similar to the CTNs to enhance the 
Nation's prevention efforts.
    Third, to continue to have a pipeline of safe and effective 
medication through NIDA's medication development program. 
NIDA's role in testing medications for substance abuse is 
critical, because few pharmaceutical companies are willing to 
develop medications for such indications.
    Fourth, to increase NIDA's research portfolio on stress as 
well as its research on post-traumatic stress disorder and 
substance abuse. Stress plays a major role in the initiation of 
drug use, its continued use and relapse to addiction. This 
research area is even more crucial given the increase in stress 
that Americans have experienced in the aftermath of September 
11th.
    Fifth, to continue NIDA's support of a comprehensive 
research portfolio in nicotine addiction. Tobacco accounts for 
20 percent of all U.S. deaths. To address this public health 
problem, NIDA has formed a partnership with the National Cancer 
Institute and the Robert Wood Johnson Foundation. Supporting 
research such as we have outlined here will further improve our 
ability to prevent and treat the problems of drug abuse and 
will pay handsome dividends both financially and for the morale 
of our country. Thank you.
    [The prepared statement and biography of Dr. Bickel 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Cunningham. Did I hear you right, Dr. Bickel, tobacco 
accounts for 20 percent of all U.S. deaths?
    Dr. Bickel. That's my understanding, sir.
    Mr. Cunningham. I know it does a lot, but that seems awful 
high when you look at all the other. I'd like to see 
documentation on that.
    Dr. Bickel. Sure, we can provide that for you.
    Mr. Cunningham. I empathize with the problem. My own son, 
who is adopted, was on drug dependence. Hopefully, he's doing 
well now.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 23, 2002.

               NATIONAL ASSOCIATION OF CHAIN DRUG STORES


                                WITNESS

CARLOS ORTIZ, VICE PRESIDENT, GOVERNMENT AFFAIRS, CVS CORPORATION
    Mr. Cunningham. Finally, we got an Irish guy to testify. 
Carlos Ortiz----
    [Laughter.]
    Mr. Cunningham. Vice President of Government Affairs for 
CVS Corporation, Woonsocket, Rhode Island. Thank you, Mr. 
Ortiz.
    Mr. Ortiz. Good afternoon, Mr. Cunningham. As you said, my 
name is Carlos Ortiz, and I'm Vice President of Government 
Affairs for CVS Pharmacy. I'm here to testify on behalf of the 
National Association of Chain Drug Stores and CVS Pharmacy. CVS 
operates approximately 4,000 pharmacies in 31 States.
    I want to also express my thanks to Chairman Regula for 
this opportunity to testify. I'm especially thankful that I'm 
going before Elmo, because I certainly don't want to go after 
him, he's going to be a tough act to follow.
    I'm here specifically to talk about two issues. I am a 
pharmacist, and I'm very proud of my profession. Community 
pharmacists operate in every State and every community in the 
United States. We're open, the most successful member of 
America's health care team, available 7 days a week, 365 days a 
year often 24 hours a day without an appointment.
    However, in delivering those pharmacy services, we're 
facing two major issues. The first is the explosion in 
prescriptions and prescription services that has occurred in 
the United States because of the aging of the American 
population, mainly. And that's that in the last 10 years, we've 
seen an increase from 2 billion outpatient prescriptions to 3 
billion in 2001. That's a 50 percent increase in the last 10 
years. It's expected that that increase is going to go to 4 
billion by 2004, another huge increase.
    At the same time that that's happening, we have a 
significant shortage of pharmacists in the United States. A 
study that was done by HRSA at the request of Congress and was 
issued in December of 2000 showed at that time that there were 
7,000 unfilled pharmacist positions in the United States, an 
increase from 2,800 in just 1998. It's estimated today that 11 
to 29 percent of hospital pharmacist positions are unfilled, 
and in community chain pharmacies, there are 6,000 unfilled 
pharmacist positions.
    With that in mind, to try and combat the shortage, NACDS 
and the community pharmacy has endorsed House Bill 2173. This 
is a bipartisan bill entitled the Pharmacists Education Aid 
Act. In fact, two of the members of your Subcommittee are co-
sponsors on that bill, Representatives Kennedy and Peterson are 
both on that piece of legislation.
    This legislation would do four things. One, it would 
provide student loan programs for the education of pharmacists. 
It would provide funding for pharmacy school modernization. It 
would provide incentives to place pharmacists in rural and 
under-served areas. And finally, it would provide faculty loan 
repayment to help with the shortage in pharmacy school 
faculties. We have urged the House Energy and Commerce 
Committee to pass this important legislation, and I would also 
urge the Labor HHS Subcommittee to co-sponsor this important 
piece of legislation.
    However, because it is going to be some time before this 
legislation can be enacted, we would urge you to increase the 
funding, continue and increase the funding for the current 
programs that are available for student loans for pharmacists, 
one, the scholarships for disadvantaged students, loans for 
disadvantaged students, health profession student loans, the 
faculty loan repayment program, and health career opportunity 
grants.
    I would also urge the Committee to look at the immigration 
status of pharmacists and urge you to move pharmacy to a 
schedule A group one shortage occupation. We think that would 
be important in addressing the shortage of pharmacists.
    The second issue I would like to urge the Committee to take 
some action on is the prescription, Medicaid prescription drug 
co-payments. Many of the States are facing fiscal crisis. 
Toward that end, they have implemented or are increasing co-
payments for Medicaid prescriptions. Those co-payments can 
range from 50 cents to $3 and are a way of both controlling the 
costs and encouraging prudent purchasing on the part of 
Medicaid recipients of prescription drugs.
    However, there is a Federal regulation, not statute, but a 
regulation, that says that a pharmacy cannot deny a Medicaid 
recipient service because of their ability to pay a co-payment. 
Additionally, this regulation prohibits the States from making 
pharmacists whole or reimbursing pharmacists for any refusal by 
a Medicaid beneficiary to pay their co-payment, or inability of 
the Medicaid beneficiary to pay their co-payment. So basically 
what the implementation of co-payments for Medicaid 
prescriptions results in is a reduction in reimbursement to 
pharmacies in the community.
    In the State of New York, we have a situation where 35 
percent of the people who have Medicaid co-payments on 
prescriptions are refusing to honor or are unable to honor 
their co-pay obligation. What we would like you to do is urge 
CMS to change this regulation prohibiting the States from 
making pharmacists, or reimbursing pharmacists. It would not 
require the States to reimburse pharmacies. It would simply 
allow them to. We would then lobby or take a petition to the 
States for reimbursement. If the States were economically 
unable to reimburse pharmacists or providers for the co-
payment, then they would not have to. In and of itself, our 
proposal would have no budgetary implications.
    Thank you very much for this opportunity to testify.
    [The prepared statement and biography of Mr. Ortiz follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Cunningham. Just a quick question. What's the main 
reason you have such a low number of pharmacists? Is it pay? Is 
it lawsuits? Is it schools?
    Mr. Ortiz. Certainly it's not the pay. Fresh out of 
pharmacy school, at CVS they'll probably be earning $80,000 to 
$85,000 a year. So it's not pay.
    What's happened is that pharmacy has gone from a five year 
entry level degree to a six year entry level degree. That's the 
entry level for pharmacy. That's happening at this time. So 
many schools have missed the class. There was one year that 
every school, as they converted from a five year to a six year 
program, missed the class.
    There's also been a significant increase in the number of 
opportunities for pharmacists because of the explosion in the 
number of outpatient prescriptions that has occurred. So those 
are the two main reasons.
    Mr. Cunningham. There are members on this Committee, if you 
would bad mouth insurance companies, the only thing left is 
Government health care. If you bad mouth biotech communities, 
the only thing left for prescription drugs is Government 
controlled prescription drugs, which I do not believe in either 
one of the two.
    But we do plan on bringing up a prescription drug program 
prior to the Memorial recess, which I think you owe you 
livelihood to prescription drugs, and we owe our health to them 
as well.
    Mr. Ortiz. Absolutely.
    Mr. Cunningham. But we will do it, we'll do it efficiently 
and we'll do it so that it makes it affordable for more people.
    I didn't listen to President Clinton very much, but he did 
say one thing in one of his speeches that struck me. First of 
all, he told a story about a young girl that told her mother 
that she was sorry for being sick, because she knew her mother 
couldn't afford the doctor's visit nor the prescription drugs. 
No child should have to apologize for being sick.
    Thank you.
    Mr. Ortiz. I agree. I can tell you, as a pharmacist, I hear 
stories every day of people who are making tough decisions 
between whether they were going to buy food or buy 
prescriptions or whether they were going to cut their 
prescriptions in half or how are they going to pay for their 
prescriptions. Representative Cunningham, I agree with you 
totally on that. Thank you.
    Mr. Cunningham. Thank you.
    Mr. Regula [resuming chair]. A question. You mentioned 
about the fact that the reimbursement doesn't always cover the 
total costs. But isn't that also true of hospital bills, 
physicians' bills, where the reimbursement for Medicare and I 
assume Medicaid does not equal what the charge is? In most 
cases the hospital and/or the physician accepts whatever 
Medicare pays.
    Mr. Ortiz. You're absolutely right. I don't know that----
    Mr. Regula. Why should drugs be different, is what I'm 
saying?
    Mr. Ortiz. Well, I guess there's two things. One is that 
often, well, and I can't speak for hospitals or other 
physicians' services. But we have a product that we have to buy 
and pay for. It's not just our time that's involved, if in fact 
the reimbursement from Medicaid or Medicare doesn't equal the 
product cost of what we're actually paying money to buy.
    It's more than our time. We have to be able to buy that 
product in order to be able to dispense that product. And if 
the coverage of the prescription repayment doesn't cover the 
product cost, we can't replenish that product.
    Mr. Regula. Well, probably if you take out your profit, you 
get the cost paid. Medicare and Medicaid must have some yard 
stick that they use to determine what they're willing to pay.
    Mr. Ortiz. And I can tell you that we most often, I'm not 
saying that we lose money on Medicaid, that's not what I'm 
saying. I'm saying that we operate on a pretty razor thin net 
margin. The average net margin for our industry is 2 percent 
net margin. And it doesn't take a lot of prescriptions where 
you lose money on to throw that 2 percent over into the 
negative.
    Mr. Regula. Well, I was just curious as to how Medicare and 
Medicaid arrived at the amount they're going to pay you. 
They're reimbursed, the same thing is true of physicians' fees. 
I'm not sure how they arrive at saying, we'll only pay this 
much money for that service.
    Mr. Ortiz. And we're not asking for any increase in 
reimbursement. What we're saying is, on the co-payment amount, 
which is currently, if somebody refuses to pay, we have to 
deduct that from the reimbursement. If it's a $3 reimbursement 
and you're getting a $4 dispensing fee, it means that you're 
losing money on that particular prescription.
    Mr. Regula. Do I understand you to say that you're mandated 
by law to deliver the service even though you may not get paid?
    Mr. Ortiz. Even though they may not pay the co-payment. I 
want to stress, there is still, there is payment above and 
beyond the co-payment that the Government, State Medicaid 
program reimburses us. But if the end pay is a $3 co-payment, 
that co-payment and if somebody says, I can't afford to pay 
that co-payment, we have to provide the service. We cannot deny 
service to a Medicaid recipient simply because they cannot pay.
    And the State right now under CMS regulations is prohibited 
from reimbursing us for that $3 co-payment that they refuse to 
pay.
    Mr. Regula. So if somebody walks in that does not have 
Medicaid nor Medicare or any type of insurance, can you refuse 
to fill a prescription for them?
    Mr. Ortiz. We can refuse. I can tell you that at CVS, if 
someone comes in and says they need a prescription and they 
can't afford to pay, we're going to work with them and see if 
there's some way we can make sure that they don't go without.
    Mr. Regula. Would that be true of a lot of seniors? They're 
not being reimbursed under Medicare.
    Mr. Ortiz. Of all our business, uninsured senior citizens 
represent about 4 percent of our total business.
    Mr. Regula. In other words, they're insured by other than 
Medicare?
    Mr. Ortiz. Yes, retired General Motors, retirees program or 
some other program like that.
    Mr. Regula. I'm surprised it's such a small percentage.
    Mr. Ortiz. It's down to 4 percent of our business now. It 
might be higher in some other areas of the country, where there 
isn't a--we operate mainly in the northeast and the midwest 
where you have a lot of unions that cover their retirees as 
part of their pension package.
    Mr. Regula. I know in the case of LTV in Cleveland, their 
retirees are not covered any longer for their medical. So they 
fit in the category probably of having to pay themselves.
    Mr. Ortiz. That's happening, in some of the companies that 
had lucrative pension plans, when retirees coverages are 
dropping.
    Mr. Regula. Gone.
    Mr. Ortiz. Yes.
    Mr. Regula. Okay. Thank you for coming. I think this covers 
witnesses. We're going to go into recess while we set up here 
for Elmo. The only instruction I have is no cameras while they 
set up. While Elmo is testifying, no flash. So turn it off, 
fellows.
    Mr. Regula. Mr. Cunningham, you're going to introduce 
Elmo's friend.
                              ----------                              

                                           Tuesday, April 23, 2002.

             NAMM: INTERNATIONAL MUSIC PRODUCTS ASSOCIATION


                                WITNESS

JOE LAMOND, PRESIDENT AND CEO, NAMM: THE INTERNATIONAL MUSIC PRODUCTS 
    ASSOCIATION AND ELMO MONSTER, SESAME STREET MUPPET
    Mr. Regula. Okay, Mr. Cunningham, I understand you'll 
introduce our next witness.
    Mr. Cunningham. Well, I'm going to introduce the friend of 
Elmo. Mr. Joe Lamond is President and Chief Executive Officer 
of International Music Products Association. What do they do? 
They basically create more music makers worldwide. Mr. Lamond 
oversaw a number of innovative programs including Sesame Street 
Music Works, a joint initiative with Sesame Workshop that 
focuses on music among children.
    The Einstein Advocacy kit, which is an extraordinary 
information package that brings music and brain research 
together to show how music does help with children. The 
expansion of the Weekend Warrior program which is designed to 
bring baby boomers--I don't know what effectiveness that has, 
Joe--but back to active music making. He's got a partnership 
with the Smithsonian Institute, lasting partnerships with 
Disney, Miramax, Proctor and Gamble, Texaco, VH1 Save The 
Music, Grammy Foundation, Carnation as well as a host of 
others.
    And they're here to bring the message that music plays a 
role in intelligence and wellness, not only of children but 
everyone else. I know all of us have our own personal stories. 
I listened to music before every mission when I went into 
combat in Vietnam, just to learn how to focus.
    Mr. Monster. Wow. [Laughter.]
    Mr. Cunningham. Music has brought tears and laughter to all 
of us. Joe and Elmo, we welcome you to the Committee. You can 
have more than the traditional five minutes if the Chairman 
will let you.
    Mr. Monster. Well, thank you.
    Mr. Cunningham. I yield back, Mr. Chairman.
    Mr. Lamond. Thank you, Mr. Cunningham. Thank you, Mr. 
Chairman and members of the Subcommittee.
    I am Joe Lamond from NAMM: The International Music Products 
Association. I'd like to first introduce my co-witness, Elmo 
Monster.
    Mr. Monster. Elmo's testifying on Capitol Hill. Elmo's so 
nervous. What does Elmo do?
    Mr. Lamond. Why don't you start by introducing yourself, 
Elmo?
    Mr. Monster. Okay. Elmo is Elmo. Thank you.
    Mr. Lamond. Very good job, Elmo.
    Mr. Monster. Elmo's been practicing all morning. And all 
day, too.
    Mr. Lamond. Elmo and I met through a music education 
outreach program with Sesame Workshop.
    Mr. Monster. That's right. Mr. Joe taught Elmo lots of 
stuff about music.
    Mr. Lamond. Why don't you show us some of the things you've 
learned?
    Mr. Monster. Elmo learned all kinds of things about music, 
like anyone can make music. The whole world is full of music. 
And best of all, Elmo learned how to dance to music like this.
    [Demonstrating.]
    Mr. Monster. This is Elmo's favorite. [Laughter.]
    Mr. Lamond. We also learned that Elmo looks pretty darned 
good in Armani, don't you think?
    Mr. Monster. Yes. Elmo got this from Barney's.
    Mr. Lamond. Thank you, Elmo.
    NAMM is an international, not for profit organization made 
up of nearly 8,000 manufacturers and retailers of musical 
instruments and music products. NAMM members range from small, 
family owned music stores that you can find in every town to 
large instrument manufacturing companies and publishing houses. 
These companies make and sell the instruments that allow people 
to make music.
    And just like any other in the business community, NAMM 
members understand that a quality education is the primary 
means of preparing our young people in the business world and 
success in life. Like parents everywhere, we are committed to 
making sure no child is left behind.
    Mr. Monster. And no monsters.
    Mr. Lamond. And no monsters left behind either, Elmo.
    Mr. Monster. Good.
    Mr. Lamond. We have the best education system in the world, 
but we all know that there are some serious challenges. Our 
part of the solution is based on what we know best and were our 
passion lies, which is in music. In our own lives and in the 
experiences of the children we reach every day, NAMM members 
have seen first hand the power of music to touch the soul and 
lift a struggling child to great heights. There is a growing 
body of scientific research that attests to this power. Study 
after study is demonstrating an unmistakable connection between 
music education and success in school.
    Mr. Monster. Yes, music helped Elmo learn the alphabet. If 
it wasn't for the ABC song, Elmo would be lost, people. Hello.
    Mr. Lamond. Research indicates that music education 
dramatically enhances a child's ability to solve complex math 
and science problems. Scientists believe that there is a link 
to literacy skills as well. Students who participate in music 
programs score significantly higher on standardized tests, 
while at the same time developing self-discipline, 
communication and teamwork skills. They are also less likely to 
be involved in gangs, drugs or alcohol abuse, and have better 
attendance in school.
    Mr. Monster. Elmo is in the music program, and Elmo isn't 
in a gang. No. Elmo's not in a gang.
    Mr. Lamond. Let's keep it that way.
    In addition to controlled scientific settings, this effect 
is replicated in classrooms all over the country. For example, 
in 1999, Public School 96 in East Harlem was one of the lowest 
performing schools in the State of New York. Only 13 percent of 
the students were performing at grade level in reading or math. 
Eighteen months after the music program was restored, 71 
percent of the students were performing at grade level. 
Attendance is sky high, and the school is now a model 
turnaround school for the city of New York. The principal, 
Victor Lopez, attributes this astounding success to the 
restoration of the music programs through the efforts of one of 
our partners, VH1's Save The Music Foundation.
    We were able to save the music in PS 96. But what about the 
other schools? We are very concerned about the loss of school 
music programs throughout the country. Only 25 percent of all 
eighth graders have the opportunity to participate in a music 
class, according to the most recent Department of Ed studies. 
When we were in school, that figure was close to 100 percent.
    We must make certain that all children, especially those at 
risk, will be given opportunities to reap the benefit of music 
education. For these children, if music education is not 
offered in school, they will likely never receive it and will 
be at a disadvantage throughout their academic lives.
    Mr. Monster. Boy, that would be terrible, Mr. Joe.
    Mr. Lamond. Yes.
    Mr. Monster. Elmo doesn't know what he'd do without music.
    Mr. Lamond. Well, NAMM and its partners are working on a 
two-pronged approach to give every child a chance to make 
music.
    Mr. Monster. Oh, good.
    Mr. Lamond. First, since education is essentially a local 
issue, we need to help inform local decision making. We intend 
to do this with more science based research on the link between 
music education and learning, so that parents, teachers and 
local officials can make the best case for funding school music 
programs. We are seeking $1 million for the International 
Foundation for Music Research for the purpose of funding this 
research.
    The second part seeks to provide immediate help to 
children. We are seeking $1 million to support VH1 Save The 
Music Foundation's efforts to provide instruments to schools 
where there is no access to music learning. In the education 
arena, I can think of no other initiative that can do so much 
for so many children with so small an investment.
    So how will you measure the success of this investment? You 
will know the answer when you look into the eyes of one of your 
littlest constituents playing their violin with pure joy, 
devotion and a sense of accomplishment.
    Mr. Monster. Elmo plays the violin.
    Mr. Lamond. And you will know it when you see their parents 
swell with pride during their first orchestra concert.
    Mr. Monster. Elmo's parents swell with pride when they hear 
Elmo sing.
    Mr. Lamond. And mark my words, you will see it in the 
soaring test results and attendance records of the schools to 
whom you have given the simple gift of music.
    Mr. Monster. Elmo scored a 1550 on his SATs. All because of 
music, yeah! Oh, okay, Elmo made up that one. [Laughter.]
    Elmo just wants you nice Congress people to please, please, 
please, oh, please give the kids the gift of music, please?
    Mr. Lamond. I hope the Subcommittee will support our modest 
request. Thank you very, very much for your time and 
consideration.
    Mr. Monster. Yes, thanks, House Labor Subcommittee. Elmo 
loves you. Thank you. Thank you.
    [The prepared statement and biography of Mr. Lamond 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Elmo, why is music so important that you came 
all the way here from Sesame Street to talk to our Committee 
today?
    Mr. Monster. Music is a big part of Elmo's life. Elmo uses 
music all the time to sing and dance and learn and even to 
remember stuff. Like the time Elmo had to remember what to buy 
at the store. Elmo remembers it with music like this, ``Elmo 
needs a little Swiss cheese, needs some frozen broccoli, and he 
needs a jar of pickles now.'' See, that's why music is so 
important to Elmo. [Laughter.]
    Elmo's not making a mockery of this place, no. It's very 
important.
    Mr. Cunningham. We've got a hostile witness. [Laughter.]
    Mr. Monster. No, Elmo's not hostile, he's just a monster. 
[Laughter.]
    Mr. Regula. Elmo, what is the best part about making and 
listening to music?
    Mr. Monster. Well, music really helps Elmo express how Elmo 
feels. Like if Elmo's happy, Elmo plays hip-hop. If Elmo's sad, 
Elmo plays the blues. And if Elmo's feeling extra saucy, Elmo 
likes that word, saucy, Elmo plays show tunes like this: 
``Elmo's pretty, oh, so pretty, that the city gave Elmo this 
key, House Committee, can't you see how Elmo be. La, la. la, 
la.'' That was terrible. But Elmo loves music.
    Mr. Regula. Elmo, if you could be any musical instrument, 
which one would you be?
    Mr. Monster. Boy, that's a hard question. Elmo loves all 
kinds of musical instruments. Maybe a harpsichord, a 
glockenspiel. Wait, wait, Elmo got it--Elmo would be a drum 
set. Because then Elmo could lay down his fat beats like this, 
phhtt, phhhtt, phhtt. Oops. Elmo just got spittle all over the 
House floor. [Laughter.]
    Mr. Regula. That's why we have those white cloths on the 
table today.
    Mr. Monster. It doesn't help.
    Mr. Regula. Elmo, how can Congress help you and all your 
friends?
    Mr. Monster. Boy, you have a really bassy voice. It's nice. 
[Laughter.]
    It's nice. That's not funny. Elmo spent all his life 
listening to and playing and loving music. That's because music 
is in Elmo. Music is Elmo. And Elmo knows that there is music 
in Elmo's friends all over the country. But some of them just 
don't know it yet. They don't know how to find their music.
    So that's why Elmo needs Congress to help. Please, 
Congress, help Elmo's friends find the music inside them. Thank 
you. And Elmo loves you very much.
    Mr. Regula. And my grandchildren love you, too, Elmo.
    Mr. Monster. Ah, get out of here. [Laughter.]
    Mr. Regula. Mr. Cunningham, do you have any questions for 
our witness today?
    Mr. Cunningham. Elmo, you have one person I think I'd be 
remiss, actually, two. Mrs. Bell in San Diego, California, her 
husband started Taco Bell.
    Mr. Monster. Really? You mean that little chihuahua?
    Mr. Cunningham. Yes. It should have been a Jack Russell.
    But they have donated scores of money through their 
foundation to enhance music in the Encinido Union School 
District in San Diego. There's groups like that. We want to 
thank you on this Committee, as well as Mr. Lamond, who's a 
musician himself, for appearing before us.
    Music does have an important part in life. All of us have 
cried at funerals, we get tears in our eyes at the Star 
Spangled Banner. I do believe that it enhances a child's 
education.
    When I mentioned I flew in combat, I listened to music. 
Music has a rhythm to it. And whether you're flying an airplane 
or what, that rhythm helps in the functions. So I think if they 
even did some studies on outside of education, athletes, things 
like that, I think they'd find it very rewarding.
    Thank you, Mr. Lamond.
    Mr. Monster. Thank you very much. From all of us at Sesame 
Street, we thank you. You're very important to us.
    Mr. Regula. Well, thank you for coming, Elmo. You have an 
important message, and I know you have a great friend here in 
Mr. Cunningham.
    Mr. Monster. Yes. Thank you.
    Mr. Regula. Thank you, Mr. Lamond.
    Okay, the Committee is adjourned.
                                           Tuesday, April 30, 2002.

                     NATIONAL MINORITY AIDS COUNCIL

                                WITNESS

MIGUELINA ILEANA LEON, DIRECTOR OF GOVERNMENT RELATIONS AND PUBLIC 
    POLICY, NATIONAL MINORITY AIDS COUNCIL
    Mr. Regula. Well, we will get the hearing started. We have 
a long list of those who want to be heard, and that is what it 
should be. That is what the system is all about. Regrettably I 
have to limit you to 5 minutes, and I say regrettably because a 
lot of times I would like to ask a lot more questions, but I 
simply can't get through the list. And obviously, you all won 
the lottery, because we have triple the requests that we can 
see or hear, so we have a lottery to decide which ones we will 
have for the public hearings. And I might tell you that we are 
the only Subcommittee that does public hearings, and I think it 
is important that we get that information. And all of your 
statements will be made part of the record and be available to 
the staff as they put together this bill.
    As I told the members of the Committee, the Bible says 
there are two great commandments, love the Lord, and love your 
neighbor, and this is the love your neighbor committee because 
we touch the life of every American. We do the education 
funding or health research, the Centers for Disease Control, 
the Department of Labor on job training, people that are laid 
off, factory closings. I have had four factories in my district 
close, and that is tough business. People work 30 years at a 
job, and suddenly they go there and the door is locked, and it 
is not easy to start over again.
    So it does give us quite a challenge to try to deal with 
all these matters. Fortunately, we have a good size budget, 
$125 billion, but it funds many needs, and we do the best we 
can in allocating money for research in hopes that we can get 
breakthroughs in a lot of different things.
    This morning I was out and spoke to the breakfast group of 
the MS Society, and I spoke last week three families who had 
little children with juvenile diabetes, and there are 
challenges, to say the least. We have a conscientious Committee 
and staff, and we do the best we can to work through whatever 
it is.
    This country is far and away the leader in the research, 
and the rest of the world looks to us, and we are blessed in 
that respect. Although we haven't solved everything, we are 
doing a better job than anybody else in terms of the needs of 
people, and I think we can all take some pride in what our 
country stands for.
    Our first witness today is Miguelina Ileana Leon, Director 
of Governmental Relations for the National Minority AIDS 
Council. And all of you, if you can summarize your written 
testimony, it will help with time. And if we get done in 4 
minutes, it gives me a chance to ask a question or two.
    Ms. Leon. Good afternoon, Mr. Chairman. I would like to 
thank you and the members of the Subcommittee for giving us the 
opportunity to testify today. On behalf of the National 
Minority AIDS Council, I would like to take this opportunity to 
testify regarding the devastating impact of HIV/AIDS on ethnic 
and racial minority communities throughout this country and the 
persistent HIV-related health disparities experienced by this 
community. We would also like to share our views on Federal 
funding that is necessary to assure a targeted and effective 
response.
    Established in 1987, NMAC is the oldest national minority 
organization, representing more than 600 minority-led, 
community-based HIV health and social service organizations 
throughout the Nation.
    We would like to especially thank you for your efforts to 
assure the expansion of the Minority HIV/AIDS Initiative in 
fiscal year 2002 through your appropriation of $381 million and 
we commend the Congressional Black Caucus, the Congressional 
Hispanic Caucus and the Congressional Asian and Pacific 
Islander Caucus, Representative Jackson, Jr., who is a member 
of this Committee, and Representative Pelosi for their 
leadership and unwavering support for this crucial effort.
    We recognize that this Nation must dedicate substantial 
resources to the fight against terrorism abroad and to protect 
our homeland security. However, the war against HIV/AIDS has 
not been won, and now more than ever we must renew our 
commitment to fortify our defenses and build the armamentarium 
against the relentless attacks of HIV/AIDS in ethnic and racial 
minority communities. NMAC, therefore, calls upon you, Mr. 
Chairman and the members of the Subcommittee, to provide a 
total of $540 million in fiscal year 2003 for funding for the 
Minority HIV/AIDS Initiative.
    The report of the Institute of Medicine, which was recently 
released in March, ``Unequal Treatment: Confronting Racial and 
Ethnic Disparities in Health Care,'' and the Commonwealth Fund 
report on ``Diverse Communities, Common Concerns,'' 
unequivocally document the persistence of serious health 
disparities among ethnic and racial minorities in this Nation. 
The persistence of these disparities in access to and quality 
of HIV care services is particularly disturbing to NMAC. Nearly 
two-thirds of the estimated 300,000 persons living with AIDS in 
the United States are ethnic and racial minorities. African 
Americans make up 41 percent and Latinos 20 percent of this 
number. Moreover, close to 67 percent of adult/adolescent HIV 
cases reported between July 2000 and 2001 were among ethnic and 
racial minorities.
    The Minority HIV/AIDS Initiative was specifically designed 
by the Congressional Black Caucus together with the 
Congressional Hispanic and Asian and Pacific American Caucus to 
address disparities in access and health outcomes experienced 
by minorities impacted by the epidemic. The cornerstone of this 
initiative focuses on strengthening the infrastructure and the 
capacity of minority community-based organizations and minority 
providers to deliver quality HIV services to people of color 
within their own communities.
    The findings of the IOM report and the Commonwealth Fund 
report underscore the need to develop and support strong, 
culturally competent and language-appropriate services through 
capacity-building and expansion of this component within the 
Minority HIV/AIDS Initiative. NMAC, therefore, urges the 
Subcommittee to sustain the commitment and to expand the 
Minority HIV/AIDS Initiative by providing $440 million in 
funding in fiscal year 2003.
    We also urge you to fund all domestic and global HIV and 
AIDS programs at the highest possible level in fiscal year 2003 
because we recognize that the fight against HIV and AIDS that 
we must confront is both a domestic and a global fight.
    We thank you for your leadership and your commitment to 
eliminate ethnic and racial health disparities and to fight 
HIV/AIDS both domestically and globally. Thank you.
    [The prepared statement of Ms. Leon follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Question: Are we making progress?
    Ms. Leon. We are definitely making progress, but we still 
have a long way to go, and we have been fighting hard and long 
to address and to eliminate ethnic and racial health 
disparities in this country, and the IOM report clearly 
addresses the persistence of them. So I think we need to 
reinforce our troops and really focus on delivering culturally 
competent services.
    Mr. Regula.  Thank you very much for coming and bringing 
this information for us.
                              ----------                              

                                           Tuesday, April 30, 2002.

               NATIONAL NETWORK TO END DOMESTIC VIOLENCE

                                WITNESS

LYNN ROSENTHAL, EXECUTIVE DIRECTOR, NATIONAL NETWORK TO END DOMESTIC 
    VIOLENCE
    Mr. Regula. Lynn Rosenthal, Executive Director of National 
Network to End Domestic Violence. Welcome.
    Ms. Rosenthal. Thank you Chairman Regula, members of the 
Committee. Thank you for the opportunity to appear before you 
today to talk about the funding needs for domestic violence 
services, and I particularly want to thank you, Mr. Chairman, 
for your ongoing support for these very important programs.
    Imagine yourself fleeing for your life and leaving 
everything you care about behind. Imagine standing alone and 
cold at a pay phone in the middle of the night with your 
children in the car crying. Now imagine that you hear a warm 
and supportive voice on the other end of that line. Imagine 
that somebody says to you, yes, you can come here now. We have 
a safe place for you. And imagine that when you get there, you 
talk to someone who believes and supports you and does not 
blame or judge you.
    If you can imagine this, then you can imagine the important 
role that the programs you support play in the lives of 
battered women and their children. The National Domestic 
Violence Hotline is really the frontline response. Since 1994, 
they have answered over 700,000 calls, urgent calls for help 
for victims of domestic violence. Every time the hotline number 
appears on a national public service campaign, every time the 
hotline number appears in a newspaper article or a national 
magazine or you hear that number on the radio, calls to the 
hotline increase dramatically. Last month when Lifetime 
Television featured that hotline number in their Week Against 
Violence, hotline calls spiked by more than 900 percent in just 
1 day.
    And even more disturbingly, 13 percent of the calls now go 
unanswered. That means more than 25,000 callers each year wait 
on the line and don't receive a live voice because of 
inadequate staffing.
    The National Domestic Violence Hotline is an excellent 
example of a public/private partnership. In addition to the $2 
million appropriation that you provide each year, the hotline 
raises more than $1 million in private funding. But they just 
cannot continue to meet----
    Mr. Regula. What is the hotline response? Do they counsel 
those who call in? How do they--how does it help people, 
because they are in the Los Angeles and maybe the answering 
person is here.
    Ms. Rosenthal. The hotline is actually situated in Austin, 
Texas, and somebody may call from a small town in Ohio, and 
they call an 800 number and get a live person, and that person 
then can connect them to the services in their local community 
and also spend time with them on the phone providing safety 
planning and counseling and information and education.
    Mr. Regula.  Okay. I wanted to get the format for how this 
would actually work because telephone to telephone has some 
limitations.
    Ms. Rosenthal. Here is a great example of how this works, 
because the National Domestic Violence Hotline also work very 
closely with the battered women's shelter and services program.
    Consider this woman. A woman called from a phone booth. Her 
partner had beaten her, stolen her vehicle and then left her 
stranded on the side of the road. Though covered in blood, she 
did not want to call the police or go to the hospital. She just 
wanted to go somewhere safe. The hotline advocate was able to 
find a shelter and connect her immediately. The shelter then 
was able to figure out where she was located and go and pick 
her up.
    Mr. Regula.  You have a list of the shelters around the 
Nation?
    Ms. Rosenthal. Absolutely. The National Hotline has a 
shelter database so they can pull up the area that the caller 
is calling from and connect her with a local program. So it is 
a seamless delivery system.
    The National Hotline works closely with battered women 
shelters and services. This particular caller said that the 
only people who helped her were the National Hotline worker and 
the shelter advocate, and she was standing at a pay phone 
covered in blood, and nobody stopped to ask her what was wrong 
and what help she needed except that voice on the phone.
    You can see the critical importance of these life-saving 
services; however, there is a crisis looming in service 
delivery. A combination of factors, the most critical being the 
decrease in private giving at the local level, threatens to 
pull the safety net out from under the lives of battered women. 
Not a week goes by that I don't get a call that a domestic 
violence shelter is cutting services, laying off staff or 
closing programs. And this is at a time when there is a 
tremendous need that is growing.
    Kentucky reports the number of women and children on 
waiting lists for shelters increased by 50 percent in the year 
2000. Florida reports that 1,800 women and children were on the 
waiting list for shelter in 2001. And Pennsylvania reports that 
3,000 women were on a waiting list for emergency shelter. After 
decades of encouraging victims to come forward, we cannot allow 
this to happen. So we encourage you to fully fund the battered 
women's shelter and services program at $175 million.
    And finally, we know that responding to domestic violence 
is about more than addressing the immediate crisis. We know it 
is about providing victims the resources to rebuild their 
lives. Victims cite the lack of safe and affordable housing as 
the number one barrier to providing economic independence and 
safety.
    Mr. Regula. Thank you very much, and I appreciate that 
additional information.
    [The prepared statement of Ms. Rosenthal follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. I might say to all of you I may interrupt you 
with questions, but that is what we are here for. And I am 
always afraid we are going to run out of the 5 minutes, and we 
won't get a chance, but that is the purpose of this hearing, 
and it is very useful, and thank you.
                              ----------                              

                                           Tuesday, April 30, 2002.

                   THE SAN FRANCISCO AIDS FOUNDATION


                                WITNESS

ERNEST C. HOPKINS, DIRECTOR OF FEDERAL AFFAIRS, THE SAN FRANCISCO AIDS 
    FOUNDATION
    Mr. Regula. Ernest Hopkins, Director of Federal Affairs, 
San Francisco AIDS Foundation.
    Mr. Hopkins. Good afternoon, Chairman Regula, and thank you 
very much for the opportunity to testify this afternoon. The 
San Francisco AIDS Foundation has been providing----
    Mr. Regula. Is it privately funded?
    Mr. Hopkins. Seventy-three percent privately funded, and we 
have resources from other sources, both our city funds as well 
as State funds and Federal funds that provide the----
    Mr. Regula.  Does the State and city department of health 
help with these problems?
    Mr. Hopkins. Exactly. So the Federal, State and local 
dollars are dramatically leveraged.
    Mr. Regula. Are the Federal dollars funneled through the 
State?
    Mr. Hopkins. Some of them. The majority of them are 
provided to the city and County of San Francisco.
    Mr. Regula. The Federal program is not running the program 
directly, it is the city, State and county; am I correct?
    Mr. Hopkins. Indeed. The Federal program dollars we receive 
are funneled to us from the city and County of San Francisco.
    Mr. Regula. Are you making progress?
    Mr. Hopkins. The City of San Francisco, of course, is one 
of the first places that the AIDS epidemic really presented 
itself. So we have made dramatic progress over time and 
actually are considered a model for the world in how to provide 
community-based health care to people with AIDS.
    Mr. Regula. You also educate people? Do you go into the 
schools and try to warn these kids of what potentially lies out 
there?
    Mr. Hopkins. There are more educational provisions in our 
schools than in most, Congressman, because the community norms 
in San Francisco allow for it. However, what I would say to you 
is that across the country we have really significant and 
persistent problems in actually getting into schools to have 
these really necessary conversations.
    Mr. Regula. That is where you have to start.
    Mr. Hopkins. Absolutely.
    Mr. Regula. And you had some success with education.
    Mr. Hopkins. Dramatic success. We are currently 
experiencing a problem in San Francisco that I would like to 
tell you about since you raised the issue of education. We have 
for over 10 years seen a dramatic decrease in the number of 
people infected with HIV. In the last several years we have 
seen increases at the same time we are seeing more and more 
people living with AIDS in need of the publicly funded 
services. And what our predicament continues to be, and it is 
replicated across the country, is that we have more and more 
people living with HIV and AIDS in need of publicly funded 
services at a time when the budget----
    Mr. Regula. You are talking about services such as food, 
shelter, medical care?
    Mr. Hopkins. Primary medical care. Talking about the case 
management services that allow people to connect to medical 
care, talking about the other kinds of support services that 
allow people to remain in medical care. All of those services 
we have been able to provide in a comprehensive set of services 
through the title 1 of the CARE Act.
    We are asking for $43 million in additional service funding 
this year. We are able to provide the medical care through 
title 3 of the CARE Act. We are asking for $14 million in 
additional funding for that program. We are able to provide the 
HIV prevention education to people at risk for HIV as well as 
people living with HIV so they do not continue to spread the 
disease, and for those resources we are asking for an 
additional $303 million.
    We have a big problem, and it is going to require 
significant resources. And then we at the Foundation are also 
attempting to make a difference globally, we are currently 
engaged in dealing with the global pandemic as well, and so for 
those efforts through this Committee, we ask that you consider 
providing $143,800,000 in additional resources to the global 
prevention efforts that we currently engage in through a 
variety of sources.
    Mr. Regula. Are you satisfied with the President's budget?
    Mr. Hopkins. I am very dissatisfied with the President's 
budget. I believe the President and the people who advise him 
truly do understand that we are in a crisis, that we have a 
dramatic problem here in the United States and a dramatic 
problem across the world, and I am disturbed that for the 
second year in a row he has flat-funded the domestic AIDS 
portfolio. That makes your job more difficult to identify the 
resources because it is not identified as a priority, which I 
truly believe he believes it is. And it makes our job difficult 
because then we have just that much less money in the pipeline.
    Mr. Regula. If you stay for the rest of the day, you'll 
understand why our job is difficult, too.
    Mr. Hopkins. I had the benefit, Chairman, of actually being 
here when you had the Department of Health and Human Services 
testify before you, so I heard very dramatic testimony about 
the entire portfolio, and, in fact, we are benefited to the 
extent that you are able to provide resources to those other 
programs. So we don't envy your job at all, but we are here to 
ask----
    Mr. Regula. That is your job, and you should be an advocate 
for those that depend on you.
    Mr. Hopkins. And thank you for all that you do with my 
Congresswoman, Congresswoman Pelosi.
    Mr. Regula. Nancy is very aggressive on that program.
    Mr. Hopkins. We know that they keep your ear on this issue.
    Mr. Regula. You are well represented. Thank you for coming.
    [The prepared statement of Mr. Hopkins follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 30, 2002.

                 NATIONAL COUNCIL ON INDEPENDENT LIVING


                                WITNESS

KELLY J. BUCKLAND, MEMBER, GOVERNING BOARD, NATIONAL COUNCIL ON 
    INDEPENDENT LIVING
    Mr. Regula. Kelly Buckland, member of the Governing Board, 
National Council on Independent Living.
    Mr. Buckland. Good afternoon, Mr. Chairman and members of 
the Committee. My name is Kelly Buckland, and I would like to 
start this afternoon by thanking this Committee for its 
commitment to independent living in the last 2 years' 
appropriations. Because of your investment, the Freedom Center 
was funded in Maryland and began providing services last 
December. The Center has already assisted 50 people with 
disabilities towards independence, and several of the Center's 
staff, including the Director, Ms. Jamey George, are here today 
to show their support and appreciation.
    No two services are more critical to moving from 
institutions to the community than housing and personal 
assistance. Since we first appeared before you 2 years ago, the 
number of people who have received housing assistance increased 
41 percent, and the number of people who received personal 
assistance services increased a whopping 150 percent. Your 
investment is making a difference. Unfortunately, because of 
the way the Federal funds are distributed, several States, 
including my home State of Idaho, saw no increase in Federal 
funding. Today I am requesting that you increase your 
commitment to Centers for Independent Living by $22 million.
    Mr. Regula. Is this the fault of the formula rather than 
the amount of money we appropriate?
    Mr. Buckland. Yes, sir.
    Mr. Regula. So you really need to talk to the authorizing 
committee, because they write the formula.
    Mr. Buckland. And I am aware of that, and we are in those 
discussions with the authorizing committee.
    Mr. Regula. We do as much as we can in the gross amount, 
which helps you, of course, even with the formula. But the 
formula may be a little disjointed. I don't know for sure.
    Mr. Buckland. We think it is unfair the way the formula 
distributes it. But we do have a national consensus on a change 
to the formula, so even our industry----
    Mr. Regula. Do you have the attention of the authorizers?
    Mr. Buckland. Mr. Chairman, we have the attention of some 
of them. We have the attention of others outside the 
authorizing committee.
    Mr. Regula. Then they should help you with that, because we 
can only deal with macronumbers. The formula distribution is 
another committee, as you understand.
    Mr. Buckland. And we do.
    And one advantage is that the Vocational Rehabilitation Act 
is up for reauthorization this year.
    Mr. Regula. Gives you an opportunity to bring your case.
    Mr. Buckland. Gives us an opportunity to bring it up during 
the authorization.
    Currently there are 368 Centers for Independent Living, 
with more than 207 satellite locations, and of these 265 
centers and 44 satellites are funded with Federal dollars.
    Mr. Regula. What are the centers? Does this mean these are 
places where--there must be more than that where you can have 
independent living. I have people in my district that do 
independent living. Are there more opportunities than just the 
centers?
    Mr. Buckland. Mr. Chairman, there are some other 
opportunities, but really the way centers are operated is quite 
unique from any other service provider, which was going to my 
next point. Seventy percent of the staff of Centers for 
Independent Living are people with disabilities, so really this 
is people with disabilities who understand the barriers that 
people with disabilities are dealing with, working with people 
with disabilities to overcome the barriers.
    Mr. Regula. So the centers would be where people with 
disabilities would live independently?
    Mr. Buckland. No, Mr. Chairman. We help to get them into 
homes of their own.
    Mr. Regula. So you give them help.
    Mr. Buckland. We do stuff like peer counseling and hooking 
them up with other services to give them the same level of 
control over their lives.
    Mr. Regula. I understand, which they are entitled to. 
Absolutely.
    Mr. Buckland. Our request this year, Mr. Chairman, is that 
you make an additional $25 million appropriation to the Centers 
for Independent Living budget, which is in the Vocational 
Rehabilitation Act.
    A couple of other points that I wanted to make before I run 
out of the time is the President has issued his New Freedom 
Initiative, and the Supreme Court has issued the Olmstead 
decision, which says that provision of services to people with 
disabilities in institutional settings is discrimination. And 
so we need to confront that challenge, and we think that 
Centers for Independent Living are in a unique position to take 
on that challenge, but they don't have the infrastructure right 
now to do that, and it would take an increase in appropriations 
to do that. So we are asking that you take the initiative and 
invest in freedom for people with disabilities and fund 
centers.
    Mr. Regula. Well, thank you.
    [The prepared statement of Mr. Buckland follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. And I understand we all want to feel 
independent, and that is really a constitutional right, as the 
Court has said. So we are very sympathetic. There are some 
limits as to how much we can do dollarwise, but I thank you and 
all those that came with you to support your cause.
    Tell me what the buttons say.
    Mr. Buckland. Take the initiative, invest in freedom.
    Mr. Regula. Pretty good slogan.
    Mr. Buckland. Mr. Chairman, if I could just add we have 
people here from nine different States, and some people came 
from as far away as California, Kansas, Illinois, Tennessee.
    Mr. Regula. It seems like a long way, but your efforts are 
noted. You have the staff here, and they are listening to what 
you have to say, to all of you, and they do a lot of the work 
in putting a bill together, and they are very important in this 
process, as much so as the Members. And so the effort is well 
worth it, that is what I am trying to say to you, and we 
appreciate the fact that many of you made an unusually great 
effort to be here today, and we want you to know we do 
appreciate it.
    Mr. Buckland. We thank you for the opportunity, Mr. 
Chairman.
    Mr. Regula. We made a lot of progress, really, when I was 
young and you isolated people with disabilities and stayed at 
home; didn't have a chance to have independent living in any 
way, shape or form. And our society has made a lot of progress. 
Attitudes have changed.
    Mr. Buckland. We have, Mr. Chairman--as somebody else said 
before me, we got a long ways to go, but we made a lot of 
progress.
    Mr. Regula. You made a lot of progress, but I can remember 
the difference, and it is because of people like yourselves. If 
you and your predecessors hadn't spoken out, it wouldn't have 
happened.
    Well, we have got to move on.
                              ----------                              

                                           Tuesday, April 30, 2002.

          ASSOCIATION OF SCHOOLS OF ALLIED HEALTH PROFESSIONS


                                WITNESS

DR. STEPHEN L. WILSON, DIRECTOR AND ASSOCIATE DEAN OF THE SCHOOL OF 
    ALLIED MEDICAL PROFESSIONS, OHIO STATE UNIVERSITY
    Mr. Regula. Dr. Stephen Wilson, Director and Associate Dean 
of the School of Allied Medical Professions, Ohio State 
University. Going to beat Michigan this year?
    Dr. Wilson. We beat them this last year.
    Mr. Regula. I will advise them.
    Dr. Wilson. Good afternoon, Mr. Chairman and members of the 
Subcommittee. I am Stephen Wilson, Director of the School of 
Allied Medical Professions at the Ohio State University. I am 
also President of the Association of Schools of Allied Health 
Professions, a not-for-profit organization representing 105 
higher educational institutions and hundreds of individual 
members who are deans, other administrators and faculty of 
allied health units at four-year colleges. I am testifying on 
behalf of that organization today.
    Allied health professionals provide numerous health 
services ranging from primary care to the most advanced 
tertiary care, and they work in every type of healthcare 
setting in both rural and urban locations. Their 
responsibilities include delivery of health or related services 
involving the identification, evaluation and prevention of 
diseases and disorders; dietary and nutrition services; 
rehabilitation; and health systems management. Among the more 
than 100 professional groups are physical therapists, 
occupational therapists, medical technologists, speech 
pathologists, audiologists and respiratory care therapists. 
While some practice independently, they generally are engaged 
as members of the healthcare team with colleagues in medicine 
and nursing.
    Our association believes that the Federal Government has a 
central role to play in ensuring that the Nation has an 
adequate supply of competently prepared faculty and 
practitioners in the allied health professions. This role 
should encompass attracting students, especially those from 
minority and underserved populations, and ensuring that there 
is an adequate supply of faculty to educate them. A number of 
significant documented shortages currently exist in professions 
such as radiologic technology and medical technology, a 
situation that threatens the ability to provide diagnostic and 
treatment services to those in need of them.
    On behalf of my allied health colleagues around the Nation, 
I would like to express our enormous appreciation for the 
Federal funds that have been awarded under section 755 Allied 
Health Grants and Other Disciplines Program under Title VII of 
the Public Health Service Act. President Bush proposed zero 
funding for allied health in fiscal year 2002, but Congress saw 
the wisdom of maintaining support of this program. These funds 
have made it possible to carry out a wide variety of important 
endeavors.
    Unfortunately, of the more than 1,000 applications received 
by the U.S. Public Health Service since fiscal year 1990, funds 
have been available to support only about 11 percent of these 
proposals. The appropriation for the current fiscal year is 
$9.5 million, of which only $5.5 million is apportioned for 
allied health, a small amount for a group of professions that 
constitutes about 30 percent of the healthcare workforce. The 
remainder goes to chiropractic, podiatric medicine and clinical 
psychology, the other components of the section 755 program 
cluster.
    Mr. Chairman, let me provide you with some examples of what 
has been accomplished by allied health professionals using this 
relatively small amount of money and offer some justification 
for our request to increase the overall amount to $21 million 
in fiscal year 2003. In one example, the majority of physical 
therapy and occupational therapy students at the Medical 
College of Ohio at Toledo participated in a project--and 
ultimately they obtained employment in rural underserved areas 
or urban underserved areas in which they reported that they 
were caring for a high percentage of older adults in their 
clinical caseloads, and all reported an increased ability to 
function as an effective member of an interdisciplinary care 
team all as a result of this funded project in allied health.
    Another project, 95 occupational therapy students at 
Western Michigan University completed clinical rotations 
serving at-risk children in the Kalamazoo public school system, 
an experience that was designed to encourage them to seek 
careers working with this particular population.
    Another one, recognizing the need for students to be 
familiar with the cultural and religious expectations of 
patients from many different cultures in order to provide 
satisfactory health care, the Worldwide Health Information 
System Simulation Linkage Website was developed at the 
University of Texas Medical Branch at Galveston. It was 
designed to allow faculty members anywhere in the country to 
incorporate sophisticated case-based learning into their 
courses. The most direct beneficiaries for this include 
patients who live in communities along the Rio Grande River 
from Brownsville to Rio Grand City.
    Mr. Chairman, I believe this brief account demonstrates 
that the goals and objectives of section 755 have been met and, 
we believe, exceeded. More importantly, activities under this 
program have made it possible to advance important goals 
established by Congress to increase the number of 
underrepresented minorities in the health professions, enhance 
quality of health care provided to the aged, and to add to the 
number of practitioners who serve in rural areas.
    We urge congressional support of $21 million to achieve the 
recommendations specified in the legislation that authorized 
the section 755 program. Surveys conducted by our association 
indicate recent dramatic decreases in student applications to 
both allied health academic programs accompanied by a 
subsequent decline in enrollment. Professions such as medical 
technology and radiologic technology already have personnel 
shortages that are more acute than in nursing.
    In summary, I would like to say that we are a relatively 
small amount of the current 755 program. Only 57 percent of 
that money is allocated to allied health. Because of its 
comprehensive and diverse nature, allied health should receive 
much greater attention. Federally supported initiatives that 
purport to address broad health challenges must include allied 
health, this vital segment of the Nation's healthcare work 
force. Again, I would like to thank members for this 
opportunity to testify here and see you again.
    Mr. Regula. Thank you for your time.
    [The prepared statement of Dr. Wilson follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Is allied health out of Ohio State ?
    Dr. Wilson. We run it through the College of Medicine.
    Mr. Regula. Do you have different people from the College 
that volunteer or participate in it?
    Dr. Wilson. I was wondering if we had more here, and I 
don't see any today. Usually there are.
    Mr. Regula. This is a nationwide program.
    Dr. Wilson. Uh-huh.
    Mr. Regula. Okay. We appreciate your sharing this with us. 
Get services to underserved areas, I take it.
    Dr. Wilson. We have been pretty successful at that.
    Mr. Regula. That is terrific.
                              ----------                              

                                           Tuesday, April 30, 2002.

                AMERICAN PSYCHIATRIC NURSES ASSOCIATION


                                WITNESS

DR. BARBARA WOLFE, ASSISTANT PROFESSOR OF PSYCHIATRY, HARVARD MEDICAL 
    SCHOOL
    Mr. Regula. Okay. Dr. Barbara Wolfe, Professor of 
psychiatry, Harvard Medical School.
    Dr. Wolfe. Mr. Chairman, as a member of the American 
Psychiatric Nurses Association, also known as APNA, I 
appreciate the opportunity to testify before your Subcommittee. 
The psychiatric nurses that APNA represents strongly believe 
that there is a need for awareness of funding for mental health 
research and education.
    Mr. Regula. Tell me what does a psychiatric nurse do? What 
is different than being a psychiatrist or being a nurse, or is 
it a little of both?
    Dr. Wolfe. We serve a wide variety of populations who have 
mental health illnesses or problems. Psychiatrists are trained 
in medicine. Nurses are trained in nursing. By and large, 
traditionally medicine has focused on the disease aspect, where 
nursing has focused on looking at the health of these people 
and the continuum in terms of health prevention as well as 
health promotion.
    Mr. Regula. You get a medical degree or an associate degree 
for this, for psychiatric nursing?
    Dr. Wolfe. You can be prepared at a number of different 
levels, including a baccalaureate degree or master's degree, 
which is what is required in terms of doing therapy, or 
certainly a doctorate.
    Mr. Regula. Do you practice alone, or do you practice as 
part of a doctor's office? Where are your services given?
    Dr. Wolfe. Our services are given in inpatient 
institutions, could be general hospitals, could be psychiatric 
hospitals, State facilities that focus specifically on the 
mental health, also in the community. We have a wide variety of 
folks who are based out in the community and particularly in 
rural areas.
    Mr. Regula. I assume you support parity.
    Dr. Wolfe. Yes.
    Mr. Regula. Figured that one out.
    Dr. Wolfe. I would like to provide you with some background 
information and recommendations that APNA has for the 
Appropriations Committee with regard to the areas of research 
and education related to mental health. Founded in 1987, the 
APNA is comprised of over 4,000 members nationally. It provides 
leadership to promote psychiatric-mental health nursing and 
improved mental health care. APNA represents a large group of 
direct care providers, investigators, educators and 
administrators.
    Mr. Regula. Do you treat your patients in a hospital 
setting, or at home, or in an office?
    Dr. Wolfe. Could be any of those settings.
    Mr. Regula. Covers a wide range.
    Dr. Wolfe. Exactly.
    The majority of our members specialize in adult mental 
health, and many are involved in subspecialties including 
substance abuse, geriatrics and child and adolescent mental 
health. As nurses working in this specialty, we are acutely 
aware of the significant personal and family suffering as well 
as the economic burden associated with mental illness.
    Consider the following: 18.8 million American adults 
suffered from depressive disorders in 1998 alone. Although 80 
percent of depressed people can be effectively treated, nearly 
two out of three do not seek or receive appropriate treatment. 
Major depression ranks second only to heart disease in 
magnitude of disease burden. Approximately two-thirds of 
elderly nursing home residents have a diagnosis of mental 
health disorders. One in five children and adolescents have a 
mental health disorder affecting an estimated 7 to 12 million 
youths. Total estimated costs to society related to alcohol and 
drug abuse in 1995 were $276 billion.
    These statistics are certainly compelling, but alone do not 
paint the entire picture. We need to remember that real people 
across the country face mental health disorders. Our Nation's 
homeless suffer from disproportionately high rates of mental 
illness and addiction. Mental illness reaches far beyond our 
poor and urban streets, extending into the living rooms of all 
types of communities, impacting people of all ages, from all 
economic, racial and ethnic backgrounds. Particularly 
distressing is the fact that mental illness is associated with 
significant stigma, having devastating effects on early 
detection and treatment, access to care, and perhaps even 
funding of mental health research.
    With this in mind one of my goals here today is to continue 
our efforts to combat stigmatization of people with mental 
health disorders. As noted in the 1999 Surgeon General's Report 
on Mental Health, we have learned that much more must be done 
to educate Americans about key findings in this report, 
including, one, that mental health is fundamental in terms of 
overall health; two, that mental disorders are real biological 
conditions; three, that effective treatment exists for most 
mental health disorders; and four, that a majority of those in 
need of such services do not seek them and, therefore, do not 
get the needed healthcare.
    Mr. Regula. Do you agree that a lot of times people fail to 
take their medicine?
    Dr. Wolfe. Adherence and compliance can be a challenge, 
yes.
    Mr. Regula. The answer is probably yes.
    Dr. Wolfe. There are a lot of factors that play a role into 
why people don't take their medications.
    These seemingly straightforward findings cannot be 
underestimated and remain vital in our battle against the 
stigma associated with mental illness.
    Mr. Chairman, APNA is respectfully asking that the 
Appropriations Committee support psychiatric nursing and 
quality patient care by providing the following: 
$27,300,000,000 to the National Institutes of Health, which is 
a 16.5 percent increase, particularly to the National Institute 
of Mental Health, the National Institute of Nursing Research 
and the National Institute of Aging.
    Health Resources and Services Administration: That $550 
million be allocated to the Health Professions and Nursing 
Education Program, Title VII and VIII of the Public Health 
Service Act, and this does not include GME for children's 
hospitals; also $15 million to the Nursing Education Loan 
Repayment Program.
    We likewise support full funding of the Center for Mental 
Health Services and the Substance Abuse and Mental Health 
Services Administration.
    Mr. Regula. I am going to have to cut you off here.
    Dr. Wolfe. Can I summarize?
    Mr. Regula. Yes. Quickly.
    Dr. Wolfe. We have report language that has been submitted, 
and we hope that you support that.
    In closing, psychiatric nurses are valued and have been an 
integral component to mental health, and we bring a unique 
perspective to the research. We are particularly happy with 
your previous support regarding the combined NINR/NIMH program 
that was part of the 1998/1999 language, and that has led to 
the mentorship program which currently includes 16 folks who 
are in that nationwide at the moment.
    I would like to thank you for your support in nursing and 
the work with mental health populations.
    Mr. Regula. Thank you for coming.
    [The prepared statement of Dr. Wolfe follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 30, 2002.

         NATIONAL ASSOCIATION OF COMMUNITY HEALTH CENTERS, INC.


                                WITNESS

JOHN MENGENHAUSEN, CHIEF EXECUTIVE OFFICER, HORIZON HEALTH CARE, INC.
    Mr. Regula. Dr. John Mengenhausen, Horizon Health Care.
    Mr. Mengenhausen. Thank you for taking the time to hear our 
request in person. I know you have my written statement before 
you, so I will quickly touch on the highlights, and then I 
would like to bring up a couple more issues in detail beyond my 
written statement.
    As you stated, my name is John Mengenhausen. I am the CEO 
for Horizon Health Care in South Dakota. Horizon Health Care is 
a federally qualified health center, and I am the current board 
chair for the National Association of Community Health Centers, 
or NACHC.
    First of all, let me say thank you for all the support this 
committee has shown the health center programs and the patients 
we serve across the country. Since 1999, the help you have 
given our program allows us to serve nearly 5 million more 
patients. We are now serving more than 12 million people across 
the country, including nearly 5 million underinsured. 
Unfortunately there are still 50 million people who have no 
regular source of primary care in the country today. This 
places a tremendous burden on hospital emergency rooms, charity 
care providers, and even the private practice physicians.
    In order to fill this gap, NACHC has promoted the goal of 
doubling the number of patients served by health centers by 
2006. Starting with the increases this committee enacted last 
year, health centers stand ready to expand from just over 10 
million patients in 2000 to more than 20 million patients in 
2006. An increase in funding of $200 million next year, which 
would bring the total program funding to just over $1.5 billion 
would, keep the health centers on track to meet this goal.
    We realize this is a very ambitious plan, yet we believe it 
is reasonable and achievable. We applaud the President's plan 
to expand the health center program by 1,200 new and expanded 
sites, and be sure it will take every last one of those to 
reach our goal. However, the President's initiative envision 
only 6 million new patients by 2006. With the incredible demand 
for services that we see every day, we strongly support a more 
ambitious goal of 10 million more patients in the same time 
frame, which explains the difference between our requests.
    I would like to turn to two other topics, if I might, with 
the help of this committee to support. The first is the 
mechanism used by HHS to distribute the funding increases for 
this year, and the second has to do with the payment of claims 
under the Federal Tort Claims Act for health centers. As I 
mentioned before, we wholeheartedly support the President's 
plan to fund 1,200 new and expanded sites in the coming year. 
The unintended consequences of this has been that all funding 
increases have been contingent upon patient growth. In years 
past, HHS has examined the specific performance criteria of 
existing health centers and increased funding where needed. 
Unfortunately health centers that have seen no growth in 
patients but a dramatic rise in uninsured patients, not to 
mention the general increase in costs of furnishing care that 
all providers across the Nation are seeing, are ineligible for 
funding increases. Therefore, we strongly recommend and urge 
this committee to encourage HHS to establish a mechanism to 
stabilize the existing health centers regardless of patient 
growth.
    And our final request to this committee is to ensure that 
FTCA judgment fund for health centers is adequately funded. 
Unfortunately this is a little more difficult than it sounds. 
When Congress first established FTCA coverage for health 
centers in 1992, the program was estimated to be $30 million 
per year. While we have only yet to see annual claims nearing 
the $30 million level, health centers now serve more than twice 
as many patients, and unfortunately malpractice claims in 
general have grown considerably across the country. Instead of 
asking for specific funding levels to be set aside in the 
judgment fund as in past years, we would ask this committee to 
ensure some measure of flexibility in the amount set aside for 
claims in the coming year.
    I do want to underscore for the Committee that over the 
past 10 years, the experience of FTCA coverage or the existence 
of FTCA coverage for health centers has saved more than $500 
million in unnecessary malpractice insurance premiums, 
including more than $100 million last year. This is an 
extremely important program, and we need to ensure its 
continued viability.
    Thank you, Mr. Chairman, for taking the time to listen to 
our concerns.
    Mr. Regula. Thank you. I think they are very important 
because they relieve the emergency rooms that provide care for 
people who are otherwise denied any kind of access, and I am 
hopeful we can do as much as possible for these centers. So a 
very useful thing.
    [The prepared statement of Dr. Mengenhausen follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Now, do you get fairly good support from local 
communities?
    Mr. Mengenhausen. We do, Mr. Chairman.
    Mr. Regula. I think that is part of the key; not only 
money, but leadership.
    Mr. Mengenhausen. Leadership is very key as we have a 
community-based board of directors.
    Mr. Regula. Thank you very much.
                              ----------                              

                                           Tuesday, April 30, 2002.

                                LIFEBEAT


                                WITNESS

ALAN R. FIELDS, EXECUTIVE DIRECTOR, LIFEBEAT, THE MUSIC INDUSTRY FIGHTS 
    AIDS
    Mr. Regula. Mr. Allen Fields, Executive Director of 
LIFEbeat.
    Mr. Fields. Good afternoon, Mr. Chairman and staff members 
of this committee. My name is Alan Fields, and I serve as 
Executive Director of LIFEbeat, the Music Industry Fights AIDS. 
Thank you for providing this opportunity to speak briefly about 
the very critical issue of youth HIV awareness and prevention.
    I would also like to thank the Committee. And in particular 
Nancy Pelosi and Jesse Jackson, Jr., for the inclusion of 
language as part of the minority AIDS initiative to encourage 
the CDC to target at-risk populations. It is our request that 
similar language be adopted this year as part of the 
proceedings.
    We have recently marked the 20th anniversary of the first 
official report of the disease that would later become known as 
AIDS. Since 1981, over 21 million people worldwide have died 
from the disease. In the United States, the Centers for Disease 
Control reports that nearly half a million persons have died of 
AIDS. Between 800- and 950,000 persons are living with HIV 
infection, with roughly 40,000 new infections each year, half 
of which are occurring in young people under the age of 25, 
with a disproportionate number affecting African Americans and 
Latinos.
    Mr. Regula. Does your group do education? Seems to me that 
is----
    Mr. Fields. We agree.
    Mr. Regula. Prevention is worth a pound of cure.
    Mr. Fields. A recent report by the AIDS Action Council 
cited the following: HIV/AIDS poses a serious threat to youth 
both in the United States and throughout the world. Research 
has cited an adolescent tendency towards high-risk behavior 
coupled with insufficient education efforts as the primary 
reason for the recent increase in the transmission of HIV and 
other sexually transmitted diseases in young people.
    In order to stave off the growing complacency surrounding 
HIV/AIDS, the tremendous strides in treatment must be matched 
by an aggressive awareness and prevention campaign targeting 
youth. In targeting youth, special consideration must be given 
to nontraditional methods and venues of reaching those 
populations most at risk for HIV/AIDS. Although African 
American and Latino youth account for 13 percent of the 
population of teenagers ages 13 through 19, African American 
teens represent 60 percent of new AIDS cases in that group, 
while Latino teens represents 24 percent of new AIDS cases.
    LIFEbeat recently held focus groups with young people ages 
13 to 23, African American and Latino, on issues surrounding 
AIDS prevention messages. The majority of the group 
participants stated that there was not much targeted HIV 
messaging that was directed towards them. They all cited the 
number of antismoking messages they received, but were 
surprised at the lack of spots that promoted HIV prevention. 
All participants spoke of their desire to receive increased 
information about HIV and AIDS, but stated they needed to hear 
it in direct and straightforward ways, and it needed to relate 
to the truthfulness of their world.
    LIFEbeat was formed in response to trends that reveal that 
adolescence and young adults have a particularly high risk of 
contracting HIV. Recognizing that music has always played a 
significant role in the lives of young people, LIFEbeat carved 
out a unique niche by effectively using the power of music to 
reach this population directly. Through our Urban Aid project, 
LIFEbeat is exploring different and unique ways to reach the 
young African American, Latino community. Our recent Urban Aid 
concert featured some of the biggest names in hip-hop and R&B 
speaking to young people about HIV/AIDS, abstinence and self-
esteem issues. The positive response from the young people in 
attendance reenforced the notion that if the messages and 
methods are tailored and targeted, they will be successful in 
reaching the designated audience. Broadcast partners MTV and 
BET will simulcast the show in May, helping to ensure that 
these AIDS issues are put in front of millions of young people.
    We have an opportunity to curb the rising rates of 
infection, but we must be willing to explore all avenues at our 
disposal. Nontraditional approaches must be taken with the 
development of HIV prevention materials and program efforts. 
These materials and programs must be culturally and 
linguistically appropriate for those most at risk. Private-
public partnerships will be paramount to any successful 
outreach.
    A recent report on youth and HIV and AIDS prepared by the 
Office of National AIDS Policy stated that although young 
people account for half of the new HIV infections, less than a 
quarter of all HIV prevention funding is directed towards this 
age group. If we are to ensure that we do not lose a generation 
of these people, we need help in appropriating funds for these 
HIV initiatives, especially those targeting youth at the 
highest risk for HIV infections. We request that language is 
included in the fiscal 2003 report for the continuation of this 
vital HIV prevention effort that targets youth, especially 
minority youth. Thank you.
    [The prepared statement of Mr. Fields follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. I think the entertainment industry could 
probably do something in lifestyles to serve as role models 
that might help.
    Mr. Fields. I think some are trying more than before.
                              ----------                              

                                           Tuesday, April 30, 2002.

                     AMERICAN PSYCHOLOGICAL SOCIETY


                                WITNESS

DR. ALAN G. KRAUT, EXECUTIVE DIRECTOR, AMERICAN PSYCHOLOGICAL SOCIETY
    Mr. Regula. Dr. Alan Kraut, Executive Director, American 
Psychological Society. Welcome.
    Dr. Kraut. I just want to begin by saying thank you for 
your leadership in the effort to double the NIH budget. We in 
the scientific community appreciate it very much.
    As an organizational member for the Ad Hoc Group for 
Medical Research Funding, the American Psychological Society 
recommends $27,300,000,000 for NIH as the fifth installment of 
the 5-year doubling plan.
    My testimony today, and I will try to be brief, focuses on 
behavioral science at NIH. The effects of behavior are 
indisputable. Cancer, heart and lung disease, diabetes, 
developmental disabilities, brain injury, addiction, these and 
so many more are linked to behavior. They may originate in 
behavior, or be manifested in behavior, or may be prevented 
through behavior change. So understanding behavior is as 
important as mapping a gene or diagnosing a biological 
disorder.
    In fact, the lines that once separated the behavioral and 
the biological sciences are becoming blurred. Whether it is the 
behavioral scientists using imaging technology to better 
understand depression or the biological scientist using a 
cognitive test to see the impact of Alzheimer's disease, 
behavior is a key to health.
    Almost every NIH institute supports psychological science. 
It might be the effects of stress on the immune system in 
people with AIDS or in heart and cancer patients, research into 
how children learn and grow, studying how to manage 
debilitating chronic illnesses like diabetes and arthritis, new 
treatments for obesity, or the basic and applied science of 
brain and behavior aimed at understanding schizophrenia. One 
leading NIH supporter of behavioral science is the National 
Institute of Mental Health. But today let me focus on their 
efforts to strengthen clinical science.
    For the past few years, in part on this Committee's 
recommendation, NIMH is engaged in efforts to better translate 
basic laboratory behavioral science into the clinical setting; 
for example, to use what we know about the regulation of 
emotion to help us better understand depression. Most recently 
NIMH began working with the Academy of Psychological and 
Clinical Science to develop new training methods for clinical 
scientists that are grounded in basic research. The results 
should be a generation of clinical scientists who will go on to 
create new, more effective approaches for diagnosing, measuring 
and treating mental disorders. This is exactly the kind of 
outcome that Congress was looking for when it chose to double 
the NIH budget.
    Another supporter is the National Institute on Alcohol 
Abuse and Alcoholism. You may have noticed the nationwide media 
attention in recent weeks given to NIAAA's college drinking 
initiative and the release of NIAAA's report outlining what 
science has to say about changing the culture of drinking at 
U.S. Colleges. It is a science-based assessment, and it 
outlines a research agenda to improve campus prevention and 
treatment activities. I am pleased to note that this initiative 
is cochaired by APS member and distinguished scientist Mark 
Goldman from the University of South Florida.
    One more institute bringing behavioral science to bear on 
public health is the National Cancer Institute. NCI's 
behavioral research program begins with methodological 
innovations from psychological science and applies these 
concepts to cancer-related issues. It is a comprehensive 
program, and it ranges from basic behavioral science to 
research on the development, testing and dissemination of 
disease prevention and health promotion strategies in areas as 
diverse as tobacco use, diet and sun protection.
    Let me raise a different issue. The National Institute of 
General Medical Science is the only NIH institute specifically 
mandated to support research not targeted to specific diseases 
or disorders. It also has a statutory mandate to support 
behavioral science. Unfortunately, NIGMS does not now support 
behavior despite the statutory mandate, despite the scientific 
need for such research, and despite urging from Congress, 
including this Committee. That is why we are asking this 
Committee to again encourage NIGMS to develop a plan for 
establishing a basic behavioral research program.
    Let me close with one final point. The outcomes of research 
are unpredictable, but I submit that investment in one aspect 
of science is guaranteed to pay off, and that is the training 
of our future researchers. It is support for young 
investigators now that will mean well-trained, highly qualified 
scientists down the road. But without that training, we will 
not have an adequate pool of researchers to pick up where 
preceding generations leave off. This is a serious issue in 
behavioral science at NIH where demand for behavioral 
investigators outpaces the current supply. So I ask the 
Committee to support the development of the comprehensive 
training strategy for all research areas, including behavioral 
science research. Thank you.
    [The prepared statement of Dr. Kraut follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Stress important?
    Dr. Kraut. Very important. There is a whole field called 
psychoneuroimmunology, the interaction of behavior and the 
endocrine system on the immune system. And what we are finding 
is that although you think about stress in terms of workplace 
stress or stress in the school, that it actually has a physical 
impact on the body that can be translated, that you can see in 
visual images, or that you can measure in terms of blood 
reactions.
    Mr. Regula. There is a specialist at the University of 
Nebraska, Dr. Robert--specialized in stress as a result of a 
heart attack, but it is something we don't think about enough.
    Dr. Kraut. That is right. It is one of those things that 
seems like everybody knows something about, but it is actually 
a researchable scientific problem.
    Mr. Regula. Thank you very much.
                              ----------                              

                                           Tuesday, April 30, 2002.

   MICHIGAN GOVERNOR'S COUNCIL ON PHYSICAL FITNESS, HEALTH AND SPORTS


                                WITNESS

DR. CHARLES T. KUNTZLEMAN, CHAIRMAN, MICHIGAN GOVERNOR'S COUNCIL ON 
    PHYSICAL FITNESS, HEALTH AND SPORTS
    Mr. Regula. Dr. Charles Kuntzleman, Chairman of Michigan's 
Governor's Council on Physical Fitness. We are going to help 
you catch your airplane, if you are going to help us catch up 
on our schedule.
    Mr. Kuntzleman. Chairman Regula and support staff, thank 
you for this opportunity to share our concerns, vision and 
solutions to the problems of obesity and sedentary health 
risks. My name is Charles Kuntzleman, and I am Chair of the 
Michigan Governor's Council on Physical Fitness and the 
Michigan Fitness Foundation, and I want to describe how these 
organizations are working to promote health benefits of 
physical activity and creating behavior-changing programs that 
equip citizens to lead physically active lives and prevent 
chronic disease and reverse the trend towards sedentary living; 
in short, a cost-effective best practices model.
    These behavior-changing initiatives stimulated by Governor 
John Engler's 1992 charge to the Council are: One, the award-
winning Exemplary Physical Education Curriculum, or EPEC as I 
will describe it, is a nationally acclaimed K-through-12 
physical education curriculum developed by the Council and a 
consortium of 19 of Michigan colleges and universities, the 
departments of education and community health, and also 
numerous school districts. EPEC changes the way physical 
education is taught and equips children for a lifetime of 
physical activity. We focus on a variety of activities such as 
motor skill development, fitness, and also personal social 
characteristics such as best effort, following directions, 
respect for property and others.
    To date well over 2,000 physical education teachers have 
been trained in 60 percent of Michigan's school districts, and 
teachers in 22 States have purchased EPEC. Research and 
effectiveness studies show that this voluntary program in the 
State of Michigan works.
    Another school-based program, ACE, All Children Exercising, 
is a behavior change program, but it is an identified program 
to stimulate interest and enthusiasm in EPEC and tomorrow will 
involve over 400,000 Michigan participants in over 1,000 
Michigan schools. Each year a different critical health message 
is delivered to the student participants and their families.
    The Governor's Council Awards Program is a statewide awards 
program promoting recognition of exemplary initiatives in 
physical education, healthy workplaces, active Michigan 
communities and lifetime achievement. In 2001, 220 
organizations and individuals were honored for their work. This 
program works because it represents the crowning achievement of 
many people who never receive recognition.
    Active Community Environments is the fourth focus, and it 
is a new focus of the Centers of Disease Control and the Robert 
Wood Johnson Foundation and the National Governors Association. 
The Michigan Governor's Council has just hired its first 
statewide director of active community environment to work with 
Michigan communities to make them more walkable and to 
encourage nonmotorized transportation. The Council has 
developed a new community assessment/inventory tool for the 
promoting of active communities award. Retrofitting our 
existing communities and designing new communities to make them 
walkable will provide our children with safe routes for schools 
and engineer physical activity back into our lifestyles.
    Our regional councils represent all 83 Michigan counties, 
collaborate with over 200 organizations, and implement council 
and regional programs and events in our communities. This 
funding also leverages another $400,000 in cash with in-kind 
support for their local regional councils.
    Sixth and final is the advocacy, awareness and promotion of 
health benefits through position papers and publications and 
Websites. Statewide physical activity, health, wellness and 
sports events are formally endorsed and promoted through 
communication vehicles. Behavior-changing strategies combined 
with effective public awareness events and focused media 
relations have proven effective in Michigan, and we have been 
recognized as a Gold Star State Council of the Year and been 
notified by the Centers for Disease Control as an exemplary 
program in the area of translating research to the public.
    Sedentary lifestyles and poor nutrition are annually 
responsible for up to 580,000 deaths. Tragically we spend about 
$1,400 per person by Federal and State governments to treat the 
disease, yet only $1.20 is spent to prevent them. Acting now to 
promote healthy eating and physical activity would protect not 
only the physical health of the country, but also its financial 
health by reducing disabilities, lost productivity and the 
like.
    We have become a cost-effective best practices model for 
other States. In Michigan we have created innovative approaches 
and specific strategies and numerous collaborative partners. 
All of this is accomplished with only $1 million allocated from 
the tobacco tax revenue through the Healthy Michigan Fund. We 
have also leveraged another million in gifts, grants and 
sponsorship and in-kind support. Our programs and strategies 
now reach over 1.2 million Michigan citizens at an annual cost 
to the State of about 85 cents per person. More can be 
accomplished by increasing Federal funding to the Department of 
Education and Centers for Disease Control to replicate our 
Council and its initiatives in other States to address the 
obesity epidemic and curb the sedentary death syndrome.
    Thank you for this opportunity to testify.
    Mr. Regula. Thank you. It is an important topic, and CDC is 
working aggressively along the same lines.
    [The prepared statement of Dr. Kuntzleman follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                           Tuesday, April 30, 2002.

               NATIONAL AREA HEALTH CENTERS ORGANIZATION


                                WITNESS

KATHLEEN VASQUEZ, MEMBER, NATIONAL AREA HEALTH CENTERS ORGANIZATION
    Mr. Regula. Kathleen Vasquez, Member, National Area Health 
Centers Organization.
    Ms. Vasquez. Mr. Chairman, members of the Subcommittee, I 
am pleased to present testimony on behalf of the National AHEC 
Organization. I am Director of the Ohio statewide AHEC program, 
and the Medical College of Ohio AHEC program, and a member of 
the National AHEC Organization. Together, we enhance access to 
quality health care by improving the supply and distribution of 
health care professionals through community and academic 
partnerships.
    Mr. Chairman, the AHEC HETC network is the Federal 
Government's most flexible and efficient mechanism for 
addressing a wide and evolving variety of health care issues on 
a local level. Since our inception almost 30 years ago, AHECs 
have partnered with local, State and Federal initiatives and 
educational institutions in providing clinical training 
opportunities to health professionals and nursing students in 
rural and underserved communities.
    Currently, there are 45 AHEC programs and 170 centers 
located in 43 States. AHEC programs perform four basic 
functions, the first of which is to develop and support 
community-based training of health-profession students, 
particularly in underserved rural and urban areas. Last year, 
Ohio AHEC supported the clinical education of 845 nursing 
students and 1,400 medical students and residents at community-
based rural and underserved sites.
    Second, AHECs provide continuing education and other 
services that improve the quality of community-based health 
care. Last year, nearly 12,000 Ohio health professionals did 
not have to leave their communities or arrange practice 
coverage to attend education programs because the programs were 
brought to them in their local communities by Ohio AHECs.
    Mr. Regula. Were they brought by television or fiber-
optics?
    Ms. Vasquez. Both. We do distance learning and in-person 
lectures.
    Mr. Regula. Some of both.
    Ms. Vasquez. Third, AHECs recruit underrepresented minority 
students into health professions through a wide variety of 
programs targeted at elementary through high schools. Our Ohio 
AHECs are providing school children with classroom education on 
health careers; school counselors with updates on opportunities 
in health careers; and summer science and medicine camps.
    And last, AHECs facilitate and support practitioners, 
facilities and community-based organizations in addressing 
critical local health issues in a timely and efficient manner. 
One example is in rural and underserved Tuscarawas County, 
where the AHEC, in collaboration with a faith-based Hispanic 
organization, has brought together health and social service 
agencies and the local hospital to address the compounding 
needs of a large influx of Guatemalan workers to that area.
    More recently, the HETC programs were created to focus on 
community health education and health provider training 
programs in areas with severely underserved populations in 
border and nonborder areas.
    Currently, HETC programs exist in nine States and are also 
supported by a combination of Federal, State and local funding, 
the majority of which comes from non-Federal sources. Virtually 
all AHEC and HETC programs are collaborative in nature. These 
collaborations include health professions, schools, primary 
care residency programs, community health centers, the National 
Health Service Corps, public health, health career opportunity 
programs and schools.
    Additionally, AHECs and HETCs go beyond their core 
functions to address specific health issues affecting the 
communities that they serve, such as with the nursing shortage. 
For example, the Lima AHEC began an RN to BSN program several 
years ago. By providing preadmission counseling, arranging 
local and on-line course work and instructors, RNs can remain 
on the job in the community while obtaining a BSN degree. In 
the past 8 years, nearly 400 nurses have completed the program.
    On bioterrorism education, Ohio's AHECs have stepped in to 
provide health professionals with the latest updates on 
bioterrorism. In rural areas of Ohio, AHECs have downlinked 
satellite broadcasts and sponsored bioterrorism preparedness 
programs.
    With the National Health Service Corps, the Ohio University 
AHEC has supported the Corps's search program by interviewing 
prospective students, recommending community preceptors and 
monitoring placements of 15 students each summer in rural and 
Appalachian sites.
    On expansion of community health centers, at a community 
health center in Fremont, for example, medical and physician 
assistant students travel in a mobile health unit to work 
alongside the physician preceptor in providing care at migrant 
farm worker camps.
    Mr. Chairman, I respectfully ask the Subcommittee to 
support our recommendations to increase funding for these 
programs under Title VII and Title VIII of the Public Health 
Service Act to at least $550 million.
    Mr. Chairman, AHECs and HETCs have not yet fully realized 
their potential to be a nationwide infrastructure for local 
training and information dissemination. That is why we are 
requesting an increase in funding to $40 million in fiscal year 
2003 from $33.4 million in fiscal year 2002 for AHECs, and $10 
million in fiscal year 2003 for HETCs.
    Thank you for the opportunity to present the view of the 
National AHEC Organization.
    Mr. Regula. You have a center at NEO UCOM?
    Ms. Vasquez. We have a program at NEO UCOM, and they 
operate three local regional AHEC centers.
    Mr. Regula. I think we provided some funds for that 
building.
    [The prepared statement of Ms. Vasquez follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                           Tuesday, April 30, 2002.

                 AMERICAN ACADEMY OF FAMILY PHYSICIANS


                                WITNESS

JAMES MARTIN, M.D., PRESIDENT-ELECT, AMERICAN ACADEMY OF FAMILY 
    PHYSICIANS
    Mr. Regula. Okay. Dr. James Martin, President-Elect, 
American Academy of Family Physicians. Welcome.
    Dr. Martin. Thank you, Mr. Chairman, Congressman. My name 
is James Martin. I am a family physician from San Antonio, 
Texas. I am the President-Elect of the 93,500-member American 
Academy of Family Physicians.
    Mr. Regula. Are you growing or shrinking? Hard to find you.
    Dr. Martin. We are growing. We will address that.
    I come to you today in support of HRSA's Section 747 of the 
Title VII health profession grants. I want to thank you for the 
opportunity that we have of coming here publicly in support of 
that program, and also personally wanted to thank you for the 
courtesy extended to me last year when I came before you and 
for your obvious commitment to this through your support of our 
program in last year's budget.
    The American Academy of Family Physicians asks you to 
support Section 747 with the amount of $169 million. Contrary 
to statements from the Office of Management and Budget that 
assess--their perceptions are that the program has failed to 
retain rural physicians, I would remind you that the purpose of 
this program was to develop and enhance departments of family 
medicine within medical schools and to allow the development of 
creative and innovative strategies to improve the health care 
of all of our citizens.
    Now, in that aspect, I also want to take a few moments and 
discuss the value and role of the American family physician. We 
are the doctors for 100 million Americans. We provide 65 
million more office visits per year than any other specialty. 
We are the only specialty that distributes itself to the 
population. Five percent of our population is extremely rural; 
5 percent of our physicians are extremely rural.
    The Graham Center studies last year on Primary Health Care 
Professions Shortage Areas demonstrated that if the family 
physician goes away, 70 percent of all of the counties in the 
United States become health professions shortage areas.
    A Commonwealth study recently on health care disparities 
for minorities made it very clear that better outcomes would be 
obtained if minorities had a primary care continuity physician. 
We have been very successful, and Title VII has demonstrated 
very well that where it goes, family physicians soon follow.
    Programs that receive Title VII funding are more likely to 
produce family physicians, and the family physicians in those 
programs are also more likely to go into the rural and 
underserved areas. But we are concerned about the environment 
for the future. We are worried that medical schools tell us 
that their budgets are shrinking, and they are finding it more 
difficult to provide care for the underserved in their areas.
    Studies show that one-third of all of the practicing rural 
primary care physicians and family care physicians are at or 
approaching retirement age; and our survey suggests that with 
the hassles facing them in practice, they are leaning toward 
retirement rather than continuing on.
    While that is going on, the needs of our patients are 
increasing. Knowing west central Texas, I know that 
Congresswoman Granger would know about my mother and appreciate 
her, a 75-year-old, having to drive 30 miles for health care. 
If Title VII programs go away, she will have to drive--she will 
be 77 by then, and probably have to drive 50 to 70 miles to get 
that care.
    Mrs. Granger can also talk to my brother who is a family 
physician in Brownwood, Texas, who works 80 hours a week. And 
she can ask him if the physician workforce objectives have been 
met in this country and if there is a surplus of family 
physicians.
    Section 747 really makes a difference to them. It will 
affect my mother's health care. It will determine my brother's 
ability to find a partner or someone to replace him when he is 
too tired to go on.
    We feel like we are preaching to the choir when we come to 
you. We have watched your success. We know how concerned you 
are about our health care system. And I wonder if you share our 
frustration in having to come back and perform this ritual 
annual event of trying to restore this money back in 747, when 
we have a broken health care system.
    I would much rather be talking to you today about 
developing a program of affordability and accessibility and 
quality of care for all Americans. But until we can do that, we 
need Section 747. It is very important to us to get that. But I 
ask you, in your leadership role, to look forward to the time 
when we can address an issue of much more importance. That is 
the development of a just and merciful health care system.
    [The prepared statement of Dr. Martin follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Mr. Sherwood, your brother, is he a family 
physician?
    Mr. Sherwood. He certainly is----
    Mr. Regula. You are from rural Pennsylvania, so you get to 
question.
    Mr. Sherwood [continuing]. A country doctor in rural 
Pennsylvania for 25 years. And I am very familiar with the 
problems you speak of. But we have had pretty good luck 
recently recruiting doctors, as our doctors retire. But rural 
health care is, as my colleague Mr. Peterson says, Medicare-
light. You know, we all need help.
    Mr. Regula. Is insurance a problem?
    Dr. Martin. Insured patients versus uninsured?
    Mr. Regula. For primary care physicians and so on, that--
the cost of medical malpractice and early retirements?
    Dr. Martin. Yes, sir. All over the country we are seeing 
that. But especially in areas of Pennsylvania, West Virginia, 
it has become a problem to the point where physicians are not 
taking new patients and actually leaving the States in order to 
protect themselves.
    Mr. Regula. Do you concur?
    Mr. Sherwood. Our product liability and malpractice 
situation in Pennsylvania is bad. The legislature has been 
working on it, but so far we haven't got a fix.
    Dr. Martin. Another issue for another time.
    Mr. Regula. I am familiar, because my family and myself 
were all dealt with by the family physician. Sort of the whole 
thing--took care of us, delivered our children, et cetera. I 
think it is an important dimension to the field of medicine.
    Dr. Martin. Thank you, sir.
    Mr. Regula. As a lawyer--I was a family lawyer; I practiced 
alone--so I have some empathy with you.
    Dr. Martin. Some good. Thank you
                              ----------                              

                                           Tuesday, April 30, 2002.

                     FAIRLEIGH DICKINSON UNIVERSITY


                                WITNESS

J. MICHAEL ADAMS, Ph.D., PRESIDENT, FAIRLEIGH DICKINSON UNIVERSITY
    Mr. Regula. Our next witness will be introduced by my 
colleague, Mr. Sherwood.
    Mr. Sherwood. Thank you, Mr. Chairman.
    It is with great pleasure that I can introduce to you Dr. 
J. Michael Adams, the President of Fairleigh Dickinson 
University. He came to Fairleigh Dickinson from Drexel, and he 
came to Drexel from the State system in New York State. And all 
three of these great institutions have had a profound influence 
on my congressional district. And so I--we are very happy to 
welcome a distinguished educator.
    We are interested in your programs.
    Dr. Adams. Thank you. My name is Michael Adams. And I have 
the pleasure of serving as the President of Fairleigh Dickinson 
University.
    To begin with, I would like to thank the entire 
Subcommittee, especially Chairman Regula and Congressman Obey 
for this, which is my first opportunity, to testify before 
Congress. And I also appreciate your adjusting the schedule to 
allow me to speak on educational issues in the midst of the 
testimony on critical health issues. I appreciate that.
    But I would also like to comment that I am proud to 
represent a university with campuses in districts of two of 
your distinguished colleagues from the Appropriations 
Committee, Congressmen Frelinghuysen and Rothman.
    And, in addition, Mr. Chairman, I am making a brief oral 
presentation, but I have a more detailed written statement. 
With your permission, I ask that that be entered into the 
written record.
    Mr. Regula. Without objection.
    Dr. Adams. I wish to focus on four issues:
    First, the ongoing need for federally supported programs to 
assist and support the success of minority and low-income 
students;
    Secondly, the need for ever-increasing assistance to 
incorporate distance learning and educational technology into 
the learning process;
    Three, the need to expand the Federal role in advancing 
international education and understanding through a global 
approach to problem solving; and
    Finally, I believe I share your concern about the need for 
our Nation to focus more resources on the professional 
development of educational leaders.
    I believe these concerns are aligned and consistent with 
both the national and congressional agendas. Moreover, I 
believe it is the responsibility of higher education to work 
together with the Federal Government to advance these shared 
missions.
    I am proud that my university has contributed in certain 
ways. Fairleigh Dickinson has a documented history of action 
and achievement in these areas. We have invested millions of 
dollars, without Federal assistance, in educational and public 
service program efforts. For more than 20 years, FDU has 
spearheaded a program to ensure both access and success for 
underserved minority students in higher education.
    We have developed and supported a model program called 
Minority Student Support and Achievement--the Enhanced Freshman 
Experience. This intensive one-year transitional program offers 
students extensive support during the first critical year of 
college. The program includes peer tutoring, career counseling, 
one-on-one faculty mentoring, technology-enhanced instruction 
and what we call ``Removing the Barriers'' strategy instruction 
and guidance.
    In another area, our Center for Interdisciplinary, 
Distributed and Global Learning is revolutionizing the way 
higher education looks at distance or on-line learning. We have 
taken the unique position that if the Internet can reach out to 
the world, it also be used to bring the world to our campus.
    We also see the Internet as a fundamental learning, 
research, communication and collaboration tool. In fact, we 
have become the first university in the world to require all 
undergraduates to take one distance learning course each year 
during his or her undergraduate career.
    Perhaps the most innovative part of our approach is the 
creation of a new category of faculty called Global Virtual 
Faculty, experts from around the world who link with our 
campus-based colleagues to bring to young people different 
views of the world and understandings that they can't have in 
their traditional community. No other university has taken this 
transformational initiative. And we have been recognized by 
other universities, the State of New Jersey, and foundations 
and corporate entities like AT&T.
    In the area of Public Education Reform, our ALPS Academy 
for Educational Leadership was hoping to work to solve a crisis 
by increasing, improving and diversifying the pool of qualified 
school leaders and teachers.
    This crisis is nationwide; 50 percent of our teachers and 
administrators will retire in the next 10 years. That means our 
Nation needs to replace over 2 million teachers in the next 
decade. Moreover, minority representation among school leaders 
remains dismally low.
    My university's Academy for Educational Leadership 
collaborates with the New Jersey Department of Education and 
state and national professional organizations to help develop 
educational reform models, and we hope to dramatically improve 
the number of qualified teachers and school leaders.
    Mr. Regula. You have a college of education?
    Dr. Adams. We do, sir, yes.
    At the Federal level, we applaud you for the leadership 
Congress has played at nurturing key programs that advance 
these kinds of initiatives; programs, again, like the Fund for 
the Improvement of Post-Secondary Education; The Fund on 
Education and for Local Innovations in Education, programs 
which support and make possible truly cutting-edge, national 
and model programs utilizing educational technology; and, 
finally last, but certainly not least, the Department of 
Education's programs in support of undergraduate and graduate 
international education and global studies.
    The focus of my statement this afternoon is on the 
importance of several of the national programs and accounts 
that can provide critical support in these high areas.
    Thank you, sir. I appreciate it.
    [The prepared statement of Dr. Adams follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Thank you.
    Mr. Sherwood.
    Mr. Sherwood. Well, thank you very much. I particularly am 
interested in your Global Virtual Faculty.
    Dr. Adams. Entirely new paradigm, Congressman; no other 
university has approached that. We are seeking out individuals 
who are experts in commerce, in education, in economics, in the 
corporate community and bringing views of the world to these 
young people on line, 24 hours a day.
    Mr. Sherwood. It seems to me that you can get the best 
experts in the world in one virtual classroom.
    Dr. Adams. We are attempting to do that.
    Mr. Sherwood. Thank you.
    Mr. Regula. What is your enrollment?
    Dr. Adams. We have 10,000 students at Fairleigh Dickinson, 
four campuses, two in New Jersey one in----
    Mr. Regula. Do you have a graduate school?
    Dr. Adams [continuing]. We are private, nondenominational.
    Mr. Regula. Do you have a Tom McDonald on your faculty? 
Doesn't ring a bell?
    Dr. Adams. No, sir.
    Mr. Regula. What percent of your students are in the 
College of Education?
    Dr. Adams. About 4 percent, sir.
    Mr. Regula. It is not big?
    Dr. Adams. Well, yes, it is large in New Jersey. But that 
is at the undergraduate level, we probably have 300 to 400 more 
in our graduate program.
    Mr. Regula. Thank you.
                              ----------                              

                                           Tuesday, April 30, 2002.

                           ADAP WORKING GROUP


                                WITNESS

WILLIAM E. ARNOLD, CHAIR, ADAP WORKING GROUP
    Mr. Regula. Mr. William Arnold, Chair of the ADAP Working 
Group.
    You are going to familiarize me with the acronym.
    Mr. Arnold. Chairman Regula, the AIDS Drug Assistance 
Program.
    My name is Bill Arnold. I am the Chair of the ADAP Working 
Group, which is a coalition of AIDS organizations and 
pharmaceutical companies and other interested organizations 
that works at the Federal level for adequate funding for the 
AIDS Drugs Assistance Program.
    State AIDS Drug Assistance Programs are funded under Title 
II of the Ryan White CARE Act, and provide medications to treat 
HIV disease and prevent and treat AIDS-related opportunistic 
infections to low-income and uninsured and uninsurable 
individuals living with HIV/AIDS in all 50 States, the District 
of Columbia, Puerto Rico, Guam and the American Virgin Islands.
    I would like to thank the Subcommittee, before I say 
another word, for the support we have had on this issue in the 
last 6 years. Since the FDA approved protease inhibitors, 
several hundred thousand people have passed through the ADAP 
program since then. And this committee made it possible for 
that to happen.
    The data that the ADAP Working Group bases its calculations 
of need on each year will also appear shortly, after we are 
through with it in the ADAP monitoring report, which is 
financed by the Kaiser Family Foundation's Web site. It is a 
wealth of information on every single ADAP program for those of 
you who feel that you may need to get down to the nitty-gritty.
    In the fiscal year 2001 budget cycle, the final ADAP 
increase in funding was not agreed upon until December of 2000. 
Then it was short of what the ADAP Working Group had projected 
by about $60 million
    In the fiscal year 2002 budget cycle, the administration 
budget proposed flat funding, which Congress and this committee 
did increase by almost $60,000,000. But the calculated need for 
ADAP in that year was $124 million.
    The President's 2003 budget again proposes flat funding. 
For a program driven by people continuing to live amidst the 
health care system with many gaps, this is a life-threatening 
crisis. The accumulated shortfalls of two budget cycles now 
leave us in a structural deficit as of 1 April, 2002--that is, 
this month--of about $82 million, which is actually needed as 
an emergency supplemental appropriation right now, today, as I 
speak here.
    Additionally, ADAP will need another $80 million in the 
fiscal year 2003 appropriation. This a total increase of $162 
million and it will have to carry ADAP programs through March 
31, 2004. The ADAP program is 6 months behind the Federal 
budget year. I say all of this, mindful of the fiscal 
pressures, but also very mindful of the medical costs and the 
human life costs of not providing the treatments.
    The ADAP need is being driven by simple factors. We all 
know that highly active antiretroviral treatments have dropped 
the U.S. AIDS rate from somewhere around 40,000 a year down to 
less than 15,000 and even less than that in areas with 
particularly good health care. The dramatic improvements in 
lifespan and quality of life are almost miraculous--these 
treatments must continue for ADAP patients--and therefore 
patients will live longer and will tend to stay on ADAP longer.
    Additionally, we have a pool of up to 300,000 HIV-positive 
people in the U.S. that everybody and their brother is 
outreaching to. By that I mean, the CDC is financing it, 
private entities are financing it, AIDS organizations are 
financing it, churches are financing it. And when these people 
are identified, particularly in the overall current demographic 
of the epidemic, they tend to be communities of color, they 
tend to be rural, they tend to be women of childbearing age.
    And all of these people tend not to have jobs that have 
decent health care, so disproportionately, when they come in 
for treatment, they are not going to be eligible for Medicaid, 
they are not going to have adequate private insurance. They 
have to knock on the ADAP door.
    The only other way to qualify is to get so sick that you 
have full-blown AIDS. Then you qualify for Medicaid, when you 
should have been taking medicine so that you didn't get full-
blown AIDS. And we are hoping that Congress will pass the Early 
Treatment for HIV Act, which will enable us to argue at the 
State level for letting people get eligibility for Medicare 
based on just testing HIV positive.
    I will wrap up in case there are questions.
    In sum, our modeling projects the following ADAP budget 
requirements, or we will literally have waiting lists for each 
of the AIDS drug assistance programs in all 50 States plus the 
territories and the District of Columbia and Puerto Rico:
    The current $82 million ``structural deficit'' is actually 
needed right now, and if we don't get it, we will see waiting 
lists in a whole bunch of States. In fact, the State of Florida 
may actually have to close to new enrollments before elections 
this year. We had--just as little as 4 months ago, we had 11 
States that had closed programs or had programs with 
restrictions, Texas being one of them. And, the Texas 
Department of Health just advised everybody involved in ADAP 
that they anticipate severe difficulties between now and the 
year 2005.
    Thank you for the opportunity. I wish I had brought better 
news. I do bring good news in the sense that people are living. 
Unfortunately, in living, they need additional access to 
medications, and that is what ADAP is for.
    [The prepared statement of Mr. Arnold follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. So there is progress.
    Mr. Sherwood.
    Mr. Sherwood. I am fine.
    Mr. Regula. Thank you.
                              ----------                              

                                           Tuesday, April 30, 2002.

                       NATIONAL NETWORK FOR YOUTH


                               WITNESSES

AMANDA NICOLE (NIKKI) HAUTER, ST. PETERSBURG, FLORIDA
ACCOMPANIED BY JANE HARPER, DIRECTOR, FAMILY RESOURCES, ST. PETERSBURG, 
    FLORIDA
    Mr. Regula. Amanda Hauter, you are Chairman Young's 
constituent. And I think Jane Harper is accompanying you, and 
you are going to tell us about the National Network for Youth.
    Where is Jane? Come on up to the table. Okay.
    The network to do what?
    Ms. Hauter. That is the National Network for Youth.
    Mr. Regula. Are you a college student? High school?
    Ms. Hauter. High school. I am a junior in high school.
    Mr. Regula. Junior in high school. Okay. It will be 
interesting.
    Ms. Hauter. My name is Nikki Hauter. I am a high school 
junior. I live in St. Petersburg, Florida. I am testifying 
today on behalf of the National Network for Youth. My testimony 
will focus mainly on the funding for the Runaway and Homeless 
Youth Act programs of the Department of Health and Human 
Services.
    The National Network supports the dozens of programs in the 
Departments of Health and Human Services, Labor and Education 
that reach young people. Funding is needed for each of the 
following programs: the Child Abuse Prevention and Treatment 
Act, CDC's HIV and AIDS Prevention Program, the Ryan White CARE 
Act Title IV Program, and the 21st Century Community Learning 
Centers Program.
    President Bush has requested healthy increases for the 
Chafee, Safe and Stable Families and Job Corps programs in his 
budget request. I urge Congress to adopt the President's 
recommended funding levels for these programs. However, I am 
concerned about the President's proposed reductions to the 
Youth Employment and Youth Opportunities Grant programs, and I 
urge you not to make those program cuts.
    I am also grateful to Chairman Young for being such a 
strong champion for the Education for Homeless Children and 
Youth program. I am confident Congress will follow through on 
its pledge to leave no child behind and to provide the $70 
million needed to fund this program.
    I am one of the many youths who are directly benefiting 
from those programs. For the last 5 months I have been staying 
in the Transitional Living Program at Family Resources in St. 
Petersburg, Florida. I would not be here today if this program 
didn't receive a good deal of funding through the Runaway and 
Homeless Youth Act. In this program I am working to put my life 
back on track.
    I suppose you might be wondering how a kid like me ends up 
needing a program like the TLP. So let me tell you how I ended 
up there. I was born in Arizona, but I spent most of my life in 
Sarasota, Florida. My older brother passed away in 1995 when I 
was 9 years old.
    After his death, I lost all of my ambition, and I didn't 
want to go to school anymore, so I skipped school a lot. By the 
time I finished my second year in high school, I was behind 
more than half of the required credits. I had also managed to 
find myself in a, quote, ``bad crowd'' and I began to head down 
a path of complete destruction. On top of that I felt 
completely alienated from my father and stepmother, seeing 
there was no relationship left between my father and I.
    One day, instead of driving me to an appointment, my father 
dropped me off at the YMCA Youth Shelter in Sarasota, where 
counselors had been waiting for me. And this is another place 
that receives funding.
    This was not the first time that I had been dropped off at 
the youth shelter, I had been placed there for various reasons 
over the previous years, but I had always returned home. But 
this time was different, and I desperately needed an 
alternative place to go. There is a TLP in Sarasota. There was 
no opening at that time, so the counselors at the shelter 
helped me find the living arrangement that I am in now which is 
in St. Pete.
    One of the counselors, she drove all of the way down to 
Sarasota, about a 45-minute drive, to interview me for the 
program, and I actually moved in the next day. I was really 
fortunate that there was another Transitional Living Program 
that was around my area, because, in some States, there aren't 
any programs like that at all. So it was really good, and the 
first day at Family Resources, I could see how involved the 
staff was in each teenager's life.
    I have received a lot of counseling and help in this 
program. I have also started attending a new school where I 
have made many new friends and I have pulled up my grade point 
average to a 3.17. I am active in extracurricular activities 
and I help produce the daily television show at my school.
    I am happy to say that I have steadily come to a halt on 
that path of destruction I told you about earlier, and I am not 
only learning about substance abuse, I am also learning life 
skills in the Transitional Living Program.
    The program has helped me in many ways. I am beginning to 
be able to pull myself together and turn my life around. I feel 
positive about my future, and I never used to think about 
college after high school, but now I am planning on applying 
for the Bright Futures Scholarship.
    Without the Transitional Living Program, I would not be 
standing here today, I would be a statistic, not a 
congressional witness. And I just want to say that teenagers 
today more than ever need programs like the ones I have been 
in, the YMCA Youth Shelter and the TLP, because, you know, they 
give us stability and structure in our lives; you know, 
programs, they do help. And so I just ask everyone to really 
know that--that from a kid's point of view, who has been in 
these programs, they do help.
    So, in closing, I would like to say, please provide at 
least the $150 million this year for the Runaway and Homeless 
Youth Act. Without these programs, I wouldn't be where I am 
today.
    There are other youths that are facing the same 
circumstances I did, who are not able to get the help due to 
inadequate funding. When you vote for the funding for the 
Runway and Homeless Youth Act, remember one very important 
thing: Children are our future.
    And thank you very much for this opportunity to testify 
today.
    Mr. Regula. Jane, would you like to comment?
    Ms. Harper. Well, just in summary, Nikki has been with us 
for about 5 months now. She has done remarkably well. Like she 
said, there are many young people out there that don't have a 
place to go to get this kind of help. And it does provide her 
an opportunity that she might--the alternative might be living 
out on the streets.
    Mr. Regula. She is with you full time?
    Ms. Harper. She lives with us in our Transitional Living 
Program. She goes to school. She works part-time. She is saving 
money for her future. And she didn't think about going to 
college, but now she is thinking about it.
    She might want to be--like, a U.S. Senator or something 
like that?
    Ms. Hauter. After my experiences in D.C.
    Mr. Regula. Start at the top. Do you have any contact with 
your father?
    Ms. Hauter. I do from time to time. He is involved, as far 
as the program goes and, you know, things that he needs to be 
involved in.
    Mr. Regula. So he is interested in what is happening to 
you?
    Ms. Hauter. Uh-huh. And he supports everything that I do 
with the program. He is very proud of me for this opportunity.
    Mr. Regula. Great. Thank you.
    Mr. Sherwood.
    Mr. Sherwood. Well, he should be proud Nikki. And you did a 
wonderful job. Thank you very much.
    Mr. Regula. What are you, a junior?
    Ms. Hauter. Yes.
    Mr. Regula. Now, what would you like to do when you go on 
to college?
    Ms. Hauter. Actually, I am thinking about law school now.
    Mr. Regula. Before you become a Senator, right? Thank you 
very much.
    [The prepared statement of the National Network for Youth 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                           Tuesday, April 30, 2002.

           ASSOCIATION OF MATERNAL AND CHILD HEALTH PROGRAMS


                                WITNESS

CHRISTOPHER KUS, M.D., PRESIDENT, ASSOCIATION OF MATERNAL AND CHILD 
    HEALTH PROGRAMS
    Mr. Regula. Okay. Christopher Kus, President of the 
Association of Maternal and Child Health Programs. You are 
going to have a tough time following that one.
    Dr. Kus. In a way, it makes some of the case that I am 
going to present to you, so I think that is pretty important. 
You have heard from a family practitioner. I am a pediatrician.
    Good afternoon, Mr. Chairman and members.
    Mr. Regula. Are you a pediatrician or a general 
pediatrician?
    Dr. Kus. I am a public health pediatrician, but I am also 
by training a developmental pediatrician. And as you said, I am 
Chris Kus, the President of the Association of Maternal and 
Child Health Programs. AMCHP is what we are called, and AMCHP 
is a national nonprofit organization principally made up of the 
directors and staff of State Public Health Agency programs for 
maternal and child health and children with special health care 
needs in all 50 States, the District of Columbia, and 8 
additional jurisdictions. In addition to these State public 
health leaders, we have members that include academia, advocacy 
and community-based maternal and child health professionals, as 
well as families.
    I am a pediatrician and I work in the New York State 
Department of Health. I am the Pediatric Director of the 
Division of Family Health. The Division of Family Health 
administers New York's maternal and child health program, which 
includes programs for adolescents' health and youth development 
programs.
    Thank you for opportunity to testify. We at the Association 
of Maternal and Child Health Programs appreciate the 
Subcommittee's interest in and support of the Maternal and 
Child Health Services Block Grant program. For over 66 years, 
programs authorized under Title V of the Social Security Act, 
now the Maternal and Child Health Services Block Grant, have 
helped fulfill our Nation's strong commitment to improving the 
health of all mothers and children. In fact, the Maternal and 
Child Health Services Block Grant is a cornerstone of our 
Nation's public health system.
    The Maternal and Child Health Services Block Grant is a 
source of flexible funding for States and territories to 
address their unique needs. Each year more than 26 million 
women, infants, children and adolescents, including those with 
special health care needs, are served by a maternal and child 
health program. Of the nearly 4 million mothers who give birth 
annually, almost half receive some prenatal or postnatal 
services from a maternal and child health-funded program. 
Maternal and child health programs help to increase 
immunization and newborn screening rates----
    Mr. Regula. Are these dispensed through public health 
systems?
    Dr. Kus. Yes. The Federal money comes to the States. Then 
the States match--in fact overmatch it.
    Mr. Regula. Are these individuals that do not have access 
to private health care?
    Dr. Kus. It is. We serve those. And we also make sure that 
people who have access to health insurance, we help them get 
access to health insurance so that they become served. So we 
take advantage of the systems that are in place.
    We are very pleased that the Maternal and Child Health 
Services Block Grant received a $17,500,000 increase after 
several years of flat funding. Current events have highlighted 
the importance of strong public health services. Strong 
maternal and child health programs will need healthy financial 
support to meet the challenges ahead. Recently our organization 
stressed the acute and long-term needs of children in a letter 
to the President requesting increased support for State and 
local public health response efforts to bioterrorism, knowing 
that children are more vulnerable to a release of chemical and 
biological toxins, and their mental health can be affected 
profoundly by acts of terrorism.
    State maternal and child health programs are an important 
point of accountability in our health care system. MCH programs 
report annually on national and State-specific performance 
measures. These measures include newborn screening rates, 
immunization rates, teenage birth rates, health insurance 
coverage in children, prenatal care, and asthma 
hospitalizations.
    State programs utilize this data when completing a 
comprehensive needs assessment every 5 years, and States use 
the needs assessment to help design their program.
    Now, I want to give you a couple of examples of State 
programs. How does this play out? We will start with Ohio. In 
Ohio, 26 percent of Ohio's third grade students have an obvious 
need for dental care. 75 percent of tooth decay is found in 17 
percent of the children, so a small group of children have most 
of the tooth decay.
    Title V of the block grant supports the Ohio Bureau of Oral 
Health Services, which supports local agencies with grant 
funding to provide dental care services; that is, primary care 
and dental sealants to high-risk children and women of child-
bearing age. 6,610 high-risk women and children were provided 
prevention and basic restorative care through 7 locally funded 
dental safety net programs.
    Through the Ohio Partnership to Improve Oral Health, access 
to services, working with the Dental Society, was provided to 
approximately 2,627 people who would have gone without dental 
care. Title V in Ohio also supports school-based dental 
programs in 32 counties.
    Infant mortality rates in Ohio have risen, most noticeably 
in blacks. Title V funds support the Ohio Infant Mortality 
Reduction Initiative which provides care management services to 
make sure that women of child-bearing age have access to 
prenatal services as they need them.
    How about Rhode Island? In Rhode Island, children's mental 
health remains a widely recognized, frustrating gap in 
services.
    I would like to just mention New York State's effort, 
because this has been a tough year for us. September 11th 
called for quick and coordinated action by public agencies. The 
New York State Department of Health worked closely with the New 
York City Department of Health responding to the World Trade 
disaster. We have about 111 school-based health centers in New 
York City. We gave them increased funding to strengthen their 
mental health services and also to provide respiratory care 
services because asthma was a concern.
    So I think that the strong message is that the funding that 
is provided by the Maternal and Child Health Block Grant takes 
advantage of other funding sources, brings the service 
together, but then also evaluates how we are doing in terms of 
the health of women and children.
    Thank you.
    Mr. Regula. You work with Planned Parenthood on prenatal 
care?
    Dr. Kus. Absolutely.
    Mr. Regula. They are an important corollary to what you do.
    Dr. Kus. Absolutely. Part of the program--the prenatal care 
services we fund specifically, and then we also set standards 
for the care that is provided in these services.
    Mr. Regula. Mr. Sherwood.
    Mr. Sherwood. No.
    Mr. Regula. Thank you very much.
    [The prepared statement of Dr. Kus follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                           Tuesday, April 30, 2002.

         COMMUNITIES ADVOCATING EMERGENCY AIDS RELIEF COALITION


                               WITNESSES

PATRICIA BASS, CHAIR, COMMUNITIES ADVOCATING EMERGENCY AIDS RELIEF 
    COALITION; CO-DIRECTOR, AIDS ACTIVITIES COORDINATING OFFICE, CITY 
    OF PHILADELPHIA, ACCOMPANIED BY DR. MARLA J. GOLD, DIVISION CHIEF, 
    HIV/AIDS MEDICINE, MCP, HAHNEMANN UNIVERSITY, PHILADELPHIA, PA, AND 
    MEDICAL DIRECTOR, HIV SERVICES, HEALTH PARTNERS (MEDICAID HMS)
    Mr. Regula. Next is Patricia Bass, Chair, Communities 
Advocating Emergency AIDS relief, Co-director AIDS Activities, 
City of Philadelphia, accompanied by Dr. Gold, Medical Director 
for the Hahnemann University Health Services.
    Dr. Gold. Mr. Chairman, Congressman, my name is Dr. Marla 
Gold, and I am chief of the Division of AIDS Medicine at MCP 
Hahnemann University in Philadelphia, Pennsylvania. I am an 
infectious disease expert and have both designed HIV care 
programs and provided direct medical care to people with AIDS 
for well over 15 years.
    As mentioned earlier, for the past 2 years the President's 
budget contained no increase in funding for the CARE Act; this, 
despite conclusive evidence throughout the country that 
programs supported by CARE Act funding save lives. Positive 
patient outcomes associated with receiving health and support 
services through CARE Act-supported programs have been well 
described in myriad published studies.
    We have seen a 70 percent reduction in AIDS mortality with 
a coincident 30 percent reduction in HIV-related hospital 
admissions throughout the Nation.
    There have been marked reductions in perinatal HIV 
transmission by over 70 percent in our country. And with 
comprehensive care by experts, the risk of an HIV woman passing 
the virus to her baby can now be as low as 1 percent; this, 
compared to 35 percent in our country just a handful of years 
ago.
    Mr. Regula. You do this with drugs?
    Dr. Gold. Medications, and also sometimes also with C-
section.
    There is documentation that CARE Act funding has indeed 
created comprehensive care systems that are accessible and 
available to under- and uninsured people with AIDS, 
particularly people of color and women in our country.
    Articles in peer-reviewed medical journals indicate 
substantial financial savings through appropriate use of 
medications and implementation of national treatment guidelines 
by experts staffing CARE Act-funded programs.
    Today, amidst a growing epidemic, over 75 percent of people 
living with AIDS in the U.S. currently reside in 51 Title I 
eligible metropolitan areas.
    Title I provides medical services to an estimated 200,000 
people with AIDS, accounting for nearly 3 million health care 
visits annually. Title III of the CARE Act provides direct 
grants to 310 community-based clinics, and public health 
providers in 41 States, Puerto Rico, the Virgin Islands and the 
District of Columbia.
    For me, I began providing medical care for people with AIDS 
in the mid-1980s when there was little to medically offer 
beyond support services that helped people plan for their 
deaths. I never got to know my patients. They most often died 
within days of admission, on a ventilator, most of them in 
their twenties. Existing health care infrastructures lacked 
both the expertise to provide HIV care as well as a 
comprehensive service delivery system designed to meet the vast 
needs of those people coming forward for care.
    The Ryan White CARE Act, enacted as you know in 1990, 
ultimately brought people to the planning table where we 
worked--I was there endlessly--to create what we call a 
continuum of HIV care. The services we needed to create had to 
be accessible to all who needed them and result in positive 
outcomes in terms of length and quality of life.
    Today we face a new challenge. The taking of pills and 
controlling of virus was and is much easier to do and 
comprehend than addressing complex life issues including 
poverty, homelessness, lack of food, transportation to 
appointments, substance abuse treatment, mental health 
counseling, and myriad specialized services for women with 
AIDS, a growing field.
    Take a pill. Simple. Address the life context of a patient 
that enables them to take that pill. Not so simple. The CARE 
Act supports a system of care. It extends way beyond the 
prescription. It extends to a total commitment to provide 
comprehensive care that addresses many patient needs in order 
to achieve optimal outcomes.
    A medical plan is not just a handful of pills; it is caring 
for a person within the context of their life, understanding 
their situation, and choosing with them a therapeutic life plan 
that will succeed.
    It is well documented that one must be 95 percent adherent 
with their medication to achieve these outcomes. This equates 
with not even missing more than a dose each month. The need to 
take complex regimens, risk complex side effects, and do this 
in a potentially fragile and vulnerable environment, created 
one of our greatest medical challenges: the need to design and 
implement comprehensive care systems.
    This, I would suggest, is the job of the Ryan White CARE 
Act. An estimated 800,000 to 900,000 Americans are living with 
HIV at this moment that I am speaking to you, including 320,000 
living with AIDS, the most advanced form of HIV disease. The 
mortality rate with care, when you are in care, has dropped 
dramatically. This results in an overall marked increase in the 
total number of people who need care, and will continue to 
rise. As the numbers of people in the Nation with HIV who need 
care continue to rise, the critical need for comprehensive 
systems will be greater than ever. And there are at least up to 
300,000 HIV-infected Americans currently not on reliable care.
    At a time when medication is available, there is a simple, 
yet flawed assumption that simply providing drugs will solve 
the problem. This couldn't be further from the truth. The truth 
is that access to lifesaving medication comes through the 
continuum of care offered by Ryan White CARE Act programs.
    At a time when we finally have medicine to offer, it is 
painful to contemplate my government pulling back on the 
critical lifeline to those drugs and our system of care, and I 
ask that we please don't do that.
    I am here today, in summary, to strongly support the CAEAR 
Coalition's request to increase Title I and III of the CARE Act 
by 43,000,000 and 14,000,000 respectively in fiscal year 2003. 
In my experience as a doctor, HIV expert, and public health 
official, I believe CARE Act dollars translate into life; that 
our systems of care should be accessible to the Nation's most 
vulnerable people at this time of effective therapy for people 
with AIDS.
    The CARE Act is a huge piece of how we got here, how I went 
from death planning to life planning with my patients and their 
families, and I fervently hope that you will continue to give 
us what we need to make a difference in so many lives. Thank 
you.
    Mr. Regula. Thank you. Ms. Bass, do you want to have one 
sentence?
    Ms. Bass. I am Pat Bass from the CAEAR Coalition.
    Mr. Regula. You are supportive of the plan?
    Ms. Bass. I am absolutely supporting her.
    Mr. Regula. Mr. Sherwood.
    Mr. Sherwood. Can you give us any idea statistics wise--in 
other words, those of us that don't know too much about it used 
to think that AIDS was a death sentence. And you are obviously 
proving that that is not the case. But what kind of success 
ratios are you having? When I say success, I realize that is 
defined in different ways.
    Dr. Gold. That is an excellent question. If we get someone 
into care early--our hope is that someone is not infected in 
the first place--but, once infected, when someone gets into 
care early, we don't know, on the appropriate medications with 
follow-up and interventions that we have to medically offer, 
how long people will live.
    Medical mathematical modeling suggests at least 20 years. 
Some people think it could be 30 to 40 years. And, in fact, it 
is sort of marvelous. I am now doing routine screening for 
things like breast cancer, prostate cancer. Patients are 
shocked to learn that they have high blood pressure, all of 
this. And if you had asked me just a few years ago would I have 
had routine health screenings and maintenance for people with 
AIDS, I would have laughed, been shocked.
    But, in fact, it is all before us that people can be part 
of the workforce, have productive lives, and go on actually to 
develop all of the other things that maybe they were going to 
at one time get and work on.
    Mr. Sherwood. You have made wonderful strides here in the 
United States where we have the standard of living. What is the 
hope for making strides in places like subSaharan Africa, 
places with very low standards of living and rampant infection?
    Ms. Bass. Actually I think because of the Ryan White CARE 
Act, we have a model that can be used globally. But I would 
like to remind you that in the United States we have areas that 
very much mirror the epidemic in other parts of the world. And 
to answer that would be to say that we have a very good system, 
a system that could be replicated. In fact, we could teach 
others how to do this because of the Ryan White CARE Act.
    Dr. Gold. I would add, we are doing that. Many experts like 
myself, who exist primarily because of the CARE Act and the 
systems built in, are in exchange programs in places such as 
Botswana where 1 in 3 individuals are infected, and the life 
span will drop to something to the tune of 25 very soon.
    Mr. Sherwood. Another minute?
    Mr. Regula. Sure.
    Mr. Sherwood. You got my attention when you said ``in some 
areas of this country.'' Talk to us.
    Ms. Bass. Well, I am from Philadelphia, and I have areas in 
Philadelphia where I can take you and your staff to see some of 
our folks who have the epidemic, who are living in conditions 
that they cannot choose for care, because they are dealing with 
the multiple social issues that they must deal with every day 
in terms of their daily living, that they cannot choose for 
their health because of other issues.
    And so we can, in fact, put access in place, but unless we 
are able to wrap around these clients with the system of care 
and the continuum of care, we will continue to have that 
problem. And so we have certainly areas, not just in 
Philadelphia and New York, but other areas where we look like 
some of the areas in Africa.
    Mr. Sherwood. So you are talking about general conditions 
and not percentage of the population.
    Dr. Gold. That is right. There would be less overall 
infected in terms of the percentage when you compare to it 
subSaharan Africa, where 60 percent of the world's cases 
reside; that is correct. But the health care infrastructure and 
lack thereof, you can go to urban Philadelphia and find 
problems. And certainly if you look at the whole State of 
Pennsylvania, as you know, there are just rural pockets where 
Title III is the lifeline to people with HIV in those areas.
    And we are linked to many of those experts throughout the 
rural States. That is true throughout the United States. There 
are connections between Title III- and Title I-funded centers 
so that we can help one another do this care that is so 
important to our patients.
    Mr. Sherwood. And what are our trends now with the spread 
to a larger segment of the population? We had some very dismal 
projections a few years ago, and then recently we thought that 
projections were much better. But what is the latest 
information on that?
    Dr. Gold. The current information in the Centers for 
Disease Control and Prevention is that for approximately the 
last 2 years, if you look at the epidemic in our Nation 
overall, there are approximately 40,000 new infections a year. 
The bulk of those infections are impacting upon impoverished 
communities of color, particularly women and the injection 
drug-using population.
    Nonetheless, if you then look at mini-epidemics, go into 
different communities and take a look at what is happening, 
there is new disease among young people, as some of the folks 
earlier have testified, that we are seeing blossom again 
because of lack of sustained behavioral interventions because 
of lack of dollars for care. Which is why those of us who do 
this work keep coming back year after year and trying to 
sustain these systems and, in fact, grow them for the people 
who need us the most.
    With the 40,000, and with the happily, as I mentioned, 
reductions in mortality, it means that every aspect of medical 
care, every single subspecialty, will be impacted upon having 
to care for people with HIV in this country. There is no 
question about it. All of us will know at least one person, and 
most of us will care for dozens.
    Mr. Sherwood. Thank you both very much.
    Mr. Regula. Thank you.
    [The prepared statement of Dr. Gold follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                           Tuesday, April 30, 2002.

                ASSOCIATION OF SCHOOLS OF PUBLIC HEALTH


                                WITNESS

R. PALMER BEASLY, M.D., DEAN, UNIVERSITY OF TEXAS, HOUSTON SCHOOL OF 
    PUBLIC HEALTH
    Mr. Regula. Dr. Palmer Beasly, Dean, University of Texas, 
Houston School of Public Health.
    Dr. Beasly. Mr. Chairman, members of the Committee, thank 
you very much for this opportunity. My name is Palmer Beasly. I 
am the Dean of the School of Public Health at the University of 
Texas. I am here today as the Chair-elect of the Association of 
Schools of Public Health, ASPH, that represents the 31 
accredited schools of public health in the United States.
    I would like to start by--I have four issues that I would 
like to highlight. The first one is the relatively new program 
that funds through the cooperative agreement for money that 
flows through CDC, the Centers for Public Health Preparedness; 
that is, the Bioterrorism Disaster Preparedness Centers, 
relatively new program. There are currently seven academic 
Centers for Public Health Preparedness funded by CDC, and an 
additional eight centers that have been approved, and funding 
should be released for those new centers, bringing the program 
total to 15.
    Nineteen States do not have programs at this time, 
including Ohio and Texas. They should. And our request is to 
get broader coverage, increasing the funding from $20 million 
to $30 million, so that each of those schools will be able to 
have a program that will cover their State and region for the 
areas of the country that do not have schools of public health. 
This will be the primary source by which the public health 
workforce will be trained to be prepared for bioterrorism.
    As you probably know, there were 800 nurses trained at the 
Columbia program, the School of Public Health, prior to 9/11 
that were very helpful in dealing with the issues in New York 
City.
    The second one is the relatively old prevention research 
centers that also has money that flows through CDC through the 
cooperative agreement. That is money that provides for 
prevention research centers that do a broad variety of 
prevention research, and is the primary basis by which we work 
with CDC to carry out activities that does research in a 
variety of health, disease prevention, and health promotion 
areas.
    Texas does have one of those centers. We would like to 
increase the funding to the $1 million per center that was 
intended under congressional Public Law 98-551 when it was 
established in 1985-86, but has fallen to as low as 580,000 per 
center, rising only to about $700,000. And the request that we 
have for $35 million would allow up to six new centers, plus 
bringing the funding of the existing centers to the intended 
1,000,000.
    An example of this kind of program is called CATCH. It is a 
program that was done as research to evaluate the effectiveness 
of nutrition and weight and exercise programs for children in 
schools. It turned out to be so successful that it has been 
adopted as a nationwide program in many States to implement 
nutrition and exercise programs, a program that may well help 
with the national epidemic that we have of obesity and its 
consequences.
    The third area is extramural prevention research for CDC, 
an area that CDC has not traditionally been in, analogous to 
what NIH does. It is very important that we have something that 
will allow transitional research to be done under investigator-
initiated, peer-reviewed research like we carry out with NIH. 
The schools of public health participate substantially in NIH 
research, but the kinds of research that the CDC does is more 
practical, more transitional, would allow us to be more 
effective in what we do.
    An example of this would be the work that I have done that 
showed that the Hepatitis B virus is transmitted from mothers 
to infants. It was not known; HIV was not around at the time. 
And this then led to the discovery that mother-to-infant 
transmission leads to the chronic carriers today, not true when 
adult infections occur unlike HIV, and that this sets up the 
individual for development of liver cancer. And we have then 
been able to show that immunization of these infants at birth 
is able to eliminate up to a very small percent of these 
infections, and thus we will be able to substantially eliminate 
hepatocellular carcinoma from the world, an achievement that 
will be of greater significance than the combined achievements 
of both the Sloan-Kettering and M.D. Anderson program, because 
it deals with primary prevention. So extramural research, we 
would like to see it funded at $20 million.
    And finally, school of public health students have careers 
that they enter into because they are idealists. Most of the 
jobs pay very poorly. And we need training funds in order to 
sustain the public health workforce. And ASPH requests the 
Congress complete the national network of public health 
training centers so that all schools of public health are 
involved in these activities.
    This will increase the number of students that can be 
trained at the 14 current HRSA public health training centers. 
And ASPH requests that Congress provide $10 million in fiscal 
year 2003 through the HRSA budget.
    Mr. Regula. Thank you very much.
    [The prepared statement of Dr. Beasly follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                           Tuesday, April 30, 2002.

               ASSOCIATION OF PUBLIC HEALTH LABORATORIES


                                WITNESS

DR. MARY GILCHRIST, DIRECTOR, UNIVERSITY HYGIENIC LABORATORY, IOWA 
    CITY, IOWA, AND PRESIDENT, ASSOCIATION OF PUBLIC HEALTH 
    LABORATORIES
    Mr. Regula. Dr. Mary Gilchrist.
    Dr. Gilchrist.  Mr. Chairman, and I am currently serving as 
the President of the Association of Public Health Laboratories, 
APHL, and I am representing that organization today.
    Given the critical role that public health laboratories 
play in our Nation's public health system, I urge that you 
adequately fund our efforts to provide bioterrorism and 
chemical terrorism response to fight emerging infectious 
diseases and to protect our citizens from environmental toxins. 
Let me first address bioterrorism response.
    During last year's anthrax attacks, our labs worked around 
the clock processing specimens to ensure the health of the 
public. Importantly, the testing that occurred in the public 
health laboratories controlled fear and panic and reduced 
excess costs to health care and our economy. I was told just 
last week that our efforts in Iowa saved one corporation, 
quote, millions of dollars, unquote, and that their corporate 
colleagues had similar stories to tell.
    The threat of bioterrorism is not over. Laboratories must 
stand ready to identify organisms that could be used to 
compromise food, water or air. For fiscal year 2003, we request 
that you continue to fund the Emergency Supplemental Program at 
the $940 million level. These funds will support the 
laboratories that are part of the laboratory response network 
by ensuring safe and secure facilities, trained personnel and 
modern equipment. The funds will help the public health 
laboratories to develop connectivity with the clinical and 
hospital laboratories.
    Last year the emergency supplemental fund did not contain a 
section that would allow States to better prepare for chemical 
terrorism. The likelihood that chemical agents will be used for 
terrorist purposes is really high. Chemical agents can produce 
immediate effects, are cheap and easy to use and widely 
available commercially.
    To prepare for chemical terrorism our States need trained 
personnel and equipment to perform rapid screening for toxic 
chemicals.
    Let me next address the continuing threat of emerging 
infectious diseases. Between 1973 and 1999, some 35 newly 
infectious diseases were identified, for example AIDS, 
Legionnaires' disease, Lyme disease, hantavirus pulmonary 
syndrome and West Nile virus. Because we do not know what new 
diseases will arise, laboratories must always be prepared for 
the unexpected.
    Last year a total of $354 million was appropriated for the 
emerging infectious diseases program at NCID, the National 
Center for Infectious Disease. For fiscal year 2003, APHL 
requests that this be funded at $425 million level.
    In the State of Ohio in 2001, the Ohio Department of Health 
stopped an outbreak of meningitis. The work of the laboratory 
in this outbreak helped stop a potential epidemic. CDC provides 
guidance to the States to prepare for and respond to such 
outbreaks.
    Finally, let me explain the value that the environmental 
health programs at CDC bring to our Nation. The Environmental 
Health Laboratory Program is located at NCEH, the National 
Center for Environmental Health. NCEH is recognized for its 
expertise in biomonitoring and the assessment of exposure to 
toxic substances by measuring them in blood and urine.
    Last year $157 million was appropriated for the 
environmental health programs at NCEH. For fiscal year 2003, 
APHL recommends that this program be funded at the $203 million 
level.
    In 2001, NCEH awarded 25 planning grants totaling $5 
million to 33 States to develop State-based monitoring programs 
to help prevent disease from exposure to toxic substances. 
Continued funding will allow these States to increase their 
capacity to measure toxic substances in such vulnerable groups 
as children, the elderly and women of child bearing age. 
Adequate funding of NCEH will also ensure that newborn 
screening programs in the States are of the highest quality.
    In closing, I want to thank the members of the Committee 
for this opportunity to testify and for your support of the 
Nation's public health infrastructure and thus the Nation's 
health.
    [The prepared statement of Dr. Gilchrist follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Sherwood [presiding]. Thank you very much, Dr. 
Gilchrist. I think sometimes the country at large thinks that 
we have all these issues in hand and we know that sometimes we 
don't. We appreciate your good work.
    Dr. Gilchrist. Thanks for your understanding.
                              ----------                              

                                           Tuesday, April 30, 2002.

         ASSOCIATION OF STATE AND TERRITORIAL HEALTH OFFICIALS


                                WITNESS

DR. GEORGE E. HARDY, JR., EXECUTIVE DIRECTOR, ASSOCIATION OF STATE AND 
    TERRITORIAL HEALTH OFFICIALS
    Mr. Sherwood. Dr. George Hardy, State and Territorial 
Health Officials.
    Dr. Hardy. Yes, sir. Thank you, Mr. Sherwood. I appreciate 
your tenacity hanging around to this late hour. I am very 
congested.
    CDC and HRSA are the Federal agencies that provide most 
State health departments with essential resources to address 
public health issues from terrorism through immunization, 
chronic disease, HIV/AIDS, injury prevention and control, to 
name just a few. ASTHO urges the committee to approve a total 
CDC appropriation for 2003 of $7.9 billion and a total HRSA 
appropriation of $7.5.
    Let me begin by thanking the Committee for recognizing the 
need in providing the critical initial funding to begin to 
build the Nation's public health infrastructure. September 11 
and the subsequent anthrax crisis served as a wakeup call for 
us all. In responding to these events, we realize that many 
health departments were not fully prepared. The overall 
response was good, but resources were stretched to the limit. 
Should a second major event have occurred at the same time, our 
public health system response would likely have fallen far 
short. We want to thank you for providing the initial resources 
to strengthen our preparedness capacity.
    The Administration's budget recognizes that improving 
infrastructure will require a sustained investment over a 
number of years and proposes a bioterrorism budget at CDC of 
$1.5 billion and at HRSA of $618 million. We strongly support 
those initial requests.
    While the Nation is understandably focused on terrorism, we 
hope this committee will not lose sight of the many other 
important public health issues of the day. For example, this 
year the Administration's budget proposes level funding for the 
National Immunization Program. If we are to meet our goals of 
immunizing 90 percent of children and appropriately immunizing 
adults and adolescent populations, we must provide additional 
resources. We support a $65 million increase above current 
appropriations for the National Immunization Program.
    As you also know, many States have been faced with severe 
shortages of childhood vaccines in the past 2 years, and we 
would urge this committee to ensure that a 6-month supply of 
all childhood vaccines is made available through the VFC 
stockpile program to address that issue.
    More than 90 million Americans live with chronic diseases, 
diseases characterized by a protracted course of illness 
frequently associated with unnecessary pain and a decreased 
quality of life. At a time when the Secretary has proclaimed a 
national diabetes epidemic, only 16 States receive 
comprehensive diabetes funding. Heart disease and stroke remain 
leading causes of death and have even less funding, and no 
States have comprehensive arthritis or physical activity and 
nutrition programs.
    This year, the Administration's budget proposes cutting 
chronic disease funding by $57 million. We urge you to reject 
that recommendation and provide instead an additional $350 
million for this line.
    Over the years, this committee has invested wisely in the 
important work of NIH, but if the critical research findings 
from that investment are just left on a shelf, they might just 
as well not have been made. We sincerely hope that you will 
provide the States the resources to translate existing research 
findings into meaningful public health programs.
    Since its inception 20 years ago, funding for the 
Prevention Block Grant has been stagnant. We would urge you to 
provide an increase of $75 million for this block grant.
    In the interest of your time, we haven't touched on all of 
the areas of CDC and HRSA budgets that deserve attention. The 
Ryan White Care Program that you just heard about and the MCH 
Block Grant are two such initiatives that are very important to 
the States. We hope you will provide the $850 million being 
requested by AMCHP for the block grant.
    In conclusion, Mr. Sherwood, I want to thank you and all of 
the members of this subcommittee for your commitment to public 
health. With your support, we have been able to improve the 
quality of life for millions of Americans. Still, we know there 
is much more that can and must be done, and we respectfully 
request your continued support to achieve the best health 
status possible for all Americans.
    I thank you for your attention, and I would be happy to 
answer any questions you may have.
    [The prepared statement of Dr. Hardy follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Sherwood. Thank you very much, Dr. Hardy. One of the 
things we have discussed often on this Committee is the lag 
between our new discoveries and getting them on the street, if 
you will, and we have talked about that with the people from 
NIH several times. Interesting to hear you bring it up again.
    Dr. Hardy. It is absolutely critical, sir, and I mentioned 
it in the area of chronic disease. As I am sure you will hear 
later from Dr. Merchant, it is true in occupational health, it 
is true in infectious disease. Tremendous and exciting things 
have been learned, but they don't do the people any good until 
they are translated into programs.
    Mr. Sherwood. Thank you very much, sir.
                              ----------                              

                                           Tuesday, April 30, 2002.

              NATIONAL ASSOCIATION FOR RURAL MENTAL HEALTH


                                WITNESS

DR. DONALD A. SAWYER, PRESIDENT, NATIONAL ASSOCIATION FOR RURAL MENTAL 
    HEALTH
    Mr. Sherwood. Next we will have Dr. Donald Sawyer, 
President of the National Association for Rural Mental Health.
    Dr. Sawyer. Congressman Sherwood, Subcommittee staff, the 
National Association for Rural Mental Health, or NARMH, is 
pleased to be able to offer testimony to the Congressional 
Subcommittee on Labor, Health and Human Services, Education and 
Related Agencies.
    NARMH was founded in 1977 in order to support mental health 
and substance abuse providers in rural areas. NARMH is a 
membership organization composed of approximately 500 
organizations and individuals from across the United States.
    Available national data indicates that mental illness is as 
prevalent in rural areas as it is in urban locations. In 
addition, it has long been reported that individuals in rural 
areas are more likely to be without a source of health care, 
without health insurance, in poor health and to be coping with 
a chronic or serious illness than are individuals in urban 
areas.
    Health and mental health resources have historically been 
concentrated in the urban areas of the United States. In 
contrast, rural and frontier areas have fewer mental health 
resources available despite sizeable populations. This limited 
availability and accessibility of services creates serious 
consequences for individuals, families and mental health 
authorities when attempting to address the issues of mental 
illness in rural areas.
    The idealized myth of life in rural America has long 
disregarded the substantial cultural and ethnic diversity as 
well as the pervasive poverty found in these areas. One 
critical area where a massive change has occurred is in the use 
and abuse of substances. This upsurge has been chronicled in 
many sources, but most recently an article in the New York 
Times reporting a University of Michigan study which reported 
that while drug use in cities has decreased, it has increased 
significantly in rural areas and that crack is now more widely 
used in eighth, tenth and twelfth graders in rural areas than 
those in metropolitan areas, a truly significant finding.
    It is important to recognize that in rural and frontier 
areas mental and behavioral health services will be provided in 
a variety of traditional and nontraditional settings. Most 
individuals needing services will not have access to a mental 
health center, and it is even less likely there will be a 
private or not-for-profit program available which specializes 
in the treatment of mental illness. Services will often be 
delivered through the primary care system in schools, through 
church-based programs or in small clinics, and while there may 
be simply a single mental health generalist on staff, there are 
a variety of other medical professionals.
    During the past year a group comprised of several 
organizations concerned with this issue met to fashion 
recommendations to Congress and federal agencies. This group 
included representatives from NARMH, the National Rural Health 
Association, National Mental Health Association, American 
Psychological Association, the private not-for-profit sector 
Mental Health Liaison Group, and the Maine Rural Research 
Center, and we collectively ask that you consider the six 
recommendations that we developed for the Appropriations 
Committee: first, that Congress increase funding for the Rural 
Health Outreach Grant Program and that these funds target 
behavioral health services as well as promote grass roots 
community mental health; second, that Congress increase funding 
for the Rural Telemedicine Grant Program and that these funds 
should also focus on behavioral health care in rural areas; 
third, that Congress increase funding for grants, scholarships 
and/or expand loan repayments from mental health professionals 
who will engage in rural practice; fourth, that funding be 
increased for the Quentin Burdick Rural Interdisciplinary 
Training Grant Program; fifth, that there be a funding increase 
for CMHS and SAMSHA and require that 30 percent of the increase 
be spent supporting both the development of consumer 
organizations and the development of a document which will 
provide communities and groups with a template of what can be 
achieved in rural areas through the use of self-help groups and 
consumer run services, and finally, that Congress provide 
additional funding to the Office of Rural Health Policy to 
continue the Sowing the Seeds of Hope Program, which provides 
mental health services, much needed mental health services to 
farm families in seven Midwest States.
    I want to thank the Committee for hearing my testimony 
today.
    [The prepared statement of Dr. Sawyer follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Sherwood. Thank you, Dr. Sawyer. And it was interesting 
data on rural--little harder to admit in rural areas that you 
have a mental health problem.
    Dr. Sawyer. It is true. There is significant stigma 
associated with it and because of the smallness of the 
community it is often hard to get services in confidential 
manner so it is a difficult challenge.
    Mr. Sherwood. Thank you very much.
                              ----------                              

                                           Tuesday, April 30, 2002.

              NATIONAL ALLIANCE FOR NUTRITION AND ACTIVITY


                                WITNESS

DR. MOHAMMAD AKHTER, EXECUTIVE DIRECTOR, AMERICAN PUBLIC HEALTH 
    ASSOCIATION
    Mr. Sherwood. Next we have Dr. Mohammad Akhter, Executive 
Director, American Public Health Association. Welcome, Doctor.
    Dr. Akhter. Thank you, Mr. Chairman. My name is Mohammad 
Akhter. I am the Executive Director of the American Public 
Health Association. I appreciate this opportunity to appear 
before you, Mr. Chairman, today. I am representing here 200 
different organizations, professional, medical, health, 
industry as well as food safety organizations, and all of us 
are interested in one thing and one thing alone, prevention of 
chronic disease, prevention of obesity and healthy eating and 
exercise, and that is why I am here representing them, to 
present to you what we think we need to do.
    Our Nation's greatest health threat is obesity. Over the 
past 20 years obesity rates have doubled in children. During 
the past decades rates among adults have increased by 60 
percent. Almost two-thirds of the American adults are now 
seriously overweight or obese, putting them at increased risks 
for disabilities and life-threatening diseases such as heart 
disease, stroke, cancer, high blood pressure and diabetes.
    The negative health consequences of obesity are already 
evident. The rate of diabetes increased by 50 percent between 
1990 and 2000. Due to the rising rates among children, type 2 
diabetes can no longer be called adult onset diabetes. Younger 
children are getting that.
    Heart disease is also associated with obesity. Sixty 
percent of overweight children already have high cholesterol, 
high blood pressure, or other early warning signs of heart 
disease. Poor diet and physical activities are cross-cutting 
factors for many diseases. Four out of the six leading causes 
of death in our Nation, overweight, obesity and lack of 
exercise, deal with those. Heart disease, cancer, stroke and 
diabetes all have this in common. They contribute somewhere 
between 300,000 to 600,000 deaths annually. In addition, they 
lead to many disabilities, including blindness from diabetes or 
hip fracture from osteoporosis or stroke leading to loss of 
independence.
    Mr. Chairman, poor diet and lack of physical activity costs 
our Nation more than $147 billion each year. This cost could be 
reduced by helping families to eat better and to be more 
effective.
    A federal investment now in our population-based primary 
prevention to decrease the rate of chronic diseases will pay 
for itself in the future reduction in Medicaid-Medicare costs.
    Government programs to encourage Americans to eat a 
healthier diet and to be more physically active remain 
underdeveloped. The CDC's Division of Nutrition and Physical 
Activity is a good start, but it reaches only a small fraction 
of the American public.
    Current funding of $27.6 million a year allows CDC to have 
a program only in 12 States. The National Alliance for 
Nutrition and Physical Activity urges the Committee to support 
a fiscal 2003 funding level of 60 million for nutrition, 
physical activity and obesity at CDC. This level will allow it 
to have programs in at least 24 States.
    Mr. Chairman, the rate of obesity is increasing too fast. 
And at the current rate of increase of funding, it will take us 
10 more years to be able to fund our States. So we very much 
encourage the Committee to consider funding this program to a 
$60 million tune because we can't afford to wait 10 years to 
fund programs in each and every State.
    Mr. Chairman and members of the Committee, we also want to 
thank you for your support of the CDC's Youth Media Campaign. 
This is the program where the media is used to educate the 
youth in terms of eating right and doing physical activity. We 
have learned that use of the media is the best way to reach our 
children. It has been evident in smoking cessation, in drinking 
low fat milk and in carrying out physical activities, 
especially walking. We believe the program should be enhanced 
and this program should be funded, and CDC is doing great work 
in supporting this activity and we believe that funding of this 
program at $125 million would go a long way in helping our 
youth to grow up to be healthy adults.
    In conclusion, Mr. Chairman, we are grateful for the 
previous increases to the Nutrition and Physical Activities 
Program at the CDC and for your additional support for the 
Youth Media Campaign, but the growth must be significantly 
increased this year to be able to meet the increased demand so 
we can have a nationwide program. Now is the best time to 
invest in our Nation's comprehensive approach to deal with this 
problem. The CDC is the best agency and this investment will 
continue to pay dividends over the years to come in terms of a 
healthy Nation and greater productivity for our country.
    Thank you, Mr. Chairman, for the opportunity.
    [The prepared statement of Dr. Akhter follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Sherwood. Thank you, Doctor. And you told us what we 
heard before, that so many of our health problems are 
behavioral. And when you talk about reaching the young people, 
I wonder what liaison you have with the American public school 
system, because, you know, that is a great way to reach 80 
percent of the young people.
    Dr. Akhter. We have a very good working relationship with 
the school system. Part of the school system, the School 
Nursing Association and Nutrition Educators are members of this 
coalition, 200 groups of people. We are working on all fronts, 
but a little bit of resources, very small amount of money could 
go a long way in terms of delivering the message to our 
children all around the country.
    Mr. Sherwood. I worry about the programs of the Cola 
companies to give free scoreboards to a school if they will put 
Coke machines or Pepsi machines in the school, because I 
understand that for every second large soft drink that a child 
drinks every day they increase their chances of being obese by 
85 percent. That is a terrifying statistic.
    Dr. Akhter. Absolutely, Mr. Chairman, and they are spending 
a lot of money, $860 million a year to promote Coca-Cola 
drinking. And on the other hand, we are asking $125 million to 
undo some of these things that they are promoting so 
rigorously. I think we have to have a counter campaign so the 
youth can hear the message from the other side and could make 
the right decision.
    Mr. Sherwood. Your third paragraph on the second page I 
think sums it up: Healthy eating, physically active and 
maintaining a healthy weight are not an easy task because of 
our society. Portion sizes are large, communities are designed 
for driving rather than walking and physical education is being 
crowded out of school curriculums. It seems like a lot of the 
progress we have made since World War II is not progress in 
certain respects.
    Dr. Akhter. In some sense there are side effects to all the 
progress, but they are fixable, they are doable things. I think 
many communities are now having the sidewalks. The people walk. 
But these are the kinds of things we need to take a natural 
approach, working with the State and local health departments, 
to make sure that every community has a program that encourages 
walking rather than driving, that encourages healthy eating and 
work with the food industry to have an adequate size of the 
meal.
    Mr. Sherwood. Number one, reduce caloric intake; number 
two, exercise more.
    Dr. Akhter. You said it well.
    Mr. Sherwood. Thank you very much, Doctor.
                              ----------                              

                                           Tuesday, April 30, 2002.

                           BASSETT HEALTHCARE


                                WITNESS

DR. WILLIAM F. STRECK, PRESIDENT AND CHIEF EXECUTIVE OFFICER, BASSETT 
    HEALTHCARE
    Mr. Sherwood. Now we would like to welcome Dr. William 
Streck. Did I say that right, Streck?
    Dr. Streck. You did, sir. Thank you, Mr. Sherwood. Thank 
you, staff members. I have submitted my written testimony and I 
would propose to provide a summary of the executive summary I 
submitted.
    I am Bill Streck, the President of Bassett Healthcare based 
in Cooperstown, New York. Cooperstown is the site of the 
National Baseball Hall of Fame and also privileged to be 
represented by Congressman Boehlert.
    Cooperstown is also the site of Bassett Healthcare, which 
is celebrating its 75th year as a social experiment in health 
care. It is an academic rural health center and has been since 
its origin a teaching hospital with research. It actually 
launched the first prepaid health plan in 1929. It was the site 
of the first bone marrow transplant in the 1950s. It is more 
recently a center for New York Agricultural Medicine and 
Health, a research institute that is focused on population 
studies and, more recently, obesity, and it is an organization 
that now spans eight counties in central New York, provides 
services to about half a million people a year, is based with 
20 different primary care centers in rural areas, a teaching 
hospital is the center, two other hospitals and all in all is a 
complex delivery system that provides research and education 
enterprises for a rural area.
    This particular institution, in conjunction with the New 
York State Department of Health, took it upon itself to look at 
cardiac disease in this rural area, and we have in concurrence 
with the New York State Department of Health developed the 
Bassett Heart Care Initiative, an initiative that involves the 
Cardiac Disease Registry that involves community intervention 
and that fundamentally looks at the way health care is 
delivered to patients needing cardiac care.
    This arrangement is one that is unique, and we are here 
seeking your support for those components of the initiative 
that are necessary to continue this forward. This includes some 
capital improvements on our campus. It includes the development 
of the program in conjunction with the department, all of which 
is detailed in the written testimony, but fundamentally we are 
here offering for what, based on earlier conversation, would be 
a modest sum of a million dollars, but this would be a 
substantial contribution toward our effort to effectively 
introduce new levels of health care in rural America and 
establish a research base for ongoing policy research that 
would be applicable beyond our particular locale.
    So that is the purpose of our request to this Committee, 
and we are appreciative of the consideration.
    [The prepared statement of Dr. Streck follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Sherwood. Thank you very much. Only in Washington, 
D.C., is a million dollars a modest sum. But for leather 
stocking health care it would be worth it, and thank you very 
much. Your organization has a wonderful reputation, you know. 
My congressional district is just south of Binghamton a little 
bit.
    Dr. Streck. You have the Guthrie Health Center?
    Mr. Sherwood. I do.
    Dr. Streck. So you know Ralph Meyer. We will talk about 
those people at another time, but it is a pleasure and 
certainly that is another premier health system and one with 
which I am very familiar.
    Mr. Sherwood. Thank you very much.
                              ----------                              

                                           Tuesday, April 30, 2002.

                       FRIENDS OF NIOSH COALITION


                                WITNESS

DR. JAMES A. MERCHANT, DEAN, COLLEGE OF PUBLIC HEALTH AND PROFESSOR, 
    DEPARTMENT OF OCCUPATIONAL ENVIRONMENTAL HEALTH, UNIVERSITY OF IOWA
    Mr. Sherwood. Dr. Merchant. You would--how do you get the 
position of being last today?
    Dr. Merchant. Well, Congressman Sherwood, I appreciate the 
opportunity to testify and thank you for persevering and thanks 
to the staff, too, for persevering to the end of this hearing.
    I am here today on behalf of the Friends of NIOSH, or 
National Institute for Occupational Safety and Health, a unit 
of the CDC. This is a coalition of 15 organizations 
representing industry, labor and scientific organizations which 
are dedicated to supporting NIOSH research and prevention 
programs.
    Today the Friends of NIOSH requests the Subcommittee to 
provide $336.5 million, or an increase of $60 million, for 
fiscal year 2003 programs for NIOSH. This is a substantial 
increase, but the contributions of NIOSH are enormous.
    Mr. Chairman, occupational illness and injury continue to 
be a significant problem in the United States. Every day an 
average of 9,000 U.S. workers sustain disabling work-related 
injuries, 16 will die from an injury and another 137 will die 
from a work-related disease.
    Despite these sobering statistics, I firmly believe that we 
can and will continue to make U.S. workplaces safer for all 
Americans. Through research, surveillance, education and 
training, NIOSH is working with industry, labor and the 
scientific community to make all workplaces safe and 
productive.
    Since its inception in 1996, NIOSH's National Occupational 
Research Agenda, or NORA, has become an essential framework for 
approaching work-related illness and injury. NORA has 
identified the most important research priorities, including 
high hazard industries like construction, mining and 
agriculture and the health care industry, and has provided 
funding in these areas. However, much more research is needed 
for emerging priorities, including workplace violence 
prevention and research.
    In the days following September 11 and the anthrax attacks 
on U.S. citizens and the U.S. Congress, it became clear that 
America's workers, whether airline pilots and crew, first 
responders, office workers or postal employees, are on the 
front lines when the Nation faces terrorist attacks. All of 
those who died on 9/11 did so while at work. In response, fire 
fighters, medical personnel and other emergency responders, 
construction workers and decontamination workers relied on the 
know-how, technology and guidance developed through NIOSH 
occupational safety health and research.
    However, more research is needed, especially through 
NIOSH's Personal Protective Technology Laboratory, to protect 
first responders from potential biological and chemical agents 
and terrorist attacks. NIOSH is also poised to work with the 
extramural community to expand its research to protect 
emergency responders and the workforce in general from the 
threat of bioterrorism and chemical terrorism.
    Mr. Chairman, the hardest problem to fix is the one that 
you do not know about. That is why surveillance of workplace 
injuries and illnesses is a central part of NIOSH's mission. 
Accurate accounts of work-related illnesses and injuries and 
reliable measures of hazardous exposures are required of 
focused research and prevention activities. Establishing 
occupational safety and health surveillance or tracking within 
State-based public health programs is the most effective way to 
build a national system for identifying and responding to 
workplace conditions and risks.
    While NIOSH annually responds to health hazard evaluations 
of workplace illnesses and injuries, recently NIOSH has 
necessarily given priority to the tragic events of 9/11 and the 
ensuing anthrax attacks. NIOSH's health hazard evaluation staff 
played an immediate and key role in assessing the health 
problems and injuries resulting from the World Trade Center 
attack and provided key expertise and hands-on assistance in 
response to the anthrax emergency. Both the rise in demand of 
the NIOSH Health Hazard Evaluation Program and the recent 
terrorist events have severely taxed the resources of the NIOSH 
Health Hazard Evaluation Program and its other prevention 
efforts. Additional support for these key programs would enable 
NIOSH to expand these critical activities and prepare for the 
probable terrorist attacks in the future.
    Mr. Chairman, reliable prevention and effective treatment 
of work-related diseases and injuries require professionals who 
are trained in the occupational safety and health disciplines. 
A recent Institute of Medicine report identified a need for 
more occupational safety and health professionals at all 
levels.
    Unlike most of the 24 medical specialties, occupational 
medicine does not receive training through the Medicare 
Graduate Medical Education Payment System. NIOSH's 16 education 
and research centers at leading universities around the country 
and the 35 training project grants in 22 States and Puerto Rico 
are an essential resource for training occupational health 
professionals. Increased support for this national training 
network is also necessary for general public health 
preparedness.
    In conclusion, NIOSH research, health hazard response, 
health tracking and training programs are vital elements of our 
Nation's security. Friends of NIOSH appreciate the opportunity 
to comment on these essential programs and the funding needs of 
the National Institute of Occupational Safety and Health. Thank 
you for hearing our views.
    [The prepared statement of Dr. Merchant follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Sherwood. Thank you very much, Doctor, and you 
mentioned first responders. The training of first responders is 
quite important in light of our 9/11 experience. They did such 
a good job in New York, but we are bound to have some things 
pop up that we are not prepared for.
    Dr. Merchant. An enormous training need. We have been 
working with the CDC, and Palmer Beasly mentioned these 
preparedness centers in working with NIOSH, and we learned a 
lot from NIOSH. We developed a training video for every first 
responder unit in Iowa, every police department, every fire 
department, every EMS unit, because many of them had not had 
the essential training in terms of how to recognize hazardous 
substances and some of the basics of personal protective 
equipment. This is what NIOSH specializes in, and this is the 
enormous contribution they made at the time of 9/11 and with 
the anthrax outbreak we had earlier this year.
    Mr. Sherwood. The hearing stands adjourned. Thank you all.
                                             Thursday, May 2, 2002.

              INTERNATIONAL HYPERBARIC MEDICAL ASSOCIATION

                                WITNESS

DR. PAUL HARCH, PRESIDENT, INTERNATIONAL HYPERBARIC MEDICAL ASSOCIATION
    Mr. Regula. Okay, we'll get started, because we have a long 
list today, and we'll probably get some interruptions for 
votes.
    We're happy to welcome all of you. These are important 
issues. I just came from my office full of people with 
diabetes. And they're convinced that, maybe so, another couple 
of dollars and there will be a cure. I'm sure you feel the same 
way about whatever you're dealing with.
    The United States has done a remarkable job in research. I 
was impressed the other day, the NIH people testified that 
every five years, life expectancy goes up a year. So in 50 
years, that's 10 years. And that's thanks to the research 
that's done and a lot of what's happening, good diet and a lot 
of things that are pluses.
    Well, we want to get started, because we want to give 
everybody an opportunity. Our first witness will be introduced 
by David Vitter, from the great State of Louisiana.
    Mr. Vitter. Thank you very much, Mr. Chairman. I'm pinch 
hitting today for Ernest Istook, but I'm very, very happy and 
honored to introduce Dr. Paul Harch from Louisiana. He's an 
emergency and hyperbaric medicine physician who graduated magna 
cum laude and phi beta kappa from the University of California 
Irvine in 1976 with a bachelor's degree in biology and 
subsequently from Johns Hopkins Medical School in 1980. He 
completed two years of general surgery training at the 
University of Colorado, one year of radiology at LSU School of 
Medicine, has worked 17 years in hospital based emergency 
medicine and 15 years in hyperbaric and diving medicine.
    His primary interests have been brain decompression 
sickness and hyperbaric oxygen therapy, base-spec brain imaging 
index neurorehabilitation. He is going to obviously talk more 
about his work. It has been very, very promising, having 
treated over 180 children and 320 adults. And he's now 
recognized as one of the foremost authorities in the U.S. on 
hyperbaric oxygen therapy.
    In that capacity, he's been elected as the first president 
of the newly formed International Hyperbaric Medical 
Association. And with that, I'm very pleased to present Dr. 
Harch.
    Mr. Regula. Dr. Harch, thank you for coming. Let me say to 
all of you, because we have 25 witnesses today, we have to 
limit you to five minutes. I'm sorry, but there just isn't any 
choice. And there's a little box on the desk that gives you a 
warning when the time is about to expire. If I ask questions, 
that's on my time.
    Dr. Harch. Thank you. Chairman Regula and members of the 
Committee, I first want to thank you for the opportunity to 
testify today. My name is Paul Harch, and as Mr. Vitter said, I 
am an emergency and hyperbaric medicine physician who is here 
representing the International Hyperbaric Medical Association 
and brain injured Americans. I'm not here to ask for money. I'm 
here to show you how we can save money and improve the health, 
welfare and outcomes of brain injured Americans.
    What I'd like to say is that simply, we have a treatment 
for brain injury that is----
    Mr. Regula. All types of brain injury?
    Dr. Harch. Almost all types. We have looked at this now in 
over 500 patients over the last 12 years and 50 different brain 
based neurological conditions. This is a generic treatment for 
brain injury with, I believe, the capacity to revolutionize the 
treatment of brain injury in the world.
    Amongst these 500 patients have been 180 children. The 
first five brain-injured children in the United States treated 
with hyperbaric oxygen therapy were treated by me in New 
Orleans. Many of these children have cerebral palsy, autism, 
near-drowning, a variety of neurological disorders. And many of 
them include IDEA children, who as you know, the Federal and 
State Government is now spending $55 billion a year to attempt 
to educate, when they don't have the capacity to learn, often 
from organic brain injury.
    This treatment, as we have shown in a number of these 
children, can give them the capacity to learn. And the cost is 
roughly about a year to a year and a half of the education 
support money.
    What I wanted to show you today was that this can be 
applied in a variety of conditions. After presenting this in 
1992 through 1995 to scientific meetings and experiencing a 
fair amount of criticism, I went to an animal model. We have 
now done this and replicated this in animals and have the 
first-ever demonstration of improvement of chronic brain injury 
in animals.
    What I wanted to show you today and just mention quickly 
about diabetes, this is actually the only modality that can 
prevent major amputations in diabetics with foot wounds, which 
as you know is a major failed target of the Healthy People 2000 
initiative. What I'm going to show you here today is, there are 
a few examples of what can be done.
    And the patient here, whose brain scans are on the poster, 
is one of Mr. Istook's constituents. This is the first 
Alzheimer's patient in the United States and possibly the world 
treated with hyperbaric oxygen therapy for his Alzheimer's. He 
was a 58 year old architect who of course had lost his job and 
now needs 24 hour supervision and accompaniment by his wife.
    After a lecture I gave at the University of Oklahoma Health 
Science Center, the neurology group referred him as a test 
case. What you're looking at here are brain blood flow scans. 
The way brain blood flow in the brain works is similar to a 
gasoline engine. More gasoline, more blood flow, more RPMs to 
the engine, better metabolism to the brain.
    If you look at these pictures, these are three dimensional 
reconstructions of the human brain blood flow. On top here is 
the brain scan before treatment and this is the face view. 
We're looking right at the patient. The eyes would sit here, 
and wherever there are holes in the brain are significant 
reductions in blood flow. This is the right side view and this 
is the left side view, and here is the top view. Where the 
three major arteries in the brain on each side come together is 
right here, on each side. That's the most vulnerable area for 
brain injury. It's the area primarily injured in Alzheimer's.
    After three and a half months of treatment, 89 hyperbaric 
treatments, you see how all of these damaged areas of the brain 
have begun to fill in. Simultaneously, he was tested by the 
neuropsychologist at University of Oklahoma----
    Mr. Regula. We've got about a minute left. Tell me what the 
process is.
    Dr. Harch. It is putting a patient in an enclosed chamber, 
decreasing the pressure and giving them pure oxygen. It 
dissolves in the blood and you're able to put the oxygen in the 
liquid portion of the blood, above and beyond what is bound to 
hemoglobin in our red blood cells, which as you and I now have, 
100 percent saturation. It's then delivered to injured areas in 
the body, and by repetitive exposure, you grow new blood 
vessels, you stimulate damaged cells to begin repair.
    Mr. Regula. Because there's a more intense flow of oxygen 
to the injured, in this case the brain area.
    Dr. Harch. Exactly. And it's an ability to restore, not 
dead, but damaged tissue that is not functioning.
    Mr. Regula. Okay. You developed the process. It is being 
used or is it still in an experimental stage?
    Dr. Harch. It is being used for a variety of other 
indications. And increasingly so for this, at a number of 
centers in the United States.
    Mr. Regula. Has NIH done any experimentation with this?
    Dr. Harch. No. Well, there has been some in the past, on 
senility and some other neurological disorders.
    [The prepared statement of Dr. Harch follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Well, thank you very much. We'll read your 
paper, and I know the staff will be interested. It's a 
challenging idea. Because we deal with a lot of Alzheimer's, a 
lot of brain injuries, it could revolutionize the treatment.
    Dr. Harch. Thank you, I agree.
    Mr. Regula. Thank you for coming.
                              ----------                              

                                             Thursday, May 2, 2002.

                     ACADEMY OF RADIOLOGY RESEARCH

                                WITNESS

DR. PHILIP O. ALDERSON, CHAIRMAN, DEPARTMENT OF RADIOLOGY, COLUMBIA 
    UNIVERSITY; PRESIDENT, ACADEMY OF RADIOLOGY RESEARCH
    Mr. Regula. Our next witness is Dr. Philip Alderson, 
Chairman, Department of Radiology at Columbia University, 
President of the Academy of Radiology Research. Welcome, Dr. 
Alderson.
    Dr. Alderson. Thank you, Mr. Chairman.
    I represent the Academy of Radiology Research, which 
represents more than 30,000 radiologists, imaging scientists 
and allied professionals, as well as over 90,000 imaging 
technologists. And Mr. Chairman, I appreciate the opportunity 
to speak on the fiscal year 2003 budget for the National 
Institute of Biomedical Imaging and Bioengineering.
    NIBIB will support research in both biomedical engineering 
and in imaging. The two fields are closely related 
scientifically. And we are working closely with our engineering 
colleagues to take full advantage of the synergies.
    In the recent words of NIH Director Nominee Elias Zerhouni, 
we need to encourage cross-cutting initiatives. And also the 
recent words of Acting Director Ruth Kirschstein, a cross-
cutting institute such as NIBIB is truly a reflection of where 
science is today and where it will take us tomorrow. I strongly 
agree with both Dr. Zerhouni and Dr. Kirschstein. A cross-
cutting technology has had and will continue to have an 
enormous positive impact on clinical care and advanced 
biomedical research.
    Imaging science has already revolutionized medical care. 
And the second revolution is already underway, a revolution in 
which imaging will allow us not only to visualize diseases, but 
to see and measure those diseases and find out how they 
actually work, witness the display from our first witness 
today.
    The techniques for imaging biological activity at the 
cellular and molecular levels could produce images of genetic 
or molecular activity that signal disease processes much 
earlier than we can now, a multitude of infectious, 
degenerative immunological diseases or even cancer. So as a 
result, physicians could begin disease treatment earlier, for 
example, breast cancer or prostate cancer. And then do much 
better for their patients.
    Basic cross-cutting research in molecular imaging supported 
by NIBIB could make broadly applicable new diagnostic tools 
available more quickly than would be possible, if disease-
specific research in the other institutes were the only way to 
accomplish these goals at the NIH. And new techniques developed 
in NIBIB could be applied to studies in all the other 
institutes.
    The NIBIB is planning a number of promising initiatives 
that are likely to result in breakthroughs in both imaging 
science and biomedical engineering. Unfortunately, there is a 
large gap between the science to be done and the funds 
available. The budget requested for 2003 includes only a $9 
million increase for NIBIB, a level that will severely reduce 
its capability to fund research to develop new biosensors, to 
build new and better imaging systems, to develop image guided 
surgical approaches, just to name only a few of the many, many 
great potential initiatives that NIBIB is exploring.
    Unless something is done to change the current budget plan, 
scientific opportunities will be lost. According to NIBIB 
budget documents, the Institute will fund 100 new competing 
research grants in the current fiscal year, but only 49 in 2003 
if the budget request is enacted. We cannot build a new 
institute on a shrinking research program, especially when we 
begin with what is the smallest institute at the NIH.
    Moreover, it's anticipated that NIBIB will be able to fund 
only 14 percent of the research proposals it receives for 2003, 
whereas it is currently able to fund 30 percent, which is in 
line with the other institutes. If that rate is only 14 percent 
next year, there surely will be widespread and severe 
discouragement among researchers.
    Stifling the growth of the NIBIB at this early stage would 
be especially tragic because of its potential to attract new 
investigators, scientists who have not previously been 
supported by NIH to biomedical research. In particular, the 
NIBIB provides a research home at NIH for physical, in addition 
to biological, science. Investments in NIBIB will create 
opportunities for closer collaborations between the physical 
and biological scientists, and will unquestionably benefit both 
areas.
    This potential expansion of the scientific talent focused 
on biomedical questions will not happen, however, unless NIBIB 
has sufficient resources to meet the demand created by the many 
high quality research proposals. The imaging and biomedical 
engineering communities believe that an increase of $100 
million for NIBIB in fiscal year 2003, over and above the 
results of the current review of imaging and bioengineering 
grants at the NIH, is needed. Such an increase could be managed 
effectively by the NIBIB staff, would allow the institute to 
begin to explore current scientific opportunities and would 
provide a foundation for appropriate growth in the future.
    I would be pleased to answer questions.
    [The prepared statement of Dr. Alderson follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you for coming today, and we will discuss 
this with the NIH folks. I'm not sure why the reduction, but 
maybe they have a reason. In any event, we'll check with them. 
Thank you.
    Dr. Alderson. Thank you very much.
                              ----------                              

                                             Thursday, May 2, 2002.

              HEINZ C. PRECHTER FUND FOR MANIC DEPRESSION


                                WITNESS

WALTRAUD E. PRECHTER, PRESIDENT, HEINZ C. PRECHTER FUND FOR MANIC 
    DEPRESSION
    Mr. Regula. Our next witness is Waltraud Prechter, who will 
be introduced by our good friend, John Dingell.
    Mr. Dingell. Mr. Chairman, thank you for your courtesy to 
me and to my dear friend, Waltraud Prechter. I will be brief in 
my introduction. First of all, thank you. I am proud to 
introduce a very good personal friend of mine, Wally Prechter. 
She and her late husband have been community leaders in 
southeast Michigan for over 20 years.
    The family founded the World Heritage Foundation, a major 
philanthropic entity dedicated to helping make a difference in 
the areas of health, education, welfare, arts, culture and the 
community. The Foundation also fosters innovative public and 
private sector partnership, entrepreneurial development and 
German-American relations. Ms. Prechter has been the President 
of the World Heritage Foundation since 1985, when it was 
conceived.
    She has been a positive force in our community and a model 
citizen. She serves in numerous leadership positions including 
the University of Michigan Health Care Advisory Group, Wayne 
State University's Detroit Medical Center Women's Clinical 
Services Board, the Detroit Symphony Orchestra and the 
Downriver Council for the Arts. She is a bright light in our 
community and our country. It's a privilege to present her to 
the Committee this morning. She will speak on an issue that has 
great impact on families and communities across the country. 
I'm proud to introduce Wally Prechter.
    Ms. Prechter. Thank you, Mr. Dingell. Chairman Regula, 
members of the Committee, my name is Wally Prechter, Waltraud 
Prechter. I thank the Committee and also wish to thank 
Representatives Dingell and Rogers for making this possible.
    I am President of a foundation my children and I 
established last year in my husband's memory, the Heinz C. 
Prechter Fund for Manic Depression. I greatly appreciate the 
opportunity to speak to you today as a wife, mother and an 
individual whose life has been touched by the insidious illness 
called manic depression.
    I will never forget July 6th, 2001. Heinz, my husband of 24 
years, seemed to feel far better than he had in months. After 
struggling with his third bout of manic depression in over 
three decades, the hopelessness that immobilized him seemed to 
have lifted. He rose early for a workout, and I was relieved 
and elated.
    However, my feelings of joy were short-lived. Only minutes 
later, I discovered Heinz in the guest house. He had taken his 
life. He left without a word, there were no goodbyes to our 
twin children, Paul and Stephanie, and there was no goodbye for 
me. He was 59 years old.
    He embodied the American dream. I have tried to do justice 
to his life in the full testimony I submitted to the Committee. 
Let me just say here that he came to this country with only $11 
in his pocket, but he went on to introduce the sunroof to 
America, and built a premier global supplier of specialty 
vehicles and open air systems.
    He also was a philanthropist and he felt a deep obligation 
to give back to his community and his new country. He became a 
citizen and believed deeply in the American dream.
    At the height of his career, my husband fell victim to 
suicide. Heinz was one of 30,000 fellow Americans who took 
their lives last year. That, Mr. Chairman, represents one 
person taking his or her life every 17 minutes.
    Many of those individuals suffer from manic depression or 
bipolar, experience extreme changes in mood, thought, energy, 
behavior and productivity. It affects an estimated 2.7 million 
adult Americans. As debilitating as blindness or paraplegia, 
manic depression destroys the ability to reason, motivate, 
communicate, share ideas and thoughts and productive 
relationships. Thereby, manic depression erodes the very 
foundation of America's information economy and economy of 
mental performance.
    Bipolar disorder contributes to billions of dollars in 
economic loss due to lost productivity, absenteeism and 
premature death. Mr. Chairman, it's an illness that our great 
country can no longer afford. In order to prevent others from 
going through what our family went through, we established the 
Heinz C. Prechter Fund for Manic Depression in his memory. The 
fund will engage the best and brightest researchers to advance 
medical research to find cures for bipolar disorder.
    But we and other similar organizations cannot do this 
alone. While the Federal Government has begun to address this 
problem, much more needs to be done. That is why I am here 
today. My request of this Committee is three-fold.
    First, I wish to thank the Congress for increasing funding 
for research at the National Institutes of Health. While this 
is a significant accomplishment, research funding at the 
National Institute of Mental Health is lagging behind. I would 
respectfully ask this Committee to ensure that funding at the 
NIMH increases on a par with other institutes.
    Secondly, I would ask the Committee to encourage NIMH to 
provide bipolar disorder with its proportionate share of 
funding increases for mental research. Even more importantly, I 
would suggest for NIMH to focus its bipolar research on 
unlocking the underlying genetic causes of this insidious 
hereditary disease, as well as developing effective and safe 
treatment options.
    As in the case of cancer or AIDS, we as a Nation should 
commit ourselves to finding cures for this condition that 
affects millions of Americans.
    Lastly, I would ask you to urge the Department of Health 
and Human Services to convene a national symposium to create a 
research road map to finding cures for bipolar disorder. As I 
noted in my written testimony, a national strategy for suicide 
prevention was successfully developed as a result of such a 
conference.
    That 1998 conference brought together the best and 
brightest researchers and clinicians, mental health advocacy 
groups, and affected individuals. Since bipolar disorder is a 
significant factor in many suicides, this type of national 
approach is certainly warranted.
    I appreciate the Committee's consideration of these 
requests. I am humbled and deeply honored to share my story 
with you. Mine is just one story of thousands of untold stories 
all over America. It is my hope that starting today, we will 
jointly embark on a journey in pursuit of a new frontier, to 
battle the illness that robs us of our loved ones and to find 
cures for manic depression. I urge you, Mr. Chairman and 
distinguished members of the Committee, to do whatever is in 
your power to support our endeavor which will lead to a 
healthier, happier and more productive America.
    Thank you.
    [The prepared statement of Ms. Prechter follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you for coming. I knew your husband well, 
he was a wonderful man. I'm on the board of the Smithsonian, 
and he was on the Board of Advisors there, and was just a good 
citizen in a lot of different ways. Obviously this is something 
we should address. The numbers are much greater than I would 
have thought from listening to your testimony.
    Ms. Prechter. That's correct.
    Mr. Regula. I know when I heard about Heinz, it was a real 
shock to me, because he was such a dynamic personality. It's 
something that's impossible to understand.
    Ms. Prechter. Thank you very much.
    Mr. Regula. Thank you for coming.
    Mr. Dingell. Mr. Chairman, thank you for your courtesy.
                              ----------                              

                                             Thursday, May 2, 2002.

          NORTH AMERICAN ASSOCIATION FOR THE STUDY OF OBESITY


                                WITNESS

DR. MICHAEL D. JENSEN, M.D., PRESIDENT, NORTH AMERICAN ASSOCIATION FOR 
    THE STUDY OF OBESITY
    Mr. Regula. Our next witness is Dr. Michael Jensen, 
President of the North American Association for the Study of 
Obesity.
    Thank you for coming.
    Dr. Michael Jensen. Thank you, Chairman Regula, members of 
the Subcommittee. Thank you for the opportunity to testify 
before you on behalf of NAASO, the North American Association 
for the Study of Obesity. I am Dr. Michael Jensen, the 
President of NAASO. NAASO is America's leading obesity 
organization. Our membership is comprised of the leading 
scientists and clinicians in this field.
    I'm here to testify as to the importance of federally 
funded programs that support obesity research and prevention. 
The scientific advances we've made in the last 10 years could 
not have happened without the support expressed by this 
Committee. Obesity is quickly becoming the leading health care 
problem in the United States. It is a complex disease that 
involves genetic, metabolic, behavioral and environmental 
factors. The increased prevalence and causal relationship with 
serious medical complications has considerable health and 
economic consequences for our country.
    For example, the prevalence of obesity has doubled in the 
last 20 years. Approximately 60 percent of adults and 15 
percent of children are now overweight or obese. It is the 
number two preventable cause of death in the United States, 
resulting in more than 300,000 lost lives each year, and more 
than $61 billion in obesity related health care expenses. We 
are now seeing children with adult type obesity diseases, such 
as type 2 diabetes.
    In short, obesity is an expensive, growing epidemic that 
has the potential to bankrupt our health care system. We 
believe that increased research for understanding, preventing 
and treating obesity will decrease the prevalence of costly 
obesity related diseases, like diabetes, high blood pressure, 
coronary diseases, and could ultimately result in considerable 
financial savings.
    Research funding supported by this Committee has led to 
some remarkable advances in our understanding of obesity. It's 
revolutionized how we understand how the brain regulates food 
intake. We've determined the amount of physical activity 
required to prevent weight re-gain, and what properties of food 
promote over-eating. We've demonstrated that behavioral and 
lifestyle changes that result in only a 6 percent weight loss 
can result in a 58 percent decrease in the risk of developing 
diabetes.
    I think it's important to build on these accomplishments. 
Future research should be directed at developing more effective 
prevention strategies, improving obesity treatment and 
improving our understanding of how excess fat impairs health.
    Regarding prevention, the current obesity epidemic can be 
attributed in large part to an environment that discourages 
physical activity and encourages over-eating. This is 
particularly true in children. To be successful, prevention 
efforts are going to need to target the environment. In the 
past, we thought that educating people to eat less and exercise 
more would solve the problem. Thanks to research, we have 
learned why this is not true. And we can now develop sound, 
scientific approaches for treatment and prevention. The efforts 
in the CDC in obesity prevention should be fully supported.
    Regarding treatment, much of the information gained on 
weight management strategies has not been effectively 
translated into treatment. Additional research is needed to 
identify the means to sustain long term changes in eating and 
physical activity behavior. I think the most exciting new 
developments in obesity therapy will probably be derived from 
research that improves our understanding of how our body 
regulates fat. This may lead to development of new and 
effective treatments that safely mimic the body's natural 
defenses against obesity.
    In addition, if we can understand the links between excess 
fat and other diseases, we should be able to prevent the organ 
and tissue damage that relates to excess body fat. If we can 
learn more about how the brain regulates energy intake, 
physical activity and how it controls body fat, we may be able 
to make the kind of rapid progress in prevention and treatment 
that has been accomplished in other areas, such as high blood 
pressure and high cholesterol. These scientific advances could 
result in savings of billions of dollars in health care costs.
    The NIH has a great track record of successfully addressing 
health problems and could do the same for obesity. But the NIH 
currently plans on allocating 1 percent of its total budget to 
obesity research. NAASO feels strongly that this is 
inconsistent with the scope of the problem. We urge this 
Committee to double the amount spent on obesity research. Two 
percent of the NIH budget for the number two health problem is 
not too much to ask.
    Thank you.
    [The prepared statement of Dr. Michael Jensen follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. You're really trying to change, to some degree, 
people's lifestyle, isn't that a factor?
    Dr. Michael Jensen. And allowing the change to be made in 
such a way that people can do it. We just haven't been able to 
do that yet.
    Mr. Regula. We need one of those things like smokers get, 
they can put a patch on and it discourages it.
    Dr. Michael Jensen. If we understood what regulated it, 
that would be a great approach.
    Mr. Regula. Thank you for coming. It is a problem, and it's 
one of the factors that we have such a wide range of foods 
available in our country, and plenty of it. It's not an easy 
answer.
                              ----------                              

                                             Thursday, May 2, 2002.

                     RESEARCH SOCIETY ON ALCOHOLISM


                                WITNESS

STEPHANIE O'MALLEY, DIRECTOR, DIVISION OF SUBSTANCE ABUSE RESEARCH, 
    DEPARTMENT OF PSYCHIATRY, YALE UNIVERSITY, PRESIDENT, RESEARCH 
    SOCIETY ON ALCOHOLISM
    Mr. Regula. Our next witness is Dr. Stephanie O'Malley, 
Director, Division of Substance Abuse Research, Department of 
Psychiatry, Yale University. Welcome.
    Dr. O'Malley. Good morning, Mr. Chairman and members of the 
Subcommittee. Thank you for the opportunity to speak today.
    In addition to the credentials you mentioned, I'm here as 
the President of the Research Society on Alcoholism to present 
testimony on behalf of the Society. The Research Society on 
Alcoholism is a professional society of over 1,400 members who 
are committed to understanding and intervening in the negative 
consequences of alcohol use through basic research, clinical 
protocols and epidemiological studies.
    I'm sure I don't need to tell you this, but the costs of 
alcohol abuse and alcohol dependence in this country are 
staggering, on individual lives and families. In this country, 
one out of four families has an immediate family member who has 
an alcohol problem. The economic cost to the Nation is 
estimated to be approximately $185 billion annually.
    What's surprising is a recently released report on college 
drinking, sponsored by the National Institute on Alcohol Abuse 
and Alcoholism, revealed that 1,400 college students between 
the ages of 18 to 24 die each year from unintended alcohol 
related injuries, and 500,000 other students are 
unintentionally injured as a result of alcohol use. Equally 
disturbing is the increasing trend of alcohol consumption among 
children ages 9 to 15.
    A report issued last year by the Robert Wood Johnson 
Foundation states that by eighth grade, 52 percent of 
adolescents have consumed alcohol. And the leadership to keep 
children alcohol-free, which is a multi-year, national 
initiative founded by the NIAA, the Robert Wood Johnson 
Foundation and other Federal agencies, reports that almost one-
third of eighth graders and half of tenth graders have been 
drunk at least once, and one-fifth of ninth graders report 
binge drinking, that is five or more drinks in a row, in the 
past month.
    We'll only be able to intervene in these kinds of problems 
with evidence based research for policies and prevention 
programs.
    In addition, for some sub-groups, such as American Indians, 
the costs associated with alcoholism are disproportionately 
high, and may be directly linked to some of the major health 
problems, such as diabetes and hypertension. The Indian Health 
Service, for example, estimates that the age adjusted 
alcoholism mortality rate for American Indians is 63 percent 
higher than for all other races in the U.S.
    Despite this, or perhaps because of the widespread impacts 
and effects of alcohol, it's been impossible to identify a 
single cause or solution. But because of this Subcommittee's 
support for biomedical research, and specifically for the NIAA, 
the alcohol research community has been making important 
strides in clarifying many of the factors which we now know 
contribute to alcoholism and the consequences of drinking.
    We've seen significant advances in disentangling the role 
of genetics and environmental influences, we've begun to 
identify critical components of effective treatment and to 
develop new treatments. And we've begun to explore integrated 
approaches for those with the most severe illness. While 
recognizing these advances, however, the Federal investment in 
alcohol research has been modest, given the magnitude of the 
problem. There must be a strong national commitment to alcohol 
research and treatment if we hope to reverse these current 
trends.
    I would like to just mention a few examples of promising 
opportunities in the field of alcohol research which have 
adequately supported and will move the field significantly 
forward. One area is the NIAA's funded research, which has 
successfully identified molecular targets of alcohol in the 
brain, and the characterization of these targets may lead to 
the discovery of compounds that block specific effects of 
alcohol. These discoveries have already led to the prevention 
of alcohol related birth defects in mice. So we need to have 
further research to translate these findings.
    We also have had sponsored research on medications 
development that have proved to be effective, but not for 
everyone. Additional funding is needed to aggressively pursue 
the range of activities from basic to clinical research to make 
sure that we have new ways of treating this disorder.
    We also know, as I mentioned, that there is an increased 
risk for alcoholism in certain minority groups, and we don't 
really understand why this risk exists, and whether or not the 
risk applies to all members. Initial studies have begun to 
identify specific strengths and vulnerabilities which are 
important to explore if we are to address the needs of all 
Americans.
    Because I'm running out of time, I want to sum up, but I do 
also want to mention that I've been talking about some of the 
science today. I also want to encourage you just to read the 
newspapers, which I know everyone here does. And you can see 
from that that this country is still dealing with the aftermath 
of September 11th, and many people are increasing their alcohol 
consumption in response to the events. I would predict that 
many of these problems associated with alcohol could increase 
in magnitude in the near future.
    As a result, the RSA requests a budget of $475 million for 
the NIAA in fiscal year 2003. This request represents the 
professional judgment of the alcohol research community and 
it's justified based on the historic under-funding of NIAA and 
the promise and the opportunity in the present. Thank you.
    [The prepared statement of Dr. O'Malley follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you for coming and bringing your message.
                              ----------                              

                                             Thursday, May 2, 2002.

       FEDERATION OF AMERICAN SOCIETIES FOR EXPERIMENTAL BIOLOGY


                                WITNESS

DR. ROBERT R. RICH, PRESIDENT, FEDERATION OF AMERICAN SOCIETIES FOR 
    EXPERIMENTAL BIOLOGY
    Mr. Regula. Our next witness is Dr. Robert Rich, President, 
Federation of American Societies for Experimental Biology. Dr. 
Rich, welcome.
    Dr. Rich. Thank you, Mr. Chairman. It's my privilege today, 
on behalf of the Federation of American Societies for 
Experimental Biology and the biomedical research community to 
thank you and the members of this Subcommittee for your past 
leadership and your continuing commitment to fund the historic 
five year campaign to double the budget of the National 
Institutes of Health, certainly the world's leading biomedical 
research organization.
    FASEB is very grateful, too, to President Bush for 
requesting $27.3 billion for NIH in fiscal year 2003 and to the 
full House's endorsement of this request. This amount 
represents the fifth and final installment in that doubling 
effort.
    However, Mr. Chairman, while we are very pleased with the 
President's overall budget, we do have three concerns about the 
details of the President's budget that I would like to raise 
with the Subcommittee. The first issue that I'd like to discuss 
with you is that for the first time in NIH's history, the 
President's budget requests appropriations language for a 
specific disease, that is to say cancer. Mr. Chairman, if this 
recommendation is adopted, I predict a host of other patient 
and disease advocacy groups coming before this Subcommittee 
next year requesting their specific research earmarks.
    Let me be clear, Mr. Chairman. FASEB is not concerned about 
the amount of money recommended for cancer research in the 
President's budget. But we're very concerned about a specific 
earmark setting such a precedent.
    Second, while the President's fiscal year 2003 budget 
requests $27.3 billion for NIH, it's important to note that 
this recommendation includes almost $500 million in procurement 
for non-research activities and for taps and transfers to other 
agencies. Additionally, the President's budget proposal allows 
the Secretary of HHS to tap the budget of NIH by up to 3 
percent. This could be as much as $820 million, undercutting 
this Subcommittee's specific decisions regarding NIH spending.
    Collectively, up to $1.3 billion could thus be subtracted 
directly from the bottom line of funds available for biomedical 
discovery. We believe this proposal should be rejected.
    Mr. Chairman, for the past half century, our investment in 
people who do research has been the secret to NIH's spectacular 
advances. My third concern is therefore with two specific 
proposals in the President's budget that threaten to reduce our 
supply of scientists at two critical points in the research 
career continuum: young investigators and senior researchers. 
We're currently facing a shortage of qualified young scientists 
because of high debt burdens and low salaries. The President's 
budget would exacerbate this crisis by shortchanging stipends 
for pre-doctoral and post-doctoral fellows under National 
Research Service awards.
    Last spring, NIH recommended increasing stipends by 10 to 
12 percent per year over the next several years. But the 
President's fiscal year 2003 budget calls for only a 4 percent 
increase. FASEB believes that Congress should increase stipends 
by at least 10 percent, a level that would be consistent with 
last year's appropriation.
    Regarding researchers at the peak of their productivity, 
the Administration has again proposed reducing the maximum 
salary available for performing NIH-funded research in our 
Nation's universities below the level for scientists working 
directly for the Government. We wish to thank you for rejecting 
this same proposal last year, and we urge you to do so again. 
Maintaining the higher rate will retain for university 
scientists the maximum salary available to senior researchers 
at NIH's Bethesda campus, and will help to ensure that the best 
clinical scientists continue to be able to do NIH-funded 
research.
    Finally, Mr. Chairman, I'd like to thank you and the 
members of the Subcommittee once again for making those really 
difficult choices that have been needed to support NIH. Allow 
me to conclude simply by observing that it is not too early for 
us to begin discussions about funding in the post-doubling era. 
Thank you very much.
    [The prepared statement of Dr. Rich follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you, and it's no question that stipends 
make a difference, and likewise that salaries impact the 
supply. It's something of concern that you can't research 
without researchers.
    Dr. Rich. That's right. Thank you very much.
                              ----------                              

                                             Thursday, May 2, 2002.

                CITIZENS UNITED FOR RESEARCH IN EPILEPSY


                                WITNESS

JIM ABRAHAMS, CO-FOUNDER, DIRECTOR OF THE CHARLIE FOUNDATION TO HELP 
    CURE PEDIATRIC EPILEPSY
    Mr. Regula. Jim Abrahams, Co-Founder and Director of the 
Charlie Foundation to Help Cure Pediatric Epilepsy.
    Mr. Abrahams. Thank you for allowing me to appear before 
you today. Frankly, I was asked by some other parents of 
children with epilepsy to speak today, because I have had a 
career in the movie business, and it was the hope of those who 
in the past have seen these rooms overflow with elected 
officials and media to hear testimony of celebrities and then 
be virtually evacuated for others less well known that perhaps 
my appearance would bring just one more Congressman or one more 
journalist to hear our plea.
    Because in fact, there are many parents of children with 
epilepsy who have lived with the horror and agony of this God-
forsaken disease longer than I, and who would be better 
qualified to testify before you about its devastating effects 
on their children and families and point out the frustratingly 
paltry sums our Government has appropriated to try to 
understand it.
    I say this because my son, Charlie, is perhaps what you 
would consider a best case scenario with regard to his 
epilepsy. You see, Charlie does not number among the 400,000 
Americans who died of epilepsy related causes since his first 
seizure 10 years ago, a number, by the way, which is equivalent 
to those who have been killed by breast cancer.
    Also, because his seizures are currently controlled by a 
rigorous, high fat, ketogenic diet, Charlie no longer has to 
deal with anti-seizure drugs and their mind and body altering 
side effects, such as insomnia, diarrhea, high blood pressure, 
rashes, nausea, lethargy, constipation, gum growth, suppressed 
appetite, depression and on and on. Women, for instance, using 
Dilantin, among the most highly prescribed of these drugs, are 
told not to have babies, not because they can't conceive, but 
because their doctors are afraid of what they would conceive.
    But because Charlie must be considered a best case 
scenario, I don't want to leave the impression that his chances 
for a normal, independent life haven't been severely damaged by 
epilepsy. Nor do I want you to think he doesn't use up his 
share of the $12.5 billion annual cost that epilepsy reaps on 
our Nation. He's mainstreamed through the public school system, 
and his adaptive physical education and occupational therapy, 
one-on-one tutors, social inter-active groups, special reading 
groups and public school resource programs designed to help him 
make up the physical and intellectual delays his seizures, 
drugs and brain surgery caused him, are all subsidized by 
public tax dollars.
    And of course, none of us can guess how Charlie and 
millions like him may have contributed to society, had their 
young brains not been ravaged so horribly.
    This chart behind me displays the dollar amounts allotted 
by you to epilepsy research versus other diseases. I'll not 
burn my time by repeating the inequity you can clearly see. 
However, I will comment by saying that until you've seen your 
own child's eyes go dead, fall back in his head as he drops to 
the ground, until you've watched your own child slowly fade 
into retardation one painstaking day at a time, until you've 
seen your own child decay from a drug reaction or you bury you 
own child after she drowned in her bathtub during a seizure, 
you can't possibly appreciate the cruelty of this disparity.
    More Americans have epilepsy than muscular dystrophy, 
cerebral palsy, multiple sclerosis and Parkinson's disease 
combined. Of the 181,000 new cases diagnosed this year, 75 
percent will be children. Tragically, the research budget of 
the national Government nowhere near reflects that.
    As a matter of fact, in the last five years, you've 
increased funding 3 percent per year on average. I personally 
have sat through many meetings with bright, intrigued, willing, 
dedicated scientists who have been unable to pursue potentially 
invaluable avenues of epilepsy research literally due to an 
inability to pay for technicians, lab rats or even counter 
space.
    I do not take lightly the honor of speaking for and 
attempting to express the frustration of the 2.5 million 
Americans and their families whose lives have been damaged or 
destroyed by the hell of epilepsy. And I appreciate that until 
this moment you, like many Americans, may have been unaware of 
the devastation epilepsy causes, and the relative lack of 
attention it gets from the Federal Government.
    For years now, parents like myself have come before you, 
hat in hand, sharing their grief and imploring you to help. But 
as this chart so clearly points out, to very little avail.
    It's difficult to tight rope walk the line between 
expressing outrage on one hand and alienating the very people 
from whom we are asking help on the other. So I hope you'll 
understand my opting for candor over diplomacy. For this 
Government to continue along its path of under-funding epilepsy 
research when it is clear that with modern science, it is 
merely a function of dollars until we can understand and cure 
this centuries old agony. It is more than a mere shame. I can't 
help but feel it is both callous and disheartening.
    You have the power to act to save lives and spare other 
children and their families the tragedy so many of us have 
known. Please do so.
    [The prepared statement of Mr. Abrahams follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you for bringing this to our attention. I 
don't know on what basis NIH makes its judgments as far as what 
will be funded by way of research. I think your statement is 
that it's not adequate in relationship to others.
    Mr. Abrahams. The NIH budget was increased 15 percent this 
year, and epilepsy got a 3 percent increase.
    Mr. Regula. Thanks for coming.
                              ----------                              

                                             Thursday, May 2, 2002.

                   AMERICAN PUBLIC HEALTH ASSOCIATION


                                WITNESS

DR. MOHAMMAD AKHTER, M.D., MPH, EXECUTIVE DIRECTOR, AMERICAN PUBLIC 
    HEALTH ASSOCIATION
    Mr. Regula. Dr. Mohammad Akhter, Executive Director, 
American Public Health Association. Dr. Akhter.
    Dr. Akhter. Thank you, Mr. Chairman, and good morning. My 
name is Mohammad Akhter, I'm the Executive Director of the 
American Public Health Association, the largest association of 
public health professionals in the world.
    We are very pleased to have this opportunity to appear 
before you this morning to speak about the budget. Mr. 
Chairman, we're grateful to you and members of your Committee 
and the Congress for your support of bioterrorism preparedness. 
We are really doing wonderful work all across this country 
getting our Nation prepared to deal with any future attacks by 
the terrorists.
    This has helped a great deal for us to prepare not only for 
the bioterrorism situation, but also other public health 
problems, building public health infrastructure in the country. 
This has been a tremendous credit to you, members of your 
Committee, and members of the Congress, and we're grateful.
    We're also very pleased with the President's budget that 
further supports the bioterrorism preparedness. And we request 
of you that preparedness must continue--we must continue to 
invest to make sure that we are as prepared as we can be.
    Mr. Regula. We had a panel yesterday from HHS, the top 
people, and they definitely are on the move, trying to get 
ready for whatever future crisis might occur.
    Dr. Akhter. Thank you, Mr. Chairman. We appreciate the 
support that you have shown for this particular effort.
    Our membership is also concerned about the other areas that 
affect the health of the American people. You already heard 
about obesity and coronary diseases. Obesity is a major cause 
of many coronary diseases. The four leading causes of death, 
among the top six, are related to overweight and obesity. We 
need to have a program nationwide that starts to deal with what 
we know, so the American people could change their lifestyle, 
change their eating habits and start to do exercise a little 
bit more. We can get a lot of mileage out of that.
    We have a very tiny program at CDC right now. We request 
very much that you increase that program funding to $60 million 
this year, so that we could have a program, at least in half of 
the States, to provide information and education to the public.
    One of the areas where we really need to pay attention is 
the children. You already heard that 15 percent of our children 
are obese. Over 60 percent of those obese children have high 
blood cholesterol, and already have early signs of heart 
diseases. And the best way to reach them is through the media. 
CDC has a media campaign, and we would very much appreciate if 
you would fund the media campaign at the $125 million level 
that it was originally intended to do.
    Finally, Mr. Chairman, there are 50,000 deaths in this 
country that are called violent deaths. I am very grateful to 
you all for putting some money in to set up a reporting system, 
so that we can know what are the causes of suicide, who is 
committing suicide, and what are the causes of other violent 
deaths among our society. Once we know who these people are, 
once we know what the causes are, then we can develop adequate 
preventive strategies. Mr. Chairman, we request that you put 
$10 million into that effort, so that we have adequate data and 
that scientists could develop adequate programs.
    The Health Resources and Services Administration is one of 
our Nation's wonderful agencies that provides access to many 
treatment programs. Mr. Chairman, one of the areas in which we 
need help is professional training. We need to have people. You 
already heard about researchers and I am talking about other 
professionals that we need to deliver public health services to 
provide support to the local health agencies. And your work on 
the health professional training program will be very helpful.
    Finally, within HRSA is a program that supports abstinence 
education only. Mr. Chairman, that's a wonderful program. We 
would very much like to see, as Secretary Powell has said, and 
as previous Surgeon General David Satcher has indicated, for 
those who are not sexually active, abstinence is a great thing. 
And we must support that.
    But for those who are sexually active, we must have an 
alternate choice, of having condoms so they could not have 
sexually transmitted diseases and not have hepatitis-B and 
things like that. So Mr. Chairman, providing the flexibility 
for the States, so the States could develop a comprehensive 
program, would go a long way in having a wonderful program for 
our children.
    The Agency for Healthcare Research and Quality, Mr. 
Chairman, this is the agency that looks at the quality of care, 
particularly the medical errors. We believe this agency needs 
to be funded at its full level so that it can fulfill your 
Congressional mandates, have adequate resources to do that.
    And in conclusion, Mr. Chairman, substance abuse and 
alcoholism are major problems among our society. And to really 
have good prevention programs is a must. We suggest that the 
Substance Abuse and Mental Health Services Administration be 
funded at $3.65 billion this year so they can have adequate 
programs.
    In summary, Mr. Chairman, we appreciate your support of 
bioterrorism, but we should have a balanced approach, so that 
we should look at the long term consequences of some of our 
programs.
    Thank you very much for this opportunity.
    [The prepared statement of Dr. Akhter follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
                              ----------                              

                                             Thursday, May 2, 2002.

                   AMERICAN ACADEMY OF OPHTHALMOLOGY


                                WITNESS

ALLAN JENSEN, OPHTHALMOLOGIST, BALTIMORE, MARYLAND; MEMBER, BOARD OF 
    TRUSTEES, AMERICAN ACADEMY OF OPHTHALMOLOGY
    Mr. Regula. Dr. Allan Jensen, Ophthalmologist, Baltimore, 
Maryland, Member of the Board of Trustees, American Academy of 
Ophthalmology. Welcome.
    Dr. Allan Jensen. Thank you, Mr. Chairman.
    Thanks for the opportunity to appear before you today in 
support of appropriations for the National Eye Institute. My 
name is Allan Jensen. I'm a practicing ophthalmologist in 
Baltimore, and an Associate Professor of ophthalmology at Johns 
Hopkins, and presently serve as a member of the Board of 
Trustees of the American Academy of Ophthalmology. The Academy 
is the world's largest organization of eye physicians and 
surgeons, with over 27,000 members.
    The Academy first wants to thank you for the support that 
you and your colleagues have demonstrated for the NIH and the 
National Eye Institute in the past. As a result of your 
commitment, the NIH budget is on track to be doubled in the 
five year period that ends with this budget cycle. Of 
particular note, in the fiscal year 2002, the NEI budget saw a 
growth that for the first time in recent memory out-paced the 
budget growth of most other NIH institutes. The National Eye 
Institute Congressional appropriation represented an increase 
of 13.9 percent for a total budget of $581 million.
    While the NEI has received many welcome and useful budget 
increases over the years, historically it's fallen behind in 
comparison to budget increases for other NIH institutes. The 
American Academy of Ophthalmology is concerned that the 
tremendous research opportunities made possible by the fiscal 
year 2002 appropriation will be jeopardized by the President's 
proposed 8.4 percent budget increase for this year.
    The Academy believes it is essential that the commitment to 
funding of the National Eye Institute be maintained, so that 
vital research can be continued. Polls have shown that 
Americans fear blindness more than any other condition except 
cancer. And the public deserves to have these fears met with 
sound research that can preserve sight.
    To allow the National Eye Institute's continued pursuit of 
research opportunities in areas that show great promise, 
including genomics, neuroscience, bioengineering and other 
clinical research, we ask that Congress appropriate $692 
million for fiscal year 2003. With your support, we have made 
many advances in relieving the pain and suffering from many 
blinding disorders. Examples of investments in research that 
have significant potential to save sight include gene therapy 
studies, which will provide essential information into the many 
types of vision disorders, including retinitis pigmentosa, an 
inherited, now incurable form of blindness.
    NEI-supported research has led to the development of 
prosthetic devices that can be surgically implanted in the 
brain or retina to partially restore sight. NEI-sponsored 
research has led to the development of new drugs effective in 
the treatment of glaucoma, the leading cause of irreversible 
blindness among African-Americans.
    For macular degeneration, NEI-supported research has led to 
the development of a drug to inhibit the growth of abnormal 
vessels that leak and bleed to cause blindness in this 
disorder. And as you know, macular degeneration is the leading 
cause of vision loss in older Americans, affecting more than 10 
percent of Americans over age 65.
    NEI-supported studies have documented important information 
about how the herpes simplex virus spreads, and how physicians 
can better treat it. Diabetes is the number one cause of 
blindness of working age adults. NEI-supported studies have 
demonstrated that blindness from diabetes can be prevented in 
most patients by laser therapy, something in my career, which 
was over two decades, when I first entered practice, there was 
really nothing available. We really have seen a miracle. Those 
at greatest risk from diabetes are Native Americans and 
African-Americans.
    The American Academy strongly recommends that $692 million 
be directed to research conducted by the NEI on eye and vision 
disorders. As the baby boomers age, it is critical that 
research is targeted to find effective treatments and cures for 
diseases such as glaucoma and macular degeneration, but also on 
the prevention of other blinding and disabling eye diseases. 
Missed opportunities in eye and vision research will translate 
into increased Government dependence and a decreased quality of 
life for many of our citizens.
    I appreciate the opportunity to speak to you this morning, 
and would be glad to take any questions.
    [The prepared statement of Dr. Allan Jensen follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    I think it was Helen Keller who said that she'd rather give 
up hearing than eyesight. I can understand that.
    Dr. Allan Jensen. Thank you very much.
                              ----------                              

                                             Thursday, May 2, 2002.

                 SOCIETY FOR INVESTIGATIVE DERMATOLOGY


                               WITNESSES

DR. JOUNI UITTO, M.D., PRESIDENT, THE SOCIETY FOR INVESTIGATIVE 
    DERMATOLOGY; CHAIRMAN, DEPARTMENT OF DERMATOLOGY AND CUTANEOUS 
    BIOLOGY, PROFESSOR OF DERMATOLOGY AND CUTANEOUS BIOLOGY AND 
    BIOCHEMISTRY AND MOLECULAR PHARMACOLOGY, JEFFERSON MEDICAL COLLEGE; 
    DIRECTOR, JEFFERSON INSTITUTE OF MOLECULAR MEDICINE, THOMAS 
    JEFFERSON UNIVERSITY
VICKY WHITTEMORE, CO-CHAIR, COALITION OF PATIENT ADVOCATES FOR SKIN 
    DISEASE RESEARCH
    Mr. Regula. Our next witness is Jouni Uitto, President, The 
Society for Investigative Dermatology, accompanied by Dr. Vicky 
Whittemore, Co-Chair, Coalition of Patient Advocates for Skin 
Disease Research.
    Welcome, Dr. Uitto.
    Dr. Uitto. Mr. Chairman and members of the Committee, let 
me first thank you for the opportunity to testify here today on 
behalf of the Society for Investigative Dermatology, which has 
as its mission the support of research in skin diseases.
    Our 2000 members include researchers and physician 
scientists from universities, hospitals and industry committed 
to the science of dermatology. My specific purpose in being 
here today is to personally emphasize the need for increased 
funding for the programs of the National Institutes of 
Arthritis and Musculoskeletal and Skin Diseases, or NIAMS. And 
this position is also supported by the American Academy of 
Dermatology.
    I'm here with Dr. Vicky Whittemore, Co-Chair of the 
Coalition of Patient Advocates for Skin Disease Research. She 
will speak for one minute after my comments.
    Mr. Chairman, before I describe some of the recent advances 
in skin research, let me first thank you, you personally, for 
three specific matters. First, for taking time to meet in your 
district office with Dr. Jay Klemme, a dermatologist 
constituent of yours, together with Dr. Kevin Cooper, who is 
the Chair of Dermatology at Case Western Reserve University, 
and with Ms. Angela Welsh, who is our Administrative Director. 
We certainly know how busy you are, Mr. Chairman, and we 
appreciate your courtesy.
    Secondly, we would like to thank you for the language that 
you and the Subcommittee provided for the bill report calling 
for a workshop at the NIAMS to determine economic and social 
costs of skin diseases in the United States. As you know, this 
analysis has not been updated since 1979. I'm happy to report 
that the workshop will be held in September. The Society of 
Investigative Dermatologists is very pleased at the positive 
way that NIAMS is developing plans for it.
    Finally, we thank you for the large increase in funding you 
provided last year for the NIAMS and NIH in general. We also 
appreciate the Administration's proposal this year to increase 
NIH's overall funding to provide for the final funds required 
to double the NIH budget. We recommend to you that the Congress 
agree with that proposal.
    At the same time, we do recognize the concerns about 
bioterrorism overshadow other matters. But we would prefer that 
the same 16.5 percent increase for NIH overall include a 
similar percentage increase for NIAMS.
    There are more than 3,000 different diseases affecting the 
skin, hair and nails, with an average each year of about 60 
million Americans being affected by these conditions. With the 
advent of technologies in molecular and cell biology in 
general, there has been an increased sophistication in our 
understanding of the mechanisms underlying many of these 
disorders affecting the skin.
    Important new advances in dermatology and cutaneous biology 
have certainly been made over the past year, and in the 
interest of time, I will refer to the full text of my testimony 
for those details. Mr. Chairman, thank you for this opportunity 
to discuss with you the science of dermatology. Everyone in the 
field of medical research certainly understands that it was 
this Committee, your Committee, which initiated the move to 
double the NIH research budget over the five years, and we 
congratulate you and thank you for your leadership.
    I'll be happy to answer any questions, but please allow Dr. 
Whittemore to say a few words.
    Ms. Whittemore. Thank you, Dr. Uitto and Mr. Chairman. I'm 
Vicky Whittemore, the Co-Chair of the Coalition of Patient 
Advocates for Skin Disease Research.
    I represent 25 different organizations who in turn advocate 
on behalf of the over 60 million Americans with skin disease, 
including common skin diseases like acne, psoriasis and eczema, 
but also the less common skin diseases, like tuberous 
sclerosis, which affects my nephew. He has benign tumors that 
cover his face that bleed excessively, and that the insurance 
will not pay for their removal, because they say it's cosmetic. 
And these tumors would re-grow if they were removed with laser 
treatments. But he does not have this treatment, because he 
also suffers from epilepsy and autism, and could not undergo 
the procedure.
    But there is no cure for tuberous sclerosis, the skin 
disease part of it or the other aspects of the disease, or for 
any of the skin diseases, for that matter. So together with the 
Society of Investigative Dermatology, the Coalition also 
advocates and thanks you for the increase for the NIH and 
similar increase for the National Institutes of Arthritis and 
Musculoskeletal and Skin Disease. Thank you.
    [The prepared statements of Dr. Uitto and Ms. Whittemore 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Do you include in the skin diseases the effects 
of cancerous growths?
    Ms. Whittemore. Absolutely, yes.
    Dr. Uitto. Yes, sir. Skin cancer, as you know, is an 
epidemic in this country which is increasing tremendously. That 
is part of it.
    Mr. Regula. I know. Too much sun, I guess, is part of the 
problem. But that's included in all your research applications?
    Dr. Uitto. Absolutely.
    Mr. Regula. Well, thank you very much.
                              ----------                              

                                             Thursday, May 2, 2002.

          ASSOCIATION FOR RESEARCH IN VISION AND OPHTHALMOLOGY


                                WITNESS

SHEILA K. WEST, PRESIDENT, ASSOCIATION FOR RESEARCH IN VISION AND 
    OPHTHALMOLOGY, EL MAGHRABY PROFESSOR OF PREVENTIVE OPHTHALMOLOGY, 
    JOHNS HOPKINS UNIVERSITY
    Mr. Regula. Dr. Sheila West, President, Association for 
Research in Vision and Ophthalmology. Dr. West.
    Dr. West. Mr. Chairman, good morning. I'm testifying as 
President of the American Association of Research in Vision and 
Ophthalmology. It's the largest organization of vision 
scientists in America. Specifically, though, I'm speaking as 
one of the researchers in academia who has devoted a career to 
the prevention and treatment of blinding disorders in our 
population.
    Your support for the increase in the fiscal year 2002 
budget for the National Institutes of Health, and specifically 
for NEI, is greatly appreciated. Today I'm adding the research 
community's voice in support of the citizens' budget request 
for fiscal year 2003 of $692 million for the National Eye 
Institute. This amount almost completes the fulfillment of the 
bipartisan goal for doubling the NEI budget since 1999.
    You might question the need for increasing eye research at 
this time. The answer lies in the fiscal as well as the social 
responsibility to invest now against what is certain to be a 
sizable increase in the numbers and the cost of visual 
impairment in the United States. As you heard, most of the 
blindness and visual impairments in this country are age 
related eye diseases, like cataract, macular degeneration, and 
glaucoma.
    At present, we estimate there are more than 1 million blind 
people in the U.S. and an additional 4.2 million with several 
visual impairment. If nothing were to change in our ability to 
take care of these eye diseases, in another 30 years those 
numbers would double, due entirely just to the aging of the 
U.S. population.
    The growth of the age group 85 plus is of special concern. 
They are the fastest growing among the elderly population and 
their rate of eye disease is especially high. One in seven 
Caucasians will have AMD, one in ten Hispanics and African-
Americans will have glaucoma. These 4.2 million Americans age 
85 and older now include our parents. In 30 years' time, that 
number is going to swell to 8.9 million, and God willing, 
that's going to be you and that's going to be me.
    The cost to the American people of visual loss is high. 
Each year, over 1.5 million cataract surgeries are performed 
and despite significant declines in reimbursement, cataract 
surgery alone now accounts for 12 percent of the Medicare 
budget. The annual cost to Medicare for just cataract surgery 
is $3.4 billion. That's over five times the amount we request 
for vision research at NEI for all the eye diseases.
    And the cost is not just to Medicare. You heard Dr. Jensen 
earlier talking about the treatment for diabetic retinopathy. 
It's cost effective, it saves society an estimated $975 per 
person with diabetes. However, recent research in the Hispanic 
community suggests that of the one in five people with diabetes 
in that community, 15 percent are unaware of their disease, and 
a quarter of them already have eye disease. So in that 
community, diabetic retinopathy is the leading cause of visual 
loss in the working age population. That's the 40 to 64 year 
olds. That's going to pull them out of the working group in 
their most productive years.
    You also heard from Al Jensen that the news from the 
research community in eye disease is both exciting and hopeful. 
In my research in particular, I'm convinced of the need to 
prevent or delay the onset of worldwide cataract. More people 
are now visually impaired from cataract worldwide, it's between 
40 million and 80 million people, than are currently living 
with HIV-AIDS. Research that we're doing in Maryland suggests 
that there are both genetic and environmental factors that are 
important, specifically smoking, ocular exposure to sunlight 
are risk factors. If we can understand the interplay of those, 
we have hope for enabling further specific research on anti-
cataract agents.
    So we as investigators feel the urgency for the 
continuation of enhanced support for vision research at this 
crucial junction of exciting discovery and progress, but in a 
time of an imminent explosion of the magnitude of blindness and 
visual loss for the United States and worldwide. And we look to 
our political leaders for the foresight to invest now the $692 
million for the protection of sight for all Americans.
    I'd be pleased to respond to any questions at this time. 
Thank you, Mr. Chairman.
    [The prepared statement of Dr. West follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Thank you. Is there any single cause that 
represents the greatest volume of vision problems?
    Dr. West. Because macular degeneration is so common in the 
Caucasian population, in the United States that's the single 
leading cause. But I think it's important to look within 
groups. Clearly, glaucoma is absolutely critical.
    Mr. Regula. Is macular degeneration, degeneration of the 
nerve?
    Dr. West. Of the retinal. In fact, once you have macular 
degeneration, you lose central reading vision.
    Mr. Regula. What can you do to prevent it?
    Dr. West. The National Eye Institute has just published a 
trial suggesting that people with early signs of this disease 
taking a vitamin supplement may delay the onset of visual loss. 
But that's expected to be effective in about 20 percent of 
people.
    Mr. Regula. Part of it's just the aging process?
    Dr. West. We think it's tied to the aging process, but we 
also think that there are other ways that we can intervene.
    Mr. Regula. Thank you very much.
                              ----------                              

                                             Thursday, May 2, 2002.

            ACADEMIC HEALTH CENTERS CLINICAL RESEARCH FORUM


                                WITNESS

DR. WILLIAM F. CROWLEY, JR., M.D., DIRECTOR, CLINICAL RESEARCH, 
    MASSACHUSETTS GENERAL HOSPITAL
    Mr. Regula. Dr. William Crowley, Director of Clinical 
Research, Massachusetts General Hospital. Dr. Crowley.
    Dr. Crowley. Thank you, Chairman Regula, for the 
opportunity to participate in these hearings.
    I'm a physician scientist, professor of medicine at Harvard 
Medical School and Director of Clinical Research at the Mass 
General Hospital. My own personal research is all NIH-funded, 
and it's allowed me to take from the conceptual level to the 
FDA approval process the ability to treat children with 
precocious puberty and disease and infertility in women. These 
therapies that I pioneered are now being used for men with 
prostate cancer, women with painful endometriosis and uterine 
fibroids.
    But I'm not here to talk about my own research, I'm 
actually here representing a group called the Academic Health 
Center Clinical Research Forum. The Academic Health Centers, 
the top 24 or so of these centers, are all involved in a 
consortium to focus on clinical research and to drive clinical 
research. Arguably, many of the people who are here asking for 
more funding are actually asking for more clinical applications 
of that funding. That's what clinical research does.
    So my first mission is to thank you for your vision and 
leadership in doubling the NIH budget. It's led to the improved 
life expectancies that you talked about, the decreased 
mortality from heart attacks of 30 percent, now some 
improvements in cancer survival and certainly infections which 
are preventable or treatable that couldn't have been done 
without this doubling of the NIH budget.
    You've also put in place the human genome project, which is 
an enabling platform that's going to bring medical benefits 
that we can't even dream of at this moment. A joint economic 
commission report in May of 2000 showed that there's a 40 
percent return on investment for the money you put into 
research here by life expectancy improvements, functioning 
improvements and biotech and pharmaceutical spinoffs for these 
investments. So we're here to express our thanks and 
appreciation for that.
    So all this is wonderful. But there are a few speed bumps 
along the road of swift transfer of basic research, as the 
accelerating promise of the genomics era slams into the direct 
problems of the burgeoning health care funding crisis. A lot of 
those are being mediated at the Academic Health Centers and a 
lot of those secondarily impact clinical research.
    Two blocks to the translation of this basic science into 
practice have emerged. And they are called translational 
blocks. The first block is the bench to bedside transfer of 
information. This is very difficult, tricky, dangerous, and 
it's the first of the two blocks.
    Mr. Regula. If you can't do that, it's of no value.
    Dr. Crowley. I agree completely. We're on the same page.
    The second block is, once clinical trials have established 
something as effective, to get it into the hands of the 
practitioners, where again, the public doesn't benefit until 
that happens. So these are two bottlenecks which are now 
emerging in the process of this wonderful advancement.
    So when we talk about the public benefits that you're 
concerned about, we're really talking about the national 
clinical research enterprise, which is a loose term for all the 
mechanisms that transfer basic science into utility for the 
patient groups that are here together. In fact, Dr. Zerhouni, 
his second priority is, as he said, to bring the fruits of our 
research to clinical testing more rapidly and enhance our 
ability to prevent and detect disease much earlier. So he's 
really focused on the two translational blocks.
    So the Academic Health Centers, therefore, where the 
majority of this research gets done, it's a partnership between 
the NIH and the Academic Health Centers dating back to Vannevar 
Bush in 1945, his famous paper, ``Science: The Endless 
Frontier,'' proposed putting Government money into the hands of 
academic centers to do this.
    We have four recommendations that we'd like you to 
consider. Number one is to accelerate the ongoing clinical 
research training that the NIH has undertaken. They've done a 
terrific job of putting in place new mechanisms, these K23 and 
K24 grants, to attract young investigators into specifically 
clinical research. We'd like you to watch that as the NIH 
starts to plateau its budget a little bit more to make sure 
it's not the victim of tightening of the bay line.
    The second thing is, we'd like to strengthen the loan 
repayments. The average medical student leaving medical school 
owes $115,000. That's a mortgage on a career, and they can't 
even think about going into clinical research unless that loan 
repayment is better. In spring of this year, they actually 
instituted a program at the NIH; this clearly needs to be 
broadened and widened. It's been way over-subscribed in the 
spring of this year.
    The third thing is to re-establish the NIH board on 
clinical research. I was part of the original board during Dr. 
Varmus' era, and that was abolished in 1997 and hasn't met 
since. These advisory boards are very important for patient 
groups, physicians and basic scientists to bring their leverage 
to the NIH in an ongoing, day to day fashion.
    Mr. Regula. Don't they have a voice in where the money is 
going to be spent?
    Dr. Crowley. Precisely.
    And the final thing is to encourage the NIH to participate 
in a broader and more comprehensive planning for the national 
clinical research enterprise. The Institute of Medicine has set 
up a clinical research roundtable to deal with this. In fact, 
I'm a member of it. We recommend that the NIH be part of a 
broader public-private partnership to steer this national 
clinical research enterprise, which at the moment does not have 
a lot of leadership.
    So we really believe the value to the American public is 
only going to happen when there's a balanced investment of both 
basic and clinical research, and that clinical research is 
emerging rapidly as the narrow neck in the bottle. It's the 
vehicle by which all of this happens for the public.
    So we appreciate your time and attention and we'd be happy 
to answer any questions.
    [The prepared statement of Dr. Crowley follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you very much.
                              ----------                              

                                             Thursday, May 2, 2002.

                AMERICAN FEDERATION FOR MEDICAL RESEARCH


                                WITNESS

DR. DAVID A. D'ALESSIO, M.D., SECRETARY-TREASURER, AMERICAN FEDERATION 
    FOR MEDICAL RESEARCH; ASSOCIATE PROFESSOR, DEPARTMENT OF MEDICINE, 
    UNIVERSITY OF CINCINNATI SCHOOL OF MEDICINE
    Mr. Regula. Our next witness is Dr. David D'Alessio, 
Secretary-Treasurer, American Federation for Medical Research.
    Dr. D'Alessio. Good morning, Chairman Regula. Thank you 
very much.
    I'm pleased to be here today representing the American 
Federation for Medical Research, a national organization of 
over 3,000 physician scientists engaged in research, focused on 
virtually every major disease and disorder. I'm a physician and 
Associate Professor at the University of Cincinnati School of 
Medicine. I'd like to begin by thanking the members of your 
Subcommittee for your longstanding support for the National 
Institutes of Health. The AFMR joins the many organizations 
that have advocated a five year doubling of NIH spending. 
According, we support the total budget requested by the 
Administration of $27.3 billion.
    In particular, AFMR would like to express its strong 
support for the Administration's proposal to double the budget 
for extramural tuition loan repayment programs, including the 
program for clinical researchers authorized by the Clinical 
Research Enhancement Act, and referred to just a few minutes 
ago. We are extremely pleased that this Subcommittee provided a 
$28 million budget for this purpose last year, and hope that 
you will approve the Administration's request to double the 
funding to $55 million for the coming year.
    Loan repayment is critically important if we're going to 
attract outstanding graduates of medical school into careers in 
clinical investigation. With respect to tuition repayment for 
clinical researchers, we share concerns expressed by members of 
the Subcommittee at a recent hearing regarding the policy set 
by NIH in the first year of the program, limiting access to 
applicants who already have obtained NIH funding. A lot of 
physician scientists in the early phases of their career have 
not yet applied for or obtained NIH funding. This limitation 
restricts the impact of the loan repayment program 
considerably.
    We are pleased that the NIH has indicated it will change 
this policy in fiscal year 2003, and we hope you'll continue to 
inquire about the specifics of this change to assure that the 
trainees and the students enrolled in clinical research 
training programs will be eligible to apply.
    The AFMR urges you to make two modest adjustments within 
the total fiscal year 2003 budget requested by the 
Administration, both of which are responsive to concerns 
frequently expressed by members of this Subcommittee, about the 
need to assure that basic science discoveries are in fact 
applied to new medical treatments and preventive therapies. 
First, we strongly urge you to fund the Graduate Training and 
Clinical Investigation awards authorized by the Clinical 
Research Enhancement Act, and second, we recommend a more 
substantial increase for the general clinical research centers 
program of the NCRR.
    Clinical research, sometimes referred to as patient-
oriented research, is the process through which basic 
laboratory discovery is translated to improvements in medical 
care. It was in hopes of reversing the decline in clinical 
research that Congress passed the Clinical Research Enhancement 
Act in 2000. Prior to passage of the legislation, the NIH went 
forward to establish one of the most important programs 
authorized in the bill, and that's the Clinical Research 
Curriculum Awards, known as the K30 grants.
    These grants enabled over 50 institutions to establish 
rigorous training programs, most requiring students to pursue a 
graduate degree in clinical research. What became apparent 
fairly quickly was that this program was missing a critical 
element: support for the students themselves for necessary 
tuition and stipends to enable them to pursue the programs that 
were being offered. The students are medical school graduates 
who have finished their clinical training, they frequently have 
a large debt burden. And to make a commitment to research 
requires a financial compromise on their part.
    Accordingly, the sponsors of the legislation added a 
provision to create the graduate training and clinical 
investigation awards. Based on discussions AFMR leaders have 
had with numerous K30 program directors, it is quite clear that 
the NIH investment in the K30 program simply cannot begin to 
yield its potential benefit unless a companion program is 
established to provide tuition and stipend support for the 
student doctors themselves.
    Congress authorized this program in Section 409(d) of the 
Public Health Service Act as the Graduate Training and Clinical 
Investigation Awards, and the AFMR urges you to provide a 
budget of $24 million in fiscal year 2003, so these awards can 
help fulfill the enormous potential of the curriculum 
development grants. To paraphrase your comment from earlier 
this morning, you can't do clinical research without clinical 
researchers.
    With respect to the GCRCs, the President's budget request 
is totally inadequate at an increase of less than 10 percent. 
This continues a trend. The budget for the National Center for 
Research Resources, which funds the CRCs, has grown by 83 
percent since 1999, and the GCRC budget only by 36 percent.
    Clinical research centers provide the infrastructure that's 
necessary if the advances in basic biomedical science are to be 
applied to human disease. They're the essential laboratories of 
translational research. I urge you to provide the $370 million 
budget that we recommend.
    In conclusion, it's been my pleasure to appear today before 
this Subcommittee. I want to thank you again for your support 
for the NIH and for your attention to the needs and concerns of 
clinical investigators and their patients. Thank you.
    [The prepared statement of Dr. D'Alessio follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Thank you for your testimony.
                              ----------                              

                                             Thursday, May 2, 2002.

                   WOMEN'S HEALTH RESEARCH COALITION


                                WITNESS

DR. CELIA MAXWELL, M.D., FACP, ASSISTANT VICE PRESIDENT FOR HEALTH 
    AFFAIRS, DIRECTOR, WOMEN'S HEALTH INSTITUTE AND ASSOCIATE PROFESSOR 
    OF MEDICINE, HOWARD UNIVERSITY
    Mr. Regula. Our next witness is Dr. Celia Maxwell, Vice 
President for Health Affairs, Director, Women's Health 
Institute and Associate Professor of Medicine at Howard 
University. That's quite a portfolio there.
    Dr. Maxwell. Good morning, and thank you, Mr. Chairman, for 
the promotion. But I'm actually Assistant Vice President for 
Health Affairs, the Director of the Women's Health Institute, 
and Associate Professor of Medicine at Howard, as you 
mentioned.
    Today I'm testifying on behalf of the Women's Health 
Research Coalition, which was created by the Society for 
Women's Health Research about three years ago. This coalition 
currently has about 350 members, and these include scientists, 
clinicians, representatives of voluntary health organizations, 
pharmaceutical companies, as well as biotech companies. We 
study women's health and the related field of sex differences 
for at least three very important reasons.
    First, women have historically not been included in medical 
research. And when they are included, the results of the 
research have often not been broken down by sex and reported as 
such in the scientific literature. Second, studies prove that 
women have more acute medical problems, higher hospitalization 
rates, even when we control for pregnancy and child birth, and 
that they use more prescription and non-prescription drugs than 
men.
    Finally, there are significant gaps in our knowledge about 
diseases that affect women uniquely, such as ovarian cancer, 
predominantly such as autoimmune diseases, or differently, such 
as cardiovascular disease. I am testifying today to seek the 
Subcommittee's support on the Coalition's position on all four 
of these issues.
    First, we join our colleagues in the field of health 
research in thanking this Subcommittee for its past support of 
doubling the budget of the NIH over a five year period. We urge 
you to take the final step this year by reaching the 
President's total funding level for the NIH. At the same time, 
we hope that you will assert your legislative prerogative to 
insist that women's health and sex-based research receives 
nothing less than the same rate of increase as the rest of the 
NIH.
    Second, as you know, there are offices, advisors and 
coordinators for women's health at many agencies throughout the 
Department of Health and Human Services. These offices play 
critical roles in bringing the appropriate levels of focus to 
women's health issues at the highest level of each agency. 
However, their funding is not guaranteed unless this 
Subcommittee guarantees it.
    With the exception of NIH and SAMHSA, there are no 
authorizations. The offices or positions simply exist, making 
them potentially vulnerable to shortsighted budgetary and 
policy decisions. We urge you to prevent any lessening of the 
roles through strong supportive language and adequate funding.
    One of the most significant of these offices from our 
vantage point is the Office of Research on Women's Health at 
NIH. Last year, the Subcommittee supported a significant 
increase in funding for that office, and this enabled that 
office to create the specialized centers of research on sex and 
gender factors affecting women's health. We urge the 
Subcommittee to support a $10 million increase in fiscal year 
2003 for this office to assure another round of peer-reviewed 
center grants that can be competed for this year.
    Finally, the Women's Health Research Coalition urges the 
Subcommittee to include language in its fiscal year 2003 
committee report that will specifically support the development 
of a comprehensive research program to fully utilize the 
voluminous data that has been generated by the Women's Health 
Initiative. Such an effort should form the basis for a 
tremendous amount of additional support and research on the 
issues that concern us.
    Last year, as you know, Mr. Chairman, the Institute of 
Medicine, a premier scientific body that Congress itself often 
turns to to help it address some of its most difficult health 
care problems, issued a report that detailed the scientific 
justification for the entire field of sex and gender-based 
research. That outlined the opportunities that await 
investigation.
    This research, we feel, will fill the gaps in our 
knowledge, improve the health care of every American and create 
a better future for our country. This may seem like a grand 
vision, but isn't that the very essence of scientific research? 
Mr. Chairman, this Subcommittee has been a wonderful partner 
for those of us in the health care research community for many 
years. We admire your unwavering commitment to improving the 
health of the Nation, through strong support of peer-reviewed 
scientific research. We look forward to continuing to work with 
the Subcommittee to build a better and healthier future for all 
Americans.
    Thank you again for the opportunity to testify. I would be 
pleased to answer any questions you may have of me.
    [The prepared statement of Dr. Maxwell follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Do you have a network of people doing research 
on women's health?
    Dr. Maxwell. Yes, Mr. Chairman.
    Mr. Regula. A flow of information sharing?
    Dr. Maxwell. We do. The NIH facilitates that through 
several of its programs.
    Mr. Regula. And you focus on the types of things that 
impact most heavily on women, is that correct?
    Dr. Maxwell. Yes, sir. And we would like continued support 
for these efforts.
    Mr. Regula. Okay, thank you.
                              ----------                              

                                             Thursday, May 2, 2002.

                 NATIONAL DISEASE RESEARCH INTERCHANGE


                                WITNESS

DR. NOEL K. MACLAREN, M.D., PROFESSOR OF PEDIATRICS, DIRECTOR, CORNELL 
    JUVENILE DIABETES PROGRAM, WEILL COLLEGE OF MEDICINE, CORNELL 
    UNIVERSITY; CHAIRMAN OF THE BOARD OF DIRECTORS, NATIONAL DISEASE 
    RESEARCH INTERCHANGE
    Mr. Regula. Dr. Noel Maclaren, Director, Cornell Juvenile 
Diabetes Program.
    Dr. Maclaren. Thank you, Mr. Regula.
    On behalf of the National Disease Research Interchange, and 
its founder----
    Mr. Regula. You're addressing juvenile or type 2 or both?
    Dr. Maclaren. I do both, sir.
    Mr. Regula. You've got the whole range of diabetes?
    Dr. Maclaren. Yes, sir, whole families are affected by this 
disease.
    And on behalf of its founder, Ms. Lee Ducat, I'd like to 
thank you for the opportunity to appear here today in support 
of the National Institutes of Health. I'm Noel Maclaren. In 
addition to being Chairman of the Board of NDRI, I'm a 
Professor of Pediatrics and Director of the Cornell Juvenile 
Diabetes program in New York.
    Ms. Ducat and her organization recognized the need to 
provide researchers with human organs and tissues to enable 
them to study human disease. Animal models, while an integral 
part of the biomedical research process, only permit us to go 
so far with our research analysis. Before NDRI came into 
existence, organs were often incinerated when they were 
considered unsuitable for transplantation.
    To date, NDRI has provided to more than 2,000 researchers 
more than 300,000 human tissues to study more than 80 distinct 
diseases. NDRI is truly a national resource which should be 
carefully nurtured and expanded by the NIH. You and your Senate 
colleagues acknowledged this in last year's conference report, 
and I quote, ``The conferees continue to be very interested in 
matching the increased needs of researchers, particularly NIH 
grantees, as well as the intramural and university-based 
researchers,'' including, I might add, sir, those in the 
Cleveland Clinic, ``who rely upon human tissues and organs to 
study human diseases and to search for cures for them. The 
conferees are aware that NIH is in the process of encouraging 
the Institutes and Centers to expand support for the NDRI.''
    Your Senate colleagues also recognized the NDRI, and I 
quote, ``the leader in this competitive field, uniquely 
positioned to serve NIH grantees as well as the intramural and 
university based researchers who are finding it increasingly 
difficult to obtain this valuable and effective alternative 
research resource.''
    NDRI fully supports President Bush's budget request of 
$27.3 billion for all of the NIH. This funding level completes 
the goal of doubling the NIH budget over a five year period. We 
recognize, however, that the world has changed dramatically 
since the attacks of September 11th. As you know, the 
President's budget now includes $1.8 billion increase to 
support biomedical research focused on bioterrorism prevention 
and treatment. NDRI is uniquely qualified, ready, willing and 
able to work with the Federal Government to obtain human 
tissues and organs necessary to develop and test anti-terror 
vaccines.
    With the NIH support, NDRI has designed a pilot program 
which has begun to collect HIV infected human tissues for 
research. This tissue has not previously been available to our 
researchers across the country looking for a cure for AIDS. 
While the world was focused on the tragic events of September 
11th, in my hometown NDRI first retrieved such an organ at the 
Mount Sinai Medical Center and provided that tissue to some of 
the most eminent researchers in the field at the University of 
Minnesota that very day.
    Such tissues are vital to the creation of vaccines to 
prevent and treat this burgeoning disease, HIV. Increasing 
support for the program would then be consistent with the 
Administration's increased commitment to treating and curing 
AIDS.
    I'd like to share with the Committee three other examples 
of research opportunities the NIH should pursue with the NDRI, 
consistent with the Administration's funding priorities that 
would enable the NIH to comply with the intent of Congress. 
First, diabetes research. NDRI has for years had experience in 
procuring pancreases for research. We're very concerned, 
however, at this time, of significant national hope and Federal 
commitment, to islet cell transplantation resources that the 
Federal sources have not been committed to expanded procurement 
of an additional 1,000 pancreases needed to conduct the 
research.
    Second, in brief, adult stem research, NDRI supports 
cutting edge studies that are relevant to heart attacks, 
Alzheimer's disease and Parkinson's. And third, in cancer 
research, NDRI provides this vital activity too.
    Thank you very much for the opportunity to testify before 
you today. We look forward to working with you and the 
Committee and the NIH to pursue these very important and 
exciting research opportunities.
    [The prepared statement of Dr. Maclaren follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Stem cell research has great potential.
    Dr. Maclaren. Yes. This is adult stem cell research that I 
think is an opportunity.
    Mr. Regula. They would be cells that have not yet taken on 
an identity that could go to various locations and, is the word 
morph themselves into health----
    Dr. Maclaren. We seem to have progenitor cells parked in 
various parts of our body in case of damage, in which case 
these cells have a potential for regeneration. This is the 
excitement, to be able to pursue that regenerative capacity.
    Mr. Regula. Inject the healthy cells into the damaged 
organ?
    Dr. Maclaren. Yes.
    Mr. Regula. What would happen to the damaged cells? Would 
they just be absorbed by the body?
    Dr. Maclaren. In the case of Parkinson's disease, it's a 
lack of cells in a particular part of the brain creating a 
chemical called dopa.
    Mr. Regula. What about diabetes?
    Dr. Maclaren. Diabetes, the hope is that the islet cells 
which are lost could be regenerated from these progenitor stem 
cells.
    Mr. Regula. I had a group this morning say that it's that 
close.
    Dr. Maclaren. We can all just about taste it, sir. 
[Laughter.]
    Mr. Regula. Thank you very much.
    Dr. Maclaren. Thank you.
                              ----------                              

                                             Thursday, May 2, 2002.

           NATIONAL HOSPICE AND PALLIATIVE CARE ORGANIZATION


                               WITNESSES

JUDI LUND PERSON, PRESIDENT AND CEO, CAROLINAS CENTER FOR HOSPICE AND 
    END OF LIFE CARE
DAVID J. ENGLISH, PRESIDENT AND CEO, THE HOSPICES OF THE NATIONAL 
    CAPITAL REGION
    Mr. Regula. Judi Lund Person, President and CEO, the 
Carolinas Center for Hospice and End of Life Care. You're 
accompanied by David English, President and CEO, The Hospices 
of the National Capital Region.
    Ms. Person. Thank you, Mr. Chairman. My name is Judi Lund 
Person. I'm the President and CEO of the Carolinas Center for 
Hospice and End of Life Care in Raleigh, North Carolina. I'm 
pleased to appear before you today with my colleague, David 
English, on behalf of a critical project that will advance the 
quality of hospice and palliative care for millions of 
Americans.
    Specifically, we are recommending or requesting the 
Subcommittee's support for a national data project to be 
carried out collaboratively between the Carolinas Center, The 
National Hospice and Palliative Care organization, and the U.S. 
Department of Health and Human Services. As the Committee may 
know, hospice and palliative care are among the fastest 
developing components of our health care system today. For 
example, in North Carolina, every county has at least one 
hospice program. Last year, we served over 18,000 patients.
    Mr. Regula. Do you deal mostly with cancer patients?
    Ms. Person. About 60 percent of our patients have cancer, 
but we serve any disease, any age.
    Mr. Regula. What would be some examples of other diseases 
that have the kind of needs that hospice provides?
    Ms. Person. The kinds of patients that we see are 
traditionally patients who are toward the end of their life. We 
see a large number of congestive heart failure patients, COPD, 
chronic obstructive pulmonary disease, some Alzheimer's 
patients, some stroke and coma patients, end stage renal 
disease.
    Mr. Regula. Any pattern or length of time spent in hospice 
care?
    Ms. Person. The length of time spent in hospice care is 
definitely diminishing. We are working on all sorts of angles 
to try and make sure that people get access to hospice care 
earlier in their disease.
    Mr. Regula. Some of this is done in-house, isn't it, you 
can have a hospice group go to the patient, am I correct?
    Ms. Person. Absolutely. Almost all of our care is provided 
to patients wherever they live. That might be in their own 
home, in a nursing home, in an assisted living facility.
    Mr. Regula. Okay, not in a standalone facility, then?
    Ms. Person. We have facilities all over the country. But 
only a small percentage of our care is provided there.
    Mr. Regula. Okay, go ahead.
    Ms. Person. One of the challenges arising from the huge 
expansion in the services that we've been providing is a very 
acute need to better understand how the services are evolving, 
what the most effective practices are, and how the trends are 
developing over time. In North Carolina, we have been 
collecting data on hospice care since the very first hospice 
patient was served in 1979. We have done our data collection 
through a public-private partnership between the State 
Government in North Carolina and our organization.
    This information and the insights that we have found from 
it are invaluable to our primarily not-for-profit community 
based hospice providers, as well as State legislative and State 
government decision makers. Through this data, we and they can 
better design and deliver services on the limited resources we 
have and the fund raising that's required to do the work.
    One of our challenges, however, is that we as a State have 
collected the data, but we can't compare ourselves to other 
States in the country.
    Mr. Regula. Do some States provide funding for hospice?
    Ms. Person. State governments in general provide funding 
for hospice through Medicaid. There is, I think, only one State 
where the State government has actually appropriated money.
    Mr. Regula. Do you get some charitable contributions and 
support?
    Ms. Person. We receive lots of charitable contributions, 
absolutely.
    We're before you today because we believe our partnership 
is designed to significantly impact hospice care. We believe 
our partnership can and must be expanded to the national level.
    With me this morning is my colleague, David English, who 
will speak to our vision for an expanded effort.
    Mr. English. Thank you, Judi, and thank you, Mr. Chairman. 
I come here today as the Chair of the Public Policy Committee 
of the National Hospice and Palliative Care Organization, whose 
members serve about three-fourths of all patients and about 
700,000 patients a year are served by hospice and their 
families.
    I also serve as the President of the Hospice of the 
National Capital Region, which includes Hospice of Northern 
Virginia, Hospice care of the District of Columbia and Hospice 
of Prince George's County. Germane perhaps to today, I'm also a 
statistician, at least by training.
    Put simply, as Judi said, there is a critical void in 
information regarding hospice and palliative care. The work 
that Judi has done in North Carolina and South Carolina is 
totally unique within the country. This is in part of a 
function on the fast growth, as Judi described, and part a 
function of the great variety of hospice programs around the 
country.
    What we're hoping for is to take the appropriate steps to 
establish benchmarks and standards that will enable our sector 
to continue its legacy of quality compassionate care. The 
proposal we are making to the Subcommittee will build upon that 
existing data that Judi spoke about. It will also combine that 
with State resources, with Federal resources and really create 
a unique and dynamic system.
    If one looks at it in sum, what one measures one manages. 
And we really need to do this at a national level, not simply 
at a local level. If we can work with you and the Federal 
agencies to develop a credible, comprehensive survey tool, we 
will provide better care to more Americans and their families 
at the end of life. Given the tremendous potential of this 
proposal, the NHPCO, the National Hospice and Palliative Care 
Organization, the Carolina centers are committed to co-
sponsoring with the Federal Government this project. Our 
organizations will devote matching resources to leverage the 
Federal investment and the credibility which comes from a joint 
effort with HHS.
    With the Subcommittee's support for $750,000 in fiscal year 
2003, we can launch the design and implementation of this 
critical tool.
    Mr. Regula. A new program?
    Mr. English. It is a new program, yes, sir.
    Building on an existing program which is incredibly 
effective, but only exists in North Carolina and South 
Carolina. Thank you for the opportunity to share that.
    [The prepared statement of Ms. Person and Mr. English 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    I had a staff person, Eleanor Copeland, worked there.
    Mr. English. Right, Eleanor Weiss now.
    Mr. Regula. Her married name is Weiss? Is she still with 
you?
    Mr. English. She actually left us, unfortunately, to get 
married and have children. Although she still stays with us, 
she was heavily involved with raising funds, which is 
significant.
    Mr. Regula. She was a superb staffer. I'm sure she served 
you well.
    Mr. English. She told me you were her second best boss, 
next to me. [Laughter.]
    She is a remarkable human being.
    Mr. Regula. She really is terrific. Thank you very much for 
coming in.
                              ----------                              

                                             Thursday, May 2, 2002.

      CHRONIC FATIGUE AND IMMUNE DYSFUNCTION SYNDROME ASSOCIATION


                                WITNESS

K. KIMBERLY KENNEY, PRESIDENT AND CHIEF EXECUTIVE OFFICER, THE CHRONIC 
    FATIGUE AND IMMUNE DYSFUNCTION SYNDROME ASSOCIATION
    Mr. Regula. Kimberly Kenney, President and CEO, Chronic 
Fatigue and Immune Dysfunction Syndrome. It's been an 
interesting morning, some of the titles are mind boggling in 
terms of the scope that they must encompass. I'll be interested 
in chronic fatigue, I think all of us have that at times.
    Ms. Kenney. It feels like it, doesn't it?
    Mr. Chairman, and members of the esteemed Committee, I come 
to speak with you today about chronic fatigue syndrome, CFS, 
also known as chronic fatigue and immune dysfunction syndrome. 
CFS is a serious and debilitating illness that affects twice 
the number of Americans as multiple sclerosis. It is 
characterized by profound exhaustion, chronic pain, flu-like 
symptoms and severe cognitive problems. Women are affected at 
three times the rate of men, and persons of lower socioeconomic 
status and ethnic minorities are at greater risk than 
Caucasians.
    Mr. Regula. What causes it?
    Ms. Kenney. We don't know. That's why we're here this 
morning.
    Mr. Regula. You want to do research that hopefully will 
develop the----
    Ms. Kenney. Come to better understand the causes and----
    Mr. Regula [continuing]. Practices and lifestyle that would 
overcome it, is that----
    Ms. Kenney. Yes, treatments and lifestyle adjustments are 
part of what I think we'll need to have more information about, 
so we can return these people to good health.
    Since 1987, when CFS was first formally defined by the CDC, 
we've made important strides in awareness, research and policy. 
Yet there is still no marker, no diagnostic test, no treatment 
and no information about long term----
    Mr. Regula. How do they identify it, other than you're 
tired?
    Ms. Kenney. It's a symptom pattern, and the exclusion of 
any other possible causes.
    Mr. Regula. I see that you have immune dysfunction 
syndrome. Do you think part of this is caused by the immune 
system not functioning?
    Ms. Kenney. There are documented abnormalities in the 
immune system, the endocrine and the central nervous system.
    Mr. Regula. It would be pretty difficult to do your job.
    Ms. Kenney. Yes. Most people can't do their job and end up 
on Social Security disability, and if they're lucky, long term 
disability.
    Mr. Regula. So it's severe enough to keep you from 
participating in society?
    Ms. Kenney. Yes. In fact, the definition itself requires 
significant and severe impact on work, life, home life, 
schooling, education.
    Mr. Regula. Do they give Social Security disability for 
this?
    Ms. Kenney. Yes. There's a ruling that was passed in 1999.
    Mr. Regula. That's interesting, because how do they know 
people aren't faking it?
    Ms. Kenney. There's not a lot of secondary gain to tell 
people you have chronic fatigue syndrome. It's still very much 
demeaned and belittled. And the people who have this would much 
rather be back at the lives they had before they got sick.
    Mr. Regula. Any age level?
    Ms. Kenney. It seems to affect people in the prime of their 
life, but kids get it, seniors get it. There's no boundary in 
terms of age, race, or socioeconomic status.
    Mr. Regula. The symptoms would just simply be inability to 
function effectively?
    Ms. Kenney. Most people can remember the day, the hour and 
the minute at which they felt ill for the first time and have 
never felt well since. This goes on for years.
    Mr. Regula. So you have a sense of not feeling up to par, I 
guess?
    Ms. Kenney. That's right. It's almost like having 
mononucleosis 24 hours a day, on top of a chronic pain 
syndrome. The cognitive problems----
    Mr. Regula. Skip your testimony and tell me how we should 
deal with this.
    Ms. Kenney. All right, I'd be pleased to. A few months ago 
I met with a group of CFS patients in Canton, Ohio. Those who 
braved the snow that Sunday afternoon came to ask the same 
questions I asked 11 years ago, when I began my work on behalf 
of the CFIDS Association of America: Where can I find a 
knowledgeable doctor? What symptomatic treatments are working 
for other patients? What is the latest----
    Mr. Regula. Are there doctors that specialize in this?
    Ms. Kenney. There are a handful. Most doctors don't know 
enough about it to effectively treat people, even for the 
symptoms that might relieve their suffering and improve their 
quality of life.
    Mr. Regula. It seems to me, if you went in complaining 
about fatigue that there could be many causes, and the 
diagnosis would be a challenge.
    Ms. Kenney. Yes, diagnosis is very much a challenge and can 
take many months or years.
    Mr. Regula. What do you think we should do? Why are you 
here?
    Ms. Kenney. The NIH and the CDC have been studying this 
since about 1987. The Centers for Disease Control has, we've 
recently come through a period of great tension and stress over 
a three year period, 1995 to 1998, the Inspector General 
documented that there was $12.9 million in CFS research funds 
that were reported to Congress to be spent on CFS that were 
actually diverted to other areas.
    We've been working very closely with CDC and the Congress 
to restore those funds and to expand the research program at 
the CDC. And now it is much more comprehensive, they're looking 
at all these different----
    Mr. Regula. So they are doing research at CDC?
    Ms. Kenney. Yes, they're doing research at CDC and the NIH 
is funding a small amount, about $6 million a year, of external 
research.
    Mr. Regula. You'd like to see that expanded?
    Ms. Kenney. Yes, in proportion to the magnitude of the 
illness, its long lasting nature, the fact that people are 
disabled and taken out of their work lives and their 
productivity in our society. The economic impact of this, we 
don't have a figure for it yet, but it's enormous.
    Mr. Regula. Do you have a nationwide organization?
    Ms. Kenney. Yes. I'm President and CEO of the only national 
organization fighting this illness.
    Mr. Regula. How many members do you have?
    Ms. Kenney. We have about 23,000 members. Many of those are 
families. There are estimated to be 800,000 people who have 
this, but only 10 percent of them have been diagnosed, 
according to CDC studies.
    Mr. Regula. What's the cure?
    Ms. Kenney. There is no cure right now. The best we can do 
is symptomatic treatment of the sleep disorder, or the 
cognitive problems, the pain. That's often not that effective.
    Mr. Regula. So it's not a drug therapy.
    Ms. Kenney. There's no drug therapy. There's only been one 
drug taken through the early stages of FDA approval. We 
basically wait and watch for other drugs that are approved for 
similar conditions like MS or lupus, to see if those drugs 
might have application with this population. So far there's 
very little.
    Mr. Regula. So it has a relationship, in your judgment, to 
these other immune deficiency diseases?
    Ms. Kenney. They share many factors. They share many 
similarities in terms of symptoms. They are often misdiagnosed 
as some of these other things, like lupus and MS and rheumatoid 
arthritis. I think chronic disease in general is an area that 
needs more research because of the subtle interactions of the 
immune system and the cardiac system.
    Mr. Regula. I was out with the MS folks this week, and of 
course they have varying impacts. Do you have the same thing 
with chronic fatigue? Does it put people in a wheel chair, for 
example?
    Ms. Kenney. Yes, there's a very wide variety of illness 
severity. Some people are able to continue with work but have 
to cut out all other activities and others are bed-bound for 
years.
    [The prepared statement of Ms. Kenney follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you for coming.
    Ms. Kenney. Thank you for hearing my testimony.
    Mr. Regula. We'll read it, the staff will read it.
    Ms. Kenney. It was more important to converse with you, 
actually. Thank you, Mr. Regula.
    Mr. Regula. Thank you.
                              ----------                              

                                             Thursday, May 2, 2002.

                    PANCREATIC CANCER ACTION NETWORK


                                WITNESS

PAULA KIM, FOUNDING CEO, PANCREATIC CANCER ACTION NETWORK
    Mr. Regula. Paula Kim, Founding CEO, Pancreatic Cancer 
Action Network.
    Ms. Kim. Good morning, Mr. Chairman. Thank you very much 
for this opportunity to testify.
    My name is Paula Kim, and I'm here to tell you a little bit 
about one of the most feared and deadly cancers. Pancreatic 
cancer has a 99 percent mortality rate, the highest of any 
cancer.
    Mr. Regula. That's true, I understand that.
    Ms. Kim. It's the fourth leading cause of cancer death for 
men and women in this country. About 30,300 Americans are going 
to be diagnosed this year with pancreatic cancer and just about 
the same number will die. It strikes silently, and the average 
life expectancy after diagnosis with metastatic disease is 
about three to six months.
    Mr. Regula. Is there any way you can get ahead of that? Do 
you have to wait for symptoms?
    Ms. Kim. Unfortunately, most patients are very 
asymptomatic. By the time symptoms present themselves, most 
patients have advanced stage diseases. Sometimes people are 
lucky because they're in for something else and they catch it 
by accident. But that's very rare.
    Mr. Regula. What is it? What would be the evidence, a mass?
    Ms. Kim. Not always. Tumors don't always show up like a big 
mass, unfortunately. It's very diffuse at times. Sometimes you 
might have jaundice, but that's if you have biliary 
obstruction. So there's a lot of variations.
    Mr. Regula. Will an MRI identify it?
    Ms. Kim. An MRI sometimes can catch it. Generally, 
endoscopic ultrasound and a CT scan with a fine needle aspirate 
biopsy. But again, to do that, generally you need to present 
with symptoms and generally then it's too late.
    Mr. Regula. So the patient comes in with discomfort and 
then the doctor identifies this?
    Ms. Kim. Sometimes. But oftentimes not. Because what 
happens is that many times it gets totally overlooked and it 
gets mixed in with other things, such as ulcers, 
gastrointestinal disease, sometimes it's back pain, sometimes 
it can be distant pain in your arm. So oftentimes the symptoms 
are very similar to other ailments.
    Mr. Regula. It's pretty elusive.
    Ms. Kim. Very. Absolutely very.
    Mr. Regula. What are you asking us to do?
    Ms. Kim. What we're saying is, it's a big problem. There 
are less than 10 researchers fully focused on this disease. 
There's no cure, no early detection, no treatment options. I 
know this first hand because my dad died from pancreatic 
cancer. It took nine months to diagnose him but just 75 days 
for him to die.
    Mr. Regula. Does it afflict men and women equally?
    Ms. Kim. Just about, almost 50-50.
    Mr. Regula. No particular age?
    Ms. Kim. The average age of onset is 63, although I will 
tell you in my work that I've come across, and I work with many 
patients who are 35, 40 years old, men and women alike, people 
that are absolutely in the prime of their life, that are very, 
very healthy.
    Mr. Regula. Kind of a silent----
    Ms. Kim. Very silent, very deadly. Just absolutely nothing 
that's really going on.
    Mr. Regula. There isn't a whole lot you can do to 
anticipate or prevent it, is there? By the time you find out, 
it's too late.
    Ms. Kim. That's the problem. And that's why we need 
research. And that's what we're here to talk to you about.
    We have many researchers who are willing to work on this, 
but they're stifled due to a lack of opportunity and resources.
    Mr. Regula. Is NIH doing something in this area?
    Ms. Kim. Well, what's happening is, these are the words of 
the NCI. In the words of the NCI, this cancer is 
disproportionately underrepresented in both clinical and basic 
research. Despite a budget of over $4 billion this year, the 
NCI, by their own estimates, will spend $24.6 million, that's 
six-tenths of 1 percent, kind of like trying to break apart an 
iceberg with an ice pick.
    Pancreatic cancer research has been left on the sidelines, 
totally out of the lineup, we're not even in the ballpark. This 
is the background on the cancer, so what we can do is talk 
about where do we go from here.
    Science follows money, money creates opportunity and 
opportunity gets progress. That is the bottom line. So clearly 
we need some giant steps, and here's how we can get there. We 
urge you to support the following key actions that will bring 
forth some scientific progress. Implement the NCI pancreatic 
cancer PRG's recommendations. This is the blueprint. The NCI 
needs to develop a strategy and get going.
    We need to increase the pool of researchers, it's really 
small. As I mentioned, less than 10 full time researchers in 
this country on this disease.
    NCI needs to continue funding 100 percent relevant grants 
at a 50 percent higher pay line in fiscal year 2003. There are 
currently zero specialized programs of research, SPOR grants, 
in pancreatic cancer. We urge the NCI to fund no less than five 
by fiscal year 2004. Cancer registry data takes about 18 months 
to get into the system. Most pancreatic cancer patients die by 
then. We need to develop ultra-rapid methods that can be 
implemented so data can be collected and patients can be 
contacted while they're alive.
    We urge the NCI and the CDC to expand education and 
awareness. The entire ocean of research of cancer funding must 
rise, and all ships will rise with it, even our little tugboat 
of pancreatic cancer. This is why PanCAN is a proud member of 
OVAC, One Voice Against Cancer.
    Mr. Regula. How many die each year from pancreatic cancer?
    Ms. Kim. About 29,700. Thirty-thousand three hundred are 
diagnosed. Nine out of ten people die. So what we'd like to do 
is tell you that PanCAN joins OVAC in urging you to include 
$27.3 billion for the NIH, $5.69 billion for the NCI, $199.6 
million for the NIH Center for Minority Health and Health 
Disparities, and $348 million for the Centers for Disease 
Control Cancer Education, Prevention and Screening.
    Mr. Chairman, the Federal research enterprise has done 
wonderful things in this country for diseases. Pancreatic 
cancer, unfortunately, hasn't been on that ship. We look 
forward to working with you.
    [The prepared statement of Ms. Kim follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. You founded the Pancreatic Cancer Action 
Network?
    Ms. Kim. Yes, sir.
    Mr. Regula. Since it's such a short-lived disease, before 
it's fatal, how do you get membership? Because people don't 
know that they should be members.
    Ms. Kim. It's very interesting, in 1999, when I founded 
this organization, we had zero dollars, we had myself 
volunteering and like five people more volunteering, a handful. 
I am very happy to report to you, three years later, we have a 
mailing list of 17,000 people, we have a full time staff of 
seven, and thousands of volunteers across this entire country 
raising hope and awareness. People are angry about this 
disease, and through the power of technology and the internet 
and fax machines, they've come to our cause.
    Mr. Regula. So you're getting probably family members as 
members of your organization.
    Ms. Kim. Yes, it's mostly family members and we deal with 
the patients. Then unfortunately, I'll talk to the patients, 
I'll help them, six months later, they're almost always dead.
    Mr. Regula. Thank you for your efforts.
    Ms. Kim. Thank you very much.
                              ----------                              

                                             Thursday, May 2, 2002.

                 OREGON HEALTH AND SCIENCES UNIVERSITY


                                WITNESS

PATRICIA G. ARCHBOLD, DISTINGUISHED PROFESSOR, SCHOOL OF NURSING, 
    OREGON HEALTH AND SCIENCES UNIVERSITY
    Mr. Regula. Dr. Patricia Archbold, Distinguished Professor, 
School of Nursing, Oregon Health and Sciences University. 
You're a friend of Senator Hatfield, I guess.
    Dr. Archbold. Yes.
    Mr. Regula. How is he doing?
    Dr. Archbold. He's doing great.
    Mr. Regula. Is he teaching?
    Dr. Archbold. He's doing some teaching and some foundation 
work for us. And I'm going to tell you about some of the 
projects he's involved in.
    Mr. Regula. Okay.
    Dr. Archbold. I'm speaking for the University at this time, 
and it's an academic health center. Like many centers, we have 
a four part mission that involves research, teaching----
    Mr. Regula. Do you get NIH grants?
    Dr. Archbold. I do. I have right now----
    Mr. Regula. At this institution and you personally, then?
    Dr. Archbold. Yes. We have a large number of NIH grants in 
the University. They focus on everything from very basic 
molecular biological research through clinical research.
    I'd like to update you today on some of the work we're 
doing in aging, because that's the area that I'm involved in. 
And we want to thank you, first of all, for helping us get some 
additional funds for training of health professionals in this 
area.
    Mr. Regula. Do you deal with the School of Nursing then?
    Dr. Archbold. I'm in the School of Nursing.
    Mr. Regula. We had testimony a couple of weeks ago that 
we're losing nurses because of the impact of stress, the 
inability to just deal with it. They're leaving the profession 
and there is a looming shortage of nurses.
    Dr. Archbold. Yes, a dramatic shortage of nurses and also 
nursing faculty. The mean age of nursing faculty in Oregon is 
over 50. And nurses, it's in the late 40s. So I would say the 
crisis is here.
    Mr. Regula. Any recruits coming in?
    Dr. Archbold. We are at our school. But that's not true 
nationally.
    Mr. Regula. What could we do in this legislation or 
expenditure of money, we're a money committee, Appropriations, 
what could we do to help with the nursing profession to get 
greater numbers and keep people?
    Dr. Archbold. I think that one thing would be scholarship 
dollars for nursing students. Nurses don't have the earning 
capacity that other professionals in health care have. So 
encumbering large loans is very difficult for them.
    Mr. Regula. Is there a program of forgiveness in the 
nursing profession?
    Dr. Archbold. Yes.
    Mr. Regula. I thought there was.
    Dr. Archbold. But expanding the number of scholarships 
would bring more people in. And then wages and working 
conditions are an issue in nursing. I think we as a country 
need to look at that systematically.
    Mr. Regula. I'm using up your time, but if you can give me 
in a nutshell what you'd like, why are you here.
    Dr. Archbold. This is very important, because in addition 
to needing nurses in general, we need nurses with expertise in 
caring for elders. At the Oregon Health and Sciences 
University, we've been looking at reconceptualizing care so 
that we're working with younger people on a very highly 
individualized, tailored goal setting mechanisms for making 
lifestyle changes to keep people healthier longer. That's 
called the Center for Healthier Aging. We have AOA funding for 
that.
    Mr. Regula. Nurses in many instances are probably closer to 
the patient than the doctor.
    Dr. Archbold. I think that's probably true in terms of time 
and contact.
    Mr. Regula. Right. And is your program two years, three 
years, four years or a mixture, at your university?
    Dr. Archbold. At our university, we have four campuses, 
three in rural areas and one in Portland. It's a two-year 
program on top of two years of general learning.
    Mr. Regula. So they get a bachelor's degree in nursing?
    Dr. Archbold. Correct. And the Oregon Nursing Leadership 
Conference is now working very closely to integrate the 
associate degree programs more closely with the bachelor's 
degree programs.
    Mr. Regula. You offer the associate, with the two year?
    Dr. Archbold. We don't, but it is at the State.
    Mr. Regula. So you'd like us to give some financial support 
to encourage people to go into the field.
    Dr. Archbold. To enter nursing, and then once they're in 
it, to progress and then while in it, to develop expertise in 
gerontological nursing.
    Mr. Regula. Well, the demographics on the growing 
population of seniors is startling, or mind boggling, because 
it's going to affect so many facets of our society.
    Dr. Archbold. That's right. It already has, and will expand 
in the foreseeable future.
    Mr. Regula. Well, we will look at it, we'll look at your 
testimony. I'd be interested in programs where we can help.
    Dr. Archbold. I believe this would be one place where you 
could really help.
    Mr. Regula. Of course, we have a limited budget, so many 
needs. Yet we do a lot of good things in this country.
    Dr. Archbold. Yes.
    Mr. Regula. NIH testified last week, that every five years, 
life expectancy goes up a year. That's a pretty good record.
    Dr. Archbold. For some people.
    Mr. Regula. In 50 years, you're adding 10 years.
    Dr. Archbold. Yes, for some people.
    Mr. Regula. Yes, I understand that, but on average. So 
compared to my parents, I have theoretically 10 more years.
    Dr. Archbold. That's right. And we're very interested in 
creating ways that the health care system can keep people 
healthy through interdisciplinary----
    Mr. Regula. Well, that's part of it, if you have quality of 
life it's one thing. Living long without quality of life is 
another. I suppose that's one of the challenges.
    Dr. Archbold. That's right.
    Mr. Regula. Is to make sure people have a quality life.
    Dr. Archbold. That's right.
    Mr. Regula. Well, thank you for coming. Tell the Senator, 
he and I collaborated on the visitor's center downtown, the 
White House Visitor's Center. I don't know if you've been 
there, probably not.
    Dr. Archbold. Not yet.
    Mr. Regula. It's down next to the White House, people can 
go there when they want to go to the White House, and they can 
get a lot of information and so on. You tell Mark that it's a 
huge success.
    Dr. Archbold. I will.
    Mr. Regula. He'll remember it, because we worked together 
on making it happen. Thank you for coming.
    Dr. Archbold. Thank you very much. And I have some 
testimony that's longer.
    Mr. Regula. It will be in the record. Staff will read it, 
because we're interested in the nursing problem. Retention as 
well as getting young people to join, because we're going to 
need these people very much as we have this aging population. 
Thank you.
    [The prepared statement of Dr. Kathleen Potempa, unable to 
appear, and the biography of Dr. Archbold follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                             Thursday, May 2, 2002.

                        AMERICAN TRAUMA SOCIETY


                                WITNESS

HARRY TETER, EXECUTIVE DIRECTOR, AMERICAN TRAUMA SOCIETY
    Mr. Regula. Harry Teter, Director of the American Trauma 
Society.
    Mr. Teter. Good morning, Mr. Chairman, and I thank you for 
the opportunity to appear before you this morning. I have some 
written testimony and I will leave that for you all to look at 
and digest at another time.
    Mr. Regula. The Trauma Society, tell me what your mission 
is.
    Mr. Teter. Our Trauma Society has basically two missions. 
One is to provide the proper care for those who are injured or 
in very severe episodes such as car crashes, etc., to be sure 
they get to the right place, seen by the right people in a very 
rapid time. The second mission is to try and prevent trauma 
from ever happening in the beginning.
    So we have a great deal of work that we do with the Centers 
for Disease Control and Prevention, with NHTSA, with all the 
agencies that look to how we prevent car crashes, how we 
prevent homicides, suicides, etc. So we have two major 
programs.
    Mr. Regula. Do you benefit from research done by the 
military? Because obviously they must have a higher than 
average number of individuals that are suffering from trauma, 
just by the nature of the work they do.
    Mr. Teter. Yes. And we obviously look to any studies or any 
work that they do that will help us to either do better care or 
prevention. In fact, many of the trauma systems that we are out 
there building today are designed because of the military, what 
we learned in Vietnam, what we learned in Korea. In fact, they 
were the examples, where we would pick people up from where 
they were injured and take them to a proper place, not 
necessarily to the nearest place, which led to many unnecessary 
deaths.
    And we're certainly learning that now across the country, 
and we're implementing these systems.
    Mr. Regula. Aren't more and more hospitals putting in 
trauma centers, where they have the know-how and the equipment 
to deal with automobile accidents, falls, a whole range of 
industrial accidents?
    Mr. Teter. Yes, we do have that. In fact, thanks to this 
Committee, you have helped us develop what we call the Trauma 
Information Exchange Program. I will be delighted to give you a 
map that shows you where all the trauma centers are in this 
country and what their capabilities are. It becomes very 
important, as we look at responding not only to anything that 
would be in a mass casualty situation, but in everyday 
situations. We are painfully reminded of what happened on 9/11. 
And I will tell you that if we don't have trauma systems in 
place, we're not going to be able to take care of the next mass 
casualty.
    Mr. Regula. One of the important groups are the EMS folks 
that are attached to fire departments. I live out in a rural 
area, and our fire departments volunteer, and our EMS people 
are volunteers. I'm always amazed, pleasantly surprised how 
many individuals, at their own expense in our little rural 
community, will go get EMS training because if I fall off a 
ladder, they're going to be the first ones there, probably.
    Mr. Teter. We owe an enormous gratitude to the EMTs in this 
country who volunteer.
    Mr. Regula. Do you develop information that they can use in 
their training programs?
    Mr. Teter. Absolutely. Absolutely. And I must say that a 
great deal of good work has been done by the Department of 
Transportation in training programs. We are very much 
concerned, they are the entry point in our systems. They are 
the ones that arrive first on the scene, and that's where 
things start. But if they didn't have a procedure in place in 
the community to know where to take them, whether you go to a 
trauma center, and not all patients of course need to go to a 
trauma center. Eighty-five percent of patients go to the 
nearest hospital.
    Mr. Regula. Can't they do a lot of damage if they don't 
handle that patient correctly?
    Mr. Teter. Absolutely. That's why they're well trained. No 
question about it. We do not want to have people out there that 
don't know what they're doing.
    But we also want to be sure that, as I say, they get to the 
right place, which is why the trauma systems are so important, 
and why today, I'm here to urge three things. You always want 
to know why we're here, we are here because the trauma systems 
development program got no funding recommendations from the 
Administration. We find that perplexing, at best. Because if 
we're going to do homeland preparedness, or just care for you 
and me at home, we'd better have those.
    Fortunately, this Committee has always rectified that in 
the past, and we ask that you do it again. We also look very 
closely to the injury prevention program at CDC. We think CDC 
does marvelous work. We want them to continue on their injury 
prevention research. We have to develop better programs on how 
to keep people out of harm's way.
    Then three, we have two programs that the Trauma Society 
does. One, to help families of trauma victims. Note again that 
when we looked at the incident of 9/11, we saw these anguished 
families before us. Well, let me tell you, that is every day in 
this country at every trauma center. We have started developing 
a wonderful program and we need your help on that. In our 
Trauma Information Exchange Program, which thanks to this 
Committee, we're ready to give you the best information we can.
    Mr. Regula. Ergonomics, do you work with that?
    Mr. Teter. Ergonomics is a little different issue. 
Interesting and important, very high. Trauma is blunt or 
penetrating injury, it is severe. It is what you can't do 
anything about when it happens to you. And we need to have you 
properly cared for, and me too.
    [The prepared statement of Mr. Teter follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Well, thank you very much.
    Mr. Teter. It's been a pleasure, thank you.
                              ----------                              

                                             Thursday, May 2, 2002.

   INTERNATIONAL FOUNDATION FOR FUNCTIONAL GASTROINTESTINAL DISORDERS


                                WITNESS

NANCY NORTON, PRESIDENT, INTERNATIONAL FOUNDATION FOR FUNCTIONAL 
    GASTROINTESTINAL DISORDERS
    Mr. Regula. Nancy Norton, President, International 
Foundation for Functional Gastrointestinal Disorders. Welcome.
    Ms. Norton. Thank you, Mr. Chairman, and members of the 
Subcommittee. Thank you for the opportunity to appear before 
you today.
    My name is Nancy Norton. I am the Founder and President of 
the International Foundation for Functional Gastrointestinal 
Disorders. I started the IFFGD in response to my own experience 
as a patient at a time when there was little educational 
information or support available to patients with bowel 
disorders. I'm happy to say that 11 years later, our 
organization annually serves hundreds of thousands of people, 
providing information and support to patients and to 
physicians.
    It's the largest organization of its kind in the U.S. IFFGD 
works with consumers, patients, physicians, providers and 
payors to broaden understanding about gastrointestinal----
    Mr. Regula. So you're an information group.
    Ms. Norton. We're an information group, we're also a 
research group. And we provide support.
    Mr. Regula. But the doctor, or the physician, has to take 
care of the actual disorder, correct?
    Ms. Norton. The hope is that the doctor will take care of 
the disorder, right. These are some of the things that need to 
be addressed.
    Mr. Regula. So your organization would dispense information 
to the public? Do you have a web site?
    Ms. Norton. We have a web site. Actually, we have five 
different web sites. We have a home page that talks about 
general gastrointestinal disorders, we have one that's about 
irritable bowel syndrome, we have one that's about bowel 
incontinence, and we have a kids' GI site. So we address a 
number of different issues in the GI community.
    Mr. Regula. So really the function of your organization is 
to get the information out, give people who need to know and 
get them to the proper care, is it?
    Ms. Norton. Right. I think one of the important things to 
take note of regarding our organization is that bowel disorders 
are hidden in this society. We don't talk about it openly. I'm 
here really to talk about fecal incontinence. Fecal 
incontinence affects an estimated 2.2 percent of the 
population. Our organization did the first prevalence study on 
fecal incontinence in the United States.
    We feel that that number is underreported. I think people 
don't realize the level of incontinence and it's not just 
something that occurs in the elderly. We tend to feel like it's 
something that happens when you're frail and elderly. I'm an 
incontinent person as a result of an obstetrical injury. Few 
women know that an outcome of childbirth can be that you live 
the rest of your life with fecal incontinence.
    We don't talk about the bowel disorders associated with 
multiple sclerosis or diabetes or colon cancer or uterine 
cancer.
    Mr. Regula. So your organization gives people a willingness 
to recognize that there is a problem.
    Ms. Norton. Right. We may be the first person they've ever 
talked to about their incontinence.
    Mr. Regula. How do they find out about you?
    Ms. Norton. We have information in doctor's offices, also 
through the media. We try to get a message out, but it's very 
interesting, the media in the United States is very reluctant 
to even talk about bowel disorders. So it's been extremely 
difficult in getting this message out into the public.
    Mr. Regula. But your web site would be one way.
    Ms. Norton. Right. I think another point I would really 
like to make is that 45 percent of nursing home residents are 
incontinent. Typically maybe only 14 percent of nursing home 
residents are incontinent on entry into the nursing home. So 
there's something that's going on in the first year of their 
stay in a nursing home and those numbers increase. This is 
really an issue that needs to be pursued.
    Mr. Regula. It seems like it's somewhat of a degeneration 
of the system. Is there a cure?
    Ms. Norton. There is no cure. And that's part of why I'm 
here. Some of this is preventable. We would like to see the 
NIH, NIDDK research portfolio expanded so that we can address 
prevention as well as treatment.
    Mr. Regula. Do they do anything on this?
    Ms. Norton. They do very little. We are sponsoring a 
conference in November of this year, our organization. We've 
asked for support from NIDDK in particular to sponsor this 
meeting. We really need to have more funds directed into this 
area, in particular.
    The other piece I would like to address is that of 
irritable bowel syndrome. I have been here before and spoken 
about IBS. But IBS affects an estimated 30 million Americans. 
Many people suffer in silence, unable to speak about the 
disease, even to their family members. The medical community 
has been slow in recognizing IBS as a legitimate disease. 
Patients must often see several doctors, sometimes searching 
for several years before they are given an accurate diagnosis.
    Data reveals that for many people, there are severe 
consequences and a distressing level of disability, morbidity 
and mortality that results from the search for an effective 
treatment for unrelieved chronic symptoms of IBS. Once a 
diagnosis of IBS is made, medical management is limited, 
because the medical community still does not understand the 
physiological mechanism of the disease.
    While there is much we don't understand about the causes 
and treatment of IBS, there is much we do know about the level 
of suffering associated with the disease. For example, we do 
know that IBS is a chronic disease affecting as many as one in 
five adults. It is reported more often by women than men. It is 
the most common gastrointestinal diagnosis among 
gastroenterology practices in the U.S. It is a leading cause of 
worker absenteeism in the United States. And total and indirect 
costs associated with IBS have been estimated at $25 billion.
    Mr. Chairman, much more can be done to address the needs of 
millions of digestive disease patients. We urge you to continue 
the effort to double the NIH budget by providing a 16 percent 
increase for fiscal year 2003. Within NIH, provide proportional 
increases of 16 percent to the various institutes and centers, 
specifically NIDDK.
    We understand the difficult budgetary constraints under 
which the Subcommittee is operating. Yet, we hope you will 
carefully consider the tremendous benefits to be gained by 
supporting strong research and education programs for 
incontinence and irritable bowel syndrome at NIDDK.
    Mr. Chairman, on behalf of millions of digestive disease 
sufferers, thank you for your time.
    [The prepared statement of Ms. Norton follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you for taking the time to come.

           *       *       *       *       *       *       *

                                             Thursday, May 2, 2002.

                 ASSOCIATION OF ACADEMIC HEALTH CENTERS


                                WITNESS

DR. ROGER J. BULGER, M.D., PRESIDENT AND CEO, ASSOCIATION OF ACADEMIC 
    HEALTH CENTERS
    Mr. Regula. Dr. Roger Bulger, President and CEO, 
Association of Academic Health Centers.
    Dr. Bulger. Thank you very much, Mr. Chairman. I admire 
your stamina, and everybody else's, who's heard us.
    Mr. Regula. We're getting down to the end, two more to go. 
It's interesting, though, as part of getting an understanding. 
I think that's what makes this Committee worthwhile, we can 
help people in a lot of ways.
    Dr. Bulger. I've learned a lot by being here, I can tell 
you that.
    I guess I should tell you who I represent. An academic 
health center is a place that is defined as having a medical 
school, either allopathic or osteopathic, and at least one 
other health professional school in association with a clinical 
enterprise. So the UCLAs and the Michigans and the places that 
have as many as seven health professional schools----
    Mr. Regula. Then you have the association.
    Dr. Bulger. Then we have the association. And those 
individuals who have the job of integrating what goes on.
    Mr. Regula. In your testimony, what do you want to tell 
this Committee?
    Dr. Bulger. The reason I wanted to tell you the basis I'm 
coming from, it gets to what I wanted to highlight. There are 
four or five things. First of all, we celebrate the doubling. 
We've worked very hard for that. I think it's wonderful. I 
wanted to bring you some information. A survey that we've just 
done shows that 70 percent of our members have grown their 
research enterprise in response to the doubling of the NIH 
budget.
    Mr. Regula. Probably almost all your members participate 
with NIH in a grant of some kind.
    Dr. Bulger. Well, I think that's right. But you frequently 
hear the criticism from friends and foes alike, or the 
observation that this is only going to make the rich richer, 
the top 25 research----
    Mr. Regula. You mean schools when you say rich.
    Dr. Bulger. Yes, the ones that are research intensive.
    Mr. Regula. But not every school's got the capability.
    Dr. Bulger. No, but they have, what I'm saying is that 70 
of them, 70 out of 100 responding, have benefitted 
significantly enough for them to advance. We know that every 
dollar that comes from the Federal Government in a grant 
translates into six or seven dollars for the--
    Mr. Regula. How many schools in your judgment, or 
facilities, I should say, in the United States, are capable of 
doing research as envisioned by NIH?
    Dr. Bulger. I would say that at least, when you take the 
centers, which have an average of four to five schools, that 
there are 100 that can do that, 110. All of them can do 
something, but they're not geared up for intense laboratory 
research in many instances.
    What I thought would be useful is to comment on some of the 
things that have not been commented on before. I know how hard 
it is to juggle the dollars. But I picked out five things that 
we think are very important and there are raises in each of 
these five things. They address institutional, cultural and 
medical problems, health problems in ways that I think people 
don't think of when they think entirely in research benefits. 
Let me just touch on them.
    First of all is the Center for Minority Health and 
Disparities. You can see the reasons for that. That could be in 
a time of doubling, raising that a little bit more, even though 
it's at almost a 20 percent raise here. It wouldn't be seen in 
the larger sense.
    The other ones are two, you just touched on it, and I was a 
little surprised it didn't come up when you asked what can we 
do for nursing. What we can do for nursing, one of the things 
our places can do for nursing is develop the capacity for 
nursing faculty. In the long term, we can't train more people 
unless we have more faculty. It's not appealing. They can't get 
research funds. They do different kinds of research.
    And you know what, fecal incontinence is one of the kinds 
of things that nurses, when they see problems, they work on 
those problems. To be honest, they're not very sexy from the 
point of view of the traditional thing. That institute could 
stand an increase, I know they have good proposals that go 
unfunded.
    The other one that we haven't talked about at all is 
dentistry. That institute is doing very well and it's giving 
that profession, which is kind of also in need of faculty to 
the same extent that nursing does. Remember, we don't talk 
about dental shortages, because half the people in the United 
States don't get dental care.
    Mr. Regula. We've had that testimony.
    Dr. Bulger. So those are the things that I would really 
mention. I think the other one that doesn't take more money but 
you could do with a directive, and we want to associate 
ourselves with, is what the Deans of Public Health I think have 
already expressed to you somewhere in the written testimony. 
That is that the NIH look across the board within each 
institution at enhancing the investment in population based 
studies, health care outcomes. Not necessarily knowing they 
can't seek the molecular basis for the disease, but how do we 
change and improve the outcome with chronic diseases and other 
things.
    That's probably enough. Thanks a lot.
    [The prepared statement of Dr. Bulger follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you very much for your testimony.
                              ----------                              

                                             Thursday, May 2, 2002.

FRIENDS OF THE NATIONAL INSTITUTE OF CHILD HEALTH AND HUMAN DEVELOPMENT 
                               COALITION


                                WITNESS

KAREN STUDWELL, CO-CHAIR, FRIENDS OF THE NATIONAL INSTITUTE OF CHILD 
    HEALTH AND HUMAN DEVELOPMENT COALITION
    Mr. Regula. Karen Studwell, Co-Chair, Friends of National 
Institute of Child Health and Human Development Coalition.
    Ms. Studwell. Good morning.
    Mr. Regula. We're happy to welcome you here today.
    Ms. Studwell. Thank you. I am here today as Co-Chair of the 
Friends of the National Institute of Child Health and Human 
Development, a coalition of nearly 100 organizations that 
support the extraordinary work of NICHD. Our coalition is now 
in its 16th year and is comprised of organizations----
    Mr. Regula. You support the work out at NIH?
    Ms. Studwell. Right. NICHD is one of the institutes at NIH. 
Our coalition is comprised of organizations representing 
scientists, health professionals and advocates for the health 
and welfare of children, adults, families and people with 
disabilities.
    Mr. Regula. How do you get organized?
    Ms. Studwell. Very haphazardly. We're actually a group, 
it's a voluntary organization of people who advocate on behalf 
of over 100 organizations. Some of these organizations are 
small, representing Rett Syndrome or Fragile X, who aren't 
represented in Washington, so they join the Coalition because 
they support the research at NICHD.
    Mr. Regula. So people who have an interest in child health, 
they're motivated by that, I assume?
    Ms. Studwell. Typically the research that NICHD does would 
affect either the diseases or conditions that their 
organization represents. NICHD's research doesn't focus on one 
disease or two diseases, but the whole span of human 
development. So they do work on maternal health, fetal 
development, child health as well as behavioral health. 
Anywhere from tobacco prevention to sexual behavior, as well as 
autoimmune diseases, diseases that may be prevented with 
treatment in utero. So it's quite a broad spectrum.
    The Coalition would like to thank you for sustaining the 
bipartisan commitment to doubling the Federal investment in NIH 
over the past five years. As I said, we're focused specifically 
on NICHD. Sustained public investment in NICHD provides a 
foundation of scientific knowledge about physical, 
intellectual, social and emotional development that has 
profoundly improved public health and reduced human suffering.
    The Friends of NICHD believe that this public investment is 
poised to produce new insights into human development and 
solutions to health problems for the global community, our 
Nation and the families that live in your town. In the past 
year alone, NICHD has made great strides in addressing its 
research mission and has added impressive achievements to its 
record of progress over the past 39 years.
    For example, NICHD researchers have found a vaccine to 
prevent staph infection, which is commonly received in 
hospitals accidentally when patients go in for other surgeries. 
In addition, researchers funded by NICHD discovered a new 
vaccine for typhoid fever, a disease that infects 16 million 
people worldwide each year, killing 600,000. Typhoid vaccines 
currently on the market are ineffective for children under five 
years of age, and this is the first vaccine to protect young 
children against typhoid fever.
    NICHD also continues to make advances in understanding the 
causes and treatments for male and female infertility, pelvic 
floor disorders and the risks of pregnancy itself. In this 
country, 30 percent of women experience major medical 
complication at some point during their pregnancy. We hope this 
alarming number will decrease through additional research 
focused on pregnancy related complications such as prevention 
of pre-term labor, the role of genetics in pregnancy outcomes 
and the causes of ethnic and racial differences in maternal 
mortality, such as African-Americans, who are four times more 
likely to die of pregnancy related causes than whites.
    A major research body for maternal-fetal medical research 
is the NICHD maternal-fetal medicine units network. The MFMU 
network was established in 1986 to respond to the need for well 
designed clinical trials in this specialty field. With 14 
participating centers, the MFMU network is the only vehicle of 
its kind that allows researchers to study a sufficiently large 
number of patients so that concrete recommendations can be made 
to introduce new scientific discoveries. Increased funding is 
needed both for individual investigators studying pregnancy and 
its complications, as well as to ensure the long term stability 
of the MFMU network.
    Although this impressive record of accomplishment has made 
significant contributions to the well being of our children and 
families, much remains to be done. I'll briefly tell you about 
some of the challenges that remain and some of the projects 
NICHD is working on. Currently, as part of the Child Health Act 
of 2000, they are working on the national longitudinal study, 
which will look at children from in utero all the way until 
they are 20 years old. The study will enroll 100,000 children 
and is currently being developed. So we strongly support fully 
funding that initiative.
    The Child Health Act of 2000 also included a new pediatric 
research----
    Mr. Regula. One last question, we're running out of time. 
Are you pleased with what they do at that institute?
    Ms. Studwell. Absolutely, yes.
    Mr. Regula. Do you think that they're making progress and 
contributing substantially to children's health?
    Ms. Studwell. Yes.
    Mr. Regula. And your group is very supportive of the 
efforts that they make?
    Ms. Studwell. Yes, absolutely. And we're asking for a $1.28 
billion fiscal year 2003 appropriation for NICHD.
    Mr. Regula. I don't know what the President's budget has in 
it.
    Ms. Studwell. It was a bit less than that. This would be a 
15 percent increase, as opposed to the 9 percent increase 
that's in his budget.
    [The prepared statement of Ms. Studwell follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. You're not backward about making your request. 
[Laughter.]
    Ms. Studwell. Thank you.
    Mr. Regula. Thank you.
                              ----------                              

                                             Thursday, May 2, 2002.

              AMERICAN SPEECH-LANGUAGE HEARING ASSOCIATION


                                WITNESS

NANCY CREAGHEAD, PROFESSOR AND CHAIR, DEPARTMENT OF COMMUNICATION 
    SCIENCES AND DISORDERS, UNIVERSITY OF CINCINNATI; PRESIDENT, 
    AMERICAN SPEECH-LANGUAGE HEARING ASSOCIATION
    Mr. Regula. Our last witness today, and this is the one 
we're looking for, is Dr. Nancy Creaghead, Professor and Chair 
of the Department of Communication Sciences and Disorders, the 
University of Cincinnati, and President of the American Speech-
Language Hearing Association.
    Put in layman's language what you want to tell us.
    Dr. Creaghead. All right, I will. I am coming today on 
behalf of the American Speech-Language Hearing Association, 
which represents 105,000 audiologists and speech-language 
pathologists. I am here to urge you to continue support for 
newborn hearing screening and early intervention.
    Mr. Regula. We had some comment on that, I'm aware of it 
because my son and daughter-in-law just had a baby, their 
little girl is about 12 weeks now. And I think the hospital, I 
asked them, they did give them some type of hearing check. Then 
we had testimony a few weeks ago about the fact that they felt 
that it should be mandatory, this person that was testifying.
    Dr. Creaghead. That's correct.
    Mr. Regula. A few little girls that got missed.
    Dr. Creaghead. That's what I am----
    Mr. Regula. It seems so rational. Why wouldn't every 
hospital do this?
    Dr. Creaghead. Every hospital doesn't do it because of the 
cost. And so that----
    Mr. Regula. How costly, what do they do, use a tuning fork 
and see if the child reacts? How do you test the hearing in a 
baby?
    Dr. Creaghead. There are two techniques that are available 
for testing a baby, who obviously can't respond overtly. One of 
them is oto-acoustic emissions, which is testing what happens 
in the middle ear through sound pressure, and the other one is 
auditory brain stem response, which is through electrodes to 
see if the brain is getting the signal from the ear. So one of 
them is actually a process in the ear and one's in the brain.
    Mr. Regula. So there is substantial expense connected with 
it.
    Dr. Creaghead. The expense----
    Mr. Regula. Maybe not substantial.
    Dr. Creaghead. About $25 to $60.
    Mr. Regula. How many States mandate this?
    Dr. Creaghead. Currently, and this is actually because of 
the previous funding that's already in place, there are 37 
States that mandate it, plus the District of Columbia. And 
other States that have voluntary support of this. So there are 
about 40 States that are doing testing.
    Mr. Regula. If you catch it early, with the testing of a 
baby, does that give a greater opportunity for remediation?
    Dr. Creaghead. Absolutely. That is the critical thing. The 
reason that we need to do this testing of infants is that 
despite the fact that we have made such increases with the 
current Federal funding through EHDI--we have gone from 20 
percent of the children being tested to about two-thirds--we 
still have 11 children leaving hospitals every day who haven't 
been tested, who have hearing loss and their parents don't know 
it because they didn't receive testing.
    What is needed is funding, back to your question regarding 
the need for early intervention. What we need funding for right 
now, and the reason we're asking for an additional $11 million 
for the HRSA and $12 million for the CDC, is to continue the 
early testing, but really importantly, to be able to make that 
connection to early services. Children need to begin to have a 
hearing aid and begin services by six months of age to prevent 
the incredible delay that's going to occur in their 
communication, their speech and language development and 
ultimately their school success in reading and writing.
    Mr. Regula. So identifying them means you get remediation 
early, which would be very important in speech patterns?
    Dr. Creaghead. Absolutely.
    Mr. Regula. That's what the mother testified to a couple of 
weeks ago.
    Dr. Creaghead. It's critical for speech and language 
development and ultimately, school success.
    Mr. Regula. Seems to me every State ought to mandate it.
    Dr. Creaghead. The problem now is that with the level of 
funding we have right now, and cutbacks in State funding and in 
Title V, that States who would put these into place don't have 
funds to make that next step, which means tracking, doing 
follow-up testing to find out what the nature of the hearing 
loss actually is, to track those children and be sure that they 
get them into the early intervention and preschool and then 
school age programs.
    Mr. Regula. Would it require a specialist to administer 
this test? Because in the hospitals, usually the nurses would 
be the individuals that would be caring for that child the 
most. Is it a specialized technique?
    Dr. Creaghead. The test itself does not have to be 
administered by a specialist, but it needs to be, the program 
needs to be coordinated and supervised by an audiologist. Then 
volunteers and other people, including nurses, can actually do 
the actual testing.
    The other thing that we really need that's related to this 
is increases in the Part C, the preschool portion and early 
intervention portion of IDEA, in order to support the services 
that these children need. Also, there is a critical shortage of 
special education personnel. So we're also asking for a 12 
percent increase in Part C to support intervention, for early 
intervention, and in Part D, to support personnel preparation.
    Mr. Regula. You know, IDEA has to be reauthorized.
    Dr. Creaghead. Right.
    Mr. Regula. Are you going to testify?
    Dr. Creaghead. Absolutely.
    Mr. Regula. Good. So you represent the American Hearing 
Association, is that right?
    Dr. Creaghead. I'm the volunteer President of the American 
Speech-Language Hearing Association.
    Mr. Regula. Well, I think obviously this is very important 
work. Early intervention seems to be the key.
    Dr. Creaghead. It is. Increasing funds are absolutely 
needed for this program to be able to--that we've already 
started and made so much progress, in two years we've gone from 
identifying, as I said, 20 percent, to identifying two-thirds 
of them. But there's no point in identifying them if we can't 
provide the intervention services.
    Mr. Regula. Is Ohio mandatory?
    Dr. Creaghead. Ohio actually just signed, I was just 
yesterday in Maselin, Ohio, where Governor Bob Taft signed our 
bill into law, and we became the 37th State.
    Mr. Regula. I think Kirk Shering sponsored that.
    Dr. Creaghead. That's right.
    Mr. Regula. One of my Representatives.
    Dr. Creaghead. He was there, and he was speaking in a group 
of individuals and in Maselin, had done an incredible amount of 
work. Joan Fenfrock is one of the people, she was one of the 
absolute leaders of this effort in Ohio. So I had the 
opportunity to fly into Cleveland yesterday and be there with 
the Governor as he signed the bill.
    So Ohio is finally on board, 37. I wish we had been 
earlier, but we finally got there.
    Mr. Regula. That's terrific. Any other points you want to 
make?
    Dr. Creaghead. I think those are the major things. I think 
that the fact that the coordinated effort from HRSA and CDC and 
the funding for IDEA is the critical package that we can put 
together to be sure that these 12,000 children with hearing 
loss that are born every year are able to succeed in school.
    Mr. Regula. I suppose a lot of them get in the IDEA 
program.
    Dr. Creaghead. Yes, they do. But the problem is that if 
they get there too late, if they're not identified, right now 
if a child isn't identified early, it's usually like two and 
three years old when they're not talking, when they're already 
not talking is when they get identified. And it's too late. And 
then they are going to be taking more funding throughout life 
from IDEA because of the fact that they have greater problems.
    [The prepared statement of Dr. Creaghead follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you very much for coming.
    Dr. Creaghead. Thank you so much for allowing me to 
present.
    Mr. Regula. I think that completes our list today. Thank 
you all. The Committee is adjourned.
                                              Tuesday, May 7, 2002.

                  NATIONAL YOUTH EMPLOYMENT COALITION

                               WITNESSES

T.W. HUDSON, EXECUTIVE DIRECTOR, HOUSTON WORKS USA
YOLANDA FINK, ASSISTANT CORPS LEADER, OHIO DEPARTMENT OF NATURAL 
    RESOURCES, OHIO CIVILIAN CONSERVATION CORPS, CANTON, OHIO
    Mr. Regula. Well, we will get started. Today we have a lot 
of witnesses; and I guess you all know the rules, 5 minutes. We 
have got a little blinker here that gives a warning. I hate to 
cut it short, but just remember, you won the lottery or you 
wouldn't be here at all.
    We get about 350 to 400 requests to testify. And we run a 
lottery with--what did we do about, Francine--about 140. We 
take statements from everybody, but obviously we just don't 
have the time to do 400. I think it indicates a high degree of 
interest in the activities of this Committee.
    I told the Members when we started--I said, the Bible says 
there are two great commandments. The first is love the Lord, 
and the second is love your neighbor; and you are all our 
neighbors. Because we do a lot of things that touch the lives 
of a lot of people, probably almost all Americans, because we 
do all of the education funding, and we do the health research, 
the National Institutes of Health, the Center for Disease 
Control, we do the Labor Department. It is broad, broad 
jurisdiction. And that is why we have so many requests.
    That is okay because that is democracy. People have an 
opportunity to be heard. And we are as sensitive as possible to 
all of the needs of a lot of people. Even though we have a big 
budget, we have to stretch it to make it fit. But we do the 
best we can. So we will get started.
    Mr. T.W. Hudson, accompanied by Yolanda Fink, Ohio 
Department of Natural Resources--I know where that is--and the 
Ohio Civilian Conservation Corps, National Youth Employment. 
Welcome.
    Yolanda was down in my office. She is going to go back home 
and tell everybody to join that Civilian Conservation Corps. 
Okay.
    Mr. Hudson. Mr. Chairman, members of the Subcommittee, 
thank you for the opportunity to testify today. I am here on 
behalf of the National Youth Employment Coalition, and I will 
focus my remarks on the Youth Opportunity Grant. However, I am 
equally concerned about the funding cuts for youth dislocated 
workers and adults.
    And I would like to ask please if our remarks could be 
included as a part of the record.
    Mr. Regula. I appreciate your summarizing. Try to summarize 
because 5 minutes is not long. I like a minute or so if 
possible for questions for myself or other Members that come. 
And your entire statement will be in the record.
    Mr. Hudson. Thank you.
    I am the Executive Director of Houston Works USA, a 
community-based organization. Over the past 18 years, we have 
served over 100,000 youth. We have been the recipient of a 
Youth Opportunity Grant which targets 7,500 young people in 
Houston's most impoverished areas.
    A study conducted recently by Northeastern University found 
that over 1 million young people in the United States between 
the ages of 16 and 24 lost their jobs this past year. This 
accounted for 53 percent of the total U.S. jobs lost, five 
times the comparable rate for the adult population.
    The Youth Opportunity program, YO, targets youth in high 
poverty areas who are left behind by the traditional 
educational system. It emphasizes prevocational skills, 
provides academic remediations, encourages postsecondary 
education, but with successful employment as its ultimate goal. 
YO is a distillation of the best practices of youth programs.
    It differs from the mainstream program of employment 
training in two major ways. First, it concentrates funding in 
high poverty areas through a holistic service delivery system. 
And second it is open to all youth who live in disadvantaged 
communities. YO provides a forum for youth services, so we 
avoid redundancy and we have full collaboration.
    The cost for a YO participant is significantly under 
$10,000. Now, that is as opposed to $26 to $30,000 for a Job 
Corps youth and $35,000 for a young person who would be 
incarcerated. The YO program is the heart of our efforts to 
build a comprehensive youth development system.
    Using the YO dollars we have established four youth career 
centers, four satellite centers in the high schools, which 
really constitute the beginning of a self-sustaining community-
based program, and we have integrated that with the WIA One-
Stop System. A comprehensive accountability system is being 
implemented so that we can continue good, sound program 
management.
    And, Mr. Chairman, the program is making a difference. In 
Houston we have seen a 15 percent decrease in unemployment 
among our youth.
    Mr. Regula. How about crime?
    Mr. Hudson. Crime we have also made progress with. We have 
juvenile justice grants with which we have integrated. They are 
completing high school, they are moving on to college, they are 
beginning successful careers. And kind of a byproduct, the 
parents become encouraged by the advancements of the youth, and 
they go on and do things.
    Your investment is giving us an early success. It is in the 
best interest of all to restore the fiscal year 2003 funding 
levels for the Youth Opportunity Grant program and encourage 
the Department of Labor to expand this program to other needy 
areas.
    Our programs were recently visited by your colleague, 
Representative Tom DeLay, and I would encourage any member of 
your staff or yourself to visit these YO sites so you can see 
the difference that you make and can make for our young people 
by continuing this investment in the future.
    [The prepared statement of Mr. Hudson follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Hudson. And now, Mr. Chairman, it is my honor to 
present Ms. Yolanda Fink, who is a member of the Ohio 
Conservation Corps.
    Mr. Regula. It was good fortune that you found someone in 
Canton, Ohio.
    Mr. Hudson. Yes, sir.
    Mr. Regula. Okay, Yolanda.
    Ms. Fink. Hi. I would like for you guys to bear with me. I 
have a learning disability, my reading. So here I go.
    Chairman Regula, Ranking Member Obey, and members of the 
Subcommittee. My name is Yolanda Fink and I am honored to 
travel to Washington----
    Mr. Regula. Take your time, Yolanda. We have got plenty. We 
will give you a couple of extra minutes.
    Ms. Fink [continuing]. From Chairman Regula's district, to 
speak as someone who has benefited from the federally funded 
work force development program.
    I want to let the Subcommittee know that participating in 
the Ohio CCC has given me and the Corps members I am here to 
represent--many who entered the Corps as high school dropouts, 
ex-offenders--hope, self-esteem, and the desire to help others 
who are less fortunate.
    With the support from the Corps family, I have progressed 
educationally and gained marketable job skills.
    I came to the Corps with an unemployed husband who is the 
father of a 2-year-old from another relationship. We have a new 
baby. We came to the Corps with no future. With help from the 
Corps family and the Canton community, my family recently moved 
into a Habitat for Humanity home. I am now a better student, 
worker, decision-maker and leader thanks to the Corps.
    I understand that helping others is important. I paint and 
fix up houses for the elderly in Canton.
    Best of all for me, I have gained confidence and life 
management skills to enter college. I realize that a degree is 
essential. When I leave the Corps, I will have $4,725 for 
scholarship from AmeriCorps. My goal is to teach special 
education.
    Chairman Regula, I understand that the Subcommittee is 
considering reducing training for youth and young adults.
    Mr. Regula. We are not considering it. Somebody gave you 
bad information, especially after you have been here today.
    Ms. Fink. Thank you.
    I feel that it is very important to all of us because it 
means a lot to me, as well as my Corps that is here. They have 
helped me a great deal with my reading, and college; and the 
Corps is just a big family and we are together.
    Everyone in the Nation will, like, benefit from us if they 
can contribute a small amount to help us. It is an opportunity 
to learn and grow for the young people today, for this program 
to stay alive, because we need it. It is a lot of kids out 
there, as well as young adults, that need the help that they 
are providing for us. And I would love for you guys to keep it 
for all of us. Thank you.
    Mr. Regula. Okay, Yolanda. I have got a deal for you.
    We will keep it alive if you tell your friends that they 
should join, and that they should get their GEDs. Will you do 
that?
    Ms. Fink. Yes, they are. We keep pushing it.
    Mr. Regula. You can be persuasive because you have been 
there and you can make a difference in a lot of lives. So that 
is our bargain. Okay. We will do our part. Thanks for coming.
    Mr. Hudson. Thank you.
    [The prepared statement of Ms. Fink follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                              Tuesday, May 7, 2002.

                     NATIONAL JOB CORPS ASSOCIATION


                               WITNESSES

TARA THOMAS, DIRECTOR, HUMAN RESOURCES, HCR MANOR CARE, SOUTH OGDEN, 
    UTAH
MAX McWASHINGTON, CERTIFIED NURSING ASSISTANT, HCR MANOR CARE
    Mr. Regula. Tara Thomas, Director of Human Resources, 
accompanied by Max McWashington, National Job Corps 
Association.
    Ms. Thomas. Mr. Chairman and members of the Committee, 
thanks for the opportunity to talk about HCR Manor Care's 
rewarding partnership with Job Corps. My name is Tara Thomas, 
and I am the Human Resources Director with HCR Manor Care in 
South Ogden, Utah. HCR Manor Care is the leading owner and 
operator of long-term care centers in the United States. We 
have nursing centers in 31 States and employ 59,000 people.
    Our company and our industry are benefiting significantly 
from Job Corps. I am sure all of you are familiar with the 
severe shortage of health care professionals, particularly 
registered and licensed practical nurses and certified nursing 
assistants. I understand that Congressman Miller represents the 
district in the U.S. with the highest number of senior 
citizens, and is particularly concerned about this shortage.
    I am here today to testify not only about our country's 
nursing shortage, but about how we have found the solution to 
identify, train, and hire qualified health care professionals. 
And that solution is Job Corps.
    Nursing centers have been particularly hard hit by the 
shortage of qualified personnel, and this comes at a time when 
the public is extremely concerned about increasing the amount 
of time caregivers spend with our patients. As a human 
resources professional, I have the difficult task of choosing 
qualified employees to care for our elderly population. Due to 
the shortage of qualified or trained applicants in health care 
today, I am profoundly grateful for the Job Corps program 
providing a source of highly competent workers.
    Job Corps is helping us to find and train the employees we 
need to provide the care deserved by our patients and our 
residents. It is helping us to hire highly qualified employees 
who are motivated to succeed and make long-term commitments to 
the health care field.
    We want to hire employees who care, who truly care, and we 
are finding that our Job Corps hires have made this type of 
commitment. Our South Ogden, Utah, facility has benefited 
tremendously from this partnership. Since 2000 we have hired, 
trained and placed over 50 qualified Job Corps graduates in 
jobs that were difficult to fill with qualified candidates. We 
have found that Job Corps students are dedicated, loving, and 
highly competent employees.
    Job Corps has truly been a blessing for our staff, for our 
residents and for our community. Job Corps is win-win for all 
involved. The young men and women who are graduates of the Job 
Corps program are being given a wonderful opportunity to rise 
above obstacles placed in their way and become productive 
citizens and key members of the U.S. economy.
    The young man testifying before you today is an example of 
how employees benefit from Job Corps. Max McWashington has been 
a source of inspiration for our employees and our residents. He 
is highly skilled, a leader among his peers and valued by his 
coworkers. One of our residents was so impressed with Max's 
care and concern for her that she nominated him for our highest 
award, our Champion of Caring Award. Due to her glowing account 
of the care she was given by Max, he was the recipient of our 
highest honor, he was voted the Champion of Caring for November 
of 2001.
    I think it is clear that the American public favors 
programs that offer a helping hand instead of a handout. And 
the Job Corps is offering one big and beneficial helping hand 
to make that handout unnecessary. Job Corps is invaluable to 
our industry as well as many others. We truly benefit from this 
partnership.
    We are in the business of helping others. And Job Corps has 
been crucial to our success. Thank you.
    Mr. Regula. Thank you.
    [The prepared statement of Ms. Thomas follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Max, would you like to say something?
    Mr. McWashington. My name is Maximilian McWashington. I am 
pleased to be here and be able to thank you for your support of 
the Job Corps program.
    I am a 19-year-old certified nursing assistant at HCR Manor 
Care Center in South Ogden, Utah. My seven brothers and sisters 
and I were raised by my mother after my father left us when I 
was 3. My mother died when I was 14, and I was sent to my 
grandmother's house with three of my siblings.
    My grandmother played an important part in my life. She 
raised me to go to church and follow the rules. But even with 
this help, by the time I got to high school I began to drift. I 
started to skip school, finally began to fail my classes. Me 
and my friends only went to classes when we wanted to.
    I hadn't been in any serious trouble, but I was hanging out 
with people who were getting in deeper with drugs and other 
illegal activities. It was probably only a matter of time 
before I would be in deep myself. You see, I was raised in a 
good God-fearing family, but you have the streets. You have to 
live the life of the streets.
    People had asked me, why don't you find some new friends. 
The reality of the situation is that I had to choose from 
friends who were stealing cars and doing drugs or friends who 
had guns and killed people.
    Mr. Regula. That wasn't a very good choice, was it? But you 
made a better one.
    Mr. McWashington. Yeah.
    Okay, through a friend I heard about Job Corps. In the 22 
months I spent in the Job Corps program, I completed my high 
school education and got two trades, welding and health 
occupations.
    I am not going to kid you. The program was tough and my 
instructors had high standards, and many times I thought about 
giving up and quitting. It would have been a lot easier to 
quit, though my choices were Job Corps or the streets. I chose 
Job Corps.
    I love being a certified nursing assistant. And I work with 
the elderly population. My coworkers recently recognized me as 
a Champion of Caring. She recently told you guys about that.
    Entering the Job Corps program was the turning point in my 
life. I am not sure where I would be today if the Job Corps had 
not been there, but I know I would be much worse off. It is sad 
to say, but I know if I would have stayed in Oakland, I may not 
have been killed but I may have been incarcerated by now.
    Today, I have a future and my future includes helping 
people like I have been helped. The good thing is, I am not 
unique. I have met many people in the Job Corps program that 
have also been helped and got a good start, you know, on a 
professional career; and the Job Corps is making a tremendous 
difference.
    I am enrolling in community college in the fall. I am still 
uncertain of what I would like to be or what I would like to do 
with the rest of my life. But I have confidence that I will 
succeed in whatever life has to offer me, and Job Corps has had 
the biggest impact on my life and my future. Thank you.
    Mr. Regula. Max, I will make you the same proposition. Tell 
your friends. You can have a really important influence on some 
of your peers, because you have made it and you can persuade 
them that that is the way to go.
    And you will have done them a great favor. Thank you for 
coming. Unfortunately we have to move on.
    [The prepared statement of Mr. McWashington follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                              Tuesday, May 7, 2002.

                  BIG BROTHERS BIG SISTERS OF AMERICA


                                WITNESS

AUDREY S. KEIRNS, IMMEDIATE PAST CHAIR, REGIONAL OFFICERS, BIG BROTHERS 
    BIG SISTERS OF AMERICA
    Mr. Regula. Okay. Audrey Keirns, Immediate Past Chair, Big 
Brothers Big Sisters of America.
    Ms. Keirns. Good afternoon, Chairman Regula. It is truly a 
privilege to appear this afternoon on behalf of Big Brothers 
Big Sisters in support of fiscal year 2003 funding for 
mentoring. As a 22-year veteran of a local Northwest Ohio Big 
Brother Big Sister agency, and an 18-year veteran of the 
national board, I have seen firsthand the difference that 
mentoring makes in the lives of children.
    We have 500 local affiliates throughout the Nation, at 
least one in every State, and Ohio has more agencies than any 
other State. Big Brother Big Sister programs have paired 
volunteers with children for nearly 100 years. The purpose of 
the relationship is simple: to make a significant difference in 
the lives and positive development of children at risk.
    Our professionally supported relationships which numbered 
over----
    Mr. Regula. I am sold. I have two in my district.
    Ms. Keirns. Good. Ohio has more than any other State.
    Mr. Regula. A few years ago we had the national young lady 
who was chosen as number 1 for the whole country.
    Ms. Keirns. Right, the Big Sister of the year. I remember 
that. I was on the national board.
    Mr. Regula. I know the program. In fact, I have helped give 
them some financial help. They have an auction every year that 
I participate in.
    Okay, go ahead.
    Ms. Keirns. We greatly appreciate that.
    Mr. Regula. You are way ahead of the game now. You 
understand?
    Ms. Keirns. I appreciate that, too.
    We had over 200,000 relationships last year for making a 
potential difference in the lives of boys and girls as they 
become competent and caring men and women. We offer positive, 
broad-based programs that focus less on specific problems after 
they occur and more on meeting childrens' basic development 
needs.
    We also have proof positive in a recent Public/Private 
Ventures Study that we have made a difference in terms of 
reducing violence, reducing the need to use alcohol and drugs, 
performing better in schools, and things like that. So we have 
proof positive. We are one of the first agencies that can claim 
that.
    Several years ago we launched a school-based program to 
compliment our traditional community-based approach to 
mentoring. We have found it attracts significantly more 
volunteers and is even more cost-effective. One of the reasons 
volunteers like it, it is in a more structured environment; 
they know what they are doing.
    A lot of times our volunteers say, what do I do, after they 
are matched. So the school-based program really helps that. It 
also helps us to meet each child's individual education goals, 
that the teachers refer. We thank the Subcommittee for the 
support Congress has provided in the past and we hope to see an 
expansion of the school-based program.
    We are eager to work with more children in the future and 
have made a commitment to serve 1 million children by the year 
2010.
    As a result, Big Brothers Big Sisters is pleased that the 
Mentoring for Success Act included a strong mentoring 
component. Our per unit cost for matches is $500. At the 
$17,500,000 provided last year, we could serve 35,000 more 
children. For the $50 million that is being requested for 
fiscal year 2003, we could serve an additional 100,000 
children. On behalf of Big Brothers Big Sisters, I respectfully 
request that the Subcommittee consider the benefits that $50 
million would yield.
    We also fully support the President's fiscal year 2003 
budget request of $25 million for the ``Mentoring Children of 
Prisoners'' program. This is a brand-new program. It is a pilot 
program in Philadelphia, the Amachi program that has been very 
successful; and we certainly would appreciate the authorization 
for the full $67 million for that program.
    [The prepared statement of Ms. Keirns follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Well, we are going to do the best we can with 
all of these programs.
    Ms. Keirns. I understand. There are a lot of worthwhile 
programs.
    Mr. Regula. That is it. We will try to make the best 
judgments we can. And the real key, I am sure you use a lot of 
volunteers; that is an important component of all of those 
programs.
    Ms. Keirns. We have one volunteer for every child that we 
serve. So that is 220,000 volunteers now.
    Mr. Regula. Thank you for coming.
    Ms. Keirns. It is truly an honor to appear. And thank you 
for your consideration.
                              ----------                              

                                              Tuesday, May 7, 2002.

                      FIGHT CRIME: INVEST IN KIDS


                                WITNESS

MARTIN FRANTZ, PROSECUTING ATTORNEY, WAYNE COUNTY, OHIO, ACCOMPANIED BY 
    MIRIAM ROLLIN, DIRECTOR OF FEDERAL POLICY, FIGHT CRIME: INVEST IN 
    KIDS
    Mr. Regula. Our next witness is Martin Frantz from the 16th 
District of Ohio. He is the prosecuting attorney of Wayne 
County, Ohio. He is going to talk about investing in kids.
    That is a better investment than in jails, isn't it?
    Mr. Frantz. Yes, it is, Mr. Chairman.
    Thank you for the opportunity to testify about the impact 
of the decisions that you and your Committee will make on 
fiscal year 2003 appropriations. My name is Martin Frantz, and 
I have spent the past 23 years as prosecutor in Wayne County, 
Ohio. And I am joined at the table by Miriam Rollin, the 
Director of Federal Policy for Fight Crime: Invest in Kids.
    I am here today on behalf of more than 1,600 police chiefs, 
sheriffs, prosecutors and victims of violence who have joined 
together to create this organization, Fight Crime: Invest in 
Kids. Our mission: to take a hard-nosed look at the research 
that shows what really works to keep kids from becoming 
criminals.
    First of all, we believe there is no substitute for tough 
law enforcement. But those of us on the front lines also know 
that we will never be able to arrest and prosecute and imprison 
our way out of the problem of crime. And once a crime has been 
committed, we can't undo the agony felt by the victim nor can 
we repair the victim's shattered life.
    We can save lives, we can save hardship and we can save 
money by investing in programs that give kids the right start 
in life.
    Quality programs that provide early childhood education are 
proven to dramatically reduce the chance that at-risk children 
will grow up to become criminals. You see, when our fight 
against crime starts in the high chair, it won't end in the 
electric chair.
    Sadly, programs that help parents send their children to 
quality educational child care programs are underfunded. Head 
Start, Early Head Start and the Child Care and Development 
Block Grant program can serve only a fraction of those 
eligible; and many of the parents who don't receive child care 
assistance from programs like these are forced to make do with 
child care which no member of this committee would want for 
their child or grandchild.
    Increases of $1 billion for Head Start and $1 billion for 
the Child Care and Development Block Grant are necessary so 
that we can send more kids to school ready to learn.
    Of course, the opportunity to prevent crime doesn't end 
when kids start school. The prime time for violent juvenile 
crime is in the after-school hours from 3 to 6 p.m. These are 
also the peak hours for kids to smoke, drink, use drugs and 
have sex. And, not surprisingly, quality after-school programs 
are proven to reduce crime, both now and down the road.
    The 21st Century Community Learning Centers program helps 
communities establish and run after-school activities. This 
subcommittee has approved important increases for this program 
over the past several years, but thousands of applications are 
still turned down because of a lack of funding.
    More than 10 million children and teens lack adult 
supervision after school. Increased funding for the 21st 
Century after-school program to its authorized level of $1.5 
billion would help close this gap.
    Our choice is simple. We can either send our children to 
after-school programs that will teach them good values and 
skills, or we can entrust them to the after-school teachings of 
someone like Jerry Springer, violent video games, or worse yet, 
the streets.
    Because my time is limited, please refer to my written 
testimony where I have discussed the crucial need for 
investments in programs like the Social Services Block Grant 
and the Promoting Safe and Stable Families program. These 
programs fund activities which are proven to prevent child 
abuse and neglect. Unfortunately, child abuse and neglect 
increase the chances a child will grow up to become a criminal.
    I am reminded of Rebecca, who in 1988, at the age of 11, 
was sexually molested by a drunken family friend who had been 
left to care for her. This year, Rebecca will begin serving her 
third sentence in an Ohio prison, leaving behind a child of her 
own. We cannot let this cycle go on for another generation.
    I have also discussed in my written testimony an important 
new school dropout prevention program that will keep kids in 
the classroom, off the streets and out of trouble.
    Law enforcement understands that the type of investments I 
have described today really do make a difference. The National 
Sheriff's Association, the Major Cities Chiefs, the Fraternal 
Order of Police and the National District Attorneys Association 
have all passed resolutions supporting investments in quality 
child care, after-school activities and child abuse prevention 
programs.
    Polls of individual police chiefs and other law enforcement 
officials also demonstrate widespread support for these 
programs. Every day that we fail to invest adequately in 
quality early childhood education and care, after-school 
activities, and programs that prevent child abuse and neglect, 
we increase the risk that you or someone you love will fall 
victim to violence.
    I am here to ask you to pay attention to this plea from the 
people on the front lines. Invest in America's most vulnerable 
kids now so they won't become America's most wanted adults 
later.
    Thank you for this opportunity. I would be happy to answer 
any questions.
    Mr. Regula. Well, thank you. I assume that having a high 
school like you do have in Worcester, helps a great deal in 
after-school programs.
    Mr. Frantz. Thank you very much. Thank you.
    Mr. Regula. It is a challenging problem.
    [The prepared statement of Mr. Frantz follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                              Tuesday, May 7, 2002.

                   INTERNATIONAL READING ASSOCIATION


                                WITNESS

LESLEY MORROW, PH.D., PRESIDENT-ELECT, INTERNATIONAL READING 
    ASSOCIATION
    Mr. Regula. Dr. Lesley Morrow, President-Elect of the 
International Reading Association.
    Dr. Morrow. Thank you, Chairman Regula and members of the 
subcommittee. I am Lesley Morrow, and I am President-Elect of 
the International Reading Association and a professor of early 
childhood and early literacy and Chair of the Department of 
Learning and Teaching of Rutgers University, in New Brunswick, 
New Jersey.
    The International Reading Association is a professional 
association dedicated to improving reading and literacy 
education in this country and around the world. We are an 
organization of 80,000 members in 99 countries. I am here today 
to talk with you about the importance of Reading First and 
Early Reading First. The International Reading Association 
supports these programs and believes that in our Nation 
significant numbers of children do not have equal access to 
appropriate quality reading instruction.
    Reading First and Early Reading First can make a 
significant difference for our Nation's young children by 
providing school districts with funds needed to offer quality 
reading instruction. Reading First provides funds to the States 
to support local school districts and their professional 
development activities around the findings of the National 
Reading Panel. The panel was appointed by Congress to determine 
predictors of reading success based on existing research; and 
the panel found five practices that increase reading 
performance. They are phonemic awareness, phonics, vocabulary 
development, fluency and comprehension.
    It is crucial that the findings of the report be carefully 
implemented. An effective program includes all of the elements, 
and all of the elements share importance. The panel also found 
that programs are most successful with teachers who are well 
trained in the teaching of literacy.
    Many believe that reading instruction requires a technical 
manual and that, if given the manual, a well-meaning person 
could teach reading. That doesn't work. The Program for 
Improvement of Student Achievement, PISA, completed a study of 
32 nations' schools and found that the most critical element 
was effective reading programs with effective teachers.
    Reading First and Early Reading First provide funds for 
professional development in literacy instruction that is 
ongoing. This is crucial to reading success. It is particularly 
important in Early Reading First, which deals with preschool 
teachers who often don't hold a teaching certification. IRA is 
interested in helping with the professional development and 
hopes that the Department of Education will call on us.
    There is a concern of the International Reading Association 
and others that to receive funding for Reading First, we will 
have to purchase a commercial instructional product from a 
limited list. It would be helpful if the Department of 
Education would issue guidance for the selection of programs 
and for the development of districts' own research-based 
programs. Different programs have different strengths and 
weaknesses. The critical element is the proper match between 
programs and schools and effective implementation by quality 
teachers.
    Reading First is at the $900 million funding level. Even if 
all the funds are spent effectively, we will fall short of our 
goals. In our Nation's urban centers, reading programs not only 
lack the professional development funds only beginning to be 
addressed by this initiative, they also lack funds for books.
    Reading, like any other skill, benefits from extensive 
practice, and if children don't have access to books, they will 
not have the opportunity to practice. In addition, 50 percent 
of the children in high-poverty, low-performing schools 
targeted by Reading First will not be receiving instruction in 
languages spoken in their homes. Those children need teachers 
who know how to meet the learning needs of those students.
    Early Reading First is also a critically needed program. Of 
the over 12 million children between the ages of 3 to 5 in the 
U.S., 20 percent, or 2,400,000, live in poverty. Some of these 
students enter school with little or no exposure to books or 
knowledge about the alphabet or print. This puts them at a 
disadvantage when compared to the children who come from homes 
full of books with parents who read to them.
    Mr. Chairman, we know that you are making many decisions 
about which disease to research, which education programs to 
support, and that you don't have the resources for all of them. 
Thank you for doing this public service. Please understand that 
our desire to seek expansion of funding for Reading First and 
Early Reading First is fueled by our belief that children can 
come to read better in school and, as a result, can contribute 
more to their communities, their families, and their society 
over their lifetime.
    Literacy helps to eliminate poverty and disease. A literate 
society is a productive society. In funding this program, you 
are not only funding the educational needs, but the health 
needs of our Nation.
    I want to thank you very much for the opportunity to 
present, and I would also like to say that as I listened to the 
four other presenters, I believe that Reading First would have 
helped them if they had had such a program to begin with. Thank 
you very much.
    Mr. Regula. Thank you. You have a good friend in the White 
House in terms of this program.
    Dr. Morrow. Yes, I know. It is very important.
    [The prepared statement of Dr. Morrow follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                              Tuesday, May 7, 2002.

                    NATIONAL COUNCIL OF MATHEMATICS


                                WITNESS

JAMES M. RUBILLO, EXECUTIVE DIRECTOR, NATIONAL COUNCIL OF MATHEMATICS
    Mr. Regula. Mr. James Rubillo, Director of National Council 
of Mathematics.
    Mr. Rubillo. Thank you for the opportunity to appear before 
the Subcommittee. My name is James Rubillo, and though I am now 
the Executive Director of the National Council of Mathematics, 
I came to this position last year with more than 35 years of 
mathematics teaching experience; and I consider myself, first 
and foremost, a teacher.
    What we are asking for today--and I say ``we'' because a 
coalition of business and education groups endorses this 
request in a statement that we have included in the testimony--
is that Congress invest in math and science education. The 
Math-Science Partnerships Program authorized at $450 million in 
the No Child Left Behind Act was appropriated at only 
$12,500,000 in fiscal year 2002.
    For many years, the funding for math and science was 
included in the Eisenhower Professional Development program, 
and we agree with and support the need for reforms in that 
program and hope the new Math-Science Partnerships program 
satisfies that need.
    However, the Eisenhower fund stated a Federal priority on 
math and science education that is now lacking. It is our 
understanding from an exchange between the Chairman and 
Representative Ehlers on the House floor on December 19, 2001, 
that it was the intent of the conferees that no less than $375 
million be expended on math and science professional 
development in the year 2002.
    Currently, though Title II was generously funded at $2.8 
billion, there is no requirement that any of this teacher-
quality money be spent on professional development. Now, given 
the deep cuts that States have made in their budgets, the need 
for hiring incentives to fill shortages in certain fields, the 
desire to cut class size and to meet other important priorities 
outlined in the legislation, it is unlikely that the States 
will match the focus on math and science of the previous law.
    If fully funded at $450 million for fiscal year 2003, the 
Math-Science Partnerships program would provide grants to local 
school districts to develop high-quality, ongoing professional 
training programs for teachers in collaboration with business 
and higher education. We must do more not less to prepare our 
teachers who teach mathematics and science before they enter 
the classrooms, and we must provide them with continual 
professional development after they have begun teaching.
    The current status is alarming. Most kindergarten through 
grade 6 teachers in the United States teach mathematics and 
science. But many of them have had, at most, a single course in 
math content and instructional methods in their teacher 
preparation program. As a result, they do not consider 
themselves mathematics teachers or science teachers, but rather 
teachers who have to teach math.
    That situation, of course, is the same in science. With 
this level of training, the knowledge of mathematics of many 
teachers is not solid, and they simply don't know ways of 
teaching the subject effectively to their students. So 
continued professional development is a necessity, and that 
requires funding beyond the State level.
    I would like to describe an example of the kind of long-
term professional development program that could be more widely 
implemented if the Math-Science Partnerships program were fully 
funded. Now, for 5 years, I presented a year-long program for 
teachers that began with 30 hours of professional development 
in a 2-week summer session. These sessions focused on 
integrating technology into the teaching of mathematics related 
directly to the curricula that the teachers would be teaching 
in the following year.
    Now, during that following academic year, we held five 3-
hour follow-up meetings for those summer institute attendees. 
Through the Sustain Program, these teachers grew close to each 
other, they shared their lessons, discussed what worked and 
what didn't work in the classroom. They learned from the 
program, from each other, and were better teachers as a result.
    We need to make a significant investment in math and 
science educators. Today's math and science teachers are 
preparing our next generation of scientists, engineers, 
explorers, inventors and workers as well as an informed 
citizenry. Reforming math and science teaching through the 
establishment of these new partnerships is not a complete 
solution, but it is certainly a start.
    Thank you.
    [The prepared statement of Mr. Rubillo follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Would you agree that a prerequisite to math and 
science is the ability to read?
    Mr. Rubillo. Absolutely. We support the initiatives in that 
regard.
    Mr. Regula. We have to start with the base, which is 
reading, and then build on what you are saying.
    Mr. Rubillo. But the key, as well, is to make sure that the 
teachers at those levels have a solid base in both their 
content and in methodology.
    Mr. Regula. That is what the CEO of a major dot.com company 
recently has said, who is very much in favor of this, because 
they are having difficulty getting engineers and employees--
well, thank you very much for your testimony.
    Mr. Rubillo. Thank you.
                              ----------                              

                                              Tuesday, May 7, 2002.

               ST. JOSEPH'S INDIAN SCHOOL OF SOUTH DAKOTA


                                WITNESS

BROTHER DAVID NAGEL, EXECUTIVE DIRECTOR, ST. JOSEPH'S INDIAN SCHOOL OF 
    SOUTH DAKOTA
    Mr. Regula. Our next witness will be introduced by our 
colleague, Mr. Thune.
    Mr. Thune. Thank you, Mr. Chairman.
    I appreciate very much the opportunity to introduce to you 
and to this committee a distinguished South Dakotan, Brother 
David Nagel. Brother Dave is the Executive Director of St. 
Joseph's Indian School in Chamberlain, South Dakota.
    Mr. Chairman, if you have never had the occasion to visit 
Chamberlain, it is a great place and consider yourself 
officially invited.
    Mr. Regula. How big is it?
    Mr. Thune. It is a couple of thousand people. But it is 
right on the Missouri River. It beats spending the night in the 
Chicago airport, which you and I have done together before.
    Mr. Regula. I agree with that.
    Mr. Thune. Since you have many other witnesses to hear from 
this afternoon, I would simply like to say that Brother Dave 
has been associated with St. Joseph's for more than 20 years. 
He was named Executive Director there in 1996. He and his team 
at St. Joseph's are transforming the lives of young Native 
Americans every day through its residential care program.
    Specifically, the school is addressing serious issues 
related to high rates of alcoholism, abuse, neglect and lack of 
education among Native American youth and their families.
    It is a program that has produced and is producing solid 
results. Unfortunately, the problem is widespread and more 
individuals need help. And, so, Mr. Chairman, I know that you 
and the Subcommittee will show Brother Dave and St. Joseph's 
Indian School, its request, every consideration; and I want to 
welcome Brother Dave to your panel.
    Thank you again for the opportunity to be here today.
    Mr. Regula. We welcome you. A couple of questions. Is this 
a grade or high school, or both?
    Brother Nagel. Grade school and high school. We have our 
own grade school, and our high school students attend the local 
high school in Chamberlain.
    Mr. Regula. In the public school?
    Brother Nagel. In the public school. It is residential 
care, first grade through high school.
    Mr. Regula. These students live there then?
    Brother Nagel. We have 18 homes with 12 children in a home 
with house parents.
    Mr. Regula. I was Chairman of the Committee that did the 
Bureau of Indian Affairs funding for many years. We also do it 
in here. So I have visited Indian schools. I know the 
challenges. They are many.
    Brother Nagel. I appreciate this opportunity.
    Since 1927, St. Joseph's Indian School has provided 
nationally recognized educational and supportive services to 
needy Lakota children from all of the various tribes in South 
Dakota. In fact, St. Joseph's is the only accredited 
residential care program exclusively serving Native American 
youth in the United States. We provide residential care, 
academic programs, counseling and psychological services, 
health care, recreational programs and college scholarships.
    St. Joseph's raises 90 percent of its funds from private 
sources. We have more than 500,000 active donors in all 50 
States. I am here today because there is an urgent need among 
Native American youth in the State of South Dakota.
    Please let me tell you a little bit about our students. I 
recall with pride a recent high school graduate who graduated 
from our program. This young man was the first member of his 
family to graduate from high school. St. Joseph's gave him the 
confidence and the tools that he needed to complete high school 
and to beat the odds. In South Dakota, 60 percent of freshman 
will not complete high school.
    Here are just a handful of statistics that would give you a 
better sense of our typical student. Native Americans suffer 
from a lack of education, unemployment, alcoholism, chronic and 
severe health problems, and dysfunctional family situations at 
alarmingly higher rates than the rest of population in the 
United States. The high school graduation rate for Sioux Indian 
population in South Dakota is only 23 percent.
    This poor educational statistic results from low 
expectations, instability in the home and family, and the poor 
socioeconomic status of reservations in South Dakota. Only 8 
percent of our students live with both of their biological 
parents. The average household income for students is $10,488, 
well below the national poverty level. An astonishing 63 
percent of St. Joseph's students have suffered from domestic 
abuse and violence. Most come from families that suffer from 
substance abuse.
    Obviously, these are high-need, at-risk children. It should 
not surprise anyone that St. Joseph's has discovered during our 
75 years of experience that providing services that deal with a 
multitude of health, mental and physical issues enables Native 
American youth to succeed academically, emotionally and 
economically.
    A moment ago I gave you some statistics that ought to 
concern all of us, but let me give you a few statistics that 
will give us all hope. The attendance rate at St. Joseph's 
Indian School last year was a wonderful 96 percent. Of the high 
school students in our high school program, 100 percent 
graduated. The majority of our students earned a B average or 
better, and St. Joseph's students that took the SAT exams last 
year scored well above the Native American average on both the 
math and the verbal portions of that test.
    I could go on with many other positive facts and figures, 
but I simply want to say that these numbers reflect a learning 
environment where students are given the tools to excel. And it 
works. Many of our school's alumni are now successful tribal 
leaders, business people, educators and ranchers in South 
Dakota.
    St. Joseph's objective now is to expand its supportive 
services so that we can provide additional critical programs to 
our students, their families and individuals from the 
surrounding reservations. Specifically, St. Joseph's plans to 
build a family counseling center, expand its staff and provide 
additional supportive programs. These services include 
individual and family counseling, drug and alcohol counseling, 
health care, parenting skills development, workshops addressing 
domestic violence and abuse and other follow-up services.
    Therefore, St. Joseph's is requesting a Federal investment 
of $650,000 from the Health Resources and Services 
Administration account. This Federal investment will accomplish 
exactly what these funds are intended to do, to open the door 
to health care services for those who are in need. On the 
reservations these individuals are often neglected, have little 
or no access to health care counseling and treatment, but 
through our programming, we can address this desperate 
situation.
    Mr. Chairman, members of the Subcommittee, on behalf of St. 
Joseph's Indian School, I greatly appreciate your thoughtful 
consideration of this request. Thank you.
    God bless you and guide your work. Thank you.
    [The prepared statement of Brother Nagel follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. God bless you. You are doing the work of the 
Lord there. What is your enrollment?
    Brother Nagel. We have 210 students in residence. And we 
serve about 20 to 25 students through college scholarships.
    Mr. Regula. You bring in students from a wide range and 
they go to high school.
    Does the local school district take responsibility for them 
in the high school programs since they are not residents?
    Brother Nagel. Funding follows them for the educational 
component from their home districts.
    Mr. Regula. So they can stay in that locale?
    Brother Nagel. Yes. And the school district is happy to 
take our students, because there is a need for more enrollment, 
and our numbers help fill their needs. So we have a mutual 
working relationship.
    Mr. Regula. It is not quite as densely populated as Ohio.
    Brother Nagel. There are probably a few less people.
    Mr. Regula. But we don't have any Indian reservations 
either.
    Brother Nagel. Well, we have seven in South Dakota.
    Mr. Regula. Thank you.
                              ----------                              

                                              Tuesday, May 7, 2002.

   AMERICAN ELECTRONIC ASSOCIATION AND THE MATH/SCIENCE PARTNERSHIP 
                             WORKING GROUP


                                WITNESS

RICHARD J. SCHAAR, PRESIDENT, EDUCATIONAL AND PRODUCTIVITY SOLUTIONS, 
    AND SENIOR VICE PRESIDENT, TEXAS INSTRUMENTS
    Mr. Regula. Our next witness is Richard Schaar, President, 
Educational and Productivity Solutions, and Senior Vice 
President of Texas Instruments.
    Thank you for coming.
    Mr. Schaar. Good afternoon, Mr. Chairman, and members of 
the Subcommittee. My name is Richard Schaar, Senior Vice 
President of Texas Instruments and President of TI's 
Educational and Productivity Solutions business.
    I am also chairman of the American Electronics 
Association's Human Resources and Workforce Committee, on whose 
behalf I am appearing to urge the Subcommittee to support full 
funding for the Math-Science Partnerships authorized under the 
Title II, Part B, of the No Child Left Behind Act of 2001.
    The partnerships established among local education 
agencies, colleges and other groups, including business, will 
support teacher training and professional development, 
curricula development, recruiting and distance learning all 
based on needs assessments in local school districts.
    Here are a few key points: one, the business community 
cares deeply about math and science education. We vigorously 
promoted passage of the No Child Left Behind Act last year. 
Increased investments in math and science education was one of 
our priorities.
    Although Congress authorized $450 million for the Math-
Science Partnerships program, it appropriated only $12,500,000. 
This represents a 97 percent decrease from the roughly $375 
million in dedicated Federal funding previously available for 
math and science at the Department of Education. It is far 
below the increased investment envisioned under the new law.
    Two, proficiency in math and science is critical to the 
Nation's economic growth, national security and technological 
leadership. In this technology-driven economy, there is no 
question that the Americans who can master math and science 
concepts will have more opportunities than those who cannot. 
Unskilled, entry-level jobs are increasingly a relic of the 
past. More than ever a college degree is necessary for greater 
job mobility, security and earning power.
    Three, we are not measuring up. Despite real world demands 
for math and science proficiency, results from the NAEP and 
TIMSS test demonstrate just how far we must go to prepare 
students in those core disciplines. For example, roughly three-
quarters of American students are not proficient in math and 
science in grades 4, 8 or 12; roughly a third do not possess 
basic-level skills.
    Four, poor preparation in those subjects has consequences. 
There is a declining number of math, science and engineering 
degrees awarded to students graduating from U.S. universities. 
Under-representation among women and minorities is particularly 
alarming. This has led many companies, including Texas 
Instruments, to meet hiring needs by recruiting foreign 
nationals for specialized engineering jobs.
    Five, there are no easy answers. Indeed, these trends are 
so disturbing that it prompted the National Commission on 
Mathematics and Science Teaching for the 21st Century, the 
Glenn Commission to recommend both significant funding 
increases and clear action steps to address the need. 
Activities authorized under the Math-Science Partnerships in No 
Child Left Behind include many of the best recommendations of 
that report.
    Six, the pressure is on. As you know, the No Child Left 
Behind Act requires that students be tested annually in math, 
beginning with the 2005-2006 school year, and periodically in 
science by 2007-2008.
    In addition, the bill requires that all teachers be highly 
qualified by the end of the 2006-2007 school year. The number 
of teachers teaching out of the field, especially in math and 
science, is a challenge across the country. The problem is 
particularly acute in high-poverty schools where students have 
less than a 50 percent chance of getting math or science 
teachers who hold a license or degree in the field being 
taught.
     Teacher quality is one of the most important determinants 
of student success. Funds provided under the Math-Science 
Partnerships program would help districts address these 
concerns.
    Seven, support for math and science excellence must be a 
national priority. Only the Federal Government can elevate it 
to that level. The Department of Education partnerships, if 
funded at a level over $100 million, would be formula-based and 
available to every State. They are specifically designed to 
focus on high-need school districts. They also require a needs 
assessment be done in every district to help ensure that the 
money be spent effectively on that community's particular 
shortfall. The business community urges to you provide full 
funding for this program.
    Thank you for allowing me to speak. I am happy to answer 
any questions that you might have.
    [The prepared statement of Mr. Schaar follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Well, as you heard me ask before. Is reading a 
key to the ability to understand math and science?
    Mr. Schaar. Certainly, you have to have reading skills. 
That has to be built up over time. But without the mathematics, 
existing in the society today will become ever more difficult 
for the citizens of the United States.
    Mr. Regula. Interesting.
    You said that you have to import people to fill your slots?
    Mr. Schaar. We do at that this point. That will continue 
unless we can change the paradigm.
    Mr. Regula. Aren't you a major chip manufacturer?
    Mr. Schaar. Yes, we are. If you have a cell phone, it is a 
digital phone, it probably has a TI chip inside.
    Mr. Regula. So when it fades out on me now and then I 
should----
    Mr. Schaar. When it fades out on you, you will have to talk 
to your local carrier.
    Mr. Regula. Good evasive answer.
    Mr. Schaar. Thank you.
    Mr. Regula. Thank you for coming. We have heard----people 
have come to see me about this, too, Intel for one. It is a 
real problem.
    Mr. Schaar. It is a significant problem.
    Mr. Regula. We have to get the reading, too.
    Mr. Schaar. It is, unfortunately, almost like bread and 
water. You have to have them both.
    Mr. Regula. Thank you.
                              ----------                              

                                              Tuesday, May 7, 2002.

                       JEFFREY MODELL FOUNDATION


                                WITNESS

VICKI MODELL, CO-FOUNDER AND VICE PRESIDENT, JEFFREY MODELL FOUNDATION
    Mr. Regula. Vicki Modell, Co-Founder and Vice President of 
the Jeffrey Modell Foundation. And for you Buckeyes, she did 
not own the Cleveland Browns.
    Ms. Modell. Well, good afternoon, Mr. Chairman and staff. 
Thank you for the opportunity to testify. It is without a doubt 
a singular honor for me as a private citizen to speak directly 
to the decision-makers of our government to share our thoughts, 
our hopes, our dreams, and our needs with you.
    Mr. Chairman, your support, and that of the Subcommittee 
for the past 5 years, and especially in this last year, has 
been something that has moved us in ways that I can hardly 
express.
    By way of background for those who don't know me, I am 
Vicki Modell, Vice President and Co-Founder of the Jeffrey 
Modell Foundation. The foundation was named for our son 
Jeffrey, who passed away at the age of 15 from a condition 
known as primary immunodeficiency.
    When my husband Fred and I began this journey 16 years ago, 
we never could have imagined where it would take us and the joy 
it would bring and the privilege, such as sitting here today. 
When we thought a few years ago that it might be a good idea to 
collaborate with the Child Health Institute and the Allergy and 
Infectious Disease Institute----
    Mr. Regula. This is in NIH?
    Ms. Modell. At NIH, in research, this committee said, ``Go 
do it.'' and you wrote strong report language to encourage our 
foundation and the Institutes to work together. The result was 
$5 million in important research that never would have 
occurred.
    When we recognized the importance of the estimated 500,000 
Americans who go undiagnosed, you again told us to go out and 
tackle the problem. Again, you wrote strong report language, 
and we involved the Child Health Institute the Allergy and 
Infectious Diseases Institute and the Cancer Institute, the 
American Red Cross and the pharmaceutical industry; and 
together, we have forged a physician education and public 
awareness campaign that has achieved a remarkable amount on--I 
might say, on a rather limited budget.
    And when we came to this committee and reported that 
African American and Hispanic children are chronically 
undiagnosed and were conspicuously missing from our patient 
population, you again wrote strong support language, and we 
received a $1.3 million grant from the NIH to reach minority 
and underserved children and young adults with chronic and 
recurring illnesses to detect if they have a possible 
underlying condition of immune deficiency.
    And when we came back to you last year and told you that 
for all we were doing, we could do only so much, but that we 
could do even more if you could appropriate funds and direct 
the CDC to work with us to create a companion program with a 
truly national impact, you responded once again. You told the 
CDC in your report to increase its involvement in the National 
Education and Awareness Campaign sponsored by the Jeffrey 
Modell Foundation. And then in the conference report you 
appropriated funds to the CDC to expand the physician education 
and public awareness program for primary immunodeficiency.
    We are humbled and grateful for this committee's confidence 
in our work.
    We know that the patients support what we are doing. We 
know that the thought leaders and the researchers and the 
scientists support what we are doing. And like you, they all 
recognize that taking on this campaign is right for us, for the 
Jeffrey Modell Foundation, because this is what we do; and we 
believe we have a unique expertise in this area.
    We hope that the CDC sees it the same way as this 
committee, Mr. Chairman. We are now told that there might be a 
program announcement in June, but then again perhaps there 
might not be. We are told that the funds would likely be 
available by September 30th. We know it is because they have to 
be. With only 4\1/2\ months left to the fiscal year, we are 
concerned that this public awareness and physician education is 
not moving quickly enough, because the longer we wait, children 
and young adults are going undiagnosed, becoming more ill and 
even dying.
    In the past years, I have told you about Dina LaVigna, a 
young woman who lived her entire life with a primary 
immunodeficiency that was undiagnosed. It scarred her lungs so 
badly, she required a lung transplant and, unfortunately, did 
not survive. She left a husband and a 2-year-old child.
    I have told you about Christopher Longo, a 3-year-old boy 
who was sick from the time he was 3 months old. His parents 
finally received the correct diagnosis after he had his final 
life-ending infection; and the specialist who treated him last 
said, had he been diagnosed earlier, he could have been 
treated, and he probably would have survived.
    Can you imagine the heartbreak?
    We have just one request of the Committee this year. Please 
continue the funding to CDC to implement those programs to work 
with us, to end the unnecessary suffering and despair.
    And, Mr. Chairman, I believe deeply that, in the end, it is 
not how many ideas you have, it is how many you make happen. 
And this committee makes those ideas happen. You certainly have 
for us and our patients. We remain grateful for your support 
and your confidence. And let's continue to make things 
together, and make things happen together in the future.
    Thank you very much.
    [The prepared statement of Ms. Modell follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Mr. Higgins, the head of the staff, is going to 
check on the CDC failure to use the funding.
    Ms. Modell. I hope so; I would encourage it. Thank you very 
much.
    Mr. Regula. This creates an immune deficiency and then 
other medical difficulties can invade the individual because 
you do not have a strong immune system?
    Ms. Modell. Exactly. You are open to all types of opportune 
infections, viruses, bacteria, and a person whose immune system 
is not functioning properly is unable to fight off these 
invaders.
    Mr. Regula. Do you think we are making progress?
    Ms. Modell. I think we are making great progress. There are 
better treatments and there are wonderful results in bone 
marrow transplants today, and gene therapy is truly very, very 
helpful. They actually have had the first successful gene 
therapy transplants in France on about eight patients who are 
primarily immunodeficient patients like ours, so it has been 
highly successful.
    Mr. Regula. Bless you and your work.
    Ms. Modell. Thank you very much.
    Mr. Regula. Mr. McMillan, we will hold you, even though you 
are next on the list, because Mr. Wicker is coming and he would 
like to introduce you. And he will preside over the balance of 
the day.
                              ----------                              

                                            Tuesday, April 7, 2002.

                   AMERICAN FOUNDATION FOR THE BLIND


                               WITNESSES

PAUL SCHROEDER, VICE PRESIDENT, GOVERNMENT RELATIONS, THE AMERICAN 
    FOUNDATION FOR THE BLIND, ACCOMPANIED BY TERESA BYRNE, PARENT, 
    DIRECTOR OF GIRL SCOUTS, GREAT TRAIL, 16TH CONGRESSIONAL DISTRICT
    Mr. Regula. Our next witness will be Paul Schroeder, Vice 
President, Governmental Relations, the American Foundation for 
the Blind; accompanied by Teresa Byrne, a parent, director of 
Girl Scouts, Great Trail, and also from the 16th District. So 
you get a plus.
    Mr. Schroeder. Who is left in Canton, Mr. Chairman?
    Mr. Regula. Well, the two most important ones today are 
here.
    Mr. Schroeder. My name is Paul Schroeder, with the American 
Foundation for the Blind, and I want to thank you for the 
opportunity to testify today. We first want to thank the 
Subcommittee and you, Mr. Chairman, for your ongoing support of 
the many disability programs that you do oversee. In 
particular, we want to thank you for the continued support for 
the Independent Living Services for Older Blind program. It is 
unique. It is the only program of its kind. It is a State-
Federal partnership and it provides a most important gap-
filling service. It provides the services that allow people who 
lose their vision as they get old to remain independent. There 
is no other service that helps individuals make that adjustment 
to sight loss.
    Mr. Regula. Do many of the blind take advantage, and does 
it work well for them to allow them to live independently?
    Mr. Schroeder. It works extremely well for those who are 
able to take advantage. Unfortunately, it serves about 1 
percent of the estimated eligible adult population. We hope it 
is the 1 percent that is most in need. But you may remember, 
last year we were accompanied by a lady who was able to speak 
to the independence that she was able to achieve in running her 
household and remaining independent and outside of an 
institution, because of some of the basic services that she 
received, allowing her to read, continue balancing her 
checkbook, and doing some of these mundane tasks that are so 
important but so hard to do with sight loss without proper 
skills and technology.
    Mr. Regula. I have heard there are not enough textbooks in 
schools, that they do not get them soon enough. Is that an 
accurate criticism?
    Mr. Schroeder. I know that is something that Mrs. Byrne 
will address, and we will turn over to the teacher preparation 
area because it is so important. The two biggest barriers 
facing blind children, unfortunately, are indeed access to 
textbooks in a timely fashion. It is so hard to get a book into 
the hands of a blind student in Braille or in a large print 
form they can read.
    The other barrier, of course, is having a teacher who can 
teach that student how to use Braille, or the special 
technology that someone who is blind like me would use to use a 
computer. It is not the same technology that you would have in 
your office, although I think you would like it. It requires a 
special training and it requires a specialist who has that 
training; and, unfortunately, what we have found as we have 
studied the problem across the country, far too often districts 
who would like to provide an adequate level of service to their 
blind students simply cannot because they do not have teachers 
who have those skills in Braille or have those skills in 
technology, or, for that matter, know how to teach a child how 
to get around independently with a white cane so that blind 
child can indeed thrive in the school setting.
    Why don't I let Theresa Byrne talk a little bit about her 
experience, because she has seen both sides of the story with 
her two children.
    Mrs. Byrne. Thank you, Mr. Chairman, for hearing me today 
on behalf my two students who are either having exams are just 
getting out of school today. My two children who are blind use 
Braille on a daily basis. They have received services both in 
Canton city schools when they were younger and in Plain 
Township schools, which is their home district.
    We have experienced teachers who have had some training to 
teach the blind when the children were young, and it did indeed 
provide a good foundation for their education. This service was 
not provided in their home school district. The solution for 
Plain local schools was to attempt to contract for teacher 
services who traveled to the district from as far as way as 90 
miles on an occasional basis, sometimes once every other week, 
sometimes as little as once a month. That was when they could 
find people who were not contracted to other districts and were 
able to travel and provide that support and service.
    Both of my children have needed teachers who knew and were 
trained to teach Braille and work with adapted computerized 
equipment, special equipment for the blind, and they also 
required travel training. Nick, who is at college at Stark 
State, completed the computer accounting vocational program at 
his high school and needed a special program software to turn 
text on the screen to a voice output. Our school had to locate 
teacher support from as far away as Columbus to get this 
accomplished. That meant every day if a problem arose, Nick did 
not have somebody readily available to solve a software program 
problem or reinforce a key element of how to work through 
traditional accounting software packages until he could maybe 
get home and reach someone else by phone.
    His classroom teacher was a wonderful, fabulous computer 
accounting vocational teacher, but not trained with what she 
needed to help him adapt for his needs.
    Another one of my children, Erin, is another Braille-using 
student. Her need for trained teachers was just as great, but 
her school focus has been slightly different. She is a high 
school student taking college prep classes and more. She needed 
training in both the Braille English literacy code and foreign 
language support, as she studies French, Spanish, and German. 
She also uses the technical code called the nimith code for 
math and science. And she also needs Braille books in a timely 
manner. Her sophomore year, she did not have any Braille 
textbooks until the third quarter of the year, and was 
surviving by bringing print materials home and having family 
members read it to her as they could fit it in.
    Trained personnel would have been helpful in both the 
Braille code teaching, but also in knowing where to find the 
who, what, when, where and how to access the resources that 
these students need. No parent should ever be in the position 
of having the sole responsibility to search and connect for 
resources for students. My kids are lucky because I have a lot 
of skills and a background advocating for populations of kids 
with special needs.
    No school should ever be in a position of providing a 
substandard education to any student because they cannot find 
trained personnel to teach blind and visually-impaired 
students. And no student should be left without a solid 
foundation, especially reading, in the Braille or large print 
format that will become the bridge to their successful future. 
Thank you.
    Mr. Regula. Do the Girl Scouts have a program for the 
blind?
    Mrs. Byrne. Absolutely. You can get your books in Braille 
if you need them.
    Mr. Regula. And you get the equivalent of an Eagle Scout?
    Mrs. Byrne. My daughter is soon finishing up the highest 
award in Girl Scouting, the Gold Award, and has been a Girl 
Scout for 13 years.
    Mr. Schroeder. Her daughter is putting the rest us to 
shame, I am afraid.
    Mr. Chairman, we thank you for the time and we do hope that 
the Committee can look favorably on the modest increase in the 
Independent Living Services for the Blind, and keep that going 
and keep the States allowed to provide those services, and also 
look favorably on personnel prep. As we fund IDEA and try to 
seek full funding for those services, we want to make sure that 
there are teachers who have the specialized knowledge in place, 
who can make sure that the students are able to take advantage 
of the education that IDEA affords them.
    Mr. Regula. Thank you for coming. It has been very helpful.
    [The prepared statement of Mr. Schroeder follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                              Tuesday, May 7, 2002.

                             MARCH OF DIMES


                                WITNESS

NANCY A. MYERS, MEMBER, EXECUTIVE COMMITTEE FOR THE STATE OF OHIO MARCH 
    OF DIMES CHAPTER
    Mr. Regula. I am going to skip over a little bit. Mr. 
Wicker is going to finish the day shortly, but I have one more 
witness from Ohio, Nancy Myers, the March of Dimes. You are out 
of Columbus?
    Ms. Myers. Cleveland. I live in Stow, not too far.
    Mr. Regula. That is great.
    Ms. Myers. Good afternoon Mr. Chairman. I am Nancy Myers. I 
am a volunteer member of the Executive Committee of the March 
of Dimes, Ohio Chapter. And as you know, the March of Dimes was 
founded in 1938 as a voluntary health agency by President 
Roosevelt to fight polio. Today, our 3 million foundation 
volunteers and 1,600 staff members work in every State, the 
District of Columbia, and Puerto Rico to improve the health of 
infants and children by preventing birth defects and infant 
mortality.
    The statistics on birth defects and developmental 
stabilities are disturbing and illustrate a serious health 
problem for our Nation today. I am here seeking additional 
funds for programs to improve the health and well-being of 
mothers, infants, and children through research and prevention 
of birth defects and developmental disabilities as well as 
improved access to care. I will highlight just a few areas 
where, by providing adequate funding, Congress can take some 
significant and affordable steps towards those ends. Additional 
details are provided in my written statement.
    The National Center on Birth Defects and Developmental 
Disabilities at the CDC began operation a year ago in its 
mission to prevent birth defects and developmental disabilities 
and to promote health and wellness among children and adults 
with disabilities. We urge this subcommittee to increase 
funding for this center to $115 million in 2003. A modest 
increase of $25 million will provide the resources to expand 
Center-supported research and prevention activities.
    The Center funds eight regional centers on birth defects 
research and prevention, where groundbreaking work on life-
threatening work is underway. After 5 years of collecting 
information, these centers are conducting studies to identify 
the causes of birth defects. Current work includes a focus on 
environmental causes of birth defects and genetic factors that 
make people susceptible to them. This is exciting and leading-
edge research that merits additional support, and we recommend 
an increase of $6 million for a total of $12 million to these 
centers.
    Currently, only three-quarters of our States monitor the 
incidence of birth defects. The National Center is working with 
States to increase this number and to improve data collection 
through 28 cooperative agreements. However, funds are not 
adequate to support all the States seeking assistance, 
including our own State of Ohio.
    We recommend adding $3,400,000 to CDC's State-based Birth 
Defects Surveillance program which currently receives 
$4,100,000. The Center also administers the Folic Acid 
Education Campaign for reducing number of babies born with 
neural tube defects. And while the Committee has noted the 
importance of this program in its past reports, it has not been 
explicit about the amount of funds it believes should be 
directed to this program. We recommend that at least $5 million 
be committed to expand this program in 2003.
    Finally, as I mentioned earlier, the March of Dimes was 
founded to find ways of fighting polio. The Foundation 
continues to advocate polio eradication worldwide and supports 
a funding level of $106,400,000 for CDC's 2003 global polio 
eradication activities. If approved, the additional $4 million 
would help cover the costs associated with a 33 percent 
increase in the cost of the polio vaccine.
    The Foundation wholeheartedly supports the 5-year effort to 
double-fund the National Institutes of Health, and we are 
especially interested in two areas within NIH. First, the 
mission of the NICHD is closely aligned with that of the March 
of Dimes, and we recommend an increase of 16 percent for NICHD 
to expand research in several areas crucial to the health of 
mothers and children.
    Next, we recommend increased funding for the National Human 
Genome Research Institute. The Human Genome Project has 
identified the sequence of DNA comprising human genes, but this 
is just the beginning. Additional funding would help expedite 
this important work.
    Finally, I want to focus your attention on two programs 
administered by the Health Resources and Services 
Administration that improve access to health care for mothers 
and children. We recommend funding the MCH block grant at the 
authorized level of $850 million to enable States to expand 
prenatal and infancy home visitation programs, a proven 
strategy that improves birth outcomes.
    Secondly, newborn screening for metabolic diseases and 
functional disorders is a great advance in preventive medicine. 
Such disorders if left untreated can cause death or serious 
lifelong problems. We propose an appropriation of $25 million 
to support HRSA's work with States to implement newborn 
screening programs.
    Thank you for allowing me to testify on the programs of 
highest priority to the March of Dimes.
    [The prepared statement of Ms. Myers follows:]

    Mr. Regula. Thank you. You might be interested, Nancy, that 
the gentleman who did the genome project will be in Canton 
Saturday morning.
    Ms. Myers. I saw that. Dr. Collins. And I have heard him 
speak before. He is wonderful. I am encouraging all of my 
colleagues to get there.
    Mr. Regula. I went to Mr. Obey's district last Saturday and 
we did a program with NIH, and now this Saturday he is coming 
to my district, and Dr. Collins will be a member of the panel.
    Ms. Myers. I hope to be able to attend as well.
    Mr. Regula. Saturday morning, Kent State.
                              ----------                              

                                              Tuesday, May 7, 2002.

        DEVELOPMENTAL DISABILITIES RESEARCH CENTERS ASSOCIATION


                                WITNESS

DR. MICHAEL FRIEDLANDER, DIRECTOR, DEVELOPMENTAL DISABILITIES RESEARCH 
    CENTERS ASSOCIATION
    Mr. Regula. Dr. Michael Friedlander, Developmental 
Disabilities Research Center Association.
    Dr. Friedlander. Thank you, Mr. Chairman. It is a pleasure 
to be here today--and members of the Committee. First of all, I 
would like to thank this committee very much for the ongoing 
support for funding biomedical research at the National 
Institutes of Health that many of us involved with 
developmental disabilities research depend on to make some of 
the breakthroughs that I am sure you have heard about in the 
last few years.
    By way of background, Mr. Chairman, I am serving as the 
Chair of the Association of Developmental Disabilities Research 
Centers, and I am also the Chairman of the Department of 
Neurobiology at the University of Alabama, Birmingham, School 
of Medicine. These centers were established by an act of 
Congress in 1963 and have grown to 21 such centers of which 14 
are currently funded through the NICHD as National Mental 
Retardation Research Centers.
    As you are probably aware, mental retardation and other 
developmental disorders have a tremendous impact on a number of 
children throughout the United States. Approximately a half 
million children are born each year with mental retardation or 
developmental disabilities or go on to develop them. Estimates 
of the fraction of the United States population that suffers 
from this range of disabilities range from 1 to 3 percent, 
representing several million citizens of the United States.
    By way of good news, we have had some tremendously exciting 
breakthroughs in the last couple of years, and I just want to 
highlight a couple that the Developmental Disabilities Research 
Centers have supported.
    You may have heard about fragile X syndrome. This 
particular inherited form of mental retardation accounts for 
the largest number of inheritable forms, about 4 percent. There 
have been tremendous breakthroughs in understanding the 
underlying genetic basis, the function of cells, what goes 
wrong in them, and development of animal models. So now we have 
begun much through Developmental Research Centers and the 
initiative on fragile X to look at the underlying mechanicians 
to target with therapeutic intervention.
    Another dramatic form of mental retardation and 
developmental disability is Rett's syndrome, the single largest 
genetic cause of mental retardation in girls in the United 
States. Recently at the Baylor College of Medicine 
Developmental Disabilities Research Center, an animal model has 
been developed where the gene has been discovered, and now 
clinical trials are about to begin to look at how this gene 
product can be interfered with to try to prevent the results of 
this devastating condition on girls within our country.
    Interestingly, like so much of what we are learning from 
the biomedical science revolution in molecular genetics, 
investigators have found that the gene involved with Rett's 
syndrome is also implicated in autism and a number of other 
behavioral disorders, including bipolar disorders. What we are 
learning is that many of these genes have an impact on the 
development of the brain that affect a number of disorders, not 
only in children but in adults. So the investment in this 
research pays off again and again at being able to get at a 
number of these disorders.
    You may have heard about some of the recently highlighted 
statistics with respect to autism in the United States. Indeed, 
Time Magazine last week had a cover story about the apparent 
increasing prevalence of autism within the United States. There 
is some argument exactly on what the statistics are and what 
the incidence is, depending on how it is diagnosed and 
categorized, but clearly this is a major problem that schools, 
educators, and physicians are having to deal with that is 
costing more and having a tremendous impact on children within 
our society.
    I am happy to say that through a lot of the work at 
Developmental Disabilities Research Centers that you support, 
we are beginning to get a handle on the underlying genetic 
basis and the underlying molecular biology that can cause this. 
Like so much of what you have heard before me today, many of 
these organizations have to deal with trying to help the 
children and families that suffer from the consequences of 
these devastating disorders. At the Developmental Disabilities 
Research Centers, what we try to do is find the cause, get to 
the heart of it, and try to eliminate them in the long run. In 
addition, what we have found at many of these centers is there 
are interventional therapies that have a tremendous effect. For 
example, at the University of Washington DDRC in Seattle, they 
have developed a new set of methods to allow diagnosis of 
autism at 1 year of age. This now allows rapid interventions 
and intensive behavioral therapies that can have a dramatic 
effect on these children's outcomes and for their whole 
family's life from that point on.
    The last example I will give you is something that I am 
very familiar with because it was developed at the center that 
I am affiliated with, the Civitan International Research Center 
in Birmingham, Alabama. It is a new type of therapy call the 
``constraint induced therapy'' in pediatric trials. This 
emanated from work on stroke, and that emanated from very basic 
molecular biology neuroscience research. What we learned is 
that the brain is capable throughout life of changing under 
intensive training regimes.
    This was applied to stroke patients, adults, many of whom 
have had symptoms for years and years with no improvement. What 
is done here is forcing the people to use the affected limb, 
the side of the brain that has been affected, in a very 
detailed and highly vigorous training regime, and tremendous 
recovery can occur over a period of weeks. Recently, this was 
used to see if an outcome can be effected in children with 
cerebral palsy, and the preliminary effects are quite 
remarkable.
    Indeed, the National Institutes of Health, through the 
NICHD, is about to launch funding on a trial to extend that 
work. And it is another example of where the multidisciplinary 
action of using molecular genetics, the human genome project, 
imaging, behavioral research, et cetera, are coming together to 
attack these problems that no single investigator would be able 
to do.
    In closing, I would like to thank you very much for the 
support over the last few years. I would like to encourage you 
to support the NIH budget doubling that we are on track for 
this fiscal year, and, in particular, to increase the funding 
along those lines for the National Institute of Child Health as 
well, and for these Disability Research Centers. They are a 
unique national resource and they represent a kind of research 
and interaction of investigators you simply cannot have within 
individual laboratories without bringing together all of this 
expertise with the necessary funding.
    Thank you very much for your time.
    [The prepared statement of Dr. Friedlander follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Wicker [presiding]. Thank you, Dr. Friedlander. Let me 
apologize for a little business up here while you were 
testifying. You began with Chairman Regula in the Chair, and 
now you have me, and I hope that wasn't too distracting.
    Also, the Chairman probably explained that many Members are 
traveling today and have other obligations, but our staffs are 
here, and this testimony is, of course, being transcribed, and 
your full testimony is also accepted. So do not feel from the 
absence of the Members or from the lack of attendance that your 
testimony or the testimony of any of our witnesses is less than 
very significant.
    Let me just ask you--I am going to get the cover story from 
Time Magazine about autism, because I know how devastating that 
can be--and you mentioned to schools, the education system, to 
families.
    Certainly if anybody has talked to a family that is faced 
with this, just the fact that you have to have somebody all the 
time, and there are folks that come in and give you a night or 
two off just to keep the family from having to be burdened 24 
hours a day, 7 days a week.
    Let me just ask you your opinion based on what you know 
about whether autism is indeed more prevalent nowadays, or if 
we simply notice it more, know about it more.
    Dr. Friedlander. This is certainly one of the key questions 
with a lot of diseases. As diagnostic techniques improve and as 
information is brought to the public consciousness, often we 
are able to flush out a lot of this information that we did not 
have access to.
    However, as you look through the best data that we can get 
our hands on over the last 30 years or so, there is a hint that 
this has been increasing. The estimates now are anywhere from 1 
in 500 or 1 in 300 to 1 in 2,000; whereas in the 1970s, the 
estimates would have put it almost on an order of magnitude 
below that.
    Again, one has to be very cautious, and to try to parse out 
exactly how much of that is due to better diagnosis and the 
classification, versus a real increase, is going to take much 
more intensive work. And indeed this is part of the type of 
research the center network can do. And there are a number of 
centers that are working on that right now.
    So I am afraid I am having to qualify that answer a bit in 
that we haven't been able to separate all of those components. 
But clearly the amount of costs to society, once this diagnosis 
is made, besides the individual impact on families that you 
mentioned, is tremendously increasing and society has to deal 
with that not only in emotional terms but financial terms as 
well.
    There is a tremendous effort out there amongst the DDRC 
community, both in the individual universities, the medical 
centers, and within the institutions of the center network to 
try to get at exactly those numbers and see how much it has 
increased, if indeed it is significantly increasing.
    It is our hope that with some of the research that I 
described that we can pinpoint some of the genetic causes and 
the predisposition factors. Right now it looks like there is a 
family of genes ranging anywhere from a few genes up to tens of 
genes that seems to predispose one for this particular type of 
syndrome. It is not going to be as simple, like some diseases 
where a single gene can be found to attribute the entire cause.
    Mr. Wicker. Is there any research on perhaps vaccinations, 
childhood vaccinations causing autism?
    Dr. Friedlander. Yes. You have hit on the other area that 
has certainly generated a lot of interest. There has been a 
suggestion that vaccinations lead to this. The data on that are 
not conclusive. There has been a lot of anecdotal evidence 
reporting that their children started to develop these symptoms 
soon after the time of these vaccinations. On the other hand, 
one has to be very careful with that, because that is about the 
same age that you are likely to see the symptoms develop 
anyway.
    So once again, what is really required is a systematic 
investigation to parse that out and try to separate that. I 
would say at the present time, we cannot definitely attribute 
the vaccination as the cause of autism.
    Mr. Wicker. What is the typical age of onset?
    Dr. Friedlander. Right now, within the current diagnostic 
techniques, around 2 to 3 years of age is when this is picked 
up. As I mentioned, one of the Developmental Disability Centers 
has come up with a new battery of tests, the University of 
Washington at Seattle, where they can start to pick this up as 
early as a year of age. So it is moving earlier, but again that 
probably reflects the better diagnostic techniques.
    Mr. Wicker. Well, thank you for your testimony and your 
work. Needless to say, I think the Subcommittee will be 
responsive to your request for overall funding for a wide array 
of research. Thank you very much.
                              ----------                              

                                              Tuesday, May 7, 2002.

            NATIONAL ORGANIZATION OF REHABILITATION PARTNERS


                               WITNESSES

H.S. ``BUTCH'' McMILLAN, EXECUTIVE DIRECTOR, MISSISSIPPI DEPARTMENT OF 
    REHABILITATION SERVICES, PRESIDENT, NATIONAL ORGANIZATION OF 
    REHABILITATION PARTNERS, ACCOMPANIED BY ELIZABETH SAMMONS, CLAIMS 
    REPRESENTATIVE, SOCIAL SECURITY ADMINISTRATION, FORMER CONSUMER/
    CLIENT, VOCATIONAL REHABILITATION SERVICES
    Mr. Wicker. Our next witnesses are H.R. ``Butch'' McMillan 
and Elizabeth Sammons. So if they will come forward.
    Butch McMillan is Executive Director of the Mississippi 
Department of Rehabilitation Services and is a former colleague 
of mine in the Mississippi State legislature. And it is 
wonderful to have him with us to introduce Ms. Sammons who, 
Chairman Regula wanted me to point out in the strongest of 
terms, is a constituent of his from Canton, Ohio. And he is 
mighty proud of all of her accomplishments, particularly the 
fact that she speaks about, I don't know, how many languages is 
it?
    Ms. Sammons. Enough to talk with several people in the 
world.
    Mr. Wicker. Way more than he and I could ever hope to 
speak, put together. We are delighted to have both of you, and 
I believe, Mr. McMillan, we recognize you first.
    Mr. McMillan. Thank you, Mr. Chairman.
    Mr. Wicker. Thank you for waiting for me.
    Mr. McMillan. Certainly. I do have to catch a plane 
shortly, so I may leave here after a while. We are going to 
double-team you here today, and I was hoping that Chairman 
Regula would have been able to stay, but I could tell that he 
had read with interest the testimony, as you pointed out.
    Thank you for inviting us here today. In addition to being 
Executive Director of the Mississippi Department of Rehab 
Services, I have the honor of serving as the first President of 
the National Organization of Rehabilitation Partners, or now 
called NORP. That acronym caught on quickly, and most people 
now that know that we exist are quickly picking up that 
acronym.
    We do have some other people that are with us today. We 
have John Connolly with the Ohio Rehab Services, my counterpart 
there; and Eric Parks, one of his commissioners. Walter 
Blalock, sitting over here, is on our State Independent Living 
Council, from Mississippi; and Sheila Browning from my staff is 
sitting back somewhere back there. Brian McLean from the New 
York agency, Brian is assistant commissioner there. They are 
some of our member States.
    Mr. Wicker. Welcome you all.
    Mr. McMillan. NORP is a newly created and rapidly expanding 
agency, representing State rehabilitation agencies, disability 
service providers, individuals with disabilities, and their 
families, and our mission is to promote employment and 
independence for people with disabilities. And I know you are 
well aware of that from our work in Mississippi and some of the 
conversations that we have had.
    But this task is much more complicated than it may sound. 
It takes a lot of resources, all sorts of resources on a daily 
basis, to reach our goals; and obviously one of our key 
resources is resources, and that is why I am before this 
Committee, and that is the Federal funding that is provided, 
which under the Rehab act, 78.7 percent--I think that is 
right--78.3 percent is provided from Federal funds.
    Our written statement outlines the details of our request 
and why we think those should be granted. And basically our 
request starts with the President's budget and builds from 
there, because obviously we felt like there were some 
additional funds that are always needed. But it is a major 
start in this Administration's budget, in that it puts in 
additional dollars above our CPI or what we call our COLA that 
that is under the Rehab Act. So that is significant, and we 
wanted to start from there. But we gave those details.
    What we wanted to do today was put a face on what we do, 
and that face is Ms. Elizabeth Schuster-Sammons, one of 
Chairman Regula's constituents. We would like Elizabeth to 
share her experience with us. Go ahead.
    Ms. Sammons. Hello, Chairman Wicker, and hello to all of 
you. Thank you for being here. I have a story to tell you, and 
I feel honored that you have invited me to share it. When I was 
a little girl, I think the only thing bigger than my 
imagination was my curiosity about the world that I couldn't 
see, so I decided to study languages and journalism. After 
that, I took a job in 1990 with the U.S. Information Agency in 
Russia, and I decided to stay there. In fact, I decided to stay 
in Siberia because I felt very free there. People's belief in 
me and wonderful public transportation let me do just about 
anything I wanted to do.
    I enjoyed 10 years of teaching, interpreting, doing 
journalistic research, and heading two nonprofit organizations, 
both in Siberia and in central Asia. Then, when I returned to 
America 2 years ago and started looking for work, I ran into a 
lot of barriers that I hadn't thought about. First, I couldn't 
get many places independently, since I couldn't drive. Second, 
interviewers greeted me with, oh, you are on time. That made me 
think that they did not expect that of anyone with a 
disability. And third, I kept sensing these unexpressed 
concerns from employers. Looking back, I now realize that 
probably issues of liability or health insurance that I might 
need simply outweighed the interest of hiring me. The cons 
outweighed the pros.
    After 6 disheartening months of this, I asked a counselor 
at the Ohio Rehabilitation Services Commission to help me, if I 
was willing to expand my career horizons, and I was. That same 
week, RSC lined up an interview for me with Social Security. I 
was interviewed one day, and I was hired the next.
    Now, since October 2000, I have been a claims 
representative with Social Security. I still dream of doing 
other things at times, such as writing or international 
relations, but thanks to RSC, I have a good job in my own 
country.
    As a claims representative with Social Security, I 
interview disabled people every day, and every day I realize 
that it could easily be me on the other side of the desk. 
Claimants tell me that as soon as their employer realizes that 
they have a physical problem, that they never get their chance 
to show their mettle, even though many times they think they 
could do the job.
    Most employers in America have to focus so much on the 
bottom line that they simply look much more at what people with 
disabilities cannot do than what we can do.
    If I could bring one thing back from the Russian work 
world, it would be the trust in you that you are as good as 
your word until and unless you prove otherwise. I thank you for 
your attention, and if you have any questions I invite you to 
ask them now.
    [The prepared statements of Mr. McMillan and Ms. Sammons 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Wicker. Thank you both very much. We appreciate your 
testimony. We are joined by Mr. Hoyer who may have a question.
    Mr. Hoyer. I do not have a question, I just got in very 
late. I came to welcome another witness, but as a principal 
sponsor of the Americans with Disabilities Act, I was struck by 
your comment that employers and others look at what people 
cannot do. And I tell people, I am about 6 foot tall, and Abe 
Polin, who is the owner of the Wizards, Washington Wizards, has 
never asked me to play center for the Washington Wizards, 
because I have a disability for that position. I am about 12 
inches too short to play center for the Washington Wizards. But 
there are a whole lot of things that I can do, and what the 
Americans with Disabilities Act was all about was, of course, 
dropping the ``dis.'' We dis people when we look at what they 
cannot do. We need to look at the ability. And the fact is that 
most of us can do a lot of things, notwithstanding the fact 
that there are some things that we cannot do for whatever 
reasons. So I welcome you here and thank you for your 
testimony.
    Ms. Sammons. It was an honor.
    Mr. Wicker. I would just observe that my friend from 
Maryland, there are probably other reasons also why he has not 
been asked to play for the Washington Wizards, height being 
only one of them.
    Mr. Hoyer. The Chairman is such a cynic.
    Mr. Wicker. I want to thank our guests for being here 
today. I had mentioned the number of languages that Ms. Sammons 
speaks. Let me just be specific for the people in the room 
today. She is fluent in French and Russian and has 
conversational fluency in Hungarian, German, Italian, with some 
knowledge of Spanish and Cossack. Of course the only one of 
those that I know well is Cossack.
    Ms. Sammons. (Speaking Cossack).
    Mr. Wicker. You betcha.
    We thank you very much. And, Mr. McMillan, I hope you make 
your plane.
    Mr. McMillan. Thank you, Congressman.
                              ----------                              

                                              Tuesday, May 7, 2002.

      NATIONAL ASSOCIATION OF DEVELOPMENTAL DISABILITIES COUNCILS


                                WITNESS

HONORABLE DENNIS BYARS, SENATOR, NEBRASKA STATE LEGISLATURE, 
    CHAIRPERSON, PUBLIC POLICY COMMITTEE, NATIONAL ASSOCIATION OF 
    DEVELOPMENTAL DISABILITIES COUNCILS
    Mr. Wicker. Our next witness is the Honorable Dennis Byars, 
Senator of the Nebraska State Legislature, and he is speaking 
today on behalf of the National Association of Developmental 
Disabilities Councils. Senator Byars, if you would come forward 
and proceed at your own pleasure.
    Mr. Hoyer. While he is coming forward, Roger, I always 
thought when I was in the State senate for 12 years, I did not 
think it was so unfortunate; but having been in the House for 
21 years, I always lament the fact that Nebraska chose to name 
their unicameral legislature the Senate rather than the House.
    Mr. Byars. Thank you, Mr. Wicker and Mr. Hoyer, for having 
me here today. I speak unicameralese. I am not good at those 
other languages. But before Mr. Regula left, I was feeling that 
I needed to be adopted by somebody from Ohio in order to have 
any impact here. We thank you for hearing our testimony today.
    Certainly staff members also have been very attentive, and 
we who are legislators recognize how important staff is to all 
of us in doing our jobs.
    I am here today on behalf of the National Association of 
Developmental Disabilities Councils. I am a member of the 
Nebraska Council on Developmental Disabilities, a member of the 
National Association of Developmental Disabilities Councils 
Board of Directors, and Chair the NADDC Public Policy 
Committee. And I am very, very proud to serve my State as a 
Senator in the Nebraska legislature.
    On behalf of NADDC, I want to thank you for the opportunity 
to be here this afternoon and discuss the activities of our 
State councils and their funding needs.
    The Developmental Disabilities Assistance and Bill of 
Rights Act authorizes funding for the activities of State 
councils, one in each State and the four territories. The act 
was first passed in 1963 and has been expanded to meet the 
growing demand for community support in subsequent 
reauthorizations.
    We have two requests today. First, for fiscal year 2003, we 
are asking for funding of $76 million, the authorized funding 
level for the State councils. The current appropriated level is 
$69,800,000.
    Secondly, we are in an immediate fiscal crisis that will 
result in the redistribution of $2,400,000 of already 
appropriated funds, due to a legislative drafting oversight. We 
need help in reversing this loss.
    Individuals with developmental disabilities continue to be 
among the most disenfranchised in our country. President Bush 
has made a clear commitment through the Olmsted activities to 
address their isolation and the lack of sufficient services and 
supports. State DD councils pave the way for successful Olmsted 
implementation. We work with and for individuals with 
developmental disabilities to promote comprehensive systems of 
services and supports that increase independence, productivity, 
integration, inclusion, and self-determination.
    Council priorities are set based on a thorough State 
planning process identifying the unique needs of individuals 
within their own State. Council activities have resulted in so 
many accomplishments. Let me give you just a sampling: Strong 
early childhood programs, improvements in school services, 
access to real inclusive jobs through supported employment, 
small business ownership, self-advocacy training and 
empowerment, homeownership, appropriate community activities 
for individuals as they becomes older, and tremendously 
important supports for families so they can remain healthy and 
intact.
    Councils are addressing issues of crisis in our systems: 
severe shortage of direct support staff, shortage of quality 
inclusive child care for working parents, lack of 
transportation and burgeoning community waiting lists. With a 
very small amount of money, councils are fulfilling their 
responsibilities to make this country a better place to live 
for individuals with developmental disabilities. But they have 
to work overtime with creative resource management in order to 
make a dent.
    Our written testimony outlines in far more detail how our 
councils are doing this, most especially among your own 
constituencies. This year the 14 smallest State councils 
receive $446,373 in funding. And the average allocation across 
the country is approximately $1.3 million far less than needed 
to keep pace with the cost of living, let alone to fulfill the 
promises of the DD Act. To remedy this shortfall we request the 
authorized level of $76 million.
    On the more immediate issue, 23 councils, including yours, 
Mr. Wicker, face a loss totaling $2.4 million for this year. A 
provision preserving a predictable funding base for State 
councils was inadvertently dropped from the DD Act in the last 
reauthorization. On April 23rd, Agency officials notified the 
State councils the hold harmless language was no longer in the 
Act, and there would be a retroactive adjustment in the 
allotments.
    The Agency tells us they currently have no other legal 
option. We are asking Congress to pass a technical amendment to 
restore the language. We also will need a one-time additional 
$2.4 million in fiscal year 2003, or in the fiscal year 2002 
supplemental appropriation, to restore these funds.
    We thank you for the opportunity to talk to you today about 
the accomplishments and the needs of the State Councils on 
Developmental Disabilities and we appreciate the members of 
this Committee who have been so supportive of us before in the 
past. Thank you.
    [The prepared statement of Senator Byars follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Wicker. Thank you, Senator, for your kind words, your 
testimony, and also for bringing to our attention the matter of 
the inadvertent omission. Mr. Hoyer?
    Mr. Hoyer. Thank you. Senator, thank you for your 
testimony. Each one of us is asked to submit a letter to the 
Committee in terms of our priorities and what we think we need 
to focus on. I know you will be pleased to hear that every one 
of the issues that you raised was in my 7-page letter, but 
particularly the hold harmless which was inadvertently dropped 
out. That should hopefully be no problem. We have asked for the 
$2.4 million which you referenced, as well as all of the sums 
mentioned in your last page of your testimony, which of course 
is the--I suppose the consortium's considered opinion, we have 
also asked for. I think all of these investments are well paid 
for in terms of the empowerment that we give to individuals. 
Thank you.
    Mr. Byars. Thank you, Congressman. We appreciate that 
support. Seven pages, 10 pages, 6 pages, we will accept 
whatever you would like to say.
    Mr. Wicker. Thank you very much.
                                              Tuesday, May 7, 2002.

            ASSOCIATION FOR PERSONS IN SUPPORTED EMPLOYMENT


                               WITNESSES

RON RUCKER, CHIEF EXECUTIVE OFFICER, VIA COMPANY, ACCOMPANIED BY DAVID 
    BOYD, COURTESY CLERK, SAFEWAY, LaPLATA, MD; AND CHERYL JONES, 
    EMPLOYMENT SPECIALIST, MELWOOD, WALDORF, MD
    Mr. Wicker. Our next witness is Ron Rucker, Chief Executive 
Officer of Via Company, on behalf of the Association for 
Persons in Supported Employment. And he is joined by David Boyd 
and Cheryl Jones. We are delighted to have each of you.
    Mr. Rucker. Thank you, Mr. Wicker, we are pleased to be 
here, honored to be here, and humbled by how much you guys have 
to sort through to figure out what to do with our dollars.
    Good afternoon. Thank you for the opportunity to testify 
today. My name is Ron Rucker. I am president and CEO of Via, a 
not-for-profit agency providing supported employment in 
Bethlehem, Pennsylvania. I am also a board member of the 
Association for Persons in Supported Employment, known as APSE. 
APSE is a national membership organization promoting quality 
inclusive employment and workplace supports for individuals 
with significant disabilities. I am speaking today on behalf of 
the 4,600 members and 39 State chapters of APSE to urge 
continued supported employment funding under the Rehabilitation 
Act.
    Since 1986, you have appropriated funds for Title VI-C of 
this act. During this time, that funding has supported real 
work for a large number of individuals with significant 
disabilities. The Administration now proposes to eliminate 
6(c), along with three other programs in the Act, based on the 
misconception that these programs could easily be folded into 
Title I.
    Please reject this consolidation. The consequences will be 
terrible for hundreds of thousands of individuals with 
significant disabilities.
    With me today is David Boyd, one of over 150,000 people who 
through supported employment has entered the labor market for 
the first time. Mr. Boyd lives in Waldorf, Maryland, and worked 
for Safeway in LaPlata, where he is employed as a courtesy 
clerk, and his other duties include frontline work, light 
janitorial and stocking. He has been in this job for 13 years. 
He is good at what he does and he loves going to work.
    Supported employment is defined as competitive employment 
in an integrated setting with ongoing supports. It is designed 
for individuals like David, who otherwise would not have access 
to work due to the nature and severity of their disability. It 
is collaborative funding with short-term training dollars from 
VR and long-term supports primarily from Medicaid. These funds 
allow people to work who otherwise would be written off as 
unemployable.
    In supported employment we assume competence. We plan with 
the individual rather than for the individual, and work closely 
to create a match between the interest, skills, and abilities 
of the job seeker and the needs of each business.
    Also with me is Cheryl Jones. She is an employment 
specialist who supports Mr. Boyd. Ms. Jones works for Melwood, 
a nonprofit organization much like Via, providing supported 
employment services in southern Maryland. Professionals like 
Ms. Jones are key to successful supported employment. Cheryl 
provides individual training, workplace supports, and job 
development, all in partnership with David and Safeway 
Corporation.
    Unfortunately, the story changed dramatically. The La Plata 
Safeway was destroyed by the tornado that recently wreaked 
havoc on southern Maryland. Thanks to Melwood, Ms. Jones, and a 
very supportive employer, David did not lose his job. He has 
been transferred to another Safeway. Change can be challenging, 
and Cheryl and David will work together at the new work site. 
She will assist him in acclimating to the changes. And, 
fortunately, public transportation is available and they will 
travel the new route together until he is confident at going 
alone.
    Title VI-C makes this story possible. While we celebrate 
these achievements, we continue to feed the dinosaur. There are 
at least 500,000, and probably closer to 1 million, adults in 
segregated settings who have not had this option that David has 
to choose a real job in the community. The issue is not the 
ability to work. David has been at his job 13 years, and 
hundreds of thousands of people like him are proof of that 
issue.
    The issue is not outcomes. The average supported employment 
wage is $5.42 per hour compared to an average sheltered wage of 
$2.42 per hour. The real issue is funding disincentives. What 
gets paid for gets done, and currently 75 percent of Federal 
and State employment funding for individuals with significant 
disabilities supports sheltered settings.
    As a provider who has chosen to convert my sheltered 
workshop to supported employment, I can tell you it is a lonely 
journey, moving against the flow when funding is not available 
to support those efforts. The State grant program is the one 
bright spot. It is the incentive that supports systems change.
    President Bush is correct; States can and should use Title 
I funds for supported employment. However it will be difficult 
for States to maintain a commitment to supported employment 
when the funds can and will be used for individuals with less 
severe disabilities, especially when OVR counselors will be 
rewarded for the same number of closures, regardless of the 
severity of disability.
    As outlined in the new Freedom Initiative and Olmsted 
activities, this administration has a strong commitment to 
community integration for people with significant disabilities. 
It follows that employment must be a key element of that 
community participation. In fact, if the President had 
understood the crucial role supported employment plays in 
advancing community integration, he would have significantly 
increased the funding level and expanded possible uses rather 
than targeting it for elimination.
    We ask you to not only reject the Administration's request, 
but to actually increase the funding for supported employment 
State grant programs. This is the only funding stream 
designated specifically for supported employment. It is a 
valuable tool for opening doors. Please do not slam that door 
in David's face.
    Mr. Wicker. Mr. Hoyer, I believe these are constituents of 
yours.
    Mr. Hoyer. Not all of them. As a matter of fact Melwood is 
no longer in my district. It is actually in Al Wynn's district. 
But this is a crucial issue that has been raised. When we 
passed the Americans with Disabilities Act, it had a number of 
titles, Mr. Wicker, as you know, public accommodations, 
transportation, communications. One of its central provisions, 
however, dealt with employment. We heard earlier about the 
discrimination thinking about what people can't do. We have had 
a lot of successes. You can go to a theater now. You can go to 
a sports event if you are mobility impaired. We are moving on 
election reform, as you know, to make sure that people can vote 
in private, whether they are blind or have mobility 
impairments, access to polling places. But where we have not 
been as successful as we had hoped is in employment.
    The overwhelming majority of the disabled are still 
essentially on some type of public support.
    Mr. Rucker. The figure is as high as 75 percent.
    Mr. Hoyer. These are folks who want to work. You heard 
David's background. David works for the Safeway that the 
tornado tore down in La Plata, and I have been there three 
times in the last week. I am going to be back there on Friday 
trying to make sure we can buildup and rebuild that Safeway so 
you can move back to La Plata at some time. But David has been 
employed for 13 years.
    Ms. Jones, who works for Melwood, Melwood is an 
extraordinary organization. Melwood has contracts for millions 
of dollars.
    At Goddard Space Flight Center, it is Melwood employees 
that maintain the grounds at the Goddard Space Flight Center, 
and they do an extraordinary job. And they do that consistent 
with a statute that says it is important that we make 
opportunities for those with disabilities because they want to 
do, and they can do, and they do well.
    And I thank you for your testimony. I am certainly going to 
be working towards making sure that we restore that--we haven't 
cut it yet, but it is still in being, but not adopt that 
portion of the President's program. It was the President's 
father who signed in July of 1990, the Americans with 
Disabilities Act. And indicated in his speech when he signed 
that bill, that this was, in effect, a bill of rights for those 
with disabilities.
    And it would be a shame for us to undermine to some degree 
the incentive that is available to make sure that those with 
disabilities are, in fact, able to be independent. We talk 
about empowerment. This is an empowerment program. Newt 
Gingrich talked about it and he was absolutely right. I voted 
for the welfare reform bill, which was an attempt to say that 
we expect work. If you can work, you need to work. You need to 
support yourself and support our society and not be supported 
by others.
    But here it is, an opportunity for us to accomplish that 
objective if we will not withdraw the incentives and assistance 
to that end.
    Ms. Jones. The key thing you said was independence because, 
that is all Mr. Boyd wants and other individuals and programs 
like we have for supported employment. They do want their 
independence to be able to get out there and work and do and 
support themselves in society. I think it is wonderful. I 
commend them.
    Mr. Hoyer. Roger, if you go to Melwood, you see a lot of 
young people, and frankly middle-aged people--David you are 
young, as far as I am concerned, but my daughters wouldn't 
think you were young. It is all relative, I suppose. But people 
who have come to Melwood learn a skill and are now very proud 
of their independence and their ability to perform a service 
and earn a living, and not be dependent on somebody else. They 
need some help. We call that, in the Americans with 
Disabilities Act, a reasonable accommodation. We all need 
reasonable accommodation from time to time.
    David, I congratulate you. Because in the final analysis, 
David, the fact that you do so well and you do your job so well 
is the reason that the taxpayers will support programs that 
make sure that you can participate and, frankly, be a taxpayer. 
We love you, David. You know, we are for those people who pay 
taxes and keep our government going. So thank you very much for 
all you do.
    Mr. Wicker. Thank you, Mr. Hoyer. I believe President Bush 
the elder said the Americans with Disabilities Act was the 
greatest civil rights legislation in a generation. So I 
appreciate your comments, Mr. Hoyer, and I appreciate the 
testimony.
    Let me just ask you, Ms. Jones, Melwood is the nonprofit 
that will take your used car off of your hand; is that right?
    Ms. Jones. Would you like the phone number?
    Mr. Wicker. I have a couple that have been candidates for 
that. Just out of curiosity, how many cars, how many 
automobiles are donated per year to you?
    Ms. Jones. I honestly can't tell you. I am not in that 
department, I am in the vocational department. But I could get 
that information.
    Mr. Hoyer. Please do that.
    Mr. Wicker. Thank you very much.
    Mr. Hoyer. The fact of the matter is, and I don't know the 
number, but the response to that program has been so great that 
they have had to stop taking total clunkers because----
    Mr. Wicker. Perhaps my car would not be qualified then.
    Mr. Hoyer. I just wanted to advise you of that it has been 
so successful, they can be selective.
    Mr. Wicker. I drove to the White House today and they 
almost did not let me pass security. Thank you very much.
    [The prepared statement of Mr. Rucker follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                              Tuesday, May 7, 2002.

                      RESIDENTIAL CARE CONSORTIUM


                                WITNESS

STEVE C. BORCHARDT, SHERIFF, OLMSTED COUNTY, ROCHESTER, MINNESOTA
    Mr. Wicker. Next we have Steve C. Borchardt, sheriff of 
Olmsted County, Rochester, Minnesota. Sheriff, we are mighty 
glad have you.
    Mr. Borchardt. It is an honor to be here.
    Mr. Wicker. I believe you are speaking about the 
Residential Care Consortium.
    Mr. Borchardt. I am indeed, but allow me to add my voice to 
that of the previous speaker. I got on a plane in Minneapolis, 
Minnesota, at 7 o'clock this morning to come here and educate 
you about my program, and instead, it has been I who has been 
educated for the last hour and a half as I sat and listened to 
the daunting decisions you must make. I appreciate the 
challenge.
    Mr. Hoyer. Sheriff, I apologize. I have a 4 o'clock 
appointment. You have been sitting here for a long time. I wish 
I could sit here. But the person who knows much more about what 
goes on is going to be here and listen and then she will tell 
me exactly what to do. Thank you. I apologize.
    Mr. Borchardt. Mr. Wicker, Members, staff, thank you for 
allowing me to share with you the mission and the work of the 
Residential Care Consortium, a collection of independent 
agencies serving some of the country's most challenged children 
and youth.
    I serve on the Board of Trustees of the Minnesota Sheriffs 
Youth Programs, a member organization of the Residential Care 
Consortium. The Residential Care Consortium consists of several 
independent community-based homes offering residential care for 
children who need guidance and support.
    In addition to Minnesota, Residential Care Consortium 
members are located in Texas, Indiana, Kentucky, Pennsylvania, 
Maine and Georgia. Membership in the consortium includes 
America's oldest children's homes founded as early as 1740 and 
as recently as 1970. The reputation of each of these facilities 
places them in a leadership position on a national level.
    Members of the Residential Care Consortium provide 
structured homes and intense support at campus-style facilities 
for youth that have become wards of the State, due to severe 
emotional problems or lack of parental support. These are the 
kids for whom foster care has not been successful and 
institutionalization is likely the next step.
    To be frank about it, we do a decent job getting these kids 
on their feet and helping them put the pieces of their life 
together, and then it is time for them to leave the residential 
setting because they turn 18 and the money runs out and we hold 
our breath. We hold our breath because no matter how well your 
life has gone, how extensive your support system, the 
transition from youth to adult can be a difficult time for our 
kids. It is a treacherous time.
    Each of our facilities reaches financial support from State 
and local governments, charitable foundations, the private 
sector. One area that is least funded, and arguably the most 
critical aspect of our work, is supporting the transition 
period when teenagers age out of residential services.
    The Federal Government provides formula funding through the 
Chafee Foster Care Independence Program for just this purpose. 
However these resources are inadequate for a comprehensive 
program of services to these kids who are transitioning. We 
were formed specifically for that purpose.
    Sir, as I am sure you are well aware, coming of age is 
tough enough, even for kids from strong functional families and 
intact support systems. And one of our kids at 19 years of age 
who has all the normal challenges to begin with and you add the 
additional challenges of diminished or dysfunctional families, 
or nonexistent family support systems that most of us take for 
granted is going to have a tough time because they do not have 
the kind of common sense support that most us take for granted.
    They better figure it out fast, because running drugs or 
working in the sex trade can make quick money, but also ruin 
any chances that they might have had for getting a better 
education or securing a decent job with any probability of 
sustaining self-sufficiency. Data supports the notion that 
young people who have a mentor during this transitional face 
have a greater chance of becoming productive members of our 
society. Without it, they are far too likely to make the easy 
choices rather than the good choices, and then we are serving 
them once again; this time in my jail and in jails across the 
Nation.
    So how do we address this? The Residential Care Consortium 
has identified two areas of need that we are asking your 
assistance for. Number one, job training and number two, 
substance abuse and mental health counseling on an ongoing 
basis.
    Why job training? Well, many large and small employers are 
unwilling to risk hiring our kids. There was a day only a 
generation ago when judges frequently gave kids the choice of a 
sentence to a confinement facility or enlisting in the military 
in order to grow up with military discipline. Now even our 
military has determined that they cannot take the risks 
associated with hiring this population of kids. If even our 
military cannot tolerate this risk, certainly it is prohibitive 
for local businesses to fill this need at local level.
    As a result, these kids have no mentors and few prospects 
and most assuredly are filling our jails. Therefore, we seek 
$1,800,000 through the Department of Labor to provide mentors 
and job coaches. We want to create financial incentives for 
employers to take these young people on. We want to get them 
started in the right direction with the satisfaction of a 
secure, well-paying employment.
    The other area that is so critical for us to address is 
mental health and substance abuse. We are asking the Committee 
to set aside $1,200,000 at the Substance Abuse and Mental 
Health Services Administration for this component of our 
transitional services initiative. Most of our clients have 
experienced severe emotional disturbances or have been 
diagnosed with mental health conditions. The needs are real, 
the risks are real, and the numbers of mentally ill and 
chemically dependent that are filling our jails are very real.
    This transition support is worth doing. We know it can make 
a difference in kids' lives, people who are on the balance beam 
between making it or not making it. We need your help. We 
intend to deliver transition services, set measurable outcomes, 
evaluate our efforts, and share the results with the industry 
and you, our policymakers.
    In closing, sir, I would say it does not make sense to put 
so much effort and energy into these kids only to stand back 
and hold our breath as they walk out the door. I am here as a 
local sheriff, not as a child care provider, not as a counselor 
or a therapist.
    I run a jail that is rapidly overcrowding with the kids 
that I have described. And the same is happening to sheriffs 
all across our Nation. We must find better answers than 
warehousing misguided kids. If nothing else, besides being the 
right thing to do, it is simply enlightened self-interest to 
invest in supporting kids at this time of transition from 
structured residential care to independent adulthood.
    Thank you again for the honor of addressing you this 
afternoon. I ask you to grant the funding requests that we have 
before you. Together we will make a difference. Thank you.
    Mr. Wicker. Thank you very much, Sheriff.
    [The prepared statement of Sheriff Borchardt follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wicker. You are asking for $1,800,000 throughout 
Department of Labor and $1,200,000 from SAMHSA; is that 
correct?
    Mr. Borchardt. Yes, sir.
    Mr. Wicker. Have you had discussions with the professionals 
at SAMHSA about how they might inspect you or do you know if 
people in your organization have had conversations with SAMHSA?
    Mr. Borchardt. I believe they have. I have not personally, 
sir. I can get that answer for you.
    Mr. Wicker. It might be a good additional step for your 
group to meet with both of these agencies and draw on their 
expertise also as to how this subcommittee might best provide 
assistance to you. But I appreciate what you are doing and you 
have certainly outlined an area of grave concern.
    Mr. Borchardt. Thank you, sir.
    Mr. Wicker. Thank you, Sheriff.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                              Tuesday, May 7, 2002.

     NATIONAL ASSOCIATION OF FOSTER GRANDPARENTS PROGRAM DIRECTORS


                                WITNESS

JANE H. WATKINS, ASSISTANT DIRECTOR, FOSTER GRANDPARENT PROGRAM, 
    ORLANDO, FLORIDA
    Mr. Wicker. Next we have Jane H. Watkins appearing on 
behalf of the National Association of Foster Grandparents 
Program. We are delighted to have you with us this afternoon.
    Ms. Watkins. I am honored to testify in support of fiscal 
year 2003 funding for the Foster Grandparent Program. The 
Foster Grandparent Program is the old oldest and largest of the 
three programs collectively known as the National Senior 
Volunteer Corps.
    My name is Jane Watkins I am here in my capacity as the 
immediate past President of the National Association of Foster 
Grandparent Program Directors. NAFGPD is a membership-driven 
professional organization representing the majority of the 350 
members across the Nation as well as the local sponsoring 
agencies and others who value and support the work of foster 
grandparents.
    Mr. Chairman, before I begin my testimony, I would like to 
thank you and the members of the Subcommittee for your 
steadfast support of Foster Grandparents Programs. In fiscal 
year 2002, the Labor HHS appropriations bill included an 
increase of $7,800,000 for foster grandparents. That is nearly 
twice what the President requested in his budget.
    These vital funds are now being used to provide our 34,000 
foster grandparents volunteers with their first stipend 
increase in 5 years. On behalf of the 34,000 foster 
grandparents volunteers and the nearly 300,000 special needs 
children that they serve across the country, I want to thank 
you, the Subcommittee members, and your staff for believing in 
the Foster Grandparent Program. We simply could not carry on 
our mission without your support.
    It is difficult for me to talk about the Foster Grandparent 
Program without thinking about individual volunteers like 
Margaret Finnigan, who has been a foster grandparent for over a 
decade. Over the years, she has impacted the lives of so many 
children. Parents and former students routinely inquire whether 
Grandma is still with the program and how is she doing? All 
staff and children take comfort in her warmth, her loyalty, and 
her ability to listen.
    The staff, parents and children continue to ask about 
Margaret. But Margaret has developed a special relationship 
with a young man named Brent. Brent is a very small child for 
his age and has numerous illnesses which has prevented him from 
assimilating into the classroom. Brent sought Margaret's 
comfort when other children were progressing with their reading 
and he lagged behind. This is a very difficult position for a 
child of Brent's age. But working together, Brent drew strength 
from Margaret's patience, persistence, guidance and 
understanding and progress was made. And Brent now excels in 
elementary school.
    Mr. Chairman, this is the thrust of our program, giving 
seniors the opportunity to contribute their time and experience 
in helping the next generation to succeed. Without the Foster 
Grandparent Program, people like Margaret and the thousands of 
foster grandparent volunteers each with stories of their own 
would not be able to afford to volunteer 20 hours every week. 
This is truly what makes the Foster Grandparent Program unique 
among all programs. We enable older people who are living at or 
below 125 percent of poverty level to volunteer 4 hours a day, 
5 days a week by providing them with a small nontaxable stipend 
to help offset the out-of-pocket expenses that they have as a 
result of volunteering.
    Additionally, it provides low-income seniors with the 
opportunity to use their talents, skills and wisdom that they 
have accumulated over a lifetime to give back to the 
communities which have nurtured them within their lives. 
Seniors in general are not valued or respected in today's 
society, and low-income seniors are particularly devalued 
because of their economic status.
    They are rarely asked to volunteer by their communities 
because they have traditionally not participated in those 
community activities. Through their service, our older 
volunteers report that they feel healthier and we also know 
that they can remain a productive part of our society. But most 
importantly, they leave to the next generation a legacy of 
skills, values and knowledge that has been learned the hard 
way--through experience.
    We believe that every community in America needs foster 
grandparents and we believe that every low-income person like 
Margaret deserves the opportunity to be a foster grandparent. 
Given the growing number of low-income seniors, there are 
currently 6 million seniors eligible to be foster grandparents 
right now and we know that that figure will double by the year 
2030. And everyone knows, as we have heard today, that we have 
an ever increasing number of children with serious problems, 
and this could be associated with drug abuse, with domestic 
violence or poverty.
    But Mr. Chairman, we are troubled and disappointed that the 
President's budget contained level funding for our program for 
the first time in 9 years. For more than 35 years, the Foster 
Grandparent Program has been the foundation for community 
service. While we applaud the President's leadership in calling 
for a renewed sense of community service in America through the 
U.S.A. Freedom Corps, our needs have not gone away. Our 
programs are still faced with increasing costs of insurance, 
with the lack of technology, and in fiscal year 2003, it is 
going to be critical in maintaining the quality of our 
programs.
    Our request is that the Committee provide $115 million for 
the Foster Grandparent Program in fiscal year 2003. This is an 
increase of $8.3 million. And this increase will provide a 4 
percent increase to existing programs to provide for the 
critical program operational funding needs and that will 
specifically allow us to enhance our recruitment efforts and to 
improve our technology infrastructure.
    Also, it will allow for expansion of existing programs 
through programs of national significance and allow us to begin 
five new foster grandparent projects in geographically 
uncertain areas. Thank you for the opportunity to approach the 
panel.
    Mr. Wicker. Thank you very much for your testimony.
    [The prepared statement of Ms. Watkins follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Wicker. I might note for the record that Mr. Peterson 
is a member of this subcommittee who was not able to be here 
today, but he sent along his good wishes and his assurance of 
very strong support for foster grandparents.
    Let me just ask you,what types of geographic areas are 
currently underserved with this program?
    Ms. Watkins. We have a lot of areas that are underserved, 
but we have a lot that are unserved as well. I know former 
Congressman Porter's area did not have a Foster Grandparent 
Program in that area. There are 350 Foster Grandparent Programs 
nationwide, so there are still some areas that are unserved.
    Mr. Wicker. Are they principally in small towns, big 
cities?
    Ms. Watkins. Principally they would be in small towns and 
rural areas.
    Mr. Wicker. Thank you very much for your good work. And we 
hope that we can accommodate your request.
    Ms. Watkins. Thank you so much.
                              ----------                              

                                              Tuesday, May 7, 2002.

            NATIONAL ASSOCIATION OF STATE WORKFORCE AGENCIES


                                WITNESS

JON BROCK, NATIONAL ASSOCIATION OF STATE WORKFORCE AGENCIES, EXECUTIVE 
    DIRECTOR, OKLAHOMA EMPLOYMENT SECURITY COMMISSION
    Mr. Wicker. Next we will call forward Mr. Jon Brock, 
appearing on behalf of the National Association of State 
Workforce Agencies. Thank you very much Mr. Brock. We are glad 
to have you.
    Mr. Brock. Thank you.
    Mr. Wicker. You are very patient.
    Mr. Brock. It is a pleasure to be able to address the 
Subcommittee this afternoon. Actually, I am the President of 
the National Association of State Workforce Agencies, but my 
real job is as executive Director for the Oklahoma Employment 
Security Commission in Oklahoma City. On behalf of the National 
Association of State Workforce Agencies, I wish to thank the 
Subcommittee for the opportunity to share the vital 
contributions our members provide in strengthening or Nation's 
economy by linking workers and jobs.
    The members of our associations constitute the workforce 
system responsible for helping millions of Americans find 
employment that brings with it the hope of the future. It is 
the funding that you appropriate that makes much of our 
workforce system possible. To highlight the experience of our 
services, one must only look back on two events in our Nation's 
recent history, the terrorists attacks of September 11th and 
the recession.
    The response of the workforce system to these events 
demonstrates how the system works to improve career 
opportunities for workers, helping businesses find qualified 
workers and helps to stabilize the national economy. As much of 
the Nation stood virtually transfixed by the horrors of the 
terrorist attacks of September 11th, the Virginia Employment 
Commission, or VEC, sprang into action to assist workers 
displaced by the temporary closing of Reagan National Airport. 
Recognizing that 12,000 jobs were at risk, 8 percent of all 
employed workers in Arlington Virginia, the VEC expanded its 
hours of operation to include Saturdays and opened a temporary 
office in Reagan National Airport to expedite unemployment 
claims and provide other employment assistance. After one 
month, the VEC had served an additional 5,000 unexpected 
unemployed workers.
    While the actions of Virginia and other States during the 
terrorist crisis are worthy of recognition, their work is not 
unlike that which occurs throughout each State during mass 
layoffs.
    As an example, over 3,000 workers in Northwest Wisconsin 
lost their jobs during the last half of 2001. Nearly half of 
these displaced workers were part of 15 plant closings. The 
Wisconsin Department of Workforce Development was able to 
mobilize staff rapidly and bring its service directly to the 
dislocated workers providing guidance on applying for 
unemployment benefits and making available the career services 
that help workers reintegrate into the workplace.
    Unfortunately, the administration fails to recognize how 
Virginia, Wisconsin, and all the other States must carry over 
Federal moneys when it asserts within its budget that the 
proposed $891 million cut in workforce-related program funding 
will not reduce the employment and training services provided 
to your constituents. Their position is based on the assumption 
that much of the carryover dollars earmarked for WIA programs 
are unexpended or will not be utilized. However the Workforce 
Investment Act authorized States and governments 3 and 2 years 
respectively, to expend WIA funds, allowing managers of our 
Nation's workforce system to assist workers during parts of 
years that overlap Federal fiscal and program years.
    To preserve the commitment to WIA programs for fiscal year 
2003, we recommend: $1.6 billion for dislocated workers; $950 
million for adult training; $1.1 billion for youth training. 
These amounts represent the same funding levels allocated for 
the system in fiscal year 2001.
    We applaud Congress and the Administration for the recent 
enactment of the economic stimulus package, which, as you know, 
includes an $8 billion redact distribution. This distribution 
to State accounts is a long overdue temporary infusion of funds 
into the State unemployment insurance and employment insurance 
programs, but it is not a permanent reform of the system. In 
fact, it is far from it.
    The Federal Government has been overtaxing employers and 
employers under the Federal Unemployment Tax Act and 
underfunding these programs for many years. Although we accept 
the administration's UI and ES budget, we were concerned that 
FUTA taxes do not fully fund UI administration and employment 
services.
    NASWA fully supports the Administration's fiscal year 2002 
supplemental budget request, which restores last year's 
rescission of $110 million from State formula grants for 
dislocated workers, and replenishes $550 million in National 
Emergency Grants. We urge you to take immediate action on this 
supplemental request.
    The Nation's publicly funded workforce system must continue 
to receive strong levels of congressional support in order to 
maintain and increase the quality of services your constituents 
have come to expect.
    We look forward to working with members of this committee 
and the Congress to continue providing the necessary commitment 
to our workforce system. Thank you for the opportunity to make 
this presentation this afternoon.
    Mr. Wicker. Thank you very much for your testimony, for the 
words of support for aspects of the President's budget and also 
for some suggestions. And I can assure you that the 
Subcommittee member and their staff will carefully consider the 
information.
    Mr. Brock. We know you will.
    [The prepared statement of Mr. Brock follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                              Tuesday, May 7, 2002.

   NATIONAL COUNCIL OF SOCIAL SECURITY MANAGEMENT ASSOCIATIONS, INC.


                                WITNESS

ANTHONY PEZZA, PRESIDENT, NATIONAL COUNCIL OF SOCIAL SECURITY 
    MANAGEMENT ASSOCIATIONS, INC.
    Mr. Wicker. We are now joined by Mr. Anthony T. Pezza, 
President of the National Council of Social Security Management 
Associations, Incorporated. Please come forward and first of 
all, tell me, how I did trying to pronounce your name.
    Mr. Pezza. Perfect, absolutely perfect and very few people 
do that. So thank you.
    Mr. Chairman and members of the Subcommittee, my name is 
Anthony T. Pezza, and I am here as President of the National 
Council of Social Security Management Associations, which is an 
organization of 3,000 managers and supervisors who work at 
SSA's field offices and teleservice centers throughout the 
country. I thank you for giving me the opportunity to come 
before you today to talk about the budgetary needs of the 
Social Security Administration from the perspective of the 
frontline managers and supervisors who are responsible for 
delivering services directly to the American public.
    Over the past two decades, SSA has witnessed a dramatic 
reduction in staff. Today the staff is 30 percent smaller than 
it was 20 years ago. The most recent report of the Social 
Security Advisory Board issued this past March found that there 
was ``a universal view'' among SSA employees across the country 
and among witnesses before the board's hearings that SSA does 
not have the resources to do the work that should be done.
    This is compounded by the fact that over the past several 
years, SSA's field offices and teleservice centers have lost 
over a thousand frontline supervisors. This loss has had a 
direct and negative impact on the ability of SSA to provide 
service to the American public because it affects training, 
quality, and control of work.
    At the same time SSA was suffering reductions in staff and 
supervisors, SSA's workloads were growing. SSA is, in a matter 
of speaking, a growth industry. The aging of the 76 million 
strong baby boomer generation means increases in SSA's 
workloads in the years between now and 2010. Consequently, 
there is a pressing need to significantly increase SSA's 
resources now.
    We agree completely with the Social Security Advisory Board 
when it said in its March 2002 report, ``SSA currently has 
inadequate resources to carry out its many complex 
responsibilities.'' Over the past several years, it has become 
obvious that SSA has not been allocated resources commensurate 
with its burgeoning workloads. Compounding the reductions in 
staff and supervisors at the same time workloads were growing 
was the impending loss of experienced personnel. SSA estimates 
that between now and 2010, 28,000 experienced people will be 
eligible to retire and another 10,000 will leave for other 
reasons. Consider the fact that it literally takes several 
years to develop a claims representative--that is SSA's chief 
technical direct service operative--to the point where they 
become a fully competent journeyman and you will appreciate the 
problem the Agency faces in replacing experienced personnel 
while trying to handle ever increasing demands for public 
service.
    Further, I have to mention that SSA is currently faced with 
a huge and essentially unanticipated workload in the form of 
literally hundreds of thousands of cases that are referred to 
as special Title II disability cases. These involve situations 
whereby there was a failure to properly identify SSI recipients 
who, after becoming eligible for Title XVI payments, 
subsequently became eligible for Title II benefits. At that 
point, an application for Title II benefits should have been 
solicited and processed. Having identified these cases, SSA is 
now obligated to secure and process applications. This will 
involve a very significant and unanticipated expenditure of 
SSA's frontline field office resources and will have a direct 
impact on the ability of SSA to continue to provide an 
appropriate level of service.
    To deal with these challenges, we respectfully ask that the 
Subcommittee, number one, exclude the LAE from any cap that 
sets an arbitrary limit on discretionary spending; number two, 
set the base level of SSA's field office staffing at 33,500 
FTEs; number three, direct SSA to allow field office and 
teleservice center managers the flexibility to fill frontline 
management positions within overall staffing levels based on 
the need to maintain adequate levels of quality, training and 
public service; number four, grant SSA the authority and the 
funding to do advanced hiring of significant numbers of 
replacement personnel so that workforce transition can take 
place in a measured and effective manner; number five, grant 
SSA automatic funding mechanisms for stewardship activities 
based upon projected savings; number 6, provide special funding 
for the processing of the special Title II disability workload 
to minimize the impact on current public service.
    Mr. Chairman, thank you for inviting my testimony, and I 
would be happy to try to answer any questions that you may 
have.
    [The prepared statement of Mr. Pezza follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Wicker. Thank you very much, Mr. Pezza. You have 
certainly made a very clear case on behalf of your position. 
You represent some 3,000 persons in your category of 
administration; is that correct?
    Mr. Pezza. Yes, I do.
    Mr. Wicker. What would be the salary range of your 
membership?
    Mr. Pezza. It ranges from a GS-12, which is approximately 
$60,000 to a GS-14, which, depending on what section of the 
country you are in, could be about $100,000.
    Mr. Wicker. And you mentioned the less experienced 
personnel and bringing them from a claims adjustors----
    Mr. Pezza. Claims representative.
    Mr. Wicker [continuing]. Claims representative to an 
experienced journeyman. What would be the level of salary 
there?
    Mr. Pezza. That is a GS-11. And that would be approximately 
$40,000 to approximately $55,000. We hire them, though, at a 
GS-5 or a GS-7, depending on their qualifications. I have been 
working for the Social Security Administration for many years 
and I have been very proud to work for Social Security. I was 
doubly proud this afternoon when I heard Ms. Sammons testify. 
We hired her as a claims representative, so she is one of the 
people that we are talking about.
    Mr. Wicker. We certainly appreciate your testimony.
    Mr. Pezza. Thank you.
                              ----------                              

                                              Tuesday, May 7, 2002.

                AMERICAN SOCIETY OF TRANSPLANT SURGEONS


                                WITNESS

JAMES A. SCHULAK, PRESIDENT, AMERICAN SOCIETY OF TRANSPLANT SURGEONS
    Mr. Wicker. Dr. James A. Schulak, American Society of 
Transplant Surgeons. Dr. Schulak, we are glad have you with us.
    Dr. Schulak. It is a pleasure to be here. By background, I 
am Jim Schulak, I am the Chairman of the Department of Surgery 
at University Hospitals of Cleveland, and Case Western Reserve 
University, where I also serve as the Director of abdominal 
organ transplantation. And I come to you today as President of 
the American Society of Transplant Surgeons. We are a 
professional society comprised primarily of surgeons and 
scientists whose mission it is to advance the field of 
transplantation.
    Today, I would like to discuss funding for the two agencies 
that most directly impact our mission, the division of 
transplantation within HRSA and the National Institutes of 
Health. Let me first address the DOT, which among other things 
works to increase organ donation through public education 
campaigns and demonstration projects.
    In the past two fiscal years, the administration and this 
Subcommittee have been very supportive of the DOT allocating 
$20 million to it in fiscal year 2002. The President's current 
2003 budget proposal calls for an increase in the DOT 
appropriation to $25 million. While we are most grateful for 
this continued commitment, the ASTS encourages the subcommittee 
to consider further increasing fiscal year 2003 funding of the 
DOT to $30 million, an increase, we believe, commensurate with 
the enormity of the challenge the DOT faces if it is to 
significantly increase organ donation in this country. Mr. 
Chairman, we believe that every additional dollar spent at the 
DOT saves lives.
    As this Subcommittee well knows, the most pressing problem 
facing transplantation today is the lack of sufficient donors 
to meet the ever-increasing need. In the past 10 years, the 
number of registrants on the national organ transplant waiting 
list had quadrupled to nearly 80,000 people, while in contrast, 
the number of cadaver organ donors has increased very modestly, 
now numbering only 6,000 per year. The sad truth is that many 
of these people will die before an organ becomes available.
    In the past year alone, over 6,000 patients in the United 
States died while waiting for an organ transplant. On a 
personal note, just this past week, I lost one of my liver 
transplant patients who died of recurrent liver failure 10 
years after his first transplant. He was waiting for his second 
transplant. In appreciation of his first donor, this man 
volunteered countless hours to our local organ procurement 
organization, including serving both as its treasurer and 
president.
    Unfortunately, in his hour of greatest need, he was failed 
by the system for which he worked so hard to improve.
    Mr. Chairman, the ASTS applauds the Secretary of Health and 
Human Services Tommy Thompson for making organ donation a 
priority of his administration. And there are signs that this 
initiative is succeeding. In the past years, the total number 
of both live and dead organ donors increased 7 percent to over 
12,500. Most of this increase has been due to a dramatic 
increase of donation of organs by live persons who now actually 
outnumber dead donors in this country.
    If we are going to significantly reduce the size of the 
national transplant waiting list, we must find ways to increase 
the number of people who give consent for organ donation at the 
time of their death. And we must also find ways to improve the 
outcomes of people undergoing transplantation underscoring the 
importance of the NIH.
    In this regard the ASTS enthusiastically supports Congress 
and the Administration in their attempt to double the NIH 
budget over the next 5 years and we support the President's 
request for $27.3 million for the NIH in fiscal year 2003.
    In view of the severe organ donor shortage to which I have 
already alluded, the ASTA believes it is more important than 
ever that additional efforts be made to support research in 
transplantation at the NIH. We must learn to more successfully 
utilize organs from the growing number of marginally suitable 
donors, many of which are now being discarded for fear that 
they will not function after their transplantation. We must 
also find ways to significantly reduce the risk of irreversible 
rejection after technically successful transplantation in order 
to decrease the risks of immunosuppression medication and to 
lessen the necessity for retransplantation.
    Finally, we must initiate programs to better identify the 
actual risks to the growing number of live organ donors in 
America, the true altruistic heroes of our time. The ASTS 
strongly believes that an increased effort by the NIH in the 
area of transplantation research will help to achieve these 
goals. And to this end, I am proud to report that our society 
has recently offered to partner with the NIH by donating up to 
$2 million over the next 7 years to systematically study long-
term outcomes in live liver donors. We encourage this Committee 
once again to continue its generous investment in the mission 
of the NIH.
    Mr. Chairman, in closing I would like to thank you and the 
Subcommittee for the privilege of testifying today and I will 
be happy to answer any questions that you may have.
    Mr. Wicker. Thank you, Doctor.
    [The prepared statement of Dr. Schulak follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Wicker. With regard to live organ donors, I believe you 
said they are the truly altruistic people of our time. What is 
the failure rate among donors nationwide? Can you give us some 
sort of idea about that?
    Dr. Schulak. With regard to the actual donors, the people 
who would donate their kidney or part of their liver to a loved 
one, there is very little failure. The vast, vast majority of 
these patients will do well and live a normal life. The success 
rates for the recipients of their organs has increased 
dramatically, and this is something that is very important for 
most of the public to understand. Because often there is a 
reluctance to donate an organ whether one is alive or has a 
loved one who dies, because the thought is that transplantation 
is just not successful.
    Well, today a person who gets a kidney transplant has a 95 
percent of chance that kidney will work 1 year and has anywhere 
between 70 to 80 percent chance that it will work for 5 years, 
and it is as high as 70 percent or greater they will work 10 
years or longer. With liver and heart transplantation, the 
success rates are slightly below that. So it is truly a very 
successful endeavor today.
    Mr. Wicker. And the donor of that one kidney who has one 
left, what is the difference in his or her life expectancy?
    Dr. Schulak. There is none whatsoever. There are two 
studies that compared that to the general population and found 
that the probability or the survival probably is greater than 
the general population. Why might that be? These patients are 
selected out as extremely healthy people.
    Mr. Wicker. I know if Mr. Miller of Florida were here, he 
would want to commend you for your research and your efforts, 
because two of his children, at least that we know of, have 
been involved in live organ donation, and it has been very 
heartening to hear from Dan Miller about how his children are 
doing.
    Let me ask you about this. I have a driver's license here. 
On the back it says I hereby make anatomical gift upon my 
death, signature of donor date and two witnesses. Is that any 
good?
    Dr. Schulak. It is good in several ways. First of all, it 
indicates to your family if they did not know, and it also 
indicates to an organ procurement organization if you were to 
die that you wanted to be a donor. Now they will use that 
information through a State Registry to go to the family, and 
if the family wasn't aware that you wished to be a donor, they 
will make them aware so that perhaps it would increase their 
likelihood of consenting for the donation of your organs.
    In some states legislation has been passed that that alone 
is the consent.
    Mr. Wicker. Do you know how many States?
    Dr. Schulak. I do not know how many. In Ohio, we are going 
to begin enacting that legislation this summer.
    Mr. Wicker. Now, it is interesting that on the front of 
this driver's license, which had to be done digitally, and it 
is very much state of the art, I signed the driver's license 
before it was actually produced in final form. But on the back 
it is up to me to sign that if I want to and get a couple of 
witnesses. Wouldn't it be a good idea if we asked people when 
they renewed their driver's license if they wanted to go ahead 
and sign that with witnesses there, and that way it wouldn't be 
like this one which is totally blank because I have simply 
neglected to sign it? I am going to sign it right now.
    Dr. Schulak. I think in most States they are supposed to 
ask you each time you renew. I know in Ohio, at least in 
Cleveland where I get my license renewed, they ask me every 4 
years, am I still an organ donor.
    Mr. Wicker. But that is simply a matter of State law. They 
forgot to ask me or perhaps we were in a hurry that day. What 
else do I need to do to make darned sure that I donate organs 
on my death?
    Dr. Schulak. The most important thing anybody can do is to 
be sure that all of your family know that is what you want to 
do. Because in most cases, when you die, if you are a potential 
organ donor, the organ procurement organization which will be 
trying to set up the organ donation will go to your family and 
ask for consent. If they know you want to do it, hopefully they 
will give the consent.
    Mr. Wicker. The organ donor procurement people go to the 
people in the majority of deaths?
    Dr. Schulak. There are only a few people who die in such a 
way that their organs can be transplanted. Those that occur in 
hospital under certain circumstances where donation is 
possible, and that may only be as many as 10,000, 15,000 deaths 
a year in the United States.
    Mr. Wicker. We could go on and on. At Case Western, do you 
do a lot of NIH research?
    Dr. Schulak. Yes, it is ranked somewhere around 12th or 
13th in the United States in NIH research. $170 million a year.
    Mr. Wicker. I am green with envy, Doctor. Do you do most of 
that competitively, are there ongoing contracts?
    Dr. Schulak. Most of it is competitive but there is both.
    Mr. Wicker. Thank you for your testimony and for your 
personal advice to me and the Committee will receive it with 
great interest.
    Our next witness is Dr. Michael M.E. Johns of Emory 
University. Another very fine institution of higher learning. 
What do you have for us?
                              ----------                              

                                              Tuesday, May 7, 2002.

                            EMORY UNIVERSITY


                                WITNESS

MICHAEL M.E. JOHNS, DIRECTOR, WOODRUFF HEALTH SCIENCES CENTER, 
    EXECUTIVE VICE PRESIDENT FOR HEALTH AFFAIRS, EMORY UNIVERSITY AND 
    CEO, EMORY HEALTHCARE
    Dr. Johns. Thank you and good afternoon, thank you for 
inviting me to speak to you today. I am Michael Johns. I am a 
doctor. I have to say I went into medicine because I thought it 
was a noble profession and I wanted to be able to help other 
people. And I have to say thanks for allowing me to sit through 
this afternoon. I realize I am near the end. But it was of 
great benefit to me personally to listen to other people who 
are trying to do good for others. And it is a good feeling from 
that standpoint. And as others have expressed, I can see the 
complexity for you to try to determine how to support all of 
these worthy programs.
    I am a cancer surgeon by training. Somehow I fell off the 
straight and narrow and became an administrator and was the 
Dean of the Johns Hopkins University School of Medicine prior 
to moving to Emory to serve as the Vice President for Health 
Affairs and Director of Woodruff Health Sciences Center.
    Emory Health Sciences Center is a national leader in health 
care, health research and health policy, and we have an annual 
budget of $1.5 billion and our research funding topped $233 
million last year.
    Our system includes the School of Medicine, the School of 
Nursing, the School of Public Health, the Yerkes National 
Primate Research Center, and the Health Sciences Center 
includes Emory Healthcare, which is the most comprehensive 
health care system in Atlanta and one of the largest in the 
southeast. And I have the privilege and opportunity to oversee 
all of the good work of that organization.
    Today I am here on behalf of the Saturday Morning Working 
Group, which is a coalition of 20 academic health centers, and 
we conduct a large portion of the extramural biomedical and 
behavioral research that you fund and that is administered by 
the National Institutes of Health.
    I would like to thank you, Chairman Wicker, and all of the 
members of the Subcommittee for the outstanding support that 
you have provided to the NIH. This support has led to many 
discoveries at our member institutions, including Emory 
University. For example, researchers at our internationally 
renowned vaccine center are testing vaccines today for anthrax 
and infectious diseases that are likely to be used in a 
bioterrorist attack, and researchers at this facility have 
developed a promising AIDS vaccine that will soon begin testing 
in human clinical trials.
    Our NIH-funded Parkinson Disease Center of Excellence is at 
the forefront of efforts to develop new treatments for the 
disease, and Emory transplant physicians are working to 
establish immune tolerance for patients. And this research--
follows up on what you just heard--that research would 
eliminate the need for immunosuppressant medicines and could 
save the American health care system millions of dollars in 
drug costs.
    We have a new Center for Islet Transplantation that will 
enable us to participate in one of the most exciting scientific 
ventures of our times, the transplantation of human islet cells 
from donor pancreases to the recipients who we would hope then 
would produce insulin and thus have a cure for diabetes. This 
research has real, measurable impacts on the day-to-day lives 
of millions of Americans, and it has been made possible by you 
and by others who have been committed to doubling the NIH 
budget by fiscal year 2002.
    The Saturday Morning Working Group strongly supports the 
President's $27.3 billion for NIH, an increase of $3.7 billion. 
In addition to our support for this increase, I would like to 
mention two suggestions for strengthening our existing 
partnership.
    First we recommend that you maintain the salary cap for 
NIH-funded extramural researchers at the current level of 
Executive Level I. The higher salary level allows academic 
medical centers to attract and retain the most talented 
individuals.
    Second, we recommend that you increase extramural 
construction funding so that NIH investigators can continue to 
have state-of-the-art research facilities. This can be done in 
two ways: through increased appropriations for extramural 
facilities construction grants, and through the creation of a 
new extramural facilities loan guarantee program.
    In fiscal year 2002, Congress appropriated $110 million in 
extramural construction funding through NIH's NCRR. Yet a June 
2001 report prepared by the NIH Working Group on Construction 
of Research Facilities estimated that the expansion of 
biomedical research has created demand for new research space 
costing as much as $7 billion. This report echoes the concerns 
raised by a 1998 National Science Foundation report that 
identified an estimated $5.6 billion in deferred construction 
or repair projects. There is a clear and documented need for 
several billion dollars to rectify the situation, and we urge 
the Subcommittee to increase this appropriation for NIH's 
extramural facilities improvement grants by $190 million.
    Consistent with this recommendation of the NIH Working 
Group on Construction of Research Facilities, we also urge that 
the Subcommittee establish a new Federal loan guarantee program 
to support the construction and renovation of biomedical 
research facilities. And using a conservative assumption of a 5 
percent default rate for eligible research institutions, we 
estimate this would cost about $30 million in the budget 
authority in the fiscal 2003 bill.
    I want to say thank you for allowing me to come and speak 
to you. I am more than happy to answer your questions.
    [Clerk's note.--The Disclosure of Federal grants submitted 
by Dr. Johns was too lengthy to be printed, and is available in 
committee files.]
    [The prepared statement of Dr. Johns follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Wicker. Super. Could you leave with the Subcommittee a 
list of the 20 academic health centers and university-based 
research institutions that form the Saturday Morning Working 
Group? And has this number been constant since it was formed, 
or are you adding members?
    Dr. Johns. We are more than happy to add members, if the 
University of Mississippi would like to join, of course. But it 
started back in----
    Mr. Wicker. Was my question that transparent?
    Dr. Johns. Not at all, sir. But they are good friends 
there. And we came together as a group back in the era of 
health care reform when we were asked for some opinions about 
the future of health care in this country, and we continued to 
stick together. And people have come together, and that group 
has grown to this size over the last several years.
    Mr. Wicker. Do you think it might be a bit of an incentive 
for the medical profession if Congress enacted a degree of 
medical malpractice reform? Do you think that might be 
beneficial to the country as a whole?
    Dr. Johns. Well, that is a different topic, but my opinion 
is, absolutely, yes. I mean, the cost to our health care system 
for starters from this one item alone is quite immense. The 
growth in our own institution for this year of our malpractice 
cost will be over 50 percent. In addition, there are the 
immeasurable costs to the practice of defensive medicine.
    So I think that there could be some significant changes 
created that could make a difference for health care in this 
country if we could come to some kind of an agreement on how to 
make changes that still provide enough protection for the 
public and yet control the costs of malpractice and liability 
insurance. That really is an essential item. It is driving our 
costs up.
    Mr. Wicker. I appreciate you letting me go off on that 
particular tangent.
    Let me, lastly, ask you about islet transplantation. And 
just tell us--you say this is an exciting venture and what we 
hope to do. Are we making any progress, and do we have any 
success stories either in human or animal research with regard 
to curing diabetes in this fashion?
    Dr. Johns. Clearly the animal evidence is really excellent 
in terms of being able to transplant islet cells into animals, 
but now we are seeing--the protocol started up in Alberta, in 
Canada. It is called the--I guess it is called the Alberta 
Protocol, and we are working in cooperation with that group.
    Because of the research that we are doing in immunobiology 
that relates to the immune reaction that occurs when you 
transplant human cells into another human, we have developed 
some very interesting approaches to suppressing that response 
that hold great promise. That work has been very successful in 
animals. We are now looking at how do we take that into humans.
    Mr. Wicker. Where are the islet cells obtained?
    Dr. Johns. From the pancreas.
    Mr. Wicker. Of deceased animals or living animals?
    Dr. Johns. In animals? Well, we can do it in mice from 
living animals, yes. Yes. You can take it from living animals 
or, in theory, from transplantation.
    Mr. Wicker. So the hope would be that we would simply go 
into a live human donor and extract----
    Dr. Johns. Harvest islet cells. That would be an option. Or 
in donors, as we just discussed, who may have been in an 
automobile accident, harvesting a pancreas.
    Mr. Wicker. Would you care to speculate for the 
Subcommittee how far we are away from being able to do this on 
a large-scale basis?
    Dr. Johns. I don't believe I can give you that answer 
directly. I will go back and find out what the people who are 
doing this in our institution think.
    Mr. Wicker. Great deal of interest in that.
    We appreciate your work, and thank you for visiting with 
me.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                              Tuesday, May 7, 2002.

                    COMMITTEE FOR EDUCATION FUNDING


                                WITNESS

CYNDY LITTLEFIELD, PRESIDENT, COMMITTEE FOR EDUCATION FUNDING
    Mr. Wicker. Our last witness this afternoon is Cyndy 
Littlefield, president of the Committee for Education Funding.
    Ms. Littlefield, I don't know if you simply lost the 
lottery or were unlucky----
    Ms. Littlefield. I feel very honored.
    Mr. Wicker [continuing].Or you somehow offended a member of 
the staff, but you are our last witness of the day, and we 
appreciate very much your patience.
    Ms. Littlefield. Well, thank you, Mr. Chairman. And I 
appreciate the opportunity to testify today. I want to thank 
you, Mr. Chairman, as well as the distinguished staff for the 
opportunity that CEF has had through the years to work with 
you.
    I also want to commend the Committee on two counts. One, I 
want to thank you for the historic increase of $6.7 billion for 
education funding in last year's 2002 budget and 
appropriations. We are extremely grateful for that. And, 
second, I want to commend the Committee for encouraging the 
inclusion of $1 billion on the Pell shortfall in the 
supplemental for fiscal year 2002. That will indeed make great 
strides and assist our efforts in some education funding this 
year.
    Mr. Chairman, I am testifying today on behalf of CEF, the 
Nation's largest and oldest education coalition in the United 
States. I am here representing 107 national organizations from 
prekindergarten through elementary and secondary and higher 
education and beyond.
    Two years ago CEF established a natural goal to increase 
education funding from 2.1 cents to 5 cents on the Federal 
dollar. This last year we achieved a portion of that by 
increasing our goal from 2.1 cents to 2.4 cents.
    Incidentally, 54 percent of the American public agree with 
our goal; 30 percent believe that that goal is not even high 
enough. Mr. Chairman, today we are testifying post-9/11. Pre-
September 11th, 85 percent of the American public agreed that 
education was the number one priority. Now our budget presented 
by President Bush exemplifies a new national priority for a war 
on terrorism and national security concerns.
    Yet we acknowledge that our national priorities have 
changed, but we also know that to train the next fighter pilot, 
or to have a linguist proficient in Farsi, I thought that I 
would throw that in, we need to have an education system that 
exemplifies the best that our Nation can offer. To that end, 
the American public still concurs with our objectives.
    Now, in March, in the recent polling data, 67 percent of 
Americans believe that there has to be increased spending on 
education from kindergarten through college even if it means a 
larger deficit. Even so, 38 percent have ranked education as 
their number one Federal spending priority this year over very 
popular programs such as prescription drug benefits for the 
elderly, tax cuts, extending unemployment benefits and 
environmental protection concerns.
    Now, I am here to testify today, Mr. Chairman, to draw 
attention to two complications for the education community 
across the Nation this year. One is demographics. The second is 
State budget cuts.
    On demographics in our K-to-12 enrollments, we are at 
record levels, rising to 54 million students by the year 2007. 
For higher education our enrollment is going to increase from 
15.4 million in 2000 to about 17.5 million in the year 2010. We 
also know that more than 4 million students enrolled in 
postsecondary education will come from low-income families, 
with that number expected to increase by 25 percent to 5 
million more students over the next decade.
    Now, because of those demographic changes, our Nation's 
public schools still need to expand. One-half of the teaching 
force needs to be replaced by--a retiring teaching force of 
about 2 million teachers. And we also know that we need more 
Federal student aid to allocate for burgeoning student 
populations.
    Now, the second factor, as I mentioned before, is the State 
budget cuts. Right now we know that 29 States have cut higher 
education in this past year, 13 States have cut elementary and 
secondary education about $5.5 billion, and higher education 
has been cut from the State budgets, thus forcing some public 
institutions to increase their tuition because of those cuts. 
Education is a third of the State budgets across the country. 
With the squeeze in the cuts in the State budgets, and limited 
increases on the Federal side, education is literally squeezed 
this year.
    Now, Mr. Chairman, if we were to increase that long-term 
goal of a 5 cent strategy, which is daunting and commendable, 
in and of itself we would need about $12 billion a year over 
the next 5 or 6 years in order to do that. That is a formidable 
and difficult goal, we realize; however, let's just for a 
moment imagine what we could achieve with that goal.
    With $12 billion we could begin to fully fund the IDEA, 
Individuals with Disabilities Education Act, needing about $2.5 
billion a year to do so. We also could do more toward fully 
funding the authorized levels of $16 billion for Title 1, in 
the ESEA and Leave No Child Behind, and we could also increase 
by $4.6 billion for higher education, including a $500 Pell 
grant increase for fiscal year 2003 and other campus-based 
student aid.
    These are just some of the things that we would accomplish 
with more funding. We encourage the Committee to restore the 
proposed 40 education programs that were cut and targeted 
totalling $1 billion, including the drop-out prevention 
program, National Board for Professional Teaching Standards, 
LEAP State grants for colleges, for example.
    We also naturally encourage not freezing the 66 programs 
that were also targeted, including Pell grants, ESEA which have 
an impact on math/science partnerships, after-school programs 
and vocational education to mention just a few.
    Mr. Chairman, I can go on and on about the value of all of 
the tremendous programs that we represent and the excellent 
organizations that we represent. I think this Committee has 
exhibited tremendous support not only through Mr. Wicker, you 
serving as Chairman right at the moment, but also through 
Chairman Regula and Ranking Member Obey and all of their staff.
    We look forward to continuing to work with you in the 
future, and we know you will continue to do the right thing not 
only for our students, but our country. We are all counting on 
you. So thank you for this testimony.
    Mr. Wicker. Thank you for your testimony and your patience.
    [The prepared statement of Ms. Littlefield follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Wicker. You mentioned 100 member organizations 
nationally. How many States are represented by your committee?
    Ms. Littlefield. All 50.
    Mr. Wicker. What sort of organizations? What would be some 
examples?
    Ms. Littlefield. Well, we have the National Education 
Association, American Federation for Teachers. We have the New 
York State Board Association behind me. We also have the 
American Council on Education. It runs the gamut from 
prekindergarten through kindergarten through elementary and 
secondary. We represent the principals, the school boards, 
every imaginable one from the State school superintendents on 
up the line in our education coalition.
    Mr. Wicker. Well, I thank you very much for enlightening me 
about that and also for your testimony, which will be received 
in full by the Subcommittee with our thanks and appreciation.
    Ms. Littlefield. Thank you.
    Mr. Wicker. If there is no further business, we will stand 
adjourned.
                                             Thursday, May 9, 2002.

     NATIONAL COALITION FOR OSTEOPOROSIS AND RELATED BONE DISEASES

                                WITNESS

KATRINA BACHE, ADVOCATE, NATIONAL COALITION FOR OSTEOPOROSIS AND 
    RELATED BONE DISEASES, OLNEY, MARYLAND
    Mr. Regula. Okay. We are going to get this hearing started. 
We have a number of witnesses today that want to be heard on a 
wide variety of subjects. The rules are generally 5 minutes for 
witnesses and then whatever time the Committee members take in 
questions and so on.
    We have to move in order to get through the agenda that is 
before us. We have a little time because the Full Committee has 
recessed, but the other problem is we have votes on the floor 
that are going to interrupt our procedure, but that is the way 
that it is.
    So our first witness today, Katrina Bache, 8 years old.
    Katrina. Where is Katrina? She is advocating for the 
National Coalition for Osteoporosis and Related Bone Disease. 
Katrina, we are happy to have you here.
    Ms. Bache. Thank you.
    Mr. Regula. Eight years old. I have a grandson that is 8. 
It is a wonderful age.
    Would you like to testify, Katrina? Okay. You just go 
ahead.
    Ms. Bache. Hello. My name is Katrina Bache, and I am 8 
years old. I am in second grade, and I live in Olney, Maryland. 
I am here to speak on behalf of children with Osteogenesis 
Imperfecta. OI is a disease you are born with. Some kids can 
die from it. When I was born, my parents were sad and confused.
    My bones are very thin and break easily. I have had so many 
broken bones that we have lost count. One time I rolled off the 
coach, it broke my bone and bent my rod. When I was a baby, my 
daddy sneezed, and it startled me, and I broke my femur. My 
daddy felt very bad. When my daddy carried me up to bed one 
night, he tripped, and it broke a bone. He felt very guilty for 
a long time.
    I have had so many surgeries that we have lost count. Some 
of those surgeries were to repair fractures, and some were to 
put rods in my bones to straighten them and help prevent 
fractures. When I have surgery, I have to wear a cast for at 
least 2 months. Sometimes I have to wear a big cast called a 
spica. In the summer it is very, very hot, and I can't move. I 
just have to lay on my back, and I can't go swimming.
    At school I use a wheelchair, and I cannot play with the my 
friends on the block, the playground, because I have to stay on 
the blacktop. I am not allowed on the playground in my 
wheelchair. I miss out on a lot of things when I break a bone. 
I can't go to parties or to school or see my friends until I'm 
feeling better.
    At the hospital, I scream and cry when it is time for the 
anesthesia. People often stare at me and say mean things 
wherever I go. It makes me mad and sad. I am taking 
experimental treatment that is increasing my bone density, and 
my parents see more of the benefits. I can walk without my 
walker for the first time in my life. I have scoliosis, which 
is a back problem that makes my spine curve in. That treatment 
makes my spine stronger, and it hurts much less.
    NIH needs more money to study these and other treatments to 
find a cure. I would like to see more kids benefit from medical 
research. Thank you very much.
    Mr. Regula. Thank you, Katrina. You read very well.
    Ms. Bache. Thank you.
    [The prepared statement of Ms. Bache follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. We worry about reading in the United States, so 
you are a great example. You are a third-grader?
    Ms. Bache. Second.
    Mr. Regula. You do very, very well.
    Ms. Bache. Thank you.
    Mr. Regula. Would you like us to put more funding to 
research?
    Ms. Bache. I would really like that.
    Mr. Regula. Well, you know, Katrina, you are doing a great 
service, because maybe other little girls and boys as a result 
of the research that you are encouraging will not have as much 
difficulty as you may have had. So you are making a wonderful 
contribution. We appreciate you being here.
    And I don't know what the order is.
    Mr. Obey.
    Mr. Obey. I just want to say I think you did a very fine 
job, and I wonder if you would willing to give some reading 
lessons to some Members of Congress.
    Mr. Regula. Only the Democrats is what he meant.
    Mr. Jackson, you were next.
    Mr. Jackson. No, Mr. Chairman. I have no further questions.
    I just wanted to thank you for your testimony. It was very 
compelling, and we will do the very best we can to get you some 
more research moneys.
    Ms. Bache. Thank you.
    Mr. Regula. I didn't see the order you got in, but we will 
start with Mr. Sherwood.
    Mr. Sherwood. Katrina, thank you very much for your 
testimony. You were a wonderful advocate this morning, and we 
appreciate your testimony.
    Ms. Bache. Thank you.
    Mr. Peterson. I would just add to that, Katrina. I am sure 
your family and friends are very proud of you to be brave like 
you are to go in front of this group and testify so bravely. 
God bless you. And I think you will make a difference.
    Ms. Bache. Thank you very much.
    Mr. Miller. Katrina, you are a very nice young lady. Thank 
you very much for coming.
    Mr. Regula. Katrina, do you have brothers and sisters?
    Ms. Bache. No. No brothers or sisters.
    Mr. Regula. Is that your mother that is holding you? Your 
best pal. Well, thank you very much for coming.
                              ----------                              

                                             Thursday, May 9, 2002.

               CROHN'S AND COLITIS FOUNDATION OF AMERICA


                               WITNESSES

RODGER DeROSE, PRESIDENT AND CEO, CROHN'S AND COLITIS FOUNDATION OF 
    AMERICA, ACCOMPANIED BY NATHAN KOURIS, BEREA, OHIO
    Mr. Regula. Our next witness is Roger DeRose, President and 
CEO of the Crohn's and Colitis Foundation of America, 
accompanied by Nathan Kouris, 10 years old, from Berea, Ohio.
    Okay. We will be pleased to hear from you.
    Mr. DeRose. Mr. Chairman, thanks for letting both Nathan 
and I present our views on behalf of the Crohn's and Colitis 
Foundation of America, or CCFA as it is to known to so many.
    Nathan and I are representing about a million Americans who 
suffer from this disease. Crohn's and colitis fall into the 
family of inflammatory bowel disease, or IBD. Crohn's and 
colitis are chronic disorders of the gastrointestinal tract, 
with the most common symptoms being abdominal pain, diarrhea, 
intestinal bleeding, and these illnesses can cause many other 
complications, including arthritis, osteoporosis, liver 
disease, and colon cancer.
    Crohn's and colitis are seldom fatal, but they are 
physically and emotionally devastating, stripping patients of 
all of the things that are important in our life, including our 
work, social relationships and our social life. The disease 
affects not only the patient, but, of course, family members.
    You may remember that Nathan gave testimony last year with 
his mother Jean, and Nathan is one of 100,000 sufferers, 
children that suffer from Crohn's. Nathan has not lived a 
normal life. He has had to endure invasive medical tests, tube 
feeds, as well as endless hospital stays. And his 10 short 
years really been a study in courage and determination and the 
healing power of medicine. And yet these obstacles have not 
stopped Nathan. He is doing well, as you can see, and he is 
also conducting himself in sports as most children his age do.
    His success is due in part to some of the breakthroughs 
that have occurred in biomedical research which you and the NIH 
have strongly supported. The medical community is reporting 
that they are seeing more children of Nathan's age coming into 
this world with the disease, and, therefore, it is very 
important that we dedicate more research dollars to the cause 
of the disease, which we believe will lead us to a disease 
prevention strategy.
    There are 30,000 new cases a year, and we think it is very 
important that we put together a strategy that would allow 
disease prevention. Scientists have not yet determined which 
genetic and environmental factors are responsible for the 
disease, and so understanding the factors that accelerate it 
will help us with a prevention model.
    Last year a team of investigators announced the identity of 
the very first gene linked to Crohn's, and that breakthrough 
was allowed to us through the support of Congress which they 
provided to NIDDK in recent years. We think the next step is 
that we build on that knowledge to speed up our understanding 
of how the first gene discovery interacts with the other cells.
    We would like to present three recommendations, Mr. 
Chairman, on behalf of the 1 million patients. First we suggest 
that the Committee support the goal of doubling NIH's budget. 
We also recommend a 16 percent increase for NIDDK, NIAID 
nonbioterrorism-related research, and NIH over all in fiscal 
year 2003. We encourage the Subcommittee to increase IBD 
research funding within the NIDDK and NIAID at the same rate as 
NIH overall. And second, we strongly advocate for the 
appropriation of $1 million to the CDC for the development of 
an IBD prevention program, which would necessarily include 
epidemiology studies on the frequency of these diseases as well 
the environmental factors that promote them. And finally, we 
propose allocating $20 million to CDC's National Colorectal 
Roundtable Awareness Program, which should also include studies 
on colon cancer in this very high-risk group of Crohn's and 
colitis sufferers.
    So these three objectives will help us understand the 
factors that contribute to IBD and the steps that we can take 
in terms of a prevention strategy.
    On behalf of CCFA, thank you. Perhaps you have a question 
for Nathan or me.
    [The prepared statement of Mr. DeRose follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Is progress being made with the research of 
NIH?
    Mr. DeRose. I think it is dramatic. And we have a very 
strong relationship. The CCFA organization has a very strong 
relationship with NIH, and we share results. And oftentimes 
many of the research grants that we provide are seed fund 
grants that once the research is proven, NIH takes it from 
there. So I would say we are making very good success in the 
area.
    Mr. Regula. Mr. Young.
    Mr. Young. I have no questions. Thank you.
    Mr. Regula. Mr. Obey.
    Mr. Obey. No questions.
    Mr. Regula. Mr. Jackson.
    Mr. Jackson. Mr. Chairman, let me just say that this is a 
disease that I am very familiar with, and there is a member of 
my staff, who will remain anonymous, who has been stricken with 
this disease as well. So I am very familiar with it.
    And let me just thank you for your testimony. We will do 
everything that we can to try to broaden the research in this 
area.
    Mr. DeRose. Thank you, Mr. Jackson.
    Mr. Regula. Mr. Sherwood.
    Mr. Peterson.
    Mr. Miller.
    Mr. Wicker.
    Mr. Hoyer.
    Thank you very much for coming, and we hope that they will 
have continued success.
                              ----------                              

                                             Thursday, May 9, 2002.

                INTERNATIONAL RETT SYNDROME ASSOCIATION


                               WITNESSES

ALAN PERCY, M.D., DIRECTOR, RETT CENTER FOR EXCELLENCE, UNIVERSITY OF 
    ALABAMA AT BIRMINGHAM, ACCOMPANIED BY KATHY HUNTER, FOUNDER, 
    INTERNATIONAL RETT SYNDROME ASSOCIATION, AND JULIA ROBERTS, ACTRESS
    Mr. Regula. All right. Next is Dr. Alan Percy, Director of 
the Rett Center for Excellence at the University of Alabama at 
Birmingham. He is accompanied by Kathy Hunter, the founder of 
International Rett Syndrome Association, and Julia Roberts, the 
actress.
    Mr. Hoyer. Mr. Chairman, while Julia Roberts is coming in 
and Kathy Hunter is coming in, I would like to thank both Kathy 
Hunter and Ms. Roberts and Dr. Percy for their work. Last year 
we had a hearing when, during the course of Kathy's testimony 
on Rett Syndrome, she mentioned that Julia Roberts was very 
interested in this issue.
    After the hearing, I talked to Kathy and I said, if Julia 
Roberts is interested in this, we ought to have her come by, 
and we ought to have her come by because Julia Roberts can 
bring a lot of attention to Rett Syndrome. Is there any doubt 
in anybody's mind that I was correct that Julia Roberts could 
bring a lot of attention to Rett Syndrome and to the Committee? 
These photographers, of course, are critically interested in 
Rett Syndrome, and they are going to find out a lot about Rett 
Syndrome. I hope they stay for that purpose. And Julia has 
performed the function that we wanted her to do that, bring the 
attention to a very serious illness.
    Mr. Chairman, while Julia is getting to her seat, this 
committee, ladies and gentlemen of the Committee, particularly 
for those of you who are new, started in the 1980s focusing on 
Rett Syndrome, which was not identified until 1983 as a 
particular illness. Prior to that time it was misdiagnosed, 
still misdiagnosed on numerous occasions. Kathy Hunter's 
daughter Stacey, who is now 28 years of age, she will explain 
to you--I am not going to go through her testimony--but has 
shown incredible leadership in getting together families who 
are--who have beautiful, beautiful little girls for the most 
part who have a syndrome called and identified by Dr. Rett.
    Kathy, we are pleased that you are here.
    Julia, we are extraordinarily pleased that you are here to 
bring attention to this and your personal experience with it.
    And, Doctor, we thank you for your work on this as well.
    Thank you, Mr. Chairman.
    Mr. Regula. Julia, I want to say you have brought a lot of 
pleasure to a lot of people with your abilities as an actress. 
I certainly have enjoyed your movies. But you have an 
opportunity here to do something far more important, and that 
is to bring healing to children and, in effect, to their 
parents. So we are pleased that you take the time to come and 
share your insights as to this serious disease and the parents 
of children, born and unborn, that might have a better chance 
because you are going to testify. So we are grateful for that.
    And, Mr. Chairman, would you like to say anything?
    Mr. Young. Mr. Chairman, I want to congratulate you for 
holding this hearing today and bringing these important issues 
before the Congress. We appreciate all of the witnesses who 
have been here, and the three at the table. And Mr. Regula and 
Mr. Hoyer have both made it very clear that a lot of attention 
is being paid to this disease today, thank you very much to 
Julia Roberts.
    We are proud of what this Committee has done in this last 4 
or 5 years. We have, in fact, doubled the amount of money being 
invested each year for study and research for Rett syndromee. 
So we are doing the best we can. Medical science needs money. 
We provide the money. The scientists do the good work. 
Together, as a team, with support from people like you, one of 
these days we are going to get ahold of all of these bad 
diseases and find a way to improve the quality of life for 
everybody.
    Thank you for being here.
    Mr. Regula. Mr. Obey.
    Mr. Obey. Mr. Chairman, I think I will wait until the 
testimony is concluded for my remarks.
    Mr. Regula. Okay. To the visitors and our friends here 
today, during Ms. Robert's testimony we would kindly request 
that you not snap pictures so we don't have an interruption for 
that.
    Ms. Roberts, do you want to be the lead person testifying, 
or do you----
    Ms. Roberts. Okay. Well, I will go first. This is very 
impressive and nerve-wracking.
    Now, are you guys going to take pictures or not take 
pictures?
    Mr. Regula. We told them not to. You know the press doesn't 
always obey.
    Ms. Roberts. You guys will listen to me better than they 
listen to you guys.
    Mr. Chairman and members of the committee, thank you so 
much for giving us your precious time today. We are incredibly 
grateful, and I, as well you know, want to talk about Rett 
Syndrome. I am joined by Kathy Hunter, Founder and President of 
the International Rett Syndrome Association, and lots and lots 
of family members, I am happy to say, who, like me, know 
personally the disastrous toll of this neurological disorder.
    I usually just kind of ramble, but this is important, so 
today I read. We have come here to share our stories so that 
our girls and potentially hundreds of thousands of other 
children like them get the support and the encouragement they 
need and the medical research that will give them a better 
life.
    You may know that Rett Syndrome doesn't usually appear at 
birth. That moment is filled with the joy of new life. It is 
not until somewhere between 6 and 18 months that early signs of 
this terrible disease emerge, and the girls show signs of 
devastating regression in their ability to speak, walk, use 
their hands and perform even the simplest acts of daily life.
    By the age of 3, their parents, brothers and sisters must 
be their arms, their legs and their voices. These are the 
voices we hear today in these halls of Congress. Each of those 
innocent little girls begins life as a child of promise with 
unlimited potential, but once this disorder takes hold, their 
lives take on incredible hurt and challenge. They listen, but 
cannot speak. They struggle to accomplish the many things we 
take for granted every single day.
    But those who know and love them see beyond these obstacles 
to the intelligence and spirit that shines from within. While 
their hopes and dreams are altered forever, families of these 
girls somehow find an infinite reservoir of love and commitment 
to care for them. But in this particular instance, love and 
commitment are not enough.
    I come to you today at a time that has never been more 
encouraging. I am so happy to say that. We are all witnessing 
today the convergence of science and technology as bringing 
great promise for treatment, prevention and ultimately, we 
believe, a cure at speeds never before imagined.
    It has only been 18 years since Rett Syndrome took its 
name. Before that time most girls were misdiagnosed with autism 
or cerebral palsy. Not long ago getting the diagnosis of Rett 
Syndrome could take agonizing years as parents had to wait for 
the cascade of symptoms to develop. Today, due to the 
extraordinary gene discovery, the diagnosis is made through a 
simple blood test. While the test takes only moments, its 
result change lives forever.
    I have been pleased and have been touched by someone with 
Rett Syndrome, a little girl named Abigail.
    Anybody have some water for me?
    Rett Syndrome could not supress her sparkling smile and her 
inner light. Abigail, her parents, David and Ronnie, and my 
family have been friends for a long time, and Abigail was my 
pal. We spent time together without words. We connected with 
our eyes, with her squeals of delight and her incredibly wicked 
sense of humor. She was a joy to be around, and everyone who 
was ever near her loved her. Abigail joined the film Silent 
Angels as a wonderful ambassador for Rett Syndrome. Then last 
June the silent disorder suddenly and unexpectedly took Abigail 
from us, and she was just 10 years old.
    It is easy to underestimate these girls because of their 
silence; not so silent this morning. And I like to think that 
that is why Abigail and her family picked me, because I am so 
chatty. In their quiet I create the balance.
    In the past this Committee has taken a chance on this 
little known disorder by providing important funding for 
scientific research. Over the last 2 years, that funding has 
paid tremendous dividends. For instance, we now know this gene 
is more prevalent than anyone ever thought in other well-known 
disorders from autism to learning disabilities. Therefore, many 
hundreds of thousands of other Americans will share the 
benefits of Rett Syndrome research.
    In recognition of its importance, the genetics of Rett 
Syndrome are now being taught in our Nation's leading medical 
schools. Congress has within its power the ability to provide 
the funding needed to accelerate our understanding of Rett 
Syndrome. There is an urgent need now with this gene discovery 
to increase support for researchers and capitalize on their 
important work.
    Thanks to the continued leadership of Congressman Hoyer and 
the Committee, funds already appropriated have helped to bring 
us to where we are today: facing a future that for the first 
time holds the promise of treating, preventing and even curing 
Rett Syndrome. Researchers are not cautiously optimistic, they 
are confident that they can master the disease if they have the 
continued resources to do it.
    As you consider our request, our deeply heartfelt request, 
please keep my friend Abigail and my friends here and others 
that aren't here today in your hearts and in your minds. Her 
death was painful for her family and her friends, but Abigail's 
spirit motivates me and those with us today to raise our voices 
and the public's awareness about the urgent need for research 
funding of Rett Syndrome. So I beg you to hear our plea. Thank 
you.
    Mr. Regula. You can clap. Thank you for an effective and 
moving statement. That certainly will be something we will 
consider.
    [The prepared statement of the International Rett Syndrome 
Association follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Would you like to add to the statement?
    Dr. Percy. Mr. Chairman, Mr. Hoyer, other members of the 
Committee, good afternoon. I am not very good with prepared 
remarks either, but I will perhaps digress a few times as I go 
through this. Thank you very much for giving me the opportunity 
to tell you about a scientific endeavor that has the potential 
to help millions of children worldwide.
    You know that the burden of serious illness is especially 
heartbreaking when it afflicts young children. But what you may 
not know is that the discovery in 1999 of mutations in a gene 
called MECP2, you will hear that a lot, set off a revolution in 
research into the causes of certain serious neurologic diseases 
of children such as Rett Syndrome and autism.
    Rett Syndrome is seen predominately in females. Between age 
6 to 18 months these happy, playful children begin to lose 
communication skills and the ability to control their body 
movements and functions. Parents are forced to watch their 
children slip into a state of silent, immobilized withdrawal.
    The medical, psychological and social burdens on Rett 
Syndrome families are great. Let me say that unfortunately, 
Professor Rett died just before this gene was identified, but 
he pointed out very clearly that despite the fact that these 
girls could not communicate using their hands or their words, 
their eyes were an effective means of communication. So if you 
look at these young girls or women, you will see that they have 
some message in their eyes that is very penetrating.
    The heart of this devastating disorder lies within the 
genetic structure called chromatin. Chromatin is the very 
tightly packed form of chromosomes that permit tens of 
thousands of genes to fit neatly into each tiny human cell. 
Chromatin is like a ball of yarn made up of chromosomes. The 
cell has ways of reaching into that ball to turn on just those 
specific genes it needs to make specific proteins exactly when 
the cell needs them.
    The MECP2 gene is critical to both the development and the 
maintenance of a healthy brain. Normally MECP2 stifles or 
regulates the action of certain other genes in the chromatin 
until they are needed or when they are no longer needed. When 
MECP2 is mutated and cannot work properly, some areas of the 
brain simply run wild, while others lapse into gridlock. 
Therefore, the discovery of mutations in the MECP2 gene in 
girls with Rett Syndrome by Dr. Huda Zoghbi and her colleagues 
at the Baylor College of Medicine, Houston, gave researchers an 
important clue as to how the healthy brain develops in growing 
children.
    That was exciting in and of itself, but just as exciting 
the discovery also contributed significantly to recognition of 
a new class of inherited neurodevelopmental disorders based on 
these MECP2 mutations. Among those disorders are autism, 
psychosis, severe mental retardation and spastic syndromes in 
boys.
    We are now at a critical time in chromatin disease 
research. There is growing excitement among scientists and 
increasing awareness that investment in Rett Syndrome research 
will pay handsome dividends in understanding this and other 
chromatin disorders. By increasing appropriations to the 
relevant NIH institutes such as NINDS or NICHD, you will help 
us continue to reap these dividends. We must learn more about 
how MECP2 and its proteins affect other genes and tissues 
during nervous system development and how the nervous system is 
remodeled during development and throughout life by activation 
and inactivation of genes like those regulated by MECP2.
    We also need to develop animal models of chromatin diseases 
that give us new insights into the rapid development of the 
human brain during infancy. We need to study the genetic makeup 
of families of Rett Syndrome and related disorders for clues to 
disease onset and progression. To accomplish this would require 
an investment of $15.5 million in the next fiscal year; $9 
million would allow the necessary studies to learn about the 
role of MECP2 and its related genes. In addition, I also 
encourage you to add $2.5 million to support animal model 
research into understanding and treatment of chromatin 
diseases. And finally, I encourage you to appropriate at least 
$4 million toward research into the daily problems that afflict 
these girls or women, such as disorders of breathing, 
digestion, cardiovascular function and epilepsy.
    I believe that with your support we can bring hope and 
relief to the children and the families of the children 
afflicted with the devastating burdens of chromatin disorders. 
Thank you for your time.
    Mr. Hoyer. Mr. Chairman. If Kathy could also, Ms. Hunter, 
could also introduce the four young people she has brought with 
them. I know Abigail's parents. And Abigail obviously sadly 
can't be here. But we have four beautiful young women who are 
here.
    Kathy, could you introduce them?
    Ms. Hunter. I will introduce them. These are some of our 
foot soldiers for Rett Syndrome, some little girls that we 
picked today because we wanted to show you the face of Rett 
Syndrome and what it is like to grow up with Rett Syndrome. So, 
Daisy is here with us, Daisy Herlitz, who is 2 years old. She 
is the tiniest little one there. As you see, she is just a 
happy baby enjoying herself and smiling at everybody and having 
a good time.
     Abby is next to her. Abby is 5 years old. Abby 
Yentslenger.
    Then we have Megan Fay, who is 9 years old, right here. She 
has been singing a little song for us all throughout.
    And our oldest person here today is Joclyn Curtin at the 
end. She is the old woman of the group. She is not the oldest 
with our group downstairs, but she is the oldest with us here 
today. She is 23 years old.
    So you can see that Rett Syndrome starts out as a disorder, 
almost unrecognizable. That is why Rett Syndrome went for so 
long without anyone even noticing it. You don't know in the 
beginning until your child stops developing. They develop 
speech, they begin to walk, they interact, and all of a sudden 
something happens. They go through a regression, they have 
autistic-like symptoms, and they become withdrawn in many of 
them, and then go on to develop severe handicaps by the time 
they are 3.
    So they are here to help us. We have a whole room full of 
families downstairs, and I hope that the reporters will get to 
see them and interview them to talk about what it is like to 
have a child with Rett Syndrome.
    Mr. Regula. Well, thank you very much.
    Mr. Chairman would like to yield his time to his wife 
Beverly. She is very active pushing for diseases and in getting 
help for people. Furthermore, she is from my district.
    Beverly.
    Mrs. Young. Give them the money.
    Mr. Regula. Mr. Obey.
    Mr. Young. I listen closely to what my wife says. Every 
word.
    Mr. Obey. Mr. Chairman, I would simply--I would like to 
thank you for coming, and to say that I think we have all been 
moved by your statement today. You have raised serious concerns 
about a terrible disease, and this committee will try to 
respond as it has for the past years.
    But I think it is important, and I--I am saying this for 
your benefit and the benefit of all of the witnesses who will 
testify today. I think it is important that everyone understand 
how this committee goes about doing its business, because, 
while we appropriate funds to the various institutes of the 
National Institutes of Health, we do not substitute political 
judgments for scientific judgments by dictating exactly how 
much can be spent on each disease, because if we did, medical 
research would be a shambles. We try to pressure, we try to 
press the institutes. But in the end, we don't appropriate a 
specific amount of dollars for any disease.
    I think it is also important to understand something else. 
When I first came on this committee in 1973, we provided $1.8 
billion to NIH. Today we provide $23.6 billion. That is a 13-
fold increase over that time period, and I wish it could have 
been double that. Over the last 5 years, with the appropriation 
this year, we will have doubled NIH funding.
    But we are facing some problems, and each and every person 
who is testifying needs to understand what those problems are. 
First of all, in the budget that has been sent down to us by 
OMB, we have a big increase for NIH, but that is paid for by a 
$1.4 billion cutback in other health programs. I don't think 
that cutback can be allowed to stand.
    Secondly, even though NIH's budget would rise by 16 percent 
this year, the OMB long-range plan calls for that 16 percent 
increase to shrink to 2 percent in future years. That 2 percent 
will make it virtually impossible for NIH to even renew 
existing grants let alone make new ones.
    And even without that problem, we face the fact that NIH 
with available funding is only able to fund one-third of what 
is judged to be scientifically sound research. So if we could, 
we would like to get that up even higher. But the problem is 
that for that to happen, we need to enlist each and every one 
of you in the effort to make the public understand something 
else, and that is that as long as we continue to stick to the 
idea that over the next 20 years we should pass out $7 trillion 
in tax cuts, we will never have the money on the table that is 
needed to provide needed medical research, to provide needed 
upgrades for schools or any other worthy social cause.
    And so I very much welcome your testimony and the testimony 
of every person who will testify on every deserving disease 
today, but I would ask you, in addition to what you are doing, 
to fight for added funding for those diseases. Please help us 
in making the broader argument about the need to increase our 
investments across the board or else we will miss all kinds of 
scientific opportunities, and we will leave many children 
behind both in the health care area and in the education area. 
Thank you for coming.
    Mr. Regula. For the Committee members, we have three votes: 
the previous question, the rule, and the motion to adjourn. And 
I know Ms. Roberts has another schedule to make. So what I 
would like to do--I will need your cooperation--is go--we will 
go on our side, then back over. If you have a burning question, 
or if you have a comment, something you would like to say, we 
can get done here in about 8 minutes or so. Then that will fit 
with your schedule and ours, too.
    Mr. Hoyer, since Ms. Roberts is your guest--that is the 10-
minute warning bell.
    Mr. Hoyer. Well, if Ms. Roberts is my guest, it has been a 
highlight of my day, that is for sure.
    My Abigail was a young woman named Christy. I went to 
church with her for approximately 15 years. She lived longer 
than Abigail. She was--I met her as a very young 4-year-old. 
And at some 20 years of age, Judy and I moved, and so we didn't 
go to Broad View Baptist any longer, but we go back all of the 
time because my mother-in-law still goes to church there, and 
we see her parents, Allen and Gail. Christy is now in a full-
care facility because it is difficult for her to be cared for.
    Julia, the Christy and the Abigails and all of the young 
people not just of this neurological disorder, but of every 
neurological disorder, and, frankly, all of the people here, we 
have taken an inordinate amount of time because we have one of 
America's greatest actresses here with us, and she gets a lot 
of attention. She could use that to bring attention to all 
sorts of inconsequential things. She has chosen to spend at 
least a couple of days, maybe 3, to call attention not just to 
Rett Syndrome, but to the maladies that affect mankind in each 
of your sons and your daughters, or your husbands or your 
wives.
    And, Julia, we thank you for dedicating your time to that 
objective. It is critically important, because to the extent 
that people know, my view is they will do, they will act. As 
Beverly said, give them the money. Thank you for being here.
    Mr. Regula. Who on this side? Any of you would like to--Mr. 
Sherwood, you are the next in line.
    Mr. Sherwood. Well, thank you all for coming today. It is 
always so informative for us to see the families and the 
children that the NIH helps with their research.
    And, you know, this has been a morning that we will all 
remember for various reasons, Julia and the children and your 
eloquent testimony, and we will do our best with it. Thank you 
very much.
    Mr. Regula. Mr. Jackson.
    Mr. Jackson. Thank you, Mr. Chairman. My remarks are 
unusually brief. I want to associate myself with Ranking Member 
Obey's comments because we do need your participation in the 
broader struggle to make humane priorities a part of our 
Federal budget process for which this disease and the funding 
for this disease becomes an important aspect.
    I also want to associate myself in a very unusual way with 
Mrs. Young's comments. On September the 10th, there was no 
money for Social Security, no money for education, and no money 
for health care in our country. And on September the 12th, this 
Congress mustered up the energy and the resources to find $40 
billion, another 15- to bail out the airline industry, another 
40,000,000,000 in a supplemental. And as we adjourn this 
hearing shortly at 3:00, we will be contemplating even more 
money in pursuit of Osama bin Laden in Afghanistan, more than 
$100 billion in about a year's time for that purpose. And the 
Committee seems to be having a problem finding $15.5 million 
for Rett Syndrome, and so at some point in time the Committee 
is going to have to move beyond the rhetoric and put its money 
where its mouth is.
    So I want to associate myself with what Mrs. Young knows to 
be the case, that when this Congress decides it wants to spend 
money on a particular disease or on a particular entity or on 
something of concern, they have the money. But when it comes to 
finding and being motivated by these children, the Congress 
seems to move a lot slower. And so I still pray for the day 
when this Congress will treat the young witnesses that you have 
brought here today the same way it is treating Mr. bin Laden in 
Afghanistan.
    Mr. Regula. Mr. Peterson.
    Mr. Peterson. Thank you very much.
    I would like to thank Kathy and Julia and Dr. Percy for 
your excellent testimony and for the family and the children. 
You are the brightest of the witnesses. Your faces will not be 
forgotten. But I would like to say to Julia, when someone like 
you lends your name to an issue like this, you do raise the 
awareness level immensely in this country. And today, from this 
day forward, Rett Syndrome will be much more understood by more 
Americans than it ever was before.
    And Mr. Obey said we don't earmark funding for NIH. That is 
true. But each and every one of us as members of this committee 
or Members of Congress do share our views in many ways with 
NIH, where we think their priorities ought to be. And so I 
think your time here today will be very meaningful in helping 
the appropriate amount of funding to be allocated to this 
terrible disease. And I want to commend all of you giving of 
yourselves. It will make a difference.
    Mr. Regula. Mr. Miller.
    Mr. Miller. Thank you for being here today and bringing us 
attention to this dreaded disease. But thank you for bringing 
attention to biomedical research. This is really one of the 
crown jewels of the Federal Government, and most people don't 
realize that we are going to spend up to $27 billion this year 
that will spread throughout the country for all diseases and 
such. There is an interrelationship when you look at the cancer 
or AIDS and such. There is knowledge that comes from all of the 
research that helps individual ones. So your presence here 
helps raise the profile for all biomedical research. Thank you.
    Mr. Regula. Ms. DeLauro.
    Ms. DeLauro. Thank you very much, Mr. Chairman.
    And what can we say but thank you very, very much for 
taking the power that you have. It is really extraordinary. And 
we can talk all day and all night, but we cannot get all of 
these folks to pay much attention. So we thank you for what you 
do. And the faces of the youngsters will not be forgotten.
    I associate myself with Mr. Obey's comments. Budgets, 
whether they be Federal, State or local budgets, are living 
documents. They are about the priorities that we as a 
government have and what we hold dear and what we want to try 
to do in our society.
    We welcome your speaking out on this disease, and we will 
pay attention to it. We welcome your speaking out on what the 
priorities of this great Nation are in terms of what it must do 
on behalf of families in this country. So we thank you for 
being here. And just keep on going.
    Mr. Regula. Mr. Wicker.
    Mr. Wicker. Well, thank you, Mr. Chairman. And I, too, will 
be brief.
    I want to thank all three members of the panel for their 
testimony. I want to thank the Chairman of the Subcommittee for 
scheduling this hearing.
    The chairman has stated in the past that there are two 
great commandments. One, of course, is to love God. The other 
is to love your neighbor. And we like to think that this 
Subcommittee is the Subcommittee about loving your neighbor. So 
thank you very much for highlighting this very important issue, 
and I can assure the witnesses that we will be very interested 
in following up on the testimony.
    Mr. Regula. I want to thank the parents that have been 
here, because you are eloquent testimony to the importance of 
what Ms. Roberts is talking about. And this is very impressive. 
Along with your testimony, you each will have a videotape, 
Silent Angels, and it is narrated by Ms. Roberts. And if this 
Committee has anything to do with it, you are going to get an 
Oscar for this.
    Ms. Hunter. It is also going to be shown on Discovery 
Health on June 1.
    Mr. Regula. Thank you very much.
    Ms. Roberts. That is my friend Abigail on the cover with me 
there.
    Mr. Regula. I see.
    Mr. Hoyer. I see Abigail, but who is this?
    Ms. Roberts. Some chick looking for some dough.
    Mr. Regula. Thank you very much.
    Ms. Hunter. I would like to thank the Committee one more 
time for taking a chance on Rett Syndrome back in 1986 when 
this disorder barely had even a name. It was a fishing 
expedition. You put the money towards it. The gene that causes 
Rett Syndrome, it is the first time it has ever been implicated 
in human disease. It goes way beyond--it may affect millions of 
Americans, disorders from autism to mental retardation to 
schizophrenia and bipolar disorder. It is huge.
    Mr. Regula. The Committee is in recess to vote. We have the 
three votes. They are holding the vote for us and full 
Committee at 3 o'clock. We have many other witnesses today. So 
let's get back as quickly as we can, Committee members.
                              ----------                              

                                             Thursday, May 9, 2002.

                       COOLEY'S ANEMIA FOUNDATION


                               WITNESSES

PETER CHIECO, FIRST VICE PRESIDENT OF THE MEDICAL ADVISORY BOARD, 
    COOLEY'S ANEMIA FOUNDATION, ACCOMPANIED BY MICHELLE CHIECO, 
    GREENWICH, CONNECTICUT
    Mr. Regula. We will reconvene the hearing. The pressure is 
off a little bit. Peter Chieco, First Vice President of the 
Medical Advisory Board of the Cooley's Anemia Foundation, 
accompanied by Michelle, and they want to testify. So, 
Michelle, I will call on you first.
    Mr. Chieco. Thank you, Mr. Chairman. Good afternoon. As you 
said, my name is Peter Chieco. I serve as the Vice President of 
medical information with the Cooley's Anemia Foundation, and 
today I am here with my daughter Michelle, who you will hear 
from in just a minute. Michelle is a 13-year-old high school 
student and is a Cooley's anemia patient. I would like Michelle 
to explain what Cooley's anemia, or thalassemia, is all about 
and what it is like to live with that, and when she concludes 
her presentation, I would like to talk about the Foundation's 
legislative priorities for fiscal year 2003.
    Michelle.
    Ms. Chieco. Mr. Chairman, thank you for letting me talk to 
the Subcommittee today. I know that as I sit before you, I seem 
to be as healthy as any other teenager you know, but I actually 
have a fatal genetic blood disease, and I need your help.
    In front of me I have put four apples to help me explain to 
you what I have. For the first apple, which is large and 
perfectly shaped, is what your red blood cells look like, Mr. 
Chairman. Probably most everyone else in this room has red 
blood cells that look like this. These two second apples, 
however, are smaller. They are not shaped exactly right and are 
not as bright red of a color. This is not my red blood cell. 
These represent my dad and mom's red blood cells. They are both 
trait carriers. If both parents are trait carriers, there is a 
1 in 4 chance that the child will have Cooley's anemia.
    I am the 1 in 4. This green apple represents my blood 
cells. They are not the same as yours. They are not even the 
same as my parents'. My red blood cells do not work right, and 
we all know that red blood cells are needed to carry oxygen 
throughout the body to keep us alive. So I need to try to get 
from this apple to the red one.
    How do I go from the green apple to the red one? Every 2 
weeks I receive a blood transfusion. I am 13 years old, and I 
have already received about 500 units of blood, probably more 
than every person in this entire building all together. It 
hurts, and it is no fun, but it keeps me alive.
    But that is not the end of my story. Transfused blood 
brings with it infections. Many thalassemia patients, for 
example, have hepatitis C or HIV. It also brings iron overload. 
Iron from the transfused blood builds up and especially in the 
liver and heart, and our bodies cannot remove it. To get rid of 
it, I place a needle under the skin of my leg or stomach 6 
nights a week. The needle is attached to a pump that infuses a 
drug called Desferal that binds with the iron and lets the body 
get rid of it. I have to do that for 12 hours a night.
    Mr. Chairman, I am not complaining. I am happy and grateful 
for what I have, but I would not be telling you the truth if it 
wasn't a problem. It is a problem. I know kids that suffer 
terribly. I have known people who have died of AIDS that they 
got from their transfusion. I have friends with the disease I 
have that are my age with osteoporosis, and again, I am only 13 
years old.
    Now my dad would like to tell you what you can do to help 
me and other Cooley's anemia patients.
    Mr. Chieco. Mr. Chairman, our written statements include 
the complete legislative program of the Cooley's Anemia 
Foundation as it relates to this subcommittee in some detail. I 
would like to summarize for you now.
    We have four legislative priorities. The first, we are 
seeking continuation of the $2.2 million that Congress has 
appropriated to the CDC last year to operate a blood safety 
program directed at thalassemia patients. We are grateful that 
you did that and urge you to continue this critical program.
    Second, we urge you to continue report language that 
supports the NHLBI's Thalassemia Clinical Research Network, 
which is doing critical research on osteoporosis and other 
important effects of Cooley's anemia. As always, we have to 
recognize the key role of our good friend Congresswoman Rosa 
DeLauro in supporting the establishment of that network.
    Third, we ask for continued support for NIDDK's research 
agenda that includes finding better, less barbaric ways of 
removing iron and better means of measuring it. Ideally we are 
looking for an oral chelator to get rid of this nightly pump.
    Finally, with the help of some of the members of this 
subcommittee, the Maternal and Child Health Bureau backed off 
of plans to eliminate funding for three comprehensive 
thalassemia treatment centers. We ask that you would continue 
strong support language on that topic as well.
    Mr. Chairman, as I sit here before you today, I am very 
proud of my daughter and the way she deals proactively with 
this disease and the strength that she shows not only to my 
family, but to other patients. Michelle and I are honored to be 
here to testify today. We would be pleased to respond to any 
questions that you or any member of the Subcommittee may have. 
Thank you.
    [The prepared statement of Mr. Chieco follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Michelle, you maintain a regular school 
routine?
    Ms. Chieco. Yes, I do.
    Mr. Regula. You handle yourself very well.
    Ms. Chieco. Thank you.
    Mr. Regula. What you seek is more money and research on 
this condition?
    Mr. Chieco. We seek that the NHLBI continues to get 
funding, and that the NIDDK continues to get funding for better 
ways of dealing with it. Obviously we are waiting for gene 
therapy to cure the disease, but right now she has to go 
through--and she handles it great--a very demanding program 
every day, and we are losing our patients as they get older, 
because they can't do this nightly pump routine, and they are 
dying from the iron overload. We lose half of our patients over 
the age of 30 because of the inability to do this every single 
night.
    She handles it great, and we do it great, but it is 
barbaric, and we are hopeful that with her great attitude as 
she gets older, she will be able to do this on her own as she 
goes into, you know, college, and she has to take care of 
herself without our influence as parents. And we know she will. 
She is doing a great job of it.
    Mr. Regula. You exhibit a lot of discipline, and that is 
remarkable. Thank you for coming. Your testimony will not only 
help you, we hope, but many others.
    Unfortunately, we have to move on.
    Mr. Chieco. Thank you, Mr. Chairman.
                              ----------                              

                                             Thursday, May 9, 2002.

                  POLYCYSTIC KIDNEY DISEASE FOUNDATION


                               WITNESSES

DAN LARSON, PRESIDENT AND CEO, PKD FOUNDATION, ACCOMPANIED BY JOSHUA 
    DENTON WASZAK, BONNER SPRINGS, KANSAS
    Mr. Regula. Our next witness, Dan Larson, President and CEO 
of PKD Foundation. He is accompanied by Joshua Waszak, who is 
11 years old.
    Okay. Joshua, are you going to testify for us?
    Mr. Larson. I will start out, and I will introduce Josh.
    Good afternoon, Mr. Chairman and members of the 
Subcommittee. My name is Dan Larson, President and CEO of the 
PKD Foundation, the only organization worldwide solely devoted 
to programs of biomedical research, patient education, public 
awareness and advocacy for 600,000 Americans, the 12.5 million 
people worldwide who suffer from polycystic kidney disease, or 
PKD.
    Today I have the high honor of introducing to you Joshua 
Waszak, a courageous 11-year-old boy from America's heartland. 
Josh is an all-American boy, the kid next door, a model 
student, yet because PKD equally affects people irrespective of 
age, race, gender or ethnic background, Josh and approximately 
1,400 men, women and children in each of America's 435 
congressional districts have an inheritance they don't want and 
can't give back, something he is here to tell you about.
    Mr. Waszak. Hi. I am Josh. I am 11 years old and in the 
fifth grade. Like most kids my age, I like riding my bike and 
playing with my dog. My favorite subject in school is math, but 
I am really not like other kids my age. That is because I have 
PKD. My mom says I was born premature, because PKD caused my 
kidneys to fail when I was still in her stomach. She says they 
did something called a C-section to save my life. Then I had to 
spend a long time in the hospital before I could go home.
    PKD sounds like it just hurts the kidneys, but that is not 
true. Among other things, it causes high blood pressure. So I 
have had to take tons of pills ever since I was a baby. My mom 
says I take more blood pressure pills than most adults. I have 
a regular doctor, a kidney doctor and a heart doctor. Oh, yeah, 
and a surgeon, too.
    Today I feel pretty good, but I am still scared. That is 
because my grandpa recently died from PKD. Grandpa and I were 
best buds. We used to like to go fishing together, but when he 
was in the hospital, I used to crawl in bed with him and keep 
him company, and he would tell me stories. I loved my grandpa a 
lot. My mom says even though he was a grandpa, PKD killed him 
early because he was only 56.
    I am afraid because my mom has PKD, too, and it causes her 
lots of pain. It makes me sad when she is hurting. So when she 
is in the hospital, I crawl in bed with her and tell her 
stories. My mom is a nurse, and she takes care of people all 
day long, but then she comes home really tired. I wish she had 
more time to rest, but she says she needs more money to keep 
working to pay for all of the pills we take, and even though 
something they call a genetic discrimination often keeps people 
like my mom from getting health insurance or a good job, we 
feel it is more important to speak up for people who suffer 
from PKD, because if we don't, who will? I don't want my mom to 
die young like my grandpa did, and I don't want to die young 
either. I want to do something, but I am just a kid.
    My mom tells me I am helping because I let the researchers 
do tests on me and stick me with needles to take blood for 
research. I hate needles, but I hold still so they don't miss. 
My mom gets studied, too. Every year we spend a week of our 
vacation in the hospital together so doctors can learn more 
about PKD. Scientists have already found the bad PKD genes, and 
now they are discovering new things about PKD all the time in 
time to help them find a cure. Mom says now all they need is 
more money for research, but that PKD doesn't get near as much 
funding from the government as other diseases, even though lots 
more people have PKD. Plus, PKD costs the government about $2 
billion a year.
    I sure hope they can find something in time to help me and 
my mom, too. And you know what? Because she inherited PKD from 
my grandpa and I got it from her, they say my kids will get PKD 
from me, too, and that scares me.
    Will you help the scientists get more money for research so 
my mom and I don't die young like my grandpa did? More research 
is our only hope. So please help the scientists get more money 
to find a treatment for PKD. Thank you for letting me come and 
tell my story.
    Mr. Larson. Thank you, Josh, and my sincere thanks to the 
Subcommittee for your long-standing support for increased PKD 
research at the NIDDK. Purely on the basis of prevalence, 
morbidity, mortality, costs to the Federal Government, the 
scientific momentum and therapeutic opportunity, PKD would, by 
any objective standard, qualify for a full-court press by the 
NIH to find a treatment and cure. Therefore we are grateful 
NIDDK has scheduled a PKD strategic planning meeting this 
year--this July to guide Federal research efforts for the next 
3 to 5 years. Likewise, we hope the positive new leadership at 
NIDDK will more aggressively allocate research funding towards 
finding a treatment and cure for PKD before it is too late for 
boys like Josh and adults like his mom. Therefore, I 
respectively urge the Subcommittee to take whatever steps 
necessary to assure ample resources are committed to PKD 
research in fiscal year 2003 by the National Institutes of 
Health.
    Thank you. If you would have any questions, I would be 
happy to respond to them, or Josh as well.
    [The prepared statement of Mr. Larson and Mr. Wazak 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Are their efforts to date helping, you think?
    Mr. Larson. Yes, sir. There is a blood pressure study that 
has been done at the University of Colorado in which Josh 
participates that shows that if you catch it early, and you are 
able to monitor the blood pressure and keep it at a low level 
using an ACE inhibitor, you can prolong kidney function by 
perhaps 10 to 15 years. The difficult thing is because it is a 
genetic disease and dominantly inherited, people don't get 
tested because they don't want to have a preexisting condition 
which then jeopardizes their health insurance, their 
employability, their promotability, things of that nature.
    Mr. Regula. Do you use dialysis with this at all?
    Mr. Larson. Yes, sir. PKD is the fourth leading cause of 
kidney failure, and it affects about 10 percent of those who 
have end-stage renal disease, and so while dialysis and a 
transplant treat end-stage renal disease, it doesn't do 
anything for polycystic kidney disease, because most people 
have already started their families by the time they reach 
kidney failure, roughly by the age of 50.
    Mr. Regula. Mr. Miller.
    Mr. Miller. No questions. Thank you. Josh, you did a very 
fine job. Thank you.
    Mr. Regula. Ms. Granger.
    Thank you very much.
                              ----------                              

                                             Thursday, May 9, 2002.

                       AMERICAN LIVER FOUNDATION


                               WITNESSES

PAUL D. BERK, M.D., CHAIRMAN, BOARD OF DIRECTORS, AMERICAN LIVER 
    FOUNDATION, ACCOMPANIED BY HOWELL SMITH, LIVER TRANSPLANT RECIPIENT
    Mr. Regula. All right. Our next witness will be introduced 
by our colleague and member of the Committee, Dr. Paul Berk, 
chairman, board of directors, American Liver Foundation.
    Mr. Miller. Mr. Chairman, thank you for giving me an 
opportunity to introduce a friend of mine. Just as Julia 
Roberts was here today advocating something that she felt 
personally impacted by a close friend, I have been personally 
impacted by liver disease, and as you may know, our daughter 
donated half her liver to our son last October in New York City 
at Mount Sinai, which is where Dr. Berk is now. He is the 
Emeritus Chief of the liver diseases. And it is an outstanding 
facility, an outstanding program, a real leader in the Nation, 
and we felt very fortunate that they agreed to do the living 
donor transplant, which is a very rare type of procedure.
    There are just not enough organs. I know we provide some 
resources. I hope we can increase the resources for organ 
donation. I know Secretary Thompson--it is a big issue from his 
days in Wisconsin, and liver research is something that is 
important at NIH, and it spreads throughout a number of 
different institutes, which I have learned.
    So anyway, I have learned a great deal about the liver 
disease. I am delighted that Dr. Berk is here, and I introduce 
you to my friend Dr. Berk.
    Dr. Berk. Thank you. Mr. Chairman, Mr. Miller, members of 
the Committee, you have just heard, my name is Paul Berk. I am 
the Stratton Professor of Molecular Medicine at the Mount Sinai 
School of Medicine and currently Chairman of the Board of the 
American Liver Foundation.
    I want to thank the Committee for the opportunity to submit 
this testimony as you consider your funding priorities for 
fiscal 2003, and I am proud to share my allotted time with 
Coach Howell Smith of Malone College in Canton, Ohio, who is a 
liver transplant recipient.
    Now, the specifics of ALF's funding recommendations for 
fiscal 2003 are included in the formal statement that you have 
already received and I summarized in the final page. What I 
would like to do here is to look at some broader issues. 
Twenty-eight million Americans have either hepatitis or other 
liver and biliary tract diseases. This year NIH spending on all 
liver disease research will be about $319 million, representing 
about $11 per year per patient. Funding for hepatitis C 
research at about $95 million is something like $24 per year 
per patient for each of the 4 million Americans infected with 
that virus.
    Throughout the mid-1990s, liver disease research funded by 
NIDDK, which is one of the lead institutes interested in that 
problem, averaged $48 million a year. That was and remains less 
than the amount being spent each year at my hospital alone for 
the treatment of patients with end-stage liver disease. By 
contrast, although the number of patients infected with HIV is 
far smaller, NIH is spending about $2,700 a year per patient 
with AIDS on AIDS research. The discrepancy in research 
investment is paralleled by discrepancy in the progress made in 
developing medical therapies for hepatitis C, and, in fact, 
rather ironically with improved control of HIV, hepatitis C has 
now become the principal cause of death among patients with 
AIDS.
    For a long time we were protected from some of this by the 
ability of liver transplantation to be the treatment of last 
resort for patients with end-stage liver disease, but as the 
development of treatment for hepatitis C lagged, the ability of 
the transplant system to provide livers for all those who need 
them has been stretched to and now beyond its limits. While 
about 18,000 people are on transplant waiting lists waiting for 
livers, fewer than 5,000 will receive liver transplants this 
year. That is because that is the limited supply of organs 
available. Tragically, significant numbers of patients who are 
curable by transplantation are now dying on transplant waiting 
lists.
    We certainly support strategies to increase organ donation, 
but we feel strongly that a long-term strategy must be 
developed to improve medical treatment for liver disease and to 
thereby decrease the need for liver transplants. Since we seem 
unlikely ever to be able to increase the supply of livers to 
meet the growing demand, we must invest more research to 
decrease the demand down to the available supply and have 
alternate treatments for other people.
    From ALF's view, funding for liver disease research is 
going to need continued long-term support and a more focused 
leadership among the various government agencies involved in 
supporting this research.
    I would like to give the rest of my time to Mr. Smith.
    [The prepared statement of Dr. Berk follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Smith. Thank you. Mr. Chairman, and members of the 
Committee, in many ways my story is similar to thousands, 
having been inflicted with a chronic liver disease. I happen to 
have had the disease called primary sclerosing cholangitis. The 
disease that took Walter Payton's life was a part of that. But 
mine is not like many because I am one of the more fortunate 
who happens to be a survivor, a survivor through the miracle of 
modern medicine and a gracious magnanimous gift of a friend. I 
received a living donor transplant 2 years ago.
    It was extremely frustrating 11 years ago to be told by 
eminent physicians that you have this disease. We don't know 
what causes it. There is no known cure. We can only hope to 
slow it down, but you are going to need a liver transplant. And 
take these pills, and let us see what happens. Six years of 
medication and gradual increase in severity of the disease put 
me on a waiting list for a liver at the Cleveland Clinic in 
1997. From 1997 to 2000, my frustration was impacted by two 
major law changes due to the severe shortness of available 
organs for transplant. But as I mentioned, this living donor 
procedure, which was relatively new, in fact maybe unknown in 
1997 when I went on the list, provided my way out.
    My story is a little bit unique in the sense that three 
other coaches in our area--four if we go with the Wayne County 
and go to Wooster--have primary sclerosing cholangitis. One had 
been transplanted traditionally, I received the living donor, 
and two are waiting. We have partnered together to create a 
foundation called Hoops for Healing. We have put on numerous 
golf tournaments and basketball tournaments to raise funds for 
the Liver Foundation, as well as Life Bank in Ohio.
    It is my hope and my prayer that my two friends, Steve and 
Bruce, will not ever have to get a transplant due to research.
    Mr. Regula. Thank you very much.
    Mr. Miller.
    Mr. Miller. The only comment is one of our colleagues, a 
new Member from Massachusetts, is a living donor liver 
transplant from--Congressman Lynch took Congressman Moakley's 
place. So we have our own little liver caucus in Congress. But, 
you know, you are very fortunate to have found a living donor, 
as I think we were with our son.
    But one of the things that--when you start looking into 
this, one of the concerns you have is coordination of research 
is so much--in so many different institutes, and liver--it is 
not in the name of any of the institutes, and the question is 
how do we make sure we are not duplicating and such? And so I 
know we have discussed that. We are going to discuss it some 
more and hopefully do that.
    The total amount of money going in NIH has just been going 
up at a very rapid rate, and hepatitis C has now caught the 
attention of the American people, but we ought to be concerned 
about the other liver diseases and not just hepatitis C, even 
though that is the predominant one that is causing, I think, 
more deaths than HIV these days.
    So thank you for being here to advocate, and I hope I can 
do what I can to help.
    And I hope, Mr. Chairman, we can provide for them as we do 
for all of these diseases. Thank you.
    Mr. Regula. Thank you. I am sorry we have to move on, but 
we have a long list today.
    Ms. Granger, do you have any questions?
                              ----------                              

                                             Thursday, May 9, 2002.

                        ALZHEIMER'S ASSOCIATION


                                WITNESS

ROBERT J. ENTWISLE, ADVOCATE, ALZHEIMER'S ASSOCIATION, NORTH CANTON, 
    OHIO
    Mr. Regula. Mr. Robert Entwisle, advocate, Alzheimer's 
Association, North Canton.
    Mr. Entwisle. Good morning. Thank you for inviting me here 
today. My name is Robert Entwisle. I am 70 years old, and I 
have Alzheimer's disease. I have a degree in electrical 
engineering and an MBA. I have worked in electric motor design 
for 37 years. My last position was as research engineer for the 
Hoover.
    My supervisor was first--was the first one to notice I was 
having a problem with my work, so in 1996, after going to one 
doctor, to two doctors, and taking tests and more tests, I 
learned that I had Alzheimer's disease. That was a very sad 
day. I fight to this day this disease every day.
    I struggle with--to button my shirt. I can no longer tie my 
shoes or my tie. My wife must drive me to the doctor's office, 
to the barbershop, to the drugstore. I have a wonderful library 
of math and motor electric design books. I cannot any longer--I 
cannot read them nor do calculations with them. Still I can 
still leaf through the pages of the old ones. I have--I also 
have--I have trouble talking, and sometimes I can't get the 
words out of my mouth--the words in my head to come out of my 
mouth.
    I am mad as hell, but I am not going to give up. My wife 
and I are active in the early stages of support groups, led by 
the Akron and Canton chapters of the Alzheimer's Association. 
These monthly meetings allow me to express my feelings and 
frustrations to my fellow sufferers. It is a good opportunity 
to get off steam.
    I am currently enrolled in a clinical drug trial at the 
University Hospital in Cleveland, Ohio. This drug might greatly 
reduce the worsening of the Alzheimer's symptoms. I am also 
taking Exelon at the monthly cost of over $200. I worry about 
my future as I need more and more care and I watch my finances 
dwindle.
    I am hoping that additional funding could--for Alzheimer's 
research will be put--will put an end to this terrible disease. 
Please help all of us--please help all us to see the light at 
the end of the tunnel. Thank you for listening.
    [The prepared statement of Entwisle follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Ms. Entwisle. Do you have any questions?
    Mr. Regula. Would you like to make any comments?
    Ms. Entwisle. I think he has said it all, and the way he 
has said it makes it even more poignant.
    Mr. Regula. He makes a powerful case.
    Ms. Entwisle. We do need more funding. He is in this 
experimental drug trial at the University Hospitals. He is 
doing everything he can to help maybe not himself, but other 
people that are going to be coming down the stream.
    Mr. Regula. Well, that is wonderful that you are making an 
effort. It is wonderful you came here today to share this with 
us. It reminds me of the letter that President Reagan wrote at 
one point to--which I think brought to the attention of the 
American people when this was done, as you recall, before he 
really became even in more difficult circumstances. And----
    Ms. Entwisle. It could change one's life in just a matter 
of a few years.
    Mr. Regula. You were at the Hoover Company, I gather?
    Mr. Entwisle. Yes.
    Mr. Regula. You were the electrical engineer there?
    Mr. Entwisle. Yes.
    Mr. Regula. Well, they make good sweepers.
    Mr. Entwisle. Yes, they do, and they didn't tell me to say 
that either.
    Mr. Regula. I see them around here in the Capitol, so I 
know they are good. I have even seen some down at the White 
House.
    Ms. Entwisle. That will keep our pension going.
    Mr. Regula. That is right.
    Well, that is great, and thank you for coming.
    Ms. Entwisle. Thank you.
                              ----------                              

                                             Thursday, May 9, 2002.

                             CARNEGIE HALL


                                WITNESS

MICHAEL STERN, CONDUCTOR AND ADVOCATE, CARNEGIE HALL, NEW YORK, NEW 
    YORK
    Mr. Regula. Mr. Michael Stern, conductor and advocate, 
Carnegie Hall, New York.
    Let me say to all of you, under the rules of the House, we 
cannot meet when the Full Committee meets, and they are meeting 
at 3 o'clock, so that gives us essentially about an hour, and I 
have a number of witnesses. If you can keep it short, I will 
try to keep my questions at a minimum. I don't want to cut 
anyone short, but I don't want anyone at 3 o'clock to be 
stranded. So go ahead.
    Mr. Stern. I will do my best to be brief.
    Like I said, Chairman Regula, thank you very much for 
allowing me to come to the Subcommittee today, and I must say I 
was a little daunted when I saw my name on today's list of 
witnesses, because of the subject matter for a lot of people. 
But I think that what I have to come and say to you about the 
Carnegie Hall program is perhaps no less important to the long-
term health and welfare of a lot of especially younger 
Americans, and that has to do with the Isaac Stern Education 
Legacy.
    My father, Isaac Stern, as you know, passed away less than 
a year ago.
    Mr. Regula. I met him.
    Mr. Stern. I know you did, and he appreciated that meeting.
    And he has left a void in the music world not only for my 
family personally, but for music lovers and music students and 
music teachers all over the country and around the world. And 
aside from his obvious legacy as a performer and indisputably 
one of the greatest violinists of the last century, perhaps his 
great achievement was what he did for young people and his 
commitment to giving back to the culture which nurtured him as 
a young immigrant, and to the city and the country which 
allowed him to use his position to try to do something 
substantive in this country for young people and for music.
    And as you know, his life was inextricably bound up with 
Carnegie Hall. When Carnegie Hall was threatened with 
demolition, it was he who stepped in. He saved it. He got it 
landmark status, and it reestablished its place as the 
preeminent stage in this country, which is why I feel very 
strongly about the program which is before you today.
    It is this opportunity from the bully pulpit of Carnegie 
Hall to do something truly unique and ground-breaking, and 
while the Isaac Stern Education Legacy is a fitting tribute to 
him, actually the idea goes much further than that. Essentially 
it will allow the kind of outreach very similar perhaps to the 
Challenge America program, which I know that you are very 
familiar with, to be able to bring excellence across the board 
outside of Carnegie Hall, outside of New York to every corner 
of this country, to schoolchildren, to audiences and to music 
lovers who would not be able in any other circumstance to 
receive that kind of gift.
    It is not the intention of this program to try to 
standardize that kind of educational or artistic experience and 
sanitize it for the rest of the country, but rather to give the 
country a unique opportunity----
    Mr. Regula. You are seeking some help for this program?
    Mr. Stern. The program is called the Isaac Stern Education 
Legacy, and it is a program already being set up by Carnegie 
Hall to disseminate with long-distance teaching and the help of 
technologies now in place to bring not only programs designed 
specifically for education, but all kinds of ancillary 
activities across the board, not only classical music, jazz, 
world music, perhaps appearances by Julia Roberts, I don't 
know, to every--conceivably every classroom and every community 
in the United States.
    It was my father's dream. He set up this program before he 
died so that--and in a very visionary way so that, especially 
in the new space which is being built in Carnegie Hall with the 
technology built in, that they would be able to bring this 
educational and artistic initiative to places which, in an age 
where the educational impetus for the arts may be threatened, 
would do a great deal to make up for that. And I think that my 
father, with his desire to give back that kind of gift, the 
responsibility that he had to the great capitals of the world 
to bring his music, but also to the smaller communities--this 
is his reflection, and it is in his honor. If he were here 
today, he would be able to say this to you directly, and I will 
be proud to be able to come in his stead: On behalf of the 
Carnegie Hall family, I thank the subcommittee for the 
$6,000,000 that has already been afforded the program. More is 
needed to make this a reality, and it is a great model and a 
great chance to do something substantive for arts, for 
education and for young people in this country.
    Mr. Regula. Well, thank you.
    Mr. Kennedy.
    Mr. Kennedy. No.
    Mr. Regula. Thank you for coming.
    [The prepared statement of Mr. Stern follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                             Thursday, May 9, 2002.

                         SCLERODERMA FOUNDATION


                               WITNESSES

KAREN GREENSPAN, ADVOCATE, SCLERODERMA FOUNDATION, HOUSTON, TEXAS, 
    ACCOMPANIED BY LAUREN BEESON, PEMBROKE PINES, FLORIDA
    Mr. Regula. Next is Karen Greenspan for the Scleroderma 
Foundation, President, accompanied by Lauren Beeson.
    Are you going to testify, Lauren?
    Ms. Beeson. No.
    Mr. Regula. It is nice of you to come tell us your story.
    Ms. Greenspan. Mr. Chairman and members of the 
Subcommittee, my name is Karen Greenspan. I am a scleroderma 
patient and----
    Mr. Regula. It is a familiar name around this town.
    Ms. Greenspan. No relationship.
    Thank you for giving me an opportunity to speak with you 
today.
    Scleroderma is really a spectrum of multiple diseases 
involving the irregular growth of connective tissue which 
supports the skin and internal organs. The effects of 
scleroderma range from minor inconveniences to life-threatening 
involvement of the heart, lungs and kidneys.
    Currently there are 300,000 people in this country who 
suffer from scleroderma. Four out of five of those are women. 
Many of its symptoms resemble those of other diseases, making 
diagnosis an extremely difficult and lengthy process.
    Thank you, Mr. Chairman, for your work in doubling the 
budget for the NIH. As you know, NIAMS primarily supports 
current research efforts into the understanding and treatment 
of scleroderma, as do other components of the NIH. With your 
continued support, the budget for scleroderma research has 
slightly increased in recent years.
    We are encouraged by NIAMS' growing interest in 
scleroderma; however, much more funding is needed to 
understand, to treat, to prevent, and to ultimately find a cure 
for scleroderma. As part of those efforts we support the NIAMS 
Coalition's request for a 15 percent increase, bridging the 
agency's total budget to $521 million. This increase will 
benefit scleroderma and other diseases that fall under the 
NIAMS umbrella.
    Your leadership in the area of research funding, has 
dramatically improved the quality of life for many patients. I 
would like to share with you a story of three generations of 
scleroderma patients.
    In 1952, a 39-year-old woman, wife and mother of two, 
suffered for months with several unusual symptoms, including 
hard, shiny, tight skin; inability to bend certain joints 
without bleeding; tremendous fatigue; and increasing shortness 
of breath. The woman, whose name was Fay, was eventually 
diagnosed with a mysterious disease called scleroderma, 
literally meaning hard skin. In 1952, scleroderma was an 
automatic death sentence, and sure enough, within 4 years, Fay 
had died from scleroderma lung involvement.
    Fast forward now about 30 areas. Fay's husband had 
remarried and added another son to the family. Fay's daughter 
grew up to become an Army wife and later a career woman and 
single parent. In 1982, she got a flu-like infection, and 
although the infection cleared, she became progressively weaker 
and easily fatigued. She started to have heartburn, difficulty 
swallowing, frequent vomiting and severe bouts of diarrhea. Her 
hips and shoulders became incredibly painful. Her fingers 
turned blue and numb in the cold. Her family doctor thought it 
might be stress at first, then anemia.
    The doctor referred her to a rheumatologist who, aware of 
her family history, told her there was nothing wrong with her 
that a new boyfriend and a yoga class wouldn't cure. Several 
months and doctors later, she was diagnosed with and treated 
for an inflammatory muscle disease, but this was not the entire 
problem.
    Her GI problems worsened, eventually preventing her from 
swallowing and keeping down solid food. Thirteen years later 
she was finally diagnosed with systemic scleroderma with 
polymyositis overlap. Her disease is chronic and debilitating, 
but no longer an automatic death sentence.
    If you haven't guessed by now, Fay was my mother, and I am 
the patient who was told to take a yoga class and get a new 
boyfriend, and I have tried both on occasion, and the yoga 
works better.
    Several years ago my family became acquainted with a third-
generation patient I referred to earlier, a young girl named 
Lauren, who was diagnosed as age 6 with a form of linear 
scleroderma called ``the slash of the saber.'' Lauren is here 
with me today. And as you can see, half of her face looks 
normal, and the other half is disfigured. The disease goes the 
length of Lauren's body and not only affects her 
musculoskeletal system, but because she is growing normally on 
one side of her body and not on the other, her internal organs 
are also affected. Lauren has already had several operations 
and will need more as she gets older.
    Just as my life changed 6 years ago by going public about 
my disease, Lauren's life has also changed tremendously since 
she was chosen as the Scleroderma Foundation's first national 
poster child.
    As you can see, my three generations story has shown that 
the medical community has come a long way from barely being 
able to identify the disease to approaching a cure. Three main 
problems persist in the area of scleroderma research: the need 
to conduct more federally-funded research to better understand 
the disease, the need for new researchers to come into this 
area, and the lack of comprehensive drug treatment and therapy.
    Currently there is no treatment that controls or stops the 
underlying problem, which is the overproduction of collagen. 
Therefore, the focus of treatment and disease management has 
been on relieving symptoms. In closing, Mr. Chairman, I am here 
as a patient to ask you to help us find that cure.
    We have come a long way since my mother died in 1957. The 
Scleroderma Foundation has worked tirelessly to disseminate 
information about this disease and raise funds for research. My 
brother, Seinfeld star Jason Alexander, has committed his time 
and resources by serving as a celebrity spokesperson for the 
eradication of scleroderma, giving children such as Lauren 
great hope.
    However, our most crucial tool in fighting this disease is 
increased funding of NIH grant programs, and we cannot do this 
without your help. The Scleroderma Foundation has in the past 
and on its own funded approximately 20 percent of the annual 
research done on this disease. We are not here simply with our 
hand out. We have done and will continue to do our part. We are 
requesting, though, that Congress take a strong look at this 
disease and increase the dollars available to help us find a 
cure. Thank you.
    Mr. Regula. Thank you for your testimony.
    Also we appreciate your coming here today, Lauren.
    [The prepared statement of Ms. Greenspan follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                             Thursday, May 9, 2002.

               AMERICAN LUNG ASSOCIATION OF RHODE ISLAND


                               WITNESSES

WALTER STONE AND LYNNE EVANS-STONE, VOLUNTEERS, AMERICAN LUNG 
    ASSOCIATION OF RHODE ISLAND
    Mr. Regula. Okay. Our next witnesses will be introduced by 
Mr. Kennedy. Walter Stone and Lynn Evans-Stone.
    Mr. Kennedy. Thank you, Mr. Chairman. It is my honor today 
to welcome Mr. and Mrs. Stone and thank them for their 
participation today.
    It takes great courage to share your personal tragedy with 
strangers, and I certainly appreciate, the Committee 
appreciates, your willingness to be an advocate on behalf of 
funding for asthma and other lung diseases. The story of your 
daughter, Morgan, will be an inspiration to all of us, showing 
us the need to do more to end this terrible disease. It is of 
epidemic proportions in this country.
    Just last week we had a field hearing here in the Congress 
talking about things that we should be doing across the country 
to reach out and address the needs in our schools, among which 
an Epi-pen and bronchodilator in every single school, nurses in 
schools, making sure that we have clean air in our schools 
because of the indoor air quality. And, of course, we have to 
go to the root cause and what it is, and let's find it, and 
let's discover it, and let's end the horrible tragedies like 
your family has suffered.
    So I want to thank you for your being here today, and 
adding your voice to many, many families across this country 
who, like yourselves, have lost a loved one as a result of this 
terrible disease.
    Mr. Stone. Thank you.
    Mr. Chairman, I think this committee probably has the 
responsibility of solving it. When you have kids, you think of 
them in terms of car accidents or drunk driving or drugs, but 
you never think of them dying from asthma. No kid should.
    Morgan was 18 years old when this happened. The thing I 
think that I would like to suggest to you is that the public is 
not aware that asthma can be fatal. As a parent I don't think I 
took it seriously enough. Certainly I don't think Morgan took 
it seriously enough.
    I suggest that the answer isn't always in the money that 
you spend, but in the information that you gather. You know, 
when I saw the full Committee here earlier today, the thought 
that crossed my mind, the 26 million people that suffer from 
asthma are approximately 10 percent of the population. There 
are over 8 million kids under the age of 18 that suffer from 
asthma. How many people in this room either have suffered from 
asthma, do suffer from asthma, have someone in their family 
that suffers from asthma, or know someone that either has 
suffered or has died from it? I would suggest it might be a 
project for your staff, just to find out among your own staff 
the problems, or to use--as one of the PR people said of one of 
the political parties, use your franking privileges to write 
your constituents, ask them these three or four questions, and 
see what kind of responses you get. That is a good place to 
start with education.
    Secondly, we certainly need money for research. And, third, 
I think that we would be making a terrible mistake to not deal 
with those triggering factors that have strangely increased the 
amount of asthma in this country. To say that the increased 
pollution that is in our urban areas has not had an effect 
would be nonsense. It has. And until we make that connection 
and put the two together, people will continue to die.
    Mr. Regula. Thank you.
    Mrs. Evans-Stone. I think Walter has said a lot of what I 
would have liked to have been able to say if I could get it 
out. Morgan was diagnosed at the age of 9 with asthma, and I at 
the age of 25. And when we took her--this is her high school 
graduation picture in June of 2000. We took her to the College 
of Santa Fe in New Mexico in August of the same year. That is 
the last time I saw her alive.
    [The prepared statement of Mr. and Mrs. Stone follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I don't think we take asthma seriously enough. 
It is not like cancer or something. We just don't see it as a 
life-threatening matter.
    Mr. Stone. You think you can recover from every episode.
    Mrs. Evans-Stone. I think that is the issue, because even 
though I am an asthmatic as well, we were both considered to be 
mild asthmatics. We never had an emergency room visit, I never 
have, and I think that for me, as much as it is important for 
education, for research and to find a cure, I think for people 
to be educated on a level where they understand the fact that 
it is life-threatening and that at any minute your breathing 
capability could change is really all that I can ask you to do 
at this point.
    Mr. Stone. Congressman, one of the things that I find 
fascinating, the human body is such an incredible machine. It 
is almost as if the increase in asthma is a signalling device 
telling us there is something wrong with the environment.
    Mr. Regula. Mr. Kennedy.
    Mr. Kennedy. Thank you.
    Having suffered from the most chronic and severe asthma my 
whole life, being hospitalized more times than I can count, 
giving myself adrenaline injections, and having four different 
inhalers and Prednisone and theophyline every single day up 
until just a couple of years ago where I was able to get rid of 
the steroids, I was shocked to learn that the deaths from 
asthma occur amongst those who are mild asthmatics as much as 
more severe asthmatics like myself.
    And it was just because of that thought that people do not 
understand and even, I think, with chronic asthmatics the 
feeling is that you can always control it.
    And the problem that we had, we showed through the hearing, 
was that schools do not take asthma seriously enough, because 
you can't see it. Someone is struggling quietly to breathe. 
They can't--it is not clear to people that they are really 
struggling, and, therefore, it is discounted, and that is a 
terrible, terrible phenomenon.
    I hope that we are able to do more to educate more schools, 
make sure there is someone on staff who understands this 
disease, a school nurse. But, of course, many of our schools 
don't have school nurses.
    And then you were also talking about the fact that just 
having an Epi-pen in the school, having bronchodilators in our 
schools. We have those defibrillators in the airports and 
everywhere else. Why don't we have a very simple device like 
that in our schools? But as you know from back home, the school 
air is not very good for asthmatics either. Many of these 
schools have mold going throughout the school. It is impossible 
for kids. So we have a lot of areas the tackle when it comes to 
asthma.
    I want to let you know that we fought to get increases at 
the Centers for Disease Control so we can have more education. 
As you said, the quickest way for us to reduce the number of 
fatalities is simply through a public education campaign, 
directed where it should be, and you have got my commitment 
along with, I am sure, the rest of the Committee to do 
something to make sure.
    It is an epidemic right now, the largest single reason for 
missed school days in this country. We really have a big crisis 
on our hands. My condolences and sympathies to both of you. I 
just want to commend you again on your courage to share your 
tragedy with us, because I really believe that we will keep 
that in mind when we think about our policies in helping to 
address this so other families don't have to go through what 
you have.
    Mr. Stone. Thank you.
    Mr. Regula. No problem.
                              ----------                              

                                             Thursday, May 9, 2002.

                         JOSLIN DIABETES CENTER


                                WITNESS

ALAN C. MOSES, M.D., CHIEF MEDICAL OFFICER AND MEDICAL DIRECTOR, JOSLIN 
    DIABETES CENTER, BOSTON, MASSACHUSETTS
    Mr. Regula. Dr. Alan Moses, Joslin Diabetes Center in 
Boston.
    Dr. Moses. Thank you, Mr. Chairman. You have heard some 
compelling and often poignant testimony this morning from 
individuals with diseases both rare and common that have 
devastated them or family members.
    I would like to turn your attention to another common 
disease that not only adversely affects the individuals 
affected, but I think it is having a devastating affect on the 
health of our Nation. The Joslin Diabetes Center in Boston is 
developing a pilot program with the CDC that addresses the link 
between obesity and diabetes and that developed a mechanism to 
get effective treatment and prevention in the hands of those 
individuals at risk.
    Obesity is a major risk factor for the development of type 
2 diabetes and a major cause of morbidity and mortality in the 
United States. Let me begin with a few sobering facts. One in 
every two Americans is overweight, and the prevalence of 
obesity has increased 57 percent in the last decade.
    Obesity disproportionately affects minorities. Sixty 
percent of African-Americans, Mexican Americans, and Native 
American women meet the criteria for being overweight. Between 
33 and 37 percent are obese. Obesity in children and 
adolescents is increasing at an alarming rate, leading to the 
occurrence of type 2 diabetes in these groups that 
traditionally have been spared this form of diabetes.
    This increase in obesity is driving an emerging epidemic in 
diabetes in this country. Over 90 percent of diabetes is type 2 
or adult-onset diabetes, and over 90 percent of people with 
type 2 diabetes are obese. The CDC reported that diabetes 
increased to 6.5 percent prevalence, an increase of 33 percent, 
between the years of 1990 and 1998. That rate continues.
    Diabetes increased in all age groups, but most profound, 
approximately a 70 percent increase in people age 30 to 39. 
Young people with diabetes are at particular risk for 
developing severe complications because of their anticipated 
longer life than older individuals. For the rapidly expanding 
population of Americans over age 50, diabetes approaches 20 
percent of the population, and diabetes and its complications 
comprise 25 percent of Medicare costs. Twenty-five percent.
    The following facts provide some understanding of the 
magnitude of the diabetes problem. Over 17 million Americans 
have diagnosed diabetes, and an equal number are estimated to 
have prediabetes. It is the sixth leading cause of death by 
disease in the United States. And every day, every day, 2,700 
have a new diagnosis of diabetes; 1,200 people die from 
diabetes; 180 have an amputation from diabetes; 120 go on 
dialysis because of diabetes; and 75 go blind because of 
diabetes.
    Mr. Regula. In the interest of time, let me say we have 
heard this message, we are very persuaded. I have heard it back 
home. I have heard it from many, many people.
    Dr. Moses. What we are proposing then is to work with the 
CDC to develop a translational program to not only get the 
information out, but begin to end the epidemic by going into a 
prevention mode.
    Mr. Regula. I think they are. They have a film coming out 
that is for TV that will be aimed at young people.
    Dr. Moses. I agree that is terribly important, but I 
believe that we have to do much more, because we have to make 
these culturally competent, linguistically competent and 
appreciate the different needs of the different populations.
    Mr. Regula. We are very sensitive to the problem.
    Dr. Moses. You been helpful in this effort.
    Mr. Regula. Thank you for coming.
    [The prepared statement of Dr. Moses follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                             Thursday, May 9, 2280.

       FACIOSCAPULOHUMERAL MUSCULAR DYSTROPHY (FSH) SOCIETY, INC.


                                WITNESS

DANIEL P. PEREZ, PRESIDENT AND CEO, FSH SOCIETY, INC.
    Mr. Regula. Next is Mr. Daniel Perez, President and CEO, 
FSH Society. And I will let you pronounce the title of it.
    Mr. Perez. Mr. Chairman, it is a great pleasure to submit 
this testimony to you today. My name is Daniel Paul Perez of 
Lexington, Massachusetts, and I am testifying as the Founder, 
President and CEO of the Facioscapulohumeral Muscular Dystrophy 
Society, the FSH Society, and, as you can see, as one who has 
this devastating disorder, facioscapulohumeral muscular 
dystrophy.
    Facioscapulohumeral muscular dystrophy, FSHD, is the third 
most prevalent form of muscle disease. FSHD is a neuromuscular 
disorder that is transmitted genetically and affects 12249,500 
to 37,500 persons in the United States. For men and women the 
major consequence of inheriting FSHD is progressive and severe 
loss of skeletal muscle.
    The FSHD mutation was identified in 1990. Although this 
molecular genetic defect is now known, there are no genes that 
have been associated with or have been linked with FSHD to 
date. The biochemical mechanism and cause of this common muscle 
disease remains absolutely unknown and elusive. The same is 
true for any treatment therapy or cure. None exists.
    For 40 years I have dealt with the continuing unrelenting 
and unending loss caused by FSHD. Less than 10 years ago, I 
walked, with some difficulty, into this very room to testify. 
Today I sit before you in a wheelchair because of this disease 
called FSHD.
    Nearly a decade ago I appeared before this committee to 
testify for the first time. Since then the congressional 
appropriations committees have repeatedly instructed the 
National Institutes of Health, the NIH, to enhance and broaden 
the portfolio in FSHD. Due to the Appropriation Committee's 
interest, FSHD research has begun to take a number of steps 
forward this past year. I am pleased to report that three major 
programs to accelerate funding and research on FSHD have been 
initiated by the NIH.
    The FSH Society, incorporated in 1991, solely addresses 
specific issues and needs regarding FSH muscular dystrophy, and 
has invested more than $750,000 into new research initiatives 
for this common muscle disease. The Society actively represents 
and educates more than 10,000 patients with FSHD.
    Last year, thanks to your efforts, the United States 
Congress passed the Muscular Dystrophy Community Assistance 
Research and Education Act of 2001. The purpose of this law is 
to rapidly accelerate, develop and broaden the base of research 
on muscular dystrophy and FSHD and to bring that research into 
the clinic.
    In spite of all of this, the state of research on FSHD is 
not good. Since 1998, the overall budget for the NIH has 
increased 70 percent. The budget for the Arthritis Institute 
has increased 75 percent. The Neurology Institute budget has 
increased 70 percent. Yet, the budget for muscular dystrophy 
has increased only 49 percent. In spite of all of this, the NIH 
funding research on FSHD is minimal at best, and, frankly, we 
are not sure that that 49 percent increase for muscular 
dystrophy is reliable. During this period the total number of 
grants at the NIH has increased nearly 30 percent, while grants 
in muscular dystrophy have barely increased just over 10 
percent. Budget estimates for increases in future years for 
muscular dystrophy as indicated by the NIH can only be 
described as anemic.
    Mr. Regula. Your case would be to get them more?
    Mr. Perez. I will make my case.
    Mr. Regula. Okay.
    Mr. Perez. Congress has been very generous with the NIH and 
has repeatedly expressed its desire to see greater efforts in 
muscular dystrophy research, and FSHD research in particular. 
This is not happening. The rising tide is not raising all 
boats.
    Thanks to this committee the NIH and the FSH Society held a 
research planning conference in May of 2000. Recommendations 
for future direction included specific projects in basic 
molecular research, therapeutic candidate population studies 
and the creation of new animal models. Today, 2 years later, 
that agenda is still in its initial working stages and perhaps 
25 percent complete. We are very concerned that the enormous 
scientific progress that is possible for FSHD is not reflected 
in the budget presented by the NIH.
    Mr. Chairman, we trust your judgment on the matter before 
us. We believe that the Committee should explore why muscular 
dystrophy has been left behind at the NIH. Frankly, we are 
extremely frustrated that amid a huge increase in funding and 
strong, unambiguous expressions of congressional support, the 
NIH commitment in muscular dystrophy continues to be so weak. 
Only you can answer that question.
    Mr. Chairman, again, thank you for providing this 
opportunity to testify before your Subcommittee.
    Mr. Regula. Thank you.
    [The prepared statement of Mr. Perez follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                             Thursday, May 9, 2002.

       PENNSYLVANIA ASSOCIATION FOR INDIVIDUALS WITH DISABILITIES


                                WITNESS

DAVID H. FYOCK, VICE PRESIDENT, PENNSYLVANIA ASSOCIATION FOR 
    INDIVIDUALS WITH DISABILITIES
    Mr. Regula. Mr. Kennedy, you are introducing the next guest 
Mr. Fyock, David Fyock.
    Mr. Kennedy. Thank you very much for your testimony.
    Thank you, Mr. Chairman. I am proud to introduce the Vice 
President of the Pennsylvania Association for the Individuals 
with Diabilities, Mr. David Fyock.
    PAID is an initiative with the goal of decreasing 
unemployment for those Americans with disabilities, and I 
commend him for his work. Many of you may not know, but while 
the unemployment rate nationally is 4 percent, the unemployment 
rate for persons with disabilities between 18 and 64 is over 71 
percent. In Rhode Island alone, in my State, there are over 
160,000 adults with disabilities, and nearly 50 percent of them 
earn less than $15,000 a year.
    This organization is an organization that came to my 
attention thanks to Congressman Murtha and his staff person, 
Carmen Scialabba, who is also here with us today, and I am very 
proud that both of them have been working hard.
    I might add that even though this organization is called 
PAID, neither one of them is paid for what they are doing. They 
are working in a very selfless manner to advance the cause of 
people with disabilities and help them get integrated into the 
workforce and into American life. I thank you for that.
    Mr. Fyock. Thank you, Mr. Kennedy, and thank you, Mr. 
Chairman. In reality we are paid in the most important way 
possible; that is, by helping other people. Thank you.
    I am David Fyock. I am Vice President. PAID is a nonprofit 
corporation whose goal is to help reduce the existing high 
levels of unemployment of people with disabilities.
    Right now, as Representative Kennedy said, the unemployment 
levels for people with severe disabilities is over 70 percent. 
That fact makes it obvious that we have a lot more work to do 
in this country to help reduce that and to help these people 
find good, well-paid, fulfilling jobs.
    People who want to help bridge the gap between people who 
want to work and need to work and a lot of high-tech jobs out 
there that are going begging need to know a number of facts. 
That is that 54 million people, 54 million Americans, have 
disabilities; 17 million of them are of working age. Only 29 
percent are employed now full or part time. Of those 12 million 
unemployed, 79 percent would prefer to work.
    In 1990, it was estimated that local, State and Federal 
Governments spent more than $300 billion to assist unemployed 
people with disabilities. Today that may well be closer to $400 
billion. Aggressive steps to help unemployed people with 
disabilities obtain well-paid employment can reverse this drain 
on the Treasury by making more people with disabilities into 
anxious and willing taxpayers.
    People with disabilities clearly need a national placement 
effort to maximize employment opportunities. PAID is working 
with individual States' rehabilitation agencies to address the 
task of matching available labor force with employment 
opportunities. PAID is establishing a national labor exchange 
for persons with disabilities to bring those individuals who 
want to work and are willing to work together with the 
potential employers who need to hire people.
    As a step in that direction, PAID is working with the Hiram 
G. Andrews Center in Johnstown and with representatives of the 
other existing State schools that are comprehensive 
rehabilitation centers. PAID is working with Rhode Island, with 
Virginia, Maryland, West Virginia, Georgia, Arkansas, Kentucky, 
Tennessee, and Michigan to extend its program into those 
States. PAID is meeting next week in Providence with a group 
brought together by Representative Kennedy and his staff to 
discuss starting a branch there.
    It is our goal to help establish similar branches in all 50 
States. PAID needs your help to do this. Congress in the past 
has taken steps to deal with this problem. The Rehabilitation 
Act and the Americans with Disabilities Act both embrace the 
vision of economic independence and the participation of people 
with disabilities in all aspects of American life. However, the 
actual provisions of these acts are not well known by the 
disability community, by business leaders or service providers. 
The need exists to expand awareness and opportunity, and PAID 
will help to bridge the gap between these groups.
    Individuals with disabilities constitute one of the most 
disadvantaged groups in our society, yet disability is a 
natural part of the human experience and in no way diminishes 
the right of individuals to participate in the mainstream of 
our society.
    Increased employment of individuals with disabilities can 
be achieved through training and education brought together 
with meaningful opportunities for employment. People with 
disabilities have repeatedly demonstrated their ability to 
achieve gainful employment if appropriate systems for 
preparation and support are provided.
    It is our goal at PAID to help many other companies come to 
the realization that not only is it good social policy to hire 
people with disabilities, but it is good business policy. It 
helps them make money because those people work extremely well. 
They are dedicated workers.
    I will stop there and thank you for this opportunity.
    Mr. Regula. Thank you.
    [The prepared statement of Mr. Fyock follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. I say to all of our witnesses, we have 10 
people to testify. We got about 20 minutes because the full--
when the full committee meets next door, we have to shut down 
under the rules of the House. So, very much appreciate if you 
can summarize your full testimony. It will be put in the 
record, and the staff will read it. It is just unfortunate we 
have gotten in a time problem today.
                              ----------                              

                                             Thursday, May 9, 2002.

              NATIONAL NEUROFIBROMATOSIS FOUNDATION, INC.


                               WITNESSES

DAN STROEH, PLAYWRIGHT AND ADVOCATE, NATIONAL NEUROFIBROMATOSIS 
    FOUNDATION, INC., ACCOMPANIED BY PETER BELLERMANN, PRESIDENT, 
    NATIONAL NEUROFIBROMATOSIS FOUNDATION, INC.
    Mr. Regula. So with that, Mr. Hobson, you are going to 
introduce our next witness.
    Mr. Hobson. I want to thank my friend Mr. Regula and Mr. 
Kennedy for allowing me to be here today. It is a pleasure to 
introduce Dan Stroeh, who is here to testify on behalf of the 
Neurofibromatosis Foundation. Dan is a graduate of Wittenberg 
University, which is located in my district and my hometown of 
Springfield, although I was born in Cincinnati, which you will 
hear about in a minute.
    Chairman Regula should be familiar with Wittenberg since 
his Mount Union Purple Raiders usually defeat Wittenberg on 
their way to winning the division III football championships.
    Mr. Regula. It is a new age.
    Mr. Hobson. I believe in the past 9 years, Mount Union has 
won six Division III football championships. Now, both Dan and 
I congratulate Mr. Chairman for that, but maybe you can let 
Wittenberg just win once in a while.
    However, we are not here to talk about football. We are 
here to talk about a genetic disorder called NF for short. A 
native of Loveland, Ohio, near Cincinnati, Dan was diagnosed 
with NF when he was 19, during his freshman year at Wittenberg. 
Thanks to successful treatment at Children's Medical Center in 
Cincinnati, and ultimately at NIH, Dan completed school and 
graduated cum laude with a dual degree in English and theatre.
    Like most theatre majors, Dan was involved in a number of 
productions. The most pivotal production was an 
autobiographical one-man play about his encounter with NF, 
titled ``It is No Desert,'' in which he wrote, directed, and 
starred. Dan received the 2001 National Student Playwright 
Award for ``It is No Desert'' and performed at the Kennedy 
Center last April.
    Since graduation Dan has been a visiting artist at the 
Sundance Theatre Lab, Chautauqua 2001, and currently lives in 
New York where he is working on a play commissioned by the 
Kennedy Center. In addition, his play ``It is No Desert'' will 
be published later this year.
    Unfortunately, in the interest of time, Dan is not going to 
perform his play for you today, but he is going to give us an 
overview of NF as a genetic disorder and, more importantly, the 
advances the medical research community has made thanks to the 
funding this committee directs to NIH as well as support from 
the Department of Defense.
    I tried to be very brief, sir.
    Dan.
    Mr. Stroeh. Thank you, sir.
    Good afternoon. Mr. Chairman, and members of the 
Subcommittee, I am pleased to be here today with my Congressman 
Representative David Hobson and Peter Bellermann, who is the 
President of the National Neurofibromatosis Foundation, 
Incorporated. And I will try to keep my remarks as brief as 
possible. But I am pleased to be here to talk about the 
importance of NF research.
    Neurofibromatosis is a surprisingly common genetic disorder 
which causes a variety of serious and debilitating health 
problems. I was unaware that I had it until I was 19. My family 
had no history of the disorder. I was athletic all of the way 
through high school until I discovered that I began to have 
trouble walking. It was at this point that I went in for a CAT 
scan and discovered that there were numerous growths around my 
spine, and I was diagnosed with NF just as I was starting my 
freshman year of college.
    Neurofibromatosis is a genetic disorder that causes tumors 
to grow along the nerves anywhere in the body. It also causes a 
variety of other problems, including learning disabilities, 
skeletal abnormalities, disfigurement, deafness, blindness, 
loss of limbs and brain, spinal and dermal tumors. NF can also 
be fatal.
    There is still no way to prevent NF, and there is still no 
cure, but prior Federal funding has helped lead to important 
advances. Researchers are hopeful that a cure can be found 
within the next 10 to 15 years and believe that this time frame 
could possibly be cut in half if more research dollars were 
made available. As a result, continued and aggressive research 
in this area holds great promise for the more than 100,000 
Americans with NF and related illnesses. In fact, NF research 
has been so productive that scientists have moved from cloning 
the NF gene to the start of clinical trials within a single 
decade.
    For me, the patient, 10 years may seem like a long time, 
but I realize that in science and medicine it is a very short 
time in which to reach these milestones. This progress is all 
the more impressive when considering it has occurred with a 
fraction of the private and public resources that are available 
to other often less common medical conditions. But there is 
still a long way to go.
    The next step in the neurofibromatosis research agenda 
includes continuing work in basic research, preparing 
comprehensive natural history studies for NF, and maintaining 
the all-important process of clinical trials with innovative 
approaches. With these goals in mind, our goal continues to be 
directing limited resources to support research activities that 
will lead to better understanding, diagnosis and treatment of 
NF and enhanced quality of life for persons with the disorder.
    Congress and the Administration have demonstrated their 
commitment to scientific advances in this field with funding 
and directives for improved coordination at the National 
Institutes of Health. As a disorder with multiple 
manifestations that implicates several disciplines, the fight 
against NF and the care of patients with NF require 
multidisciplinary approaches. I can happily report that the NIH 
Institutes are actively working together across their 
institutional boundaries to address the needs of the NF 
population.
    In recent years this subcommittee has added language to its 
Appropriations Committee report directing NIH to coordinate 
their efforts across various institutes to find a cure for NF. 
NF research has wide-ranging impacts beyond neurofibromatosis. 
It has linked the disease to cancer, brain tumors and all 
neurological developmental disorders. This subcommittee has 
recognized that the wide variety of symptoms of NF and the 
significant potential that NF research has for the very large 
patient population demands the continued integration of 
neurofibromatosis research with the basic and clinical research 
goals of NIH.
    In summary, NF research demonstrates several things. First, 
it attests to the foresightedness and the wisdom of Congress to 
continue to invest in basic medical research through NIH and 
elsewhere. And NF is a compelling example of what happens to 
such investments. These payoffs do come.
    Second, public-private partnerships can and do work. The 
collaboration between the Federal NIH and the Department of 
Army's CDMRP and the private Howard Hughes and National NF 
Foundation is almost seamless. One leverages the other in NF 
research to move the science forward.
    Finally, NIH institutes are capable of effective 
collaborations across multiple disciplines. They are clearly 
demonstrating the rewards in terms of cost savings, efficiency 
and improved medical care for large patient populations.
    Today I am asking that you continue to provide clear 
directives to the National Institutes of Health to express the 
Subcommittee's commitment to NF research conducted at NIH and 
to ensure that the level of funding to find the cure for 
neurofibromatosis continues to grow every year.
    NF has had a tremendous research success story for all of 
those who are invested in it. Chairman Regula and members of 
the Subcommittee, on behalf of National NF Foundation, 
Incorporated, as well as the thousands of children and the 
adults affected by NF, I thank you for your continuing support.
    Mr. Regula. Well, thank you for bringing this to our 
attention. Certainly we will be looking at it.
    [The prepared statement of Mr. Stroeh follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                             Thursday, May 9, 2002.

                   SOCIETY OF GYNECOLOGIC ONCOLOGISTS


                                WITNESS

JAMES MAXWELL AUSTIN, JR., M.D., PRESIDENT, SOCIETY OF GYNECOLOGIC 
    ONCOLOGISTS
    Mr. Regula. Dr. James Austin. Dr. Austin.
    Dr. Austin. Mr. Chairman and Mr. Kennedy, in the essence of 
time, I am going to be brief with my presentation. Our 
statement has been given to you.
    But I come here representing GYN/oncologists, who are 
physicians that take care of women with cancer. We are patient 
advocates for our patients, and we are a small group of 
physicians, only 1,000 in this country, but we feel so strongly 
that we want to present before you.
    We feel like we need to continue to support NIH, NCI and 
the CDC in all of the efforts against women's cancer. We need 
to fund at the present level and even increase if we can.
    Some very outstanding developments have taken place in the 
last year. For instance, we may have a blood test for ovarian 
cancer now. We also are very, very well along the path for a 
vaccine for cervical cancer. Cervical cancer kills more women 
in the world than any other disease process. It is the number 
one killer of women. In our country it is not, but there would 
be a very, very significant effort if we proceed with the same.
    We also thank you for the support you have given us in the 
past, but we need more.
    Mr. Regula. NIH is working on this, I assume.
    Dr. Austin. Yes, sir.
    Mr. Regula. And there is a lot of breakthrough taking 
place.
    Dr. Austin. Yes, sir. We are just beginning to scratch the 
surface. So we need to have the impetus to go ahead.
    Mr. Regula. Thank you for coming and making your statement 
abbreviated.
    [The prepared statement of Dr. Austin follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                             Thursday, May 9, 2002.

                       AMERICAN HEART ASSOCIATION


                                WITNESS

TRACY WEBBER, VOLUNTEER, STARK COUNTY, OHIO, DIVISION OF THE AMERICAN 
    HEART ASSOCIATION
    Mr. Regula. Next is Tracy Webber, Stark County, American 
Heart Association.
    Ms. Webber. Good afternoon. I am a 45-year-old American 
Heart Association volunteer from Ohio. I am a stroke and heart 
attack survivor. I wouldn't be here if it weren't for the new 
technique used to save my life. I am proof that research saves 
lives.
    Thank you for your outstanding leadership in providing 
historic funding increases for NIH and CDC, but I am concerned 
that heart disease and stroke research prevention programs 
receive inadequate funding. The budget for heart disease 
receives 8 percent of the NIH budget, and stroke receives 1 
percent. Also, only 6 States receive comprehensive funding from 
the CDC to prevent and control heart disease and stroke. We 
must do more.
    Heart disease is still our number one killer, and stroke is 
our number three killer. Heart disease and stroke and other 
cardiovascular diseases kill nearly 1 million Americans and 
cost us more than any other disease, an estimated $330 billion 
this year. Nearly 62 million Americans live with the often 
disabling effects of those diseases.
    Please remember, strokes and heart attacks do not only 
happen to other people. No one knows when family tragedies will 
strike. It will change your life forever.
    Thank you so very much for your time today.
    [The prepared statement of Ms. Webber follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Was quick response the key to your being well 
in view of the fact that you had these?
    Ms. Webber. Yes. And having a stroke specialist on staff.
    Mr. Regula. Getting a quick response and treatment, that is 
really very important. Thank you very much for coming.
                              ----------                              

                                             Thursday, May 9, 2002.

                       NATIONAL KIDNEY FOUNDATION


                                WITNESS

JANET MELSON BURNS, VOLUNTEER, NATIONAL KIDNEY FOUNDATION OF THE 
    NATIONAL CAPITAL AREA, INC.
    Mr. Regula. Janet Burns, National Kidney Foundation.
    Ms. Burns. Good afternoon. Thank you so much for giving me 
the opportunity to testify on behalf of the National Kidney 
Foundation. I will make mine as brief as possible.
    Since July 2001, I have needed dialysis treatment three 
times a week because my kidneys failed. Fortunately I was 
better prepared for kidney failure than many dialysis patients. 
I monitor my diet and control my blood pressure, and I am 
convinced that I would have needed to initiate dialysis sooner 
if I had not received the benefit of predialysis care. 
Predialysis care has had a positive impact on my health, making 
it possible for me to continue to pursue a fulfilling career.
    My written statement that was submitted 2 weeks ago 
mentions my hope for a kidney donor. Just last week I learned 
that a neighbor and good friend had received medical clearance 
to donate one of her kidneys to me. Not all dialysis patients 
are so fortunate, as many spend years on the transplant list.
    Twenty million Americans have signs of kidney disease, and 
an additional 20 million individuals in this country are at 
risk for kidney disease. Most of these individuals are unaware 
of this danger to their health. This finding of the National 
Kidney Foundation prompts a call to action for new and 
additional research and education programs in both the public 
and private sectors.
    I am encouraging this subcommittee to allocate more money 
to help with this effort of research and public development of 
education programs for both the public and private sector. I 
also encourage this subcommittee to provide more research in 
the area of diabetes. Diabetes is the most common cause of end-
stage renal disease, accounting for 43 percent of new cases.
    Dialysis patients who have diabetes tend to be sicker and 
more debilitated. The National Institute of Diabetes and 
Digestive and Kidney Disease, NIDDK, supports an impressive 
portfolio of basic research concerning diabetes, but it should 
augment that commitment by devoting additional resources to 
investigate the relationship between diabetes and kidney 
disease, develop new approaches to prevent or delay kidney 
failure caused by diabetes, and improve the health of patients 
who suffer from both diabetes and kidney disease. This problem 
will become even more critical in the near future due to the 
increase of the prevalence of the type 2 diabetes.
    Living organ donation. The number of individuals serving as 
living organ donors in this country increased by 122 percent 
between 1990 and 1999. With this dramatic rise it is important 
that the transplant community assure the well-being of these 
donors. In June 2000, NKF and the American Association of 
Transplantation, the American Society for Transplant Surgeons 
and the American Society of Nephrology endorsed the development 
of a living donor registry to collect and evaluate demographic, 
clinical and outcome information on living donors. Such a 
registry would improve the transplant community's understanding 
of the long-term consequences of living donation and would 
enable physicians to evaluate the impact of changes in criteria 
for donor eligibility.
    We request congressional support for this initiative, which 
could be administered by the Health Resources and Services 
Administrations Division of Transplantation. We also urge 
Congress to fund the Administration's fiscal year 2003 request 
for organ transplant programs to help support organ donation 
awareness activities.
    Thank you for your consideration of our request.
    Mr. Regula. Thank you for coming.
    [The prepared statement of Ms. Burns follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                             Thursday, May 9, 2002.

                      LYMPHOMA RESEARCH FOUNDATION


                                WITNESS

BARBARA FREUNDLICH, MEMBER, BOARD OF DIRECTORS, LYMPHOMA RESEARCH 
    FOUNDATION
    Mr. Regula. Barbara Freundlich from the Lymphoma Research 
Foundation.
    Ms. Freundlich. I will make this real quick. Barbara 
Freundlich from the Lymphoma Research Foundation.
    I do not now and I have never had lymphoma, yet I consider 
myself a lymphoma survivor. Eleven years ago my husband Jerry 
was diagnosed with this disease, and we were told that he had a 
50/50 chance of cure. Fortunately, he was one of the lucky 
ones.
    I call myself a survivor because a diagnosis of lymphoma 
touches not only the patient, but the entire family. In 1994, 
Jerry and I founded an organization to fund research and to 
provide support and education for lymphoma patients. What I 
have learned since we were plunged into this world of lymphoma 
is that for many lymphoma patients the word "cure," even a 50/
50 chance, is not a part of their vocabulary. Those with slow-
growing lymphomas typically follow a pattern of remission, 
relapse, remission, but there is no known cure. And for those 
whose lymphoma proves resistant to treatment, their once hope 
for a cure becomes a very difficult and painful reality.
    To be truthful, when Jerry was first diagnosed we weren't 
even certain that lymphoma was a kind of cancer. We heard of 
Hodgkin's disease, but the name non-Hodgkins lymphoma was 
foreign to us. Since then it seems every week we learn of 
another friend, a friend of a friend, a relative, someone 
diagnosed with this disease. And if there are those of you here 
on this committee and in this room who have not been touched by 
lymphoma, I can say with certainty that you will know or hear 
of someone in the near future.
    Lymphoma has been on the rise, and no one really knows why. 
There is no known preventive diet or lifestyle that one can 
adopt to prevent this disease. There is no diagnostic test such 
as the mammogram or PSA test to predict lymphoma.
    I will make this really quick. The one quick action that we 
request is that Congress fund the programs that are included in 
the recently passed Hematological Cancer Research Investment in 
Education Act. The bill passed the House this past April 30th 
during our Blood Cancer Coalition's advocacy days. It was 
especially gratifying to the hundreds of patient advocates who 
came to Washington last month to speak on behalf of the blood 
cancers.
    We are thankful for the efforts of Representatives Crane 
and Roukema and to Vic Snyder, who introduced the House 
companion bill H.R. 2629, and we urge the Subcommittee to act 
on the key provisions of the bill.
    I thank you for this opportunity to speak. On behalf of the 
thousands of people living with lymphoma, we may speak softly 
now, but as our numbers increase, so will our voice. Thank you.
    Mr. Regula. Thank you.
    [The prepared statement of Ms. Freundlich follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                             Thursday, May 9, 2002.

                  DYSTONIA MEDICAL RESEARCH FOUNDATION


                                WITNESS

ROSALIE LEWIS, PRESIDENT, DYSTONIA MEDICAL RESEARCH FOUNDATION
    Mr. Regula. Rosalie Lewis, President Dystonia Medical 
Research.
    Ms. Lewis. Thank you, Chairman. The same. I will keep it 
very brief.
    Not only am I the President of the Dystonia Medical 
Research Foundation, but I am the proud parent of three of four 
sons who have the disorder. Dystonia is a neurologic disorder 
that can affect any part of the body, and indeed affects close 
to 1 million people in the United States today.
    This is contrary to what we had expected before. We were 
told only 350,000 people. But a recent pilot study that the 
Dystonia Foundation funded indeed showed that there are as many 
people with dystonia in the U.S. that have Parkinson's disease. 
So we are looking at a disease that is exploding in the Nation.
    It can affect your eyes, making you essentially blind. It 
can affect your neck, making you twisted; your speech. 
Spasmatic dysphonia that Diane Rehms has is dystonia, and in my 
children's position, it unfortunately affects their entire body 
so that walking is difficult; writing is impossible.
    The NIH has been extremely helpful and in partnership with 
the Dystonia Foundation. I want to thank you and the Committee 
for the efforts you have put forward. I would like to ask you 
to continue the funding because you are getting results.
    The research that is coming out of dystonia is spilling 
over into Parkinson's and into to Alzheimer's. It is a model 
disease to fund. So I appreciate it. I will let somebody else 
have some time.
    Mr. Regula. Thank you. We will be giving a substantial 
increase to the NIH. Thank you.
    [The prepared statement of Ms. Lewis follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                             Thursday, May 9, 2002.

                    AMERICAN UROLOGICAL ASSOCIATION


                                WITNESS

DARRACOTT VAUGHAN, JR., PRESIDENT, AMERICAN UROLOGICAL ASSOCIATION
    Mr. Regula. Dr. Darracott Vaughan.
    Dr. Vaughan. Thank you for allowing me to make it here at 
the end. I will be brief.
    I am President of the American Urological Association and 
the 10,000 urologists who take care of patients and young 
people, men and women.
    There are three areas that I would like to discuss. First, 
thank you for your continued support to the National Cancer 
Institute. We still need more money for exciting new research 
in prostate cancer; 32,000 men still die of that disease per 
year. And we need to increase that funding. At the CDC we have 
an educational program for prostate cancer and prostate 
diseases. That needs to be increased in its activity, and that 
group of people also needs to take more cognizance of the 
different men's groups and listen to them to give them advice 
as they put this together. They have not been terribly 
responsive to some of the patient groups.
    Thirdly, at NIDDK, which is our home for women's disease, 
for children's disease, for diabetes and for other urologic 
problems of the bladder, we need to have better coordination of 
that institute and more voice for urology.
    You have heard some elegant statements concerning diabetes 
today. Don't forget the bladder and the sexual dysfunction that 
occurs with diabetes. That should be included. And we need more 
O'Brien Centers. I testified years ago when we started those 
centers. We need more for urology, for pediatric urology.
    Thank you.
    Mr. Regula. Thank you.
    [The prepared statement of Dr. Vaughan follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                             Thursday, May 9, 2002.

                 NATIONAL ASSOCIATION OF SCHOOL NURSES


                                WITNESS

LINDA WOLFE, PRESIDENT, NATIONAL ASSOCIATION OF SCHOOL NURSES
    Mr. Regula. Linda Wolfe, president of the National 
Association of School Nurses.
    Ms. Wolfe. Thank you. I am Linda Wolfe. I am President of 
the National Association of School Nurses, and so I represent 
school nurses throughout the United States who serve children 
in our schools, and also those families in the armed services 
abroad. We are dedicated to improving the health and 
educational success of children, and so today I am here to talk 
about the rising epidemic of obesity in our children.
    I would ask people in the audience if they would consider 
what they had for breakfast, or perhaps if we had time for 
lunch today, and how many hours of exercise we are going to 
spend, how many hours towards exercise this week.
    See, our children are watching what we and those around us 
do, and poor nutrition and inadequate exercise is going to 
shorten their lives. It is our responsibility to teach them how 
to live.
    The percentage of young people who are overweight has more 
than doubled in the past 10 years. It is estimated that 4.5 
million children are obese. I am not going read you all of 
those figures, but in a typical classroom of 30--if we had 30 
13-years-olds, in that classroom alone there would be three 
students who were clinically obese, and out of those three, 
they would be at special risk for heart attack. This growing 
trend of obesity is happening to children in every classroom.
    You have heard about diabetes today. We are starting to see 
more and more cases of diabetes in our young people being 
diagnosed with type 2 diabetes, which we have always called 
adult-onset diabetes. School nurses are concerned about this. 
Out of that typical classroom of 30 students, only 6 of them 
eat what they should every day.
    So we have four recommendations, and this is all fleshed 
out in the written part. But our four recommendations are, one, 
that daily quality physical education must be ensured for all 
school grades. Currently there is only one State in the 
country, Illinois, that requires physical education for grades 
K to 12.
    Our second recommendation is that more nutritious food 
options are available to our children. And at school events, 
you know about the soda contracts and the junk food that is 
available. USDA has outlined a lot of good promises. They need 
to be supported.
    Our third recommendation is supporting the coordinated 
school health programs established by CDC, which takes a 
multidisciplinary approach to holistically addressing the 
inactivity and the unhealthy diets of children.
    And our fourth recommendation is that healthy eating 
programs must be encouraged and supported. We heard about 
asthma earlier and the importance of education.
    Thank you from the school nurses for the opportunity to 
speak.
    [The prepared statement of Ms. Wolfe follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Would it help if the vending machines had 
apples instead of candy bars?
    Ms. Wolfe. Sounds good to me.
    Mr. Regula. How is your school? Are you at a school?
    Ms. Wolfe. My school, I was in elementary school, so the 
vending machines aren't available to our young people.
    Mr. Regula. That is something that ought to be looked at. 
Thank you very much for your testimony.
                              ----------                              

                                             Thursday, May 9, 2002.

                       THE PROSTATITIS FOUNDATION


                                WITNESS

CLARK HICKMAN, ASSOCIATE DEAN FOR CONTINUING EDUCATION, ASSISTANT 
    PROFESSOR OF EDUCATIONAL PSYCHOLOGY, RESEARCH AND EVALUATION, 
    COLLEGE OF EDUCATION, UNIVERSITY OF MISSOURI-ST. LOUIS
    Mr. Regula. Dr. Clark Hickman.
    Dr. Hickman. Thank you, Mr. Chairman. I am representing the 
Prostatitis Foundation. I am a former sufferer of prostatitis 
myself, which is sometimes ignored in prostate diseases. It is 
an inflammation of the prostrate gland as opposed to the benign 
prostate hypertrophy that comes with older age as well as 
prostate cancer.
    The CDC estimates that 50 percent of men sometime in their 
life will experience symptoms of prostatitis. In 1996, Richard 
Alexander at the University of Maryland School of Medicine 
testified before this committee as to the dearth of knowledge 
in the medical community regarding prostatitis and outlined 
systematic steps to empirically research the problem, and I am 
one of the teachers that has researched the problem.
    In the ensuing 6 years, some progress has been made in this 
area, especially through the Chronic Prostatitis Collaborative 
Research Network. Scientific work is continuing in this area to 
learn as much as possible about the multiple facets of this 
disease. Therefore, in order to make this brief, cutting to the 
chase, I am asking for an increase in funding for the Chronic 
Prostatitis Collaborative Research Network, currently being 
funded in the National Institutes of Diabetes and Kidney 
Diseases, NIDDK, at NIH, which is due to expire this fiscal 
year 2003, a modest amount moving the budget up to $3.5 
million. This would allow for additional research centers and 
continue the progress they are making.
    And we also want a scientific and clinical workshop with 
international expertise to be held in 2003 to disseminate the 
findings of the research network and the development of a 
strategic plan.
    [The prepared statement of Dr. Hickman follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. It doesn't have an age factor? Young men could 
be afflicted as well as older?
    Dr. Hickman. It is typically a younger man's disease. It 
strikes between 18 and 23.
    Mr. Regula. Really?
    Dr. Hickman. In a study I did of 70 men last year, I got 
age ranges of 18 to 80.
    Mr. Regula. What is the treatment?
    Dr. Hickman. Right now there is no efficacious treatment. 
Typically you go into a doctor's office, you get the requisite 
10-day supply of antibiotics, they hope you don't come back. If 
you do, they shrug their shoulders and say that you have to 
live with it.
    We just don't understand this disease. We don't understand 
what causes it, let alone treat it. It is a very painful 
disease. I am in touch with everybody from police officers, 
Navy men. A Secret Service agent down the street is on leave 
now because he can't perform his job. It just brings you to 
your knees.
    Mr. Regula. It affects the urinary tract, I assume.
    Dr. Hickman. Yes. You get pain in the pelvic area, burning, 
there can be rectal dysfunctions, and it just lessens the 
quality of life considerably.
    Mr. Regula. At the moment no cure on the horizon.
    Dr. Hickman. No cure on the horizon, but with continued 
money through the NIH, Dr. Alexander and his team and the 
research collaborative are taking great strides.
    Mr. Regula. Are they aggressive in their research?
    Dr. Hickman. Very. And they are getting some good results.
    Mr. Regula. Thank you very much.
                              ----------                              

                                             Thursday, May 9, 2002.

   NATIONAL ASSOCIATION OF ANOREXIA NERVOSA AND ASSOCIATED DISORDERS


                                WITNESS

SHEILA DEARYBURY WALCOFF, WASHINGTON, D.C., REPRESENTATIVE, NATIONAL 
    ASSOCIATION OF ANOREXIA NERVOSA AND ASSOCIATED DISORDERS
    Mr. Regula. Okay. We are going to make it. Sheila Dearybury 
Walcoff.
    Ms. Walcoff. Dearybury.
    Mr. Regula. Washington, D.C. representative, National 
Association of Anorexia Nervosa and Associated Disorders. You 
are the last witness.
    Ms. Walcoff. Thank you for hanging in there and waiting for 
me to be number 23 out of 23.
    Mr. Regula. Okay.
    Ms. Walcoff. As you said, I am Sheila Dearybury Walcoff. I 
am the Washington, D.C. representative of ANAD, the National 
Association of Anorexia Nervosa and Associated Disorders. 
Founded in 1976, ANAD is our Nation's oldest nonprofit 
organization dedicated to alleviating the problems of anorexia 
nervosa, bulimia nervosa and binge eating disorder.
    ANAD's education, early detection and prevention programs 
provide models for low-cost outreach services that benefit 
hundreds of thousands----
    Mr. Regula. Tell me, what does this--what happens if you 
have anorexia nervosa? What are the symptoms?
    Ms. Walcoff. Not eating. Well, it is typically a disease 
that you see most often, particularly in movies. It has been 
more greatly advertised in the last 10 years. Young women will 
have a distorted body image, and no matter how thin they get, 
they still believe that they are fat.
    You know, I think you might recall the commercials that 
were on NPR and some others in the last few years. I wake up in 
the morning, I think I am fat. You know, I go to breakfast, I 
think I am fat. It is a distorted body image that results in 
basically anorexia, not wanting to eat, not wanting to feed 
one's body.
    Mr. Regula. It is mentally driven to some extent.
    Ms. Walcoff. It is a mental illness, a very severe mental 
illness.
    In my testimony I pointed out some recent genetic studies. 
It has become very important in terms of treating mental 
illnesses to, you know, identify biological bases.
    Mr. Regula. Any age components?
    Ms. Walcoff. Primarily young women. Also affects young 
boys, but really crosses all boundaries, all ethnic boundaries, 
all age boundaries. Men also suffer from eating disorders.
    Mr. Regula. What is the treatment?
    Ms. Walcoff. Primarily it is--I have to admit that I am an 
attorney and not a doctor, so I can't speak completely 
confidently in terms of all treatment practices, but in-patient 
treatment is most often recommended, intense treatment to get 
in and reeducate the victim to try to help them have a better 
understanding of good nutritional eating habits, positive body 
image in order to really change the way that they think about 
themselves, accepting themselves in order to properly feed, you 
know, their body in order to live and to be a productive member 
of society.
    Mr. Regula. Is there research going on now at NIH?
    Ms. Walcoff. I am not sure about NIH. The mental--in the 
mental health section of that there is research ongoing. And 
there have been a number of studies--I actually pointed to an 
Ohio study in my testimony that talks about how to develop, 
better prevention and better education programs.
    One of the key things is identifying this disorder early so 
that you can get the victim into a program, which they can be 
treated, and that makes the treatment more successful over 
time.
    Mr. Regula. You are seeking research money with NIH?
    Ms. Walcoff. Research money and also educational programs. 
The woman that actually--she is still here--that testified sort 
of on the other side of this in terms of adolescent and 
childhood obesity, it is really, you know, part of the same 
problem. It is part of not understanding nutritional eating 
habits, getting proper exercise, having a good self-image. It 
is education in terms of how to feed yourself and also, you 
know, taking away the very unhealthy, destructive images that 
are really forced upon our society through the Internet, 
television. The multibillion-dollar diet industry really 
promotes destructive eating habits. Being able to teach 
children, starting from a very young age how to properly eat, 
feed their bodies.
    Mr. Regula. Education of the parents as well.
    Ms. Walcoff. Parents and the medical community.
    One of the most important things is enabling people to 
recognize when there is a problem. You know, so often people 
are rewarded. I actually had the opposite thing. My parents 
rewarded me when I cleaned my plate. If I had seconds, that was 
even better. But, you know, not rewarding our youth for 
unhealthy eating habits and eating practices.
    Mr. Regula. I assume that Hollywood, the magazines are a 
factor, because they worship the altar of thinness.
    Ms. Walcoff. Very significant factor. It really comes down 
to, the images you get; what is a positive body image, what is 
a realistic weight to be, what is a healthy weight to be. You 
know, not always thinking, I can lose another 5 pounds, I can 
be thinner, I am not a successful person unless I am thin.
    Mr. Regula. You are seeking money for NIH research then?
    Ms. Walcoff. Yes.
    Mr. Regula. NIMH?
    Ms. Walcoff. So many acronyms.
    [The prepared statement of Ms. Walcoff follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I want to thank all of you for sticking with 
us. If you are not familiar with the system, those two lights 
and two bells mean you have a vote on the floor. So the timing 
is exquisite.


DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2003

                              ----------                              

                                          Thursday, April 18, 2002.

   EDUCATION BUDGET; TITLE I; IDEA; 21ST CENTURY COMMUNITY LEARNING 
                                CENTERS

                                WITNESS

HON. ALBERT R. WYNN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Regula. We will get started this morning. We have a 
long morning, a lot of requests, I think. And, Mr. Wynn, you 
get to lead off today.
    Mr. Wynn. Well, thank you very much, Mr. Chairman. And good 
morning. I will try to move quickly. I would like to divide my 
testimony into two parts. First, I'll talk about three 
programs, and while they are very important to my district, 
they are important to every district in our country, 
nationwide. That would be Title I, the IDEA special education 
plan, and then the 21st Century Learning Centers.
    The second part of my testimony will focus on a few 
projects specific to my district that I want to apprise the 
committee of. We will, of course, be submitting specific 
detailed written requests, but I wanted to, as they say, get it 
on the radar screen.
    With that in mind, I would like to begin by talking about 
Title I, which is a very important program for disadvantaged 
students. About a third of the students in my school districts 
have schoolwide Title I programs. In fiscal year 2003, the 
House budget is $11.5 billion for 2002.
    I am pleased that the increase--obviously it is a 
significant increase, but nonetheless it is significantly below 
the $16 billion authorized for this program in the No Child 
Left Behind Act. So really what I am here to say with respect 
to Title I is I hope the committee will be able to move closer 
to the authorized level in the bill rather than the budget's 
figure that we----
    Mr. Regula. Depends on our allocation.
    Mr. Wynn. Exactly.
    Second, IDEA programs. Special ed, of course, is very 
important. Again, there is a significant gap between our goals 
and what we are currently looking at. I understand we are 
looking at approximately $8.5 billion in 2003, which would 
cover about 18 percent of the cost of these services. Some time 
ago, Congress made a commitment to provide 40 percent of these 
services. The thrust of my comments on special ed is simply 
this. The less the Federal Government pays, the more local 
governments have to pay, and that takes away from other 
education programs. And the consequences, I think, are pretty 
obvious there.
    Probably one of the programs dearest to my heart is the 
21st Century Learning Centers. We designated a need to provide 
programs for young people after school: academic programs, 
athletic programs, arts and crafts, cultural programs, personal 
development programs. And the fact is, we are basically flat 
funding this program. Substantially less than was authorized 
again in the No Child Left Behind Act which would be about 1.25 
billion as opposed to the $1 billion we are looking at.
    So those are the areas of concern that I have overall. And 
I realize you have great limitations. We are cutting about $90 
million out of the No Child Left Behind Act, including 28 
programs that deal with the problems such as drop-out 
prevention, particularly of concern to Hispanic and the 
African-American communities, rural education programs, as well 
as civic education, which is important in terms of rebuilding 
character among our young people.
    Having talked about these 3 areas that are important from a 
national perspective, I would like to talk specifically about 
my district. The first project dealing with an allocation that 
I will be requesting in writing deals with an allocation to the 
Prince Georges Community College. This request is based on the 
events of September 11th. Prior to that, the community college 
used facilities at Andrews Air Force Base. You are probably 
familiar with that.
    Well, that base also housed our local community college, a 
significant portion of it, not its entirety. Roughly a thousand 
students attended. A third of them were military personnel. The 
other two-thirds were not. And, as a result of some 
restrictions, there was a disruption. Classes resumed, but it 
is anticipated that given our current climate that this will 
not be a hospitable location for civilian community college 
classes. We will be submitting a detailed request to assist 
with off-site housing for the community college programs.
    Mr. Wynn. The second request is a program at Bowie State 
University, which is in our colleague Mr. Hoyer's district, 
adjacent to mine, which serves a large number of students from 
my district. It is a historical black college in Prince Georges 
County. We are looking to develop and design a bioscience 
training laboratory that will teach analytical technologies 
used to identify biological agents--obviously since September 
11th this is a major issue, particularly important to the 
Washington metropolitan area, given our location in relation to 
the terrorist threat.
    The university is close to Washington, D.C. And would be an 
ideal location. We have been providing the committee with 
details on that.
    The third project I wanted to--the specific project I 
wanted to bring to your attention from the Children's Rights 
Council. You may be familiar. They are promoting parenthood or 
parenting between divorced parents. One of the issues is the 
transfer of the children when there are cases of domestic 
conflict. We are going to ask for an additional 25 child 
transfer centers which provide supervised settings so that one 
parent can drop off a child at a neutral site and the other can 
pick up at a neutral supervised site.
    Actually in my law practice, I saw an unfortunate incident 
where a McDonald's was used and the McDonald's ended up being 
shot up because the two parents could not get along. Cars were 
crashed. It was quite a situation.
    But I think this is a worthwhile project. I hope you will 
give it full consideration.
    And, finally, we would like to secure funds for our high 
school debate program. A lot of emphasis is placed on athletics 
to help disadvantaged students. Academic reinforcement is 
obviously very important. But we would like to promote a high 
school debate program that would take a somewhat different 
focus and provide young people with the opportunity to engage 
in policy debate at the high school level. I think this would 
be a very worthwhile activity.
    Mr. Regula. Have you presented these in the order in which 
they are important to you? Have you prioritized? Because you 
know obviously we cannot do everything.
    Mr. Wynn. I am well aware of that. I have presented them in 
order of priority.
    Mr. Regula. So the way you have listed them in your 
presentation would be your priorities?
    Mr. Wynn. That is correct, sir.
    Mr. Regula. Thank you very much for coming.
    Mr. Wynn. Thank you very much for your indulgence, Mr. 
Chairman. Have a nice day.
    [The prepared statement of Congressman Wynn follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Regula. Thank you.
    I don't think that we have another Member here. Here is--
okay. Welcome. You are on.
                              ----------                              

                                          Thursday, April 18, 2002.

          TRAUMATIC BRAIN INJURY ACT--HRSA, NIH, CDC; PROJECTS

                                WITNESS

HON. BILL PASCRELL, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
    Mr. Pascrell. Mr. Chairman, I want to begin by thanking you 
and the Ranking Member, who is not here, for dedicating so much 
time to hear public and Member testimony. I will provide the 
longer version to you, and I will go quickly through this.
    Mr. Regula. I appreciate that.
    Mr. Pascrell. An issue of utmost importance to me and many 
Members is the condition known as traumatic brain injury, Mr. 
Chairman. And we have done a lot of work in the last few years 
on a bipartisan basis along this line.
    Every year millions of Americans experience TBI, and about 
half of these cases result in at least short-term disability. 
It is about 80,000 people who sustain severe brain injuries 
leading to long-term disability. TBI is defined as an insult to 
the brain caused by an external force that may produce 
something as small as a concussion to impairing a person of 
cognitive abilities, physical functioning. It even can change a 
person's behavior, emotional function.
    I am very committed to this issue. And we formed, myself 
and Congressman Greenwood, a task force on the brain injured 2 
years ago. I wanted to bring to your attention three programs 
that were expanded in scope and responsibility by the TBI Act 
to urge you to fully fund at $36.8 million.
    The first program I would like to bring to your attention 
is the State grant program administered under the Health 
Resources and Services Administration. The TBI Act specifically 
directs States receiving grants to develop, to change, or 
enhance community-based service delivery systems for victims of 
TBI. I request for the State programs and the P&I programs to 
be funded at a total of 14.8 million.
    The second program you should be aware of, Mr. Chairman, is 
the CDC's effort to build on its work with State registries to 
collect information that would help improve service delivery. 
If we do not know who is out there we cannot--we do not know 
the depth of the problem.
    Since its inception for traumatic brain injury in 1996, the 
CDC program has continuously been underfunded at $3 million. 
Mr. Chairman, I am requesting a total of $3 million for CDC's 
expanded activities.
    NIH directs the National Center for Medical Rehab Research 
to launch a cooperative multi-center traumatic brain injury 
clinic trials network and fund five bench science research 
centers via the National Institute for Neurological Disorders 
and Strokes.
    I request support for $15 million for these existing 
programs at NIH. Those funds are sorely needed and will help a 
great percentage of the estimated 5.3 million Americans living 
with this disability as a result of traumatic brain injury.
    In addition to TBI, there are also two project requests. I 
will go through them quickly, Mr. Chairman. The first project I 
am here to ask you to support is the 21st Century Institute for 
Medical Rehabilitation Research. During the last cycle I asked 
for $3 million. Congress provided $350,000 of that amount, for 
which I am deeply grateful. I am here today to ask for the 
remaining funds if that is at all possible. One of the areas 
that could benefit from greater support is the field of 
rehabilitation medicine and research.
    Up until now this area has not seen the kinds of increases 
that many others have enjoyed, and the need remains 
substantial. One of the premier institutions in the country in 
the rehab research field is in my Congressional district. It is 
the Kessler Medical Rehab Research and Education Corporation. 
Kessler Rehab Hospital decided to create a new and unique 
effort in the United States. It is called the 21st Century for 
Medical Rehab Research. State of the art, Mr. Chairman. You 
would be very, very proud.
    My second request is for St. Joseph's Medical Center at 
Patterson for a total of $2,000,000, the first designated 
children's hospital and the administrator of the largest WIC 
program in the State of New Jersey. The $2,000,000 will allow 
the institution to continue to serve and assist the region's 
vulnerable pediatric population in 2 specific areas, pediatric 
emergency department and the pediatric intensive care unit. It 
is a vital urban safety net providing care for the region's 
uninsured and underserved.
    PICUs are crucial for the care of the region's pediatric 
patients, as evidenced by its receipt of 254 transports last 
year under agreements with New Jersey and New York hospitals.
    The children's hospital emergency department recorded 
30,000 pediatric visits last year. It is pretty outstanding.
    Mr. Chairman, I really appreciate your indulgence.
    Mr. Regula. I assume you have given the special requests in 
the order in which they have priority with the----
    Mr. Pascrell. I would be happy to answer any of your 
questions.
    Mr. Regula. Well, we probably will not have the ability to 
fund everything.
    Mr. Pascrell. Well, these are priorities, you know, and 
everything is a priority, nothing is a priority. You know that 
better than I do. These are three. I had about 8 or 9 of them. 
I hope you can respond in some manner, shape or form. I always 
trust your judgment and I will leave it at that.
    Mr. Regula. Thank you. Do you have the project 
questionnaire with you? If not, just get it to us.
    Mr. Pascrell. I think we did.
    Mr. Regula. Yes. Okay.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Regula. Next Ms. Woolsey.
    [The prepared statement of Congressman Pascrell follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 18, 2002.

                                PROJECTS


                                WITNESS

HON. LYNN WOOLSEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Ms. Woolsey. Wow, this chair is hot.
    Thank you, Mr. Chairman. This is a good opportunity. I 
understand that we do not have all of the money in the world. 
But again I am here to ask for education and health projects 
for the 6th Congressional District of California just north of 
the Golden Gate Bridge.
    Mr. Regula. I have been there.
    Ms. Woolsey. I know you have. You are usually there on the 
park stuff. Yes, and Fort Baker.
    Mr. Regula. What do you think of the rehab of Fort Baker? 
They are trying to get a contractor to do it.
    Ms. Woolsey. Right. They are going to make a good decision. 
We have gotten some good infrastructure money now from DOD for 
the rehab.
    Mr. Regula. I think it is a terrific asset.
    Ms. Woolsey. I know. I thank you for your interest. You are 
already familiar with Center Point, a nonprofit comprehensive 
drug and alcohol treatment center in my district. And Center 
Point is one of the very few drug and alcohol treatment centers 
nationwide that provides comprehensive social, education, 
vocational, medical, psychological, housing and rehabilitation 
services.
    Mr. Regula. We gave them a half a million last year.
    Ms. Woolsey. Right. They are here asking for $350,000 this 
year in order to----
    Mr. Regula. That is still your number 1 priority?
    Ms. Woolsey. It is my number 1 priority.
    Next, Sonoma State University is in my district. It is the 
only public 4-year university in the 6-county region north of 
the San Francisco Bay. It is a really good school that is doing 
great work.
    On behalf of Sonoma State, I am asking for $1 million from 
the fund for the improvement of post secondary education, 
FIPSE. And they need this for laboratory equipment for their 
master's program in computer engineering sciences. And it would 
be very useful to them and helpful if we could give them that 
funding.
    And I need to brag a minute about the Yosemite National 
Institute. The Yosemite National Institute conducts 
educational, rigorous hands-on environmental science programs. 
And they are in my district and elsewhere in California.
    When I first came to this subcommittee on Yosemite's behalf 
2 years ago, less than 10 percent of their students were from 
low income and/or minority families. But, with the help of 
Federal funds, Yosemite has been able to make these programs 
available to low income minority communities that have 
traditionally not had access to quality science-based 
educational education.
    Today almost 40 percent of Yosemite's students receive 
scholarships. That is why I support their request for $1 
million so that they can increase their outreach.
    Now those are good statistics for Yosemite and Center Point 
has got good statistics. But we have some really bad statistics 
in my district. And that is about the success rate in our fight 
against breast cancer in Marin County. Marin County is the 
district--well, you know all of that. Patrick, you know that, 
too, don't you?
    But Marin County has the highest rate in the Nation of 
breast cancer cases and deaths for Caucasian women. And that 
figure is increasing at an alarming rate, and we have no idea 
why. Half of the breast cancer cases in Marin County cannot be 
explained by known risk factors, by mothers and grandmothers, 
and having had breast cancer.
    And that is why I am asking for $1\1/2\ million from the 
Center for Disease Control to expand breast cancer research and 
health outreach programs in Marin County. We have twice already 
helped them, not--to almost a million dollars, but now they are 
ready to go with their project to find out what is going on.
    And then, finally, Mr. Chairman, we have another university 
in my district. This one is a private university. It is 
Dominican University. It used to be Dominican College. They are 
seeking Federal assistance, and we do not know the amount yet, 
for a center--to build a center for science and technology. 
Their center will teach teachers and nurses who will then be 
able to go into the hospitals and to the schools and expand our 
access to high-tech people so we do not have to go overseas and 
hire them.
    So that is the 6th Congressional District, a leader in 
meeting the health and education needs of the 21st Century, but 
needing help along the way. Absolutely a donor district in this 
country for taxes. I made a commitment to them that it is my 
job to make sure that they get some of something back.
    Mr. Regula. Is Center Point your number 1?
    Ms. Woolsey. Center Point is my number 1, continues to be 
my number 1.
    Mr. Regula. Mr. Kennedy, any questions?
    Mr. Kennedy. No. But thank you.
    Ms. Woolsey. Thank you. Thank you both. A part of something 
for all of it would be good. I mean, rather than have 
everything going to one program.
    Mr. Regula. You would rather divide it up?
    Ms. Woolsey. I would. Thank you very much.
    Mr. Regula. Well, we do not have any more members here at 
the moment. Good morning.
    [The prepared statement of Congresswoman Woolsey follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 18, 2002.

                CHILD ABUSE PREVENTION AND TREATMENT ACT


                                WITNESS

HON. JOHN B. LARSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
    Mr. Larson. Thank you, Mr. Chairman. I want to thank both 
you and Ranking Member Obey and the distinguished Members of 
the Subcommittee and my dear colleague, Patrick Kennedy.
    I am grateful for the opportunity this morning to bring to 
your attention the needs of the underfunded programs in the 
Child Abuse and Prevention and Treatment Act.
    I join with a host of sponsors from my district who have 
aligned themselves with the National Child Abuse Coalition to 
ask specifically that CAPTA receive an appropriation equal to 
its fully authorized amount, $70,000,000 for basic State 
grants, 66,000,000 for community-based prevention grants, and 
30,000,000 for research and demonstration grants.
    It is my hope that with this funding, we will be one step 
closer to ensuring the safety of our Nation's abused children.
    As I am sure you know already, Mr. Chairman, and Members of 
this committee, in 1999 the Department of Health and Human 
Services reported that child prevention services agencies 
received over 2.9 million reports of suspected child abuse and 
neglect.
    National incident studies found since 1988 all forms of 
abuse and neglect, sexual, physical and emotional, have risen 
at least 42 percent, while some individual types of neglect 
have risen over 300 percent.
    Unfortunately, funding for neither CAPTA nor the CPS 
agencies has kept pace with the scope of this problem, Mr. 
Chairman, which by way of anecdote, and I know that you are 
inundated all of the time with the numerous amounts of data and 
information, but I think for Members of Congress the most 
compelling thing is when we have people visit our office and 
have an opportunity to express their concerns. I was visited 
most recently by a dear friend, Eva Bannell, who is a child 
abuse victim herself, who like so many has only recently come 
forward and acknowledged this and is dealing in her own way 
with this concern. And yet she comes forward not so much for 
herself, but to be an advocate on behalf of children and to 
make sure that children in the future are spared the ravages 
and God-awful problematic things that she encountered having 
gone through what has got to be a horrific situation.
    I commend her. I thank her and the coalition for bringing 
this very important issue before you. I know, Mr. Chairman, you 
have many weighty things that you have to balance in the course 
of putting an appropriations bill together. But clearly the 
concern for the abused children in this Nation I know will take 
precedence in the Committee's deliberations.
    I have further written testimony that I would like to 
submit.
    Mr. Regula. It will be made part of the record.
    Mr. Larson. But I wanted for the record, especially when we 
have courageous people like Eva Bannell who come forward, are 
willing to both talk about their own experience, but do so not 
in seeking something for themselves, but clearly in wanting to 
be advocates to spare all children from what they have 
experienced. Thank you very much for the opportunity to appear 
before the Committee.
    Mr. Kennedy. Thank you, Mr. Larson. I have had the chance 
to also meet with Eva Bannell, who is an extraordinary woman, 
great advocate for her cause. Thank you for your work to be an 
advocate for this very important cause.
    Mr. Cunningham. Just a question. In San Diego the child 
protective services, we had a real bad problem. As a matter of 
fact, we had a court case that almost went a year against the 
Advocates Child Protective Services that they got overhanded a 
little bit and they were ripping children out when they really 
should not.
    Now I know there is a fine line. But have you had that 
problem?
    Mr. Larson. No. In fact, I think the importance of the 
moneys that we have been able to receive, for example, in the 
State of Connecticut with child protective services, the grants 
that we received have provided the moneys for the additional 
kind of training. And I think that is to your point, very 
important that the people that we have going in understand 
there is a very fine line here. And what that means is that 
they have to be trained appropriately, have the appropriate 
kind of education and counseling background and work to achieve 
that goal. But that has not been the experience in the State of 
Connecticut. In fact, we have been benefited tremendously and 
have been able to leverage the Federal dollars that we need 
these in instances, Duke.
    Mr. Cunningham. My daughter is up at New Haven, in Ms. 
DeLauro's district. She will tell you that she is an abused 
child because I do not give her enough money.
    Mr. Larson. Well, we will not report that.
    Mr. Cunningham. Thank you.
    Mr. Larson. Thank you, Mr. Chairman.
    Mr. Regula. Thank you. Mr. McNulty, we welcome your 
testimony.
    [The prepared statement of Congressman Larson follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 18, 2002.

                                PROJECTS


                                WITNESS

HON. MICHAEL McNULTY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW YORK
    Mr. McNulty. Thank you, Mr. Chairman, Mr. Cunningham, 
Members of the Committee.
    Thank you not only for being on time, but being ahead of 
schedule. I know your time is precious. Mr. Chairman, I would 
like to submit my entire statement for the record and then 
summarize it, if that is okay.
    I am requesting some assistance for a variety of projects 
in my district and I will just go over them briefly. The 
Schenectady Family Health Services is an upstate federally-
qualified health care urban community health center. It is 
located in the City of Schenectady, New York. They are seeking 
to obtain a 2.1 acre property located on State Street in 
Schenectady, New York, to construct a new building that would 
not only house the core participants but also space for other 
agencies and programs that complement their core services.
    The Whitney Young Health Center, also a community health 
center located in the heart of my district in Albany, New York, 
is doing a massive renovation project.
    Mr. Regula. This is the same one that you had last year?
    Mr. McNulty. Both of those did receive some funding last 
year.
    On Whitney Young, Mr. Chairman, they have completed their 
phase one renovation project. I have seen it. It is serving a 
much larger clientele because of the fact that we have been 
able to expand their services. They do need to do a phase two 
expansion, and that is why I am asking for continued 
consideration for their project.
    Just one example, Mr. Chairman. On the HIV/AIDS program, 
there has been a 62 percent growth in that program at this 
particular facility from 1999 through 2001, and so I would ask 
some additional help for them as well.
    The Albany Medical Center in my district is not only a 
tremendous health care facility providing for the health care 
needs of hundreds of thousands of people, really throughout the 
capital region, they employ almost 6,000 people. So they are 
vital to our economy, too, and they are renovating and 
modernizing their trauma emergency department, and they are 
asking for some assistance in that regard. Their current 
facility, that part of their facility, the trauma unit, was 
originally built to accommodate 45,000 annual visits, and last 
year had over 63,000 visits. So they are really taxed to the 
maximum in that regard.
    Also, the Albany Medical Center is the only state-
designated trauma center in the 23-county Northeast region of 
New York State. So that whole portion of the State of New York 
is served by that facility.
    Excelsior College, which you helped us with in the past, 
also is a non-profit fully accredited institution of higher 
learning. It specializes in distance learning, and they are 
seeking funding for the establishment of a nursing management 
certificate program.
    Another project, Mr. Chairman, since 1990, the Institute 
for Student Achievement, commonly referred to as the ISA, has 
worked to keep at-risk kids in school and get them into 
college. We have a program run through ISA over in the Troy 
school district that has shown tremendous success in keeping 
at-risk youth in school and helping them graduate and getting 
them on to college. Over 96 percent of the students who have 
participated in the Troy program have graduated, and over 85 
percent of them have been accepted to college. So that has been 
a tremendously successful program.
    Union College is an independent liberal arts college that 
traces its origins back to 1779. In 1795 it became the first 
college chartered by the regents of the State of New York. They 
have designated a program to foster multi-disciplinary 
undergraduate science and engineering learning in research by 
integrating several traditional disciplines including 
engineering, physics, chemistry and computer science. I would 
like to help them to continue that program.
    Rensselaer Polytechnic Institute in Troy was founded in 
1824, was the first degree-granting technology university in 
the English-speaking world. They are establishing an IT 
corridor in the capital region of the State of New York 
anchored by their incubator program and their technology park, 
which incidentally, Mr. Chairman, has been helped before by you 
on other committees.
    They took a vacant tract of land in the town of North 
Greenbush, just adjacent to Troy, and established the 
technology park, which--so there was just nothing there 20 
years ago, and today is the home of 2,500 new high-tech jobs. 
So it has been the largest source of private job development in 
the capital region in the State of New York in the last 20 
years, so I want to help them as well.
    And finally, the Sage College is also a comprehensive 
institution of higher learning, has three components in my 
particular area, in Troy and at University Heights in Albany. 
The college has made a $12.5 million commitment to its 
facilities improvement, and I would like to help them continue 
in that regard.
    Mr. Chairman, I would like to say to you that I know this 
is a pretty comprehensive list. I know that the resources 
available to you are very tight. And I would point out that 
each and every one of those projects is getting funding from 
other sources and from private sources and so on, and I would 
like to work with the Committee to try to get some measure of 
funding to help each one of them just progress.
    Mr. Regula. Have you prioritized these?
    Mr. McNulty. I have in my testimony. I might want to work 
with the staff a little bit more, prioritizing a little bit 
more.
    Mr. Regula. You may want to spread it around a little, too.
    Mr. McNulty. We will work with you.
    Mr. Regula. Thank you for coming. Mr. Cunningham, any 
questions?
    Mr. Cunningham. No real questions. Like Mr. Kennedy said, 
it is always good to see him. It is good to see Members come up 
and fight for these kinds of programs for kids in the inner 
cities.
    Mr. McNulty. Thank you.
    Mr. Regula. Thank Patrick for his consideration as well as 
all of the Members of the Committee.
    Thank you.
    Mr. Sherman, we welcome you. We are looking for Members. 
Since you are here, we will put you on.
    [The prepared statement of Congressman NcNulty follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 18, 2002.

                                PROJECTS


                                WITNESS

HON. BRAD SHERMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Sherman. I have been in Congress 6 years. This is the 
first time anything has been early. I am amazed.
    Mr. Regula. Well, we start on time.
    Mr. Sherman. Chairman Regula, Members of the Committee, I 
am here to support two projects that are important to my 
district. Both of them involve innovative programs to provide 
high technology that will equip students for jobs of the 
future.
    The first is at a high school, the second at a college. 
HighTechHigh School, Los Angeles, is seeking $750,000 for in-
school improvement programs. This is an opportunity to leverage 
local funds in order to provide technology training. It is, in 
effect, a high school inside of Birmingham High School. It will 
serve predominantly disadvantaged and minority students.
    The $750,000 in Federal funding would be used to wire the 
school to accommodate powerful multi-user networked computers, 
and to fund acquisition of necessary computer technologies and 
provide comprehensive training to teachers and other personnel. 
This high tech high school will use an innovative project-based 
curriculum that I think may become a model for high-tech 
education at the high school level around the country.
    The local funding has already allowed us to complete 
architectural facility designs. We have raised $5.2 million 
from State and local and private sources. We have completed 
recruitment and the organization of teams to do the work and 
developed an innovative curriculum. And with these 
accomplishments completed, we will be able to implement and 
test curriculum perhaps as early as the fall of 2002, 2003 with 
the group of 9th and 10th grade students attending Birmingham 
High School and acting as a magnet bringing in students in from 
all over the Los Angeles area.
    The high tech enrollment will be 350 students and, as I 
mentioned, will be serving as predominantly minority and 
underserved students who face the greatest difficulty in 
preparing themselves for the high tech jobs of the future.
    We are asking, as I said, for $750,000. I am trying to hit 
just the high points of my testimony and expect that the entire 
testimony will be made part of the record.
    The second program is an engineering technology program at 
California State University, Northridge. We are seeking 
$1,000,000 from the Fund for the Improvement of Post-Secondary 
Education. I do not have to tell Mr. Cunningham how effective 
the California State University system is. And it is indeed 
well represented by its campus in my area in Northridge.
    We are seeking $1 million to provide a 50 percent match in 
the start-up costs of a new entertainment engineering 
curriculum. People know that the entertainment industry is the 
lifeblood of Los Angeles. But there is an image that it is all 
glitzy Hollywood actors. No. It is the people behind the 
scenes. And it is increasingly a part of the high tech industry 
of this country, and we need to provide the educated people for 
that industry to do the high tech, keeping in mind that this is 
one of the largest export industries of the United States and 
is important for creating not always beneficial, but, I think 
on balance, beneficial images of this country around the world.
    Clearly, if this is the American century, it will be viewed 
as such because of what the entertainment industry has done and 
will do.
    The Federal funds are requested to assist with the 
acquisition of high technology equipment, software, network 
expansion, and the integration to link the expertise of the 
College of Arts, Art Media and Communications, of Business 
Administration and Economics and Engineering and Computer 
Science, bringing together three schools at the California 
State University at Northridge.
    In the last decade, as I have said, the entertainment 
industry has been revolutionized through technology. These are 
the jobs not for the rich movie stars, but for the work-a-day 
people that make this industry. We have seen this technology in 
Shrek and Toy Story and in other films that do not seem to be 
high tech, but have high tech special effects.
    This is a one-time earmark of $1 million which would enable 
the University to develop and utilize the convergence of 
technologies for mechanical engineering, computer science, art 
and theatre, to prepare an educated and highly trained work 
force for this important industry.
    The Entertainment Industry Institute that this program 
would support already has more than 50 industry partners who 
enthusiastically embrace the initiative and have supported this 
undertaking with funding and with in-kind contributions.
    I urge the subcommittee to accommodate this effort by 
providing $1 million of funding. The University believes that 
the total cost will approach $4,000,000, and is confident that 
in addition to the funds it has already put together that it 
can fund the balance of that cost.
    I thank you for your consideration.
    Mr. Regula. Questions?
    Mr. Cunningham. Just I would say, Brad, the gentleman from 
California, excuse me, my daughter is up at UCLA in graduate 
school, and I would tell the Chairman that California is a 
donor state both in transportation and education where you have 
shortages of funds in Title I with hold harmless, these other 
programs that Brad is talking about, that in the inner cities, 
like many of the inner cities, we are trying to attract jobs. 
This is not what he is talking about, the technology is not in 
the center of Hollywood where the glitz is. This is out in the 
areas where we are trying to attract jobs for different people. 
And I think what he is trying to do is noteworthy, bringing 
those kind of jobs, and long-lasting jobs. Also the economy in 
California which is in about a $17 billion deficit right now. I 
thank the gentleman.
    Mr. Sherman. Thank you for your support.
    Mr. Regula. Further questions? If not, thank you for 
coming.
    Mr. Langevin.
    [The prepared statement of Congressman Sherman follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 18, 2002.

                STEM CELL RESEARCH; DISABILITY PROGRAMS


                                WITNESS

HON. JIM LANGEVIN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF RHODE 
    ISLAND
    Mr. Langevin. Well, good morning. I would like to thank 
Chairman Regula and Ranking Member Obey and all of the Members 
of the panel, particularly if I could recognize my senior 
colleague from Rhode Island, and all of the work that he is 
doing for his district and our State.
    Mr. Regula. You are the only two from Rhode Island, right?
    Mr. Langevin. The entire delegation.
    Mr. Kennedy. That makes me the dean.
    Mr. Langevin. We are always proud when the entire Rhode 
Island delegation can show up. It impresses a lot of people.
    I also thank all of the Members of the panel for taking the 
time to listen to us and discuss a range of policies and 
programs deserving your consideration. I do not envy the task 
before you. You are forced to choose appropriate funding levels 
for countless and valuable and competing programs.
    Today, I would like to address two issues, stem cell 
research and disabilities programs. Since last summer, I have 
championed stem cell research. I urge Congress to take the lead 
in eliminating the August 9th cutoff date on embryonic stem 
cell research.
    Since then, numerous stem cells derived from excess frozen 
embryos have been discarded when they could have been added to 
the NIH stem cell registry and used to save, extend, and 
improve countless lives. The decision to ignore this valuable 
resource after August 9th is tying the hands of America's most 
talented scientists, while unnecessarily risking the potential 
loss of life.
    Another untapped resource is umbilical cord blood stem 
cells. 99 percent of cord blood is treated as medical waste 
presently. While I applaud the work of the National Marrow 
Donor Program, which is facilitating stem cell transplants to 
patients, I would like to see the same vigor drive the adult 
stem cell and embryonic stem cells research applied to 
umbilical cord blood stem cell research as well.
    Moreover, more research demonstrates the value of these 
cells. The creation of a federally-supported umbilical cord 
blood bank to store, register, and manage the distribution of 
these stem cells may eventually be the most appropriate step to 
insure their proper utilization.
    In the meantime, I would like to see Congress eliminate the 
August 9th cutoff date and encourage more umbilical cord blood 
stem cell research. To turn what was once ignored into a 
resource for lengthening and improving and enhancing life is an 
option that we must embrace.
    I believe this also applies to various programs for people 
with disabilities. As you know, last year I advocated funding 
for President Bush's New Freedom Initiative. I am back again to 
advocate for more. In the written testimony that I have 
submitted to the Subcommittee, I listed several programs I 
would like to see funded by the Appropriations Committee.
    I know my time is limited so I will just mention three that 
could help better integrate the 54 million people with 
disabilities into society in helping them to lead more active 
and productive lives.
    First, the President's budget includes $20 million for the 
rehabilitation engineering research centers which conduct some 
of the most innovative assistive technology research in the 
Nation, helping bring those technologies to market and provide 
valuable training and opportunities to individuals to become 
researchers and practitioners of rehabilitation technology.
    Second, while research is important, it serves little use 
if people cannot afford the resulting technologies. The budget 
requests $40 million for States to establish low interest loan 
programs to help individuals with disabilities purchase 
assistive technology, which can be prohibitively expensive.
    Finally, the President's budget also attempts to break down 
physical barriers. As some of you know, I have led an ADA 
working group over the last year to develop ways to strengthen 
Title 3 requirements that all public accommodations be 
accessible when readily achievable, while also assisting small 
businesses in making such adjustments easy and as inexpensively 
as possible.
    The budget includes $20 million in competitive grants for 
improving access initiatives within the Community Development 
Block Grant program to help ADA-exempt organizations, including 
private clubs and religious institutions, make their facilities 
accessible.
    Turning challenges into opportunities is my motto for life. 
Eliminating the August 9th embryonic stem cell research cutoff 
date and accelerating umbilical blood bank research would save 
and enhance many lives, and funding these disability programs 
will enrich all of our lives.
    Mr. Chairman, I want to thank you and the Members of the 
Committee for your time this morning.
    Mr. Regula. Thank you. These are different than you had 
last year. You had cancer prevention last year, I guess you had 
requested.
    Mr. Langevin. That is right. Yes, sir.
    Mr. Regula. Any questions?
    Mr. Kennedy. None. Thank you. Thank you, Mr. Chairman. Let 
me just say I am so proud to have Jim in Rhode Island's 
delegation. He is a fantastic advocate on behalf of stem cell 
research, as you know. He made a number of the Sunday morning 
talk shows, national shows last year talking about stem cell 
research, has really made this a real priority. And I am really 
proud that he is in our delegation advocating for something 
that is going to prove to be a real success for millions of 
Americans.
    Mr. Hoyer. Mr. Chairman, you were not here when Christopher 
Reeve testified. But, in my opinion, if we have the courage to 
allow scientists and researchers to pursue the kind of research 
of which Jim Langevin is talking, in the not too distant future 
Jim Langevin is going to walk into our committee room and be 
able to testify.
    The possibilities that exist to regenerate nerves is an 
incredible breakthrough. But it will require courage for us to 
stay the course. There will be some who, as they have through 
history, have said, well, we ought not to go down that road. I 
understand the complexity and the controversy. But Jim 
Langevin, Christopher Reeve and others who have had nerve 
damage and therefore cannot communicate with their legs the way 
you and I can, or their other limbs the way you and I can, have 
the possibility to have that restored, which is an incredible 
opportunity. Not just for Jim Langevin or Christopher Reeve, 
but for literally hundreds of thousands and millions of people 
who will be even more productive.
    Now it is hard to think, Patrick, how Jim Langevin can be 
more productive than he is now, because his motto is that he 
overcomes challenges, and he has done an extraordinary job. 
What a compelling example he is for so many people who are 
challenged in America.
    Jim, we are just so proud of you, and we want to keep the 
faith with you. Assistive technology. We are going to try to 
reauthorize that. Jim Langevin and I will be circulating--
Patrick, I think you are on that Dear Colleague, trying to get 
everybody focused on that. Buck McKeon has been helping us. But 
in the final analysis, what we want to do is not need assistive 
technology, and that is what we are talking about with some of 
this research.
    So, Jim, thank you for all you do and thank you for the 
example you set for all of us in terms of your courage and 
commitment and incredible good spirit. Thank you.
    Mr. Regula. Thank you. Thank you for being here.
    Mr. Sanders, I think that we have time to get yours in. We 
have two votes. We have a 15 and a 5, the second one.
    First is the journal and the second is the Ag bill 
instructions.
    [The prepared statement of Congressman Langevin follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 18, 2002.

          DENTAL CARE; NATIONAL COMMUNITY HEALTH CENTER SYSTEM


                                WITNESS

HON. BERNARD SANDERS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VERMONT
    Mr. Sanders. I will be brief. Mr. Chairman, there are two 
issues that I wanted to touch on dealing with health care. A 
year ago, in Montpelier, Vermont, I held a hearing on the 
crisis in dental care in our State. It turns out I had not 
realized it, but we are looking at a severe dental crisis all 
over this country.
    In the largest city in the state of Vermont, which, by the 
way, does better than most States, there are kids today whose 
teeth are rotting in their mouth, who are low-income kids whose 
family is on Medicaid. They cannot find a dentist who will 
treat them because reimbursement rates are too low.
    But what I am proposing, we are going to introduce a bill, 
a kind of a comprehensive bill on dental care. We are not 
educating enough dentists now. For every three dentists who 
retire, two dentists are graduating dental school.
    The long and short of the crisis that exists rurally and in 
urban areas affects minorities, affects low income people. I 
think this shortcut to make care available for lower income 
people is to adequately fund federally-funded health clinics 
all over this country.
    Okay. The FQHCs, the look-alikes, the rural health clinics, 
et cetera. As a matter of fact, our new FQHCs are required to 
have dental clinics. They do not have the adequate funding that 
they need. So without going into all of the details, I hope--
right now if you were to call up the Government, the 
administration, say who is your dental guy who will tell me the 
problem in Ohio, there ain't nobody there.
    So I would appreciate if you would raise the issue of the 
crisis in dental care which especially affects the children, 
and let's see if we can move and put some money into that. I 
would put the money into dental clinics right now. There is 
some thought that we can put some money into the Head Start 
Program for some demonstration programs. Early hygiene for the 
little kids is extremely important.
    So my first message is please do something about dental 
care in this country. We can talk about some of the details 
later.
    The second issue I want to touch on, and I know the 
President actually is moving forward on this, I would move 
forward more aggressively, is again the issue of community 
health centers all over this country.
    September 11th told us, and I think no one disagrees, that, 
God forbid, think of what one letter to Senator Daschle did to 
this country. What happens if 500 letters go out around this 
country. Nobody believes that we have the public health 
infrastructure to address that. Panic. Millions of people 
needing doctors on the same day. Where do I get my antibiotics 
and so forth and so on.
    No one thinks that we have the capability of addressing 
that. Community health centers--you tell me and I agree, more 
money is going into the community health centers. Let's put 
more money in there. Let's get a community health center in 
every community in America. It will do two things. It will 
protect us in the event of a national emergency, and also it 
will go a long way to solving the crisis in primary care 
access.
    I would urge you to go higher than the President. Fund 
these things for national security, as well as health care in 
general.
    [The prepared statement of Congressman Sanders follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. I like those myself. Because it 
relieves your emergency rooms, and it gives access to others 
who may not get that.
    Mr. Sanders. It is cost-effective.
    Mr. Hoyer. Bernie, I agree with you on all of the points 
that you raised. Number one, I have always found it--and my 
wife, Judy, found it very ironic that the only dental program 
we have for young people is for baby teeth. That is in Head 
Start. There is a dental requirement, as you know, in Head 
Start, but at no other level do we require. So if you lose your 
baby teeth, you are out the door.
    Secondly, I have a bill that I want you to help me co-
sponsor, and I would like to get involved with yours as well. 
That deals with--and we have had it in before, medically 
necessary dental expenses being covered under Medicare, because 
the medical community says there is a direct nexus between lack 
of dental health and myriad other physical things covered by 
Medicare. So we do not involve ourselves with the cheaper, we 
wait until it gets more critical.
    I will talk to you about that bill. We have been fighting 
that and the cost--ironically, one of the problems we have had 
is the CBO's cost note on that which seems to be expensive 
until you compare it with what you have prevented.
    Mr. Sanders. Right. Thank you. Those are the two issues.
    Mr. Kennedy. I have 25,000 kids in my State whose teeth are 
rotting out, and actually one of my priorities and earmarks 
this year among the Committee is to get one of those clinics 
funded in one of my poor cities. So it is the same thing that 
all of my people are telling me, too.
    Mr. Regula. I think they are very important. One thing we 
need to do is to get local officials to be more interested in 
participating. I have had that problem. Of course, their 
budgets are constrained, too. But I agree with you.
    Thank you for coming.
                              ----------                              

                                          Thursday, April 18, 2002.

             NURSE SHORTAGE; COMMUNITY ACCESS PROGRAM; CDC


                                WITNESS

HON. LOIS CAPPS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. We will put your full statement in the record 
and in the meantime you can give us the highlights.
    Mrs. Capps. Mr. Chairman, I am honored to be coming before 
you.
    Mr. Regula. Let me ask you. I see you are going to be 
talking about nurse shortage.
    Mrs. Capps. Yes, I am.
    Mr. Regula. A friend of mine who is a psychologist at a 
school where they educate nurses said one of the big problems 
we are losing nurses is because of stress.
    Mrs. Capps. That is a piece of it. It surely is.
    Mr. Regula. In fact she is going to testify next week about 
the impact of stress on retention of nurses.
    Mrs. Capps. There are many factors in the workplace that do 
affect the job, and health care is stressful at best and with 
changing delivery system.
    Mr. Regula. I have a suspicion that the doctors turn the 
stress part over to the nurses.
    Mrs. Capps. Do you think that is what happens? The nurses 
would like to hear that.
    Mr. Regula. Okay.
    Mrs. Capps. My written statement is entered into the 
record; so I will just briefly touch on some of the pieces of 
it. You acknowledge that there are many factors having to do 
with the shortage and anecdotes give you a good snapshot of it. 
The piece that I am attending to is the aging nursing work 
force and the dwindling supply of new nurses, the supply/demand 
part of it and focusing on the education piece of that.
    The shortage ironically, and I think adding to the stress, 
if you will, is going to peak just as the baby boom generation 
begins to retire. They are talking about a couple of us looking 
at each other, and we need to increase the resources that the 
Federal Government devotes to recruiting, educating and 
retaining nurses.
    Professions have cycles of supply and demand. This one has 
earmarks of having a crisis attached to it if we don't address 
it. The events of the September 11 and recent spate of anthrax 
letters remind us that nurses are the backbone of the public 
health system and we need to make sure there are enough nurses 
to deal with any eventuality, and this Subcommittee can help by 
increasing funds for the Nurse Education Loan Repayment Program 
by $10 million and the Nurse Education Act Program by $40 
million. That is our suggestion.
    I hope you can set aside some funds for programs included 
in the Nurse Reinvestment Act that we hope is going to be 
enacted into law this year. The House bill authorizes such sums 
as are necessary, the Senate bill authorizes $130 million, and 
those two bills are now at the conference stage. So it would be 
wonderful to have some moneys available when that is signed 
into law.
    Other programs, I hope you will include funding for the 
Community Access Program, the CAP. This program helps 
communities coordinate public and private efforts to provide 
medical care to the underinsured and the uninsured. These are 
big topics as well, and I hope the Subcommittee will maintain 
or increase funding for the chronic disease programs at the 
Centers for Disease Control and Prevention, the CDC. According 
to CDC, chronic diseases account for 60 percent of our Nation's 
health care cost and 70 percent of all deaths in the United 
States.
    So that is my testimony and I thank you very much for 
allowing me the time to present it to you.
    Mr. Regula. Well, I think you have touched on two 
challenging problems, community access and the nurse shortage, 
and now is the time when we should be thinking about addressing 
these.
    Mrs. Capps. Thank you very much.
    Mr. Regula. Thanks for coming. Susan Davis.
    [The prepared statement of Congresswoman Capps follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 18, 2002.

                                PROJECTS


                                WITNESS

HON. SUSAN A. DAVIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mrs. Davis. Good morning. Thank you, Chairman Regula. I 
wanted to thank you as well for the help for San Diego in the 
appropriations last year. As you know, we were able to fortify 
many of those nursing programs and expand some of the services 
in our emergency rooms, and I can assure you that the 
communities feel well supported and are moving forward in that 
area. We also had some proposals to eradicate tuberculosis in 
the San Diego area as well, and that has been very helpful to 
us.
    The areas that I would like to focus on today revolve 
around the expansion of the family health centers of San 
Diego's Logan Heights Clinic. This is an area that has been 
underserved for many years. It provides comprehensive care 
services to low income, medically underserved population. In 
1970, they began with just one clinic and that health center 
serves several locations throughout San Diego and provides 
medical assistance to over 600,000 uninsured individuals now.
    What I am requesting is $1 million to expand the Logan 
Heights Center, which has a main clinical side and 
administrative offices for Family Health Centers of San Diego. 
There has been major growth in utilization in that area, and 
really it is bursting at the seams. This funding will help 
increase its ability to serve approximately 300,000 patient 
visits and it is fulfilling the commitment of the President to 
expand the National Community Health Centers System.
    There are other requests that we have as well. The 
Children's Hospital and Health Center Regional Emergency Care 
Center; I am requesting $4.5 million from the Health Research 
and Service Administration Health Care Construction Program to 
help expand the Regional Emergency Care Center operating rooms 
and specialty clinics at Children's Hospital in San Diego. And 
I know as a long timer in San Diego that our Children's 
Hospital certainly has provided the most unique services for 
children of the region.
    Mr. Regula. Excuse me. Do they train pediatricians?
    Mrs. Davis. They certainly use and have residents from UCSD 
and other universities in the region.
    Mr. Regula. It is a Children's Hospital?
    Mrs. Davis. Yes.
    Mr. Regula. You put extra money in for the Children's 
Hospital that do pediatric----
    Mrs. Davis. Yes, it certainly does that, and it really 
serves the entire region now, which we think it is very 
special, but what they need is better help and support in the 
Emergency Care Center there, and that is what we would be 
looking for. It really has been impossible for them to keep 
pace with the demand, and that is why if we can provide this 
more specialized pediatric care there and expand that, it will 
be of great benefit to all of the children in the area.
    The other request is in the area of education, and I know 
you focused on nursing shortages and trying to increase and 
certainly reach out to the community and let them know how 
critical this is. Our University of San Diego's Health Service 
Program in continuation with the Hahn School of Nursing there 
is doing just that, and what we are requesting is additional 
funding for the outreach in the nursing program but also to 
provide for the kind of critical nursing skills that are needed 
to help and support many of our special needs patients in the 
area.
    I think with these three modest proposals that we will be 
able to answer some critical needs in the region and help it 
serve as it has been, a beacon for communities throughout the 
area.
    Mr. Regula. Is the city helping the community health 
centers? Are they mostly county, city----.
    Mrs. Davis. The county is certainly doing that. I think we 
have developed a good----.
    Mr. Regula. And it serves the whole county then?
    Mrs. Davis. Yes, absolutely. But these particular services 
really serve as a magnet for people throughout the region, 
which is from the border with Orange County and down.
    Mr. Regula. Thank you very much.
    Mrs. Davis. Thank you very much.
    [The prepared statement of Congresswoman Davis follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 18, 2002.

                            IMPACT AID; NIH


                                WITNESS

HON. MARK STEVEN KIRK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Regula. Mr. Kirk.
    Mr. Kirk. Mr. Chairman, good morning. It is good to see you 
here following in the footsteps of my predecessor.
    Mr. Regula. Big shoes to fill, but we have had an 
interesting challenge.
    Mr. Kirk. No, you have done it and I commend you on last 
year's bill which was like a battle royale, and as I remember, 
it turned out to be very, very good.
    Mr. Regula. It went pretty well.
    Mr. Kirk. Yes. I will be doing whatever you want me to do 
to get to 218 no matter what the weather is like.
    Mr. Regula. If I can just persuade Mr. Tauzin, I will be 
in----
    Mr. Tauzin. That is enough kissing up.
    Mr. Kirk. I have come here basically on two points, and I 
ask unanimous consent to include my statement in the record. 
The key point that I want to raise is on two programs.
    One is Impact Aid. Since our country is now at war, I can 
tell you from the position of the cockpit, as you go into 
combat, and there are men and women now both flying over 
Afghanistan and Iraq this morning, about the quickest way to 
take your head out of the shed, as they say, is to have 
problems at home with your kids' schools. Everybody on these 
deployments, both the four carriers we have in the Arabian Gulf 
and the Incirlik deployment, those are unaccompanied tours. So 
your spouse and kids are back home, and no doubt they are on 
base, in housing, most likely they are in a local school.
    You did a hell of a job last year for Impact Aid. I have 
got to thank the Committee for what you did, and I am here 
simply in support of the President's request on Impact Aid in 
the future, and I want to tell you what the impact is on two 
school districts that I represent. In Highland Park, Illinois, 
my hometown, we have got 267 military kids in school. The 
Impact Aid Program kicks in 616 bucks and the State kicks in 
220 bucks, but our average cost per pupil is $10,600. So the 
local taxpayers of Highland Park basically have to fund 90 
percent of the cost of educating these military kids.
    In our elementary school District----
    Mr. Regula. Great Lakes, I assume.
    Mr. Kirk. This is Great Lakes.
    In our elementary school district, you have to have more 
than 3 percent Impact Aid kids to get any Impact Aid funds. So 
we are at 2.9 percent. So we have got 60 kids in school, each 
at a cost of about ten grand, zip from the Federal Government, 
and we can't tax the housing there. So that is basically a 
million out the door with no resources.
    So it is simply to underscore the point that not only is 
this important to six school districts around the country, but 
if you are sending your kid to a financially strapped school 
district like District 187, North Chicago, which has about 
3,000 military kids in it, about the fastest way to get my head 
out of Afghanistan or Iraq is to get an e-mail from back home. 
You know all the ships are loaded up with e-mail, everybody is 
on hotmail accounts, saying we just had canceled PE and art and 
other extracurriculars at school and I don't know what I am 
doing with my kids back here. What are you doing over there? 
And you know in an aircraft carrier it is four acres, probably 
the most dangerous. The average age on an aircraft carrier is 
20 and a half and you are dealing with high explosive ordinance 
and having planes take off and land on the same little place, 
and if I just got an e-mail back home saying there is chaos in 
the school district--and your program funded with this bill is 
a huge way we can keep people's heads focused on the mission. 
That is point one.
    Point two is we just founded and I am head of the Kidney 
Caucus, and we have a growing crisis and I think Chairman 
Tauzin can back this up. You know the End-stage Renal Disease 
Program is the most expensive in Medicare. The primary focus of 
this caucus is keeping people out of the ESRD Program to save 
Federal money. We know that most people go into a dialysis 
center and they end up in that total roller coaster, and you 
know Ms. Helen in the Republican cloakroom there?
    Mr. Regula. Yes.
    Mr. Kirk. She is now on dialysis.
    Mr. Regula. Helen.
    Mr. Kirk. Yes, and this is a disease that more affects 
African Americans than anyone else; so it is a particular 
concern in that community. Most people on hemodialysis. Three 
times a week they go on that emotional roller coaster. Ms. 
Helen is in the middle of that right now.
    There is another treatment, peritoneal dialysis, which is 
only about 10 percent of patients, but we know that if we 
properly counsel these patients as they go into this that half 
of kidney patients would be in peritoneal dialysis, doing it at 
home and doing it on a daily basis rather than hemodialysis. I 
think it is an important point to raise.
    Secondly is that the data is fairly clear that if you are 
an African American hypertensive diabetic you are on the road 
to kidney disease. We have got 40 million at risk, 160 million 
Americans showing tendencies in that direction. Directing NIDDK 
and other resources of this subcommittee for an effort to 
prevent as many Americans as possible from entering the ESRD 
program I think saves Federal dollars and improves the quality 
of life.
    Mr. Regula. What is the solution? What should we be doing.
    Mr. Kirk. Probably the best, biggest solution is making 
sure that we educate patients that they have a peritoneal 
dialysis option which allows them to stay out of the dialysis 
center, doing it at home daily. They will be in better moods, 
have higher health status and at lower cost.
    Mr. Regula. Is this a mechanical device or----
    Mr. Kirk. Yes. Basically it uses the peritoneum to flush 
the waste----
    Mr. Regula. The patient can administer?
    Mr. Kirk. They do. And the way Medicare is structured and 
the way it pays, it dramatically encourages hemodialysis. In 
Europe, where there is not a financial incentive for 
hemodialysis, we have about half of patients on peritoneal 
dialysis.
    Mr. Regula. Would this be a statutory----
    Mr. Kirk. I am more modest in just having Federal education 
and encouragement. A lot of this is in the phrenology community 
of not really understanding all of the benefits therein, and 
everybody is basically directed towards the massive 
hemodialysis.
    Mr. Regula. Does a reimbursement program of Medicare, 
Medicaid----
    Mr. Kirk. Yes.
    Mr. Regula [continuing]. Prejudice in that direction?
    Mr. Kirk. Yes. So we get what we pay for.
    Mr. Regula. Did you talk to Ways and Means, Bill Thomas? A 
change in the statute is in order.
    Mr. Kirk. It is. And I think just at NIH, the concern of 
this committee is education, making sure we are getting the 
word out, and then also to make sure that we are really looking 
at hypertension and diabetes as precursors to kidney disease, 
with the goal--and I know this doesn't save money in your bill, 
but even so you are just as interested as everyone else in 
saving the taxpayer money, of keeping them out of ESRD, and 
that is the message here.
    So with that, I thank you and thank you for your support on 
Impact Aid.
    [The prepared statement of Congressman Kirk follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. The President of--was it Northwest in your 
district?
    Mr. Kirk. That is right.
    Mr. Regula. Are you strongly supportive of his request?
    Mr. Kirk. I am and I think that is a good, solid proposal 
that he has got.
    Mr. Regula. Okay. And on the Impact Aid, is this 
requirement that there be over 3 percent?
    Mr. Kirk. That is an authorizing committee issue. The 
program itself doesn't cover all the costs and that is not 
before this committee. I am just urging you to support the 
President's request. You did a great job last year and this is 
a program that has not received a lot of attention but because 
of the war should receive more attention because it keeps 
everybody focused on the mission.
    Mr. Regula. Okay. Thank you.
    Mr. Kirk. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Evans was here.
    Mr. Tauzin. No problem.
    Mr. Regula. Okay.
                              ----------                              

                                          Thursday, April 18, 2002.

                      PARKINSON'S DISEASE RESEARCH


                                WITNESS

HON. LANE EVANS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Evans. Thank you, Mr. Chairman. I appreciate the 
opportunity to testify before you today. I would like to start 
out by saluting this committee for strong support of 
Parkinson's disease research. Through funding for the Morris 
Udall centers and funding for NIH's 5-year Parkinson's research 
agenda, this committee has ensured advances in the treatment 
and taken us closer to a cure.
    The value of federally funded Parkinson's research is many 
fold. Breakthroughs will not only benefit the 1 million 
Americans suffering from Parkinson's disease, but it will give 
researchers much greater insight into other neurological 
illnesses.
    The time is ripe for investments in this research. 
Scientists believe that Parkinson's disease could be cured in 5 
to 10 years. They have good reason to be optimistic. The pace 
of discovery has been astonishing. Just last week reports of a 
Parkinson's patient who nearly had all of his motor ability 
restored following an adult stem cell transplant gave hope to 
Parkinson's patients every year and spurred further research 
into harnessing the brain natural ability to restore cells.
    NIH recognizes the need to be close at hand and has 
responded to developing the 5-year research agenda. This report 
outlines the plan for development of more effective disease 
management techniques and even a cure. With this comprehensive 
plan and the expertise and science at NIH, a cure is sure to 
follow. The only question is how quickly. The answer lies in 
the willingness of this Congress to provide the funding 
necessary for a cure.
    I am requesting that this committee fully fund the third 
year of the Parkinson's research agenda in fiscal year 2003, 
which calls for $353 million dedicated to Parkinson's research. 
The funding for the third year plan represents $197.4 million 
increase over the baseline spending of $155.9 million in fiscal 
year 2000. This level of funding will allow NIH to continue to 
conduct research that is going to lead us to a cure, we 
believe.
    I thank you for this opportunity to testify. As a 
Parkinson's patient, I can attest to the hope that every 
discovery brings and the Parkinson's community's appreciation 
for this committee's work that has been done. We know that with 
a strong federal commitment, that pace of discovery will 
continue at the rapid clip we have seen over the past few 
years. I urge to you build on the strides made in the first 2 
years of this plan, and I ask you to fully fund the third year 
of the research agenda.
    Thank you, Mr. Chairman.
    [The prepared statement of Congressman Evans follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. And it is a difficult problem, but I 
think they are making progress on it and the testimony we have 
had from the NIH people would indicate that there is on the 
horizon a chance for success. I know that we have had 
individuals in my district who have come to testify and they 
are very strongly in support of continued research.
    NIH is well-funded. We will be giving them a very 
substantial increase into which they in turn decide where to 
put it, or they spread it over the categories. But I know a lot 
of it will get into Parkinson's and I appreciate your 
testimony.
    Mr. Evans. Thank you, Mr. Chairman.
                              ----------                              

                                          Thursday, April 18, 2002.

                          FRIEDREICH'S ATAXIA


                                WITNESS

HON. BILLY TAUZIN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    LOUISIANA
    Mr. Regula. Mr. Tauzin. Are you going to bring your two 
helpers along?
    Mr. Tauzin. I have got two helpers. I always need a lot of 
help.
    Mr. Regula. I know. Are these two young men with you?
    Mr. Tauzin. They are with me.
    Mr. Regula. Okay. Let them come up to the table if they 
would like. It is good chance to see how the system works. They 
might even vote for you if you do well.
    Mr. Tauzin. Thank you, Mr. Chairman. Let me, before we 
begin the official reason I came here, also mention NIH with 
you. I know that you are doing a marvelous job in terms of 
increasing the funding. I want to congratulate you for that.
    Mr. Regula. And the administration has given us and the 
Chairman a good budget to work with.
    Mr. Tauzin. They have. I want to thank you for that. As you 
know, the Energy and Commerce Committee has jurisdiction over 
NIH and we are incredibly impressed every year with the 
advances being made, and you are so right. We are this close on 
Parkinson's and so many other diseases.
    Mr. Regula. Juvenile diabetes and others, we are getting 
close.
    Mr. Tauzin. We really are.
    By the way, in terms of the kidney disease problems that 
were referred to earlier, let me concur with the testimony you 
have heard, with the caveat, however, that home health is one 
of the fastest rising cost items in the Medicare budget. It is 
now about 30 percent per year increase, and it is the only one 
without a co-pay requirement.
    So I know that Bill Thomas--we had discussions yesterday. 
We are trying to make sure that home health continues to be 
able to satisfy what we consider to be real attempts to lower 
health care costs in the long run.
    Mr. Regula. When you say home health, you are talking 
generically across the board?
    Mr. Tauzin. Across the board. It is about a 30 percent per 
year increase. So we are seeing more and more type activities 
as were described to you in the peritoneal treatments for 
kidney disease at home and those numbers are going up. So we 
have got to deal with that and we will be discussing that with 
you and others as we go forward.
    But Bill Thomas and I are going to be offering a Medicare 
reform bill with prescription drug benefits in it to the House 
floor----
    Mr. Regula. If you want to get a picture of these young 
men, come on up here.
    Mr. Tauzin. That is Mom, by the way. Let me introduce them 
to you. Rachel Andrus and her husband are here today with their 
two sons, and Mr. and Mrs. Andrus are not only dear friends of 
mine, but Rachel has been my office director. She has 
controlled all of our office management systems for a long, 
long time and she goes all the way back to 1976, I think, when 
she served our committee that I chaired in the Louisiana 
Legislature. She is of Cajun extraction. She married a young 
man in this area who happened to have Cajun roots as well and, 
as a result of the concurrence of their genetic compositions, 
they produced some beautiful kids, two of whom are here today. 
One is unfortunately afflicted with a disease that appears to 
somehow be very much associated with the Acadian or Cajun 
population, Friedreich's Ataxia, which Keith Andrus suffers, 
who is right next to me. His brother Stuart is right next to 
him, one of his best friends and helpers today.
    Keith has literally been diagnosed from childhood with this 
disease. It is a neurodegenerative disease. It has no known 
cure. It gradually debilitates its victims, and life expectancy 
is limited because of it, and Keith is aware of that. We are on 
a timetable to try to find a cure in time for him and so many 
other young people who are afflicted with it.
    It is a disease incredibly that attacks my culture, Cajun 
population, at two and a half times the rate of any other 
culture in this country, much like other diseases that attack 
specific races, sickle cell anemia for the black minority 
population of our country, and others. It is a disease that 
particularly associates with our culture for some reason. It is 
in our genes, and the great genetic work that is being done at 
NIH and other centers around the country is hopefully our best 
chance for Keith and so many others like him.
    He is an amazingly courageous young man and he and his 
family have been for years coming to Washington to seek the 
help of our committees and our appropriators in trying to find 
some chance for his survival and others like him.
    Mr. Regula. Is NIH focusing their work on this?
    Mr. Tauzin. Yes. More importantly, we came before you 
several years ago and asked you to create the Center for 
Acadiana Genetics and Hereditary Health Care through the Rural 
Health Outreach Grant Program of HRSA, and in 1999 your 
Committee approved it and we have created it. The center is in 
operation today because of funds you provide and funds provided 
by state and private sources now.
    It links school medicines with the biomedical research 
centers, the hospitals, the rural clinics, with a strong 
telecommunications network so we can get information out about 
health care and about potential treatments and work being done 
on a cure. It provides education on these genetic diseases, 
research into these and, by the way, Usher Syndrome, which is 
closely related we understand.
    I want to thank you again and ask you for your continued 
support for the center. We are asking for $1.4 million of 
federal assistance to the center again.
    Mr. Regula. This is the center at NIH?
    Mr. Tauzin. No. It is the center in Louisiana that you 
helped establish. It works through the LSU System and the 
Medical School. The Governor, the President of the LSU System, 
and the Dean have all sent you letters outlining the incredible 
work we are doing with it. We now provide over 50 percent of 
the funding from state and private donors. So we are heavily 
invested at the local level into the work of the center as 
well, and the work of the center has now caught national 
attention.
    People suffer with the disease in 50 States. We just happen 
to have the greatest majority of the incidents of it in our 
culture. The Discovery Health channel recently focused on the 
center and Friedreich's Ataxia and the incredible damage it 
does to young bodies and to young people like Keith and the 
fact that it claims their lives if we don't find a cure soon. 
And so I want to first of all thank you because----
    Mr. Regula. I see we put a million in last year at your 
request.
    Mr. Tauzin. And we are asking for 1.4 million this year.
    Mr. Regula. Another million this time or----
    Mr. Tauzin. If you can keep this up, we are getting close.
    Mr. Regula. So that is your number one priority then?
    Mr. Tauzin. Absolutely. It is number one and number 1-A. 
And I just learned that my chief of staff in Louisiana, the 
next-door neighbor, a young 15-year-old girl, was just 
diagnosed with it. We have discovered it in ages as late as 15. 
With Keith we learned it early. I have watched and I know some 
of you have watched as I brought him year after year to you. 
You have watched the disease ravage him and you have seen him 
being more limited every time he comes here. His family is so 
supportive and so loving and he is such a courageous young man.
    Mr. Regula. Your center works with NIH, I presume?
    Mr. Tauzin. We all do. NIH works with them, the center 
communicates with them and the center operates with the 
communication system that reaches out nationally to assist all 
those who are doing work in this area. We learned at one of 
your hearings that some genetic work being done at NIH may hold 
some of the answers. It looks like it is related and as they do 
a study on one disease, they are finding out the relationship 
to a potential cure on another. So we stay in touch with all 
those studies that are going on.
    I just want again to say thank you. If you can continue the 
federal support for the center, I have every expectation that 
we are going to come up here one day and pop some champagne and 
we are all going to----
    Mr. Regula. We hope so.
    Mr. Tauzin. We are all going to toast and thank you for 
saving not only Keith's life but so many young people like him 
around the country, particularly the large number that happen 
to be Acadians like myself who for some reason in their gene 
code have this disease special threat. So thank you. I know 
that Keith thanks you personally, his family thanks you, and 
more importantly the cause of a cure thanks you.
    Mr. Regula. Keith, we will do the best we can for you.
    Mr. Tauzin. Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    [The prepared statement of Mr. Tauzin follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 18, 2002.

                                PROJECTS


                                WITNESS

HON. CIRO D. RODRIGUEZ, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS
    Mr. Regula. Mr. Rodriguez.
    Mr. Rodriguez. Thank you, Mr. Chairman, for taking the time 
to listen to us and for allowing us this opportunity to testify 
before you.
    Mr. Regula. Your full statement will be in the record and 
the staff will peruse it.
    Mr. Rodriguez. Thank you very much. Let me take this 
opportunity, first of all, to talk to you about three projects, 
and especially two of them, that I want to mention to you. One 
of the first ones is project VIDA, which is Valley Initiative 
for Development and Advancement. It is in the lower part of the 
Rio Grande Valley, and it basically has been helping to train 
over 2,000 residents on the U.S.-Mexican border.
    It is in both my district and Congressman Ortiz's and 
Congressman Hinojosa's. That area has over a million people. It 
is the poorest in the entire United States. In fact Starr 
County that I represent there on the border is the most poor 
based on the 2000 census, and Hidalgo is right next to it and 
then Cameron County.
    Project VIDA, which is Valley Interfaith Development and 
Assistance, provides job training. 94 percent of their 
participant placements are placed in high skilled job areas. 
VIDA is modeled after Project Quest, which is out of San 
Antonio, which has gotten nationwide recognition for their high 
caliber of work, and I wouldn't be here talking about any kind 
of job training program unless I know that they would do a good 
job.
    These people are from the community. They have been 
reaching out and have been making things happen with a lot of 
people and these are people that have been unemployed for a 
long time and have been provided that service. So I am here to 
ask for half a million dollars for Project VIDA in the valley 
that encompasses part of my district and part of two other 
congressional districts.
    In addition to that, I am also here to ask you to consider 
half a million dollars also for a unique project in San Antonio 
that not only services the four Congressmen there, which is 
Lamar Smith, Bonilla, Gonzalez and myself, but is going to 
service four States, New Mexico, Louisiana, Oklahoma and Texas, 
with a unique project that is called the American Originals. 
This gives an opportunity for people in Texas in that region, 
especially south Texas.
    The Witte Museum right now has over 200,000 people that go 
through it on an annual basis. Of that, over 75,000 come from 
the lower Rio Grande Valley, and the American Originals allows 
an opportunity for them to look at the Louisiana Purchase 
Treaty, to look at the Emancipation Proclamation, to review a 
lot of the actual documents, and along with that this 
particular $500,000 will allow them to prepare these rare and 
significant documents as well as educational programs that they 
are hoping to develop with that and, after the project is gone, 
to continue to be utilized.
    It is a unique project that a lot of the young people in 
south Texas will never have an opportunity to come to 
Washington, D.C., to see and it is the only one of the museums 
that are going to be--in fact the only one in the Southwest 
that will have this particular exhibit and is for the year 
2003.
    Those two projects, each for half a million, I ask your 
serious consideration.
    In addition, there is a Boysville Home for Boys and Girls 
out in Converse, but they service the entire State. This is a 
school that has been there since the 1930s and 1940s. They pick 
up youngsters that have been abused either physically, 
sexually, and they live there, and one of the things that they 
are asking for it is a total of 3 million, but there are two 
programs. One of them asks after they release the youngster--
and, I apologize, Mr. Chairman, I didn't check if you have a 
family but when they----
    Mr. Regula. I do.
    Mr. Rodriguez. When they reach 18, you don't want to let 
them go either. Well, you almost have to let them go and a lot 
of times at that age, you know if you have any children, they 
are not ready to be let go out there without any resources, 
without anything. So they want to be able to work with them and 
prepare them for the jobs that are out there and be able to 
make sure that they can land those jobs and follow up with 
them.
    So part of those resources is to follow up for those 
youngsters, and there truly are youngsters throughout the 
entire State of Texas and the region. And the other aspect of 
it is also to provide intensive counseling and training in the 
area of drug abuse, and specifically for that area we are 
seeking some money to help them and assist them in those areas.
    So those are the three projects I wanted to present to you 
and ask for your serious consideration.
    [The prepared statement of Congressman Rodriguez follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I am impressed with your placement rate from 
the school you described; 94 percent is remarkable.
    Mr. Rodriguez. It is a beautiful program and it is modeled 
after the one out of San Antonio, which is Project Quest. It 
has a different name but that one is remarkable, and one of the 
things they do is they use grassroots people. So these are 
people that are----
    Mr. Regula. You mean to teach?
    Mr. Rodriguez. Exactly. So these are people out there in 
the community, and that is why I feel very confident that it is 
a darn good program. You are not providing resources for 
these--I shouldn't say bureaucrats to remain in their jobs. You 
are really looking at providing resources to those people out 
there working with those people who are in need and providing 
that assistance.
    We just recently heard in the Valley, not in my district 
but in the region that is going to be impacted, Levi Strauss is 
closing some additional facilities and is going to let go a 
large number of people. So the need for job training is 
extremely critical.
    Mr. Regula. Well, thank you for coming and bringing this to 
our attention.
    Mr. Rodriguez. Thank you, Mr. Chairman, for allowing me to 
be here before you.
                              ----------                              

                                          Thursday, April 18, 2002.

                                PROJECTS


                                WITNESS

HON. BOB FILNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Mr. Filner.
    Mr. Filner. Good morning, Mr. Chairman. Thank you for 
taking the time to listen to the Members and I know it is a 
long day.
    Mr. Regula. It is interesting.
    Mr. Filner. You learn----
    Mr. Regula. You get a variety that gives you a sense of 
some of the problems that confronts all of us in various ways.
    Mr. Filner. Thank you for your interest and your commitment 
in this case to our students and around the Nation.
    I want to tell you, Mr. Chairman, about Imperial County, 
California, and the needs of its schoolchildren. Imperial 
County is in the extreme southeast corner of California. It 
goes from San Diego to the Arizona border. It is a very 
agricultural area, once in fact provided a lot or most of the 
vegetables and fruits for the whole Nation, the Imperial 
Valley, and it is----
    Mr. Regula. It is irrigated?
    Mr. Filner. From the Colorado River, which is a whole 
different issue from your other Committee, I suspect.
    Mr. Regula. You would be at the tail end of the River, 
wouldn't you?
    Mr. Filner. Well, under the law of the River Imperial 
County gets an incredible amount, about 80 percent of 
California's water. That is a whole different issue, if you 
would like me to spend 3 hours with you. It is a very difficult 
situation because the agricultural area and the urban areas, 
both of which I represent and I am in middle of, have to fight 
over that water. It is a large county, over 4,000 square miles, 
deserts, mountains. It has several medium sized cities, several 
small towns, lowest population density in California probably, 
but I tell you this because there is a lot of isolation of 
students and teachers in various parts of the county.
    It is also a very poor county, the poorest by almost any 
measure in California's counties. Unemployment rates have 
reached in recent years as high as 30 percent. We go crazy with 
6 or 7 percent. Imagine 30 percent. The seasonal unemployment 
rate is the highest in the United States. The median income is 
$14,000, lowest in the State. Seventy-one percent of all the 
students in fact are on the free lunch program.
    I tell you this because this kind of geographical isolation 
and the relative poverty of the county makes it extremely 
difficult for the basic fiber-optic networks that schools must 
rely on these days. It is just not there and the students are 
denied the Internet access and the communication that marks the 
21st century.
    The Department of Education has put together an Imperial 
Valley Telecommunications Authority to provide that technology 
infrastructure and to make sure all of the schools are 
connected with fiber-optics. The Imperial Irrigation District, 
which is one of the most powerful organizations in the county 
because it controls not only the water but the power, is 
working collaboratively with the school districts to try to 
change the situation. In fact the IID, the Imperial Irrigation 
District, is giving the schools and other public agencies 
access to their fiber-optic communication network that goes 
throughout the region, and the IID is providing a whole multi-
million dollar contribution to the schools to attempt to try to 
end their isolation. In addition, $17 million has been 
contributed by the local districts and cities and counties to 
this effort.
    So for every dollar that we are asking the Federal 
Government for, $3 has been spent by the local agencies. In 
fact, the planning for the project was completed with State of 
California grants and a border link grant in the past of 
$775,000. So grants have been given, cities, counties, 
Irrigation District, everybody is contributing. What has to 
happen is to connect all the elementary, middle and high 
schools to a fiber-optic structure, backbone. That will cost an 
additional $6 million and we are asking that for the Department 
of Education's Fund for the Improvement of Education.
    Given the geographic isolation, given the relative poverty 
of this county, we need this backbone to make sure our students 
can in fact compete in the 21st century. The local agencies, 
school districts, cities have all taken a role and we are 
asking for some help from the Federal Government to complete 
the project.
    Mr. Regula. Okay. I was interested, and apparently you have 
sort of a public agency that not only controls water but 
controls electricity?
    Mr. Filner. It is very unique.
    Mr. Regula. Do they buy from the producers of electricity 
and resell to the people?
    Mr. Filner. No. The Irrigation District has its own power 
plants, hydropower mainly.
    Mr. Regula. This is sort of a quasi-public board, I assume?
    Mr. Filner. No. It is a public board.
    Mr. Regula. Are they appointed?
    Mr. Filner. Elected. It is very unique.
    Mr. Regula. It is unique.
    Mr. Filner. And the politics is very interesting and it is 
changing over time. The election to the IID board is the most 
significant election in that county.
    I thank you for your interest. Mr. Cunningham is familiar 
with the county, our next-door neighbor and----
    Mr. Cunningham. Also, the next-door neighbor is where El 
Centro is, where most of the Navy training goes, and where Top 
Gun is, adversary with the Rangers, and then we go over to Yuma 
and fly as well.
    Mr. Regula. So there are air fields in this area?
    Mr. Cunningham. Yes. Maybe, Bob, if you would vote for 
defense, we would get----
    Mr. Filner. Most of the training, as the pilot points out, 
is done in El Centro. The one great advantage that this county 
has is 363 days of sunshine each year and it is always 
available for training. In fact, the Blue Angels, they train 
there for 3 months before they go on their tour of the Nation. 
They have just completed their training out in El Centro and 
they can do it every day because of the weather. The weather is 
extremely clear and sunny at all times.
    Mr. Cunningham. It is their winter training area when they 
move out of Pensacola and get ready. But Bob is right, the area 
is dispersed. This is an area that in the BRAC belonged to 
Duncan Hunter, and Duncan represented the Imperial Valley for 
years and years, and Bob is telling the truth. It is kind of 
out in the desert. Some of the facilities they have are 
depreciated and stuff, and they do need help. I don't know if 
we can put in $6 million with all of the requests we have, but 
we ought to be able to help some, and, Bob, I will tell you 
that New Millennium bill that President Clinton signed with 
computers, where you get private companies to donate their 
computers to a nonprofit, we want to expand that to the 
libraries as well, but the prison system uses and upgrades 
those computers and it goes into the school system. They are 
eligible for that also. So if they do get the fibre wiring and 
stuff, it is something that could help the Imperial Valley.
    Mr. Filner. Thank you. You have led the fight for that 
program. I appreciate it very much.
    Mr. Regula. What is the name of the air base it serves?
    Mr. Cunningham. El Centro.
    Mr. Filner. Naval Air Facility, NAF El Centro.
    Mr. Regula. That is a new one to me. I am not familiar with 
it.
    Mr. Cunningham. As you head right on Highway 8. We also 
have deployments, and it is where the East Coast training 
squadrons come in the winter.
    Mr. Filner. It is a long well-established base, but it is 
small and it plays an important training function for virtually 
all of the West Coast.
    Mr. Cunningham. It is an area where it is still remote to 
the point where you do carrier qualification training in, say, 
Miramar there are a lot of lights so you don't get the effect, 
and what we do is train at Miramar these young kids and then we 
go to El Centro because it is darker and simulates a carrier 
deck more, and then we take them out to San Clemente Island 
where there are absolutely no lights. It is a lot of military, 
lot of housing, Hispanic area as well, and they do need help 
out there. They are pretty remote and as in many cases rural 
areas are the last to get support.
    Mr. Regula. This is a big country. I keep finding out new 
things about it all the time. Thank you.
    Mr. Filner. Thank you, Mr. Chairman.
    [The prepared statement of Congressman Filner follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 18, 2002.

                                PROJECTS


                                WITNESS

HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Regula. We will go to Michigan, Mr. Stupak.
    Mr. Stupak. Thank you, Mr. Chairman, Mr. Cunningham. Thanks 
for having me appear here.
    You were talking about Mr. Filner's area there. That is 
actually my first request is Operation Up-Link, $1.1 million. 
Basically the same thing, trying to get the last mile, if you 
will, of the fiber-optics in the Upper Peninsula of Michigan, 
and we are remote and all the things you could have said for 
Mr. Filner would basically apply to my district also.
    We are working with our universities up there in Northern 
Michigan and Michigan Technological, the colleges and the 
hospitals. We want to link it. Last year this committee 
appropriated $300,000 towards a project, and so we got the 
initial infrastructure going and we want to finish it off, and 
it would be $1.1 million is what we ask for to just finalize it 
all up, and no disrespect to Mr. Filner, but I am six times 
less than him so we should get the nod. I am just kidding, but 
we would like the nod.
    Mr. Cunningham. You could do that if you would waive Davis-
Bacon.
    Mr. Stupak. We have got to keep Davis-Bacon. That is the 
only good wages we have, especially with our telling the other 
Committee. I think our unemployment up there right now is 8, 9, 
10 percent. Literally 5.8 nationwide and Michigan is now above.
    Next, the Center on Gerontological Studies, something new, 
again through Northern Michigan University, we would like to 
have the center especially for our senior population. That is 
whom it would benefit, and up there it depends on what county. 
The low counties have 17 percent seniors and the high counties 
are 30 percent senior citizens out there, and the State average 
is only 13 percent, and the center of course, as you know, will 
promote knowledge of the aging process, aging network, provide 
services that apply as a mechanism to enhance their lives.
    Next I have is the BJ Stupak Olympic Scholarships. I want 
to thank the committee again for naming it after my son. This 
past weekend I had a unique opportunity. We did some stuff at 
Michigan State University. But the Olympic Education Center at 
Northern Michigan was a beneficiary. We raised some money for 
them. So it is just not always relating to the million dollar 
Olympic scholarships that we have appropriated in the past, and 
with the change that we made last year in the structure, I will 
tell you how critical that structure was. Some of the athletes 
came down who were receiving some of this money, and they were 
telling their story how they are allowed to finish their 
schooling, and we have changed the requirements. Before you had 
to carry 12 credit hours. That is what the Department of 
Education had, so we changed that to you have got to carry at 
least three.
    So Allison Baver, who was one of our Olympic speed skaters, 
she will finish up now at Northern this year. She will do her 
last course back home at Penn State University, but she said 
without this there is no way she ever could have done it, 
competed around the world. But with the changes we have made 
with the help of Mr. Cunningham and you, Mr. Chairman, by 
making that change, in the next two semesters they will give 
out $850,000 in scholarships, your place down there, Duke, Lake 
Placid and Colorado Springs.
    So it has been a big success. The athletes tell it best, 
how dedicated they were. They got up at 3:30 in the morning at 
Marquette, drove down to Lansing. That is about 450 miles for 
them, and they drove down just so they could give presentations 
all day on the Olympic Education Center, what we do, and the 
great help this committee was. These students are exceptional 
not just as athletes but as individuals, and the program has 
been a great success. Unfortunately, the President didn't put 
the money in. We ask that you put it back in.
    I have a number of others. Let me quickly go through one or 
two more, and then I will take any questions you may have.
    Crooked Tree Art Center. This is in Petoskey, Michigan. 
They are doing a whole renovation of their center. It is $4 
million. They have already raised $3.5 million. They have 
tapped every possible resource. Petoskey, a town of only 5,000 
right now, this summer it will go to 30,000.
    But this art center goes around to all of the schools. They 
ask the schools to kick in to help pay for the program. They 
have won many awards, especially for their violin program.
    Of all things, in little parts of rural Michigan they are 
teaching violin, and this center does it all on their own. They 
have got to the point where the program keeps expanding. And 
they have done $3.5 million. They are asking if you could do 
$650,000 and let them finish off.
    Ft. Brady Army Museum--that is up Sault St. Marie right by 
the Soo Locks there--they are going to put in to preserve the 
history of the fort's existence and will exhibit the history 
for education future uses.
    The Aging Nutrition Program. We have led the fight. I know 
a lot of you have helped me on that one to increase meals, the 
money we give for senior meals, whether it is Meals on Wheels 
or at the senior center. I am requesting a $20 million increase 
in that one, and we have always done an amendment on the floor. 
Senate usually knocks us out. But hopefully, we can do 
something this year.
    Maybe if it came out of the Committee instead of doing the 
amendment on the floor, because once we get it on the floor it 
usually passes. If we could maybe put it in the bill it would 
help us out. And $20 million is only keeping the rate of 
inflation. That would give an extra penny per meal, or a penny 
and a half per meal. That would be about all.
    Marquette General, for their emergency outpatient. Last 
year this committee was good enough, gave us $250,000. It 
wasn't of course enough to complete the building. As we shift 
from inpatient to outpatient we are asking for $4 million to 
finish off the emergency outpatient. Marquette General is the 
largest hospital in the north half of the state. That includes 
northern lower Michigan too, because my district covers both 
peninsulas. It is the tertiary care, great facility, if you 
could see to help them out.
    Charlevoix Hospital. I have a request in there. I want to 
mention one more. Sault St. Marie Tribe Satellite Health 
Center. Sault St. Marie Indians, Chippewa Indians, are the 
largest tribe in Michigan. It is about 25,000 members. And they 
spread out. The original treaty of 1836, their land in Sault 
St. Marie was basically intact, and the 1856 treaty shoved them 
basically out of the UP to the extreme western part of the 
Upper Peninsula.
    So their tribe has moved. Their main place is Sault St. 
Marie. Their other main place is Manistique, Michigan, which is 
probably about 120 miles from there. They have a huge health 
center in Sault St. Marie. They want to put one in to service 
their people in Manistique. It is a $3 million project. They 
have put up the first $2 million. They are hoping this 
committee could help them with the last million so they could 
do it quicker and get it finalized.
    Other than that all of the rest of it is there. I want to 
thank this Committee. They were very good to my district last 
year. There is a couple of projects that you have helped us 
with we would like to finish off and a couple of new ones for 
consideration.
    With that, I would open up for any questions you may have. 
And thank you for your time and courtesy.
    Mr. Regula. Thank you.
    Mr. Cunningham. Isn't Sault St. Marie--their reservation is 
split on them now. Is it a reservation?
    Mr. Stupak. Well, in Sault St. Marie it is a reservation, 
and they have some land--actually pockets all over. Some of it 
has been placed in trust. But there is some original parts in 
different parts of the Upper Peninsula. The first treaty had 
them in Sault St. Marie. The next treaty shoved them farther 
west.
    Mr. Cunningham. But the area in which you want to have 
funding for the hospital, is that also a reservation?
    Mr. Stupak. That is on trust land. Good question. I am sure 
they are going to put it off Shrunk Road there. So that would 
be reservation land.
    Mr. Cunningham. Because in San Diego County we have many of 
the tribes. They have gaming there and they are able to----
    Mr. Stupak. This tribe has gaming. That is how they can put 
up the $2 million. But the gaming, the casino in Manistique, 
there is a small one there, is on the highway. Their 
reservation is back off, and that is where most of their 
offices for health care and things like that are right now. So 
it is not near the casino.
    Mr. Cunningham. Do you have an idea of what kind of 
population, Native American population that that does serve, 
because Impact Aid and a lot of those things are important.
    Mr. Stupak. Because that would service the Delta County, 
Schoolcraft, Luce and Elger--well, not Luce but Elger. That 
would probably be pretty close to 3 to 4,000 members in that 
area. There is a big one in Manistique and in the Escanaba area 
there is another group there with all of their housing.
    Mr. Cunningham. I am one of the Members that think what we 
have done to Native Americans in this country is atrocious.
    Mr. Stupak. Well, we kept moving them around.
    Mr. Regula. Thank you.
    Mr. Stupak. Thank you.
    Mr. Regula. I think that completes our work for the day.
    [The prepared statement of Congressman Stupak follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                           Tuesday, April 23, 2002.

     EMOTIONAL LABOR, BURNOUT, AND THE NATIONWIDE NURSING SHORTAGE

                                WITNESS

REBECCA J. ERICKSON, DEPARTMENT OF SOCIOLOGY, UNIVERSITY OF AKRON, 
    AKRON, OHIO
    Mr. Regula. Well, we will get started here today. We have a 
special inducement for you to stay. Elmo is the last witness 
today. [Laughter.]
    I have to confess, I did not know who Elmo was, but I guess 
my grandchildren probably could have educated me.
    We have three nice pretty little girls, not so little, who 
are going to be testifying, or at least helping their mother. I 
bet they know who Elmo is. Do you girls know who Elmo is? I 
will be a hero to my two grandsons when I get home and tell 
them I saw Elmo.
    It is a great pleasure to welcome each of you today. I look 
forward to hearing your testimony. We all, on the Committee, 
value your views and your participation in our process. This 
really is democracy at work.
    In the next several weeks, we will be hearing from 200 
public witnesses and Members of Congress. That is why, of 
course, we cannot give too much time to anyone.
    The President's budget requests $132.2 billion. That is 
``billion'' with a ``b'' for the agencies. It is the second 
largest program, second only to defense, for programs and 
activities within the jurisdiction of this subcommittee.
    Nearly all of the increased funding recommendations in the 
President's budget are in three critical areas: homeland 
security, medical research, and education.
    I might tell you that this is almost $10 billion more than 
last year's budget. Once again, tough decisions will need to be 
made in the months ahead when we consider making funding 
allocations.
    For many of you, this will be your first time testifying 
before the Subcommittee. As we begin the hearing, I want to 
remind witnesses of a provision in the rules of the House, 
which states that every non-Governmental witness must submit a 
statement of Federal Grants or contract funds that they or the 
entity they represent have received. I am sure all of you have 
heard about that.
    In order to accommodate as many witnesses of the public as 
possible, we have scheduled about 25 witnesses for each 
session. Even at this level, we will not be able to hear from 
all who want to testify.
    However, we do ask everyone that wants to testify, that we 
cannot hear in person, to submit their testimony, and the staff 
evaluates their suggestions.
    Due to the volume of witnesses, I have to enforce the rule 
limiting each testimony to five minutes, and I have to be 
strict about that. Francine, she is the enforcer, recognizes 
the importance of staying on time.
    To help keep us on schedule, we will be using the lights 
that are on the table. There are three lights: green, yellow, 
and red. There are no fines on red, but we will appreciate if 
you can close and move down on the yellow.
    Once you begin speaking, the green light will indicate that 
your time has started; the yellow light will indicate that you 
have one minute remaining to sum up your testimony; and we 
obviously know the red light means stop.
    I hate to do that, because I find these programs extremely 
interesting, and sometimes I am guilty of stretching it out, 
myself, because I get interested in what you, as witnesses, 
have to say.
    But it is extremely valuable and particularly helpful to 
our staff, because they do read all the testimony. With the 
responsibilities we have, it is important that we try to do the 
best job possible.
    I said to the members of the Committee last year, since 
this is my first year as Chairman, that the Bible says there 
are two things that are vitally important, two rules: love the 
Lord and love your neighbor.
    This is the ``love your neighbor'' Committee, because 
everything we do potentially touches the lives of Americans, 
either through health research, the Centers for Disease 
Control, and a whole host of children's programs.
    Every dollar that we spend on education from Headstart to 
Pell Grants goes through this committee, and it is all 
discretionary. So we have to make some very difficult judgments 
in allocating resources.
    While $132 billion is a lot of money, it is surprising, but 
we always come up what we consider to be short, simply because 
there are so many needs. But we do the best we can in 
allocating.
    Our first witness today will be Dr. Rebecca Erickson, the 
head of the Department of Sociology at the University of Akron. 
She is going to talk about stress and its impact on retention 
of nurses and new teachers. With the imminent retirement of the 
babyboomers, we face some real shortages in these areas.
    So Dr. Erickson, we are happy to have you here today, and 
you can go forward.
    Ms. Erickson. Thank you and good afternoon, Mr. Chairman, 
my name is Rebecca Erickson, and I am an Associate Professor of 
Sociology at the University of Akron and Chair-Elect of the 
American Sociological Association's Section on the Sociology of 
Emotions.
    I want to thank you and members of the Committee for the 
opportunity to speak today about how reducing the rate of 
burnout among direct care nurses is essential to the 
development of sound retention polices, and to our being able 
to effectively address the national nursing shortage over the 
long term.
    Nurses typically burn out and leave bedside nursing after 
just four years of employment. My goal here today is to propose 
that a systematic program of research and intervention, 
focusing on the emotional stresses of nursing, and the 
conditions that exacerbate them, holds particular promise for 
reducing the incidents of burnout and increasing nurse 
retention.
    Experienced RNs are choosing to leave bedside care in large 
numbers. In the year 2000, there were 500,000 licensed nurses 
not employed in nursing. If only a quarter of these had been 
retained or could be induced to return, a significant 
percentage of the 126,000 hospital nursing vacancies might be 
filled.
    Solving the Nation's nursing crisis in nurse staffing 
requires that we understand why nurses leave direct care and 
why they choose not to return.
    There are many reasons for this, but the primary force 
driving nurses away is the stress in the work environment. 
Today's hospital nurses face increased patient loads, increased 
floating between departments, decreased support services and 
frequent demands for mandatory overtime.
    Given these conditions, it is hardly surprising that the 
National studies have reported that 59 percent of nurses say 
their job is so stressful that they often feel burned out, and 
43 percent of nurses experience significantly higher rates of 
burnout than is expected for medical workers.
    Burnout is a unique type of stress syndrome that is 
fundamentally characterized by emotional exhaustion. We can 
begin to appreciate what emotional exhaustion means for a nurse 
by considering the results of a national survey that asks 
nurses to identify how they usually felt at the end of their 
work day.
    The four most frequent responses were: exhausted and 
discouraged; discouraged and saddened by what I could not 
provide for my patients; powerless to effect the changes 
necessary for safe, quality patient care; and frightened for 
patients. Exhausted, discouraged, saddened, powerless, 
frightened; these are the emotions experienced by nurses on a 
daily basis.
    Recognizing that burnout is rooted in such intense 
emotional experiences is integral to preventing its occurrence. 
This is especially true in the case of nursing, where the 
ability to effectively manage one's own and other's emotions is 
critical for the provision of excellent care.
    To reduce the incidents of burnout, we must identify the 
faucets of the care environment that lead to the frequent 
experience and management of intense emotion. In doing so, we 
would be specifying the conditions that influence the 
performance of emotional labor; for the process through which 
nurses induce and suppress emotion, in an effort to make others 
feel cared for and safe, is indeed work. It is work that 
requires a great deal of time, energy and skill.
    While there is widespread agreement that issues concerning 
the environment of care must be included in any comprehensive 
strategy to address the nursing shortage, there has been no 
systematic research done to isolate the sources of nurse's most 
intense emotional experiences, and to develop a detailed 
understanding of how the management of these emotions leads to 
burnout and turnover.
    Consistent with the recommendations in last year's General 
Accounting Office report on the nursing workforce, I propose 
the initiation of a demonstration project, that will generate 
the data needed to effectively disrupt the burnout process.
    Such a project would require the formation of an inter-
disciplinary and inter-organizational research advisory team, 
that most importantly would include nurses currently employed 
in bedside care. This research team would organize and oversee 
a multi-method research project aimed at reducing burnout and 
increasing retention.
    Our first goal would be to specify the antecedents and 
consequences of performing emotional labor among direct care 
nurses. Our second goal would be to use this information to 
develop and evaluate preventive intervention strategies among 
these nurses.
    The third facet of this project would consist of surveying 
nursing students before, during, and after their first year of 
clinical practice. This would be done to evaluate the extent to 
which they are being prepared for the emotional demands of 
nursing, and to identify any changes in educational and 
hospital practice that might aid in the students' transition to 
the care environment.
    Understanding the emotional demands of caring work may be 
one of the most important steps toward retaining many of the 
nurses employed in bedside care. The proposed demonstration 
project will provide the means of achieving these goals.
    Thank you for your consideration, and I would be happy to 
answer any questions you may have.
    [The prepared statement and biography of Ms. Erickson 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
    As I understand it, at the University of Akron, you have 
done some work with the nurse education program there, along 
these lines. Am I correct?
    Dr. Erickson. I have not specifically. I have been working 
with hospital organizations in the area; but the nursing 
program has been focused on these issues.
    Mr. Regula. So the University is very much aware of the 
problem of stress.
    Dr. Erickson. Definitely.
    Mr. Regula. I think if the statistic is correct, that we 
lose 50 percent of the beginning teachers in the first five 
years, that much of the same thing would be applicable in the 
teaching profession.
    Dr. Erickson. Yes, that is part of the importance of 
looking at the burnout process, per se, to see what might be 
generalized to other occupations, definitely.
    Mr. Regula. Well, thank you very much for coming to speak 
on this important topic.
    Our next witness today is Lesa Coleman. She is accompanied 
by her three children: Jaclyn, Corinne, and Emily.
                              ----------                              

                                           Tuesday, April 23, 2002.

                  NATIONAL CAMPAIGN FOR HEARING HEALTH

                                WITNESS

LESA COLEMAN, ACCOMPANIED BY CORINNE COLEMAN, EMILY COLEMAN, AND JACLYN 
    COLEMAN
    Ms. Coleman. Thank you, and Jaclyn is over there. My 
husband could not join us.
    Mr. Regula. We are happy to have you. Tell us your story.
    Ms. Coleman. Thank you; good afternoon Mr. Chairman and 
members of the subcommittee. My name is Lesa Coleman, and I am 
here today with Jaclyn, Corinne, and Emily on behalf of the 
National Campaign for Hearing Health; not as an expert.
    Mr. Regula. Lance is your husband, I take it?
    Ms. Coleman. Right, Lance is my husband, and he could not 
make it.
    Mr. Regula. I got a little bad information here.
    Ms. Coleman. I wish he was here.
    Mr. Regula. Okay, I'm sorry.
    Ms. Coleman. I am a mother of five children, two of whom, 
Corinne and Emily, have severe hearing impairments.
    As you know, the President's 2003 budget eliminates program 
funding at the Health Resources and Service Administration for 
the Universal Newborn Hearing Screening, or UNHS Program.
    If funding for screening is cut, children and their 
families will be hurt, just as my child, who was without 
newborn hearing screening in 1994.
    We are currently only screening 65 percent of newborns in 
this country. Unbelievably, every day, 11 babies with hearing 
loss leave the hospital, and their parents have no idea that 
they have this loss.
    That is why I am asking Congress to provide $11 million to 
HRSA, so this vital program can continue to assist States with 
developing and implementing newborn hearing screening and 
intervention programs. To compliment HRSA's screening program, 
the Centers for Disease Control needs $12 million for critical 
tracking, surveillance and research efforts.
    I have a very simple message. Without early detection and 
intervention, children face delayed language, delayed speech, 
and delayed learning development. Early identification is 
critical, because we have wonderful interventions such as 
cochlear implants, hearing aids, and therapies that can 
dramatically improve the opportunities for a child with a 
hearing loss.
    I would like to share now the experience that we have had 
with my daughters Corinne, age nine, who was not diagnosed 
until she was age two; and then Emily, who is now age seven and 
was diagnosed at birth.
    If there were ever parents who should have self-diagnosed a 
hearing loss, it should have been my husband and I. My husband, 
Lance, is an ear, nose, and throat physician, and I, just 
shortly before Corinne was born, received my Master's Degree in 
child and family development.
    When Corinne was born, she looked and responded very 
normally, but as months progressed, we noticed that she did not 
seem to be talking. Our pediatrician encouraged us to wait up 
to 12 months before Corinne was sent for ear tubes.
    Finally, after no improvement and without our 
pediatrician's approval, Corinne's hearing was tested. So 
finally, at two years old, Corinne was finally diagnosed with a 
severe hearing loss.
    Soon after the diagnosis, we tried to enroll Corinne in an 
early intervention program. She was finally accepted at age two 
and-a-half, only to be forced to exit at age three, because 
early intervention ends in this country at age three.
    Corinne started preschool at age three with essentially no 
expressive and very little receptive speech. To improve other 
communication skills, we started speech therapy, which resulted 
in hundreds of hours and thousands of dollars of third party 
system costs over the course of four years.
    Our Emily, on the other hand, was born when Corinne was age 
two and-a-half. She was tested at birth with the appropriate 
equipment, and received her hearing aids at five months. Emily 
was admitted to the early intervention program at six months, 
where her speech was monitored regularly. She developed speech 
normally, right along with her hearing peers.
    Emily has never had to have regular speech therapy. Her 
vocabulary has been very expressive, confident, and dramatic, 
from a young age.
    The contrast, in our experiences dealing with every aspect 
of essentially the same hearing loss in both girls has been 
dramatic. From testing to hearing aids to hearing intervention, 
speech therapy, language development, socialization, and 
ongoing voicing and speaking confidence issues, our younger 
daughter, Emily, has had a tremendous advantage, because of her 
earlier identification.
    Federal funding for newborn hearing screening is critical 
to ensuring that other families will not have to suffer 
needlessly as Corinne and our family have.
    Now Corinne and Emily would like to make a brief statement.
    Ms. Emily Coleman. Hi, my name is Emily Coleman. I am glad 
I was tested when I was born. I have not had to work as hard as 
Corinne. Thank you.
    Ms. Corinne Coleman. Hello, my name is Corinne. When I was 
born, there was no newborn screening, and I had to do lots and 
lots of speech therapy. My little sister, Emily, did not have 
to do all this work.
    I really wish that all kids with a hearing loss could be 
identified early like she was. I really hope that you put the 
money back into the budgets to help the other kids. Thank you.
    [Applause.]
    Mr. Regula. I have got to tell all of you, since our 
funding is discretionary, you have got a disadvantage. 
[Laughter.]
    Ms. Coleman. We will use it.
    In closing, I want to thank you, Mr. Chairman and members 
of the committee for providing strong leadership and support 
for these programs in the past. We also greatly appreciate the 
support for these programs that you displayed at the agency 
hearings this year.
    On behalf of the National Campaign for Hearing Health, and 
my family, and thousands of other families like ours, we 
request your consideration to provide $1 million to HRSA for 
screening, and $12 million to CDC for surveillance tracking and 
research. Thank you for the opportunity to appear here today.
    [The prepared statement and biography of Ms. Coleman 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Well, thank you, that is good.
    We have a bill in Ohio to mandate that the hospitals do 
just what you are describing.
    Ms. Coleman. Right.
    Mr. Regula. It seems to me that that would be something 
that every hospital would do routinely.
    Ms. Coleman. Right, but without the funding, they cannot do 
it.
    Mr. Regula. No, you are right.
    Ms. Coleman. They need the funding. All the States need the 
funding, because they have got bills. A lot of States have 
bills, but without the funding, they cannot do it.
    Mr. Regula. Well, thank you for coming; and Jackie, we are 
happy to have you, too. You did not get a chance to speak, but 
I am sure you could do well.
    Ms. Coleman. She has been a lot of support.
    Mr. Regula. Okay, thank you very much for coming.
    Our next witness is Dr. Gregory Chadwick, President of the 
American Dental Association. We are pleased to have you.
                              ----------                              

                                           Tuesday, April 23, 2002.

                      AMERICAN DENTAL ASSOCIATION

                                WITNESS

DR. D. GREGORY CHADWICK, PRESIDENT
    Dr. Chadwick. Thank you, sir.
    I will have to admit, that is a hard act to follow. I am 
sure everybody in this room, though, has a compelling need that 
we are very grateful for the opportunity to be able to express.
    Mr. Regula. Well, if you stick around, we have got Elmo, I 
think, as a wrap-up. [Laughter.]
    Dr. Chadwick. We may do that.
    Good afternoon, Mr. Chairman, my name is Dr. Greg Chadwick. 
I am President of the American Dental Association and a 
practicing endodontist in Charlotte, North Carolina.
    Most Americans today enjoy good oral health and have the 
access to the best dental care in the world. But dental decay 
remains the most prevalent, chronic infectious childhood 
disease. It is five times more common than asthma, and seven 
times more common than hay fever. In addition, there are 
disparities to access.
    However, I am pleased to say that the oral health community 
has made great strides in these last few years to improve 
access to oral health care for the under-served population. 
Some of what we have accomplished has developed from programs 
that you funded here in this committee.
    Mr. Chairman, we must have adequate funding for dental 
education, the dental programs within CMS and HRSA, the 
Division of Oral Health at CDC, and the dental research under 
NIDCR, if we are to continue this forward movement.
    Because dentistry receives only a small portion of the 
Federal Budget, and because there must be a critical mass, if 
these programs are to be effective, we simply cannot afford to 
lose any of these programs.
    Therefore, the Association strongly opposes the 
Administration's proposal to eliminate funding for general 
practice and pediatric dental residencies.
    Currently, there are only 3,800 pediatric dentists in this 
country. Some states have as few as ten. There is a high demand 
for these residency positions, but almost half of all 
applicants are turned away, because there are no residency 
positions available for them.
    Unlike medicine, most dental residencies are not paid 
through dental Medicare. If Title VII funding for dental 
residency is eliminated, 372 dental residencies will be 
discontinued. Therefore, we urge the Committee to restore the 
funding for these programs at a level of $15 million.
    A strong education program is essential to maintaining the 
dental workforce. Currently, there is a crisis in dental 
education, with over 400 open faculty positions.
    If we cannot recruit the very best and brightest into 
academic and research, many of the oral health care concerns 
that we are going to be discussing here today simply will not 
be addressed.
    I know the Committee will be hearing from my colleagues 
representing the American Dental Education Association. We 
support their requests, particularly the increased funding for 
the Ryan White HIV AIDS dental program.
    The ADA is concerned that CMS grants designed to enhance 
access in two of our multi-year Medicaid programs will not be 
continued, and in essence will be cut off in mid-stream by the 
Administration's 2003 budget.
    A grant to improve access to care for 7,000 low income 
children under the age of six in California will be 
discontinued, as well as a demonstration program in North 
Carolina. That program would help children under the age of 
three receive preventive health care services.
    The ADA believes these pilot projects could be beneficial 
to understanding the disparities to access in the current 
dental care delivery system. We hope the committee will work 
with us to reinstate funding to complete these projects.
    We thank the Committee for its previous support of oral 
health care programs at CMS and at HRSA, and we're grateful the 
Committee understands the need to maintain the Chief Dental 
Officers at both agencies.
    This support is critical, because oral health is one of the 
top three unmet needs of mothers and children. However, less 
than two percent of HRSA's maternal and child health budget is 
spent on oral health care.
    The CDC's Division of Oral Health supports State and 
community-based programs to prevent oral disease. Last year, 24 
states and tribes applied for CDC grants to improve their Oral 
Health Programs and increase Fluoridation and Dental Sealant 
Programs.
    Unfortunately, the division was only able to fund about 
half of those grants. The ADA recommends a funding level of $17 
million for CDC's Oral Health Program.
    There is a compelling need to reduce the incidents of oral 
cancer, gum disease, and tooth decay in our society. The 
National Institute of Dental Craniofacial Research is engaged 
in studies to determine the underlying causes of these 
diseases.
    In addition, they have taken the lead to develop salivary 
diagnostics, which has the potential to develop non-invasive 
tests for many diseases and situations like exposure to Anthrax 
poisoning. The association recommends $420 million for NIDCR.
    Thank you, Mr. Chairman. This concludes my testimony. I 
will be pleased to try to answer any questions for you.
    [The prepared statement and biography of Dr. Chadwick 
follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman.
    As you know, I have got a proposal for an oral health 
project in my district.
    This is clearly a huge challenge to many communities across 
this country, as I have seen in my communities in the Black 
Stone Valley, in the number of children that are missing out on 
any kind of oral health. It is staggering, and their mouths are 
rotting out. It is leading to some terrible health 
consequences; let alone, you know, the other ramifications of 
this.
    So I congratulate you for the work that you are doing, 
trying to help that out.
    Dr. Chadwick. Thank you, and we are pleased to have you 
help raise the level of awareness on this need; because it is 
only through the level of awareness, and everybody realizing 
it, that we are going to finally be able to do something about 
it.
    Mr. Regula. Is it not correct that bad teeth can feed other 
poisons, if you will, into your system, that can infect your 
general health?
    Dr. Chadwick. Well, it is probably even more than that. I 
mean, you know, oral health is a part of general health. But I 
would not want to say that infected teeth are infecting other 
parts of the body. But certainly, there is a connection between 
oral health and systemic health, yes.
    Mr. Regula. Well, thank you very much for your testimony.
    Dr. Chadwick. Thank you.
    Mr. Regula. Our next witness is Marykate Connor, the 
Executive Director of the Caduceus Outreach Services; welcome.
                              ----------                              

                                           Tuesday, April 23, 2002.

                       CADUCEUS OUTREACH SERVICES


                                WITNESS

MARYKATE CONNOR, EXECUTIVE DIRECTOR
    Ms. Connor. Good afternoon, Mr. Chairman, Mr. Kennedy. I am 
the Executive Director and the founder of Caduceus Outreach 
Services.
    We are a very small nonprofit organization in San Francisco 
that serves homeless people who have co-occurring psychiatric 
illness and addictive disorders. I have worked with homeless 
people since 1986.
    I am here today to speak to the issue of substance abuse 
treatment on demand, which is something that Caduceus Outreach 
provides to people who have co-occurring addictive and 
psychiatric disorders; but I am here on behalf of all San 
Franciscans and, in fact, all cities throughout the Nation that 
need this kind of service, and not specifically for Caduceus.
    I was one of the founding members of the Treatment on 
Demand Planning Council in San Francisco. This is a 
collaborative effort between the Department of Public Health 
and community activists, providers of treatment, and consumers 
of treatment.
    We came together in 1996, in order to create a system of 
treatment that is truly responsive to those who need it and 
accountable to communities who fund it.
    Treatment on demand is a very simple concept. What it does 
is that it allows people who need substance abuse treatment to 
receive it when they ask for it, as opposed to when we are 
ready to help them.
    It also recognizes that treatment must be relevant to the 
lives of people that it serves, in order to be effective. 
Treatment on demand not only asks to increase the capacity for 
people that need treatment, but it broadens the scope of 
treatment modalities. Our efforts in San Francisco present an 
effective treatment model, but we simply need more of it.
    Most communities only have a small portion of the funds 
that they need to provide any kind of substance abuse treatment 
at all, and as a result, people are turned away from treatment 
every day.
    Often, people are screened out because they do not fit the 
criteria for treatment, and usually, the standard 12 step model 
is what is brought about in terms of treatment.
    People who have both psychiatric disorders and addictive 
disorders are especially subject to discrimination, as both 
conditions are stigmatized. Providers of substance abuse 
treatment want people with psychiatric illness to get treatment 
for their illness first, and providers of psychiatric treatment 
will not treat people who are using substances.
    In San Francisco, community activists have helped the 
Department of Public Health pass a dual disorder policy, so 
that both branches of the treatment providers must work with 
each other in a simultaneous effort, and not a sequential one.
    Providers have much to learn about this, but the Department 
of Public Health has taken the lead in directing this modality 
of treatment. This is one example of treatment on demand.
    Addictive disorders and psychiatric disorders are both 
biologically-based conditions. These diseases are some of the 
most under-reported, stigmatized, and devastating conditions in 
this country.
    I believe that the stigma of these illnesses is one of the 
reasons why treatment for this population is under-funded and 
punishment in the form of jails and prisons and incarcerations 
of all kinds are funded to the degree that they are.
    There is a greater portion of funding going into 
interdiction and incarceration of drugs and alcohol than there 
is for treatment for people that are suffering from addictive 
disorders. It actually costs more to incarcerate somebody than 
it does to treat them.
    Treatment really, really works. But in order for it to be 
effective, it first must be available, and it must be 
specifically relevant to people's lives.
    I am asking you to use the power of your office to change 
the fact that there is not enough treatment for everybody. Make 
treatment on demand a reality for not just, you know, one city 
or another city, but everywhere in the country.
    It will save lives, and it will also save money, because as 
I said earlier, it is cheaper to provide treatment than it is 
to incarcerate them.
    I believe that every life has value. When we do not provide 
lifesaving treatment for someone who is begging for it, we are 
clearly saying that their life is of no value.
    You can change this and restore the worth of someone's 
life. Please fund all efforts to provide treatment on demand, 
both in San Francisco and nationwide.
    Thank you, and I will answer any questions that you may 
have.
    [The prepared statement and biography of Ms. Connor 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Do you have a problem of people refusing 
treatment? Now I heard you say they ask for it.
    Ms. Connor. Yes, I do not often find there is a problem of 
people refusing treatment. Sadly, I am one of those providers 
that, because we are so very small, have to turn people away 
every day, who are asking; and I know that this is the case for 
many other treatment providers. There are long waiting lists.
    There may be people who, in fact, are not ready for 
treatment; but there are more people waiting in line for 
treatment, and cannot get the treatment that is specifically 
relevant to their conditions.
    Mr. Regula. Mr. Kennedy.
    Mr. Kennedy. I have no questions at this time, Mr. 
Chairman.
    Mr. Regula. Thank you very much for coming.
    Ms. Connor. Thank you.
    Mr. Regula. Next is Dr. John Allegrante, President and 
Chief Executive Officer of the National Center for Health 
Education and Professor of Health Education, Teachers College; 
welcome, Dr. Allegrante.
                              ----------                              

                                           Tuesday, April 23, 2002.

                  NATIONAL CENTER FOR HEALTH EDUCATION


                                WITNESS

JOHN P. ALLEGRANTE, PRESIDENT AND CHIEF EXECUTIVE OFFICER AND PROFESSOR 
    OF HEALTH EDUCATION, TEACHERS COLLEGE, COLUMBIA UNIVERSITY
    Mr. Allegrante. Thank you very much, Mr. Chairman.
    My name is John Allegrante, and I am indeed grateful for 
the opportunity to appear before the Subcommittee. I am the 
Senior Professor of Health Education, sometimes known as 
``Health and Clean Hands'' at Teachers College at Columbia 
University in Gotham, where I have been a member of the faculty 
for over 20 years.
    I am a past President of the Society for Public Health 
Education; and last year, I was named the new President and 
Chief Executive Officer of the National Center for Health 
Education.
    Mr. Chairman and Mr. Kennedy, I first want to thank you for 
all the support and leadership that this subcommittee has 
provided for programs and initiatives that do, indeed, invest 
in our Nation's youth. But to be frank with you, I am here to 
sound a wake-up call today.
    Specifically, I am here to request that the Centers for 
Disease Control and Prevention be funded at $35 million for 
fiscal year 2003, so that CDC can provide additional States 
with infrastructure grants for coordinated school health 
programs.
    Mr. Regula. Now you mean an increase?
    Mr. Allegrante. No, they already get about $9.6 million or 
$9.7 million, and we want an increase over that to bring it up 
to $35 million. Let me tell you why I think we should do this.
    More than 3,000 young people began smoking today; more than 
3,000. Childhood obesity has doubled in the last decade, making 
it now a national epidemic, and 10 to 15 percent of children 
are overweight, and more than half have at least one 
cardiovascular disease risk factor, such as elevated 
cholesterol, hypertension, or risk for Type 2 diabetes. Mr. 
Chairman, 21 percent of ninth graders in this country have been 
drunk at least once.
    Mr. Chairman, in your home State of Ohio, 73 percent of 
young people report having smoked cigarettes; 72 percent do not 
get even what I would call moderate physical activity; and 81 
percent ate fewer than five servings of fruits and vegetables 
daily during the past seven years.
    I think the statistics are alarming. They tell me that we 
are failing our young people, I think, in almost every 
community around this country. The cost to the Nation of not 
doing more than we are currently doing for them is, I think, 
intolerable.
    Moreover, the burden of the premature death, disease, and 
disability that we see and that results is borne 
disproportionately and dramatically so in communities where 
racial minorities predominate.
    To be honest, what I find so disturbing about these 
statistics is that something can be done. We know already what 
works. In many places, it is called coordinated school health 
programming.
    For example, Growing Healthy, our own organization's 
programming, the comprehensive school health education 
curriculum, that is part of a coordinated school health 
program, can help young people acquire the knowledge and skills 
they need to support healthy behavior.
    Yet, despite the existence of programs like Growing 
Healthy, most States do not have the resources to support 
putting them or putting programs like them into their schools 
as part of such a program.
    Now Mr. Chairman, I know that many Federal and State 
programs exist to provide schools with programs such as 
immunizations, nutritious meals, and physical education 
programs. However, most are uncoordinated. Funds for such 
programs come from a variety of Federal agencies, including 
education, agriculture, and health and human services.
    Yet, fewer than half of America's schools really have the 
capacity, if you will, to coordinate these many diverse 
programs and services that are available. I think, personally, 
that this results in costly duplication of services and a waste 
of taxpayer dollars.
    So funding this request would enable CDC to strengthen what 
we know are cost effective coordinated school health programs 
of 20 States right now currently funded through infrastructure 
grants, and support an additional six to nine States nationwide 
in fiscal year 2003, to develop similar programs.
    These funds would be used to foster critical partnerships 
between the Departments of Education and the Departments of 
Health and other related agencies in States, that would allow 
the high level State-directed coordination across programs. 
These are programs, again, Mr. Chairman, that have been shown 
to contribute to overall learning and academic success of 
students.
    Now I am not alone in this view. There have been 
independent studies, including a Gallup poll that found that 
seven out of ten adults in this country rated health 
information as important for students to learn before 
graduating from high school. We have got an opportunity to 
reach some 53 million young people indeed in schools across 
this country.
    So I see this as an investment for the future. School 
health programs can help limit the burden of chronic disease 
for our Nation, and it will pay enormous dividends in Federal 
dollars saved in the coming decades.
    In closing, I want to say that I understand the constraints 
with which the Committee works, with which our agencies of the 
Federal Government must operate.
    But I believe that when it comes to health of our children, 
like these young ladies we saw a moment ago, the diagnosis is 
clear and the treatment is really at hand. Expanding Federal 
funding of school health programs is a prescription for the 
health of our children.
    I thank you, Mr. Chairman. I hope that you will write that 
prescription.
    [The prepared statement and biography of Mr. Allegrante 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Mr. Kennedy.
    Mr. Kennedy. Yes, in Rhode Island, we had a great program 
that was put on by the Department of Agriculture, where 
children learned how to eat healthy, and also play, and learn 
how to exercise.
    It was a huge event with families and children at the Rhode 
Island Convention Center. It was the most mobbed exhibit or 
convention you have ever seen. It was all a host of folks that 
were talking about eating healthy and staying active.
    Mr. Allegrante. Sir, what if we could replicate that in 
communities beyond Rhode Island in America, and get that kind 
of excitement going?
    Mr. Kennedy. Yes.
    Mr. Allegrante. I think this modest request could help us 
do that.
    Mr. Regula. Thank you very much.
    Mr. Allegrante. Thank you.
    Mr. Regula. Mr. Kennedy, I understand you will introduce 
our next guest.
    Mr. Kennedy. Thank you, Mr. Chairman.
    I want to welcome one of our witnesses today, Sister Lapre. 
You can come up, Sister, and sit right in the middle, please. 
Thank you, Sister, for agreeing to testify today before the 
House Appropriations Labor, Health and Human Services, and 
Education Subcommittee.
    I know it takes great courage for you to share your own 
personal struggles and also the struggles of your neighbors and 
friends, and we appreciate your willingness to speak and be an 
advocate on their behalf and for all seniors.
    The power of your testimony today will help impact the 
progress that we make towards conquering mental illness in this 
Nation, and I thank you for your great work.
    Mr. Chairman, Sister Lapre has been known as the ``nun on 
the run'' in Rhode Island, for her great and extensive work, 
working with seniors all over the State, and particularly in 
Newport, Rhode Island, at the Forest Farm Adult Day Center, 
where she is involved in many activities with seniors there.
    So Mr. Chairman, I thank you for the opportunity of 
introducing Sister Lapre.
    Mr. Regula. Welcome, Sister, and we will look forward to 
your testimony.
                              ----------                              

                                         Tuesday, April 23, 2002.  

          NEWPORT COUNTY COMMUNITY MENTAL HEALTH CENTER, INC.


                                WITNESS

SISTER BERNADETTE LAPRE
    Sister Lapre. Chairman Regula and members of this 
subcommittee, thank you for giving me the opportunity to appear 
before you and share my thoughts with you today, April 23rd, 
2002, at approximately 1:00 p.m. in room 2358 on the third 
floor of the Rayburn House Office Building.
    I would like to address here my concern about funding for 
senior citizens with mental health problems. I am here on 
behalf of seniors who are homeless and depressed; seniors who 
are schizophrenic and possibly a danger to themselves and 
others, as well; and those who are suicidal.
    We recently had someone jump from the Newport Mount Hope 
Bridge in our area. Having the diagnosis of bi-polar disease 
myself, I know the suffering and feeling anxious, upset, and 
wanting to cry a lot. I also know how desperate people can 
feel.
    I ask that we get the health benefits that we need for our 
mental health problems or sickness, and that the Government 
gives us Federal aid to help us get therapy. It is very 
important for us to get therapy, so that we can deal with our 
problems. It would also help the society that we live in.
    Many clients are poor, and cannot pay for the medication, 
which is very important to help with our sickness? Why; because 
it is so expensive.
    If we have to go to the hospital, we may hesitate because 
of the expense. We also avoid taking our medication for the 
same reason. We would then become sick, again.
    In my opinion, these seniors should also go to an adult day 
care program a few times a week. This will help them to forget 
about their problems, let them meet other people, make friends, 
and also participate in different activities, which are so 
important these days. Care centers offer nutritious meals, as 
well.
    Our center offers daily exercise, health promotion, a 
variety of fun activities, and the support of a caring staff. 
I, myself, like going to Forest Farm Adult Day Care three times 
a week. It will be two years, May 1st, that I have been going.
    I have been going to a psychiatrist and a therapist for 
seven years now. I know that for myself, if funding resources 
were not paying for it, I do not think I would keep taking my 
medicine, because of the cost. What would happen is, I would 
fall sick and probably be hospitalized.
    Right now, I am doing very well, thanks to these programs. 
But more people my age need more help. Seniors do not like to 
talk about these things, because they are embarrassed. I hope 
that my testimony will help other older people to talk about 
their illness and get help.
    Thank you for listening, and I urge you to support our plea 
for funding. God Bless.
    [The prepared statement and biography of Sister Lapre 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Kennedy. Thank you very much, Sister. It was great to 
have you testify today. You really helped put a face with the 
people out there who, like you, are talking about and, like 
your own experience, have suffered tremendously from mental 
illness. I congratulate you on your enormous success, working 
to conquer your illness all the time.
    Can you explain the difference in the quality of treatment 
over the years since you have been suffering from mental 
illness most of your life and how it's been?
    Sister Lapre. I was in France for 26 years. I was getting 
help from a psychiatrist. She followed me for 26 years. And 
then I came back here to the States. I was going to say, I was 
well taking my medication and I was taking care of the children 
before school. And after that, I fell sick again. So I was 
hospitalized at Boston, at Newport Hospital. I was there for 10 
days.
    Then Dr. Klein is the one that took me over. I had a 
therapist for seven years. They have helped me a lot to deal 
with my sickness. And now instead of going every week, I go 
every three weeks, and I see Dr. Klein once every four months. 
And I'm doing very well. I know I'm shaking today. But without 
this help, I wouldn't be well today. And I'm getting a lot of 
help.
    And at the Day Fund Center, I say the rosary with them, I 
go to different ones, because we have divided now our program 
north and south. But it's adult day care just the same. I 
should have read my biography, it would have been quicker. 
[Laughter.]
    Sister Lapre. So I came back to the States and I had to go 
to the hospital for 10 days, as I was saying. Then after that, 
Dr. Klein was there and he took over. I had taken a big amount 
at the beginning. And he slowly diminished my pills. So now as 
a clorozapad, I'm only taking three grams seven, instead of 
ten.
    Mr. Regula. Well, obviously whatever you're doing works.
    Sister Lapre. Yes.
    Mr. Kennedy. She is giving so much to her community, it 
shows. She has so much to give. By helping her, we're really 
helping the whole community. She's terrific.
    Mr. Regula. Thank you. Thank you for coming and for your 
testimony.
    As I understand it, Mr. Kennedy, you're going to introduce 
our next witness also.
                              ----------                              

                                           Tuesday, April 23, 2002.

                         THE PROVIDENCE CENTER


                                WITNESS

HAVEN MILES, SUPERVISOR OF EARLY CHILDHOOD SERVICES, THE PROVIDENCE 
    CENTER
    Mr. Kennedy. Thank you, Mr. Chairman.
    It's a great honor for me to introduce Haven Miles. Haven 
is a supervisor of Early Childhood Services at the Providence 
Center, which is the largest psychiatric hospital center in 
Rhode Island. She works particularly with the young children 
and was an instrumental help in my being able to put together 
the Foundations for Learning Act, which became law last year as 
part of the Elementary and Secondary Education Act.
    So a lot of what I've learned about it, you know how 
outspoken I've been on the Committee about it, I learned from 
Haven. So I thank her for being here.
    Ms. Miles. I'm really glad to be here, too. And I'd like to 
thank the Subcommittee for allowing me to speak on behalf of 
young children who struggle with behavioral and emotional 
problems.
    I'm testifying today in support of Federal funding for 
programs that encourage a child's healthy social, emotional and 
educational development. Traditionally, education and social-
emotional development have been considered programmatically 
separate. I'm here to make the case that it is crucial for us 
to shift this paradigm and begin to develop programs that 
consider academics and emotional development equally and at the 
same time.
    I'd like to start off by telling you a couple of stories 
about children who I've had the privilege to work with. I 
encountered recently a little boy 18 months of age. After his 
second expulsion from two separate child care settings for 
biting other students, he was referred to our program. He left 
in his little wake a host of frazzled child care workers and an 
exasperated mother who was already stressed in her pursuit of 
transitioning from welfare to work.
    Was this a bad child? No. Was this a socially deviant 
child? Of course not. The fact is, biting is quite normal for a 
child this age. Some children bite more than others. Some 
children quite naturally and with little guidance learn that 
biting can't happen while others require special help in 
learning non-biting behaviors.
    This little boy came to our program and experienced a 
structured classroom setting where we could give him more 
individual attention. He also experienced success for perhaps 
the first time. We stopped the biting before it happened, and 
employed behavior management techniques that in essence 
untaught his biting behavior. After four months we transitioned 
him back to a community day care setting where he today enjoys 
social success.
    Not all children, however, are this easily remediated. I 
also work with a three year old boy who, upon arriving on his 
first day of preschool, used the length of his arm to clear off 
the teacher's desk. As one might expect, this infuriated the 
teacher and humiliated the parent. He threw a tantrum which 
nobody, the teacher nor the parent, could control. He was 
allowed back, and again, he cleared off the desk and threw 
another all-out tantrum. This time he was isolated in an empty 
classroom. After causing substantial damage to the room, he was 
expelled from the school.
    Again, this boy is not a bad child. He is a child who 
missed, for a variety of reasons, crucial developmental 
milestones. And he is in need of specialized remedial efforts 
to prepare him to enter public school. He is also a child from 
a family in which substance abuse is a major struggle.
    He has been with us now for two years. We work with him in 
a very structured classroom, using an approach that reflects 
mental health principles combined with educational techniques. 
This is not found in typical community preschool settings. And 
of course, we also work quite closely with the child's family.
    Our intention and goal is to help this child transition to 
public kindergarten with a new set of emotional and behavioral 
skills that he will use to form successful relationships with 
his peers and teachers. These skills also will be crucial to 
his academic success.
    In addition, we will share with his new teaching staff the 
techniques of this approach so they can continue his learning. 
Without the specialized services this child is receiving, I 
don't believe he would have a chance to experience social and 
academic success in school and in society.
    These examples are not isolated. In fact, they are more 
typical than many of us realize. The demand for specialized 
programs that address both the social-emotional and academic 
needs of young children is growing. I can tell you that 
enrollment at the Providence Center's early childhood program 
has doubled over the past two years.
    While programs like Head Start are a godsend to many 
children who otherwise would not have quality preschool 
experiences, they are unprepared to address the needs of young 
children with behavioral and emotional problems. Head Start 
staff members and the staffers of other child care and 
preschool programs are in critical need of the advice and 
counsel of professionals who are specially trained in early 
childhood emotional development.
    If we have the proper resources, we can help young children 
who have emotional and social problems remain in community 
settings and set them on a course toward academic success. The 
Foundation for Learning Act can help provide these resources. 
This Act is unlike any other Federal initiative, in that it 
will help make possible the development of programs that merge 
educational and emotional development principles through 
service integration and professional collaboration, so that we 
can have, in a typical community preschool classroom, teachers 
and professionals trained in early childhood development, 
working together to meet the comprehensive developmental needs 
of children, putting emotional development in the daily 
curriculum.
    I strongly urge this Subcommittee to give the utmost 
consideration to funding programs that support an integrated 
approach to the educational and emotional development needs of 
young children. I'm going to stop before the light goes on to 
ask if there are any questions.
    [The prepared statement of Ms. Miles follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman.
    Thank you, Haven. Maybe you could explain for the Committee 
how you currently, the different funding streams you might be 
able to get, if you don't have enough of the developmentally 
delayed child to get to early intervention services through 
Part C. How is it that Foundations for Learning would allow you 
in a grant program like that to get these services so that you 
can address these children's problems?
    Ms. Miles. We are designing at the Providence Center 
programs that can address the training needs for existing child 
care staff who have not been trained in their own training 
programs or their own college degree programs on how to manage 
behavior problems. There is ample evidence, material and 
information in the mental health field to provide answers to 
the immediate questions that those staff have.
    And one of the things we would wish very much to be able to 
do is to begin sharing immediately with folks who are working 
with these youngsters every day, at their places of work, child 
care centers and day care homes also, the information that they 
need, for example, about how to teach a youngster who is three 
years old, who has never had the experience of waiting before, 
how to wait, so that it becomes a successful experience for him 
rather than another failure.
    So the idea is to begin a process that can be, certainly 
Rhode Island wide. I would like to see it nationwide, in which 
the information and materials that we already have, that have 
been around for people to use for at least the last decade, to 
get those right into the hands of the people who need them this 
very minute.
    Mr. Kennedy. And so Mr. Chairman, this would address the 
problem that we were talking about in the other hearing where 
the Assistant Secretary of Education was testifying last week 
about moving Head Start into the Department of Education, and 
the real emphasis that needs to be put on literacy. They also 
acknowledged after some prodding that emotional-social 
competencies were equally as important. But maybe you could 
underscore how it is the case where social-emotional 
competencies are directly interrelated with literacy, and why 
we should be very cognizant about providing those capacities 
for teachers, just as we do literacy skills.
    Ms. Miles. Literacy skills are taught in steps. And one of 
the very first skills leading to literacy is learning how to 
play with blocks. If what a two or three year old child knows 
how to do with blocks is to throw them or hit people with them, 
he's really not ready yet to learn that first you put the big 
ones down and then you put the medium ones on top and then you 
put the little ones on top of that.
    You can't teach a child who is still in the process of 
chucking blocks at people how to pay attention long enough to 
learn that very first building block, pun intended, about how 
to begin to read. If a child is not able to tolerate a waiting 
period of longer than three or four seconds, he is not going to 
be able to attend to a highly trained, very skillful, very 
competent teacher when she is trying to demonstrate and teach 
to him and include the rest of the class in the process of 
learning that it's A for apple.
    Mr. Kennedy. So maybe having these people, teachers, get 
the education and how to deal with these children in these 
fashions may help them be better literacy teachers as well.
    Ms. Miles. Absolutely. Even the most basic of information 
about how much stimulation to have available in a particular 
classroom for a group of children can make an enormous 
difference in whether a child can sit and pay attention to a 
teacher or whether he's looking at all the drawings that are up 
on the wall.
    Mr. Regula. Mr. Wicker.
    Mr. Wicker. No questions, thank you, Mr. Chairman.
    Mr. Regula. Mr. Obey.
    Mr. Obey. No questions, thank you, Mr. Chairman.
    Mr. Regula. Thank you very much for being here.
    Mr. Miles. Thank you, Mr. Chairman.
                              ----------                              

                                           Tuesday, April 23, 2002.

                AMERICAN ASSOCIATION OF DENTAL RESEARCH


                                WITNESS

STEVEN OFFENBACHER, DIRECTOR, UNIVERSITY OF NORTH CAROLINA SCHOOL OF 
    DENTISTRY, CENTER FOR ORAL AND SYSTEMIC DISEASES, AND PRESIDENT, 
    AMERICAN ASSOCIATION FOR DENTAL RESEARCH
    Mr. Regula. Dr. Steven Offenbacher, Director of the 
University of North Carolina School of Dentistry Center for 
Oral and Systemic Diseases. Thank you for coming.
    Dr. Offenbacher. Mr. Chairman, members of the Committee, I 
am Steve Offenbacher. I'm with the University of North Carolina 
at Chapel Hill.
    I'm here today testifying on behalf of the American 
Association for Dental Research. I would like to discuss our 
2003 budget recommendations for the National Institutes of 
Dental and Craniofacial Research, as well as the Agency for 
Health Care Research and Quality and the Centers for Disease 
Control.
    The American Association for Dental Research is a non-
profit organization with over 5,000 individual members and 100 
institutional members within the U.S. Its mission rests on 
three principal pillars. One is to advance the research and 
increase knowledge for the improvement of oral health. Second 
is to strengthen the oral health research community. And third 
is to facilitate the communication and application of research 
findings.
    Mr. Chairman and members of the Committee, I want to thank 
you for this opportunity to testify about the ongoing work of 
the research community and that of the NIDCR. Dental research 
is important because it is concerned with the prevention, 
causes, diagnosis of diseases and disorders that affect the 
teeth, the mouth, jaws and related systemic diseases. Dental 
researchers are leaders in studies of disfiguring birth 
defects, chronic pain conditions, oral cancer, infectious 
diseases, including oral infections and immunity, bone and 
joint diseases, the development of new diagnostics and 
biomaterials and the interaction with systemic diseases that 
can compromise oral, craniofacial and general well-being.
    Throughout the life span, the oral cavity is continuously 
challenged by both infections that may have systemic as well as 
local implications for health. Through the research of dental 
scientists, this field continues to demonstrate that the mouth 
is truly a window to the body, and that in many ways, this is 
an important portal for infection that can spread and 
disseminate systemically.
    Research into the causes of oral diseases and new ways to 
treat and prevent these diseases is estimated to save Americans 
$4 billion annually. Oral health is essential and an integral 
part of health throughout the life span of an individual. Of 
the 28 focus areas for Healthy People 2010, the oral health is 
integrated into 20 of them. No one can truly be healthy unless 
he or she is free from the burden of oral and craniofacial 
diseases and conditions.
    Just to mention some of the extent of the problems, dental 
caries or tooth decay is one of the most common diseases among 
5 to 17 year old individuals. Eighty percent of tooth decay in 
permanent teeth is now found in about 25 percent of the school 
age children, and minority children have more than their share 
of the problem.
    According to the Centers for Medicare and Medicaid 
Services, approximately 500 million dental visits occur 
annually in the U.S., with an estimated $60 billion currently 
being spent on dental services. Yet many children and adults 
needlessly suffer from oral diseases that could be prevented. 
In fact, 30,000 Americans will be diagnosed with oral and 
pharyngeal cancers this year with more than 8,000 deaths, many 
of which could have been prevented.
    I am a dentist, and I'm proud to be a dental scientist. 
What's important in terms of research is that there have been 
new evidences that have extended the role of oral disease and 
oral infection into the mainstream of medicine. For example, we 
now understand that periodontal infections are an important 
risk factor for pre-term delivery, may increase the risk of a 
mother having a pre-term delivery almost seven fold. In these 
mothers that have pre-term delivery, we now understand that the 
oral organisms can pass through the blood stream and target the 
fetus in utero.
    For example, a mother that has periodontal disease and has 
a baby that's under 32 weeks of gestation, that premature baby 
is likely to be about 400 grams smaller because of her 
periodontal disease, the infection targeting the fetus and 
impairing the growth of that fetus. We can understand that that 
translates into a cost of approximately $30,000 in the first 
two weeks of that baby's life in neonatal intensive care costs.
    So research has taken us to the point where we've 
identified the importance of periodontal infections, and we 
need the infrastructure, we need the support to extend these 
findings and translate them into clinical applications that can 
affect the health of the public.
    We feel that we are requesting support for the NIDCR, the 
National Institute of Dental and Craniofacial Research, this 
supports the research an increase of 22 percent for the fiscal 
year of 2003 to a total appropriation of $420 million. The 
Centers for Disease Control funded at $10,839,000, we are 
recommending $17 million for fiscal year 2003. And for the 
AHRQ, we are requesting an increase in funding to $390 million.
    Thank you for your attention. This concludes my testimony 
and thank you for this opportunity to meet with this Committee.
    [The prepared statement of Dr. Offenbacher follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Mr. Wicker.
    Mr. Wicker. Well, you said a lot, Doctor, in a very brief 
time. Thank you for your testimony. I think your testimony is 
right on target and I appreciate your being here.
    Let me just ask you, in the brief time we have, about the 
cavities. You say 80 percent of the cavities occur in about 25 
percent of the children. I wonder if those children are in 
areas where the water has fluoride, and do you know the 
percentage of the drinking water in the United States that is 
fluoridated, if you could comment on the effects of that?
    Dr. Offenbacher. I'm sorry, I don't know the exact numbers. 
But I know fluoridation has a tremendous impact. For example, 
the rate of caries among non-fluoridated areas, such as in 
Asian Pacific Islanders, is extremely high in areas where there 
is no fluoride. So fluoride has a tremendous impact.
    Access to care has another impact, in terms of the ability 
of us to regulate or control the caries in these children. I 
don't know the fluoride statistics.
    Mr. Wicker. Well, maybe you could get that to the 
Committee, submit it to the record.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Wicker. And also, just to say that I think this 
Subcommittee is aware that a dentist is perhaps the only 
opportunity that some people will have to see a professional 
that could possibly diagnose other problems and send them to 
other types of physicians that they need to see. So I, as one 
member of this Subcommittee, I am very supportive of all the 
dental programs, up to and including pediatric dentistry, and 
also getting our dentists out to the communities where we know 
that the area is under-served in other areas of medicine, so 
that at least there is somebody there to take a look at them 
from a professional standpoint and send them in the right 
direction.
    So thank you for your testimony.
    Dr. Offenbacher. Thank you, sir.
    Mr. Regula. Thank you very much.
                              ----------                              

                                           Tuesday, April 23, 2002.

                AMERICAN DENTAL EDUCATIONAL ASSOCIATION


                                WITNESS

DAVID JOHNSEN, DEAN, UNIVERSITY OF IOWA COLLEGE OF DENTISTRY AND 
    PRESIDENT, AMERICAN DENTAL EDUCATION ASSOCIATION
    Mr. Regula. Dr. David Johnsen, Dean, University of Iowa 
College of Dentistry. We're getting a pretty good shot on the 
dentists today. [Laughter.]
    Dr. Johnsen. Good afternoon, Mr. Chairman and members of 
the Subcommittee. My name is Dr. David Johnsen. I'm Dean of the 
University of Iowa College of Dentistry and President of the 
American Dental Education Association, representing all 55 U.S. 
dental schools.
    In 2000, the Surgeon General released a report entitled 
Oral Health in America. The document makes clear that there are 
profound disparities in the oral health of Americans amounting 
to a silent epidemic of dental and oral diseases affecting our 
most vulnerable populations.
    And there are other significant challenges within the 
infrastructure of dental education and the oral health delivery 
system. For instance, the dentist to population ratio is 
declining, decreasing the capability of the dental work force 
to meet emerging demands of society. In one-third of the 
counties in Iowa, 20 percent of the dentists are age 60 or 
more.
    Dental education debt has increased, limiting both career 
choices and practice locations. In 2000, 45 percent of 
individuals who graduated with debt over $100,000. Currently 
there are 400 budgeted but vacant faculty positions in 55 U.S. 
dental schools. Of dental students graduating in 2000, only one 
half of 1 percent plan to seek careers in academia and 
research. And lack of diversity and the number of under-
represented minorities in the oral health professions is 
disproportionate to their distribution in the population at 
large.
    We urge the following. Number one, for general dentistry 
and pediatric dentistry training programs, ADEA recommends that 
the Subcommittee adequately fund the Primary Care Cluster to 
ensure an appropriation of $15 million for these two primary 
care dental programs. These two programs provide dentists with 
the skills and clinical experiences needed to deliver a broad 
array of oral health services to the full community of 
patients. Post-doctoral general dentistry training programs 
increase access to care while training dental residents to 
treat geriatric, special needs and economically disadvantaged 
patients.
    The pediatric dentistry program began to expand after 20 
years of little change. Preventive oral health care for 
children is one of the great successes in public health. But 25 
percent of the pediatric population still experiences 80 
percent of the dental cavities. Two-thirds are Medicaid 
recipients.
    Number two, for the Health Professions Education and 
Training Programs for Minority and Disadvantaged Students, ADEA 
recommends $135 million, including $3 million for the faculty 
loan repayment program. Two programs, the Centers of Excellence 
and the Health Careers Opportunity Program, are key in 
assisting health professions schools prepare disadvantaged and 
minority students for entry into dental, medical pharmacy and 
other health professions. The faculty loan repayment program is 
the only Federal program that endeavors to increase the number 
of economically disadvantaged faculty members.
    Number three, for the Ryan White HIV-AIDS reimbursement 
program, ADEA recommends an appropriation of $19 million. This 
program increases access to oral health services for HIV-AIDS 
patients and provides dental students and residents with 
education and training. In 2001, 85 dental programs treated 
more than 66,000 patients who could not pay for services 
rendered.
    Number four, for the National Health Service Corps 
Scholarship and Loan Repayment Program, ADEA supports the 
President's recommended funding level of $191 million. Programs 
assist students with the rising costs of financing their health 
professions education while promoting primary care, access to 
under-served areas. NHSC should open the scholarship program to 
all dental students and increase the number for dental hygiene 
students.
    Number five, for the National Institute for Dental and 
Craniofacial Research, NIDCR, ADEA joins the American 
Association for Dental Research in requesting an appropriation 
of $420 million for NIDCR. Likewise, ADEA urges the 
Subcommittee to encourage NIDCR to expand loan forgiveness 
programs to researchers. Through collaborative efforts with 
NIDCR, oral health researchers in U.S. dental schools have 
built a base of scientific and clinical knowledge that has been 
used to dramatically improve oral health in this country.
    In conclusion, Mr. Chairman, I thank you again for the 
opportunity to present fiscal year 2003 budget requests for 
dental education and research programs, and urge the 
Committee's support. Thank you.
    [The prepared statement of Dr. Johnsen follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Mr. Obey.
    Mr. Obey. No questions, thank you, Mr. Chairman.
    Mr. Regula. Mr. Wicker.
    Mr. Wicker. Nothing, thank you.
    Mr. Regula. Thank you for being here.
                              ----------                              

                                           Tuesday, April 23, 2002.

                 COALITION FOR INTERNATIONAL EDUCATION


                                WITNESS

DAVID WARD, PRESIDENT, AMERICAN COUNCIL ON EDUCATION ON BEHALF OF THE 
    COALITION FOR INTERNATIONAL EDUCATION
    Mr. Regula. Mr. David Ward, President of the American 
Council on Education.
    Mr. Ward. Mr. Chairman and members of the Subcommittee, my 
name is David Ward, and I am President of the American Council 
on Education, an association representing 1,800 public and 
private two and four year colleges and universities. Prior to 
that, I was Chancellor of the University of Wisconsin-Madison, 
in the same State as the Ranking Member.
    One of our top priorities is Federal student aid. Before I 
address today's topic, I would like to thank the Chairman, the 
Ranking Member and the rest of the Subcommittee for their 
support of the Pell Grant program and campus-based student aid 
programs. In addition, we thank the Committee for its support 
of scientific research, specifically a longstanding commitment 
to double the budget of the National Institutes of Health.
    Today I am here to present testimony on behalf of the 
Coalition for International Education on the fiscal year 2003 
appropriations for the Title VI programs in the Higher 
Education Act and the Mutual Educational and Cultural Exchange 
Act, commonly known as Fulbright-Hays. The Coalition is an ad 
hoc group of 28 national higher education organizations, with a 
focus on international education, foreign language and exchange 
programs. We express deep appreciation for the Subcommittee's 
long-time support for these programs, especially for the 
significant infusion of funding in fiscal year 2002.
    The recent terrorist threats we're being forced to address 
only underscore the importance of training specialists in 
foreign languages, cultures and international business. 
Developing the international expertise of the U.S. will need in 
the 21st century sustained financing. At the top of the list is 
adequate support for Title VI and Fulbright-Hays.
    Just as the Federal Government maintains military reserves 
to be called upon when needed, it must invest in an educational 
infrastructure that steadily trains a sufficient number and 
diversity of American students. International expertise cannot 
be produced quickly. It must be cultivated and maintained. 
Moreover, we cannot continue to prepare for yesterday's 
problems, but we must build upon our existing knowledge base to 
equip our Nation to meet tomorrow's challenges in international 
matters.
    Responding to demands to protect national security in a 
broad range of arenas throughout the U.S. and the world, 
virtually every Federal agency is engaged globally. One 
estimate is that over 80 Federal agencies and offices rely on 
human resources with foreign language proficiency and 
international experience. Despite their own language training 
programs, several agencies are now scrambling to address 
deficiencies in the less commonly taught and difficult to learn 
languages, such as those of central Eurasia, south Asia, and 
the Middle East. Faced with shortages of language experts after 
September 11th, the FBI sought U.S. citizens fluent in Arabic, 
Persian and Pashto to help with the Nation's probe into the 
terrorism attack. One Federal agency estimated its total needs 
to be 30,000 employees dealing with more than 80 languages.
    Title VI and Fulbright-Hays are among the few programs the 
Federal Government supports that provide the necessary long 
term investment in building language and foreign area capacity 
that responds to national strategic priorities. At roughly $100 
million, this is one of the smallest investments the Government 
makes in national security, but it pays extraordinary 
dividends.
    National security is also linked to commerce, and U.S. 
business is widely engaged around the world in joint ventures, 
partnerships and other linkages that require employees to have 
international expertise. A recent study on the 
internationalization of American business education found that 
knowledge of other cultures, cross cultural communications 
skills, international business experience and foreign language 
fluency rank among the top skills sought by corporations 
involved in international business.
    Title VI supports important programs that internationalize 
business education and help small and medium size U.S. 
businesses access emerging markets, a boost toward reducing the 
trade deficit and creating more U.S. jobs. The U.S. Department 
of Commerce reports that 97 percent of all U.S. export growth 
in the 1990s was contributed by small and medium size 
companies. Yet, only 10 percent of these companies are 
exporting. The most common reasons cited by U.S. businesses for 
not pursuing these export opportunities is a lack of knowledge 
and understanding of how to function in the global business 
environment.
    Research is needed to identify specific policy measures and 
avenues of public and private sector cooperation that will make 
possible both homeland security and continued economic growth. 
The Centers of International Business Education Research 
supported by Title VI have made great strides in 
internationalizing U.S. business education. Globalization is 
also driving new demands for globally competent citizens, and 
international knowledge in almost all fields of endeavor, 
including health, the environment, journalism and the law.
    Although funding has increased over the last three years in 
constant dollars, these programs are below the fiscal year 1967 
levels. The overall erosion of funding, combined with expanding 
needs and rising costs, have contributed to the shortfall in 
international expertise that our Nation requires.
    Last year's funding increase was an important step towards 
accomplishing our Nation's strategic objective in Title VI and 
Fulbright-Hays funding. As a next step for fiscal year 2003, 
the Coalition recommends $122.5 million, a total increase of 
$24 million for Title VI and Fulbright-Hays programs, to be 
allocated as outlined in my written testimony.
    That is the end of my testimony. I would be happy to take 
questions.
    [The prepared statement of Mr. Ward follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you. Mr. Obey.
    Mr. Obey. Mr. Chairman, let me simply say that in my 
judgement, we can usually say that the need to fund programs in 
education and science is usually inversely proportional to the 
degree of political power demonstrated by their advocates, or 
the political sexiness of the programs. Not many members of 
Congress are going to get gold stars going home bragging about 
what they've done to promote international education.
    But I think events such as September 11th demonstrate the 
wisdom of doing that. I was struck by the fact that, 
Chancellor, in your statement you have this sentence: fiscal 
year 1967, Title VI funded three programs that still exist, the 
National Resource Centers, FLAS fellowships and Research and 
Studies. Their combined estimated funding for fiscal year 2002 
is about $58 million, or 32 percent below fiscal year 1967, 
high point of $87 million in constant dollars.
    It seems to me that our national interest in supporting 
these kinds of programs has not declined since that time, 
although the public interest and the political interest 
certainly had, until September 11th. But I'm glad to see that 
you're here supporting these programs. I must also say, I 
confess I'm not objecting. Because I wouldn't be here if it 
weren't for those programs. After Sputnik hit the newspapers in 
1958, I received one of those three year fellowships in the 
Russian area studies program. If I hadn't, I wouldn't be here 
today. That might be regarded by some as a good reason not to 
support the program. [Laughter.]
    Mr. Obey. Nonetheless, I think it's an important program. I 
thank you for being here today and support it.
    Mr. Ward. I appreciate that.
    Mr. Regula. Mr. Wicker, you're going to introduce the next 
witness.
    Thank you very much for coming.
                                           Tuesday, April 23, 2002.

                  COUNCIL FOR OPPORTUNITY IN EDUCATION


                                WITNESS

REVEREND CLARENCE E. SMITH, REGISTRAR, RUST COLLEGE, HOLLY SPRINGS, 
    MISSISSIPPI
    Mr. Wicker. Mr. Chairman, and my colleagues on the 
Subcommittee, I am delighted to introduce Reverend Clarence 
Smith. The record will show that he is Registrar at Rust 
College in Holly Springs, Mississippi, that previously he was 
Director of the Upward Bound program at Rust College. But he is 
also my very good friend and neighbor. He works in Holly 
Springs, but commutes back and forth to my home town of Tupelo, 
Mississippi. Our children are in school together, and he is a 
valuable member of our community.
    I have but one concern, and that is that Mr. Smith recently 
surrendered to the ministry and is going to seminary also. To 
limit a Baptist minister to five minutes----
    [Laughter.]
    Mr. Wicker. I don't know if it's humanly possible, Mr. 
Chairman. But Reverend Smith is here, and we're delighted to 
have him here. I will yield and then I'll reclaim my time.
    The first person to ever tell me about the TRIO program was 
our next witness, and I appreciate that. We're delighted to 
have you here, Clarence.
    Rev. Smith. Mr. Chairman and members of the Subcommittee, 
my name is Reverend Clarence E. Smith, and I am presently the 
Registrar at Rust College in Holly Springs, Mississippi. Prior 
to this position I was the Director of the TRIO program at Rust 
College for about 11 years, and I'm still very involved in the 
three TRIO programs that are currently on the campus.
    I am testifying today on behalf of the Council for 
Opportunity in Education, which represents administrators and 
counselors working in TRIO programs nationally. Chairman 
Regula, before I proceed with my testimony, I would like to 
thank you and other members of the Subcommittee for your strong 
commitment to the TRIO programs over the past few years, and 
for expanding student access to these programs.
    In particular, I would like to acknowledge my Congressman, 
Congressman Roger Wicker, whom I have known for about eight 
years and who has been a great supporter of TRIO programs and 
Rust College. I have also had the privilege of presenting a 
regional award to him for his outstanding support of TRIO 
programs.
    As you know, the TRIO programs are a complement to the 
student financial aid programs and help students to overcome 
the class and academic barriers that prevent many low income 
first generation college students from enrolling in or 
graduating from college. The five TRIO programs work with young 
people and adults from sixth grade through college graduation. 
Currently, there are almost 2,600 TRIO projects serving some 
823,000 needy students.
    Now, I would like to tell you a little about the programs 
at Rust College. Rust College is a four year liberal arts 
institution, and it is the oldest historically black 
institution in the State of Mississippi. For over 30 years, 
Rust College has been the host for three TRIO programs, Student 
Support Services, Talent Search and Upward Bound.
    The Rust College Upward Bound programs help eligible high 
school students prepare for, pursue and complete post-secondary 
education. As an incentive, Rust College also provides a $2,400 
scholarship for each Upward Bound student who graduates from 
high school and enrolls at Rust College. The Rust College 
Education Talent Search Scholars Program also helps students 
complete high school and enroll in post-secondary education. 
But this program begins serving students at the middle school.
    For both the Upward Bound and Talent Search programs, Rust 
College serves four school districts located in rural counties 
such as Benton, Marshall and Tate, which are economically 
disadvantaged regions of the State. Rust College feels strongly 
that providing services to the students in the target areas 
through Talent Search and Upward Bound tremendously helps level 
the playing field for those students, and also gives them equal 
access to post-secondary education.
    The Rust College Student Support Services program helps to 
increase the retention and graduation rate of eligible college 
students and tries to promote an institutional climate that 
enhances the success of these students. I have been able to 
witness first-hand the effectiveness of TRIO, and now I would 
like to share with you the success story of one of my students 
who benefitted from the TRIO programs at Rust College.
    Charles LeSure came from a single parent family where his 
mother had a meager income but had a desire for her children to 
be successful. He entered the Upward Bound program at Rust 
College after being referred by a counselor, because he had 
academic need. While he thought about going to college, he did 
not have extra support needed to help him prepare for college. 
And he needed the Upward Bound program to help him stay 
focused.
    Of course, coming from a rural area, he also needed the 
cultural experience and exposure that Upward Bound brings. He 
graduated from high school and entered Rust College in the fall 
of 1992. With the help of the Student Support Services program 
at Rust, he graduated in 1996. Currently, he is a math teacher 
in the Memphis City School System and an associate minister at 
Anderson Chapel C.M.E. Church.
    Current funding levels seriously limit the ability of TRIO 
to serve more students and to strengthen the quality of program 
services. There are almost 9.6 million low income students, 
from middle school to college, currently eligible for TRIO. And 
the demographics will show that.
    For these reasons, the Council is recommending an 
appropriation of $1 billion for TRIO in the fiscal year 2003, 
an increase of $200 million. At this level of funding, the TRIO 
programs will be able to serve almost 100,000 additional 
students and strengthen existing services.
    The Council also supports the Student Aid Alliance fiscal 
year 2003 funding request, which includes a $500 increase for 
the minimum Pell Grant award, to $4,500.
    Mr. Chairman, Committee, we deeply appreciate and pray that 
you will consider our views. I will be happy to entertain any 
questions that you may have.
    [The prepared statement and biography of Rev. Smith 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Mr. Wicker. Mr. Obey.
    Mr. Obey. I do have just one comment. I have been a strong 
supporter of TRIO ever since I have had a chance to deal with 
that on the Subcommittee. But I would simply ask one thing of 
the folks who are for TRIO and the folks who are for GEAR UP. 
That is that they not fight each other.
    I don't think the needs of the students who are served are 
going to be very well met if we have a lot of time spent with 
TRIO people begrudging what is appropriated for GEAR UP and 
vice versa. So to the extent that you can deliver that message 
to both organizations, I would appreciate it.
                              ----------                              

                                           Tuesday, April 23, 2002.

                    COALITION FOR COMMUNITY SCHOOLS


                                WITNESS

MARTIN J. BLANK, STAFF DIRECTOR, COALITION FOR COMMUNITY SCHOOLS, 
    INSTITUTE FOR EDUCATIONAL LEADERSHIP
    Mr. Regula. Okay, Mr. Hoyer, thank you for coming and 
introducing our next witness.
    Mr. Hoyer. Thank you, Mr. Chairman.
    I'm glad to welcome at this point in time Mr. Martin Blank, 
who is the Staff Director of the Coalition for Community 
Schools, Institute for Educational Leadership. Mr. Chairman, 
the Coalition is an alliance that brings together leaders and 
networks and education family support, youth development, 
community development, government and philanthropy behind a 
shared vision of full service community schools, where 
community resources and capacity are mobilized around children 
in public schools to support student learning. As you know, Mr. 
Chairman, that's something I've been talking about for well 
over a decade.
    Marty Blank has extensive experience in research, practice 
and policy related to full service community schools. Now, 
that's his CV. He is also married to a very extraordinary 
woman, Helen Blank, who is the Executive Director of the 
Children's Defense Fund, and with whom I have worked for more 
than a decade on issues related to children and families. She 
does an extraordinary job herself.
    So Marty and Helen are two extraordinary Americans serving 
children in our country. And we welcome him here today.
    Mr. Blank. Thank you, Mr. Hoyer. It's always a privilege to 
follow in your footsteps and particularly in my wife's.
    Mr. Hoyer. I had the same experience.
    Mr. Blank. I know you have, and that's why we've been so 
pleased with your support of full service community schools.
    Mr. Chairman, I am Marty Blank, Staff Director of the 
Coalition for Community Schools. My thanks to you, Mr. Chairman 
and the Subcommittee, for the opportunity to testify today.
    Research and common sense tell us that children from all 
income groups experience barriers to learning. We've heard 
about some of them today, the health, the mental health, the 
dental issues that young people experience. In addition, there 
are other barriers, unstructured time after school, lack of 
engagement in learning, poverty in absence of family support, 
student mobility, risky behavior, violence, absenteeism. These 
all affect student learning. And full service community schools 
address these needs in an intentional and strategic way.
    Full service community schools are public schools open to 
students, families and community members before, during and 
after school, all year long. They have high standards and 
expectations, qualified teachers, rigorous curriculum. At a 
typical full service community school, the family support 
center helps with early childhood development, parent 
involvement in education. Employment and other services, 
medical, dental, mental health and other services are readily 
available. Before and after school programs build on classroom 
experiences and help students expand their horizons. Parents 
and community residents participate in adult education and job 
training. The school curriculum uses the community as a 
resource to engage students in learning and service, and 
prepares them for adult civic responsibility.
    Educators, families, students and community agencies and 
organizations decide together what services and opportunities 
are necessary to support student learning. No model is imposed 
upon them. Research based strategies are applied.
    You may be asking yourself, do we expect schools to do all 
of this work? The answer is no. Rather, a full time 
coordinator, in many instances hired by a partner community 
organization, works with the principal to link the school to 
the community and manage the additional supports and 
opportunities available at a community school. Working with a 
partner organization helps take the burden off principals and 
teachers, so they can focus on teaching and learning.
    Who pays for this? Financing is a shared responsibility. 
the school funds the core instructional program and facilities 
costs, obviously, but together the school and its community 
partners fund the various services by coordinating and 
integrating Federal, State, local and private funding streams 
from Education, Health and Human Services, Justice, many of the 
programs this Committee funds, as well as private sources.
    Community partners include every sector of the community, 
parks and recreation, child and family agencies, youth 
organizations like the Ys, the Boys Clubs, United Way, small 
and large business, museums, hospitals, the Forest Service, 
police and fire departments are all involved in this effort in 
communities across the country.
    Do full service community schools work? Evaluation data 
from 49 different initiatives compiled by leading authority Joy 
Dreyfuss demonstrates their positive impact on student 
learning, on healthy youth development, on family well being 
and on community life. Moreover, community schools have strong 
community support, strong public support. A recent poll by the 
Knowledge Works Foundation in Ohio found that two-thirds or 
more of Ohioans support community use of school facilities for 
the kinds of programs envisioned in a full service community 
school.
    How can this Committee help to promote this promising 
approach? At the present time, various agencies of the Federal 
Government fund programs that should be integrated in a full 
service community school. Too often, however, these programs 
are fragmented and not focused on our key national priority: 
improving student learning. The No Child Left Behind Act 
requires States and local education agencies to coordinate and 
integrate Federal, State and local services to help support 
student learning.
    We believe that to ensure the effective implementation of 
this provision and to create full service community schools, 
States and local education agencies need incentives and 
technical assistance. Therefore, we ask this Committee to do 
the following.
    First, support a State full services community schools 
incentive program that provides willing States with flexible 
funds to create an infrastructure for full service community 
schools. Support a similar program for local education agencies 
that work in partnership with other organizations. Support a 
national full service community schools support center where 
research on this issue, coordination of training and technical 
assistance and recognition programs can be implemented. And 
finally, support the core underlying programs that must be 
integrated at a full service community school, particularly 
those where educators and community agencies must work 
together, such as the 21st Century Community Learning Program, 
the Safe Schools Healthy Students Program, and Learn and Serve 
America.
    In conclusion, Mr. Chairman, the Coalition believes that 
bringing schools together with the assets of organizations and 
individuals in our communities and with our families to improve 
student learning is a common sense policy approach. Full 
service schools help ensure that schools have support from 
families and communities for the education enterprise that is 
so vital to the future of our democratic society.
    Thank you very much, and I'd be pleased to answer any 
questions you may have.
    [The prepared statement of Mr. Blank follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. If I understand you correctly, any school could 
become a full service school, depending on its willingness?
    Mr. Blank. That's correct, Mr. Chairman.
    Mr. Regula. Your group's function is to encourage the 
development of these kinds of units across the country?
    Mr. Blank. That's quite correct, sir.
    Mr. Regula. Thank you.
    Mr. Hoyer.
    Mr. Hoyer. Mr. Chairman, I don't have a question, but I 
want to thank Marty for his testimony. The points that he has 
made with respect to grant programs to fund the full service 
community school grant program and the State full service 
program as well as a support center funding, all of these I 
think tie into what we need to do on this Committee, and what 
I've urged in particular three Departments under our aegis to 
do, and that is, obviously Health and Human Services that has 
Head Start, in some respects now fully integrated at about a 
quarter of the schools across the Nation, but not integrated in 
about three quarters, and the President has spoken about that, 
as you know. As well as educational health services that come 
under both Department of Education and HHS. But also programs 
for work incentive programs, worker training programs, adult 
education programs which come under both Education and Labor.
    In addition to that, of course, we have six or seven other 
Departments including HUD, Agriculture and Nutritional 
Services. The point is, Mr. Chairman, the full services school 
concept is, as you know, that we have invested a lot of money 
in a central, the only central facility that every community 
has. Perhaps a fire hall or fire service is the other one. But 
the only one that every community has, that is an elementary 
school. If we fully utilize and coordinate these services, we 
can get more bang for the buck that we appropriate, because 
they will be coordinated and made much more efficient in terms 
of delivery to those people who need them. That's the whole 
concept of full service schools.
    Mr. Chairman, I want to work with you over the next coming 
months before we mark up the bill to see if we might start, 
I've talked about this for a long time, and we're going to 
introduce a piece of legislation, hopefully within the next 
month. We've been working with Congressional Research Service. 
Before we introduce it, I'm going to show it to you. I'd love 
to have you look at it and if you think it's a good idea, to 
co-sponsor it with me, along with others, but to see if we can 
in effect energize this effort of utilizing our resources more 
efficiently in this bill that we're going to mark up shortly.
    Again, Marty, thank you very much for not only your 
testimony but for the work that both you and Helen do.
    Mr. Regula. How many units are there across the Nation that 
do this?
    Mr. Blank. It's a challenging question, Mr. Chairman. We 
think there are several thousand schools that reflect this full 
vision that I articulated. Many have pieces of this, and as you 
correctly pointed out earlier, we are trying to get people to 
see and understand this notion, this idea, and the kind of 
support that we're seeking from this Committee will help us to 
move that idea forward into implementation. And in addition to 
all the goals that Mr. Hoyer articulated, we believe this 
approach has a real connection to the student learning 
objectives that are so important to this Committee, to the 
President and the country.
    Mr. Regula. That's an interesting thing. I have a couple in 
my district that are headed that way, they're open 18 hours a 
day and the community is involved. One of them has the YMCA 
right in the building. That's the newest thing.
    Mr. Blank. Right. Ohio is building many new schools, as you 
are probably aware, because of the age of its facilities. We 
would like to see them built in this way, because we believe 
that it really engages all Americans in educating all our 
children.
    Mr. Regula. Makes a lot of sense. Thank you for coming.
    Mr. Blank. Thank you so much.
    Mr. Hoyer. Marty, if I can, before you leave, because the 
Chairman asked the question how many there are, as you know, 
Mr. Chairman, because we've had some conversations, we're going 
to try to coordinate a schedule for you to go out to Eva Turner 
in Charles County, which is a partially full service school. 
We're not exactly where we want to be, but it's certainly a 
multi-service school.
    Marty, do you remember the school that I visited in New 
York, whatever the number was?
    Mr. Blank. Yes, IS 218, a school that's been a partnership 
between the Children's Aid Society and the Community School 
District Number 6.
    Mr. Hoyer. It is an extraordinary school, Mr. Chairman. 
When you're up in New York, this is north of the GW Bridge, 
large Latino population in that area. They are doing some 
extraordinary work with multi-service----
    Mr. Blank. Right. They also have a site here in the 
District of Columbia which might be another possibility for a 
visit as well, Mr. Hoyer.
    Mr. Hoyer. Obviously, yes. Thank you.
    Mr. Regula. Thank you.
                              ----------                              

                                           Tuesday, April 23, 2002.

                    ASSOCIATION OF TECH ACT PROJECTS


                                WITNESS

PAUL RASINSKI, EXECUTIVE DIRECTOR AND CONSUMER, MARYLAND TECHNOLOGY 
    ASSISTANCE PROGRAM
    Mr. Regula. Mr. Hoyer, I understand you want to introduce 
our next witness.
    Mr. Hoyer. Mr. Chairman, I've been very involved in 
assistive technology, and you have been very helpful as last 
year, as you recall, we cooperated with the authorizing 
committee to preclude the assisted technology grant from 
lapsing, as it would have happened under the legislation.
    I'm pleased to welcome to the Committee Mr. Paul Rasinski, 
who is the Executive Director of the Maryland Technology 
Assistance Program, otherwise known as MTAP. Born and raised in 
Baltimore, Mr. Rasinski takes pride in assisting individuals 
with disabilities in our community, and we thank him for that.
    He graduated from Coppin State College, began his career in 
education as an industrial arts instructor in the Baltimore 
City School System. He sustained a spinal cord injury in a 
sports accident, and spent many years rehabilitating his 
physical health and endeavoring to develop a new career. He 
has, out of adversity, given great, positive effect to his own 
injury and imparted great, positive wisdom to others. He joined 
the staff of the Maryland Technology Assistance Program as the 
Education Liaison. The position entailed, among other 
responsibilities, assisting parents and educators in the proper 
selection and use of assistive technology for the individual 
education plans of children with disabilities.
    He was promoted assistant director in 1996 and on July 1st, 
1997, assumed the position of executive director. He testified 
last month before the Education and Work Force Subcommittee on 
21st Century Preparedness on this subject. Mr. Chairman, I am 
hopeful that the authorizing committee will move legislation. I 
have had discussions, I know you have talked to them as well. 
Mr. Rasinski gave very compelling testimony there. And I 
welcome him before our Committee today. Thank you for being 
here, Paul.
    Mr. Rasinski. Good afternoon, Mr. Regula, and the rest of 
the members of the Subcommittee. Thank you for this opportunity 
to share with you my thoughts about State programs funded by 
the Assistive Technology Act. I want to especially thank our 
Maryland representative, Mr. Hoyer, and the rest of the 
Committee for your efforts last year, and throughout the years, 
to assure that assistive technology projects have continued to 
be funded.
    The Assistive Technology Act of 1998 will be considered for 
reauthorization next year, but without your support in this 
legislative session, many of the projects will be terminated. 
Before this year, and the activities of the House Subcommittee 
on 21st Century Competitiveness, it had been almost a decade 
since the House of Representatives had held a hearing on this 
law. So much has happened over that decade, both in terms of 
the accomplishments of the State grant programs, and in the 
advances we have seen in technology. Remember that only a 
decade ago, none of us used e-mail.
    I am here today representing the Association of Tech Act 
Projects, and to enlist your support in including an amendment 
to the Assistive Technology as part of fiscal year 2003 Labor, 
Health, Human Services, Education Appropriations bill again 
this year as you did last year. As you said earlier today when 
I met you, you said this was quite an important topic, and I 
believe you. Last year, the amendment saved nine States from 
being terminated from this important program that ensures that 
people with disabilities will have access to assistive 
technology that they need.
    This year, we need your help again, as without an attached 
amendment, 23 States will be eliminated from funding. The 
States which will be eliminated are Arkansas, Alaska, Colorado, 
Illinois, Indiana, Iowa, Kentucky, Maine, Maryland, 
Massachusetts, Minnesota, Mississippi, Nebraska, Nevada, New 
Mexico, New York, North Carolina, Oregon, Tennessee, Utah, 
Vermont, Virginia and Wisconsin. As you can see, many of your 
members here today represent those States. We would enlist your 
help to continue our services in those States.
    We request that the funding for Title I of the Assistive 
Technology Act be provided at a $34 million level. This would 
return us to the level of funding we received in fiscal year 
2000. In addition, we request that you include the following 
amendment, which would ensure that no State would be eliminated 
from the program:
    Provided that funding provided for Title I of the Assistive 
Technology Act of 1998, the AT Act, shall be allocated 
notwithstanding Section 105(b) of the AT Act; provided further 
that Section 101(f) of the AT Act shall not limit the award of 
an extension grant to three years; and provided further that no 
State or underlying area awarded funds under Section 101 shall 
receive less than the amount received for fiscal year 2002 and 
funds available for increases over the fiscal year 2002 
allocations shall be distributed to States on a formula basis.
    I'm going to kind of go away from my written speech for a 
few moments, and tell you what the $34 million provides. Each 
State has a Tech Act project, and there are also six 
territories. Each program takes the dollars that we get from 
the Federal Government and coordinates efforts throughout each 
State, along with other programs, to have the commission on 
aging, education departments, anyone that has any dealings with 
persons with disabilities. We enhance their programs by 
educating them as to what assistive technology does for the 
people, the students in school, workers on the sites, seniors 
who are going home now and finding out that the houses that 
they have lived in for many, many years are inadequate for 
their needs. Ramps have to be built, stair lifts added, and we 
do a lot of coordinating of the efforts that the person with a 
disability just has to have within their lifestyle.
    In conclusion, I'd like to say that in 2004, the Assistive 
Technology Act is scheduled for reauthorization by Congress. I 
and my colleagues around the country look forward to working 
with you to develop new ways to support access to technology 
for people with disabilities. We hope that you will ensure 
continued support for programs in the 56 States and 
territories, including the amendment to the Assistive 
Technology Act as part of fiscal year 2003 Labor, Health, Human 
Services, Education appropriations bill again this year as you 
did last year.
    We request that the funding for Title I of the Assistive 
Technology Act be provided at the $34 million level. We believe 
that this Federal leadership role provides the infrastructure 
and seed money that leverages a great range of programs and 
services that are critical to people with disabilities. For 
example, all the Title III loan programs are administered by 
Title I State programs. If there were no Title I program 
infrastructure, there would be no Title III loan programs.
    We are most grateful to you for your leadership on behalf 
of Americans with disabilities who depend on assistive 
technology for their independence and their full participation 
in society. Thank you very much, and I welcome any questions 
you might have.
    [The prepared statement of Mr. Rasinski follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Hoyer. I don't have any questions, but I thank Mr. 
Rasinski for his testimony, and we'll certainly work toward the 
objective that he seeks. I think it is so critically important, 
for as he points out, a lot of States that are represented on 
this panel. But much, much more importantly for thousands of 
people who are enabled and empowered to participate in our 
society through the use of assistive technology. Thank you.
    Mr. Rasinski. Thank you.
                              ----------                              

                                           Tuesday, April 23, 2002.

                       UNITED NEGRO COLLEGE FUND


                                WITNESS

JOHN HENDERSON, PRESIDENT, WILBERFORCE UNIVERSITY
    Mr. Regula. Next is Dr. John Henderson, President of the 
Wilberforce University. Dr. Henderson.
    Mr. Henderson. Good afternoon, Mr. Chairman and Mr. Hoyer. 
My name is John Henderson, the President of Wilberforce 
University in Wilberforce, Ohio. But today I appear on behalf 
of the United Negro College Fund, UNCF, the Nation's oldest and 
most successful African-American higher education assistance 
organization. Since 1944, UNCF has been committed to increasing 
and improving access to college for African-Americans, and 
remains steadfast in its commitment to enroll, nurture and 
graduate students who often do not have the social and 
educational advantages of other college going populations.
    This Subcommittee has attentively listened and responded to 
our concerns in the past, and for this we gratefully thank you. 
There is no more important partner in the HBCU's mission to 
provide excellence and equal opportunity in higher education 
than the Federal Government.
    Mr. Chairman, the Labor, Health and Human Services 
Education Appropriations Subcommittee can play a major role in 
enhancing the capacity of HBCUs. Allow me to highlight the key 
points of UNCF's recommendations in order to convey to the 
Committee the importance and the value of American's HBCUs. The 
primary support for low income first generation students at 
HBCUs and all college campuses has been the Department of 
Education's Title IV student financial assistance programs, in 
particular, the Pell Grant and Federal Supplemental Educational 
Opportunity grants.
    With increasing numbers of low income first generation 
students on our UNCF campuses, even with the longstanding 
efforts to keep costs down, an increasing number of students 
face a gap between the cost of education and the combination of 
Federal aid, State and institutional assistance for which they 
qualify and their families' capacity to meet college costs.
    All institutions across the Nation, especially those like 
UNCF members, and other HBCUs that enroll large numbers of poor 
students, are extremely concerned about how Congress will 
address the Pell Grant shortfall. Under your leadership, Mr. 
Chairman, Congress provided the necessary funds to increase the 
Pell Grant maximum award to a record level $4,000. And I can 
personally attest to you the impact that this has had in 
assisting some of our most low-risk disadvantaged students on 
the Wilberforce University campus.
    For this reason, UNCF supports a $4,500 Pell Grant maximum 
award in fiscal year 2003. Moreover, as both a member of the 
student aid alliance and a representative of 39 of the Nation's 
HBCUs whose very mission and purpose is the education of 
disadvantaged and poor students, UNCF urges Congress to include 
funds to eliminate the shortfall in the fiscal year 2002 
supplemental.
    UNCF also appeals to Congress to not offset the necessary 
funds needed to eliminate this shortfall by cutting fiscal year 
2002 appropriations for other programs in the Labor, Health and 
Human Services Education Bill. Since student enrollment at 
Wilberforce and other historically black colleges and 
universities is directly related to the increased demand for 
Pell Grants, your support of the supplemental fiscal year 2003 
appropriations is important.
    In ensuring low income students access to college, we must 
make sure that these students are receiving quality, early 
information about college and that we are providing the 
necessary student support services to truly ensure their 
retention and graduation. In this regard, UNCF endorses the 
student aid alliance request for TRIO as well as continued 
funding of the supplemental to TRIO's student services support 
program.
    Members of the Committee, not only do we need your support 
for increased funding for the Title IV programs, we also need 
you to further your investment in HBCUs through the Title 
III(B) Strengthening Historically Black Colleges and 
Universities Program. These programs have been very 
instrumental in enhancing the survival of HBCUs.
    In the wake of September 11th, under this Subcommittee's 
leadership, there was a dramatic increase in Title VI 
international education programs. UNCF applauds this action and 
urges you this year to further expand HBCU and minority student 
participation in Title VI programs through affirmative outreach 
and technical assistance efforts for both the overseas and 
domestic programs and the international business programs, and 
to provide increased funding for the Institute for 
International Public Policy.
    Mr. Chairman, UNCF also supports an increase to minority 
science and engineering improvements programs, and the Thurgood 
Marshall Legal Opportunities Program, that addresses access and 
opportunity for under-represented minorities in law.
    As I conclude my testimony, I ask that you consider 
increased funding also for programs at the Department of Health 
and Human Services that educate many African-Americans in the 
health professions and that support research activities on HBCU 
campuses.
    Mr. Chairman and members of the Subcommittee, I appreciate 
the time that you have given me to represent the views and 
representations of the United Negro College Fund.
    [The prepared statement and biography of Mr. Henderson 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you, Mr. Henderson. Thank you for coming.
                              ----------                              

                                           Tuesday, April 23, 2002.

       NATIONAL COUNCIL FOR COMMUNITY AND EDUCATION PARTNERSHIPS


                                WITNESS

HECTOR GARZA, PRESIDENT, NATIONAL COUNCIL FOR COMMUNITY AND EDUCATION 
    PARTNERSHIPS
    Mr. Regula. Mr. Hector Garza, President of the National 
Council for Community and Education Partnerships.
    Mr. Garza. Good afternoon, Mr. Chairman, members of the 
Subcommittee. My name is Dr. Hector Garza, I serve as President 
of the National Council for Community and Education 
Partnerships.
    Today Ms. Corey Barber, representing the U.S. Student 
Association, is present with me to signal the support on behalf 
of GEAR UP, on behalf of America's college and university 
students as well.
    Additionally, I also have with me written letters of 
support from several other education organizations, Mr. 
Chairman, who also wish to be recognized as supporters for GEAR 
UP. I do hope that you will allow me to enter these as part of 
the official record.
    NCCEP is an non-profit organization founded by the Ford 
Foundation and the W.K. Kellogg Foundation to help schools, 
colleges, universities and communities to improve public 
education, to promote student achievement, and above all, to 
increase access to college for all students, Mr. Chairman. 
Today I will be talking to you about the Gaining Early 
Awareness and Readiness for Undergraduate Programs, the GEAR UP 
program, the program that Mr. Obey previously talked about. A 
program designed to make sure that no child gets left behind in 
areas of education.
    I'm also here today to advocate for a significant increase 
in the appropriations for GEAR UP for a total sum of $425 
million. GEAR UP, as you know, is a unique Federal program that 
offers a very effective approach to helping low income students 
and their families prepare for success in college. It is 
important for me to mention that GEAR UP is not a minority 
program. It is a program for all low income students, Mr. 
Chairman. Research studies have shown that the college going 
rates for low income students remains substantially below those 
of more affluent counterparts.
    Millions of young people, especially those from poor, 
minority and rural communities, still find the door to college 
all but shut for them. Eighty-six percent of high income, high 
achieving secondary school students go on to college, while 
only 50 percent of low income high achievers enroll in post 
secondary education. Young people whose family income is under 
$25,000 have less than a 6 percent chance of earning a four 
year college degree. High income students, on the other hand, 
are seven times more likely than low income students to 
graduate from college.
    The students face barriers, such as under-funded public 
schools and overburdened teachers. Students receive poor 
academic preparation in our public K-12 schools. They have 
little access to information about what it takes to be admitted 
and be successful in college, little or no guidance on applying 
to college, limited information about available grants and 
scholarships, and in short, low income students face a 
pervasive climate of despair rather than hope for a better 
future in schools and at home.
    Through GEAR UP, Mr. Chairman, our schools and GEAR UP 
partners are working hard to change all of that. GEAR UP is a 
Federal program that goes beyond serving individual students 
with a primary emphasis to systemically reform whole schools 
and school districts. Through GEAR UP we are changing outdated 
educational practices and making lasting changes within schools 
and systems so that they can have a lasting effect on the 
communities.
    In a recent poll, 77 percent of Americans agree that the 
Federal Government should increase its education spending to 
allow more people to enter and complete college. Eighty-eight 
percent of Americans favored an increase in Federal funding to 
improve educational opportunities for poor students in 
particular. We have also discovered that through GEAR UP, all 
students benefit, since GEAR UP is designed to revamp the 
system, so that it works for all children.
    GEAR UP helps low income students to stay in school, to 
study hard, to take the right college prep courses, and to 
learn about the requirements to pursue a college education. 
GEAR UP is designed to transform entire schools to engage 
parents and families, and to mobilize local communities to 
support student achievement. The programs include mentoring 
programs, tutoring, college visits, academic and career 
advising programs, professional development for teachers, and 
summer and after school academic enrichment programs. GEAR UP 
allows students and schools to better coordinate their academic 
support programs to align their curriculum to facilitate 
student achievement and to provide more and better 
opportunities for success in these students.
    Research studies have suggested that parental and family 
involvement is critical and GEAR UP achieves that. GEAR UP 
prepares parents for active, productive roles in guiding their 
children to educational excellence and bright futures. Because 
we know that GEAR UP is a program that works, we are asking 
this Congress to appropriate the required money to make this 
program available to more students.
    You may also be interested in knowing, Mr. Chairman, that 
GEAR UP serves an extremely diverse group of students. Thirty-
four percent of students are Hispanic, 31 percent African-
American, 27 percent white, 4 percent Asian American and 4 
percent American Indian. That is why low income students 
deserve your support.
    [The prepared statement of Mr. Garza follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. I'm familiar with the program, we have it in 
our largest city.
    Mr. Garza. Yes, you do.
    Mr. Regula. I have visited the program.
    So thank you for bringing the emphasis. It is a needed 
program. Thank you.
    Mr. Garza. Wonderful.
                              ----------                              

                                           Tuesday, April 23, 2002.

                        PUBLIC/PRIVATE VENTURES


                                WITNESS

GARY WALKER, PRESIDENT, PUBLIC/PRIVATE VENTURES
    Mr. Regula. Mr. Gary Walker, President, Public/Private 
Ventures.
    Mr. Walker. Thank you, Chairman Regula, for having me here 
today. My name is Gary Walker, I'm President of an organization 
called Public/Private Ventures, that was set up in the late 
1970s with a combination of Federal funding from what was then 
HEW and several philanthropies. The mission of the organization 
was to search the country for what looked like promising 
approaches to assisting very high risk children, doing the 
research on them to see if they worked, and then reporting back 
to the various Congressional committees and philanthropic 
funders as to whether or not they worked.
    The issue that I wanted to report to the Committee on today 
is one that does not make up a large part of your upcoming 
budget considerations, but one which does generate more 
discussion than perhaps the portion of the budget, and that is, 
faith-based programming. We became interested in faith-based 
programming in 1997, not because we are a faith-based 
organization, but because it was becoming clear over the years 
that the capacity of the not for profit and public sectors to 
deal with high risk children was simply not adequate, even if 
there was an enormous amount of additional funding by Congress. 
And that the number of faith institutions out there might be 
one way to go to deal with these problems at scale.
    We decided at that point to focus on three issues, older 
high risk youth who had been involved with juvenile justice, 
younger children who had parents in prison and needed 
mentoring, and youth who were already two to three years behind 
in literacy and needed help but could not get it within the 
cities that they lived.
    At this point, we're five years along in collecting data 
and looking at programs around the country. As you consider the 
budget, I simply wanted to lay out the things that we have 
learned to date. One, we're involved in 16 cities at this point 
in these three programs. The very first issue was to see if 
small and moderate size faith based organizations would really 
be interested in undertaking these kinds of challenges.
    We actually had to close down the major demonstration 
because of the clamor to get into it by these small and medium 
sized organizations. There are now 700 faith-based 
organizations, Christian, mosques, synagogues, on the west 
coast there are also Buddhist and Hindu temples involved in all 
three of these efforts. So one of the first things we've 
learned is that there is an interest out there in doing this.
    The second is, they generate a level of volunteers beyond 
anything we've seen in any of the other sectors. In 
Philadelphia itself, within six months, the faith-based 
community was able to generate 500 volunteers for mentoring for 
children who had parents in prison, which was equal to the 
largest mentoring program in all of Philadelphia that had been 
around for 70 years.
    Thirdly, what we're seeing so far at least in the research 
is that we are able to get results, or the faith community is 
getting results. The literacy program has gotten on average of 
1.9 grade level improvement in six months of students who have 
stayed within that program.
    Fourthly, and perhaps equally important as the good news, 
is the things that those who are most worried about in faith-
based programming, namely, do they actually have the capacity 
to do anything, and is there too much proselytizing, we have at 
this point seen that both those issues are very manageable. The 
capacity issue is an important one. Assistance is needed in 
order to carry out these programs. If Congress were merely to 
appropriate money, it would probably not be adequately used all 
around the country.
    Proselytizing is the more interesting issue. In looking it 
over, 600 faith-based organizations in 16 cities, we have not 
in 5 years documented one instance of proselytizing to any 
degree where either the youth, their parents or anyone was 
bothered. Evidence of faith was all around these programs, 
there's lots of praying and lots of symbols. But proselytizing 
was not a part of any of them. Actually, faith was the reason 
that these volunteers wanted to help these youth, not to get 
them to become members in their church.
    So I guess we've concluded, as ourselves a non-faith based 
organization, that if the country is really interested in 
dealing with larger numbers of the highest risk youth, this is 
a sector that probably is the greatest untapped resource out 
there right now. It needs careful working with, but it's 
something, as you look at the compassionate capital bill and 
the mentoring bill really deserves attention for its potential 
for the future.
    Thank you.
    [The prepared statement and biography of Mr. Walker 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Thank you.
                              ----------                              

                                           Tuesday, April 23, 2002.

      NATIONAL ASSOCIATION OF STATE STUDENT GRANT AND AID PROGRAMS


                                WITNESS

JIM GARCIA, PRESIDENT, NATIONAL ASSOCIATION OF STATE STUDENT GRANT AND 
    AID PROGRAMS
    Mr. Cunningham [assuming chair]. Thank you, Mr. Chairman.
    The Chairman has asked me to sit in for a while, he's got 
another meeting. I always look forward to being Chairman.
    Jim Garcia, President, National Association of State 
Student Grant and Aid Programs. Is Jim here? Mr. Garcia. And 
the clock, if you would be diligent in monitoring the clock, 
because we've got a lot of witnesses. You don't want to take 
their time, because they'd get mad at you.
    Mr. Garcia. Thank you, Mr. Chairman.
    My name is Jim Garcia, I'm the Chief of the Grant Services 
Division for the California Student Aid Commission. But I am 
here today in my role as President of the National Association 
of State Student Grant and Aid Programs, otherwise referred to 
as NASSGAP.
    We greatly appreciate the opportunity you are providing for 
us here today to address the future of a higher education grant 
program vitally important to States, the Leveraging Educational 
Assistance Partnership program, LEAP for short.
    Let me first briefly discuss the group I represent. NASSGAP 
is an organization comprised of individuals who operate State-
based student aid programs in the 50 States, including the 
District of Columbia and Puerto Rico. Our organization does not 
employ Washington based staff, relying instead on our members' 
continuous grass roots efforts to advocate for strong student 
aid programs. We are proud to represent over 3 million students 
and their families to whom our members provide over $4.68 
billion in State student aid.
    I'm here to talk about why LEAP is such a worthy program to 
fund at a time when our Nation's budget is already strained by 
the demands of a war-time economy. To help explain, I have a 
little story which I believe illustrates the value of LEAP. Not 
too long ago, NASSGAP invited a senior staff person from the 
Office of Management and Budget to speak at our spring 
conference in Washington. At the end of his formal comments, a 
member of the audience asked him how he would describe the 
ideal college financial aid program of the future.
    The OMB representative replied that the ideal program would 
be a need-based program, would provide a grant to students, 
would have a shared funding responsibility between States and 
the Federal Government, and would be integrated within the 
Title IV delivery system. The program would also be designed to 
serve the poorest students and would have no administrative 
funds.
    Members of the audience began to laugh, because the program 
that he had just described is the LEAP program. That year, OMB 
had recommended not funding the program.
    Mr. Chairman, that has been the general experience of 
NASSGAP members, that people don't fully understand the 
characteristics of the program. The more people learn about the 
LEAP program, the more they realize that it is an excellent 
resource to equalize college costs between the poor and the 
wealthy. Currently, this highly successful partnership between 
the States and the Federal Government is helping our Nation's 
neediest students achieve their dream of post-secondary 
education. These students not only qualify for and receive 
Federal Pell Grants, but they must demonstrate exceptional need 
to qualify for additional funds available through LEAP and also 
through its component, referred to as the Special LEAP program.
    Our purpose before your Committee today is to urge you to 
fund $100 million to support LEAP for fiscal year 2003, a 
funding level that is recommended by the National Student Aid 
Alliance. Because of the unique matching requirements of the 
program, that level of funding would result in an estimated 
$270 million in need based student grants. By Congressional 
design, every dollar for LEAP/SLEAP will go directly to 
students, since neither these funds nor the State matching 
funds may be used by States to cover administrative costs.
    In addition, and this is key, the States must meet 
maintenance of effort requirements which ensure that Federal 
funds would not supplant existing State grant funds. States 
have positively responded to the challenge and strongly support 
the program.
    States are struggling to deal with the economic 
ramifications of the past year. Trends in the Nation's economy 
which were further aggravated by the events of September 11th 
have heavily strained States' budgets, many of which are 
operating under a severe deficit. Many States are not in a 
position to absorb the loss of the Federal portion of LEAP, and 
some States will lose their entire need based grant programs.
    With the current economic status of our Nation, now is the 
best time for the Federal and State Governments to work 
together to improve college access and degree of achievement. 
No Child Left Behind is a wonderful national policy and LEAP is 
a vital partnership program which enables the most needy of 
these students to continue on and pursue their post-secondary 
education goals.
    Mr. Chairman, should the Federal budget be signed without 
funding for the LEAP program, an estimated 61,000 financially 
needy post-secondary students throughout the Nation will lose a 
major source of their financial aid. This would leave many, 
many children behind.
    Thank you, sir.
    [The prepared statement and biography of Mr. Garcia 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Cunningham. We believe also that if a child excels 
enough to be able to go to college or, not necessarily 
academic, but even a work program, that they ought to have that 
right. My wife is Special Assistant to the Secretary of 
Education and Management, but you're going through the 
Department of Education. Last year, the student direct program 
had $50 million in student loans they couldn't even account 
for, another $12 million that went to the wrong students, so 
they had to reissue.
    So I know that within the Department of Education, they're 
going through to make sure that those dollars go to the 
accurate finances. And I'm not going to smoke you, $100 million 
is a lot of money when you have a limited budget in the first 
place.
    Mr. Garcia. Yes, sir.
    Mr. Cunningham. And there's a lot of different loan 
programs out there. I know the Chairman will take a look at it, 
and we'll discuss it within the Committee.
    Mr. Garcia. Thank you very much.
    Mr. Cunningham. Thank you, Jim.
                              ----------                              

                                           Tuesday, April 23, 2002.

           NATIONAL EDUCATION KNOWLEDGE INDUSTRY ASSOCIATION


                                WITNESS

GINA BURKHARDT, BOARD CHAIRMAN, NATIONAL EDUCATION KNOWLEDGE INDUSTRY 
    ASSOCIATION
    Mr. Cunningham. Gina Burkhardt, Board Chairman, National 
Education Knowledge Industry Association. Gina?
    Ms. Burkhardt. Good afternoon, Mr. Cunningham.
    Mr. Cunningham. If you would keep your comments within the 
five minutes, we would appreciate it.
    Ms. Burkhardt. My name is Gina Burkhardt, and I am the 
Executive Director of NCREL, the regional education laboratory 
that specializes in educational technology. We serve the States 
of Ohio, Illinois, Indiana, Iowa, Wisconsin, Michigan and 
Minnesota.
    Today I'm speaking on behalf of the National Education 
Knowledge Industry Association. NEKIA's members are dedicated 
to expanding quality education research, development, 
dissemination and technical assistance. I'm here to talk with 
you about how we can together help schools successfully 
implement the No Child Left Behind legislation.
    I have three points to make, and I bet you can guess what 
the fist one is. I'm here to request increased funding for 
educational research development, dissemination and technical 
assistance. Education R&D is severely under-funded, and that 
needs to change, especially when you consider this is a 
realized investment of dollars. We know there is a direct link 
between scientifically based education research and development 
and its application to proven results for students. Certainly 
corporations get this. They invest up to 3 and a half percent 
of their annual budget in R&D. Just imagine the health 
profession without R&D behind drug and diagnostic testing.
    In fact, this Subcommittee recognized the importance of 
research and development when it decided some years ago to take 
the aggressive step of doubling the far larger support for the 
National Institutes of Health. Currently, R&D represents only 
.03 percent of the education budget. That's three one-
hundredths of 1 percent. That's a pathetic statement.
    We're asking the Subcommittee to apply the same approach 
for educational research and double its funding over the next 
three years. This is a solid and significant statement that 
will take far fewer dollars than the NIH initiative. 
Specifically, we propose that Congress increase funds for OERI 
R&D by $82 million this year, or almost 33 percent, and commit 
to similar increases over the next three years.
    We are pleased to see that the Administration has proposed 
increases in some programs that support research. But I am 
extremely disappointed that you've decided to level fund 
organizations like mine, the Regional Education Laboratories, 
and eliminated funding for those research based technical 
assistance programs.
    My second point, an investment in education research, 
development and technical assistance will get you a bang for 
your buck, the bang the American people are demanding and our 
students deserve. Reform that works is based on research taken 
out of the controlled experimental setting and put to practical 
use by all teachers for all our kids. When we do this 
systematically, we learn about and can make what works 
available to schools. Then we see all our children achieve to 
world class standards.
    My third point, for education research to make a difference 
for all kids, you have to make it available and usable by all 
teachers. Just imagine your fifth grade teacher reading an 
article in the American Education Research Journal and going 
into her classroom the next day with a new instructional 
practice. That's an unreasonable expectation for our teachers.
    It might help to give an example from the Chairman's State 
of Ohio of how R&D has worked. Manchester High School is in the 
southernmost portion of Adams County along the Ohio River. The 
school district is one in the rural Appalachian region 
designated as academic emergency and in danger of takeover by 
that State. My lab, NCREL, worked with six of the districts to 
improve the math and science learning of these students. We 
found that teaching in schools covered only three of the seven 
areas that were emphasized on the Ohio proficiency test. The 
data showed that although six districts exceeded State averages 
in three areas, they scored extremely poorly in the other four.
    Once we knew this, we stepped in with significant 
resources, provided 13 days of math and science professional 
development to 115 teachers during the summer and the following 
year. After one year, student achievement rose significantly in 
four of the six districts. After two years, all six districts 
were achieving, or had significantly increased their scores.
    Congress created the No Child Left Behind Act that holds 
schools to a higher standards of accountability than ever 
before. To put these stringent requirements in place without 
anteing up the funds that provide schools access to 
scientifically based R&D, and the technical assistance that's 
required to help them with the implementation is a real recipe 
for failure. The good news is that you currently have an 
infrastructure in place that can provide all schools, even the 
most troubled ones, with knowledge and procedures.
    My organization and the other federally funded research 
development and technical organizations are ready to serve. We 
believe that without a significant investment in R&D, an 
increase of 33 percent each year over the next three years, 
Congress will be back to ask, what went wrong, instead of 
applauding your wisdom and foresight. Thank you.
    [The prepared statement and biography of Ms. Burkhardt 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Cunningham. Thank you. And I'd say, Ms. Burkhardt, I 
was a teacher and a coach at Hinsdale, Illinois, outside 
Chicago.
    Ms. Burkhardt. And your regional education laboratory is 
West End. Thank you.
                              ----------                              

                                           Tuesday, April 23, 2002.

         COALITION OF HIGHER EDUCATION ASSISTANCE ORGANIZATIONS


                                WITNESS

JEANNE DOTSON, PRESIDENT, COALITION OF HIGHER EDUCATION ASSISTANCE 
    ORGANIZATIONS
    Mr. Cunningham. Jeanne Dotson, President, Coalition of 
Higher Education Assistance Educations and Director of Student 
Loan Account Repayment, Concordia College. Where is Concordia?
    Ms. Dotson. Moorehead, Minnesota.
    Mr. Cunningham. It gets cold up there.
    Ms. Dotson. Good afternoon, Mr. Chairman, and thank you for 
inviting me to testify today on behalf of the Coalition of 
Higher Education Assistance Organizations regarding the fiscal 
year 2003 appropriations for the Perkins Loan program, a 
student aid program that has made a critical difference in the 
lives of so many of our college students.
    I am Jeanne Dotson, and I currently work as the Director of 
Student Loan Accounts Repayment at Concordia College in 
Moorehead, Minnesota. I've served in this capacity for 28 
years. I also serve as the President of COHEAO, a unique 
coalition composed of over 350 colleges and universities and 
commercial organizations with a shared interest in this 40 year 
old Perkins loan program. A student who attended Concordia for 
four years was loaned the maximum amount allowed under the 
Federal Perkins loan program. He happened to be a Native 
American student. And he did graduate with the qualifications 
to teach.
    He told me that his dream was to go back and teach at his 
high school, which is operated by the Bureau of Indian Affairs. 
After graduation, he was able to secure employment at his 
former high school. And he was very diligent in filing his 
forms in a timely manner. And this past spring, I'm happy to 
tell you that he submitted his final form allowing him to 
cancel his entire Perkins loan.
    He wrote me a letter to thank me for helping him attain his 
dream and also to tell me how important it was that he canceled 
his loan. Because as we would know, his salary was very low, 
and he needed every penny just to pay his rent and just to 
live. As a COHEAO member, Concordia College knows that the 
Perkins loan program is critical to providing low income 
students with access to higher education. Perkins loans provide 
the lowest interest rate of all the Federal loan programs at a 
5 percent fixed rate. In addition, borrowers find that Perkins 
loans provide reasonable repayment terms, including a nine 
month grace period, flexible deferment options, and 
furthermore, Perkins loans are recycled. The schools 
redistribute the funds to new borrowers that have been 
collected from borrowers in repayment.
    Significantly, the Perkins loan program also promotes 
community service by offering loan forgiveness options for 
students choosing work that benefits the community, such as 
teaching and law enforcement. Of critical importance to the 
success of the loan program is the risk sharing. This sits at 
the core of the program structure. Participating schools are 
required to match their allocated FCC or Federal Capital 
Contribution by 25 percent, which is a substantial amount of 
money for schools in this era of tightening State budgets and 
dwindling non-Federal resources. In addition to the Federal 
school partnership that is forged through this risk sharing, 
students benefit because Perkins schools are given latitude in 
which to operate this program on their respective campuses.
    Since the inception of the program, Concordia College has 
provided approximately $32 million in Perkins loans to 17,000 
students. Last year, approximately 645 Concordia College 
students received $1.3 million of which only $4,000 came from 
FCC. Last year our Perkins loan borrowers who were eligible 
received the benefit of over $116,000 in loan cancellations.
    On behalf of all of the COHEAO members who are also 
committed to this critical program, COHEAO is urging Congress 
to increase funding in fiscal year 2003 for the FCC for Perkins 
loans from $100 million to $140 million. And also to increase 
from $67.5 million to $100 million the Federal Perkins loan 
cancellation fund.
    While the Perkins loan program has proven its worth, it has 
been woefully under-funded. Over the last decade, funding for 
new loan capital has decreased by over 75 percent and the 
current FCC is now worth just 22 percent of its 1980 value in 
constant dollars. In addition, the loan cancellation fund has 
not been fully funded, leaving schools without the benefit of 
full Federal reimbursement.
    COHEAO works with other groups such as the Student Aid 
Alliance to help ensure that all higher education funding is 
sufficient to meet the needs of our Nation's students. Under 
President Bush's fiscal year 2003 budget, most of the student 
aid programs were level funded at fiscal year 2002 levels. 
Campus based aid programs must grow if Congress and the 
Administration intend to keep their promise to put students 
first and ensure all students have access to higher education.
    Thank you again for providing me with this opportunity. I 
would be happy to answer any questions you might have.
    [The prepared statement and biography of Ms. Dotson 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Cunningham. Ms. Dotson, one of the things that keys me 
is when people say that something is level funded; quite often 
we increase each year the amount of education dollars, Pell 
Grants, Eisenhower Grants for teachers and so on. So a lot of 
times when something is level funded it's because it had been 
increased. We have a lot, if you see the people in here, we 
have a lot of different areas where people need additional 
dollars.
    We are doubling education dollars over the next five years, 
just like we kept our promise in medical research. And we're 
going to do that. I don't know how we meet the needs of all the 
programs. But I know I support Perkins and I support Pell and 
Eisenhower grants and those things as well. When it breaks out, 
I don't know how many dollars will be given to each thing, but 
I know they're good programs.
    Ms. Dotson. Thank you very much, and thank you for inviting 
me here.
                              ----------                              

                                           Tuesday, April 23, 2002.

                 NATIONAL NUTRITIONAL FOODS ASSOCIATION


                                WITNESS

R. MARK STOWE, PRESIDENT, NATIONAL NUTRITIONAL FOODS ASSOCIATION
    Mr. Cunningham. Next we have R. Mark Stowe, President, 
National Nutritional Foods Association.
    Mr. Stowe. Mr. Chairman and members of the Subcommittee, 
thanks for the opportunity of being here today, it is my 
pleasure. My name is Mark Stowe, and I am President of the 
National Nutritional Foods Association, NNFA. We're a trade 
association representing some 3,000 natural foods stores and 
1,000 manufacturers and distributors and suppliers of natural 
health products, including dietary supplements.
    NNFA supports increased funding levels for both the 
National Institutes of Health, the Office of Dietary 
Supplements and the National Center for Complementary and 
Alternative Medicine in the 2003 fiscal year. National interest 
and access to and reliable information on safe, effective 
vitamins, minerals, herbs and other dietary supplements has 
grown steadily since the Dietary Supplement Health and 
Education Act unanimously passed the House and Senate in 1994. 
Americans are obviously looking toward safe, natural 
alternatives to maintain good health by supplementing 
inadequate diets with vitamins and minerals.
    It is estimated that nearly three-quarters of the U.S. 
population are taking dietary supplements, spending by some 
estimates as much as $17 billion a year. Dietary supplements 
are only beginning to get the research and attention that they 
deserve. Each year, major medical journals publish studies that 
support the use of supplements for the treatment of specific 
conditions, prevention of disease, offer general nutritional 
enhancement. Studies sponsored by the National Institutes of 
Health are also being conducted and published. I have included 
several samples of these in my written testimony and would be 
happy to arrange to have them provided to the Subcommittee if 
they are interested in receiving them.
    NNFA believes these studies are only the tip of the iceberg 
of potential benefits such as reduced health care costs, that 
additional research into dietary supplements can bring to the 
American public. It is critical that Government sponsored 
research levels continue to expand so that more is learned 
about these natural pathways to good health and wellness.
    This is especially true in light of reports from the 
National Center for Health Statistics, showing that only 9 
percent of American adults consume enough healthy foods to 
reach even their minimum recommended daily intake. Supporting 
additional research can reduce health care costs by billions. 
For instance, a study in the Western Journal of Medicine 
reported that increased intakes of vitamin E, folic acid and 
zinc alone could save at least $20 billion in hospital costs by 
reducing the instance of heart disease, birth defects and 
premature death.
    The Office of Dietary Supplements, ODS, was established at 
the National Institutes of Health in 1995 under DSHEA to 
stimulate, coordinate and disseminate the results of research 
on the benefits and safety of dietary supplements and the 
treatment and prevention of chronic diseases. To meet its 
strategic goals, ODS has held conferences on dietary supplement 
use in children, metals in medicine, and identifying and 
qualifying botanicals, among others.
    In fiscal year 2002, Congress approved $17 million for ODS. 
This was a $7 million increase over the previous year's funding 
level, and a $16 million increase over its first appropriation 
in 1995. The President's budget request for the ODS in 2003 is 
$18.5 million. NNFA members not only support this funding 
level, but would urge the Subcommittee to increase that funding 
level to at least $25 million.
    In 1992, also, Congress directed NIH to establish the 
Office of Alternative Medicine, with the express task of 
assuring objective, rigorous review of alternative therapies to 
provide consumers with safe and reliable information. Funding 
for this office, now known as the National Center for 
Complementary and Alternative Medicine, or NCCAM, is an 
infinitesimal percentage of the overall NIH budget. 
Furthermore, the Center's budget is insignificant in comparison 
to the dramatic growth of the American public's interest in and 
use of complementary and alternative therapies, including 
supplementation.
    Keeping with its strategic plan in 2003, NCCAM will expand 
investigations into some of the most complex and sought after 
applications of alternative therapies to human health. This 
includes such areas as neurosciences, cancer, HIV-AIDS, 
international health, and women's health at mid-life. We're 
pleased to see that the President asked for $113.8 million for 
NCCAM in 2003 to help meet its goals. This represents an 
increase of $9.2 million in fiscal year 2002.
    Science and experience ably demonstrate a wealth of 
benefits attendant to the regular use of dietary supplements. 
They allow millions of Americans to take charge of their own 
good health by safely and effectively using them in preventing 
and treating a host of illnesses and other conditions. The body 
of research supporting the use of products like this is very 
impressive, but sorely requires Government support to ensure 
its expansion. Members of the National Nutritional Foods 
Association urge the Subcommittee to fulfill the Congressional 
mandate expressed in DSHEA by investing in the scientific 
research which holds the key to our knowledge of the remarkable 
importance and value of dietary supplements.
    Mr. Chairman, thank you very much.
    [The prepared statement and biography of Mr. Stowe follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Cunningham. As I mentioned, we've doubled the medical 
research, a lot of that in NIH. And I know a lot of it, I'm a 
cancer survivor, so I understand lycopene and cooked tomatoes 
and cook books and so on.
    One of the concerns I have, I visited some of the lunch 
rooms of our children. When I interview the children, they say, 
well, these healthy foods don't taste good, so what they do is 
go down and get a double egg, double cheese, double fry burger. 
I think that's one of the things we have to do, is come up with 
some kind of nutritional basis for our students today that 
they'll eat.
    Then secondly, these supplements are very, very important. 
Just look at diabetes, look at cancer, look at the other things 
that you said. With the genome program, and the research that's 
going on, I think it's going to be the way of the future.
    Mr. Stowe. Absolutely. Particularly if we're concerned 
about controlling health care costs. This is a good way to be 
able to do it.
    Mr. Cunningham. That's right.
    Mr. Stowe. Thank you, Mr. Chairman.
                              ----------                              

                                           Tuesday, April 23, 2002.

                 COLLEGE ON PROBLEMS OF DRUG DEPENDENCE


                                WITNESS

WARREN BICKEL, PUBLIC POLICY OFFICER, COLLEGE ON PROBLEMS OF DRUG 
    DEPENDENCE, AND PROFESSOR, PSYCHIATRY AND PSYCHOLOGY, INTERIM-CHAIR 
    OF THE DEPARTMENT OF PSYCHIATRY, UNIVERSITY OF VERMONT
    Mr. Cunningham. Dr. Warren Bickel, Policy Officer, College 
on Problems of Drug Dependence. Mine is coffee.
    Dr. Bickel. Good afternoon, Mr. Chairman.
    My name is Warren Bickel, and I am the Public Policy 
Officer of the College on Problems of Drug Dependence, 
otherwise known as CPDD. The CPDD has been in existence since 
1929, and is the longest standing group in the United States 
addressing problems of drug dependence and abuse. Presently, 
CPDD functions as an independent scientific organization 
representing a broad range of scientific disciplines concerned 
with researching and understanding the causes and consequences 
of drug abuse and developing effective prevention and treatment 
interventions.
    Mr. Chairman, the College on Problems of Drug Dependence 
respectfully seeks yours and your Subcommittee's strong support 
for the President's fiscal year 2003 budget request for the 
National Institutes of Health totaling $27.3 billion. This 
level represents a $3.7 billion increase over current year 
levels, which is the increase necessary to complete the 
national campaign to double the NIH budget by fiscal year 2003. 
Within that overall increase, we are specifically requesting a 
19.8 percent increase for the National Institute on Drug Abuse, 
for a total of $1,063,702,000. This figure would keep NIDA on 
track to double its budget, consistent with the doubling of the 
overall NIH budget.
    NIDA is the Federal Government's lead agency for research 
on all drugs of abuse, both legal and illegal, with the 
exception of a primary focus on alcohol. NIDA's mission of 
bringing the power of science to bear on drug abuse and 
addiction is accomplished through a dedicated cadre of 
scientists who are working to understand and find solutions to 
the Nation's drug abuse problem.
    Full funding of NIDA would yield scientific advances in 
knowledge that will have impact on everyone and ease the 
financial health and social burden of drug abuse. A 19.8 
percent increase would allow NIDA first to continue to expand 
the clinical trials network, or CTN, to become a truly national 
research and dissemination infrastructure. The CTN is helping 
to dramatically improve the quality of drug addiction treatment 
throughout this country, enabling rapid concurrent testing of a 
wide range of promising science based treatments across 
community environments.
    Second, to move ahead with NIDA's national prevention 
research initiative, NIDA will call upon a broad range of 
disciplines to inform the development of innovative and proved 
prevention interventions. NIDA will establish community multi-
site prevention trials similar to the CTNs to enhance the 
Nation's prevention efforts.
    Third, to continue to have a pipeline of safe and effective 
medication through NIDA's medication development program. 
NIDA's role in testing medications for substance abuse is 
critical, because few pharmaceutical companies are willing to 
develop medications for such indications.
    Fourth, to increase NIDA's research portfolio on stress as 
well as its research on post-traumatic stress disorder and 
substance abuse. Stress plays a major role in the initiation of 
drug use, its continued use and relapse to addiction. This 
research area is even more crucial given the increase in stress 
that Americans have experienced in the aftermath of September 
11th.
    Fifth, to continue NIDA's support of a comprehensive 
research portfolio in nicotine addiction. Tobacco accounts for 
20 percent of all U.S. deaths. To address this public health 
problem, NIDA has formed a partnership with the National Cancer 
Institute and the Robert Wood Johnson Foundation. Supporting 
research such as we have outlined here will further improve our 
ability to prevent and treat the problems of drug abuse and 
will pay handsome dividends both financially and for the morale 
of our country. Thank you.
    [The prepared statement and biography of Dr. Bickel 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Cunningham. Did I hear you right, Dr. Bickel, tobacco 
accounts for 20 percent of all U.S. deaths?
    Dr. Bickel. That's my understanding, sir.
    Mr. Cunningham. I know it does a lot, but that seems awful 
high when you look at all the other. I'd like to see 
documentation on that.
    Dr. Bickel. Sure, we can provide that for you.
    Mr. Cunningham. I empathize with the problem. My own son, 
who is adopted, was on drug dependence. Hopefully, he's doing 
well now.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                           Tuesday, April 23, 2002.

               NATIONAL ASSOCIATION OF CHAIN DRUG STORES


                                WITNESS

CARLOS ORTIZ, VICE PRESIDENT, GOVERNMENT AFFAIRS, CVS CORPORATION
    Mr. Cunningham. Finally, we got an Irish guy to testify. 
Carlos Ortiz----
    [Laughter.]
    Mr. Cunningham. Vice President of Government Affairs for 
CVS Corporation, Woonsocket, Rhode Island. Thank you, Mr. 
Ortiz.
    Mr. Ortiz. Good afternoon, Mr. Cunningham. As you said, my 
name is Carlos Ortiz, and I'm Vice President of Government 
Affairs for CVS Pharmacy. I'm here to testify on behalf of the 
National Association of Chain Drug Stores and CVS Pharmacy. CVS 
operates approximately 4,000 pharmacies in 31 States.
    I want to also express my thanks to Chairman Regula for 
this opportunity to testify. I'm especially thankful that I'm 
going before Elmo, because I certainly don't want to go after 
him, he's going to be a tough act to follow.
    I'm here specifically to talk about two issues. I am a 
pharmacist, and I'm very proud of my profession. Community 
pharmacists operate in every State and every community in the 
United States. We're open, the most successful member of 
America's health care team, available 7 days a week, 365 days a 
year often 24 hours a day without an appointment.
    However, in delivering those pharmacy services, we're 
facing two major issues. The first is the explosion in 
prescriptions and prescription services that has occurred in 
the United States because of the aging of the American 
population, mainly. And that's that in the last 10 years, we've 
seen an increase from 2 billion outpatient prescriptions to 3 
billion in 2001. That's a 50 percent increase in the last 10 
years. It's expected that that increase is going to go to 4 
billion by 2004, another huge increase.
    At the same time that that's happening, we have a 
significant shortage of pharmacists in the United States. A 
study that was done by HRSA at the request of Congress and was 
issued in December of 2000 showed at that time that there were 
7,000 unfilled pharmacist positions in the United States, an 
increase from 2,800 in just 1998. It's estimated today that 11 
to 29 percent of hospital pharmacist positions are unfilled, 
and in community chain pharmacies, there are 6,000 unfilled 
pharmacist positions.
    With that in mind, to try and combat the shortage, NACDS 
and the community pharmacy has endorsed House Bill 2173. This 
is a bipartisan bill entitled the Pharmacists Education Aid 
Act. In fact, two of the members of your Subcommittee are co-
sponsors on that bill, Representatives Kennedy and Peterson are 
both on that piece of legislation.
    This legislation would do four things. One, it would 
provide student loan programs for the education of pharmacists. 
It would provide funding for pharmacy school modernization. It 
would provide incentives to place pharmacists in rural and 
under-served areas. And finally, it would provide faculty loan 
repayment to help with the shortage in pharmacy school 
faculties. We have urged the House Energy and Commerce 
Committee to pass this important legislation, and I would also 
urge the Labor HHS Subcommittee to co-sponsor this important 
piece of legislation.
    However, because it is going to be some time before this 
legislation can be enacted, we would urge you to increase the 
funding, continue and increase the funding for the current 
programs that are available for student loans for pharmacists, 
one, the scholarships for disadvantaged students, loans for 
disadvantaged students, health profession student loans, the 
faculty loan repayment program, and health career opportunity 
grants.
    I would also urge the Committee to look at the immigration 
status of pharmacists and urge you to move pharmacy to a 
schedule A group one shortage occupation. We think that would 
be important in addressing the shortage of pharmacists.
    The second issue I would like to urge the Committee to take 
some action on is the prescription, Medicaid prescription drug 
co-payments. Many of the States are facing fiscal crisis. 
Toward that end, they have implemented or are increasing co-
payments for Medicaid prescriptions. Those co-payments can 
range from 50 cents to $3 and are a way of both controlling the 
costs and encouraging prudent purchasing on the part of 
Medicaid recipients of prescription drugs.
    However, there is a Federal regulation, not statute, but a 
regulation, that says that a pharmacy cannot deny a Medicaid 
recipient service because of their ability to pay a co-payment. 
Additionally, this regulation prohibits the States from making 
pharmacists whole or reimbursing pharmacists for any refusal by 
a Medicaid beneficiary to pay their co-payment, or inability of 
the Medicaid beneficiary to pay their co-payment. So basically 
what the implementation of co-payments for Medicaid 
prescriptions results in is a reduction in reimbursement to 
pharmacies in the community.
    In the State of New York, we have a situation where 35 
percent of the people who have Medicaid co-payments on 
prescriptions are refusing to honor or are unable to honor 
their co-pay obligation. What we would like you to do is urge 
CMS to change this regulation prohibiting the States from 
making pharmacists, or reimbursing pharmacists. It would not 
require the States to reimburse pharmacies. It would simply 
allow them to. We would then lobby or take a petition to the 
States for reimbursement. If the States were economically 
unable to reimburse pharmacists or providers for the co-
payment, then they would not have to. In and of itself, our 
proposal would have no budgetary implications.
    Thank you very much for this opportunity to testify.
    [The prepared statement and biography of Mr. Ortiz follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Cunningham. Just a quick question. What's the main 
reason you have such a low number of pharmacists? Is it pay? Is 
it lawsuits? Is it schools?
    Mr. Ortiz. Certainly it's not the pay. Fresh out of 
pharmacy school, at CVS they'll probably be earning $80,000 to 
$85,000 a year. So it's not pay.
    What's happened is that pharmacy has gone from a five year 
entry level degree to a six year entry level degree. That's the 
entry level for pharmacy. That's happening at this time. So 
many schools have missed the class. There was one year that 
every school, as they converted from a five year to a six year 
program, missed the class.
    There's also been a significant increase in the number of 
opportunities for pharmacists because of the explosion in the 
number of outpatient prescriptions that has occurred. So those 
are the two main reasons.
    Mr. Cunningham. There are members on this Committee, if you 
would bad mouth insurance companies, the only thing left is 
Government health care. If you bad mouth biotech communities, 
the only thing left for prescription drugs is Government 
controlled prescription drugs, which I do not believe in either 
one of the two.
    But we do plan on bringing up a prescription drug program 
prior to the Memorial recess, which I think you owe you 
livelihood to prescription drugs, and we owe our health to them 
as well.
    Mr. Ortiz. Absolutely.
    Mr. Cunningham. But we will do it, we'll do it efficiently 
and we'll do it so that it makes it affordable for more people.
    I didn't listen to President Clinton very much, but he did 
say one thing in one of his speeches that struck me. First of 
all, he told a story about a young girl that told her mother 
that she was sorry for being sick, because she knew her mother 
couldn't afford the doctor's visit nor the prescription drugs. 
No child should have to apologize for being sick.
    Thank you.
    Mr. Ortiz. I agree. I can tell you, as a pharmacist, I hear 
stories every day of people who are making tough decisions 
between whether they were going to buy food or buy 
prescriptions or whether they were going to cut their 
prescriptions in half or how are they going to pay for their 
prescriptions. Representative Cunningham, I agree with you 
totally on that. Thank you.
    Mr. Cunningham. Thank you.
    Mr. Regula [resuming chair]. A question. You mentioned 
about the fact that the reimbursement doesn't always cover the 
total costs. But isn't that also true of hospital bills, 
physicians' bills, where the reimbursement for Medicare and I 
assume Medicaid does not equal what the charge is? In most 
cases the hospital and/or the physician accepts whatever 
Medicare pays.
    Mr. Ortiz. You're absolutely right. I don't know that----
    Mr. Regula. Why should drugs be different, is what I'm 
saying?
    Mr. Ortiz. Well, I guess there's two things. One is that 
often, well, and I can't speak for hospitals or other 
physicians' services. But we have a product that we have to buy 
and pay for. It's not just our time that's involved, if in fact 
the reimbursement from Medicaid or Medicare doesn't equal the 
product cost of what we're actually paying money to buy.
    It's more than our time. We have to be able to buy that 
product in order to be able to dispense that product. And if 
the coverage of the prescription repayment doesn't cover the 
product cost, we can't replenish that product.
    Mr. Regula. Well, probably if you take out your profit, you 
get the cost paid. Medicare and Medicaid must have some yard 
stick that they use to determine what they're willing to pay.
    Mr. Ortiz. And I can tell you that we most often, I'm not 
saying that we lose money on Medicaid, that's not what I'm 
saying. I'm saying that we operate on a pretty razor thin net 
margin. The average net margin for our industry is 2 percent 
net margin. And it doesn't take a lot of prescriptions where 
you lose money on to throw that 2 percent over into the 
negative.
    Mr. Regula. Well, I was just curious as to how Medicare and 
Medicaid arrived at the amount they're going to pay you. 
They're reimbursed, the same thing is true of physicians' fees. 
I'm not sure how they arrive at saying, we'll only pay this 
much money for that service.
    Mr. Ortiz. And we're not asking for any increase in 
reimbursement. What we're saying is, on the co-payment amount, 
which is currently, if somebody refuses to pay, we have to 
deduct that from the reimbursement. If it's a $3 reimbursement 
and you're getting a $4 dispensing fee, it means that you're 
losing money on that particular prescription.
    Mr. Regula. Do I understand you to say that you're mandated 
by law to deliver the service even though you may not get paid?
    Mr. Ortiz. Even though they may not pay the co-payment. I 
want to stress, there is still, there is payment above and 
beyond the co-payment that the Government, State Medicaid 
program reimburses us. But if the end pay is a $3 co-payment, 
that co-payment and if somebody says, I can't afford to pay 
that co-payment, we have to provide the service. We cannot deny 
service to a Medicaid recipient simply because they cannot pay.
    And the State right now under CMS regulations is prohibited 
from reimbursing us for that $3 co-payment that they refuse to 
pay.
    Mr. Regula. So if somebody walks in that does not have 
Medicaid nor Medicare or any type of insurance, can you refuse 
to fill a prescription for them?
    Mr. Ortiz. We can refuse. I can tell you that at CVS, if 
someone comes in and says they need a prescription and they 
can't afford to pay, we're going to work with them and see if 
there's some way we can make sure that they don't go without.
    Mr. Regula. Would that be true of a lot of seniors? They're 
not being reimbursed under Medicare.
    Mr. Ortiz. Of all our business, uninsured senior citizens 
represent about 4 percent of our total business.
    Mr. Regula. In other words, they're insured by other than 
Medicare?
    Mr. Ortiz. Yes, retired General Motors, retirees program or 
some other program like that.
    Mr. Regula. I'm surprised it's such a small percentage.
    Mr. Ortiz. It's down to 4 percent of our business now. It 
might be higher in some other areas of the country, where there 
isn't a--we operate mainly in the northeast and the midwest 
where you have a lot of unions that cover their retirees as 
part of their pension package.
    Mr. Regula. I know in the case of LTV in Cleveland, their 
retirees are not covered any longer for their medical. So they 
fit in the category probably of having to pay themselves.
    Mr. Ortiz. That's happening, in some of the companies that 
had lucrative pension plans, when retirees coverages are 
dropping.
    Mr. Regula. Gone.
    Mr. Ortiz. Yes.
    Mr. Regula. Okay. Thank you for coming. I think this covers 
witnesses. We're going to go into recess while we set up here 
for Elmo. The only instruction I have is no cameras while they 
set up. While Elmo is testifying, no flash. So turn it off, 
fellows.
    Mr. Regula. Mr. Cunningham, you're going to introduce 
Elmo's friend.
                              ----------                              

                                           Tuesday, April 23, 2002.

             NAMM: INTERNATIONAL MUSIC PRODUCTS ASSOCIATION


                                WITNESS

JOE LAMOND, PRESIDENT AND CEO, NAMM: THE INTERNATIONAL MUSIC PRODUCTS 
    ASSOCIATION AND ELMO MONSTER, SESAME STREET MUPPET
    Mr. Regula. Okay, Mr. Cunningham, I understand you'll 
introduce our next witness.
    Mr. Cunningham. Well, I'm going to introduce the friend of 
Elmo. Mr. Joe Lamond is President and Chief Executive Officer 
of International Music Products Association. What do they do? 
They basically create more music makers worldwide. Mr. Lamond 
oversaw a number of innovative programs including Sesame Street 
Music Works, a joint initiative with Sesame Workshop that 
focuses on music among children.
    The Einstein Advocacy kit, which is an extraordinary 
information package that brings music and brain research 
together to show how music does help with children. The 
expansion of the Weekend Warrior program which is designed to 
bring baby boomers--I don't know what effectiveness that has, 
Joe--but back to active music making. He's got a partnership 
with the Smithsonian Institute, lasting partnerships with 
Disney, Miramax, Proctor and Gamble, Texaco, VH1 Save The 
Music, Grammy Foundation, Carnation as well as a host of 
others.
    And they're here to bring the message that music plays a 
role in intelligence and wellness, not only of children but 
everyone else. I know all of us have our own personal stories. 
I listened to music before every mission when I went into 
combat in Vietnam, just to learn how to focus.
    Mr. Monster. Wow. [Laughter.]
    Mr. Cunningham. Music has brought tears and laughter to all 
of us. Joe and Elmo, we welcome you to the Committee. You can 
have more than the traditional five minutes if the Chairman 
will let you.
    Mr. Monster. Well, thank you.
    Mr. Cunningham. I yield back, Mr. Chairman.
    Mr. Lamond. Thank you, Mr. Cunningham. Thank you, Mr. 
Chairman and members of the Subcommittee.
    I am Joe Lamond from NAMM: The International Music Products 
Association. I'd like to first introduce my co-witness, Elmo 
Monster.
    Mr. Monster. Elmo's testifying on Capitol Hill. Elmo's so 
nervous. What does Elmo do?
    Mr. Lamond. Why don't you start by introducing yourself, 
Elmo?
    Mr. Monster. Okay. Elmo is Elmo. Thank you.
    Mr. Lamond. Very good job, Elmo.
    Mr. Monster. Elmo's been practicing all morning. And all 
day, too.
    Mr. Lamond. Elmo and I met through a music education 
outreach program with Sesame Workshop.
    Mr. Monster. That's right. Mr. Joe taught Elmo lots of 
stuff about music.
    Mr. Lamond. Why don't you show us some of the things you've 
learned?
    Mr. Monster. Elmo learned all kinds of things about music, 
like anyone can make music. The whole world is full of music. 
And best of all, Elmo learned how to dance to music like this.
    [Demonstrating.]
    Mr. Monster. This is Elmo's favorite. [Laughter.]
    Mr. Lamond. We also learned that Elmo looks pretty darned 
good in Armani, don't you think?
    Mr. Monster. Yes. Elmo got this from Barney's.
    Mr. Lamond. Thank you, Elmo.
    NAMM is an international, not for profit organization made 
up of nearly 8,000 manufacturers and retailers of musical 
instruments and music products. NAMM members range from small, 
family owned music stores that you can find in every town to 
large instrument manufacturing companies and publishing houses. 
These companies make and sell the instruments that allow people 
to make music.
    And just like any other in the business community, NAMM 
members understand that a quality education is the primary 
means of preparing our young people in the business world and 
success in life. Like parents everywhere, we are committed to 
making sure no child is left behind.
    Mr. Monster. And no monsters.
    Mr. Lamond. And no monsters left behind either, Elmo.
    Mr. Monster. Good.
    Mr. Lamond. We have the best education system in the world, 
but we all know that there are some serious challenges. Our 
part of the solution is based on what we know best and were our 
passion lies, which is in music. In our own lives and in the 
experiences of the children we reach every day, NAMM members 
have seen first hand the power of music to touch the soul and 
lift a struggling child to great heights. There is a growing 
body of scientific research that attests to this power. Study 
after study is demonstrating an unmistakable connection between 
music education and success in school.
    Mr. Monster. Yes, music helped Elmo learn the alphabet. If 
it wasn't for the ABC song, Elmo would be lost, people. Hello.
    Mr. Lamond. Research indicates that music education 
dramatically enhances a child's ability to solve complex math 
and science problems. Scientists believe that there is a link 
to literacy skills as well. Students who participate in music 
programs score significantly higher on standardized tests, 
while at the same time developing self-discipline, 
communication and teamwork skills. They are also less likely to 
be involved in gangs, drugs or alcohol abuse, and have better 
attendance in school.
    Mr. Monster. Elmo is in the music program, and Elmo isn't 
in a gang. No. Elmo's not in a gang.
    Mr. Lamond. Let's keep it that way.
    In addition to controlled scientific settings, this effect 
is replicated in classrooms all over the country. For example, 
in 1999, Public School 96 in East Harlem was one of the lowest 
performing schools in the State of New York. Only 13 percent of 
the students were performing at grade level in reading or math. 
Eighteen months after the music program was restored, 71 
percent of the students were performing at grade level. 
Attendance is sky high, and the school is now a model 
turnaround school for the city of New York. The principal, 
Victor Lopez, attributes this astounding success to the 
restoration of the music programs through the efforts of one of 
our partners, VH1's Save The Music Foundation.
    We were able to save the music in PS 96. But what about the 
other schools? We are very concerned about the loss of school 
music programs throughout the country. Only 25 percent of all 
eighth graders have the opportunity to participate in a music 
class, according to the most recent Department of Ed studies. 
When we were in school, that figure was close to 100 percent.
    We must make certain that all children, especially those at 
risk, will be given opportunities to reap the benefit of music 
education. For these children, if music education is not 
offered in school, they will likely never receive it and will 
be at a disadvantage throughout their academic lives.
    Mr. Monster. Boy, that would be terrible, Mr. Joe.
    Mr. Lamond. Yes.
    Mr. Monster. Elmo doesn't know what he'd do without music.
    Mr. Lamond. Well, NAMM and its partners are working on a 
two-pronged approach to give every child a chance to make 
music.
    Mr. Monster. Oh, good.
    Mr. Lamond. First, since education is essentially a local 
issue, we need to help inform local decision making. We intend 
to do this with more science based research on the link between 
music education and learning, so that parents, teachers and 
local officials can make the best case for funding school music 
programs. We are seeking $1 million for the International 
Foundation for Music Research for the purpose of funding this 
research.
    The second part seeks to provide immediate help to 
children. We are seeking $1 million to support VH1 Save The 
Music Foundation's efforts to provide instruments to schools 
where there is no access to music learning. In the education 
arena, I can think of no other initiative that can do so much 
for so many children with so small an investment.
    So how will you measure the success of this investment? You 
will know the answer when you look into the eyes of one of your 
littlest constituents playing their violin with pure joy, 
devotion and a sense of accomplishment.
    Mr. Monster. Elmo plays the violin.
    Mr. Lamond. And you will know it when you see their parents 
swell with pride during their first orchestra concert.
    Mr. Monster. Elmo's parents swell with pride when they hear 
Elmo sing.
    Mr. Lamond. And mark my words, you will see it in the 
soaring test results and attendance records of the schools to 
whom you have given the simple gift of music.
    Mr. Monster. Elmo scored a 1550 on his SATs. All because of 
music, yeah! Oh, okay, Elmo made up that one. [Laughter.]
    Elmo just wants you nice Congress people to please, please, 
please, oh, please give the kids the gift of music, please?
    Mr. Lamond. I hope the Subcommittee will support our modest 
request. Thank you very, very much for your time and 
consideration.
    Mr. Monster. Yes, thanks, House Labor Subcommittee. Elmo 
loves you. Thank you. Thank you.
    [The prepared statement and biography of Mr. Lamond 
follow:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Regula. Elmo, why is music so important that you came 
all the way here from Sesame Street to talk to our Committee 
today?
    Mr. Monster. Music is a big part of Elmo's life. Elmo uses 
music all the time to sing and dance and learn and even to 
remember stuff. Like the time Elmo had to remember what to buy 
at the store. Elmo remembers it with music like this, ``Elmo 
needs a little Swiss cheese, needs some frozen broccoli, and he 
needs a jar of pickles now.'' See, that's why music is so 
important to Elmo. [Laughter.]
    Elmo's not making a mockery of this place, no. It's very 
important.
    Mr. Cunningham. We've got a hostile witness. [Laughter.]
    Mr. Monster. No, Elmo's not hostile, he's just a monster. 
[Laughter.]
    Mr. Regula. Elmo, what is the best part about making and 
listening to music?
    Mr. Monster. Well, music really helps Elmo express how Elmo 
feels. Like if Elmo's happy, Elmo plays hip-hop. If Elmo's sad, 
Elmo plays the blues. And if Elmo's feeling extra saucy, Elmo 
likes that word, saucy, Elmo plays show tunes like this: 
``Elmo's pretty, oh, so pretty, that the city gave Elmo this 
key, House Committee, can't you see how Elmo be. La, la. la, 
la.'' That was terrible. But Elmo loves music.
    Mr. Regula. Elmo, if you could be any musical instrument, 
which one would you be?
    Mr. Monster. Boy, that's a hard question. Elmo loves all 
kinds of musical instruments. Maybe a harpsichord, a 
glockenspiel. Wait, wait, Elmo got it--Elmo would be a drum 
set. Because then Elmo could lay down his fat beats like this, 
phhtt, phhhtt, phhtt. Oops. Elmo just got spittle all over the 
House floor. [Laughter.]
    Mr. Regula. That's why we have those white cloths on the 
table today.
    Mr. Monster. It doesn't help.
    Mr. Regula. Elmo, how can Congress help you and all your 
friends?
    Mr. Monster. Boy, you have a really bassy voice. It's nice. 
[Laughter.]
    It's nice. That's not funny. Elmo spent all his life 
listening to and playing and loving music. That's because music 
is in Elmo. Music is Elmo. And Elmo knows that there is music 
in Elmo's friends all over the country. But some of them just 
don't know it yet. They don't know how to find their music.
    So that's why Elmo needs Congress to help. Please, 
Congress, help Elmo's friends find the music inside them. Thank 
you. And Elmo loves you very much.
    Mr. Regula. And my grandchildren love you, too, Elmo.
    Mr. Monster. Ah, get out of here. [Laughter.]
    Mr. Regula. Mr. Cunningham, do you have any questions for 
our witness today?
    Mr. Cunningham. Elmo, you have one person I think I'd be 
remiss, actually, two. Mrs. Bell in San Diego, California, her 
husband started Taco Bell.
    Mr. Monster. Really? You mean that little chihuahua?
    Mr. Cunningham. Yes. It should have been a Jack Russell.
    But they have donated scores of money through their 
foundation to enhance music in the Encinido Union School 
District in San Diego. There's groups like that. We want to 
thank you on this Committee, as well as Mr. Lamond, who's a 
musician himself, for appearing before us.
    Music does have an important part in life. All of us have 
cried at funerals, we get tears in our eyes at the Star 
Spangled Banner. I do believe that it enhances a child's 
education.
    When I mentioned I flew in combat, I listened to music. 
Music has a rhythm to it. And whether you're flying an airplane 
or what, that rhythm helps in the functions. So I think if they 
even did some studies on outside of education, athletes, things 
like that, I think they'd find it very rewarding.
    Thank you, Mr. Lamond.
    Mr. Monster. Thank you very much. From all of us at Sesame 
Street, we thank you. You're very important to us.
    Mr. Regula. Well, thank you for coming, Elmo. You have an 
important message, and I know you have a great friend here in 
Mr. Cunningham.
    Mr. Monster. Yes. Thank you.
    Mr. Regula. Thank you, Mr. Lamond.
    Okay, the Committee is adjourned.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                          ORGANIZATIONAL INDEX

                              ----------                              

                                Part 7A

                                                                   Page
Academy of Radiology Research....................................   620
ADAP Working Group...............................................   476
Alzheimer's Association..........................................  1177
American Academy of Family Physicians............................   456
American Academy of Ophthalmology................................   693
American Association of Dental Research..........................   172
American Council on Education....................................   202
American Dental Association......................................   122
American Dental Education Association............................   190
American Electronics Association.................................   931
American Federation of Medical Research..........................   726
American Foundation for the Blind................................   950
American Heart Association.......................................  1258
American Liver Foundation........................................  1166
American Lung Association of Rhode Island........................  1206
American Psychiatric Nurses Association..........................   406
American Psychological Society...................................   431
American Public Health Association.............................559, 683
American Society of Transplant Surgeons..........................  1070
American Speech-Language Hearing Association.....................   849
American Trauma Society..........................................   806
American Urological Association..................................  1289
Association of Academic Health Centers...........................   826
Association of Maternal and Child Health Programs................   496
Association for Persons in Support Employment....................  1015
Association for Research in Vision and Ophthalmology.............   710
Association of Schools of Allied Health Professions..............   396
Association of Schools of Public Health..........................   520
Association of State and Territorial Health Officials............   543
Association of Tech Act Projects.................................   241
Association of Public Health Laboratories........................   531
Bassett Healthcare...............................................   566
Big Brothers Big Sisters of America..............................   887
Caduceus Outreach Services.......................................   134
Carnegie Hall....................................................  1184
The Carolinas Center for Hospice and End of Life Care............   753
Charlie Foundation to Help Cure Pediatric Epilepsy...............   677
Chronic Fatigue and Immune Immune Dysfunction Syndrome 
  Association....................................................   763
Citizens United for Research in Epilepsy.........................   677
Coalition for Community Schools, Institute for Educational 
  Leadership.....................................................   227
Coalition of Higher Education Assistance Organizations...........   302
Coalition for International Education............................   202
Coalition of Patients Advocates for Skin Disease Research........   700
College on Problems of Drug Dependence...........................   319
Columbia University............................................145, 620
Committee for Education Funding..................................  1097
Communities Advocating Emergency AIDS Relief Coalition...........   506
Concordia College................................................   302
Cooley's Anemia Foundation.......................................  1146
Cornell University, Weill College of Medicine....................   744
Council for Opportunity in Education.............................   215
Crohn's and Colitis Foundation of America........................  1120
CVS Corporation..................................................   329
Developmental Disabilities Research Center Association...........   978
Dystonia Medical Research Foundation.............................  1281
Emory Healthcare.................................................  1082
Emory University, Woodruff Health Sciences Center................  1082
Facioscapulohumeral Muscular Dystrophy (FSH) Society, Inc........  1227
Fairleigh Dickinson University...................................   466
Family Resources.................................................   485
Federation of American Societies for Experimental Biology........   668
Fight Crime: Invest in Kids......................................   895
Friends of National Institute of Child Health and Human 
  Development Coalition..........................................   835
Friends of NIOSH Coalition.......................................   577
Harvard Medical School...........................................   406
HCR Manor Care...................................................   877
Heinz C. Prechter Fund for Manic Depression......................   629
Horizon Health Care, Inc.........................................   415
The Hospices of the National Capital Region......................   753
Houston Works USA................................................   861
Howard University................................................   735
International Foundation for Functional Gastrointestinal 
  Disorders......................................................   816
International Hyperbaric Medical Association.....................   589
International Reading Association................................   905
International Rett Syndrome Association..........................  1129
Jeffrey Modell Foundation........................................   939
Johns Hopkins University.........................................   710
Joslin Diabetes Center...........................................  1215
LIFEbeat, the Music Industry Fights AIDS.........................   424
Lymphoma Research Foundation.....................................  1275
March of Dimes...................................................   966
Maryland Technology Assistance Program...........................   241
Massachusetts General Hospital...................................   717
MCP Hahneman University, HIV/AIDS Medicine Division..............   506
Melwood..........................................................  1015
Michigan Governor's Council on Physical Fitness, Health and 
  Sports.........................................................   440
Mississippi Department of Rehabilitation Services................   991
NAMM: International Music Products Association...................   342
National Alliance for Nutrition and Activity.....................   559
National Area Health Centers Organization........................   447
National Association of Anorexia Nervosa and Associated Disorders  1308
National Association of Chain Drug Stores........................   329
National Association of Community Health Centers, Inc............   415
National Association of Developmental Disabilities Councils......  1003
National Association of Foster Grandparent Program Directors.....  1041
National Association of Rural Mental Health......................   551
National Association of School Nurses............................  1297
National Association of State Student Grant and Aid Programs.....   281
National Association of State Workforce Agencies.................  1050
National Campaign for Hearing Health.............................   112
National Center for Health Education.............................   145
National Coalition for Osteoporosis and Related Bone Diseases....  1107
National Council for Community and Education Partnerships........   259
National Council on Independent Living...........................   386
National Council of Mathematics..................................   913
National Council Social Security Management Association, Inc.....  1061
National Disease Research Interchange............................   744
National Education Knowledge Industry Association................   290
National Hospice and Palliative Care Organization................   753
National Job Corp Association....................................   877
National Kidney Foundation.......................................  1266
National Minority AIDS Council...................................   351
National Network to End Domestic Violence........................   364
National Network for Youth.......................................   485
National Neurofibromatosis Foundation, Inc.......................  1241
National Nutritional Foods Association...........................   309
National Organization of Rehabilitation Partners.................   991
National Youth Employment Coalition..............................   861
Nebraska State Legislature, Public Policy Committee..............  1003
Newport County Community Mental Health Center, Inc...............   156
North American Association for the Study of Obesity..............   639
Ohio Department of Natural Resources, Ohio Civilian Conservation 
  Corps..........................................................   861
Ohio State University, School of Allied Medical Professions......   396
Oklahoma Employment Security Commission..........................  1050
Oregon Health and Sciences University............................   783
Pancreatic Cancer Action Network.................................   773
Pennsylvania Association for Individuals with Disabilities.......  1233
Philadelphia, City of, AIDS Activities Coordinating Office.......   506
Polycystic Kidney Disease Foundation.............................  1156
The Prostatitis Foundation.......................................  1304
The Providence Center............................................   161
Public/Private Ventures..........................................   272
Research Society on Alcoholism...................................   649
Residential Care Consortium......................................  1031
Rust College.....................................................   215
Safeway..........................................................  1015
The San Francisco AIDS Foundation................................   374
Scleroderma Foundation...........................................  1193
Sesame Street....................................................   342
Social Security Administration...................................   991
Society of Gynecologic Oncologists...............................  1250
Society for Investigative Dermatology............................   700
St. Joseph's Indian School of South Dakota.......................   923
Texas Instruments................................................   931
Thomas Jefferson University......................................   700
United Negro College Fund........................................   250
University of Akron..............................................   101
University of Alabama at Birmingham, Rett Center for Excellence..  1129
University of Cincinnati, Department of Communication Sciences 
  and Disorders..................................................   849
University of Cincinnati, School of Medicine.....................   726
University Hygienic Laboratory...................................   531
University of Iowa...............................................   577
University of Iowa College of Dentistry..........................   190
University of Missouri-St. Louis, College of Education...........  1304
University of North Carolina School of Dentistry, Center for Oral 
  and Systemic Diseases..........................................   172
University of Texas, Houston School of Public Health.............   520
University of Vermont............................................   319
ViA Company......................................................  1015
Vocational Rehabilitation Services...............................   991
Wilberforce University...........................................   250
Women's Health Research Coalition................................   735
Yale University School of Medicine, Department of Psychiatry.....   649

                                <greek-d>

</pre></body></html>
